<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-178]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-178

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                            Commerce, Justice, Science,

                                                   and Related Agencies

                                                         Appropriations

                                                       Fiscal Year 2016



                                          114th CONGRESS, FIRST SESSION                                




 
                                                              H.R. 2578

BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES
DEPARTMENT OF COMMERCE--OFFICE OF THE SECRETARY
DEPARTMENT OF JUSTICE--OFFICE OF THE ATTORNEY GENERAL
DRUG ENFORCEMENT ADMINISTRATION
FEDERAL BUREAU OF INVESTIGATION
NATIONAL AERONAUTICS AND SPACE ADMINISTRATION
NONDEPARTMENTAL WITNESSES
UNITED STATES MARSHALS SERVICE
































                                                        S. Hrg. 114-178

  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2016

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2578

   AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENTS OF COMMERCE AND 
 JUSTICE, AND SCIENCE, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING 
               SEPTEMBER 30, 2016, AND FOR OTHER PURPOSES

                               __________

          Bureau of Alcohol, Tobacco, Firearms and Explosives
            Department of Commerce--Office of the Secretary
         Department of Justice--Office of the Attorney General
                    Drug Enforcement Administration
                    Federal Bureau of Investigation
             National Aeronautics and Space Administration
                       Nondepartmental Witnesses
                     United States Marshals Service

                               __________

         Printed for the use of the Committee on Appropriations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations
                             __________

                        U.S. GOVERNMENT PUBLISHING OFFICE 

93-106 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
























                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman

MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland, 
RICHARD C. SHELBY, Alabama               Vice Chairwoman
LAMAR ALEXANDER, Tennessee           PATRICK J. LEAHY, Vermont
SUSAN M. COLLINS, Maine              PATTY MURRAY, Washington
LISA MURKOWSKI, Alaska               DIANNE FEINSTEIN, California
LINDSEY GRAHAM, South Carolina       RICHARD J. DURBIN, Illinois
MARK KIRK, Illinois                  JACK REED, Rhode Island
ROY BLUNT, Missouri                  JON TESTER, Montana
JERRY MORAN, Kansas                  TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            JEANNE SHAHEEN, New Hampshire
JOHN BOOZMAN, Arkansas               JEFF MERKLEY, Oregon
SHELLEY MOORE CAPITO, West Virginia  CHRISTOPHER A. COONS, Delaware
BILL CASSIDY, Louisiana              BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
STEVE DAINES, Montana                CHRIS MURPHY, Connecticut

                      Bruce Evans, Staff Director
              Charles E. Kieffer, Minority Staff Director

                                 ------                                

    Subcommittee on Commerce, Justice, Science, and Related Agencies

                  RICHARD C. SHELBY, Alabama, Chairman
LAMAR ALEXANDER, Tennessee           BARBARA A. MIKULSKI, Maryland, 
LISA MURKOWSKI, Alaska                   Ranking Member
SUSAN M. COLLINS, Maine              PATRICK J. LEAHY, Vermont
LINDSEY GRAHAM, South Carolina       DIANNE FEINSTEIN, California
MARK KIRK, Illinois                  JACK REED, Rhode Island
JOHN BOOZMAN, Arkansas               JEANNE SHAHEEN, New Hampshire
SHELLEY MOORE CAPITO, West Virginia  CHRISTOPHER A. COONS, Delaware
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
THAD COCHRAN, Mississippi, (ex       CHRIS MURPHY, Connecticut
    officio)

                           Professional Staff

                             Jeremy Weirich
                              Allen Cutler
                             Kolo Rathburn
                              Steven Wall
                       Jean Toal Eisen (Minority)
                       Jennifer Eskra (Minority)
                       Molly O'Rourke (Minority)

                         Administrative Support

                            Hayley Alexander
                        Jordan Stone (Minority)
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              

                                hearings

                      Thursday, February 26, 2015

                                                                   Page

Department of Commerce--Office of the Secretary..................     1

                        Thursday, March 12, 2015

Bureau of Alcohol, Tobacco, Firearms and Explosives..............    89
Drug Enforcement Administration..................................    83
Federal Bureau of Investigation..................................    65
United States Marshals Service...................................    77

                        Thursday, April 16, 2015

National Aeronautics and Space Administration....................   159

                         Thursday, May 7, 2015

Department of Justice--Office of the Attorney General............   187
                              ----------                              

                              back matter

List of Witnesses, Communications, and Prepared Statements.......   307

Nondepartmental Witnesses........................................   253

Subject Index:
    Bureau of Alcohol, Tobacco, Firearms and Explosives..........   309
    Department of Commerce--Office of the Secretary..............   309
    Department of Justice--Office of the Attorney General........   311
    Drug Enforcement Administration..............................   313
    Federal Bureau of Investigation..............................   314
    National Aeronautics and Space Administration................   315
    United States Marshals Service...............................   316
 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2016

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard Shelby (chairman) 
presiding.
    Present: Senators Shelby, Collins, Kirk, Capito, Lankford, 
Mikulski, Shaheen, Coons, Baldwin, and Murphy.

                      U.S. DEPARTMENT OF COMMERCE

                        Office of the Secretary

STATEMENT OF HON. PENNY PRITZKER, SECRETARY


             opening statement of senator richard c. shelby


    Senator Shelby. The subcommittee will come to order. Today, 
I want to welcome Secretary Pritzker, who will testify about 
the Department of Commerce's 2016 budget request. This 
subcommittee has had a productive relationship with the 
Commerce Department under Secretary Pritzker's tenure, and we 
appreciate very much her being here today.
    The Department of Commerce is responsible for a variety of 
activities critical to our Nation's well-being, including: 
weather forecasting, economic development, fisheries 
management, cybersecurity standards, and trade enforcement, 
among others. Few departments have such potential to directly 
impact the strength and sustainability of our communities and 
local businesses back home.
    The Commerce Department's request for fiscal year 2016 
totals $9.8 billion, which is $1.3 billion, or 16 percent, 
above the 2015 enacted amount of $8.5 billion. This request 
represents a significant increase in spending at a time when 
America is still living within a constrained budget. The 
Department's request proposes increasing funding for several 
important programs that are already expensive, including the 
build up to the 2020 Decennial Census and efforts to launch the 
next generation of weather satellites. These large increases 
are coupled with substantial funding proposals for new 
initiatives, which will continue to add financial pressure on 
existing core programs and operations.
    Such a disjointed request, I believe, ignores current 
fiscal realities and raises immediate questions about the 
administration's priorities for establishing a balanced budget 
within the Commerce Department. Strict oversight and fiscal 
responsibility are essential for the Department's success in 
2016.
    One of the growing pressures on the Department's budget is 
the anticipated budgetary and personnel build up to execute the 
2020 Census. And while the Department is working to the make 
the 2020 Census as efficient and cost-effective as possible, 
any delay in testing and activities now will have very costly 
ramifications in the future. The Department, I believe, simply 
cannot afford to have another $1 billion setback similar to 
that experienced in 2010.
    Madam Secretary, I believe if you're not watchful of plans 
and schedules with the Census today, important programs 
throughout the Department could suffer in order to keep the 
Census on track.
    When it comes to accountability, ensuring the timely 
delivery, launch, and operation of weather satellites remains a 
primary concern for this subcommittee. According to NOAA's own 
budget request, polar orbiting satellites provide the primary 
input, up to 85 percent, of the data needed for NOAA's 
numerical weather prediction models, the underpinnings of high 
impact weather forecasts. Eighty-five percent, I think, is a 
big deal.
    Despite the continued support and full funding provided by 
the subcommittee to NOAA for these satellites, recent reports 
by GAO and the Department of Commerce Inspector General suggest 
that a gap in polar satellite data is likely to occur. GAO 
continues to predict a gap that could last anywhere from 17 to 
53 months, while NOAA and NASA say there is only a potential of 
a 3 month gap. I'm disappointed in the lack of a specific plan 
to address the potential near-term data gap that could occur 
this calendar year.
    Madam Secretary, this mixed message on the potential gap 
deeply troubles me. It's clear that the loss of this data would 
negatively impact the capability of our Nation's weather 
forecasters, potentially putting lives and property in harm's 
way. This gap debate and incongruent information does little to 
dissuade my concerns or that of the American people.
    In addition, I'm concerned about the Department's 2016 
request of $380 million for a proposal to build a follow-on 
polar satellite program after the Joint Polar Satellite System. 
The 2016 request is only an initial down payment for this new 
satellite program and lacks specific details on the overall 
price tag, which could cost several billion dollars. The 
subcommittee will need further information from the Department 
and NOAA on this new satellite system to determine what exactly 
the taxpayers are being asked to invest in beyond 2016.
    Finally, I want to touch on the Department's role in 
economic development. For fiscal year 2015, I expressed concern 
about the rollout of the Investing in Manufacturing Communities 
program. This program gives selected communities a seal of 
approval and priority access to Federal resources, resulting in 
the Department picking winners and losers. This is a concern 
that a lot of us have.
    I'm similarly troubled by a new initiative proposed in the 
2016 request that would establish two new institutes for 
manufacturing and innovation. The question is, do we need them? 
Last year's omnibus spending bill included authorization to 
build out a network of these manufacturing institutes. And 
while I support efforts to drive innovation and spur private 
sector growth, I'm concerned that institutes may benefit only 
certain communities while disadvantaging others. I believe this 
manufacturing initiative will create a fiscal commitment that 
we might be unable to meet.
    The administration proposes $1.9 billion in mandatory 
spending in 2017 to fund these manufacturing institutes, but 
these funds have yet to be authorized. With no mandatory 
funding available or identified, the administration proposes 
spending $150 million of discretionary funding in fiscal 2016. 
This is discretionary funding that the Department simply can't 
afford. I'm concerned that funding new initiatives like this 
will come at a cost to Commerce's core functions. To be 
financially successful, I believe the Commerce Department's 
role in this initiative should be limited in scope, focused on 
its core mission of economic development, and assisting the 
most economically distressed communities, while being mindful 
of taxpayers' dollars.
    I look forward, Madam Secretary, to hearing your views on 
these matters and working with our subcommittee to address the 
concerns in the 2016 bill.
    Now, I want to recognize Senator Mikulski, the former 
Chairwoman of the subcommittee and my friend and colleague, for 
any remarks that she might want to make.


                statement of senator barbara a. mikulski


    Senator Mikulski. Thank you very much, Chairman Shelby, and 
I want to congratulate you on your chairmanship and once again, 
reaffirm our bipartisan working relationship on what's going to 
be good for our country. And we know today that there are some 
new members on our subcommittee from both Wisconsin and 
Oklahoma, and it's wonderful to welcome you to the 
subcommittee.
    Secretary Pritzker, of course, is the Secretary of 
Commerce, which is a hybrid agency that does deal with 
everything from fish, which is so crucial to our mutual 
economies--especially Senator Collins and myself and I know 
Alabama--to technology, to the prediction of weather, which we 
can see we're highly dependent upon.
    But her mantra and her mission has been the phrase that 
America is open for business. And we look forward to hearing 
from her how she feels the budget request from the President 
will enable the Department of Commerce not only make wise use 
of taxpayers' dollars, but how this will promote our economy 
and promote job growth, both today and tomorrow. So we look 
forward to hearing how this ``Open for Business'' has actually 
worked in the real world and how it will do this. We're not 
here to fund Government programs. We're here to fund American 
outcomes. And those American outcomes are to create American 
jobs, promoting economic growth, particularly in manufacturing, 
which so many of our communities have been hard hit, an 
increase in exports, and also to make sure that as we do R&D, 
that this is leading, really to markets.
    I am thrilled, particularly in my own home State, where we 
have so many Nobel Prize winners. But I want us to not only win 
the Nobel Prizes, but I want us to win the markets. So we're 
going to look forward to what does the money mean. And of 
course, protecting America's jobs, and not only new trade laws, 
but enforcing the existing ones, and safeguarding our 
intellectual property. We here in America are inventors. We are 
discoverers. But I believe that when you invent something, you 
should own it, and it should not be stolen from you, and we 
need that.
    The other is to be able to protect our people, and whether 
that's accurate weather forecast--because again, Senator 
Collins and I have talked about how we've had firefighters 
rescuing people and nurses with snowmobiles. We have people out 
there now on our waterways in cold and frozen waters, either 
worrying about where our fishermen are or promoting commerce. 
We need accurate weather, whether you're Oklahoma or Wisconsin 
worrying about a tornado or--we need this. So it is the weather 
forecasting.
    We're particularly interested in the Commerce Department's 
role in cyber. When we think of the word cyber, we immediately 
think of the defense of our Nation. We think of the Department 
of Defense, the Cyber Command, the National Security Agency. We 
certainly are thinking about the responsibilities of the 
Homeland Security that could be facing a shutdown. But what is 
the role of cyber at a Commerce Department? And quite frankly, 
you've been hacked yourself, so we want to know that.
    The other is that we appreciate your work in reform. Going 
back to really Secretary Gutierrez, he and I worked as 
reformers together on things like, especially, the Census, 
which was of great concern. We worked together on the techno 
boondoggle of the NOAA satellites. We need to hear how you've 
made progress and how we cannot have boondoggles again. And I 
know you've carried on the spirit of reform that was created 
under Secretary Gutierrez, Becky (Acting Secretary Rebecca 
Blank) continued it, and you have, because with an 
approximately $9 billion budget request, we've got to make sure 
we use the money that we have well, and leverage that to make 
sure that America is not only open for business, but stays in 
business.
    So I look forward to your testimony and working with you to 
achieve those goals.
    Senator Shelby. Secretary Pritzker, your written testimony 
will be made part of the record. You can proceed as you wish. 
Welcome, again, to the subcommittee.


                summary statement of hon. penny pritzker


    Secretary Pritzker. Thank you very much, Chairman Shelby, 
Vice Chairman Mikulski, and members of the subcommittee. Thank 
you for the opportunity to lay out President Obama's fiscal 
year 2016 Budget for the Department of Commerce.
    This budget advances the core tenets of the Department's 
mission, to develop and implement policies that support 
economic growth, to help America's businesses expand and 
thrive, both at home and around the world, and to ensure that 
the country remains competitive, stays at the forefront of 
innovation, and continues to lead the global economy in the 
21st century. To support this mission, the fiscal year 2016 
budget provides $9.8 billion of discretionary funding to 
reinforce the priorities of the Department's strategy, our Open 
for Business agenda, by promoting U.S. exports, trade, and 
investment, by spurring high tech manufacturing and innovation, 
by unleashing more data for economic benefit, by gathering and 
acting on environmental intelligence, and by making our 
agency's operations more efficient and more effective.
    Today, I want to highlight some key initiatives supported 
by this budget. First, the Commerce Department collects, 
analyzes, disseminates data that informs everyday business 
decisions. In particular, the Census Bureau creates data 
products used by businesses, policy makers, and the public. The 
fiscal year 2016 budget reflects the fact that this is a 
critical year for preparation of the 2020 Census as we test the 
use of administrative records, reengineered field operations, 
and Internet data collection, as we create new systems to 
improve coverage and quality of the Census, and as we develop 
plans for the fiscal years 2017 and 2018 integrated tests of 
the entire process, all of this combined at a potential savings 
of $5 billion to taxpayers. But to achieve these savings, we 
must invest today.
    Another part of our agenda is to help communities and 
businesses prepare for and prosper in a changing environment. 
The National Oceanic and Atmospheric Administration's budget 
will enhance our ability to meet this goal through two 
investments. First, the budget proposes $2.4 billion to fully 
fund the next generation of weather and environmental 
satellites, which provide our communities with forecasts that 
protect lives, property, and the economy. Funding the 
development and launch of future satellites is absolutely 
critical to reduce the risk of a potential gap in weather data 
in 2017 and beyond.
    Second, the budget requests $147 million to develop a high 
endurance, long range ocean survey vessel. Our fleet is in 
desperate need of renewal. Making this investment now will 
enable NOAA to take advantage of design work previously done by 
the Navy and of openings in the shipyard's schedule, both of 
which will save taxpayers millions of dollars in acquisition 
and design costs. Time is not our ally. We need to replace 
eight ships in the next 12 years, and this ocean survey vessel 
is just the first.
    For generations, manufacturing has been a key to 
innovation, a source of middle class jobs, and a pillar of our 
global leadership. Over the last 5 years, America's 
manufacturers have made a comeback, adapting, innovating, and 
adding more than 870,000 jobs, growing for the first time in 
decades. Recognizing the importance of manufacturing to our 
competitiveness, you passed the Revitalize American 
Manufacturing and Innovation Act, which calls for the expansion 
of the national network of manufacturing innovation, or NNMI. 
This initiative brings together industry, university 
researchers, community colleges, NGOs, and government to 
accelerate the development of cutting-edge manufacturing 
technologies. From the start, the competition among communities 
to host and to provide matching funds for these advanced 
manufacturing sites has been fierce. Our fiscal year 2016 
budget requests funding to oversee and coordinate current and 
future institutes and to support two institutes led by the 
Commerce Department, which would focus on lab to market 
opportunities that the private sector industry determines have 
the most potential.
    This budget will also provide the International Trade 
Administration with the resources needed to advance President 
Obama's robust trade agenda. These investments will enable our 
export assistant centers and foreign commercial service to help 
small, medium, and large size businesses expand their exports 
to new markets and to ensure that American made products make 
their way to the 95 percent of customers who live outside of 
the United States.
    Finally, our budget will allow us to continue the 
renovation of our building's headquarters here in Washington, 
D.C. This multi-year project is designed to upgrade our 80-year 
old facility's heating, cooling, plumbing, and electrical 
systems. The $24 million requested by our department will 
enable us to make better use of our space, and ultimately 
reduce the amount of funds required to house our employees.
    These priorities only scratch the surface of our 
department's work to support U.S. businesses, U.S. communities, 
and our economy. So I look forward to answering your questions 
today and to partnering with this subcommittee to keep America 
open for business. Thank you.
    [The statement follows:]
               Prepared Statement of Hon. Penny Pritzker
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee, thank you for this opportunity to discuss with you 
President Obama's fiscal year 2016 budget request for the U.S. 
Department of Commerce. The investments included in the fiscal year 
2016 budget request build upon the important investments you enacted in 
fiscal year 2015 and I am grateful for your support.
    The Department plays a critical role in promoting U.S. economic 
growth and providing vital scientific and environmental information. To 
support this mission across its diverse bureaus, the budget provides 
$9.8 billion in discretionary funding for Commerce. This funding level 
will enable key investments in areas such as promotion of exports and 
foreign investment; development of weather satellites; wireless and 
broadband access; and research and development to support long-term 
economic growth. At the same time, efficiency gains, such as 
streamlining operations in the Census Bureau and reductions in lower-
priority activities enable Commerce to reduce costs and operate more 
efficiently.
    The fiscal year 2016 budget request reflects and advances the 
priorities of the Department's ``Open for Business'' Agenda. It 
maintains our role as the voice of business in the Obama administration 
by making critical investments in areas that will grow our economy and 
create good American jobs. This budget prioritizes promoting U.S. trade 
and investment, spurring high-tech manufacturing and innovation, 
unleashing more of our data, and gathering and acting on environmental 
intelligence, while also streamlining operations to help businesses 
grow. We are committed to working with Congress to achieve these goals 
so we can continue to build on our economic momentum and keep America 
more competitive in the global economy.
    The fiscal year 2016 Department of Commerce budget includes key 
investments in the following areas:
                strengthening u.s. trade and investment
    Increasing trade and investment is critical to growing our economy. 
Exports have driven nearly one-third of economic growth since 2009 and 
support 11.3 million jobs. Ninety-six percent of companies that export 
are Small and Medium Enterprises (SMEs). Today, 95 percent of potential 
customers are outside our borders and growing the number of export-
related jobs, which pay up to 18 percent more on average, will require 
expanding our ability to reach these foreign markets.
    The budget includes $497 million for the International Trade 
Administration (ITA) to strengthen the competitiveness of U.S. 
industry, promote job-creating trade and investment, and ensure fair 
trade through the rigorous enforcement of our trade laws and 
agreements. Funding for ITA includes $15 million to accelerate 
operations of the Interagency Trade Enforcement Center (ITEC), a multi-
agency effort to address unfair trade practices and barriers that 
impede U.S. exports.
    The budget also provides $20 million within ITA to further 
strengthen SelectUSA, which is the government-wide effort to promote 
and facilitate business investment into the United States. From a vast 
domestic market, to a transparent legal system, to the most innovative 
companies in the world, America is the place for business. We are very 
grateful to this subcommittee for its past support for this important 
program. Building upon the successes of the inaugural SelectUSA Summit 
in 2013, the Department will host its second SelectUSA Investment 
Summit in March 2015. Other funds will support ITA's efforts to make it 
easier for U.S. companies of all sizes to reach consumers who live 
beyond our borders, including program and policy improvements to 
provide exporters more tailored assistance and to strengthen 
partnerships at the State and local level that support export promotion 
and foreign direct investment attraction strategies.
    The President's fiscal year 2016 budget requests $115 million for 
the Bureau of Industry and Security (BIS). Following the successful 
realignment of significant license application responsibilities from 
the Department of State to BIS, our focus on capacity-building now 
shifts from export administration to export enforcement. This level of 
funding will allow us to increase the number of enforcement agents 
within BIS to ensure enforcement of export controls and compliance-
related activities to ensure that exporters and re-exporters are 
following our export control regulations.
    If we are to ensure that we can export U.S. goods more quickly, 
while also ensuring that sensitive technologies do not end up in the 
wrong hands, we must be able to educate exporters and re-exporters 
about our regulations and their responsibilities, and we must put 
sufficient teeth into our enforcement efforts. Strong enforcement 
levels the playing field for exporters, while lax enforcement threatens 
our national security and permits violators to flourish at the expense 
of the compliant.
    To continue supporting the national growth of minority-owned U.S. 
businesses, the budget includes $30 million for the Minority Business 
Development Agency. Minority owned firms make a significant and 
valuable contribution to our economy and export at a higher rate 
compared to all U.S. firms. This investment will promote further growth 
and global competitiveness of our Nation's minority-owned businesses.
            spurring innovation, growth and competitiveness
    Strengthening U.S. Manufacturing: As global competition continues 
to increase, the United States must find ways to foster the innovation 
that produces economic growth and creates well-paying middle-class 
jobs. A national effort to create institutes focused on manufacturing 
innovation will accelerate development and adoption of cutting-edge 
manufacturing technologies for new products that can compete in 
international markets. The National Network for Manufacturing 
Innovation (NNMI) provides a manufacturing research infrastructure 
where U.S. industry and academia collaborate to solve industry-relevant 
problems. To date, five institutes, funded by the Department of Defense 
and the Department of Energy, have been launched, involving more than 
300 companies and universities and attracting $480 million in private 
funding in the institutes. NNMI will keep America on the front-lines of 
discovery, which will result in our businesses, our manufacturers, and 
the American economy becoming more competitive in the 21st century 
global economy.
    The budget supports the President's vision of creating a full 
national network, expanding NNMI with up to 45 manufacturing innovation 
institutes across the Nation during the next 10 years. In total, the 
budget includes discretionary funding for seven new institutes in 
fiscal year 2016, including $140 million for the first two Commerce-led 
institutes. The budget also includes an additional $1.9 billion 
mandatory proposal to fulfill the President's vision. The budget 
includes an additional $10 million for the National Institute of 
Standards and Technology (NIST) to coordinate the activities of the 
current and future institutes, leveraging the authorities in the 
bipartisan Revitalize American Manufacturing and Innovation Act (RAMI), 
enacted as part of the Consolidated and Further Continuing 
Appropriations Act, 2015, thanks to your support.
    The budget also provides $141 million for NIST's Hollings 
Manufacturing Extension Partnership (MEP), which will continue to focus 
on expanding technology and supply chain capabilities to support 
technology adoption by smaller manufacturers to improve their 
competitiveness.
    Supporting 21st Century Economic Development: Economic Development 
creates the conditions for economic growth and improved quality of life 
by expanding the capacity of individuals, firms, and communities to 
maximize the use of their talents and skills to support innovation, 
lower transaction costs, and responsibly produce and trade valuable 
goods and services. The budget invests $273 million for the Economic 
Development Administration (EDA) to support innovative economic 
development planning, regional capacity building, and capital projects. 
Within this amount, $25 million is included for the Regional Innovation 
Strategies Program to promote economic development projects that spur 
entrepreneurship and innovation at the regional level. The EDA budget 
also includes $39 million for Partnership Planning to support local 
organizations with their long-term economic development planning 
efforts and outreach. Additionally, $53 million is provided for 
Economic Adjustment Assistance for critical investments such as 
economic diversification planning, and implementation, technical 
assistance, and access to business start-up facilities and equipment.
    Supporting the Digital Economy: The fiscal year 2016 budget request 
demonstrates the administration's continued commitment to broadband 
telecommunications as a driver of economic development, job creation, 
technological innovation, and enhanced public safety. The investment of 
$49.2 million will allow the National Telecommunications and 
Information Administration to develop, implement, and advocate policies 
to help meet challenges related to the digital economy, Internet 
openness, privacy, and security. The President's broadband vision of 
freeing up 500 MHz of Federal spectrum, promoting broadband competition 
in communities throughout the country, and connecting over 99 percent 
of schools to high-speed broadband connections through the ConnectED 
initiative will create thousands of quality jobs and ensure that 
students have access to the best educational tools available.
    The budget supports implementation of telecommunications provisions 
enacted in the Middle Class Tax Relief and Job Creation Act of 2012, 
which are expected to reduce the deficit by more than $40 billion over 
the next 10 years through spectrum auctions. These auctions will 
increase commercial access to wireless broadband spectrum while fully 
funding an interoperable public safety and first responder broadband 
network.
    Beyond our efforts to promote innovation, the budget highlights the 
administration's commitment to cybersecurity by supporting NIST's 
efforts to work with industry on implementing the Cybersecurity 
Framework of standards and best practices, as well as sustaining 
initiatives associated with cybersecurity automation, cybersecurity 
information, and the National Strategy for Trusted Identities in 
Cyberspace (NSTIC).
    Spurring Innovation for American Businesses: Through implementation 
of the America Invents Act, the U.S. Patent and Trademark Office 
(USPTO) continues to make it easier for American entrepreneurs and 
businesses to bring their inventions to the marketplace sooner, 
converting ideas into new products and new jobs. The budget supports a 
program level of $3.5 billion for USPTO, a level that would allow USPTO 
to fund operations and to further implement administrative actions 
proposed by the President's Patent Task Force.
    Fueling a Data-Driven Economy: Data is the fuel that powers the 
21st century economy, and Commerce Department data touches every 
American and informs business decisions every day. The budget will 
support data-related efforts ranging from our preparations for the 2020 
census to unleashing more NOAA data through public-private 
partnerships.
    Improving Federal Statistical Measures: The budget provides $1.5 
billion to provide critical support for the U.S. Census Bureau to 
research, test, and implement innovative design decisions made at the 
end of 2015. Funding in fiscal year 2016 supports the rapid system and 
operational development necessary to achieve the goal of conducting a 
census at a lower cost per household than in the 2010 census, 
potentially saving up to $5 billion compared to the costs of repeating 
the 2010 census design in 2020. The budget also includes a planned 
cyclical increase for the Economic Census. The budget includes $10 
million in additional funding for the Census Bureau to lay the ground 
for acquiring and processing administrative data sets in an 
administrative records clearinghouse that will benefit program 
evaluation and statistical work across the Government as well as 
amongst private researchers. The Bureau will accomplish this by 
building on its existing strengths to develop a more comprehensive 
infrastructure for linking, sharing, and analyzing key datasets.
    Gathering and Acting on Environmental Intelligence: The 
Department's environment agenda aims to help communities and businesses 
prepare for and prosper in a changing environment through the models, 
assessments, forecasts, and tools generated based on data from our 
network of satellites, ships, and world-wide sensors.
    The budget provides $6.0 billion to advance the National Oceanic 
and Atmospheric Administration's (NOAA) ability to understand and 
anticipate changes in the Earth's environment, improve society's 
ability to make scientifically informed decisions, deliver vital 
services to the economy and public safety, and conserve and manage 
ocean and coastal ecosystems and resources. The budget invests in 
NOAA's observational infrastructure, including $2.4 billion to fully 
fund NOAA's weather and space weather satellite programs. This includes 
$380 million for the Polar Follow-On satellite program, allowing for a 
launch schedule that is necessary to improve the robustness of the 
satellite systems that provide critical weather data.
    The Department continues its commitment to support a Weather-Ready 
Nation, and evolve the National Weather Service to become a more agile 
decision support organization capable of providing more accurate and 
more timely weather forecasts. The United States has the greatest 
number and greatest variety of severe weather events of any country on 
the planet. The Budget invests $1.1 billion for the National Weather 
Service, including funding increases for critical infrastructure.
    The President's budget makes investments to fill information needs 
in observations, surveys, and fisheries management, including $147 
million for a new ocean survey vessel. The budget also provides $50 
million for an expanded Regional Coastal Resilience Grant Program, 
which will help reduce the risks and impacts associated with extreme 
weather events and changing ocean conditions and uses, along with $30 
million for ocean acidification research to improve understanding of 
its impacts and support tool development and adaptive strategies for 
affected industries and stakeholders. Additionally, the budget requests 
an increase of $19 million for expanded Endangered Species and Magnuson 
Stevens Act consultation capacity that will reduce permitting 
timeframes.
    Streamlining Operations: To further the President's goals of 
improving customer service and enhancing the efficiency of Government, 
the budget includes $6 million to support a Commerce Digital Services 
team to adopt private sector best practices and recruit talent to 
improve Commerce's information technology systems. This team will be 
responsible for driving the efficiency and effectiveness of the 
Agency's highest impact, client focused information technology systems. 
In addition, the budget includes $3 million to support the development 
of an ``Idea Lab,'' which will house a team dedicated to incubating and 
investing in innovative approaches to more efficiently and effectively 
meet Agency strategic goals and objectives through greater employee 
engagement.
                               conclusion
    With the fiscal year 2016 budget, the Department seeks to advance 
the core tenets of its mission: to create the conditions for economic 
growth; help U.S. businesses expand; and to ensure that America stays 
competitive, stays ahead, and continues to lead the global economy in 
the 21st century. The smart investments proposed in President's fiscal 
year 2016 budget will support a globally competitive economy by 
promoting trade and investment, spurring innovation, fueling a data-
driven economy, and gathering and acting on environmental intelligence. 
With this budget, I am confident that we will keep America ``Open for 
Business.'' I look forward to working with the subcommittee to achieve 
these important goals.

                   POLAR FOLLOW-ON SATELLITE PROGRAM

    Senator Shelby. Thank you, Madam Secretary. I'll try to get 
to the point on these. The Polar Follow-on mission, how long 
will this new Polar Follow-on satellite program last beyond 
2016?
    Secretary Pritzker. Well, the Polar Follow-on program is 
one that has, I think, actually quite a long life, and I can 
get you specifically, Senator--
    Senator Shelby. Will you furnish that for the record?
    Secretary Pritzker. What?
    Senator Shelby. Would you furnish that for the record?
    Secretary Pritzker. Yes, I will, sir.
    [The information follows:]

    Question. Polar Follow-on.--The Polar Follow-on mission, how long 
will this new Polar Follow-on satellite program last beyond 2016? Will 
you furnish that for the record?
    Answer. The Polar Follow-on (PFO) implements a long term strategy 
to build a robust \1\ architecture that will extend operations of the 
overall polar satellite system to as far as fiscal year 2038. PFO is 
essential to maintaining continuity of polar observations, ensuring 
NOAA continues to provide accurate and timely weather forecasts and 
warnings beyond JPSS-2.
    NOAA is focused on achieving polar-orbiting weather constellation 
robustness. The fiscal year 2016 President's budget request includes 
$380 million for PFO activities designed to achieve robustness as early 
as fiscal year 2023 and ensure continuity of NOAA's polar weather 
observations. There are three activities funded within PFO:
  --initiate development of PFO/JPSS-3 to meet a launch readiness date 
        (LRD) in the second quarter of fiscal year 2024, and PFO/JPSS-4 
        development to meet a LRD in the third quarter of fiscal year 
        2026.
  --provide the option to accelerate PFO/JPSS-3 as a contingency 
        mission with critical sounders Advanced Technology Microwave 
        Sounder (ATMS) and Cross-track Infrared Sounder (CrIS) only.
  --invest in development of an advanced technology Earth Observing 
        Nanosatellite-Microwave (EON-MW).
    NOAA will manage the PFO as an integrated single program with JPSS 
to incorporate efficiencies planned and implemented under JPSS. 
Authorizing PFO in fiscal year 2016 will allow NOAA to take advantage 
of the ongoing JPSS-2 instrument and spacecraft bus development to 
reduce schedule, risk and life cycle costs for the follow-on missions 
and implement a simultaneous instrument block buy for PFO/JPSS-3 and 
PFO/JPSS-4 instruments for the most efficient acquisition strategy and 
production cadence.
---------------------------------------------------------------------------
    \1\ The definition of a ``robust'' architecture has two 
characteristics: (1) two failures must occur to create a gap in data 
from Advanced Technology Microwave Sounder (ATMS) or Cross-track 
Infrared Sounder (CrIS) instruments and (2) the ability exists to 
restore a two-failure condition within 1 year of an on-orbit failure.

    Secretary Pritzker. The Polar Follow-on is a very important 
program for us, and thank you for the support that we've 
received in the past for this program.
    One of the things that is important to know is that our 
satellite program, years ago, was not so well run. Today, we 
run a program that is on time and on budget. GOES-R Series 
program and our JPSS program are on schedule and on budget. But 
this potential for a gap that you talked about in your opening 
statement is one that we're very concerned about. The 
opportunity to do the Polar Follow-on is to allow us to use 
instruments that would be used for our JPSS-3 and -4 
satellites. We would order them today, and if, God forbid, 
there's any kind of disruption in the satellite program that we 
have coming along, we can use those instruments for the 
disruption, which will help address the gap, but if there's no 
problem, then we will use those instruments on JPSS-3 and -4.
    So this is a prudent way to manage our risk of a gap, but 
also, if there's no problem, then to use those instruments on 
our future satellites.
    Senator Shelby. What's the overall cost of the program, and 
do you have some projections on that? I would think it would 
be----
    Secretary Pritzker. I can get you those numbers. I know the 
request this hour is $380 million, but I don't know the--I'll 
get you the precise numbers.
    [The information follows:]

    Question. Polar Follow-on.--What's the overall cost of the program, 
and do you have some projections on that?
    Answer. NOAA has an initial life cycle cost (LCC) estimate for the 
PFO of $8.2 billion. NOAA will continue to refine the LCC estimate 
through 2016.

    Senator Shelby. But generally, these kind of programs cost 
billions of dollars.
    Secretary Pritzker. Yeah. I'm sorry, Senator?
    Senator Shelby. I said, these programs cost billions of 
dollars.
    Secretary Pritzker. Right. What we've been doing is trying 
to manage, right at this moment, how to deal with the gap, but 
also not waste money, so that if there is no problem, then the 
monies that we spend today, the $380 million, can be used in 
future satellites. But I'll get you the--we're working right 
now on the total cost of those programs.
    Senator Shelby. Some specifics. The JPSS currently has an 
overall cost cap of $11.3 billion. How is this follow-on 
program, how does it differ from the JPSS and not just an 
extension thereof?
    Secretary Pritzker. No. It's included in the JPSS program, 
I believe.
    Senator Shelby. Ma'am.
    Secretary Pritzker. I believe it's part of the JPSS 
program.
    Senator Shelby. So it's an extension of it in a sense. 
Would you call it that, if it's part of?
    Secretary Pritzker. I don't think it's an extension. I 
think it's actually within the program you're discussing.

             NATIONAL NETWORK FOR MANUFACTURING INNOVATION

    Senator Shelby. On the Network for Manufacturing 
Innovation, given our fiscal constraints, how would you balance 
the funding request for this new initiative with that of 
necessary funding for core programs, such as the Decennial 
Census? And how would the Department go about selecting the 
locations of these new institutes that you propose, and what 
assurances can you make to this subcommittee that the process 
would be transparent and fair?
    Secretary Pritzker. Well, Senator, first of all, running a 
transparent and fair process is something that we, at the 
Department, are committed to in all of our programs.
    In terms of ensuring that the monies would be spent wisely, 
first of all, the National Network of Manufacturing Innovation, 
I think, is one of the best crafted programs that we have for 
innovation development, because it requires a partnership 
between the private sector, universities, the supply chain, 
community colleges, local government, and the Federal 
Government. And I've gone to visit the institute in Chicago 
that's devoted to digital manufacturing, and what you learn is, 
is that for these programs to be able to be successful, it 
takes the best of all of these stakeholders in order to bring 
the best technologies.
    What differentiates the two institutes that we're proposing 
for the Department of Commerce to run is that the technologies 
that we would promote are technologies that would be determined 
by the private sector, as opposed to determined by the Federal 
Government. And the Department of Defense's and Department of 
Energy's Advance Manufacturing Institutes, those technologies 
have been driven by the needs of those departments.
    The other thing to remember is is that our proposed budget 
of $150 million is made up of really three components, two 
institutes that would be funded each at $20 million a year in 
year one, $20 million a year in year two, and then $10 million 
a year each for years three through five, and then $10 million 
to run the network. And one of the things that I think is 
extremely important is that we actually put together an effort 
to support this as a network.
    Your point about making sure that there are not communities 
left out of these technologies, one of the things that we've 
seen as these institutes have continued to be competed, is that 
more and more universities are reaching out to partners in 
different parts of the country, and also the companies that are 
participating are from all over the country. So the geography, 
they have to exist someplace, but the truth is the participants 
tend to have a multiplicity of locations.
    And I can give you examples. I could get our staff to give 
yours specific examples. For example, in Chicago, I think there 
are a number of universities throughout the Midwest all the way 
down to Texas that are participating, and this is true of the 
other institutes as well. It's become much more of a consortia 
process, where then researchers go to that location, but 
they're still affiliated with their local universities.
    Senator Shelby. That information would be helpful.
    Secretary Pritzker. Terrific. Happy to supply it.
    [The information follows:]

    Answer. NIST/DOD Response.--There are three existing DOD-led 
manufacturing institutes: America Makes headquartered in Youngstown, 
Ohio focused on additive manufacturing; Lightweight Innovations for 
Tomorrow (LIFT) headquartered in Detroit, Michigan focused on 
lightweight metals; and Digital Manufacturing and Design Innovation 
headquartered in Chicago, Illinois focused on the digital thread for 
manufacturing. Each institute serves to anchor the region on their 
respective technologies while growing to national prominence as 
reflected in their diverse and growing memberships as outlined in the 
two examples below:
    1. America Makes--currently has 6 Federal Government Agency 
members, 36 Universities and other Academia members, 62 Industry 
members, 14 Non-Profit Organizations, and 3 Manufacturing Extension 
Partnerships all spread across 28 States including: Alabama, Arizona, 
California, Colorado, Connecticut, Delaware, Florida, Illinois, 
Indiana, Kentucky, Louisiana, Massachusetts, Maryland, Michigan, 
Minnesota, Missouri, North Carolina, New Jersey, New Mexico, New York, 
Ohio, Pennsylvania, South Dakota, Tennessee, Texas, Virginia, 
Wisconsin, West Virginia.
    2. Digital Manufacturing and Design Innovation, headquartered in 
Chicago, Illinois, currently has the following members who have signed 
a membership agreement: 1 Government member, 20 Universities and other 
Academia, and 47 Industry members, spread across 25 States including: 
Alabama, Arizona, California, Colorado, Iowa, Illinois, Indiana, 
Kentucky, Massachusetts, Maryland, Michigan, Minnesota, Missouri, 
Mississippi, North Carolina, Nebraska, New York, Ohio, Oregon, 
Pennsylvania, Tennessee, Texas, Utah, Virginia and Wisconsin. There are 
an additional 9 Federal Agencies and Services involved including Army, 
Navy, Air Force, NIST, National Science Foundation, NASA, Defense 
Logistics Agency, DOE, and Office of the Secretary of Defense. 
Additionally, original team members are in the approval process for 
signing the current membership agreement: 3 Government members, 10 
Universities and Academia, and 31 Industry members, adding 5 States and 
the District of Columbia including: District of Columbia, Florida, 
Georgia, Maine, New Hampshire, and Washington.

    Secretary Pritzker. My last point on this, Senator is one 
of the things that is so important to remember about this 
effort is that, for us to remain competitive, we need to get 
our best technologies out of the laboratory and to market, and 
we need to do it expeditiously.
    To give you an example, today, we have five institutes, 
five or six, that have been called for. And Germany has 60 of 
these today. So this is an important part of our remaining on 
the cutting edge of innovation. And we know that a third of our 
economic growth since 2009 has been through innovation.
    Senator Shelby. Senator Mikulski.

                            NOAA SATELLITES

    Senator Mikulski. Thank you, Mr. Chairman. Secretary 
Pritzker, I'm going to pick up on NOAA satellites, an issue 
that we began--first of all, I've been NOAA satellite obsessed. 
Number one, because of the role they play in helping us predict 
the weather. Second, that our satellites are aging in place. 
But third, that our satellites were really--and the operation 
was bordering on a techno boondoggle.
    Starting with Secretary Gutierrez, then with Dr. Becky 
Blank under the Obama administration, and now with you, we 
really wanted to reform the satellite program. NOAA's 
satellites, why am I so hot on the satellites? It makes up 20 
percent of your budget and 60 percent of the NOAA budget. So if 
satellites don't work, we're impeded, because it's a negative 
on our ability to provide contemporary and global weather 
forecasting, and it knocks the hell out of our budget.
    So my question to you is three-fold. Number one, do you 
continue to reform and do the vigorous oversight that was at 
the highest level under the Department of Commerce? Number two, 
does this budget that you're asking fund the satellites that we 
have while we're looking at the cool new stuff. And number 
three, for the cool new stuff and the JPSS, the satellites -3 
and -4, what is it that you're doing now to prepare yourself, 
because I do worry about our satellites aging in place?
    Secretary Pritzker. Well, Senator, thank you.
    Senator Mikulski. So that's reform, how are we doing with 
what we've got now, and number three, are we really doing the 
right planning for the future?
    Secretary Pritzker. Well, Senator, first of all, thank you 
for asking. I mean, the satellite program is near and dear to 
my heart, as it is to yours, to make sure--because what's at 
stake here? What's at stake are lives and property as well as 
the ability for our businesses to get their goods and services 
to market, as well as for our employees to get to work. And so 
it's a very serious and very important endeavor that we have.
    So the reform and good management are of the highest 
priority for our team at NOAA and at the National Weather 
Service. And Dr. Uccellini, who you know well----
    Senator Mikulski. I just need you to keep moving it, 
because I've got only three more minutes to go.
    Secretary Pritzker. Got it. Sorry about that. Anyway, in 
terms of satellites, yes, we're totally committed to reform. In 
terms of the JPSS program, this is one that it's extremely 
important that we fund our polar satellites, and yes, that's 
included in our budget. And then as you call it the cool new 
stuff, or the Polar Follow-on, is extremely important, because 
what it will do is serve two purposes for us. One, in case 
there's any kind of launch disaster, we'll have instruments in 
the pipeline. And second, if there is no disaster, or in case, 
for example, the existing polar satellite Suomi National Polar-
orbiting Partnership (NPP) that's up there that is past its 
useful life, if we have a gap, we have instruments in the 
pipeline. And otherwise, we will use those instruments on JPSS-
3 and -4.

                    NATIONAL INSTITUTES OF STANDARDS

    Senator Mikulski. I appreciate that. And I think you see 
here a bipartisan support for the necessity of the satellites, 
but to make sure we're getting our money's worth.
    I'd like to go into another agency, the National Institutes 
of Standards. And I say to my colleagues, particularly the new, 
if you want to look at cool stuff, come to Maryland and what 
your great Federal labs are doing. And everyone here is 
familiar and enormously supportive of NIH. I know the Chairman 
certainly is. But the National Institutes of Standards, which 
it sounds kind of geeky, because they do measurements, really 
helps move jobs to the private sector.
    My question to you, Secretary Pritzker, could you elaborate 
on the labs to market and also how you're working with the 
private sector?
    I have an example here where MedImmune, a pharmaceutical 
company in my State that employs 2,000 people, that's just a 
few miles from NIST, has signed a contract with them, a 5-year 
Government agreement, giving it access to NIST expertise and 
measurement, and is helping pay for seven post-doctoral 
researchers to be used in pharmaceutical research. And 
MedImmune is crazy about this. They're going to be what the 
private sector does, but they need the Government to help them 
with the new measurements and the new way of accessing things 
for the new biosimilars and other products. So MedImmune says 
it can't grow and bring other ideas to market without NIST.
    Could you talk about what NIST means in labs to market? 
Because whether it's our Federal labs, whether it's our 
universities and so on, it is about, ultimately, the new ideas 
that create new products, that will create the new jobs. Could 
you elaborate?
    Secretary Pritzker. Yes, Senator. Recently, I was out at 
Stanford. And one of the things to remember, what does NIST do? 
NIST sets standards for everything that we use, whether it's 
buildings or it's biosimilars. So right now, in terms of 
biotechnology and bioengineering, it's extremely important that 
we begin to figure out how to measure things that are being 
developed in the laboratory so that then they can--first of 
all, those products can be replicated to a certain specificity. 
But if there's no way to measure what it is you've got, there's 
no way then to know if you've replicated it.
    So it's an extremely important function that we play. It's 
a very broad function. But it's absolutely--for innovation in 
America, and for the ability of our businesses not only to be 
successful in our country and innovate here, but also around 
the world, NIST, the development of standards, is something 
that is critical in this development of measurements. And that 
role is something that is one I've come to really appreciate.
    Senator Mikulski. So what is the labs to market going to 
do?
    Secretary Pritzker. So labs to market, we have a number of 
efforts. First of all, we have the National Network of 
Manufacturing Innovation, which is about how do we take 
technologies in manufacturing, and how do we bring them to 
market. And those are in different areas, whether it's 3D 
printing, composite materials, lightweight materials.
    There's other efforts in our Centers of Excellence at NIST 
that are focused on advanced materials, whether they're in 
biosimilars, forensic sciences, disaster resilience. These are 
areas where NIST will provide and work with a new business 
model to leverage outside research expertise with university 
expertise to bring these concepts and new discoveries to 
market.
    And these are topics that are developed in partnership. And 
that's what NIST is also really good at, is working in 
partnership with the most cutting-edge researchers, but also 
with the private sector, so that ideas don't just sit in our 
universities, or sit in our laboratories, whether they're 
Federal or they're private universities, it's important that we 
get those technologies out into the marketplace.
    Senator Mikulski. Okay. My time is up. But I just say to my 
colleagues, when we all worked with mammogram standards, it was 
NIST that helped develop what the standards should be, and I 
could give lots of examples. Come on down and visit. We'd have 
a good time.
    Senator Collins. Thank you, Mr. Chairman. Madam Secretary, 
welcome.
    Secretary Pritzker. Thank you.

                            UNFAIR SUBSIDIES

    Senator Collins. Along with my main colleague, Senator 
King, and Representative Poliquin, I recently wrote you about 
the unfair subsidies provided by the Provincial Canadian 
Government of Nova Scotia to a paper producer in Port 
Hawkesbury. I very much appreciate your very prompt response.
    Our highly skilled paper workers in Maine can compete 
successfully whenever there's a level playing field, but they 
cannot compete when a foreign government is providing more than 
$100 million of subsidies to a mill that is manufacturing the 
same kind of product.
    I understand that the coalition for fair paper imports, 
which includes Madison Paper Industries, which employs 240 
workers in my State, will soon file a petition for 
countervailing duties covering the imports of supercalendered 
paper from Canada in response to the more than $125 million in 
subsidies already provided by Nova Scotia.
    Can you update me on what the next steps would be in 
dealing with these unfair subsidies once the petition is filed, 
which will happen shortly?
    Secretary Pritzker. Senator Collins, first, as you know, we 
take enforcement and compliance very seriously at our 
department. Ensuring a level playing field is one of our number 
one priorities at the International Trade Administration, and 
enforcing trade remedy laws is something that is very, very 
important to me personally.
    We will keep you informed as we can. There are rules about 
what we can say at different points during the process. But as 
appropriate, absolutely, we would be happy to keep you 
informed.
    Senator Collins. Thank you very much. The other issue that 
I want to mention to you today is the U.S.-Canadian Softwood 
Lumber Agreement. This was negotiated in 2006, and it had been 
said to expire in 2013 but was extended to October of this 
year.
    I will tell you that this is an extremely complicated 
agreement. It involves different patterns of ownership of the 
land in Canada, different stumpage fees. The location of cross 
border mills makes it extremely complicated. And the previous 
agreement was plagued by a failure of our Government to enforce 
it fully when the Canadians, on occasion, violated it.
    As the deadline approaches for the expiration of the 
agreement in October, I ask that the Department as well as the 
U.S. Trade Representative, and I know you can't speak for him, 
but I ask that your department be very engaged with U.S. 
forestry stakeholders and the Canadian Government. And 
specifically, because of the complexity, because the maritime 
provinces are different in their ownership than British 
Columbia for example, because we have mills right on the border 
that process lumber that is cut, where the wood is cut in 
Maine, I would ask that you develop a process to ensure that 
the views of Maine stakeholders are considered as you go into 
the new negotiations.
    Secretary Pritzker. Well, Senator, I appreciate your 
raising this agreement. And we'll work with you and your staff 
to better understand the issues at stake and to make sure that 
we take the citizens of Maine's interests into consideration as 
we deal with it.
    Senator Collins. Thank you very much.
    Secretary Pritzker. Thank you.
    Senator Collins. Thank you, Mr. Chairman.
    Senator Shelby. Senator Baldwin.
    Senator Baldwin. Thank you. I don't know how often it is 
that a previous set of questions so well sort of queues up for 
what I want to ask you about the paper industry and a level 
playing field.
    So my first question is in relation to the Department's 
role in ensuring a level playing field for U.S. manufacturers, 
and particularly in the paper manufacturing sector. It's 
especially important in my home State of Wisconsin.
    And I do want to applaud the administration's recent WTO 
challenge to China's Export Subsidy program, which provides $1 
billion in illegal subsidies over 3 years. And while this $1 
billion subsidy, it's large, it pales in comparison to the 
estimated $33 billion in government subsidies that Chinese 
paper companies have received over the last decade.
    Now, not only are paper companies in China receiving 
extensive State-backed support, but we continue to see 
importers bringing Chinese paper products, especially thermal 
paper products, into this country that are subject to 
antidumping and countervailing duties, without paying a dime in 
duties.
    And I understand that the budget request contains $15 
million for the Interagency Trade Enforcement Center, which in 
my mind, should be working to eliminate these kinds of 
practices. In addition, there is $16.4 million specifically for 
China antidumping and countervailing duty enforcement and 
compliance activities. These amounts are similar to previous 
years, and yet paper companies in my State do not feel like 
there has been adequate attention to stem this tide.
    So do you agree that this is a significant problem? And if 
so, how is your budget going to help stop it?
    Secretary Pritzker. Senator, thank you. You know, trade 
enforcement is a big priority for us at the Department and this 
administration, and we need to be very serious about this to 
ensure that American workers and businesses are competing on a 
level playing field, as you mentioned, around the world.
    And the President established the Interagency Trade 
Enforcement Center in 2012 to enhance our ability to identify 
and address violations of trade agreements. And that's why 
we've asked for an additional $15 million in this budget to 
allow us to add personnel to the ITEC and continue to enhance 
these efforts to fight challenges like you were talking about 
for your paper industry and challenge and address unfair trade 
practices.
    [The information follows:]

    The Department of Commerce has had frequent conversations with 
Senator Baldwin's office on a number of requests the Senator had with 
Secretary Pritzker during the hearing. Per the request of the Senator's 
office, we held an AD/CVD briefing with her office. This briefing-
covered the basics of AD/CVD as well as included a focus on cases 
involving China. Additionally we are working with Senator Baldwin's 
office to hold a joint DOC/USTR briefing on the basics of the ITEC 
program. We expect that briefing to take place soon.

    And I'd be happy to have our staff follow up on the 
specifics of the paper challenge for Wisconsin. I just want you 
to know though that, in terms of today, we have about 310 
antidumping and countervailing duty orders in place, and 40 
percent of those are on products from China. So we take this 
role extremely, extremely seriously. And last year alone, we 
brought more cases than we have any year in the past 10 years.
    Senator Baldwin. Thank you. I want to turn to another topic 
that was raised earlier, which is the National Network for 
Manufacturing Innovation. And I'm actually pleased to see that 
the President's budget request is working to make sure that the 
next wave of high-tech innovation is happening here in America 
rather than overseas.
    I can tell that, in my home State of Wisconsin, 
organizations like the Water Council and the Midwest Energy 
Research Consortium are really already doing the hard work of 
on the ground organizing of clusters of innovation around 
private industry and academia. And I give you an open 
invitation to come visit those efforts, which are very 
impressive.
    But as we move forward, I want to kind of dovetail on 
Chairman Shelby's question of what sort of input are you taking 
from the private sector, from academia in making decisions 
about what these next institutes will embrace? Is there an open 
call for ideas? Are you holding workshops? My constituents are 
very eager to know how they can highlight the work that's 
already being done on the ground.
    Secretary Pritzker. So as you know, the legislation passed 
at the end of last year, but NIST has been focused on how to 
run, how to garner this kind of information for the past 
several years and is putting in place--and that's why we've 
asked for the $10 million, but we have ideas and plans, but we 
want to garner that kind of input from the private sector to be 
able to have a broad effort outreach, so that we're gathering 
the best ideas available from the private sector.
    Senator Baldwin. Well, as those are developed, I hope you 
will come and have your staff brief interested subcommittee 
members on how that's developing, because our constituents are 
very eager to know.
    Secretary Pritzker. Would be delighted to do that. I know 
it's an area of interest to many of you.
    Senator Shelby. Senator Lankford.
    Senator Lankford. Thank you. And thanks for being here as 
well.

          INTERNET CORPORATION FOR ASSIGNED NAMES AND NUMBERS

    Secretary Pritzker. Thank you.
    Senator Lankford. Grateful to be able to have the 
conversation. I want to talk a little bit about where we stand 
with ICANN, once favored conversation, and DNA--or I'm sorry, 
DNS, not DNA. DNA would be fun to talk about as well, by the 
way, if you want to talk about that.
    But the budget request has a note in it that I thought was 
interesting. It says in fiscal year 2016, NTIA will continue to 
develop, implement, and advocate policies positioning the U.S. 
to meet growing complexities and political challenges related 
to Internet governance and the domain name system.
    Tell me the status of where you're headed on this. And 
obviously, Congress has spoken back on it, is a little 
hesitant. So specifically, while you're talking about status on 
it, how are you balancing the foreign policy objectives with 
United States commerce, and I mean commerce as a whole of our 
business world, and how dependent we really are on this 
Internet.
    Secretary Pritzker. Well, let me start by saying NTIA, our 
role is stewardship of the Internet. And so our goal has been 
to continue to move ICANN to a multi-stakeholder model. And in 
fact, we deal directly with ICANN, and the leadership of ICANN 
and their CEO is coming in tomorrow.
    Senator Lankford. Can I interrupt for just a second? The 
question there is the why. And I think it's the----
    Secretary Pritzker. Why?
    Senator Lankford [continuing]. Policy question, why try to 
move that outside of stewardship? Has it been a problem that 
we've been a steward with it? Why remove American stewardship 
from the Internet?
    Secretary Pritzker. Well, we're not giving up our 
stewardship of the Internet. But the challenge that we face 
with the ICANN IANA transition is this is a--and first of all, 
we're not going to give up our position of overseeing the IANA 
domain name situation, unless we can assure ourselves there's a 
multi-stakeholder process, and it's not going to be 
jeopardized, that there's going to be stability and resiliency 
and security in the domain name system, and that it meets the 
needs of global customers, and that the Internet will remain 
free and open.
    The challenge we face in our role is the perception of our 
role in the global environment. There is a lot of pressure, as 
you said, from foreign governments to, in essence, take over 
control of the Internet and try and create places where 
governments are in control of what's happening with the 
Internet. We think that is the wrong direction to go, and 
therefore, what we feel is that we're really an oversight. 
ICANN is actually performing the IANA functions.
    And so our goal is that ICANN continue to perform those 
functions. But the appearance of our engagement creates this 
notion of that the U.S. is a government in control, and that's 
against where we ultimately--we want to be able to argue with 
the rest of the world, that's not what we want to see of the 
Internet.
    Senator Lankford. Right. I understand. And the skepticism 
is when we release the first generation, there may be some good 
oversight of that, and then what happens 5 years from now and 
etc., so what happens with China and Russia? And we can have a 
longer conversation. I just want to be able to express some 
continuing skepticism on it.
    Secretary Pritzker. Senator, I share your concern about 
that. And one of the criteria that I've said is is we've asked 
for ICANN to explain to us how they're going to be accountable 
to a multi-stakeholder process, and there cannot be what I call 
a hostile takeover of ICANN.
    Senator Lankford. Correct. And I would affirm that. One 
other thing I just want to be able to chat about as well are 
the IG reports. As I got a chance to go through some of those, 
some of the high risk contracting, it sounds like you're 
working through that process on that. I'd just affirm that, to 
continue to press on that.

              COMMERCE BETWEEN THE UNITED STATES AND CUBA

    And then one other question that I wanted to be able to 
bring up to you deals with Cuba and the Cuba policy at this 
point. You and I have exchanged letters back and forth, and 
thank you for being prompt in your response on that. I really 
do appreciate that.
    As we've exchanged letters, the question that I had is, the 
Administrative Procedures Act is pretty clear that you can only 
use the statement about this being foreign affairs related if 
there's an emergency situation. I'm still trying to determine 
what the emergency situation was to make the change in Cuba 
policy without going through the Administrative Procedures Act, 
without opening this up.
    Secretary Pritzker. Senator, I would have to work with my 
staff and your staff to address that specific issue, because 
I'm not familiar with it particularly, but I'd be happy to do 
that.
    Senator Lankford. Yeah, because glad to be able to follow 
up on it. What I don't want to do is open the door, which it 
appears to have just happened, because the President, any 
president--and this is not about a personal thing on the 
President by any means and their agreement and disagreement on 
Cuba policy and where it's going, but when we make a change in 
policy that doesn't follow the Administrative Procedures Act 
and you reach back on a 70-year-old law and say, we're going to 
practice this a little different than what has been done in the 
past, it concerns me.
    Secretary Pritzker. I understand your concern.
    Senator Lankford. And the change in Cuba policy seemed to 
be connected to, this is foreign, and so it's allowable. With 
that exception, anything related to a foreign government would 
be allowable. And the Administrative Procedures Act was pretty 
clear it had to be an emergency situation.
    Secretary Pritzker. Well, following the law is our number 
one objective here at the Department of Commerce, and in terms 
of the specifics of the Cuba policy as it relates to the 
Administrative Act, we'll be happy to follow up with your 
staff.
    Senator Lankford. Thank you. We'll follow up from there. 
Thank you. I yield back.
    Secretary Pritzker. Thank you.
    Senator Shelby. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Thank you, 
Secretary Pritzker, both for your service and for being here 
today.

                       NOAA MANAGEMENT OF FISHING

    Secretary Pritzker. No, thank you.
    Senator Shaheen. My first concern that I want to raise 
today is about the impact of NOAA's management decisions on our 
fishing industry in New Hampshire. I think we all share the 
concern that we want to see stocks rebound in the Gulf of Maine 
and in the Atlantic. But in November, NOAA announced the 
immediate implementation of additional closures in the Gulf of 
Maine and other limitations on fishing capacity for the 
remainder of this fishing season.
    I've heard concerns from fishermen in New Hampshire, not 
just about the decisions that were made, but also about the 
lack of notice and about the lack of transparency in how this 
process was handled.
    New Hampshire, which started out as the smallest fishing 
fleet in New England, has been hit hardest by management 
decisions for years now. The latest regional economic impact 
estimates predict that New Hampshire fishermen are likely to 
see their reduced revenues cut by an additional almost 50 
percent from this year to next. And that's more damage than any 
other State in our region is experiencing.
    So not only am I concerned about the decisions that have 
been made and the impact, but also about the lack of 
transparency, the lack of engagement with the industry, and the 
lack of notice. So I wonder if you could speak to that, and if 
you could give me a commitment that you will personally look at 
what's being done there and see what we can do to make some of 
those decisions less impactful on New Hampshire?
    Secretary Pritzker. Well, Senator, first of all, I know how 
important fishing is to all the coastline communities, and 
particularly in New Hampshire. And, you know, it's a difficult 
time, as you know, for New England fisheries and communities. 
And that is why we put John Bullard up in that area, to work to 
assist, and working with the communities and fishermen.
    And I will follow up with him to understand what the issue 
might be around notice and transparency. He prides himself in 
trying to work very closely with all of the stakeholders, and I 
have a lot of confidence in him, so I want to find out exactly 
what happened.
    Obviously, it's a tough time, because the stock is in the 
worst shape that we've seen in 40 years. And so we appreciate--
I am very sensitive to the impact on families, on the 
businesses of these decisions, and I will personally look into 
this issue around transparency and notice, because we 
absolutely--our goal is to work very much with the 
stakeholders, local stakeholders, and that's why we actually 
put someone in the marketplace.
    Senator Shaheen. Well, thank you. I appreciate that. I hope 
that thought will also be given to how to ameliorate the impact 
on the fishing industry in New Hampshire, which, as I said, 
started out with some obstacles that are not shared by other 
states in New England.
    Secretary Pritzker. And we're working on making sure the 
fishery disasters funding----
    Senator Shaheen. Which has been very helpful. Thank you.
    Secretary Pritzker [continuing]. It gets to the State as 
quickly as possible.

                             EXPORT CONTROL

    Senator Shaheen. Thank you very much. I was pleased to 
hear, both in your testimony and your written testimony, the 
emphasis on exporting. I think it's very important. It's been 
very important to our small businesses in New Hampshire. And 
one of the aspects that has been challenging for many of our 
businesses has to do with our export control system, and I know 
that has been under reform over the last several years.
    And I wonder if you could both talk about where we are in 
terms of reforming the export control system and also what kind 
of efforts are being undertaken to get the word out to small 
businesses about the changes that are being made and what kind 
of reaction you're getting from them with respect to those 
changes.
    Secretary Pritzker. Well, Senator, I appreciate your 
asking. As you're aware, the Export Control Reform, we have 
about 15 of the 21 munitions lists are completed at this point, 
and we're continuing to make progress on the simplified system, 
so that we can strengthen our national security and 
competitiveness. That will mean for BIS that our number of 
licenses per year will go from 25,000 to over 50,000 by fiscal 
year 2016. So we're sort of more than doubling both licensure 
work.
    In order to do that well, it's really important that we 
have funding to be able to get the word out. We have not had 
funding over the past several years to be able to really go out 
and promote what's happening in terms of Export Control Reform. 
That would be extremely important. And then the second is, 
we're requesting funding to increase enforcement, something 
that I know is of interest to a number of the senators here.
    As we increase the number of licenses, we need to be able 
to increase enforcement as well as we need to be able to 
increase our ability to gather information before we give a 
license to someone. So we're very much focused on how all of 
this is connected together. We want to service our clients as 
well as possible, and that's why you see us asking for an 
increase here. It's really due to the fact we're being asked to 
do much more work because of the new items, I think it's tens 
of thousands of items, that have been transferred from the 
State Department to us.
    Senator Shaheen. Well, my time is over, but again, I want 
to applaud that effort and encourage you to continue to work 
very hard on that and to suggest that maybe there's an 
opportunity working with SBA to help with outreach to small 
businesses, because they have fewer resources to be able to 
export, and anything that can be done here is really important.
    Secretary Pritzker. And I'm quite focused on helping small 
and medium sized businesses export. I've had a lot of 
opportunity to meet with them over the last several months.
    Senator Shaheen. Thank you.
    Senator Shelby. Senator Collins, you have a comment.
    Senator Collins. Thank you, Mr. Chairman. Since I had 40 
seconds of my time that I didn't use, I would just want to 
reclaim it, and I thank the Chairman for allowing me to do so.
    I just want to associate myself with the comments made by 
the senator from New Hampshire on the fishing issues. I've 
heard exactly the same concerns from the lobstermen and the 
fishermen who fish and do lobstering in the Gulf of Maine. And 
there's a great deal of anger about the new regulatory 
restrictions, the lack of consultation, and I'm very concerned 
about it. So I just wanted to associate myself with Senator 
Shaheen's comments. Thank you, Mr. Chairman.
    Senator Shelby. Senator Kirk.
    Senator Kirk. Secretary Pritzker, Penny, I wonder if I 
could raise an issue with you about OSI, one of our largest 
food processors in Illinois, who has had problems with the 
Chinese Government. I know you may have raised these issues at 
the JCCT, which you graciously held in Chicago.
    Secretary Pritzker. Senator, let me tell you. I did speak 
at the highest levels about OSI to the Chinese Government. We 
are following this case very carefully to make sure that OSI is 
being treated fairly. There have been some positive signals 
that we have received, and so this is something that's high on 
our priority list to follow.
    Senator Kirk. Thank you. Thank you, Mr. Chairman.
    Senator Shelby. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Welcome, 
Madam Secretary.
    Secretary Pritzker. Thank you, Senator.

                           FISHING REVISITED

    Senator Murphy. I wanted to follow up on questions 
regarding New England fishing. In Connecticut, our fishing 
industry has been decimated. We were largely a shellfish 
economy along the shoreline. And as our lobsters have moved 
northward to Maine, we have struggled to figure out how we 
replace that capacity. But aquaculture has been a part of that, 
and we've had some real encouraging developments regarding new 
technologies through which we're able to harvest some pretty 
serious new amounts of oysters and other native species through 
the sound.
    We have a lab in Milford, Connecticut that gets about $3.4 
million in Federal funding along with lab in Manchester, 
Washington. These are the two facilities that house NOAA's 
shellfish research. That's an industry that, right now, even 
with the declines, produces about $30 million for Connecticut 
along.
    I just wanted to make sure that there's still going to be a 
commitment to this aquaculture research, both in Connecticut 
and in Washington. We're seeing real progress and real gains 
because of that funding, and it's important to us that that 
commitment continue.
    Secretary Pritzker. I appreciate that. And as far as I 
know, there's no change. But I will make sure and confirm that.
    [The information follows:]

    Question. Aquaculture and Milford Lab.--We have a lab in Milford, 
Connecticut that gets about $3.4 million in Federal funding along with 
lab in Manchester, Washington. These are the two facilities that house 
NOAA's shellfish research. That's an industry that, right now, even 
with the declines, produces about $30 million for Connecticut. I just 
wanted to make sure that there's still going to be a commitment to this 
aquaculture research, both in Connecticut and in Washington. We're 
seeing real progress and real gains because of that funding, and it's 
important to us that that commitment continue.
    Answer. Yes, that commitment will continue. Science is essential to 
supporting aquaculture expansion in an intelligent and sustainable 
manner, and NOAA supports U.S. aquaculture development in part through 
world class research. It is clear from past experience both at home and 
abroad that poorly sited or managed marine aquaculture operations can 
have negative impacts to the marine environment. But with sound 
scientific advice and science-based tools, it is possible to avoid such 
potential impacts and allow for the industry to grow in environmentally 
and economically sustainable ways.
    NOAA' s aquaculture science portfolio comprises complementary and 
coordinated efforts in three NOAA line offices. Together these efforts 
are critical to achieving the administration's goal of supporting 
sustainable marine aquaculture. NOAA Fisheries focuses on developing 
science-based ``tools for rules'' to help inform permitting and other 
regulatory decisions, as well as working with industry partners on a 
range of topics such as hatchery techniques and disease management. The 
NOAA National Ocean Service develops coastal planning and management 
tools and services. The Sea Grant program at NOAA's Office of Oceanic 
and Atmospheric Research provides grants to external partners for 
industry development, as well as technology transfer and extension. 
These efforts and those of other Federal agencies (e.g., USDA) are 
coordinated under the 2014 The Strategic Plan for Federal Aquaculture 
Research, published with NOAA' s assistance and leadership by the White 
House's Office of Science and Technology Policy.
    Two laboratories house the bulk of NOAA Fisheries' aquaculture 
science portfolio--the Northeast Fisheries Science Center's Milford, 
Connecticut lab; and the Northwest Fisheries Science Center's 
Manchester, Washington lab. Milford has traditionally been a shellfish 
aquaculture lab (e.g., siting tools, disease management, and ecosystem 
services) and Manchester has been a finfish aquaculture lab (e.g., 
feeds development, finfish hatchery and growout methods). However, 
there is growing coordination and collaboration in certain areas such 
as some aspects of feeds research.
    NOAA's science, regulatory, and outreach activities have made a 
substantial and measureable impact on the sustainable development of 
marine aquaculture and related jobs, especially in the northeast. From 
Virginia to New England, aquaculture has grown significantly over the 
past several years, with booming production of shellfish leading the 
way. Aquaculture in the northeast has grown to be the third most 
valuable fishery in the region, behind only lobster and scallops and 
roughly three times the value of the groundfish fishery. All 
indications are that, with continued support, there will be additional 
growth, providing more domestic seafood and jobs.

             NATIONAL NETWORK FOR MANUFACTURING INNOVATION

    Senator Murphy. And then if I could just ask a second 
question on the National Network for Manufacturing Innovation. 
I know you made reference to this in your prepared testimony. 
I'm so glad that we're continuing to expand this program. I 
think it's absolutely transformational. It's discouraging to us 
in the Northeast, which is the most densely populated part of 
the country, that with five centers, and not yet one has found 
its way to our neck of the woods.
    You, I think, in your testimony said that you were going to 
be guided by industry in terms of what the focus should be. I 
would love for you to expand on how your process is going to 
occur, so that we can make sure that industries in the 
Northeast, the aerospace industry, I would argue, at the top of 
the list, get a fair shot at making their case.
    We really believe that, as you have this tsunami of 
aerospace purchasing coming, both from the private sector and 
the public sector over the course of the next 10 years, that if 
we are innovating at a pace that's fundamentally different than 
other competitors, that we can gain a greater lion's share of 
that work. So we believe that an aerospace focused 
manufacturing innovation center should be one of the next 
that's authorized.
    But if you could just share how we can get the best input 
into your process of decisionmaking, I'd appreciate it.
    Secretary Pritzker. Well, obviously, at the time that the 
competitive process would be run, it would be open, 
transparent, and a broad request for proposals. That process 
will be dictated by NIST, as they are really our expert at 
taking things from lab to market, and they've been preparing 
for how to run these types of competitions. But I can get to 
your staff kind of the specific processes that they will use. 
And I appreciate the value of the aerospace industry, and I'm 
sure it's one that's high on the list of priorities.
    Senator Murphy. It's a moment in time where, if we capture 
the best available technology, there's a mountain of work to be 
had. And we used to just have a natural competitive advantage 
over the rest of the world that is declining, decreasing as 
time goes on.
    Finally, just to use my last 30 seconds of so, it's my 
first opportunity to be a member of this subcommittee and to 
have you testifying in front of us. I just want to tell you how 
excellent your staff is in Connecticut. Anne Evans runs the 
local office, and if she had two or three more people, she 
could be creating hundreds, if not thousands, more jobs, just 
to make an advertisement for the scope of your personnel in our 
states.
    When you have good people on the ground doing outreach to 
especially these small and medium sized businesses that have no 
idea how to compete globally if not for the expertise you lend, 
the power, the multiplication of business that your presence 
creates is pretty substantial. So please, pass my thanks along.
    Secretary Pritzker. Thank you very much. And Senator and 
Mr. Chairman and Madam Vice Chairman, one of the things I have 
asked our ITA to do is to do a review of the effectiveness of 
our U.S. Export Assistance Centers and our Foreign Commercial 
Service.
    As the success of more and more of our communities around 
our country depend upon exporting, I want to come back to you 
with a report as to where I think it would make sense for us to 
do more, because we do get this kind of response as to the 
effectiveness, particularly for our small and medium size 
businesses, which are so important to everyone's States.
    [The information follows:]

    The Department looks forward to working with the Congress on a 
funding profile for our export assistance program which ensures that 
U.S. small and medium sized businesses are on a strong competitive 
footing internationally. The Department is currently assessing our 
domestic and international capacity for meeting this goal and will 
provide any new information concerning the proposed direction of this 
effort at the appropriate time.

    Senator Murphy. Thank you.
    Secretary Pritzker. Thank you.
    Senator Shelby. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. And since this is 
my first hearing of this subcommittee, I want to extend to you 
and the Ranking Member congratulations. I look forward to 
working with both of you, and I'm very honored to serve on the 
subcommittee.

                 HERBERT C. HOOVER BUILDING RENOVATION

    Madam Secretary, thank you for having the freshman class 
down to your building, which when you mentioned in your opening 
statement that you wanted to modernize, I think you'll get all 
of us to agree, that's probably a good idea. It was beautiful 
in the library, but as you explained to me, this is as good as 
it gets.
    Secretary Pritzker. Right.

                            BROADBAND ACCESS

    Senator Capito. So anyway, I appreciate that. A recent 
study by the FCC indicated that 56 percent of West Virginia 
residents do not have access to broadband services that meet 
the FCC benchmarks. In rural areas in West Virginia, it's as 
high as 74. It is the worst in the Nation. And I don't claim 
that as a source of pride, either. But I don't need a study to 
understand this. I mean, when I'm seeing constituents driving 
around, there are small businesses and individuals and 
residents who absolutely are hamstrung in terms of being able 
to get broadband in West Virginia.
    Within your department, the National Telecommunications 
Information Administration recently released a study talking 
about the economic benefits of broadband access in terms of 
increased economic output and higher levels of employment. 
Understanding how these funds are spent, I think we find 
ourselves, in our State, in a bit of a quandary, because there 
are many states that have access, and so what they want now is 
faster, broader, bigger capacities when there's still parts of 
the country, and particularly where I live, where we're still 
not even getting a minimal standard.
    And so if you're looking at allocating funds and 
emphasizing where you're going to place your real strength in 
terms of dollars, I think that presents a--not controversy, but 
you have to make decisions. So I guess I would ask you, how are 
you looking to help build out those areas that are underserved 
and still lacking in access? And are there any programs that 
you're developing that will target these areas, particularly 
the rural areas, because that's what's left, the more sparsely 
populated areas, which do not meet the national average for 
access?
    Secretary Pritzker. So Senator, NTIA used to have grant 
money under the BTOP program, which actually exceeded our goals 
and put about 113,000 miles of broadband networks down in the 
United States and connected schools, libraries, I think 25,000 
schools, libraries, health facilities.
    Those funds have been spent. I think they were appropriated 
in 2009 and 2010. And so now what we're doing is, we're talking 
the expertise that we have, and we're working with communities, 
such as the ones that you're talking about in West Virginia, on 
technical assistance. And in fact, I went out to Cedar Falls, 
Iowa with the President to look at what communities can do to 
bring state of the art--they have one gigabyte of broadband----
    Senator Capito. That's what we have.
    Secretary Pritzker. Which is equivalent to the best in the 
world, one gigabyte.
    Senator Capito. Oh, no, we have----
    Secretary Pritzker. No. You've probably got one megabyte or 
something.
    Senator Capito. One megabyte.
    Secretary Pritzker. Right. Exactly.
    Senator Capito. I'm getting my megas and gigas mixed up.
    Secretary Pritzker. I'm right there with you. But 
basically, we're working with communities to how can they come 
up with plans to actually do broadband themselves. And so we're 
using our technical expertise to help them.
    And Cedar Falls was able to borrow the money and pay it 
back in 5 years by virtue of putting in this broadband access. 
And in fact, what they're hoping to do is do more in more parts 
of their State. So I've seen where communities can kind of take 
the reins in the own hands and really improve their access to 
broadband, which we know is so critical for not just economic 
prosperity, but for education and for communication and for 
safety.
    Senator Capito. Well, thank you. And I hope that we can 
work together to try to meet this challenge.
    Secretary Pritzker. Absolutely.
    Senator Capito. Lastly, I would say, your department, 
through NOAA, has quite a substantial infrastructure investment 
in Fairmont, West Virginia, and we're very, very happy about 
that. The I-79 Technology Park, which has your backup data 
system, I would just like to put a plug in for expanding your 
footprint in that area. You already have made quite an 
investment. The park is the location for the backup ground 
stations for your GOES-R Series and your JPSS satellites.
    Secretary Pritzker. Oh, terrific.
    Senator Capito. Yes. And I know it's not complete, but I 
think there will be excess capacity there, we are told, not 
just as your backup data center, but there will also be some 
possibilities for growth. I'd like to work with you to try to 
grow that footprint.
    Secretary Pritzker. We would be delighted to work with you.
    Senator Capito. All right. Thank you so much.
    Secretary Pritzker. Thank you.
    Senator Shelby. Thank you, Senator. We'll go into a second 
round, Madam Secretary.

                               THE CENSUS

    The Department of Commerce has the responsibility, as you 
well know, to administer a constitutionally mandated census 
every 10 years. The 2016 budget request that I mentioned in my 
opening statement includes a significant investment in 
enterprise computer system that will help not only the Bureau's 
annual statistic activities, but will be scalable in order to 
accommodate the activities of the upcoming 2020 Decennial 
Census.
    Having an enterprise system that can serve the data 
collection backbone of the Bureau holds great promise for both 
cost reduction and efficiency. If this new computer enterprise 
were to fail, we could see costly impacts across the Census and 
the Department. We've been there before. This comes at a time 
when Census currently only has, as I understand it, 17 of 34 of 
its own 2020 Census requirements base-lined.
    The question is this, Madam Secretary. What is the 
Department of Commerce doing to ensure that this system, a 
CEDCaP will not become another costly technological setback 
that could potentially endanger all of the other data 
collection activities at the Census? You have a lot of that.
    Secretary Pritzker. Senator, you know, CEDCaP is a very 
important endeavor, because what we need to do is bring 
together I think it's 14 different systems in order to 
streamline the way that we do the Census. So it's a system of 
systems. So why should we have any confidence that we can do 
this?
    First of all, it's something that we are working on the 
development of CEDCaP at this time. We have to test it. I know 
this from my private sector experience, Senator. I ran a 
company that was a complete bits and bytes company, and we did 
a total systems transformation, and I know how perilous those 
can be. This has enormous attention and profile within our 
department. We are very focused on this, not just at the Census 
level, but in the Office of the Secretary and with our Chief 
Information Officer for the entire department.
    But the way one does these types of systems is you have to 
chunk them out, and you have to test them as you go, so that 
you don't have one big moment, whether it either works or 
doesn't work. And that's why it's so important that we get 
funded for fiscal year 2016, so that we can do, I keep harping 
on this, and you'll hear me say this, testing, testing, 
testing. Because we need to know that the opportunity, to not 
just put a system in place but to run the Census at cost of $13 
billion rather than a cost of $18 billion, is one that's 
achievable.
    And as a steward of the taxpayers' dollars, this is 
extremely important to me. But we have to invest in order to 
save that money, because we have to test to know these systems 
will be reliable, because we're held accountable for an 
accurate census, and that's something we take near and dear to 
our hearts as our core responsibility.
    Senator Shelby. I know you bring a lot of private sector 
experience here, but failure can't be an option here. It 
wouldn't be in the private sector. The business would be gone, 
would it not?
    Secretary Pritzker. I hear you, and I have been in this 
situation before in the private sector where failure is not an 
option as you transfer systems in. So therefore, we bring a 
very disciplined approach to this.

                               FISHERIES

    Senator Shelby. Absolutely. Appreciate that. I want to get 
back into fisheries. We've been talking about it from every 
perspective. The Department has the important responsibility of 
managing our Nation's fisheries through the National Marine 
Fisheries Service. Regulatory decisions which are based on 
fishery stock assessment data, getting back to your database, 
can significantly affect commercial and recreational fishermen 
and cause economic harm and disruption when the data is 
erroneous.
    For example, Madam Secretary, last year, a Federal judge 
ruled that the Department mismanaged the red snapper fishery 
industry in the Gulf of Mexico. The result was a nine-day red 
snapper season. Nine days, down from 40 days the year before. 
Well, it's needless to say, the shortened season was very 
disconcerting to me and to thousands of fishermen in the Gulf, 
especially around Alabama, Mississippi, and Florida.
    New technology may facilitate better decisionmaking to 
allow more days at sea for our fishermen. While I'm pleased to 
see the Department taking steps to use new technology, I'm 
concerned that the program is not moving fast enough.
    My questions are these. How is the Department prioritizing 
the use of new technology, such as electronic monitoring and 
reporting, to better understand and manage our Nation's 
fisheries? And the second question is, what is the biggest 
obstacle facing your department, the Department of Commerce, on 
the timely transition to electronic monitoring and reporting 
for fisheries.
    Secretary Pritzker. Thank you for your question. First of 
all, the fact that the red snapper stock is rebuilding is one 
that we're very pleased with, and getting the allocations right 
in terms of who has access to fishing and for how long is 
something that's extremely important to us. I'm not familiar 
with the specific case you talked about, but I will look into 
that. Making sure that we get that right is a high priority.
    As it relates to electronic monitoring of fisheries, we 
have asked for $7 million to continue to find new ways to 
accurately monitor fisheries. In terms of your question as to 
what are our obstacles, one is more work needs to be done to 
know whether this is accurate. You just talked about being 
accurate. What's most important is that we figure out that 
these technologies are actually accurate.
    And we've run some pilots. We've asked for money in the $7 
million to support pilots in different parts of the country to 
make sure that this is something that's accurate, because there 
are real consequences, the finding, as you said, of electronic 
monitoring. And we want to make sure that we can both maintain 
our healthy fisheries for generations to come but also have our 
commercial and recreational fishing industries can be healthy 
and reliable.
    Senator Shelby. Well, I know myself that a lot of people on 
the Gulf are pretty good at all this, have shown me how large 
the snapper have gotten.
    Secretary Pritzker. Huge.
    Senator Shelby. Because they've gotten so big, and there's 
so much of them, we want an accurate count, because this is 
very important to a lot of us on the Gulf.
    Secretary Pritzker. I appreciate that, and I understand the 
challenge.

                         NOAA RESEARCH VESSELS

    Senator Shelby. My last question to you, I hope it'll be my 
last, has to do with the new ocean research vessel. The 2016 
budget request for the National Oceanic and Atmospheric 
Administration includes $147 million for a new ocean going 
research vessel to support the agency's operations. The agency 
needs a new ship, because the fleet is aging, as you pointed 
out.
    Out of 16 large vessels, and I believe you mentioned this, 
only 6 are operating within their design life. Three of the 16 
ships are well past their prime, including the oldest ship in 
the fleet, the Oregon II, which operates out of the Gulf Coast. 
Aging ships not only create operational shortfalls with low sea 
days, they also pose safety concerns for the crew and 
scientists working aboard.
    I'm not sure how many people realize this problem at the 
Department. The 2016 request for this new ship seems like a 
one-time ask and lacks context about the overall need for the 
whole major ongoing ship construction, the whole program.
    My question is this. This subcommittee has asked for, but 
has not received yet, a new fleet recapitalization plan, which 
was last updated in 2008. When will the administration provide 
this plan to the Appropriations Committee?
    Secretary Pritzker. Senator, I commit to you that we will 
put that plan together. I think it's being progress.
    Senator Shelby. And it's important to hear, because----
    Secretary Pritzker. But absolutely, the idea of--we have 8 
of our 16 ships that absolutely need to be replaced over the 
next 12 or 13 years, and so there is a plan in terms of the 
scope of what we need to do. More specifics, I will get to you 
and your staff.
    [The information follows:]

    Question. NOAA Fleet Capitalization Plan.--My question is this. 
This subcommittee has asked for, but has not received yet, a new fleet 
recapitalization plan, which was last updated in 2008. When will the 
administration provide this plan to the Appropriations Committee?
    Answer. NOAA's Fleet Composition Report (2012-2027) is currently 
under Administration review; however, I do not have a specific time 
line in which it will be available. This report, outlining 
recommendations for recapitalization, was coordinated with the overall 
Federal fleet. NOAA convened the NOAA Fleet Advisory Committee, a group 
of external experts from other Federal agencies involved with the 
management of at-sea assets, which was charged with providing advice 
and guidance to help the NOAA team shape strategies for the future of 
the fleet. Specifically, the committee reviewed and provided input on 
each stage of the effort including the overall approach, requirements 
validation process, technology infusion analysis, business process 
improvements, and internal and external communication plans. Committee 
membership included representation from the U.S. Navy, U.S. Coast 
Guard, National Science Foundation, Bureau of Ocean Energy Management, 
Environmental Protection Agency, and University-National Oceanographic 
Laboratory Systems.
    NOAA is requesting $147 million in the fiscal year 2016 budget for 
the construction of a new Ocean Survey Vessel (OSV). This request is 
based on a robust Requirements Validation Assessment and analysis 
process that built upon the 2008 recapitalization plan.
    Per the Federal Oceanographic Fleet Status Report, released May 
2013 by the National Ocean Council, the Federal oceanographic fleet 
will experience a 50 percent decline in the number of active vessels by 
2026 without further modernization. Without an investment, NOAA 
estimates that its fleet will decline by 50 percent from 16 to 8 active 
ships between fiscal year 2016 and fiscal year 2028.

    Senator Shelby. Okay. Will the contract for the ship 
construction be awarded through open competition?
    Secretary Pritzker. It would be awarded, yeah, I believe 
so. Yes. Yeah, absolutely.
    Senator Shelby. Thank you.
    Secretary Pritzker. I don't know any reason why it isn't.
    Senator Shelby. Thank you a lot. Senator Coons.
    Senator Coons. Thank you.
    Senator Mikulski. Excuse me, Senator Coons.
    Senator Coons. Yes, ma'am.
    Senator Mikulski. Madam Secretary, I'm needed at the 
Capitol, because of the Homeland Security.
    Secretary Pritzker. Yes.
    Senator Mikulski. We're going to follow up. Thank you for 
the great job you're doing. And aren't we proud of these new 
members and how engaged they are?
    Secretary Pritzker. Absolutely.
    Senator Shelby. Thank you.
    Secretary Pritzker. Thank you.
    Senator Shelby. Thank you, Senator Mikulski. Senator Coons.

                             MANUFACTURING

    Senator Coons. Thank you, Chairman Shelby and Vice Chair 
Mikulski. As you well know, Madam Secretary, I'm an enthusiast 
for manufacturing.
    Secretary Pritzker. Yes.
    Senator Coons. And look forward to continuing to work with 
you on promoting manufacturing nationally. Last October, I 
participated in Manufacturing Day, touring a variety of 
manufacturing plants up and down my State, and was joined by 
NIST director, Dr. May, and associate director, Dr. Singerman, 
and we had a great time visiting Air Liquide, and PPG, and 
Hirsh Industries. And I'm just grateful that you and your 
department and its leadership have been so engaged in all the 
challenges and issues facing manufacturing.
    One of the things we saw that day was the real challenge in 
the reputation that manufacturing has with young people, 
getting guidance counselors and parents to recognize that 
modern manufacturing is cleaner, more advance, higher paying, 
uses a wider range of skills than the manufacturing of 20 or 30 
years ago.
    So first, I'd love your input on what we're doing together 
and what more we could do to help persuade young people that 
manufacturing jobs are fundamentally different and ensuring 
that they are engaged and attracted to it as an option, and 
that we're investing enough in their skills.
    And related to it, is the MEP, the Manufacturing Extension 
Partnership, I'm pleased your budget request is at $141 
million. I think it's a tremendous and effective program. It's 
had a big impact up and down my State, and they typically 
generate three dollars for every one Federal dollar. There have 
been some challenges in my State in terms of raising the match, 
and I would be interested in your thoughts about whether or not 
the MEP match ratio is too high.
    It has prevented them from working with some smaller 
businesses, some more rural companies that had difficulty 
raising the match. MEP charges fees in order to get the match. 
And in my view, that cost share may actually be defeating the 
broader purpose, which is to deliver timely and efficient and 
effective interventions that promote exporting, promote hiring, 
promote growth for the small and medium manufacturer.
    So if you'd answer those two questions on manufacturing, 
we'll move onto one other topic.
    Secretary Pritzker. Certainly, Senator. In terms of the 
image of manufacturing and what are we doing about both the 
image and skills acquisition, as you know, I've made skills a 
priority for the Department of Commerce. In terms of the image 
of manufacturing, Manufacturing Day is only one day. We had 
50,000 young people go through. I think we doubled the number 
of companies. Over 1,500 companies opened their doors in their 
communities and had kids and their families. And most 
importantly their guidance counselors visiting modern 
manufacturing plants so they could understand what is a career 
today in the 21st century and manufacturing in the United 
States of America.
    I do think it's misunderstood. It's something both the 
Advanced Manufacturing Partnership that the President oversees 
and I'm a part of, as well as the Manufacturing Council that 
reports to me at the Department, are focused on a number of 
initiatives to improve the image of manufacturing.
    In terms of the MEP match, we are in the middle of 
recompeting our MEP relationships around the country. We just 
did ten of them. We changed the match from two to one to one to 
one for exactly the reason you're talking about. The small and 
medium size companies were struggling to be able to take 
advantage of the much needed services that MEP offers to help 
them garner 21st century processes and capabilities that keep 
their companies globally competitive.

          INTERNET CORPORATION FOR ASSIGNED NAMES AND NUMBERS

    Senator Coons. Let me ask about a very different field for 
a moment, if I might, which is ICANN. When I was in the private 
sector, I did some work around web domains and website 
acquisition and control. We had a trademark, the company I was 
in, that had been inappropriately taken over as a web domain by 
a company with no relationship to it. And I got involved in 
this, this was a long time ago, and was struck how, at that 
point, NTIA was playing a critical role in oversight of ICANN, 
excuse me, the Internet Corporation for Assigned Names and 
Numbers, which I think is widely known to the small community 
of people who pay a lot of attention to this.
    And I'm frankly very concerned that there is a proposal to 
transition ICANN completely away from Commerce Department 
oversight and management. And I just want to make sure that 
ICANN is really prepared to make that transition and will have 
adopted some core key principles about protection from 
government capture, budgetary restraint, and a separation of 
functions. And this is something I wrote to you about back in 
December and cosponsored a resolution that passed the Senate, 
calling for these reforms before there is any transition. I 
just wanted to make sure that I had your sense of whether you 
thought these reforms were important to complete before there's 
any movement towards it.
    Secretary Pritzker. Well, Senator, I share your concern. I 
think the transition, the IANA transition, is one that's 
important, because there are downsides for our engagement 
there. Having said that, making sure that ICANN can responsibly 
continue to carry out that function, making sure that it is 
multi-stakeholder managed and driven, making sure it meets the 
needs of customers and in a timely and efficient manner, and 
that we remain a free and open Internet, all of those are 
priorities.
    We are awaiting proposals. We're not in any rush. We're 
working very carefully with ICANN, but we're waiting for 
proposals as to how they can make sure they would satisfy all 
those performance requirements, and also proposals for how they 
will improve the accountability of ICANN, so that there cannot 
be what I call a hostile takeover of the board of ICANN.

                 HERBERT C. HOOVER BUILDING RENOVATION

    Senator Coons. Good. Please. I'm very concerned about that, 
and I'm glad you're moving deliberately. As we're talking about 
performance, just on a side point, part of your budget request 
is $24 million for renovating the somewhat dated Commerce 
central office and headquarters buildings. And I just wondered 
whether you had looked at an Energy Services Performance 
Contract, or an ESPC, as a mechanism for achieving savings in a 
way that is, I think, creatively and appropriately financed.
    I used ESPCs both in county government and in the private 
sector, and I'm joining with Senator Gardner in trying to make 
sure that the Federal Government is able to take advantage of 
this as an opportunity. I see several heads nodding behind you 
vigorously.
    Secretary Pritzker. Yes. Yes, we have.
    Senator Coons. So I'm glad to know that you've taken a hard 
look at that.
    Secretary Pritzker. Senator, one of the things that we're 
doing, I think the theme of our budget is about invest to save. 
When I arrived, as you know, one of my business endeavors prior 
to this was being in the real estate business. We do not 
efficiently use our building as it is. One of the things that 
we are doing is--and we brought in Gensler to help us to look 
at how we use our space, because the modeling plan that was in 
place was one that was really just fix the heating and cooling 
and electrical and put it back the way it was. That makes no 
sense in the 21st century.
    So we actually took part of the space that was, at that 
time, under renovation, and have created a pilot that we're now 
going to replicate throughout the building that's much more of 
what I would call open space contemporary office usage. It's 
far more efficient.
    And the other thing that we're trying to do is do the 
renovation in fewer chunks, because this was going to go out 
over decades, and get it done more quickly. It will allow us to 
give more of our space back and to have it be used for other 
purposes and to use the space more efficiently, but also 
provide an environment that's effective and efficiently, and 
allows us, frankly, to attract talent, which is an issue that 
we've got in an 80-year old building. People walk in, they 
don't want to work there. And so that's a challenge that we've 
got.
    So what we're trying to do is, this is not just about 
fancying up our space. This is about making it more productive 
for the American taxpayer.
    Senator Coons. Thank you. I have two other questions I'll 
just reference briefly, and perhaps my office will submit them 
record. I'm trying to be respectful of the Chairman's time.
    First, as the lowest mean elevation State, Delaware has 
great concerns as to why about a resiliency and planning. We've 
just had evidence that the sea level rise of the last few years 
was unexpectedly significant in the Mid-Atlantic and 
Northeastern states. We face both subsidence, which is the 
natural geologic movement down of the part of the coast that 
we're on, and a rise of sea level. I'm just wondering what 
NOAA's budget might provide for coastal resiliency.
    Last, hubs. The National Network for Manufacturing 
Innovation, as you know, I was bitterly disappointed Delaware 
was not selected for the last competition but remained very 
enthusiastic about it programmatically. I think it is a 
tremendous investment for the American people, a wonderful 
model for promoting and accelerating innovation, and would 
welcome any brief comments you care to make about how that will 
move forward and how that will continue to accelerate 
innovation and manufacturing.
    Secretary Pritzker. Well, as for resiliency, our budget 
calls for expenditures at NOAA to provide resiliency products 
to states and local governments as well as to the private 
sector. There's enormous demand for products to understand what 
is happening with the rise of sea level, with drought, with 
different changes as a result of what's going on both with our 
weather as well as with our climate.
    In terms of NNMI, we have proposed in our budget that we 
will both create the network of the existing and to be planned 
manufacturing institutes which is called for in the Revitalize 
American Manufacturing and Innovation Act (RAMI) legislation 
that was passed at the end of last year. That's a $10 million 
budget item.
    And then we've asked for $70 million each for two different 
institutes that their unique characteristic would be from the 
other institutes--obviously, these remain institutes that bring 
together the private sector as well as all the various 
stakeholders, including universities and the community colleges 
and the supply chain. But these would be technologies chosen or 
proffered by the private sector as opposed to by government as 
the most technologies, would be the ones that we would want to 
focus on.
    Senator Coons. Terrific. Madam Secretary, thank you for 
your service and leadership. Mr. Chairman, thank you for your 
forbearance with my questions.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Thank you, Senator. If there are no further 
questions, and I don't believe there are this morning, Senators 
may submit additional questions for the subcommittee's official 
hearing record, and we'd request a Department of Commerce 
response to those questions, if there are.
    Secretary Pritzker. Absolutely.
    Senator Shelby. Madam Secretary, thank you for appearing 
today before the subcommittee.
    Secretary Pritzker. Thank you.
    Senator Shelby. We look forward to working with you. And 
we've requested a lot of information, that I'm sure you will 
make sure it's forthcoming.
    Secretary Pritzker. Absolutely.
    Senator Shelby. Thank you.
    Secretary Pritzker. Mr. Chairman, thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Penny Pritzker
            Questions Submitted by Senator Richard C. Shelby
                             cybersecurity
    Question. The Commerce, Justice, and Science (CJS) Subcommittee 
strongly supports and continues to prioritize cybersecurity initiatives 
at the Department of Commerce. However, despite the subcommittee 
providing funds for critical cybersecurity upgrades, the Inspector 
General has found persistent deficiencies that make the Department 
vulnerable to cyber-attacks.
    How would the Department's fiscal year 2016 budget request 
specifically address cybersecurity concerns outlined by the Department 
of Commerce Inspector General's written testimony to this subcommittee?
    Answer. The Department's fiscal year 2016 request supports concerns 
expressed by the Commerce Inspector General by:
  --Replacing outdated equipment and software tools with new software 
        tools and more capable sensors on the Department's networks. 
        These will be connected to the Commerce Computer Incident 
        Response Team (DOC-CIRT) and computer security monitoring 
        teams, resulting in enhanced detection and mitigation of cyber 
        threats and vulnerabilities.
  --Adding watch officers and cyber forensic experts to our DOC-CIRT.
  --Adding skilled cyber contractor support for conducting the supply 
        chain risk analyses mandated by Section 515 of Public Law 113-
        235.
  --Establishing the Department-wide trust identity management 
        solution, which will increase the overall security posture of 
        the Department's data and systems.
    Question. How would the fiscal year 2016 request help expedite and 
sustain Department-wide cybersecurity initiatives, such as the 
Enterprise Cybersecurity Monitoring and Operations (ECMO) and the 
Enterprise Security Oversight Center (ESOC) initiatives?
    Answer. The fiscal year 2016 request would accelerate the 
capability to provide relevant computer data feeds from Commerce 
Headquarters to the Enterprise Security Oversight Center (ESOC). The 
request additionally supports the ability to provide real-time access 
to the Enterprise Cybersecurity Monitoring and Operations (ECMO) data 
which provides the current cyber risk profile and status of Commerce 
information technology assets, both hardware and software.
    Commerce will continue to leverage the Department of Homeland 
Security's Continuous Diagnostics and Monitoring (CDM) program to 
deploy and integrate additional capabilities.
    Question. What cybersecurity deliverables can the Department 
highlight from fiscal year 2014 and fiscal year 2015, that best justify 
the top cybersecurity-related items included in the Department's fiscal 
year 2016 request?
    Answer. In fiscal year 2014, Commerce reached deployment of 85,564 
ECMO client systems and initiated the ESOC project. As of March 2015, 
ECMO client systems deployment has reached 92,202. The ESOC project is 
a joint venture established between the Commerce Office of the Chief 
Information Officer (OCIO) and the National Oceanic and Atmospheric 
Administration (NOAA). The ESOC began functional operations September 
2014 and led the Department's response to the Shellshock vulnerability.
    In Q4 fiscal year 2014, Commerce conducted the first set of supply 
chain risk assessments for acquisitions targeted for installation on 
Commerce owned and operated National Security Systems and Federal 
Information Security Information Management Act (FISMA) High-impact 
systems.
    In Q1 fiscal year 2015, the ESOC achieved initial operating 
capability by establishing basic security operations tools and network 
connectivity from our NOAA-partner site. This capability includes the 
ability to automatically share indicators of compromise across the 
Department and ability to ingest cyber security intelligence feeds into 
the ESOC security event information management system. The ESOC will be 
fully staffed in early Q3 and will begin 24x7 operations by the end of 
Q3 fiscal year 2015, significantly increasing the ability of the 
Department to rapidly detect and identify cyber security threats and 
incidents.
    Effective January 1, 2015, the Department implemented policy 
requiring all operating units to centrally report all cybersecurity 
incidents via the Commerce Computer Incident Response Team. Previously, 
several bureaus independently reported computer incidents to US-CERT. 
This previous policy left the Office of the Secretary unaware of some 
incidents.
    In February 2015, the Department reached 100 percent compliance in 
its implementation of Domain Name System Security Extensions (DNSSEC).
                              noaa vessel
    Question. The Department proposed $147 million for construction of 
a new NOAA vessel in its fiscal year 2016 budget request. While I am 
concerned with the future of NOAA's fleetpotentially losing half 
between now and 2028, this subcommittee finds it difficult to justify 
supporting such a large capital expense without a plan from the 
administration to address the broader issue. In order to provide 
adequate and fiscally responsible funding for NOAA to update its fleet, 
this subcommittee needs the Department to provide context and a 
proposed path forward to ensure critical mission work, such as ocean 
floor mapping and fisheries management, is not put at risk.
    When will the administration be in a position to provide this 
subcommittee and Congress with NOAA's future fleet recapitalization 
requirements, including vessels that are planned to be taken out of 
service and vessels or technology planned for their replacement, 
similar to the information that was provided in the 2008 NOAA Ship 
Recapitalization Plan?
    Answer. The request in the fiscal year 2016 President's budget of 
$147 million for the construction of a new Ocean Survey Vessel (OSV) is 
based on a robust requirement validation and analysis process and 
supports several NOAA missions.
    NOAA also continues to work closely with the NOAA Fleet Advisory 
Committee, a group of external experts from other Federal agencies 
involved with the management of at-sea assets. Committee membership 
includes representation from the U.S. Navy, U.S. Coast Guard, National 
Science Foundation, Bureau of Ocean Energy Management, Environmental 
Protection Agency, and University-National Oceanographic Laboratory 
Systems.
    Per the Federal Oceanographic Fleet Status Report, released May 
2013 by the National Ocean Council, the Federal oceanographic fleet 
will experience a 50 percent decline in the number of active vessels by 
2026 without further modernization. Without an investment, NOAA 
estimates that its fleet will decline by 50 percent from 16 to 8 active 
ships between fiscal year 2016 and fiscal year 2028.
    NOAA is currently analyzing its current and future fleet 
capabilities to ensure that its mission critical priorities are 
addressed in the most cost-effective and efficient manner, and we will 
use this information to guide future fleet investments. This 
challenging but important exercise will help us develop the best path 
forward in support of core work such as ocean floor mapping and fishery 
management, and we will share some of the results of that exercise when 
they become available.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                             arctic policy
    Question. Last year, I began almost all budget hearing with a 
question on the Arctic, and I will be doing so again this year. In 
April, the U.S. assumes the chairmanship of the Arctic Council, and 
beyond the issue of climate change, it is not clear to me what our 
national strategy in the Arctic is. Searching through your budget 
documents, the term ``Arctic'' only appears a handful of times, and is 
mostly in reference to oil spill response and studying the effects of 
``human-induced change on Arctic ecosystems.'' The Commerce 
Department's jurisdiction is so much broader than this, so I hope this 
is not all your department is doing in terms of Arctic policy.
    Please tell me what are the specific Arctic priorities of the 
Department of Commerce?
    Answer. The Administration's 2013 National Strategy for the Arctic 
Region (hereafter, Strategy) (https://www.whitehouse.gov/blog/2013/05/
10/national-strategy-arctic-region-announced) and the priorities 
developed for U.S. Arctic Chairmanship of the Arctic Council are the 
latest statements of U.S. policy in the Arctic, and all actions by 
Department of Commerce agencies fit within the goals and tenets set 
forth in these documents. Within Commerce, NOAA is the primary agency 
that executes the priorities set forth in the strategy. To support the 
strategy and provide NOAA scientists, stakeholders, and partners a 
roadmap to make shared progress, NOAA developed the 2014 Arctic Action 
Plan (http://www.arctic.noaa.gov/NOAAarctic
actionplan2014.pdf ).
    In support of the Strategy and the NOAA Action Plan, NOAA is 
working on:
  --filling gaps in Arctic weather/sea ice observations, forecasts and 
        warnings;
  --improving understanding of climate impacts on biological resources; 
        and
  --improving navigation services.
    Question. In your role as Secretary of Commerce, what are your 
directives to the agency in terms of Arctic policy?
    Answer. The Department of Commerce supports the National Strategy 
and our work in the Arctic region fits within that strategy to better 
position the United States to respond effectively to emerging 
opportunities while simultaneously pursuing efforts to protect and 
conserve this vast, valuable, and vulnerable region. Our work in the 
Arctic Region establishes the foundation for U.S. Arctic development in 
support of
  --advancing our security interests;
  --pursuing responsible Arctic region stewardship, and
  --strengthening international cooperation.
    Question. What, if any, focus does the agency have on better 
understanding the Arctic and growing our Arctic infrastructure?
    Answer. The Department, mainly through NOAA, is actively engaged in 
the Arctic, providing science, service, and stewardship to this rapidly 
changing region, its inhabitants, and the Nation. Through its broad 
range of activities, NOAA is well prepared to make significant 
contributions, to the extent possible within existing resources, to all 
three lines of effort in the national strategy.
    Advancing U.S. security interests in the Arctic requires improved 
maritime domain awareness for which NOAA's weather and sea ice 
forecasts are critically important. NOAA's sea ice research strengthens 
forecasts of both ice and weather conditions and improves understanding 
of the links between sea ice and climate. As a result of this research, 
the complicated linkages among melting sea ice, changing climate, and 
weather patterns in the Arctic and around the globe are becoming more 
apparent, allowing for better planning to cope with and capitalize on 
Arctic change.
    NOAA plays a key role in pursuing responsible Arctic region 
stewardship. Foundational science enables better understanding of 
Arctic ecosystems, the atmosphere, climate, and their dynamic 
interconnections. NOAA's fisheries research and management programs are 
likewise vital, particularly for the economically important U.S. Bering 
Sea fisheries. Research and stewardship of marine ecosystems and 
protected species like marine mammals promote sustainable use, 
conservation, and protection from potential impacts of offshore 
development, increased shipping, and environmental degradation. NOAA 
provides important services to coastal communities by improving safe 
Arctic maritime access with mapping and charting, as well as increasing 
preparedness and communities' resilience to intensifying weather. NOAA 
is also an important partner in hazard response and mitigation (e.g., 
providing scientific support to the U.S. Coast Guard after oil spills). 
Research relevant to oil spills, sea ice, and marine ecosystems will 
help to prepare for and protect against potential environmental 
disasters in the Arctic.
    All of NOAA's Arctic activities are united in one aspect: 
leveraging national and international partnerships and collaborating to 
support common Arctic goals. NOAA works collaboratively through the 
Arctic Council on joint research opportunities, and provision of 
services. NOAA also has many successful Arctic national partnerships, 
within and outside the Federal Government. Existing partnerships will 
be strengthened and new ones developed in the coming years as NOAA 
continues its work to address the Nation's challenges in the Arctic.
    Specifically in terms of infrastructure, NOAA is engaged in the 
following:
  --assessing Arctic maritime infrastructure gaps in conjunction with 
        the U.S. Committee on the Marine Transportation System;
  --the National Telecommunications and Information Administration's 
        Arctic telecomm assessment; and
  --oil spill preparedness and response infrastructure enhancement 
        efforts with the U.S. Coast Guard, the Bureau of Ocean Energy 
        Management, the State of Alaska, and international partners.
                national strategy for the arctic region
    Question. Within the Administration's Implementation Plan for its 
National Strategy for the Arctic Region, the Department of Commerce is 
identified as the lead agency for four programs: Develop Communication 
Infrastructure in the Arctic (National Telecommunications and 
Information Administration); Conserve Arctic ecosystems (NOAA); 
Implement the Pilot Distributed Biological Observatory in the Pacific 
Arctic (NOAA); and Chart the Arctic Region (NOAA). The Department is 
also designated as a support agency for a number of other projects.
    What funding is included in your fiscal year 2016 budget request 
for the programs for which Commerce has the lead, as well as any other 
Arctic-related programs within your purview?
    Answer. NOAA is the lead agency for three objectives in the NSAR 
Implementation Plan: Conserving Arctic Ecosystems, Implement the Pilot 
Distributed Biological Observatory in the Pacific Arctic, and Chart the 
Arctic Region. NOAA is a supporting organization for nearly two dozen 
objectives in the NSAR.
    Work on the associated activities with agency partners is 
progressing within existing resources. In 2016, NOAA estimates $110 
million, including reimbursable funding, to continue to provide and 
develop products and services in support of its Arctic strategic goals 
(this includes funding transferred to NOAA for research needed by 
external partners). The largest share of NOAA Arctic funding is 
directed to supporting Arctic region stewardship, with substantial 
investments also being made to advance U.S. security interests and 
partnerships.
    The fiscal year 2016 request proposes increases for
  --arctic spill preparedness ($1.3 million);
  --implementing a distributed biological observatory to detect climate 
        and human-induced change on Arctic ecosystems ($0.9 million); 
        and
  --supporting northward development of NOAA's Arctic Observing Network 
        ($2.2 million).
                              ringed seals
    Question. First, I would like to thank you for the work you have 
done and the efforts NOAA has made to work with Alaskans and fisherman 
on Stellar Sea Lion restrictions. This is an example of the agency and 
Alaskans working together and I hope we can continue this in the 
future. By the same token, I would like to bring to your attention to 
what is happening right now with the Ringed Seal. It is outrageous for 
NOAA to propose critical habitat for the Ringed Seal that stretches 
350,000 square miles, based on a 100 year weather prediction despite no 
sign of population decline and the Ringed Seal occupying its entire 
historical range. This proposed critical habitat will have very real 
impacts on the economic livelihood and survival of an entire region of 
Alaska, stretching from the border of Canada to the EEZ. The effects 
will span not only great distances, but through our State's fibers, 
from local recreation to subsistence lifestyles.
    Secretary Pritzker, how can you justify such action despite the 
overwhelming lack of evidence supporting it and how much is the Agency 
proposing to spend on this proposal, including implementation of any 
current or future proposed rulemaking?
    Answer. NOAA listed the Arctic subspecies of ringed seals as a 
threatened species under the Endangered Species Act (ESA), effective in 
February 2013. The primary threat to this species is the loss of 
suitable sea ice habitat, including ice with sufficient snow depth for 
the formation of lairs the seals use to give birth and nurse their 
pups. The best available scientific information indicates that the 
effects of habitat loss caused by climate change are likely to develop 
over the next 50 to 100 years.
    The ESA requires that NOAA designate critical habitat for listed 
species. NOAA's proposed rule to designate critical habitat identifies 
three physical and biological features that are essential to the 
conservation of Arctic ringed seals: sea ice suitable for the formation 
and maintenance of the lairs (snow caves) used for sheltering pups 
during whelping and nursing, sea ice suitable as a platform for basking 
and molting, and primary prey resources to support Arctic ringed seals 
(Arctic cod, saffron cod, shrimps, and amphipods).
    Arctic ringed seals have a wide geographic range and a broad patchy 
distribution. The sea ice they depend upon is spatially and temporally 
dynamic, changing throughout the months when sea ice is present. The 
area proposed for designation as critical habitat is large because NOAA 
did not have sufficient information to identify a smaller area, such as 
data on the distribution and relative abundance of ringed seals that 
might indicate habitat areas that contribute the most toward 
reproduction and pup survival. In the proposed rule NOAA solicited 
public comments on the areas to be identified as critical habitat and 
areas that should be considered for potential exclusion. NOAA is also 
having the proposal peer-reviewed by external scientists before we 
proceed with a final rule.
    The process of designating critical habitat for Arctic ringed seals 
will likely cost NOAA about $850,000 over the course of fiscal year 
2013-fiscal year 2016, including costs for staff time, required 
economic analysis, legal review, and public hearings.
    Section 10(e) of the ESA specifically provides for the taking of 
threatened or endangered species by Alaska Natives for subsistence 
purposes, providing such taking is not accomplished in a wasteful 
manner. Based on the numbers of subsistence harvested animals reported 
via the Ice Seal Committee (an Alaska Native co-management organization 
under the Marine Mammal Protection Act), the level of subsistence 
harvesting for Arctic ringed seals is not a concern for the population. 
Therefore, NOAA has not proposed and is not contemplating any 
restrictions on continued subsistence harvests by Alaska Natives.
    Question. Further, the agency has previously claimed that there 
would be no local subsistence impacts, where does this information come 
from and how can it be proven?
    Answer. See response above.
              hydrographic charting & ocean survey vessel
    Question. Modern, accurate geospatial information is critical to 
producing high quality navigation charts, which are to navigation, 
public safety, infrastructure planning, and resource management. This 
is particularly important in Northwest Alaska and the Arctic, where 
increased maritime traffic in the Bering Straits region and in the 
Arctic underscore the need for current hydrographic information. In 
some areas, the ``state-of-the-art'' mapping information still relies 
on lead-line survey work conducted by Russian whalers in the 1800s 
while there are still huge gaps in modern charts in the waters off 
Northwest Alaska and the Bering Straits Region in U.S. Arctic waters. 
This creates unnecessary risks for mariners and local communities. With 
the increasing maritime traffic in the Bering Straits region and in the 
Arctic there is even more need for modern charts. There is an urgent 
need for updated charts, yet NOAA has indicated that it has an 85 year 
backlog for hydrographic surveys in Alaska.
    Secretary Pritzker, your agency plays a critical role in supporting 
hydrographic charting, including in the Arctic and Bering Straits 
Region. Last year we discussed hydrographic charting and what it means 
to my State and economic development in the Arctic. You'll recall that 
I asked you about your commitment to dedicating the necessary resources 
to conduct hydrographic surveys and prepare navigational charts 
adequate to address the increasing maritime traffic in these regions. 
In your answer, you stated that NOAA has developed a 5-year 
hydrographic survey plan to identify about 40,000 square nautical miles 
of critical area and address the most critical survey needs in Alaska. 
You also stated that NOAA planned to resume full Arctic operations in 
2015 under the President's budget request. What steps have been taken 
toward this 5-year plan, what Arctic operations have resumed, and what 
does full operations mean?
    Answer. NOAA continues to implement its 5-year hydrographic survey 
plan, which prioritizes and addresses the most critical survey needs in 
Alaska (and elsewhere). With the requested base resources in fiscal 
year 2016, NOAA plans to survey at least 500 square nautical miles in 
the Arctic, a continuation of the fiscal year 2015 resumption of full 
annual hydrographic survey operations. As a result of mechanical issues 
with the NOAA Ship Fairweather and budget uncertainties associated with 
the Government shutdown in October 2014, NOAA was forced to cancel many 
Arctic surveys planned for 2014. In fiscal year 2015 and beyond, NOAA 
plans to employ one surveying contractor and the NOAA survey vessels 
Rainier and Fairweather. In addition, the U.S. Coast Guard Cutter Healy 
will acquire depth measurements while transiting to evaluate 
requirements for future charting updates.
    Question. This year, you are requesting $147 million for 
construction of an ocean survey vessel. If this vessel is constructed, 
will it be built with the capabilities to operate in the Bering Sea and 
Arctic Ocean, helping to reduce the backlog of needed hydrographic 
surveys? If not, what are the Department's other plans for producing 
modern nautical charts in the Arctic?
    Answer. The requested Ocean Survey Vessel (OSV) will be tasked with 
operating in numerous challenging environments, many of which will be 
near U.S. borders and in the U.S. Exclusive Economic Zone (EEZ). The 
coastal areas are divided into four main regions, including: the 
Northeast, Southeast, Western, and Alaska. Additionally, the OSV will 
perform research in other regions within the design limitations of the 
vessel such as portions of the Arctic, Antarctic, and Pacific Islands, 
as well as within Marine Sanctuaries and Marine Protected Areas. The 
OSV is designed with the ability to map the ocean floor for updating 
nautical charts. In future years, NOAA will continue to acquire 
hydrographic survey data in the Arctic using a combination of NOAA's 
hydrographic survey ships and contractors.
                         electronic monitoring
    Question. At the Headquarters level, year after year it seems as if 
NOAA supports efforts to deliver cost-effective and sustainable 
electronic data collection solutions. The goal here is to validate the 
functionality of cameras, facilitate the collection of data, and 
improve the logistics of deploying electronic monitoring equipment on 
small fishing boats in Alaska. When I met with you last year you 
expressed an understanding of the importance of this issue in Alaska, 
and the potential for it to benefit fisheries around the Nation. 
However, efforts to make progress on the water in Alaska are hampered 
at the Regional level and I am concerned that the staff in the Alaska 
region are not working effectively. Further, despite continued promises 
by Headquarters staff, small boat fisherman are having serious problems 
receiving hardship waivers for lack of bunk space due to the observer 
program.
    Secretary Pritzker, can you commit to working with me to not only 
ensure that NOAA is dedicating the resources necessary to make progress 
toward the deployment of viable electronic monitoring technologies on 
vessels, like we agreed to do last year, but also to bridging the gaps 
between Headquarters and the Regional Offices on goals, plans, and 
actions?
    Answer. The fiscal year 2016 President's budget requests 
approximately $7 million to support further development of cost-
effective, appropriate technologies for monitoring Federal fisheries. 
Of this amount, $5.6 million is requested within the Fisheries and 
Ecosystem Science Programs and Services for development, testing, and 
installation of electronic monitoring and reporting technologies across 
the country. The remaining $1.5 million is requested under the 
Fisheries Management and Programs and Services to expedite the use of 
appropriate electronic technologies.
    This past year, NOAA Fisheries developed a national policy on the 
implementation of electronic monitoring and reporting, with the intent 
to stimulate regional implementation of these systems. To this end, the 
Alaska Regional Office and Science Center have developed an Alaska 
Region Electronic Technologies Implementation Plan for initiatives that 
are currently being undertaken in Alaska. This plan has been endorsed 
by the North Pacific Fishery Management Council (Council) and shows how 
committed NOAA is to advancing electronic monitoring technology in 
Alaska fisheries. Indeed, NOAA is working with the National Fish and 
Wildlife Foundation to provide $4 million in fiscal year 2015 for 
national implementation of electronic monitoring and reporting. A 
significant portion of these funds are expected to go to Alaskan 
fisheries.
    As we move into implementation in Alaskan fisheries, we look to the 
Council's Electronic Monitoring workgroup for advice. This workgroup 
includes industry representatives as well as staff from the Council, 
the Pacific States Marine Fisheries Commission, and both NOAA 
Fisheries' Alaska Regional office and Alaska Fisheries Science Center. 
The workgroup was established so that industry, agency, and electronic 
monitoring service providers have a forum to cooperatively and 
collaboratively design, test, and develop electronic monitoring 
approaches that are consistent with Council goals and objectives to 
integrate electronic monitoring into the observer program.
    The Council's Electronic Monitoring workgroup has developed an 
Electronic Monitoring Cooperative Research and Implementation Program 
that describes analytical and fieldwork projects targeted for 2015 to 
address:
  --Deployment and operation testing of electronic monitoring systems 
        on 12 vessels. Vessels participating in the electronic 
        monitoring cooperative research are relieved of the requirement 
        to carry an observer.
  --Research and development of electronic monitoring technologies.
  --Infrastructure to support electronic monitoring implementation.
  --Analyses to support electronic monitoring implementation decision 
        points.
    This cooperative research in 2015 will collect information that 
will inform 2016 pre-implementation decisions by the Council and the 
Regional Office, assess the efficacy of electronic monitoring for catch 
accounting of retained and discarded catch, identify key decision 
points related to operationalizing and integrating electronic 
monitoring systems, and develop performance standards and operational 
requirements in regulations. Part of the discussion of 2016 pre-
implementation in the small boat longline fleet will focus on vessels 
that have trouble carrying an observer.
    Finally, NOAA is working with the Council to integrate electronic 
monitoring tools into the Observer Program for the fixed gear small-
boat groundfish and halibut fisheries (2015 Annual Deployment Plan for 
Observers). The intent is to develop electronic monitoring to collect 
data to be used in catch estimation for this fleet.
                  marine mammal deterrence guidelines
    Question. Alaskans are fishermen and fishermen must use some means 
of deterrence for marine mammals. On my most recent trip to Juneau, I 
met with the United Fishermen of Alaska who brought up concerns 
regarding NOAA publishing a Notice in the Federal Register of its 
Intent to Issue Guidelines with respect to marine mammal deterrence 
devices and techniques that are used by commercial fisherman. The 
details of what is happening have been hard to find and there has been 
very little information disseminated about reasoning or plans. This is 
concerning for Alaskan fisherman and I echo their concerns.
    On December 16th, this notice was published and the comment period 
just ended on January 15, 2015. What is the current state of these 
guidelines? Where do you see this process leading?
    Answer. The Marine Mammal Protection Act (MMPA) section 101(a)(4) 
provides an exception to the prohibition of take for fishermen to deter 
marine mammals for the purpose of protecting fishing gear and catch, 
provided the deterrent does not result in serious injury or mortality. 
NOAA received over 50 comments in response to our notice requesting 
information from the public on which non-lethal deterrents to evaluate 
and consider for approval pursuant to the Marine Mammal Protection Act. 
Several comments provided specific information on both acoustic and 
non-acoustic devices and techniques to safely deter seals, sea lions, 
whales, and dolphins. NOAA subsequently convened a technical expert 
workshop to review the devices/techniques submitted by the public. 
Nearly all scientific information currently available focuses on the 
effectiveness of the deterrent and not on a deterrent's impact to the 
marine mammal; however, the Marine Mammal Protection Act requires that 
any deterrents used not result in serious injury or mortality of marine 
mammals. Therefore, the experts (e.g., veterinarians, acousticians, 
marine mammal biologists) at the workshop evaluated the potential 
likelihood and severity of impacts to animals that could potentially 
result from a deterrent. NOAA will take the input from the workshop and 
develop guidelines for safely deterring marine mammals as well as 
specific measures for marine mammals under NOAA's jurisdiction, 
including those listed under the Endangered Species Act. These 
guidelines and specific measures will go out for public comment. NOAA 
anticipates publishing a proposed rule in early 2016.
                       fisheries finance program
    Question. The President's fiscal year 2016 budget request includes 
proposed language to authorize $100 million for fiscal year 2016 in 
direct loan authority for NOAA's Fisheries Finance Program (FFP) 
Account as authorized by the Merchant Marine Act. FFP loans have a 
negative subsidy rate and no appropriated funds are required. I have 
supporting the proposed language which I believe will increase 
opportunities for vessel owners to build and refinance new vessels and 
make major modifications to existing vessels to improve fishing vessel 
safety. These loans will help the fleet modernize and provide 
significant economic benefits to shipyards and support industries.
    Last year, you explained that the Advance Notice of Proposed 
Rulemaking was currently being developed to seek industry input and 
that the rulemaking process would be completed by the end of the year. 
Could you please update me on the ANPR and the status of FFP Loans?
    Answer. NMFS published its Advance Notice of Proposed Rulemaking 
(ANPR) on June 13, 2014, and received 10 comments from the public as 
well as an inquiry from the Government of New Zealand. NMFS is 
reviewing the comments consistent with the rulemaking process. NOAA 
Fisheries is still reviewing and considering its response to those 
comments. Although, the Spring 2015 Semiannual Agenda of Regulations 
identifies that the proposed rule will be issued in July 2015, the date 
will have to change pending completion of review of public comments on 
the ANPR.
                          ocean acidification
    Question. Integrated Ocean Acidification has seen increased funding 
from fiscal year 2014 to fiscal year 2016 to the tune of $24 million, 
leaving the fiscal year 2016 budget request at $30 million. This is 
much needed funding to address a very real issue facing our oceans, 
however, it is unclear how and where this money is distributed.
    My question to you, is how much of this increase will go towards 
Alaska and the Arctic?
    Answer. To date, NOAA research and monitoring within Alaskan and 
Arctic waters has fared comparatively well within the merit review 
system established by the Ocean Acidification Program (OAP). In fiscal 
year 2014, 34 percent of the total OAP directed research investments 
were devoted to investigating the effects of ocean acidification on 
Alaska fisheries, notably various king crab species.
    Given the geochemical setting and societal dependence on impacted 
species in the region, Alaska coastal waters have been identified as a 
potential `hot-spot' with respect to ocean acidification. This habitat 
naturally exhibits waters which are seasonally corrosive to shelled 
organisms and is undergoing rapid change in response to climate 
warming. The warming waters cause accelerated melting of glacial ice, 
which can further exacerbate corrosive conditions in the coastal waters 
off Alaska. As a result, the OAP perceives Alaska research and 
monitoring as a high priority to the program.
    Furthermore, an additional $2.5 million provided to the OAP within 
the Consolidated and Further Continuing Appropriations Act, 2015, has 
given the program the ability to increase its Alaska research and 
monitoring investments. OAP has also leveraged NOAA's fleet to: (1) to 
support the scientific work aboard the Gulf of Alaska Ocean 
Acidification cruise, the first of what NOAA hopes to repeat every 4 
years to monitor Alaska ocean acidification; (2) to adopt the long term 
maintenance of two OA moorings originally procured and maintained by 
the State of Alaska; and (3) to continue and enhance a multi-year, 
technology development project at the Alutiq Shellfish Pride Hatchery 
in Seward, Alaska. This last project was initiated in fiscal year 2014 
in collaboration with the Alaska Ocean Observing System (AOOS). For 
additional information on NOAA's OAP see: http://
oceanacidification.noaa.gov/WhatsNew/OANews/
TurningtheHighBeamsonOceanAcidification.aspx).
    Other significant OAP resources, while not exclusively funding 
Alaska research and monitoring, benefit those efforts. For example, in 
fiscal year 2015 the OAP will invest more than $1.1 million in data 
management, quality assurance, and advanced technology projects that 
provide direct capacity across all the OAP supported research and 
monitoring efforts, including those exclusively focused on Alaska 
waters.
    Alaska will also benefit from work that would be funded through the 
proposed increase of $21.4 million for OAP in the fiscal year 2016 
President's budget. Approximately 50 percent--$10 million--of the 
requested increase will close existing gaps within the Ocean 
Acidification monitoring network and fund biological research 
activities. Alaska will be eligible to apply for approximately $5 
million (about 25 percent of OAP funds) that is made available for 
competitive grants to establish a more efficient and effective 
monitoring system as a key element of the National Ocean Acidification 
Network (NOAN).
    Final fiscal year 2016 allocations for OAP directed research 
investments to Alaska and the Arctic will be determined through NOAA's 
competitive (merit) review process and the fiscal year 2016 enacted 
appropriations.
                           steller sea lions
    Question. NMFS is currently considering revisions to the critical 
habitat designation of the Steller Sea Lion under the Endangered 
Species Act. NMFS has indicated there should be a draft proposed rule 
released in August. Alaskans, especially in the fishing industry and 
affected communities, have expressed concern over the lack of 
transparency and peer review in the process. The North Pacific Fishery 
Management Council, in a letter dated October 28, 2014, made several 
recommendations to strengthen the science and improve the public 
process in this review.
    Do you agree with me that we should work to strengthen the 
scientific analyses, and improve the transparency and communication in 
this important review of Steller sea lion critical habitat? What steps 
will you take to address the Council recommendations to have 3rd party 
independent scientific peer review of the analyses, and provide 
enhanced opportunity for the Council and the public to review and 
comment on these analyses prior to the preparation of the proposed 
rule?
    Answer. NOAA Fisheries is pursuing appropriately rigorous 
scientific analyses and open communication to ensure that any revisions 
to Steller sea lion critical habitat are well supported and that 
stakeholders are well informed. For example, NOAA Fisheries is 
providing regular updates to stakeholders, including the North Pacific 
Fishery Management Council. We held two public meetings specifically to 
solicit information that we should consider during our review of 
Steller sea lion critical habitat an extra step that was not required 
by law, but helped to engage stakeholders. We have informed 
stakeholders that a proposed rule to revise critical habitat for 
Steller sea lions should be released by the end of 2015. We also intend 
to complete independent peer reviews of the biological report from the 
Critical Habitat Review Team and the economics report that will support 
our analysis under section 4(b)(2) of the Endangered Species Act. In 
response to a request from the North Pacific Fishery Management 
Council, we will complete those peer reviews before issuing a proposed 
rule, which will allow the public to consider (during the public 
comment period on the proposed rule) what the peer reviewers had to say 
and how NOAA Fisheries responded. We also plan to hold at least one 
public hearing during the comment period on the proposed rule.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
    Question. I would like to thank the Department and NOAA for 
supporting the Penobscot River Restoration project (over $20 million). 
I am told that this project has raised more private dollars than any 
other river restoration project in the country. Thanks to a partnership 
effort, we are on the cusp of completing what could be one of the 
largest and most successful fisheries restoration efforts in history.
    Across the Gulf of Maine, the restoration of the sea-run migratory 
fish species is essential to rebuilding a thriving ocean fishery and 
healthy river communities. The Penobscot River Restoration Agreement 
has three main components: the removal of the Great Works Dam, the 
removal of the Veazie Dam, and the construction of a bypass of the 
Howland Dam. The first two are complete; the third is pending. It is 
important that NOAA remain committed to seeing through the full 
implementation of the agreement. If NOAA is not able to commit to the 
Agreement, which includes the building of a fish bypass, the project 
will be incomplete and the fisheries benefits will not be maximized.
    Will you help to ensure that NOAA will work with the State of 
Maine, the communities along the Penobscot River, including the Town of 
Howland, the tribes, and the Penobscot Trust to ensure that the 
Agreement is fully implemented in a timely fashion?
    Answer. Yes, NOAA Fisheries is committed to working with the State 
of Maine, the communities along the Penobscot, and the Penobscot River 
Restoration Trust (Trust) in an effort to implement the agreement in a 
timely fashion. As you pointed out, we have committed substantial 
resources to this effort to date and will continue to work with the 
Trust to fully realize the restoration potential of our collective 
accomplishments. We remain committed to restoring access to important 
diadromous species habitats throughout the watershed, and to that end, 
we are working to improve fish passage at a number of different project 
sites in the basin with several other partners in the State including 
the Atlantic Salmon Federation, The Nature Conservancy and the 
Penobscot Indian Nation. In addition, in May 2014 NOAA announced the 
designation of the Penobscot River Watershed as a Habitat Focus Area 
(HFA) under the agency's Habitat Blueprint Initiative. This designation 
creates an opportunity for the agency to combine its fiscal and 
technical resources to comprehensively address fish passage needs in 
the watershed. Through the Habitat Focus Area designation, we are 
working with The Nature Conservancy and local communities to evaluate 
potential dam removal and fish passage projects in portions of the 
watershed.
    The construction of the Howland bypass is well underway and the 
Trust expects to complete the project by October 2015. It is our 
understanding that the Trust raised adequate funding to complete the 
construction of the bypass which allowed them to go forward with the 
project in late 2014. While NOAA Fisheries did not provide funding for 
this component of the project, our staff participated in engineering 
design review with the Trust and the U.S. Fish and Wildlife Service to 
provide technical advice for fish passage for diadromous species and to 
help ensure satisfactory compliance with Federal regulatory 
requirements.
    We look forward to working further with the Trust to enhance fish 
passage effectiveness and project reliability and to design an 
effective maintenance and monitoring plan. Diadromous fish monitoring 
will document the project's success and determine if improvements are 
needed to the bypass channel to ensure the long-term success of this 
project. As stewards of both the resources in the river and the public 
funding supporting this project, we are concerned about the unresolved 
ownership and long-term maintenance and monitoring plan.
    The fiscal year 2016 President's budget request includes an 
increase of $1.3 million for ESA Salmon, part of which is requested for 
Atlantic salmon. With this increased funding, we would be able to 
better support the Maine Department of Marine Resources field 
operations in each of three salmon recovery areas (including the 
Penobscot) enabling better monitoring of adult abundance and freshwater 
production. Additional funding would also be used to better support 
non-governmental organization (NGO) efforts to restore habitat in the 
Penobscot and other critical habitats of the Gulf of Maine Distinct 
Population Segment and to provide more seasonal staff to support salmon 
and diadromous fish passage operation oversight and studies. The new 
fish passage on the Penobscot River requires more seasonal staff to 
ensure salmon safety and sorting from the anticipated 500,000 to one 
million river herring as their populations respond to the dam removals. 
This increased funding will provide support for that essential 
monitoring.
    NOAA Fisheries anticipates publishing several Federal Funding 
Opportunities (FFO) later this year through our competitive Fisheries 
Habitat Restoration and Species Recovery grant programs. Funding 
provided through these Federal Funding Opportunities could support 
other high priority fish passage projects in the Penobscot watershed. 
The fiscal year 2016 President's budget also includes a request to 
substantially expand the Species Recovery Grant Program by $17 million 
potentially providing even more support for Atlantic salmon recovery.
    Question. Earlier this month, NOAA announced its proposal to expand 
the designated critical habitat for endangered North Atlantic right 
whales in the northwestern Atlantic Ocean. Currently, the area in New 
England is comprised of waters off the coast of Massachusetts, 
including Cape Cody Bay. NOAA's new proposal would greatly expand the 
designated critical habitat to include nearly the entire Gulf of Maine.
    I have heard from concerned fishermen and lobstermen in Maine who 
are still trying to understand the implications that this proposed 
expansion might have on their operations. According to NOAA, this 
proposed expansion does not include any new restrictions for commercial 
fishing operations or shipping lanes. It is my understanding, however, 
that NOAA has imposed more stringent fishing restrictions on the 
existing critical habitat. For example, the lobster fishery in Cape 
Cody Bay has been regulated far longer than any other trap fishery, and 
the agency's recent rules regulating vertical lines included the 
closure of Cape Cody Bay to lobster fishing during the winter.
    Will additional restrictions be imposed on commercial fishing 
operations in the Gulf of Maine should NOAA's proposal be implemented?
    Answer. No. The proposed critical habitat will not result in any 
additional fishing restrictions. The fishing gear restrictions in place 
in the former Cape Cod Bay and Great South Channel critical habitat 
areas were implemented to prevent the take of large whales, including 
the North Atlantic right whale, not to protect the essential features 
of right whale critical habitat. Those measures were implemented under 
the Atlantic Large Whale Take Reduction Plan through the Marine Mammal 
Protection Act to address fishing interactions with large whales in 
those areas during specified times.
    The preamble of the proposed rule to revise critical habitat for 
right whales under the Endangered Species Act states that additional 
fishing gear regulations will not be imposed within the proposed right 
whale critical habitat expansion within the Gulf of Maine or Georges 
Bank areas. The proposed rule and 4(b)(2) Impact Analysis explicitly 
state that we have concluded that current fishing practices, with the 
exception of a possible future fishery targeting copepods, will not 
affect the essential features of foraging habitat and therefore do not 
affect critical habitat.
    Question. For years, China has manipulated its currency to provide 
its companies with an unfair trade advantage a problem that has not 
been sufficiently addressed by the U.S. Government. In Maine, China's 
currency manipulation has devastated communities that rely upon paper 
production. Since 2000, Maine has lost nearly half of its jobs in the 
paper manufacturing industry, and in the past year alone, three Maine 
mills have closed their doors and left hundreds of workers suddenly 
unemployed. Other mills may be subjected to a temporary shut down or 
reduction in operations, leaving workers with their jobs, but without a 
steady paycheck. This uncertainty and upheaval causes lasting damage to 
communities.
    Earlier this month, I joined a bipartisan group of colleagues, led 
by Senator Sessions and Senator Brown, in introducing the Currency 
Undervaluation Investigation Act, which would apply the countervailing 
duty law to currency manipulation practices and hold foreign countries 
accountable for these practices.
    How will you ensure that those harmed by currency manipulation can 
have their concerns addressed by the Department of Commerce?
    Answer. The issue of currency manipulation or undervaluation is a 
very important one; the President has made clear that it is 
inappropriate for any country to try to grow its exports by actively 
maintaining an undervalued exchange rate. While the authority to 
monitor and report on currency manipulation rests with the Department 
of the Treasury, Commerce separately has the authority under the U.S. 
countervailing duty law to investigate an allegation that foreign 
producers may be benefitting from unfair subsidies conveyed through a 
foreign government's currency practices, provided the allegation meets 
the requirements for initiating an investigation under the U.S. 
countervailing duty law. A currency-related countervailable subsidy 
allegation made by a petitioning U.S. industry is examined by Commerce 
based on the initiation requirements of U.S. law. If those requirements 
are met, Commerce would initiate an investigation of the allegation. We 
recognize that various bills with currency provisions pertaining to 
countervailing duty proceedings are currently before the Congress. 
Regardless of the ultimate disposition of the proposed legislation, 
Commerce remains committed to vigorously enforcing the trade remedy 
laws to ensure that U.S. companies and workers have every opportunity 
to compete on a level playing field.
    Question. Last September, NOAA's systems were breached in a cyber 
attack leading to some loss of weather data and delays in satellite 
data transmissions. Representative Frank Wolf said he was told that the 
Chinese may have been behind the attack. Commerce Inspector General 
Todd Zinser's testimony for today expresses serious concerns with 
Commerce's incident detection and response capabilities. This testimony 
follows the IG's previous findings before the cyber attack that founds 
``significant security deficiencies'' in the National Environmental 
Satellite Data and Information Service that pose a ``risk in its 
national critical mission.''
    Can you describe what vulnerabilities led to the breach of NOAA's 
information systems, and have those vulnerabilities been addressed?
    Answer. Last fall, vulnerabilities in three public facing Web sites 
allowed attackers to compromise some NOAA systems. This incident, which 
started in September, was contained quickly and the specific Web 
application vulnerabilities have been fully addressed. A report 
describing these vulnerabilities and the mitigations is under review to 
determine if the report contains classified materials, so NOAA is 
unable to provide additional details in this answer. However, NOAA can 
say that the actual effects of the breach were limited. However, taking 
the affected networks offline to contain the attack did result in 
extensive Web site and data flow outages. In response to the identified 
shortcomings, NOAA has vigorously worked to correct cybersecurity flaws 
and continues to incorporate enhanced security as it modernized 
existing and designs and implements new systems. Nothing can completely 
protect an organization from all malicious cyberattacks, but following 
this course of action will improve the security posture of NOAA's Web 
sites and IT systems and help ensure that NOAA can continue to perform 
its critical missions.
    Question. The trade enforcement role of the Commerce Department and 
other trade agencies is very important for U.S. industries across the 
United States. I would note that the U.S. Trade Representative's Office 
has recently been addressing a concern related to a Moroccan export 
quota on goods that are critical to a manufacturer located in Maine. I 
appreciate the efforts being undertaken to make sure our trading 
partners are living up to their free trade agreement commitments, as 
this will ultimately make the difference in ensuring that trade 
agreements result in benefits to U.S.-based employers and workers.
    How extensively is the Commerce Department coordinating with USTR 
and other agencies to ensure trade agreement compliance?
    Answer. Ensuring that our trading partners live up to their trade 
agreement commitments is critical to the success of U.S. exporters and 
investors, and to the integrity of those agreements. When U.S. 
businesses sell abroad, the Department of Commerce works to ensure that 
they are able to do on a level, competitive playing field. The Commerce 
Department's Trade Agreements Compliance Program systematically 
monitors and investigates foreign compliance with over 250 
international trade agreements.
    Commerce proactively monitors trade agreement compliance and helps 
ensure U.S. business compete on a level playing field by identifying, 
investigating and resolving trade barriers. There is no cost to U.S. 
businesses for this service. Once a barrier is identified, Commerce 
assembles a case team to investigate the problem and develop a strategy 
to address it. This process includes coordinating interagency efforts 
on both an informal basis and formally through the interagency 
Compliance Task Force and the Trade Policy Staff subcommittees chaired 
by USTR. In taking action, Commerce teams can gradually escalate trade 
issues and, as appropriate, bring the full weight of the U.S Government 
to bear in an effort to resolve the issues, using relevant trade 
agreements, multilateral/WTO fora, Free Trade Agreement negotiations 
and other diplomatic means.
    As appropriate, cases identified by Commerce may also be referred 
to USTR and the interagency for formal dispute settlement action 
consideration. Commerce works particularly close with USTR in defending 
the rights of U.S. workers and manufacturers under World Trade 
Organization (WTO) trade remedy rules and challenging foreign 
countries' use of trade remedies when they violate WTO rules and 
present a barrier to fair competition from U.S.-produced goods.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
    Question. First, I want to thank you for your hard work and the 
constructive role you played in resolving the crisis we faced during 
the West Coast port slowdown. For Arkansas farmers, businessmen and 
women, this really was a serious crisis where a lot of people were 
harmed by the slowdown.
    When this type of situation occurs again, how could this issue be 
resolved much more quickly so that it does not cause so much economic 
damage to the country?
    Answer. The negotiations over the functioning of the West Coast 
Ports had been taking place for months with the administration urging 
the parties to resolve their differences. Helping resolve this dispute 
was a top priority, and on February 14, 2015, the President directed 
me, Secretary Perez, and Secretary Foxx to travel to California to meet 
with the parties to help them reach a resolution.
    On February 20, 2015, both parties reached a settlement and agreed 
to fully restore all port operations starting the following evening. 
This is great news for the parties involved in the negotiation and a 
huge relief for our economy particularly the countless American 
workers, farmers, and businesses that have been affected by the dispute 
and those facing even greater disruption and costs with further delays.
    President Obama has called on the parties to work together to clear 
out the backlogs and congestion in the West Coast Ports. We remain 
ready to help both sides on the West Coast to work together towards 
this goal. We are also ready to provide similar assistance in future 
seaport contract negotiations on the West Coast and at other U.S. 
seaports.
    Question. I am sure you agree that oversight at the agencies is 
necessary and an important and worthy goal. Therefore, I am concerned 
and disappointed that the OIG is experiencing difficulties accessing 
information needed to investigate and has faced threats not to release 
reports publicly.
    What are you personally doing to ensure this does not continue and 
do you agree that the IG should have access to the information they 
need to conduct appropriate oversight?
    Answer. I take compliance and oversight very seriously, and deeply 
appreciate the critical role Inspector General's Offices play in 
improving management and preventing waste and abuse in the Government. 
I am fully committed to working cooperatively with the Department's 
Inspector General on his oversight work and, as the IG Act requires, 
providing full and open access to information the Inspector General 
needs to do his job. As the Inspector General acknowledged in his 
testimony before this subcommittee, when issues arose regarding the 
Inspector General Office's access to monthly Program Management Council 
meetings for the weather satellite program, I stepped in to ensure that 
the Inspector General had the access that he needed. I will continue to 
take such actions as necessary to ensure that the Inspector General has 
the legally required access to information he needs to conduct his 
oversight work.
    Question. I am concerned with the OIG's cybersecurity findings. 
While the IG identifies actions that the Department has taken to 
strengthen cybersecurity, more needs to be done to protect IT systems 
and information. A recent FISMA audit revealed ``significant security 
deficiencies'' in the NOAA high-impact systems and identified 
weaknesses in the Department's incident detection and response 
capabilities.
    Are you taking these findings seriously and will you follow-up on 
the IG's recommendations?
    Answer. The CIO is taking the OIG findings, plus his own internal 
findings, very seriously. The CIO reports on the Department's cyber 
risk profile, using the NIST cyber framework, on a monthly basis to the 
Secretary and Deputy Secretary, and updates the Department's Executive 
Management Team members on the status of their Bureau on a regular 
basis.
    Our fiscal year 2016 request specifically addresses the 
Department's plan to improve incident response. We have requested an 
additional 2 full-time equivalents (FTEs) and funding to address 
directly the OIG findings and the results of third party assessments. 
We have requested additional information security FTEs to enhance our 
ability to perform security and cyber risk assessments. We are 
currently improving our capabilities through the addition of the ESOC 
capabilities, centralized reporting of computer incidents, and the 
hiring of additional incident response staff to include a digital 
forensics analyst. The primary focus for the Office of Cyber Security 
is shifting from a risk averse policy/compliance mindset to cyber 
operations/risk management mindset.
    Question. Access to broadband is vital to economic development and 
is a real issue for rural States like Arkansas.
    Can you talk about how the fiscal year 2016 budget request supports 
this goal and what concrete steps the agency will take to expand 
Internet access, especially in rural areas?
    Answer. The Department is committed to building on our broadband 
expertise to enable more communities to harness the power of broadband 
for social and economic opportunity. The BroadbandUSA initiative 
outlined in the President's budget will help more American communities, 
including rural areas, expand broadband by leveraging the experience 
and expertise of the Department's National Telecommunications and 
Information Administration (NTIA).
    Through its Broadband Technology Opportunities Program (BTOP), NTIA 
invested more than $4 billion in projects across the country to deploy 
broadband networks, expand public access to broadband, and train 
Americans in the use of computers and the Internet. BTOP projects have 
delivered over 110,000 miles of broadband networks; connected more than 
25,000 schools, libraries, and healthcare facilities to broadband; 
deployed more than 46,000 computer workstations across the Nation; and 
generated more than 650,000 new household broadband subscribers through 
education and training. But these benefits do not meet the tremendous 
demand for increased broadband that we know exists in America today.
    As we close out the few remaining broadband grant projects, we are 
implementing the new BroadbandUSA initiative to help more communities 
in rural and other disadvantaged areas expand broadband opportunities.
    The goal is to share lessons learned and best practices with 
community leaders, businesses, and others working on the front lines to 
close the digital divide. We plan to employ toolkits, training 
programs, workshops and other strategies for communities working to 
expand their broadband capabilities. For example, in February 2015, 
NTIA hosted a workshop in Jackson, Mississippi, that brought together 
leaders from small and large communities with businesses throughout the 
Gulf region to share lessons learned and strategies to help expand 
broadband.
    We also intend to work with other Federal agencies whose programs 
can benefit from broadband expertise, and look for opportunities to 
maximize the impact agencies have on expanding broadband access and 
adoption. The Broadband Opportunity Council recently announced by the 
President will be co-chaired by the Department of Commerce and will 
bring Federal agencies together to help identify steps to reduce 
barriers to broadband deployment.
    As evidence of the progress that we have made, NTIA recently 
announced that the United States has met President Obama's goal of 
ensuring 98 percent of the country has access to wireless broadband at 
a speed of at least 6 megabits per second (Mbps) down/1.5 Mbps up.
    It is also important to note the NTIA's progress towards 
identifying 500 MHz of spectrum for commercial use by 2020 is also 
making a tremendous difference in the wireless broadband availability 
and speeds in rural and other underserved areas of the United States.
    The Department is very committed to helping expand broadband 
opportunities for rural and other underserved areas.
                                 ______
                                 
          Questions Submitted by Senator Shelley Moore Capito
    Question. As the grants from the BTOP program are spent down, does 
the NTIA have any programs or plans to analyze those areas which are 
still underserved, such as in West Virginia?
    Answer. There are a number of ways in which NTIA is working to 
deliver benefits to underserved areas of the United States.
    Since 2009, NTIA and the FCC have collaborated on the development 
of the National Broadband Map, http://www.broadbandmap.gov/, which 
provides detailed data on broadband availability in the United States. 
The broadband map has become a vital tool for consumers, businesses, 
policy makers and researchers by providing an easy to use and 
searchable way to find out who is offering broadband, what types of 
broadband they are offering and where are they providing it. This tool 
is especially valuable for rural areas that are looking to develop 
strategies to expand broadband in their community. We are in the 
process of transitioning the responsibility for continuing the data 
collection and updates to the Map to the FCC due to budget constraints.
    Through NTIA's State Broadband Initiative, we also funded capacity-
building efforts at the State level. Partly as a result, the State of 
West Virginia recently released a Broadband Strategic Plan (http://
www.wvgs.wvnet.edu/bb/reports.php) identifying goals and targets for 
additional broadband investment that will help fill the gaps in the 
State's broadband infrastructure.
    Additionally, NTIA's Office of Policy Analysis and Development will 
continue to analyze the status of the ``digital divide'' and the use of 
broadband technologies, including deployment and adoption in rural 
areas. This work, begun in 1994, has resulted in a series of detailed 
reports based on data from the Census Bureau's Current Population 
Surveys and American Community Surveys.
    The BroadbandUSA initiative outlined in the President's budget will 
help more American communities expand broadband access and adoption by 
leveraging the experiences and expertise of the NTIA.
    Through its Broadband Technology Opportunities Program (BTOP), NTIA 
invested more than $4 billion in projects across the country to deploy 
broadband networks, expand public access to broadband, and train 
Americans in the use of computer and the Internet. BTOP projects have 
delivered over 110,000 miles of broadband networks; connected more than 
25,000 schools, libraries, and healthcare facilities to broadband; 
deployed more than 46,000 computer workstations across the Nation; and 
generated more than 650,000 new broadband subscribers through education 
and training. But these benefits do not meet the tremendous demand for 
increased broadband that we know exists in America today.
    Question. What initiatives or investments can be made to provide 
service to those areas?
    Answer. As we close out the few remaining broadband grant projects, 
we are implementing the new BroadbandUSA initiative to leverage our 
expertise and help more communities expand broadband opportunities. The 
goal is to share lessons learned and best practices with community 
leaders, businesses, and others on the front lines of working to close 
the digital divide. We plan to employ toolkits, training programs, 
workshops and other strategies to communities working to expand their 
broadband capabilities. We are working with other Federal agencies 
whose programs could benefit from broadband expertise, and look for 
ways to maximize the impact agencies have on expanding broadband access 
and adoption.
    The Department is committed to building on our experience with BTOP 
to enable more communities to harness the power of broadband for social 
and economic opportunity.
    The Broadband Opportunity Council, recently announced by the 
President, will be co-chaired by the Department of Commerce and will 
bring Federal agencies together to help identify steps to reduce 
barriers to broadband deployment and adoption.
    In addition to our work, the U.S. Department of Agriculture's Rural 
Utilities Service continues to invest in broadband infrastructure 
projects, and the Federal Communications Commission is updating the 
Universal Service Fund to better target investments toward broadband 
for rural and other underserved areas.
    Question. Could you please provide an overview of the mission of 
the recently formed BroadbandUSA within your department specifically 
mindful of communities in areas such as rural West Virginia that are 
still lacking in adequate broadband access?
    Answer. As described above, the BroadbandUSA initiative builds upon 
the lessons learned from our successful BTOP and leverages our 
expertise to help more communities expand broadband access and 
adoption. The goal is to share lessons learned and best practices with 
community leaders, businesses, and others on the front lines of working 
to close the digital divide. We also intend to work with other Federal 
agencies whose programs could benefit from broadband expertise, and 
look for ways to maximize the impact agencies have on expanding 
broadband access and adoption.
    NTIA understands that many States such as West Virginia demonstrate 
significant need for additional broadband infrastructure and adoption 
resources. Technical assistance will be directed toward areas of 
greatest need, including rural and tribal areas. As we continue to 
develop and implement this important program, we will focus our efforts 
to improve the broadband capabilities in areas with demonstrated need, 
such as West Virginia.
    Question. How do you gauge success for the BTOP program regarding 
access in rural areas?
    Answer. Whereas the complementary Broadband Initiatives Program 
implemented by the U.S. Department of Agriculture Rural Utilities 
Service was intended to specifically focus on rural areas, Congress 
instructed NTIA to address the unmet broadband needs of ``unserved and 
underserved'' areas through the BTOP program.
    Many of the more than 230 projects funded by NTIA delivered 
broadband infrastructure, computers, and training to rural areas. For 
example, the $126 million infrastructure grant to the State of West 
Virginia deployed new or upgraded broadband capabilities to nearly 
every school in West Virginia, including those in some of the most 
rural areas of the State. The nearly $2 million public computer center 
grant to WorkForce West Virginia improved broadband at 95 workforce 
centers, libraries and Veterans Affairs facilities in rural communities 
such as Buckhannon and Durbin. The $4.4 million broadband adoption 
grant to Future Generations Graduate School provided computer training 
and access through local fire stations and helped more than 30,000 West 
Virginia households become broadband subscribers.
    Question. What lessons have you learned that could help Federal/
State/local governments in expanding access in the future?
    Answer. The Department's NTIA is committed to helping stakeholders 
at the Federal, State, and local level in expanding broadband access 
and adoption. The recently launched BroadbandUSA initiative described 
above will be integral to achieving this goal. By leveraging lessons 
learned from the successful BTOP program and sharing best practices 
among private and public stakeholders, NTIA will assist more 
communities with their goals of expanding broadband opportunities.
    NTIA has already identified a number of lessons learned that can 
assist leaders at the Federal, State, and local level. In January 2015, 
NTIA released a Public Private Partnership primer, which provides a 
basic introduction to a variety of partnership models for communities 
considering new broadband projects. The primer provides a high-level 
overview of steps to establish partnerships, and presents case studies 
of successful public-private broadband partnerships. This document is 
available at: http://www.ntia.doc.gov/report/2015/broadbandusa-
introduction-effective-public-private-partnerships.
    Question. How do you view your continuing role in providing access 
in rural areas?
    Answer. Building on the primer, we are working on a series of 
guides to assist communities that want to increase the level of 
broadband infrastructure and adoption in their areas. These will 
provide solid and field-tested advice on how to plan for network 
development, create useful applications and build projects that will 
sustain themselves for years to come.
    Another way we are helping communities is through our broadband 
adoption toolkit, published in 2013, that serves as a reference manual 
for municipalities and other organizations that want to increase the 
level of adoption in their communities. The toolkit contains clear, 
sensible advice, as well as practical ideas and tips for bringing a 
wide array of individuals online from senior citizens who may never 
have touched a mouse before to minority populations who might not even 
speak English. See http://www.ntia.doc.gov/toolkit.
    Additionally, the recently announced Broadband Opportunity Council, 
established in a March 2015 Presidential Memorandum, will collect 
recommendations from 25 Cabinet agencies about how to promote broadband 
deployment and adoption within the context of existing programs.
    The BroadbandUSA initiative described in greater detail above 
represents the Department's priority effort for expanding broadband 
access and adoption in the United States.
    Question. In those rural areas that expanded broadband under BTOP, 
what was the impact on unemployment, wages, and number of new jobs?
    Answer. BTOP projects have demonstrated a significant positive 
impact on jobs and economic development in the communities they served, 
with benefits that far surpass the taxpayer investments.
    In January, 2015, NTIA released an independent research study 
showing that its broadband grants program resulted in billions of 
dollars in economic benefits to the communities served, including 
increased economic output and higher levels of employment. The 4-year 
study, prepared by the research firm ASR Analytics, examined the social 
and economic impacts of the $4 billion in Recovery Act grants awarded 
by NTIA. In communities where grantees built new broadband 
infrastructure, broadband availability grew by an estimated 2 percent 
more than in communities not served by a broadband grantee. That growth 
could be expected to translate into increased economic output of as 
much as $21 billion annually, the report concluded.
    ASR Analytics' final report summarizes and synthesizes the findings 
of 42 separate case study reports, two interim reports, and a short-
term economic impacts report. Key findings of ASR's final report 
include:
  --On average, in only 2 years, BTOP grant communities experienced an 
        estimated 2 percent greater growth in broadband availability 
        than non-grant communities, which is estimated to generate 
        increased annual economic activity of between $5.17 billion and 
        $21 billion.
  --The additional broadband infrastructure provided by BTOP could be 
        expected to create more than 22,000 long-term jobs and generate 
        more than $1 billion in additional household income each year.
  --Community anchor institutions, like schools and libraries, served 
        by BTOP infrastructure grantees in the sample experienced 
        significantly increased speeds and lower costs. As an example, 
        the median price paid by libraries in the sample was $233 
        megabits-per-second (mbps)/month before BTOP, at a median speed 
        of 3 mbps. As a result of the grant, the median price dropped 
        to $15 mbps/month and median speed increased to 20 mbps.
    For more information, please see: http://www.ntia.doc.gov/press-
release/2015/research-study-shows-ntia-broadband-grants-provided-
billions-economic-benefits.
                                 ______
                                 
             Questions Submitted by Senator James Lankford
    Question. The foreign affairs exception to the Administrative 
Procedure Act is only for those ``affairs'' which so affect relations 
with other governments that the public rule making provisions would 
clearly provoke definitely undesirable international consequences.
    Given that the United States has not had formal diplomatic 
relations with Cuba since 1961, how would providing notice and comments 
provoke definitely undesirable international consequences? The 
precedent this action could have on future issues pertaining to foreign 
policy as particularly concerning. Was it the expectation of Commerce 
that the status quo foreign policy related to Cuba would imminently 
provoke undesirable international consequences? If so, what are the 
consequences?
    Answer. The Administrative Procedure Act's (APA) legislative 
history confirms that rulemakings that ``provoke definitely undesirable 
international consequences'' would clearly fall within the exemption; 
however the legislative history makes it clear that this is merely an 
example of the type of actions that would qualify for the exemption. 
Case law confirms that the phrase ``provoke definitely undesirable 
international consequences'' is only an illustration and is not meant 
to be an exclusive definition of ``foreign affairs function.'' See, 
e.g., New York v. Permanent Mission of India to the United Nations, 618 
F.3d 172, 202 (2d Cir. 2010) (finding that quintessential foreign 
affairs functions such as diplomatic relations and the regulation of 
foreign missions clearly and directly involve a foreign affairs 
function, and declining to turn the phrase ``provoke definitely 
undesirable international consequences'' from an illustration appearing 
in the APA's legislative history into the exclusive definition for 
``foreign affairs function''). Thus, ``undesirable international 
consequences'' is not the only basis for publishing rules involving 
foreign affairs without public notice and comment and Commerce's rule 
promptly implementing the President's change in foreign policy towards 
Cuba did not require public notice and comment.
    Question. What assurances will NTIA provide to Congress that if the 
Internet DNS governance is transitioned to another entity that it will 
not next transition to a nation or entity that is hostile to free 
speech and religion?
    Answer. I appreciate your concern about foreign nations exerting 
control over the Internet domain name system. I assure you that nothing 
about the proposed transition of the role of the National 
Telecommunications and Information Administration (NTIA) in the domain 
name system will increase the likelihood or ability of foreign 
governments to exert greater control. Indeed, a main driver behind the 
IANA transition is to strengthen the multistakeholder process, thereby 
decreasing the likelihood of and opportunity for repressive regimes to 
exercise control over the domain name system at a global level. Moving 
forward to complete the privatization planned in the 1990's is our best 
response to recent calls from around the globe for greater control of 
the Internet by intergovernmental bodies like the United Nations.
    It is important to understand that no single entity including the 
U.S. Government--controls the domain name system or the Internet today. 
The Internet is governed through the bottom-up, consensus-based 
multistakeholder model in which private industry, engineers, civil 
society, and governments work together to develop policies. The 
proposed transition of NTIA's limited role is fully consistent with 
this multistakeholder model and will only strengthen the model against 
capture by anyone, including foreign governments. For this reason, the 
proposed transition has widespread support from Internet stakeholders, 
including AT&T, Verizon, Microsoft, Google, human rights groups, and 
the U.S. Chamber of Commerce.
    Moreover, in addition to a transition plan, Internet stakeholders 
are working on a proposal to enhance ICANN's future accountability. We 
expect the proposal to include the ``stress testing'' of solutions to 
safeguard against future contingencies, such as attempts to influence 
or take over ICANN. As we have stated publicly, the Department will not 
approve a proposal that would allow our role to be replaced by a 
government or intergovernmental organization. We will continue to keep 
Congress apprised of any developments through quarterly reports, which 
NTIA will supplement with additional information as appropriate.
    Question. What steps have been taken to implement the reforms 
required in the 2012 authorization of the Export-Import Bank?
    Answer. The Export-Import Bank of the United States (Ex-Im Bank) 
equips U.S. businesses with the financing tools they need to tackle new 
markets for their goods and services and to expand and create U.S. 
jobs. Last year, Ex-Im supported $27.4 billion of exports and 164,000 
American jobs at no cost to American taxpayers, with nearly 90 percent 
of Ex-Im Bank's transactions directly supporting small businesses. All 
of the reforms required by the bipartisan 2012 Ex-Im Bank 
reauthorization bill have been completed and implemented. Please see on 
the next two pages the section-by-section analysis provided by Ex-Im 
Bank. For further information, I recommend that you contact Ex-Im Bank 
management directly.
 export-import bank reauthorization act of 2012: every reform completed
                      section-by-section analysis

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Question. Regarding product promotion overseas, which product 
groups do not have the ability to promote their products on the 
international marketplace?
    Answer. The International Trade Administration (ITA), with its 
country- and industry-specific expertise along with a global network 
across the United States and around the world, plays a unique role in 
addressing barriers to broadening and deepening the U.S. exporter base. 
This includes: (1) Providing market- and industry-specific information 
where it would not otherwise be available at an affordable cost, 
particularly for small and medium-sized businesses; (2) Facilitating 
business opportunities by connecting qualified foreign buyers with U.S. 
suppliers; (3) Strengthening the social networks and institutions which 
underpin private sector activity in trade and investment, especially in 
culturally distant markets; and (4) Helping businesses overcome 
barriers to market access, including through political and diplomatic 
support.
    As part of ITA, Global Markets assists and advocates for U.S. 
businesses in international markets to foster U.S. economic prosperity. 
Utilizing our network of trade promotion and policy professionals 
located in over 70 countries and 100 U.S. locations, Global Markets 
promotes U.S. exports, especially among small and medium-sized 
enterprises; advances and protects U.S. commercial interests overseas; 
and attracts inward investment into the United States.
    Global Markets has a Federal Government presence both across the 
United States and in countries that represent 91 percent of worldwide 
GDP with authoritative, impartial, accessible professionals who have 
specific trade and investment expertise. As trusted intermediaries with 
extensive public and private sector contacts, credibility and influence 
in foreign markets, Global Markets effectively assists U.S. businesses 
and partners in entering and expanding international markets, 
addressing barriers to accessing foreign markets, winning foreign 
government procurements and attracting inward investment.
    Global Markets places a primary emphasis on promoting the exports 
of small and medium-sized enterprises (SMEs). SMEs face internal and 
external barriers that inhibit their ability to access the information 
and contacts needed to fulfill their export potential. Over 80 percent 
of U.S. export value is attributable to less than 10 percent of U.S. 
exporters, which are predominately large companies with exports to more 
than 10 markets. The majority of SME exporters only export to one 
market and do not export in consecutive years. Global Markets is 
focused on helping SMEs overcome the internal and external barriers to 
exporting so that more SMEs export to multiple markets and do so on an 
ongoing basis.
    Finally, Global Markets promotes all product and service groups. 
Regarding which product groups are not able to be promoted in the 
international market place, in accordance with the U.S. and Foreign 
Commercial Service's fiscal year 2011 Fee-Based Services Eligibility 
Policy and the Consolidation Appropriations Act of 2010, USFCS is 
prohibited by law from promoting the export of tobacco or tobacco-
related products and policy restricts export promotion concerning 
munitions or sexually explicit material. Additionally, local laws and 
regulations in all markets can further complicate or even prohibit the 
ability to promote certain product groups in the international market 
place (i.e. alcohol, chemicals or weapons).
    Question. If the State Department is not part of the President's 
new proposed trade department, do you expect that trade policy 
objectives, such as ensuring that our trade partners respect human 
rights and religious freedom, will be assumed by the new department or 
remain part of the State Department?
    Answer. The President is asking Congress to give him the authority 
to submit to Congress for expedited consideration proposals to 
consolidate executive branch agencies so long as the result would be to 
reduce the number of Government agencies or cut costs. If he were 
granted such authority, the President has put forward a proposal that 
would consolidate six primary business and trade agencies, as well as 
other related programs, integrating the Government's core trade and 
competitiveness functions into one new department. Specifically, the 
department would include the Department of Commerce's core business and 
trade functions, the Small Business Administration, the Office of the 
U.S. Trade Representative, the Export-Import Bank, the Overseas Private 
Investment Corporation, and the U.S. Trade and Development Agency. This 
Department would be responsible for expanding trade and investment, 
growing small businesses, and supporting innovation, and would be more 
effectively aligned to strengthen trade enforcement and implement a 
strong, pro-growth trade policy.
    Question. If the State Department, what level of coordination would 
you expect from the new department and State to ensure these concerns 
are addressed?
    Answer. If Congress grants him that authority, we will consult with 
Congress, other agencies and stakeholders and develop a more detailed 
proposal for the creation of the proposed new department. Unless and 
until that authority is granted, we remain focused on our current 
mission.
    Question. Regarding the American Community Survey.--What is the 
total cost per completed survey?
    Answer. In fiscal year 2014, the cost of the American Community 
Survey (ACS) was $230 million. The Census Bureau conducted about 2.4 
million interviews that year, thus yielding a cost of approximately $96 
per completed survey. Each year only a small percentage of households 
are selected to participate in the survey, yet the entire country 
benefits from the wealth of information the ACS provides--over 11 
billion estimates each year. For just $1.72 per household a year, our 
communities and businesses get the data they need to help them plan and 
make decisions to invest and grow our economy.
    Question. Is there a problem with moving to voluntary completion?
    Answer. Yes. Census research, and experience in other countries, 
show that moving to a voluntary survey would make the American 
Community Survey (ACS) more expensive, less accurate, or both. Because 
the ACS would have far fewer completed interviews, the resulting data 
would be much less reliable. To achieve the same level of quality of 
the current mandatory survey, the Census Bureau would have to spend an 
additional $90 million annually to implement a voluntary ACS. Making 
the survey voluntary would disproportionally affect rural areas and 
small populations throughout the Nation. A voluntary ACS at current 
funding levels would result in the loss of data for approximately 61 
million people, representing about 24 percent of counties--mostly rural 
and small communities.
    The Census Bureau's top priority is respecting the time and privacy 
of the people providing the information. We are accelerating our 
program of research to address these concerns, including how best to 
operationalize needed changes. We are focused on specific ways to 
reduce the concerns of survey respondents. For instance: (1) can we 
remove questions by using other data sources, including information 
people have already provided to the government? (2) can we better 
phrase our questions to reduce respondent concern, especially for those 
who may be sensitive to providing information? (3) can we ask some 
questions every other year, or every third year? The Census Bureau 
continues to place a high priority on this work and will report to the 
Secretary of Commerce by the end of the fiscal year (2015).
    Question. In written testimony before this subcommittee, Inspector 
General Zinser testified that ``from fiscal year 2012 through February 
18, 2015, around 38 percent of the contract obligations awarded by the 
Department have been high-risk obligations.''
    What steps are you taking to ensure that the Department properly 
awards, administers, and reports high-risk contracts?
    Answer. In response to recommendations set forth in the published 
Office of Inspector General audit report entitled, The Department's 
Awarding and Administering of Time-and-Materials Contracts Needs 
Improvement, the Department of Commerce has taken significant steps to 
improve the use and management of high-risk contracts to include:
  --Incorporated definitive control objectives specific to high-risk 
        contract actions into Acquisition Management Reviews;
  --Increased the focus of the Acquisition Review Board and Investment 
        Review Board processes to require further details when awarding 
        high-risk contracts, including the use of a standardized list 
        of considerations to evaluate proposed acquisition strategies;
  --Monitoring the use of new contract dollars awarded with high-risk 
        contracting authorities through the Department's Acquisition 
        Council on a monthly basis; and
  --Re-issued departmental policy to the Department's contracting 
        workforce on the proper use, management and documentation 
        requirements of contracts awarded under high-risk contracting 
        authorities.
    With these tools in place, the Department is assured that 
sufficient awareness and oversight is in place to ensure high-risk 
contracts are awarded, administered and reported properly.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
              noaa efforts regarding salmonid populations
    Question. Since the issuance of the 2009 salmon biological opinion, 
operations of California's Central Valley Project (CVP) and State Water 
Project (SWP) are required to adhere to stringent regulations in order 
to protect endangered and listed salmonid species.
    However, nearly 6 years after the actions required by the salmon 
biological opinion has taken effect, the species is still suffering, 
and population recovery is still a distant goal.
    While there are many debates about the effects of the CVP and SWP 
on salmonid species, there is general consensus that water pumping is 
not the only action that affects salmonid populations.
    Based on the best available science today, what factors besides 
water pumping negatively affect the extent and pace of recovery in 
salmonid populations?
    Answer. Habitat loss and degradation are primary limiting factors 
for anadromous salmonid populations. Currently, dams block Chinook 
salmon and steelhead from over 90 percent of their historical spawning 
habitat in the Central Valley. In addition, 98 percent of riparian and 
floodplain habitat in the lower river and Delta is no longer available 
to support healthy fish runs.
    Numerous additional factors (besides water pumping) impair 
recovery, including: blocked access to historical spawning areas; 
drought conditions; disconnected floodplain habitat along tributaries 
and mainstreams; impaired flow and sediment regimes below dams that 
degrade rearing habitats in stream channels and reduce the frequency 
and magnitude of high and turbid flows beneficial to juvenile 
migration; channel revetments and levees that eliminate shallow rearing 
habitat; commercial and recreational fisheries; impaired water quality; 
predation by non-native fish; and unintended effects of hatcheries all 
contribute to declining populations. Many of these factors are related 
to the existence and operation of the water projects, but are not 
directly related to pumping.
    In July 2014, the National Marine Fisheries Service (NMFS) issued a 
recovery plan for Sacramento River winter-run Chinook salmon, Central 
Valley spring-run Chinook salmon, and California Central Valley 
steelhead that identifies and prioritizes the above factors, and other 
threats and stressors to each of the life history stages of the listed 
salmonids.
    Question. Since the issuance of the 2009 salmon biological opinion, 
what steps has NOAA taken to address these other factors and to improve 
salmon recovery efforts?
    Answer. NOAA has taken the steps shown below to improve salmon 
recovery efforts:
  Habitat
    NMFS has been actively pursuing salmonid reintroductions to 
historical habitat in the Sacramento River watershed upstream of Shasta 
Dam, in Battle Creek, in the upper Yuba River watershed, and in the San 
Joaquin River. NMFS has also been engaged in the California Department 
of Water Resources' FloodSAFE initiative in order to integrate 
floodplain and riparian habitat restoration into the State's flood 
protection system and associated conservation strategy.
  Fisheries
    NMFS established a regulatory management strategy for protecting 
winter-run Chinook salmon in the ocean salmon fishery such that the 
fisheries' impacts will be lessened if the population's abundance 
declines below key thresholds.
  Hatcheries
    NMFS' Southwest Fisheries Science Center was directly involved in 
the California Hatchery Scientific Review, and NMFS has been engaged 
with other agencies in implementing the recommendations developed 
during the review.
  Salmon Loss in Colusa Basin
    NMFS has been directly involved in multi-agency efforts to rescue 
salmon and steelhead that were trapped in the Colusa Basin Drain and 
has been working closely with agencies and stakeholder groups to 
minimize impacts.
  Drought
    The five agencies primarily involved in the coordinated operation 
and regulation of the Federal Central Valley Project (CVP) and State 
Water Project (SWP) are planning for a fourth year of drought. Working 
in close coordination, the United States Department of the Interior 
Bureau of Reclamation (Reclamation) and the Fish and Wildlife Service 
(USFWS), the United States Department of Commerce National Oceanic and 
Atomosphieric Administration (NOAA) through the National Marine 
Fisheries Service (NMFS), the California Department of Water Resources 
(DWR), and the California Department of Fish and Wildlife (CDFW) have 
developed an Interagency 2015 Drought Strategy in order to rapidly and 
equitably balance between all of the competing needs for limited water. 
Core principles in the drought strategy include specific protections 
for salmon and steelhead.
  Recovery Partner Collaboration
    NMFS has been working closely with its agency partners and the 
Golden Gate Salmon Association, the Glenn-Colusa Irrigation District, 
the Northern California Water Association, Trout Unlimited, Cal-Trout, 
and American Rivers to develop and pursue salmonid recovery actions. 
This collaboration resulted in on the ground results in 2014 with the 
completion of the Painter's Riffle habitat restoration project on the 
Sacramento River.
    In 2014, NMFS released its Final Recovery Plan for Central Valley 
Chinook Salmon and Steelhead jointly with California Department of Fish 
and Wildlife's Ecosystem Restoration Program Conservation Strategy. 
Parallel with the release and implementation of these plans, Golden 
Gate Salmon Association and Northern California Water Association 
developed salmon restoration initiatives, and multiagency efforts are 
underway to strengthen implementation of the Central Valley Project 
Improvement Act's fish program. NMFS continues to be heavily engaged in 
these stakeholder and agency partner efforts in order to help achieve 
salmon and steelhead recovery goals.
  Budget
    The fiscal year 2016 President's budget request includes an 
increase of $1.3 million for ESA salmon recovery for a total of $68.5 
million. Under this proposal, NOAA will address Atlantic and Pacific 
salmon recovery including expanded Pacific salmon monitoring 
capabilities and increased ESA section 7 consultation capacity on the 
West Coast to improve our on-time consultation completion rate in 
support of the regional economy.
    Specifically, NMFS' work in the Sacramento and San Joaquin 
watersheds occurs in three main program areas:
  Central Valley/State Water project ESA review and permitting
    These activities include immediate action on the drought, work on 
the biological opinion for the Long-term Water Operations for the State 
Water Project and Central Valley Water Project Remand, and development 
and review of the Bay-Delta Conservation Plan.
  ESA administration for the broader suite of actions across the entire 
        Central Valley/San Joaquin geography
    These activities include continued work on large-scale programs 
such as the San Joaquin River Restoration Program and the Central 
Valley Flood Protection Program, development and review of Hatchery 
Genetic Management Plans, and ESA section 7 consultations.
  Monitoring and technical support (for the activities mentioned above)
    This includes NMFS activities to develop salmonid life cycle 
modeling for the Central Valley, as well as any research and monitoring 
needs that may be carried out. Adaptive management is central to 
planned future water project operations, and adaptive management 
requires ongoing research support for development and updating of 
conceptual and quantitative models, design and execution of monitoring 
programs, and management and synthesis of scientific information. This 
will require an ongoing investment in our anadromous fish research 
program as well as infrastructure to conduct monitoring.
    The recent drought emergency has increased short term stress on 
completing our regulatory requirements and highlighted the need for 
more comprehensive management of the system focused on the long term 
protection and recovery of salmonids.
    The budget also includes an increase of $19 million for expanded 
consultation capacity nationwide, including in California.
    Question. Please provide a list and description of the habitat 
restoration projects NOAA has supported or conducted in the Sacramento-
San Joaquin River Delta since the issuance of the 2009 salmon 
biological opinion to help improve endangered/listed salmonid recovery.
    Answer. NMFS is significantly involved in many important 
collaborative restoration projects in the Sacramento-San Joaquin Delta 
in a technical advisory capacity. NMFS works with numerous partners to 
shape these efforts, ensuring that projects are designed to avoid 
jeopardizing ESA-listed salmon and steelhead and to contribute to 
recovery goals and actions consistent with the recent Central Valley 
Recovery Plan.
    Since 2010, NMFS has supported and participated in the Fish 
Restoration Program (FRP). The FRP is an agreement between California 
Department of Fish and Wildlife and California Department of Water 
Resources (CDWR) that was signed following the 2009 salmon biological 
opinion. The primary Fish Restoration Program obligation is to restore 
8,000 acres of intertidal marsh and associated subtidal habitat in the 
Delta and Suisun Marsh. This includes 800 acres of marsh in the low-
salinity-zones of the estuary made up of the Suisun Marsh and the 
westernmost part of the Delta. The Fish Restoration Program also 
includes a number of actions to benefit winter-run and spring-run 
salmon, steelhead, sturgeon and other native fish species. The focus of 
these restoration efforts has been in the Delta, Suisun Marsh and Yolo 
Bypass, as well as connected upstream watersheds. For example, CDWR 
acquired a substantial portion of Prospect Island in 2010 and has been 
leading the restoration of this important intertidal habitat. In 
addition, the State of California contributed $12 million toward the 
restoration of Battle Creek for salmon and steelhead. NMFS is a partner 
of the multi-agency effort (approximately 10 agency and public 
partners) implementing the Battle Creek Restoration Project. For a 
summary of the FRP, including annual reports, see http://
www.water.ca.gov/environmentalservices/frpa.cfm.
    There are a number of other Delta restoration and planning efforts 
underway in which NMFS is involved to provide technical guidance. These 
include the following major restoration projects:
  --Delta Stewardship Council Delta Plan;
  --California EcoRestore (formerly par of the Bay Delta Conservation 
        Plan BDCP) \1\;
---------------------------------------------------------------------------
    \1\ On April 30, 2015, the Governor of California announced new 
parallel plans for restoring the Sacramento-San Joaquin River Delta 
ecosystem and the modernization of California's aging water 
infrastructure. The Bay Delta Conservation Plan (BDCP) will no longer 
be pursued as a habitat conservation plan. The new approach entails two 
separate, but parallel, State plans:
    1. A habitat plan California EcoRestore aims to restore nearly 
40,000 acres to support the long-term health of the Delta's native fish 
and wildlife species.
    2. An infrastructure plan California Water Fix to achieve and 
sustain these restoration goals, while protecting the state against the 
catastrophic threats of climate change, earthquakes and levee breaks.
---------------------------------------------------------------------------
  --Suisun Marsh Habitat Management, Preservation, and Restoration 
        Plan, and
  --Ecosystem Restoration Program (for 2014 highlights report see 
        https://nrm.dfg.ca.gov/
        FileHandler.ashx?DocumentID=93380&inline.
    Question. What steps has NOAA taken since the issuance of the 2009 
biological opinion to reduce/mitigate the effects of non-native 
predator species (such as striped bass) on the recovery of endangered/
listed salmonid species? Please specifically describe the projects 
involved and their status.
    Answer. Predator fish, including striped bass, are one source of 
Chinook salmon mortality, and it is a priority in our Central Valley 
Salmon and Steelhead Recovery Plan to implement projects to reduce 
predation at weirs and diversions in the Delta. Per our 2009 Biological 
Opinion, NMFS is working with the California Department of Water 
Resources (CDWR) to develop and implement predator control methods for 
Clifton Court Forebay on the State Water Project.
    In 2014, NMFS initiated a study in the south Delta to examine 
whether predator removal could be a viable management strategy to 
improve survival of salmonids migrating through this area, and to learn 
about predator identity, activity, abundance, and behavior. Preliminary 
results show that striped bass are a frequent predator of salmonids, 
but many salmon are also consumed by catfish. Removing striped bass 
from small areas can improve survival of salmonids transiting that 
area, but striped bass are very mobile and quickly repopulate areas 
from which they have been removed. Predators were found to be 
concentrated in certain places with particular physical conditions such 
as holes scoured by the current in the bends of armored channels, areas 
with underwater structures that provide cover to predators, and water 
diversions that concentrate salmon (these have been noticeable, 
although we still have more to learn from careful analysis of the data 
collected). Efforts to alter these locations to make then less suitable 
for predators might be more effective than removals. This study will be 
repeated in 2015, with funding from the California Department of Water 
Resources.
    NMFS is also developing a model that should help us understand the 
relationship between inflows to the Delta, pumping, and salmonid 
survival. The model includes an agent-based salmon model that 
incorporates swimming and navigational behaviors and predation, and a 
hydraulic model of the Delta that includes tidal forcing, pumping, and 
operations of barrier gates. The salmon model has been successfully fit 
to tagging data (described briefly in response to the question below). 
The model will be used in 2015 to evaluate the impacts of alternative 
water project operations, and to more generally understand the 
conditions under which and the mechanisms (direct entrainment or 
increased exposure to predation) by which pumping impacts salmon. This 
study is ongoing, with funding from the U.S. Bureau of Reclamation.
    Question. What steps has NOAA taken since the issuance of the 2009 
biological opinion to improve monitoring, surveying, and detection of 
salmonid species in the Delta, so that the agency has a clear 
understanding of the presence and distribution of salmon in the Delta? 
Please specifically describe the projects involved and their status.
    Answer. Since 2007, NMFS has been employing acoustic tag technology 
to monitor the migration and survival of salmonids between spawning 
areas and the Pacific Ocean. In 2013, tags became small enough to 
implant in endangered winter-run Chinook, and in 2015, receivers were 
deployed in the river and Delta that transmit their data in real time 
to a Web server, allowing water and fishery managers to know when 
tagged winter Chinook are entering key areas. These studies have 
revealed the importance of flow pulses to the migration and survival of 
winter Chinook and threatened steelhead, and the existence of mortality 
hot-spots within and outside of the Delta. NMFS is also starting a 
pilot project in 2015 to examine the potential of radio-frequency 
identification tags (which are 100x cheaper than acoustic tags) to 
greatly expand the scope of salmonid monitoring studies. This work is 
ongoing, with funding from the U.S. Bureau of Reclamation and the 
California Department of Fish and Wildlife (CDFW).
    In addition, NMFS Southwest Fisheries Science Center (SWFSC) is 
modifying the existing particle tracking model to develop an enhanced 
particle tracking model that assigns advection and ``swimming'' 
behavior to particles as part of their effort to develop a life cycle 
model for winter-run Chinook Salmon. By inserting a number of these 
particles at select Delta locations into a simulation of current and 
forecasted hydrology, the enhanced particle tracking model can provide 
information on predicted route selection and fate of particles to 
inform management of various hydrodynamic effects of operations on 
salmonid movement. Using the enhanced particle tracking model for real-
time operations in 2015 would provide an initial trial of the 
calibrated modeling and analytical efforts and techniques required for 
rapid response. Funding for this effort is provided by the U.S. Bureau 
of Reclamation.
    Kodiak/Midwater trawl monitoring stations were implemented at 
Jersey Point and Prisoners Point in the Delta in 2014-2015 in order to 
establish a baseline understanding of the timing, duration, and 
frequency of anadromous salmonid species at those monitoring locations. 
The trawl monitoring was also utilized before, during, and after a 
storm event, and also in anticipation of and during flexible operations 
that are different than required in the biological opinion, in order to 
inform operations and better understand the influence of storm events 
and operations on the timing, distribution, and magnitude of the 
anadromous salmonid species.
    Question. What steps has NOAA taken since the issuance of the 2009 
biological opinion to test and/or implement physical and non-physical 
barriers in the Delta that would better protect salmon from 
entrainment? Please specifically describe the projects involved and 
their status.
    Answer. In 2009 and 2010, the California Department of Water 
Resources (DWR) implemented a bio-acoustical fish fence (combination of 
bubbles, lights, and sound) study at the Head of Old River to determine 
the effectiveness of the technology in separating fish (keeping them in 
the mainstem San Joaquin River) from flow (down Old River to the 
Federal and State pumping facilities). The U.S. Bureau of Reclamation 
issued a report in 2012, but the California Department of Water 
Resources is reanalyzing the data, with another report expected 
sometime this year.
    The California Department of Water Resources implemented a bio-
acoustical fish fence in 2011 and 2012, and a floating fish guidance 
structure in 2014, in Georgiana Slough at the upstream confluence of 
the Sacramento River to determine the effectiveness of the technologies 
in separating fish (keeping them in the mainstem Sacramento River) from 
flow (down Georgiana Slough and into the Central Delta). The California 
Department of Water Resources expects to issue a final report this 
year.
    NMFS staff are part of an interagency team, including California 
Department of Water Resources (lead), Reclamation, USFWS, and 
California Department of Fish and Wildlife, to consider engineering 
solutions to further reduce diversion of emigrating juvenile salmonids 
to the interior and southern Delta, and reduce exposure to California's 
Central Valley Project and State Water Project export facilities 
(pursuant to RPA Action IV.1.3). A final report with recommendations 
from the California Department of Water Resources was shared with NMFS 
on March 26, 2015, and we are working together to determine next steps.
    Question. What steps has NOAA taken since the issuance of the 2009 
biological opinion to reduce or eradicate aquatic invasive weeds in the 
Delta that may negatively affect oxygen and nutrient levels in Delta 
water for endangered/listed salmonid species? Please specifically 
describe the projects involved and their status.
    Answer. The California Department of Boating and Waterways (CDBW) 
and U.S. Department of Agriculture Agricultural Research Service (USDA) 
are the lead agencies in California that execute the water hyacinth 
control program (WHCP), which includes both herbicide and mechanical 
removal of the plant.
    NMFS' role in control of aquatic invasive Delta weeds is to assist 
the USDA and California Department of Boating and Waterways in 
compliance with their Endangered Species Act (ESA) section 7 
consultation requirements, since herbicide treatment and mechanical 
removal activities can be otherwise harmful to the aquatic environment. 
USDA consults with NMFS (and the U.S. Fish and Wildlife Service) to 
ensure Endangered Species Act compliance for water hyacinth control 
program actions.
    On February 27, 2013, NMFS issued a concurrence letter to USDA for 
its proposed water hyacinth control program for 2013-2017. On March 13, 
2013, the U.S. Fish and Wildlife Service issued a biological opinion to 
USDA for the same. Previous consultations requests from USDA have been 
on annual water hyacinth control program operations, however, this 
consultation was on a 5-year permit, giving longer term certainty to 
USDA and California Department of Boating and Waterways that their 
program was in compliance with the Endangered Species Act.
    NMFS also issued a concurrence letter to USDA on February 2, 2014, 
for their Spongeplant Control Program for 2014-2017. NMFS acknowledged 
the inefficiencies in consulting on individual aquatic invasive weeds 
in the Delta, even if it is for several years at a time. Therefore, in 
2014, NMFS initiated an interagency effort to assist USDA and the 
California Department of Boating and Waterways in their development of 
a comprehensive multi-year program to control all aquatic invasive 
weeds in the Delta.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                           noaa--aquaculture
    Question. In many Wisconsin communities along the Great Lakes, we 
are seeing growing entrepreneurial interest in urban aquaculture 
systems. We also have both university- and non-governmental 
organizations providing training and support, encouraging innovation 
and growth in this industry. The NOAA budget proposal recommends a 
stronger focus on the development of aquaculture systems. Along with 
ocean coastal States, I believe Wisconsin has the potential to expand 
its aquaculture production significantly in coming years.
    What is NOAA's position on the future role of Great Lakes 
freshwater aquaculture and urban aquaculture systems in increasing U.S. 
domestic aquaculture production?
    Answer. Currently, the United States imports 90 percent of our 
seafood. This extensive importation has led to a large and growing 
seafood trade deficit that exceeds $12 billion (Fisheries of the United 
States, 2013). Part of NOAA's mission is to develop sustainable marine 
aquaculture across a broad range of systems and technologies, e.g., 
coastal shellfish and finfish farming, offshore aquaculture, stock 
enhancement activities, and land-based systems (aka ``urban 
aquaculture''). NOAA will continue to support urban aquaculture 
development primarily through the National Sea Grant College Program. 
Urban aquaculture has been the subject of research and extension 
projects by several Sea Grant programs, including both within and 
outside the Great Lakes region, and was the subject of a major 
symposium sponsored by Rhode Island Sea Grant in 2002. NOAA anticipates 
that Great Lakes freshwater aquaculture and urban aquaculture will 
continue to play an important role as the U.S. aquaculture industry 
continues to develop.
    (2013). Fisheries of the United States 2013. Silver Spring, MD: 
National Marine Fisheries Service, Office of Science and Technology. 
URL: http://www.st.nmfs.noaa.gov/Assets/commercial/fus/fus13/
FUS2013.pdf.
    Question. Would NOAA's proposed aquaculture funding be available to 
these non-marine systems?
    Answer. Yes. The NOAA Sea Grant National Marine Aquaculture 
competitive program is designed to support the development of 
environmentally and economically sustainable aquaculture within ocean, 
coastal, or Great Lakes settings. The fiscal year 2014 and fiscal year 
2015 Federal Funding Opportunity (FFO) announcements for this important 
Sea Grant program have stated explicitly that the Great Lakes are 
included. Additionally, Great Lakes aquaculture projects are eligible 
to apply for NOAA's National Marine Fisheries Service Saltonstall-
Kennedy grant competition. NOAA intends to continue this policy of 
supporting Great Lakes aquaculture in fiscal year 2016.
              noaa--coastal resilience in the great lakes
    Question. Climate change will significantly impact the Nation in 
coming years, Wisconsin included. With rich natural resources, many of 
Wisconsin's economic sectors and coastal communities will be highly 
impacted by a changing climate. Our Lake Michigan and Lake Superior 
coasts include highly developed and rural areas, forests, and protected 
shorelines. NOAA's fiscal year 2016 budget request emphasizes increased 
support for community, ecosystem, and economic resilience.
    What support will be available to support Great Lakes coastal 
resiliency?
    Answer. In fiscal year 2016, NOAA is requesting a suite of program 
increases to enhance resilience of coastal communities, economies, and 
ecosystems nationwide, including those in the Great Lakes region.
    Regional Coastal Resilience Grants will catalyze regional-scale 
implementation of resilience plans such as hazard mitigation, land use, 
and adaptation (+$45 million for a total of $50 million in fiscal year 
2016).
  --Capacity to Respond to Extreme Events will improve NOAA's 
        capabilities to assess inundation risks, communicate them to 
        at-risk coastal communities, and help those communities take 
        action to mitigate those risks (+$4.8 million).
  --Ecosystem-based Solutions for Coastal Resilience will encourage the 
        use of natural infrastructure for coastal protection by helping 
        communities to compare the economic impacts of ecosystem 
        protection and restoration vs. other uses of coastal lands and 
        waters (+$5 million).
  --AmeriCorps Resilience Corps Pilot Program Training and Technical 
        Assistance will provide training to on-the-ground AmeriCorps 
        members who will work directly with communities to improve 
        their resilience to climate change ($2 million).
    These initiatives will build on NOAA's ongoing efforts to emphasize 
coastal resiliency in the Great Lakes region. This includes NOAA's 
Great Lakes Coastal Resilience Planning Guide. This is an online guide 
for planners and practitioners to share proven solutions, best 
practices, and lessons learned for resilience building, as well as the 
tools, data and maps, and publications to get them there. Coastal 
Resilience Grants will assist with the implementation of the guide 
(http://coast.noaa.gov/digitalcoast/tools/gl-resilience).
                    noaa--high performance computing
    Question. The President's fiscal year 2016 budget requests an 
increase of $9,000,000 to begin recapitalization of the R&D High-
Performance Computing (HPC) systems (i.e., Gaea) located at Oak Ridge 
National Laboratory in Oak Ridge, Tennessee and to establish a 
permanent source of funding that would allow NOAA to maintain regular 
refresh and recapitalization of supercomputing resources.
    What is the status of NOAA's response to Appropriations Committee 
language requiring submission of a long-term plan to upgrade its high 
performance computing technology and architecture?
    Answer. NOAA is currently working on a report regarding our long-
terms plans on high performance computing (HPC) but will not meet the 
June deadline outlined in Senate Report 113-181 that accompanied Public 
Law 113-235 (180 days after enactment). Additional time is needed to 
draft and review the report due to the complexity of this topic. NOAA 
anticipates submitting this report toward the end of August (2015).
    Question. What would be the impact if Congress did not fund the 
$9.0 million requested this year in terms of NOAA's ability to perform 
its primary missions, and the cost and research implications for the 
Agency of deferring the project to another fiscal year?
    Answer. By 2016, NOAA's research and development (R&D) High 
Performance Computing (HPC) system Gaea, located at the Department of 
Energy's Oak Ridge National Laboratory in Tennessee, will be at the end 
of its useful life. Without additional requested funding, NOAA will 
have to fund recapitalization of the Gaea supercomputer within current 
resources, resulting in diminished R&D HPC capacity (approximately 50 
percent of the capacity of today's system) for weather and climate 
modeling and research that operate on Gaea now. Reductions in R&D HPC 
capability will slow down mission critical scientific advancements, 
model development and transition of research applications into 
operational applications. Specific examples of the impacts to NOAA's 
mission include:
    Loss of high-resolution modeling capability for skillful seasonal 
predictions of surface temperature, precipitation: Seasonal predictions 
of temperature and precipitation over land are in particular demand due 
to their importance to the agriculture, energy, transportation and 
marine ecosystems systems sectors for planning and decisionmaking. 
Skillful seasonal prediction of near-surface air temperature and 
precipitation over land has been achieved using a new high-resolution 
model running on the R&D supercomputer. Predictions with this model are 
being made available to global partners through the North American 
Mulit-Model Ensemble for Seasonal Prediction (NNME). NOAA may have to 
downgrade to a lower resolution, less accurate model if it has to fund 
the replacement.
    Seasonal Forecasting of Regional Tropical Cyclone Activity: 
Tropical cyclones (TCs), which include hurricanes and typhoons, are a 
major climate hazard across the Northern Hemisphere, and have exhibited 
variability and change on year-to-year timescales. Understanding and 
predicting TC activity is central to NOAA's mission. A new high-
resolution model running on the R&D supercomputer exhibits substantial 
skill at determining the key features of regional tropical cyclone 
activity. Predictions using this model are being made available to the 
NWS and other global partners through the NNME. Funding for the 
replacement HPC is needed so NOAA can continue the research that would 
lead to these improved capabilities to predict TCs.
            commerce--trade promotion coordinating committee
    Question. A May 2014 GAO report found that there have been limited 
results from the Trade Promotion Coordinating Committee which is 
intended to advance Federal-State collaboration in promoting U.S. 
exports. The Commerce Department responded to the GAO report stating 
its intention to obtain comprehensive data on the overall Federal 
relationship with State trade promotion entities and that once this 
data was obtained, it would work to identify and implement strategies 
to enhance collaboration with State trade promotion entities.
    Can you provide the subcommittee with an update on the status of 
this effort?
    Answer. Partnering with States and regions to foster local 
ecosystems that support exporters of all sizes is one of five key 
priorities of the NEI/NEXT, which I announced in May 2014 and is the 
overarching policy reflected in the National Export Strategy. Since 
then, the Trade Promotion Coordinating Committee (TPCC) member agencies 
have begun working even more closely with State trade offices and 
entities representing them at the national level (State International 
Development Organizations or SIDO) to coordinate calendar year 2015 
Federal-State trade promotion priorities and ensure collaboration in 
serving U.S. businesses. The International Trade Administration, Global 
Markets, U.S. and Foreign Commercial Service (US&FCS) also added to the 
fiscal year 2015 performance plans for its U.S. Field Network Directors 
an element on collaboration and planning with local partners, including 
States.
    The International Trade Administration is actively in the process 
of gathering data to obtain a clearer picture of the Federal-State 
trade promotion relationship and a nationwide view of state resources 
devoted to promoting international trade.
    (1) The TPCC Secretariat is coordinating with the US&FCS U.S. Field 
to gather the Federal perspective on current Federal-State cooperation; 
information on each State's trade promotion programs, e.g. staffing 
levels and State budgets for trade promotion; the extent to which State 
offices provide assistance to companies other than through referrals to 
US&FCS programs and services; challenges to Federal-State coordination; 
and the extent of State activity focused on inward investment 
attraction.
    (2) ITA will analyze its database of reported trade promotion 
events to identify events in which the local US&FCS office mentioned 
they worked with their corresponding State office. ITA also is mining 
its customer satisfaction-related market segmentation and branding 
studies which contain information on use of alternative service 
providers.
    (3) In addition, the TPCC Secretariat is aware that SIDO is 
conducting its own survey to obtain information on the level of trade 
promotion activity within State offices, and SIDO has indicated its 
intent to share that information with the TPCC member agencies. SIDO 
has indicated that its survey will yield information on whether State 
offices have industry focuses; the size of client companies; export 
financing options for risk mitigation; how the State offices use 
Department of Commerce export and inward investment promotion programs, 
such as trade missions, and what programs they use; the frequency of 
meetings with representatives of TPCC agencies; and the most common 
barriers that prevent companies in their State from exporting.
    The TPCC plans to present preliminary findings from the ITA survey 
in April at the annual SIDO meeting, which is a gathering of State 
trade offices. We understand that SIDO also anticipates having results 
from its own survey, which SIDO reports usually has a 50 percent 
response rate, around the same time.
    Following this meeting, the TPCC member agencies will use the 
findings from this data to draft and implement plans to further enhance 
collaboration with State trade promotion efforts. During this process, 
the TPCC Secretariat will continue to work closely with SIDO and the 
various State trade offices to identify opportunities for greater 
Federal-State trade promotion collaboration to maximize efficiencies 
and the impact on export promotion.
                      commerce--patent protections
    Question. American universities, along with related nonprofit 
research institutions, conduct over half of the basic research in the 
United States. Universities are allowed to license the resulting 
patents to the private sector for commercialization. University 
technology transfer provides a rich return on both public and private 
funding for basic research in the form of countless innovative products 
and services that benefit the public, create jobs, and contribute to 
U.S. economic competitiveness and global technological leadership.
    Can you please tell the subcommittee what the Department of 
Commerce is doing to ensure a robust patent system that provides strong 
protection for inventors and supports the continued success of 
university technology transfer?
    Answer. The United States Patent and Trademark Office (USPTO), an 
agency of the Department of Commerce, provides support, outreach and 
collaboration for universities and their technology transfer systems. 
The USPTO provides training at the university level to faculty and 
students alike to enhance the role of innovation and creativity at the 
university level. This outreach provides current and future scientists, 
engineers and business-minded people the skills to understand and 
utilize intellectual property (IP) in our high-tech economy. 
Furthermore, the USPTO collaborates with the university technology 
transfer offices across America to provide training on all aspects of 
IP. The USPTO works with the Federal national laboratories to assist in 
training staff on the aspects of IP and the technology transfer process 
as well. In addition, the USPTO frequently collaborates with the 
National Academy of Inventors and InventNow in reaching out and 
supporting university patent holders and collegiate inventors.
    Some specific examples of USPTO activities include:
  --An enhanced USPTO University Outreach program is underway and is 
        providing training to colleges and universities across the 
        country on the basics of IP and its importance as well as the 
        resources that are available at the USPTO to assist inventors, 
        innovators, entrepreneurs and small business owners.
  --The USPTO is part of the Inter-Agency Group Working on Technology 
        Transfer (IAGWTT) and Inter-Agency Network Enterprise 
        Assistance Providers (INEAP), which is in the process of 
        creating a ``Technology Transfer Playbook'' that outlines the 
        best practices for the technology transfer process.
  --The USPTO provides training for Small Business Innovation Research 
        (SBIR)/Small Business Technology Transfer (STTR) programs. Of 
        particular note is the relationship with the Small Business 
        Administration (SBA) and supporting their efforts to educate 
        grantees through the SBIR Road Tour designed to reach out to 
        colleges and universities.
  --The USPTO has a variety of resources on its USPTO.GOV Web site in 
        the form of videos, tutorials and Web pages that explain the 
        patent process and how to apply for a patent.
  --The USPTO, in a joint effort with partnership with National 
        Institute of Standards and Technology/Manufacturing Extension 
        Partnership (NIST/MEP), created an on-line, Web-based IP 
        Awareness Assessment Tool that allows an individual to answer 
        questions about their knowledge of IP and following the 
        completion of the assessment, the user receives customized 
        training materials.
                        commerce--patent reform
    Question. There have been some proposals in Congress and from the 
While House to reform the U.S. patent system in an attempt to reign in 
patent litigation abuses. However, in a letter from 145 American 
universities, they share their concerns that some of the patent reform 
proposals currently being discussed go well beyond what is needed to 
address the bad actions of a small number of patent holders, and would 
instead make it more difficult and expensive for patent holders to 
defend their rights in good faith.
    Can you please share with us what the Department of Commerce is 
doing to ensure that any reforms do not discourage universities and 
other patent holders from legitimately defending their patents?
    Answer. The Department and particularly its U.S. Patent and 
Trademark Office are actively working within the administration, with 
Congress, and all stakeholders, including the university community, to 
craft fair and balanced legislation to address the adverse effects of 
abusive patent infringement litigation and mass mailed, vague and 
threatening settlement demand letters. As a general matter, we are 
guided by the principle that any final legislation should effectively 
target truly abusive practices while maintaining a patent owner's 
legitimate right to enforce his or her patent. Further, we believe that 
any final legislation should take a balanced and fair approach that 
neither favors nor adversely affects any particular area of technology, 
industry or sector.
                        commerce--reorganization
    Question. The administration's budget includes a proposal to 
reorganize the administrative structure of several agencies and 
includes moving NOAA out of the Department of Commerce to the 
Department of Interior.
    Can you provide this subcommittee your thoughts on this proposal, a 
justification for this proposal and what impact it may have on NOAA?
    Answer. I support the President's request for the reorganization 
authority.
    I recognize that any reorganization of our Department would impact 
our employees' morale and productivity and our operations.
    Until the Congress grants the President this authority, we do not 
anticipate conducting any active planning on this specific proposal and 
remain focused on our current missions.
    The reality is that if the Congress grants this authority, the 
President would consult with various stakeholders before submitting a 
specific proposal to Congress that reflects the best interests of each 
agency involved and the American people.
    Right now, we are focused solely on providing the best possible 
services for the American people.

                          SUBCOMMITTEE RECESS

    Senator Shelby. The subcommittee stands in recess until 
Thursday, March the 5th, at 10:30 a.m., when we will take 
testimony of the NASA administrator, Charles Bolden.
    [Whereupon, at 12:04 p.m., Thursday, February 26, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]







  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2016

                              ----------                              


                        THURSDAY, MARCH 12, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Boozman, Capito, Lankford, 
Mikulski, Feinstein, Shaheen, Coons, Baldwin, and Murphy.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF HON. JAMES B. COMEY, DIRECTOR

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The subcommittee will come to order. We 
welcome all of you to today's open session of the Commerce, 
Justice, Science Subcommittee hearing on the Department of 
Justice fiscal year 2016 budget request for Federal law 
enforcement agencies.
    I want to welcome first our four witnesses, Federal Bureau 
of Investigation (FBI) Director James Comey, U.S. Marshals 
Service Director (USMS) Stacia Hylton, Drug Enforcement 
Administration (DEA) Administrator Michele Leonhart, and the 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) 
Director Todd Jones. They will later each testify about their 
agency's 2016 budget request.
    This morning, I want to begin by thanking the men and women 
of the FBI, the Marshals Service, the DEA, and the ATF, who 
work every day to protect this Nation. We are indebted to them 
and grateful for their service and their sacrifice.
    In particular, I want to express my condolences to the 
family of Deputy U.S. Marshal Josie Wells, who was killed in 
the line of duty on Tuesday while participating in a fugitive 
task force in Baton Rouge, Louisiana. Deputy Marshal Wells was 
attached to the Marshals' Southern District Office in 
Mississippi and had dutifully volunteered for this recent task 
force.
    Our thoughts and prayers are with his family, friends, and 
the entire Marshals Service community for their loss here.
    The constantly changing landscape of criminal activity at 
home and abroad has challenged the Justice Department's ability 
to deal with emerging threats. We expect our Federal law 
enforcement agencies to be more nimble and sophisticated than 
the criminals and terrorists they pursue.
    The goal of this joint law enforcement hearing is to 
determine how the 2016 budget would give each law enforcement 
agency the tools and the capabilities needed to tackle those 
changing threats, whether they are cyberattacks, drug 
trafficking, financial fraud, or terrorism.
    I believe our Federal law enforcement agencies must work 
together, particularly in tough budget environments, to target 
limited resources in a manner that safeguards taxpayers' 
dollars while preserving public safety.
    The FBI's mission includes protecting and defending the 
United States against terrorism and foreign intelligence 
threats, fighting cybercrime, as well as tending to traditional 
criminal activities, such as violent crime, public corruption, 
and white-collar crime. In order to carry out these priorities, 
the FBI's 2016 budget request is $8.5 billion, which is an 
increase of $47 million above the 2015 enacted amount.
    In the past year, we have seen terrorist threats and 
increased cyberattacks. I believe it is imperative that the FBI 
appropriately balances the bureau's diverse responsibilities 
while targeting the highest needs and criminal threats facing 
our Nation.
    The Marshals Service has the honor of being America's 
oldest Federal law enforcement agency. The Marshals provide 
judicial security, apprehend fugitives, protect witnesses, and 
transport prisoners, among other important duties. The 2016 
budget request of $2.7 billion for the Marshals Service is $100 
million less than the 2015 enacted level of $2.8 billion. The 
funding reductions are largely isolated to the Federal Prisoner 
Detention account.
    I want to hear how the 2016 budget request will allow the 
Marshals Service to continue its critical missions for the 
pursuit and arrest of fugitive sex offenders who are targeting 
our children.
    The Drug Enforcement Administration's 2016 budget request 
totals $2.5 billion. The agency serves a central role in our 
society, working with domestic and international partners in 
enforcement of controlled substance laws and regulations of the 
United States.
    In addition, the DEA's Diversion Control Program prevents, 
detects, and investigates the diversion of controlled 
pharmaceuticals and listed chemicals. This mission is critical 
with prescription drug abuse arguably being the country's 
fastest growing drug problem.
    The Bureau of Alcohol, Tobacco, Firearms and Explosives is 
tasked with combating the illegal use and trafficking of 
firearms, the illegal use and storage of explosives, and acts 
of arson and bombings, among other crime-fighting roles. ATF's 
2016 budget request is $1.3 billion, which is $60 million above 
the 2015 level.
    I am interested in how the agency would use this increased 
funding, particularly in light of recent complaints from 
hunters and sportsmen who believe that ATF overstepped its 
authority by attempting to ban certain ammunition for 
recreational use.
    I look forward to hearing the views and explanations of our 
four witnesses regarding the details of their 2016 funding 
request totals, and working with our subcommittee members to 
prioritize the necessary funding for our Federal law 
enforcement agencies.
    Now at this point, I would like to recognize my friend and 
colleague, Senator Mikulski, the former chairwoman of the 
subcommittee.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman, for 
this hearing today and really bringing the full complement of 
Federal law enforcement before the subcommittee, not only to 
review their budget, but so that we could first of all truly 
express our appreciation. And we do appreciate every single man 
and woman who works for the agencies represented here today, 
who are so much valued and so much appreciated. And they should 
know that.
    I think we need to be able to do that in three ways. Number 
one, give them respect. Make sure we respect them and respect 
the sacrifices they do and their families do every single day 
while they are often away protecting us.
    Number two, let's have the right resources, and let's make 
sure we don't do another sequester where FBI agents were 
digging into their pocket to pay for gasoline, and DEA agents 
were wondering what they could do to do their job, and while we 
were looking at sequester, how we go after the sexual predators 
while we were protecting the judges.
    And, of course, for the Bureau of Alcohol, Tobacco, and 
Firearms (ATF), that wonderful lab in Ammendale that does this 
incredible forensics, not only what you are enforcing, but 
enabled us to identify that the terrible sniper situation we 
had here a few years ago came from a single gun, through the 
forensics that you did.
    And it's that: some carry a gun, some work with a 
microscope, but all are on their job, and I wanted to say that.
    Tomorrow, I will be at a Maryland, Montgomery County 
Chamber of Commerce event, in which they honor those who 
provide public safety, firefighters and also police officers.
    The Baltimore field office, Mr. Comey, will be receiving an 
award for being the best public safety partner. So it is not 
only what you do, it is how you do it, actually engaged in the 
community, leveraging the assets of both the Federal Government 
and then State and local, where everybody is best at what they 
are best at and best at what they are most needed for. So we 
appreciate that.
    Of course, we want to express our condolences over the 
death of Deputy Marshal Josie Wells killed in the line of fire.
    And, of course, we wish our police officers in Ferguson a 
good recovery.
    So we have a big job to do, and the way we start, with 
respect, I believe, with the right resources. While we are 
looking at the law enforcement agencies, the FBI, DEA, and ATF 
make up almost half of the Justice Department's budget, close 
to $15 billion. I think that is a bargain. I think that is a 
tremendous bargain for what we get in the way you are out there 
protecting America.
    There is only a modest increase in here of $98 million, and 
I am concerned whether that enables you to keep on hiring the 
people that you need to do the job, to be able to sustain the 
effort with the people that you hire, and also will we be able 
to do the cost-of-living adjustments for the people who work 
with you, whether they are agents or intelligence analysts or 
computer analysts.
    These needed increases come in the context of the 
President's request. Yes, we do know it is above the caps, and 
we will be having a robust discussion. But while there are many 
who are calling and pounding the table for let's lift the caps 
on defense, a needed debate, there is another way we need to 
defend America.
    We need to defend America in the streets and neighborhoods 
of our communities, and we need to defend them from sexual 
predators. We need to defend them from murderers and killers. 
We need to defend them against the lone wolf, who could be 
roaming around one of our big cities or small towns.
    So if you want to protect America, you not only want to 
lift the defense caps, you want to lift the domestic caps and 
have parity with that.
    I want you to know, I feel very strongly about it. And when 
I say I didn't want to run again because I didn't want to raise 
money, but raise hell, this is one of the areas that I am going 
to raise hell about. And we are going to do it here today.
    So we look forward to hearing what it is you need for those 
resources. We count on you to be able to do this job.
    I could go through the data, which I will when we get to 
the questions. Two areas I hope we could also focus on, in 
addition to your specific mission, of course, is the heroin 
crisis that we hear from every Governor, including my own in 
Maryland.
    And we look to work with our Governor. Yes, he is a 
Republican and, yes, I am a Democrat. But we are 100 percent 
Marylanders, and we are 100 percent involved in dealing with 
heroin.
    Of course, the women of the Senate, joining with very good 
men, are now focusing on the issue of human trafficking, and we 
look forward to hearing it.
    But I need to know what are the right resources for you to 
be best at what you are best at, and be best at what you are 
needed for. And we best better get our act together and make 
sure we support you.
    I look forward to the dialogue.
    Senator Shelby. Thank you.
    We will start the hearing testimony with FBI Director Comey 
and then go right to left. We welcome all of you. Your written 
testimony will be made part of the record, if you will sum up 
your remarks.
    Director Comey, welcome again.

                SUMMARY STATEMENT OF HON. JAMES B. COMEY

    Mr. Comey. Thank you, Mr. Chairman, it is good to be here. 
Vice Chairwoman Mikulski, Senators, thank you for this 
opportunity. Thank you for the opportunity to sit with three--I 
was going to say old friends but I don't want to criticize 
anyone--people who I have worked with for many years, maybe 
more than we would like to admit.
    We all very much appreciate your expression of condolence 
for the Marshals Services' terrible loss. It is a reminder of 
the quality of the people we have, and the risk they take to 
protect this country. We are very grateful for that.
    The FBI's 2016 budget request is about maintaining the 
capabilities that you have given us. It is about being good 
stewards of the taxpayers' money and ensuring that we recover 
from the effects of sequester by filling the ranks that were so 
depleted over the last couple of years.
    There are two enhancements requested in our budget, each 
for about $10 million--one relates to our cyber-capabilities, 
trying to build those, and the second relates to our efforts to 
try to integrate better in a technological way with the rest of 
the intelligence community.
    As the members of this subcommittee know, the FBI, like my 
colleagues here would agree, it's all about the people. Sixty 
percent of our budget goes to our good folks. We have 
remarkable men and women who are working 24 hours a day all 
around this world to protect this country and its citizens.
    The members of this subcommittee are very well-aware of the 
threats the FBI is responsible for addressing. Counterterrorism 
remains at the top of our list, for reasons that make good 
sense.
    The world of terrorism has shifted just in my 18 months on 
this job, particularly in the growth and flourishing in 
ungoverned or lightly governed spaces of the progeny of al 
Qaeda, most prominently with ISIL, and with the use in groups 
like ISIL and Al-Qaeda in the Arabian Peninsula (AQAP). They 
use sophisticated technology and social media to spread their 
poison, to attract recruits to their so-called caliphate, and 
to try to motivate people who don't travel to do harm to 
innocent people in the United States.
    This poses an enormous challenge to us to find the people 
who are responding to that siren song, to track those who are 
traveling, and to find those who might be motivated to 
radicalize and stay in place but engage in murderous behavior 
in the name of some misguided effort to find meaning in their 
lives.
    So counterterrorism remains at the top of our list, for 
reasons that I know the American people appreciate.
    As Chairman Shelby mentioned, we also have responsibility 
for counterintelligence. The spy game is not a thing of the 
1950s or 1960s. It is alive and well, and increasingly, as with 
all the threats we are responsible for, manifesting on the 
Internet.
    Cyber dominates the FBI's life. You have to be digitally 
literate to protect kids, to fight fraud, to fight terrorism, 
to protect critical infrastructure, to protect our secrets. And 
so we are working very hard to make sure we have the workforce, 
the technology, and that we are deployed in a smart way to be 
able to deal with the threats that come at us through the 
Internet, which are all the threats we are responsible for.
    And we spend a tremendous amount of time working with our 
partners here at this table to address a variety of criminal 
threats: Vice Chairwoman Mikulski mentioned our efforts to 
protect children, we work very hard on that; to fight public 
corruption, as Chairman Shelby said; and a host of other 
efforts we do around the country.
    We do them almost entirely in partnerships with Federal, 
State and local partners. There is literally nothing that the 
FBI does alone. We accomplish great good, but we do it in 
partnership with lots of other folks.
    I wanted to close by just mentioning a couple of our 
capabilities that this subcommittee has supported that don't 
get the attention, in my view, that they deserve.
    The first is our Terrorist Explosive Device Analytical 
Center (TEDAC) that we, together with ATF and other partners, 
run. It is the analysis center for improvised explosive devices 
used by terrorists around the world. It is a tremendous 
resource for this country and its allies.
    In Huntsville, Alabama, we are putting together a world-
class facility so that we can do with explosive devices what we 
have done with fingerprints, which is allow us to connect dots 
and save lives. I had the chance to visit the new facility 
there very recently. I am extremely excited about the 
opportunities that offers for this country and our allies to be 
safer.
    And we are very grateful to the subcommittee for its 
support.
    We also run the Hazardous Devices School down there, where 
we with partners are training the bomb techs of today and 
tomorrow, who are working around this country to defuse devices 
and to protect the American people.
    Two tremendous resources that don't get much attention. I 
will mention one other.
    In the great State of West Virginia, we have thousands of 
people working at our Criminal Justice Information Services 
Division, which is literally the frame on which hangs the law 
enforcement of this country. They facilitate the information-
sharing. They run the fingerprint database. They run the DNA 
database. They run the sharing of vital information that 
protects law enforcement officers.
    I told them when I visited them that your work to a lot of 
people sounds boring. It is only boring because it works so 
well. We take it for granted that this work will be there, so 
when a cop pulls somebody over and runs their name or their 
fingerprints, they know immediately whether that is a 
terrorist, a rapist, an escaped fugitive, and people are 
protected by virtue of that.
    They are underappreciated but they are the frame on which 
hangs law enforcement in this country. We are hugely grateful 
for the support of this subcommittee of our West Virginia 
colleagues.
    With that, I will stop and just thank you again. This 
subcommittee has been tremendously supportive of the FBI. We 
recognize it and our great folks are extraordinarily grateful 
for the support they've gotten from the subcommittee, and I 
look forward to taking your questions.
    [The statement follows:]
               Prepared Statement of Hon. James B. Comey
    Good morning Chairman Shelby, Vice Chairwoman Mikulski, and members 
of the subcommittee.
    As you know, the FBI is asked to deal with a wide range of threats, 
crime problems, and operational challenges across the national security 
and law enforcement spectrum. Today, I appear before you on behalf of 
the men and women of the FBI who step up to these threats and 
challenges. I am here to express my appreciation for the support you 
have given them in the past and to ask your continued support in the 
future.
    I would like to begin by providing a brief overview of the FBI's 
fiscal year 2016 budget request, and then follow with a short 
discussion of key threats and challenges that we face, both as a Nation 
and an organization.
                fiscal year 2016 budget request overview
    The fiscal year 2016 budget request proposes a total of $8.48 
billion in direct budget authority to address the FBI's highest 
priorities. The request includes a total of $8.4 billion for Salaries 
and Expenses, supporting 35,037 permanent positions (13,074 Special 
Agents, 3,083 Intelligence Analysts, and 18,880 professional staff), 
and $68.9 million for Construction. Two program enhancements totaling 
$20 million are proposed: $10.3 million to increase cyber investigative 
capabilities and $9.7 million to leverage Intelligence Community 
Information Technology Enterprise (IC ITE) components and services 
within the FBI.
    The fiscal year 2016 request includes the cancellation of $120 
million from Criminal Justice Information Services (CJIS) excess 
surcharge balances and $91.4 million in non-recurred spending ($50.4 
million in the Salaries and Expenses account and $41 million in the 
Construction account).
    Overall, the fiscal year 2016 request represents a net increase of 
$47 million over the fiscal year 2015 enacted levels, representing an 
increase of $88 million for Salaries and Expenses and a decrease of $41 
million for Construction.
                       key threats and challenges
    As a Nation and as an organization, we face a multitude of ever 
evolving threats from homegrown violent extremists to hostile foreign 
intelligence services and agents; from sophisticated cyber-based 
attacks to Internet facilitated sexual exploitation of children; from 
violent gangs and criminal organizations to public corruption and 
corporate fraud. Within these threats, we face growing challenges, from 
keeping pace with constantly changing and new technologies that make 
our jobs both easier and harder; to the use of the Internet and social 
media to facilitate illegal activities, recruit followers and encourage 
terrorist attacks, and to disperse information on building improvised 
explosive devices (IEDs) and other means to attack the United States. 
The breadth of these threats and challenges are as complex as any time 
in our history. And the consequences of not responding to and 
countering threats and challenges have never been greater.
    The support of this subcommittee in helping the FBI to do its part 
in facing these threats and challenges is greatly appreciated. That 
support has allowed us to establish strong capabilities and capacities 
for assessing threats, sharing intelligence, leveraging key 
technologies, and--in some respects, most importantly--to hiring some 
of the best to serve as Special Agents, Intelligence Analysts, and 
professional staff. We are building a workforce that possesses the 
skills and knowledge to deal with the complex threats and challenges we 
face today--and tomorrow. We are building a leadership cadre that views 
change and transformation as a positive tool for keeping the FBI 
focused on the key threats facing our Nation.
    We remain focused on defending the United States against terrorism, 
foreign intelligence, and cyber threats; upholding and enforcing the 
criminal laws of the United States; protecting civil rights and civil 
liberties; and providing leadership and criminal justice services to 
Federal, State, municipal, and international agencies and partners. Our 
ability to carry out this demanding mission reflects the continued 
support and oversight provided by this subcommittee.
Countering Terrorism
    Preventing terrorist attacks remains the FBI's top priority. The 
terrorist threat against the United States remains persistent and 
acute.
    The threats posed by foreign fighters, including those recruited 
from the U.S., traveling to join the Islamic State of Iraq and the 
Levant (ISIL) and from homegrown violent extremists are extremely 
dynamic. These threats remain the biggest priorities and challenges for 
the FBI, the U.S. Intelligence Community, and our foreign, State, and 
local partners. ISIL is relentless and ruthless in its pursuits to 
terrorize individuals in Syria and Iraq, including Westerners. We are 
concerned about the possibility of individuals in the U.S. being 
radicalized and recruited via the Internet and social media to join 
ISIL in Syria and Iraq and then return to the U.S. to commit terrorist 
acts. ISIL's widespread reach through the Internet and social media is 
most concerning as the group has proven dangerously competent at 
employing such tools for its nefarious strategy. ISIL uses high-
quality, traditional media platforms, as well as widespread social 
media campaigns to propagate its extremist ideology. Recently released 
propaganda has included various English language publications 
circulated via social media. We are equally concerned over the 
execution of U.S. citizens taken as hostages by ISIL.
    As a communications tool, the Internet remains a critical node for 
terror groups to exploit. Recently, a group of five individuals was 
arrested for knowingly and willingly conspiring and attempting to 
provide material support and resources to designated foreign terrorist 
organizations active in Syria and Iraq. Much of their conspiracy was 
played out via the Internet. We remain concerned about recent calls to 
action by ISIL and its supporters on violent extremist Web forums that 
could potentially motivate homegrown extremists to conduct attacks here 
at home. Online supporters of ISIL have used various social media 
platforms to call for retaliation against the U.S. In one case, an 
Ohio-based man was arrested in January after he stated his intent to 
conduct an attack on the U.S. Capitol building. The individual is 
alleged to have used a Twitter account to post statements, videos, and 
other content indicating support for ISIL.
    Echoing other terrorist groups, ISIL has advocated for lone wolf 
attacks in Western countries. A recent ISIL video specifically 
advocated for attacks against soldiers, law enforcement, and 
intelligence community personnel. Several incidents have occurred in 
the United States, Canada, and Europe over the last few months that 
indicate this ``call to arms'' has resonated among ISIL supporters and 
sympathizers.
    Al Qaeda and its affiliates--especially al Qaeda in the Arabian 
Peninsula (AQAP)--continue to represent a top terrorist threat to the 
Nation and our interests overseas. AQAP's online English magazine 
advocates for lone wolves to conduct attacks against the U.S. homeland 
and Western targets. The magazine regularly encourages homegrown 
violent extremists to carry out small arms attacks and provides 
detailed ``how to'' instructions for constructing and deploying a 
successful improvised explosive device.
    With our domestic and foreign partners, we are rigorously 
collecting and analyzing intelligence information as it pertains to the 
ongoing threat posed by ISIL, AQAP, and other foreign terrorist 
organizations. Given the global impact of the Syria and Iraq conflicts, 
regular engagement with our domestic and foreign partners concerning 
foreign fighters is critical. These partnerships are critical to 
performing our counterterrorism mission and ensuring a coordinated 
approach towards national security threats.
    The FBI, along with our local, State, tribal, and Federal partners, 
is utilizing all investigative techniques and methods to combat the 
threat these terrorists may pose to the United States. We must maintain 
robust information sharing and close collaboration with our State, 
local, tribal, and Federal partners. Individuals who are affiliated 
with a foreign terrorist organization, inspired by a foreign terrorist 
organization, or who are self-radicalized are living in their 
communities. We recognize it is our responsibility to share information 
pertaining to ongoing or emerging threats immediately. Our local and 
State partners rely on this intelligence to conduct their 
investigations and maintain the safety of their communities. It is our 
responsibility to provide them with the information and resources to 
keep their communities out of harm's way. In each of the FBI's 56 field 
offices, Joint Terrorism Task Forces serve as a vital mechanism for 
information sharing among our partners. These task forces consist of 
more than 4,100 members--including more than 1,500 interagency 
personnel from more than 600 Federal, State, territorial, and tribal 
partner agencies. Together with our local, State, tribal, and Federal 
partners, we are committed to combating the threat from homegrown 
violent extremists and ensuring the safety of the American public.
    Among the FBI's counter-terrorism capabilities is the Terrorist 
Explosive Device Analytical Center (TEDAC). TEDAC is a whole of 
government resource for the exploitation of IEDs and combating the 
terrorist use of explosives. TEDAC is proving to be a valuable tool 
supporting the military, homeland security, international partners, 
intelligence, and law enforcement communities by developing and sharing 
intelligence about terrorist explosive devices. Prior to TEDAC, no 
single part of our Government was responsible for analyzing and 
exploiting intelligence related to terrorist IEDs. TEDAC will begin 
occupying the first phase of its new facilities this Spring. The second 
phase of construction, which will include a joint partnership with the 
Department of Homeland Security, is expected to be completed in fiscal 
year 2016. The third phase of construction will provide a collaboration 
center that is expected to be completed in fiscal year 2017. Also, 
consistent with funding provided by the subcommittee this fiscal year, 
the FBI is expanding facilities and training at the Hazardous Devices 
School (HDS). This effort is just getting underway.
Countering Foreign Intelligence and Espionage
    The Nation faces a continuing threat, both traditional and 
asymmetric, from hostile foreign intelligence agencies. Traditional 
espionage, career foreign agents acting as diplomats or ordinary 
citizens and asymmetric espionage, typically carried out by students, 
researchers, or businesspeople operating front companies, is prevalent. 
And they seek not only State and military secrets, but also commercial 
trade secrets, research and development, and intellectual property, as 
well as insider information from the Federal Government, U.S. 
corporations, and American universities. Foreign intelligence services 
continue to employ more creative and more sophisticated methods to 
steal innovative technology, critical research and development data, 
and intellectual property, in an effort to erode America's economic 
leading edge. These illicit activities pose a significant threat to 
national security.
    We also remain focused on the growing scope of the insider threat--
that is, when trusted employees and contractors use their legitimate 
access to steal secrets for personal benefit or to benefit another 
company or country. This threat has been exacerbated in recent years as 
businesses have become more global and increasingly exposed to foreign 
intelligence organizations.
    To combat this threat, we are working with academic and business 
partners to protect against economic espionage. We also work with the 
defense industry, academic institutions, and the general public to 
address the increased targeting of unclassified trade secrets across 
all American industries and sectors.
Cyber-based Threats
    An element of virtually every national security threat and crime 
problem the FBI faces is cyber-based or facilitated. We face 
sophisticated cyber threats from state-sponsored hackers, hackers for 
hire, organized cyber syndicates, and terrorists. On a daily basis, 
cyber-based actors seek our state secrets, our trade secrets, our 
technology, and our ideas--things of incredible value to all of us and 
of great importance to the conduct of our Government business and our 
national security. They seek to strike our critical infrastructure and 
to harm our economy.
    Given the scope of the cyber threat, the FBI and other 
intelligence, military, homeland security, and law enforcement agencies 
across the Government view cyber security and cyber-attacks as a top 
priority. Within the FBI, we are targeting high-level intrusions--the 
biggest and most dangerous botnets, state-sponsored hackers, and global 
cyber syndicates. We want to predict and prevent attacks, rather than 
reacting after the fact.
    As the subcommittee is well aware, the frequency and impact of 
cyber-attacks on our Nation's private sector and government networks 
have increased dramatically in the past decade and are expected to 
continue to grow. Since fiscal year 2002, the FBI has seen an 80 
percent increase in its number of computer intrusion investigations.
    FBI agents, analysts, and computer scientists are using technical 
capabilities and traditional investigative techniques--such as sources, 
court-authorized electronic surveillance, physical surveillance, and 
forensics--to fight cyber threats. We are working side-by-side with our 
Federal, State, and local partners on Cyber Task Forces in each of our 
56 field offices and through the National Cyber Investigative Joint 
Task Force (NCIJTF), which serves as a coordination, integration, and 
information sharing center for 19 U.S. agencies and several key 
international allies for cyber threat investigations. Through CyWatch, 
our 24-hour cyber command center, we combine the resources of the FBI 
and NCIJTF, allowing us to provide connectivity to Federal cyber 
centers, Government agencies, FBI field offices and legal attaches, and 
the private sector in the event of a cyber-intrusion. We have recently 
co-located our cyber efforts into a new FBI facility.
    The FBI is engaged in a myriad of efforts to combat cyber threats, 
from efforts focused on threat identification and sharing inside and 
outside of Government, to our internal emphasis on developing and 
retaining new talent and changing the way we operate to evolve with the 
cyber threat. The fiscal year 2016 budget request includes an 
enhancement of $10.3 million to support these efforts.
    In addition to key national security threats, the FBI and the 
Nation faces significant criminal threats ranging from complex white-
collar fraud in the financial, healthcare, and housing sectors to 
transnational and regional organized criminal enterprises to violent 
crime and public corruption. Criminal organizations--domestic and 
international--and individual criminal activity represent a significant 
threat to our security and safety in communities across the Nation.
Public Corruption
    Public corruption is the FBI's top criminal priority. The threat--
which involves the corruption of local, State, and federally elected, 
appointed, or contracted officials--strikes at the heart of government, 
eroding public confidence and undermining the strength of our 
democracy. It impacts how well U.S. borders are secured and 
neighborhoods are protected, how verdicts are handed down in court, and 
how well public infrastructure such as schools and roads are built. The 
FBI is uniquely situated to address this threat, with our ability to 
conduct undercover operations, perform court-authorized electronic 
surveillance, and run complex, long-term investigations and operations. 
However, partnerships are critical, and we work closely with Federal, 
State, local, and tribal, authorities in pursuing these cases.
    One key focus for us is border corruption. The U.S. Government 
oversees 7,000 miles of U.S. land border and 95,000 miles of shoreline. 
Every day, more than a million visitors enter the country through one 
of 327 official ports of entry along the Mexican and Canadian borders, 
as well as through seaports and international airports. Any corruption 
at the border enables a wide range of illegal activities, potentially 
placing the entire Nation at risk by letting drugs, arms, money, and 
weapons of mass destruction slip into the country, along with 
criminals, terrorists, and spies. Another focus concerns election 
crime. Although individual States have primary responsibility for 
conducting fair and impartial elections, the FBI becomes involved when 
paramount Federal interests are affected or electoral abuse occurs.
Gangs/Violent Crime
    Violent crimes and gang activities exact a high toll on individuals 
and communities. Today's gangs are sophisticated and well organized; 
many use violence to control neighborhoods and boost their illegal 
money-making activities, which include robbery, drug and gun 
trafficking, fraud, extortion, and prostitution rings. Gangs do not 
limit their illegal activities to single jurisdictions or communities. 
The FBI's ability to work across jurisdictional boundaries is vital to 
the fight against violent crime in big cities and small towns across 
the Nation. Every day, FBI special agents work in partnership with 
State, local, and tribal officers and deputies on joint task forces and 
individual investigations.
    FBI joint task forces--Violent Crime Safe Streets, Violent Gang 
Safe Streets, and Safe Trails Task Forces--focus on identifying and 
targeting major groups operating as criminal enterprises. Much of the 
Bureau's criminal intelligence is derived from partnerships with our 
State, local, and tribal law enforcement partners, who know their 
communities inside and out. Joint task forces benefit from FBI 
surveillance assets and our sources track these gangs to identify 
emerging trends. Through these multi-subject and multi-jurisdictional 
investigations, the FBI concentrates its efforts on high-level groups 
engaged in patterns of racketeering. This investigative model enables 
us to target senior gang leadership and to develop enterprise-based 
prosecutions.
Transnational Organized Crime
    More than a decade ago, the image of organized crime was of 
hierarchical organizations, or families, that exerted influence over 
criminal activities in neighborhoods, cities, or States. But organized 
crime has changed dramatically. Today, international criminal 
enterprises run multinational, multi-billion-dollar schemes from start 
to finish. These criminal enterprises are flat, fluid networks with 
global reach. While still engaged in many of the ``traditional'' 
organized crime activities of loan-sharking, extortion, and murder, new 
criminal enterprises are targeting stock market fraud and manipulation, 
cyber-facilitated bank fraud and embezzlement, identity theft, 
trafficking of women and children, and other illegal activities. 
Preventing and combating transnational organized crime demands a 
concentrated effort by the FBI and Federal, State, local, tribal, and 
international partners. The FBI continues to share intelligence about 
criminal groups with our partners and to combine resources and 
expertise to gain a full understanding of each group.
Crimes Against Children
    The FBI remains vigilant in its efforts to eradicate predators from 
our communities and to keep our children safe. Ready response teams are 
stationed across the country to quickly respond to abductions. 
Investigators bring to this issue the full array of forensic tools such 
as DNA, trace evidence, impression evidence, and digital forensics. 
Through improved communications, law enforcement also has the ability 
to quickly share information with partners throughout the world, and 
our outreach programs play an integral role in prevention.
    The FBI also has several programs in place to educate both parents 
and children about the dangers posed by violent predators. Through our 
Child Abduction Rapid Deployment teams, Innocence Lost National 
Initiative, Innocent Images National Initiative, Office for Victim 
Assistance, and numerous community outreach programs, the FBI and its 
partners are working to keep our children safe from harm.
    The FBI established the Child Sex Tourism Initiative to employ 
proactive strategies to identify U.S. citizens who travel overseas to 
engage in illicit sexual conduct with children. These strategies also 
include a multi-disciplinary approach through partnerships with foreign 
law enforcement and non-governmental organizations to provide child 
victims with available support services. Similarly, the FBI's Innocence 
Lost National Initiative serves as the model for the partnership 
between Federal, State, and local law enforcement in addressing child 
prostitution. Since its inception in fiscal year 2003, the FBI has 
partnered with nearly 400 law enforcement agencies from 71 child 
exploitation task forces throughout the country. This initiative has 
been responsible for the location and recovery of more than 4,350 
children. The investigations and subsequent 1,950 convictions have 
resulted in lengthy sentences, including 15 life terms.
             key cross-cutting capabilities and capacities
    I would like to briefly highlight two key cross-cutting 
capabilities and capacities that are critical to our efforts in each of 
the threat and crime problems described.
Intelligence
    The FBI is a national security and law enforcement organization 
that collects, uses, and shares intelligence in everything we do. The 
FBI's efforts to advance intelligence capabilities have focused on 
streamlining and optimizing our intelligence components while 
simultaneously positioning the Bureau to carry out its responsibilities 
as the lead domestic intelligence agency. Since 9/11, the FBI has 
transformed itself to become a threat-based, intelligence-informed 
national security and law enforcement agency. Such a transformation is 
a continuous journey and, while we have made substantial progress, we 
recognize we still have a journey ahead of us.
    This past year, I asked and received the subcommittee's approval to 
restructure the FBI's Intelligence Program to reflect the progress we 
have made. I would like to extend my appreciation for your support of 
my request. I am confident that restructuring will allow us to take the 
next step towards the seamless integration of intelligence and 
operations. I also anticipate the restructuring will facilitate 
smoother and more efficient exchange of intelligence with the 
Intelligence Community and international partners.
    The FBI cannot be content to just work what is directly in front of 
us. We must also be able to look beyond the horizon and understand the 
threats we face at home and abroad and how those threats may be 
connected. Towards that end, intelligence is gathered, consistent with 
our authorities, to help us understand and rank identified threats and 
to determine where there are gaps in what we know about these threats. 
We then try to fill those gaps and continue to learn as much as we can 
about the threats we are addressing and those we may need to address. 
We do this for national security and criminal threats, on both a 
national and local field office level. We then compare the national and 
local perspectives to develop a threat prioritization ranking for each 
of the FBI's 56 field offices. By creating this ranking, we strive to 
actively pursue our highest threats. This gives us a better assessment 
of what the dangers are, what's being done about them, and what we 
should spend time and resources on.
Operational and Information Technology
    As criminal and terrorist threats become more diverse and 
dangerous, the role of technology becomes increasingly important to our 
efforts. We are using technology to improve the way we collect, 
analyze, and share information. We have seen significant improvement in 
capabilities and capacities over the past decade; but technology 
remains a key concern for the future.
    For example, we recently deployed new technology for the FBI's Next 
Generation Identification System. This technology enables us to process 
fingerprint transactions much faster and with more accuracy. This year, 
the Biometrics Technology Center will come online. This shared facility 
will enhance collaboration between the FBI's Biometrics Center of 
Excellence and the Department of Defense's (DOD) Biometrics Fusion 
Center. Together, these centers will advance centralized biometric 
storage, analysis, and sharing with State and local law enforcement, 
DOD, and others. In addition, we are also integrating isolated stand-
alone investigative data sets so that we can search multiple databases 
more efficiently, and, in turn, pass along relevant information to our 
partners.
    The rapid pace of advances in mobile and other communication 
technologies continue to present a significant challenge to conducting 
court-ordered electronic surveillance of criminals and terrorists. 
These court-ordered surveillances are often critical in cyber cases 
where we are trying to identify those individuals responsible for 
attacks on networks, denial of services, and attempts to compromise 
protected information. However, there is a growing and dangerous gap 
between law enforcement's legal authority to conduct electronic 
surveillance, and its actual ability to conduct such surveillance. 
Because of this gap, law enforcement is increasingly unable to gain 
timely access to the information it needs to protect public safety and 
bring these criminals to justice. We are grateful for this 
subcommittee's support in funding the National Domestic Communications 
Assistance Center. The center enables law enforcement to share tools, 
train one another in modern intercept solutions, and reach out to the 
communications industry with one voice. It is only by working 
together--within the law enforcement and intelligence communities, and 
with our private sector partners--that we will develop effective 
strategies enabling long-term solution to address this growing problem.
    The fiscal year 2016 budget request includes $9.7 million for the 
initial installment of a multi-year information technology strategy to 
enhance the FBI's ability to share information with partners in the 
Intelligence Community using cloud computing and common desktop 
environments.
                               conclusion
    Being asked to respond to complex and ever-changing threats and 
crime problems is not new to the FBI. Our success in meeting these 
challenges is directly tied to the resources provided to the FBI. The 
resources this subcommittee provides each year are critical for the 
FBI's ability to address existing and emerging national security and 
criminal threats.
    Chairman Shelby, Vice Chairwoman Mikulski, and members of the 
subcommittee, I would like to close by thanking you for this 
opportunity to discuss the FBI's budget request for fiscal year 2016 
and the key threats and challenges that we are facing, both as a Nation 
and as an organization. We are grateful for the leadership that you and 
this subcommittee have provided to the FBI. We would not possess the 
capabilities and capacities to deal with these threats and challenges 
today without your support. Your willingness to invest in and support 
our workforce and our physical and technical infrastructure allow the 
men and women of the FBI to make a difference every day in communities 
large and small throughout our Nation and in locations around the 
world. We thank you for that support.
    I look forward to answering any questions you may have.

    Senator Shelby. Thank you.
    Ms. Hylton.

                     UNITED STATES MARSHALS SERVICE

STATEMENT OF HON. STACIA A. HYLTON, DIRECTOR
    Ms. Hylton. Thank you, Mr. Chairman. Good morning, 
everyone.
    I want to start by thanking for your recognition of Deputy 
Josie Wells, who we lost this past Tuesday. He was, without a 
doubt, one of our finest. He was a young man committed to our 
fugitive investigation operations. He was a young man who 
worked to make our community safer. His loss is really 
unbearable to all of us, but, more importantly, as you can 
imagine, to his family.
    Deputy Wells came from a long line of law enforcement. His 
father is a law enforcement retired officer from the State of 
Mississippi, and his two brothers currently serve within local 
communities as police officers.
    We will stand with them and we will support them as we bid 
farewell to Josie this weekend, as we recognize yet another 
fallen U.S. Marshals Service hero.
    Our total request for nearly $2.7 billion includes $1.2 
billion for Salaries and Expenses, and $1.5 billion for 
Detention, and $15 million for Construction in Federal 
courthouses nationwide.
    The agency's many accomplishments over the years, as we 
celebrate our 225th anniversary this year, would not have been 
possible without your support, from this subcommittee, in 
particular. In recent years, you have acknowledged and provided 
resources for us to safely guard the Nation's Federal prison 
inmates and detention populations, and you recognized the 
importance of those resources.
    Over the past year, we had worked carefully to assess the 
agency's spending and, where necessary, made improvements and 
reduced costs.
    The U.S. Marshals Service has also benefited from this 
subcommittee's decision to restore our resources in 2014 on 
Salaries and Expenses. This allowed us to fill 200 vacancies of 
Deputy U.S. Marshals, and I thank you for that support.
    I can assure you that we take our fiduciary 
responsibilities very seriously. We have worked diligently 
within the Department of Justice, Office of Management and 
Budget, and, certainly with your staffs, so we could submit a 
reasonable and modest budget that is mindful of our country's 
financial situation.
    In doing so, we have worked proactively to creatively 
address our shortfalls using existing resources to ensure 
officer safety.
    Aside from retaining a small carryover from the detention 
balance, the U.S. Marshals Service worked to ensure a 
significant amount of those detention resources are made 
available to the administration and Congress for other 
purposes. It is my ongoing focus to ensure that we are as 
efficient and effective as we can within the dollars that are 
given to us.
    Our priority is to take transformational steps into making 
the Marshals Service a data-driven agency that uses data to 
drive strategic and tactical business decisions. Ultimately, 
this is helping us present a performance-based budget to 
showcase how we are managing our resources appropriated from 
Congress.
    The 2016 budget that you have in front of you provides 
necessary resources to maintain and enhance the critical USMS 
functions that you have spoken about today: arresting the 
violent fugitives, protecting our children, and reducing crime 
in our communities.
    Ensuring safeguards for protective operations for the 
Federal Judiciary is still a paramount concern for the Marshals 
Service, as we see more violence on our Federal courthouses and 
our Federal Judiciary.
    We saw it in Wheeling, West Virginia. We saw it most 
recently on a judge's home in Florida who was shot in the 
middle of the night, the judge just barely escaping injury to 
himself and his family.
    The violence is happening in the courthouses, the shooting 
in Utah. You have seen them play across the media, and you can 
see the violent criminals that are introduced into the Federal 
court system nowadays pose a great risk to our judiciary.
    The 2016 budget maintains these missions as well as 
increases our enforcement efforts for law enforcement, as we 
provide safety to our officers, as we try to work and ensure 
that we can meet the requirements under the Adam Walsh Child 
Protection and Safety Act.
    The National Center for Missing and Exploited Children 
estimates over 769,000 sex offenders live in the United States, 
of which I am proud to say that we apprehended close to 12,000 
annually, brought them into compliance, because over 100,000 of 
those 769,000 are not in compliance with the registry 
requirements.
    Officer safety will always remain as my top priority in 
this agency, as we have lost too many. And every effort is made 
to ensure that personnel are adequately trained and equipped.
    Annually, our deputies along with our partners here at the 
table, my colleagues, as Director Comey stated earlier, work 
collectively together. We, the Marshals Service, apprehend and 
clear warrants of more than 105,000 violent fugitives a year. 
Deputy Marshals risk their lives everyday investigating, 
apprehending, and pursuing those who flee from justice, that 
are wanted.
    Accordingly, therefore, we are requesting $1.5 million for 
law enforcement safety training, so we may keep that effort.
    The subcommittee has recognized the urgent need to contain 
proliferation of gangs across our country. Criminal gang 
activity has a severe impact across law enforcement because of 
the rising prevalence and high level of violence. Gangs are no 
longer isolated to motorcycle gangs and violent urban street 
gangs. They now exist across the country, in urban, suburban, 
and rural communities--socially and economically depressed 
communities. Nearly 1 million members are criminally active in 
the United States. This is something that we all want to 
address.
    Our 2016 budget request has an increase of $5.2 million for 
a total of $15 million for Federal courthouses, as I spoke 
earlier of the situations that we face, to ensure that we can 
mitigate security risks to the public that attend those 
courthouses and the judiciary.
    Mr. Chairman, Ranking Member Mikulski, and members of the 
subcommittee, I do request your support to fully fund the 2016 
budget request in order to support the men and women of the 
United States Marshals Service, that you recognized earlier, to 
carry out the protection and enforcement efforts of our 
judicial process. We have proven ourselves as a valuable asset 
to our communities, ensuring public safety and protecting our 
children.
    Thank you.
    [The statement follows:]
              Prepared Statement of Hon. Stacia A. Hylton
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee:

    Good morning and thank you for the opportunity to testify on behalf 
of the President's fiscal year 2016 budget request for the United 
States Marshals Service (USMS or Agency). Our total request for nearly 
$2.7 billion includes $1.2 billion for Salaries and Expenses; $1.5 
billion for Detention; and $15 million for Construction.
    This year the USMS is proud to celebrate its 225th anniversary. For 
over two centuries, the USMS has succeeded in protecting America's 
citizens, upholding the Nation's Constitution, and anticipating the 
challenges that lie ahead. The Agency's many accomplishments over the 
years would not have been possible without the support from this 
subcommittee, so thank you. Likewise, the Agency's continued success 
will depend on our ability to provide the appropriate resources to 
support the judicial process. Incidents such as the shooting outside 
the Wheeling, West Virginia Federal courthouse on October 9, 2013, 
remind us that the USMS must always be vigilant in protecting members 
of the Federal judiciary. Thomas Piccard was armed with an assault 
rifle and a Glock 9mm handgun when he fired 23 rounds at the Federal 
courthouse. Deputy Marshals, USMS court security officers (CSO) and 
local police responded and returned fire. Piccard was later pronounced 
dead at a local hospital. In the exchange, two of the CSOs suffered 
non-life threatening wounds. No one inside the building was injured 
during the incident.
    In recent years, this subcommittee has also acknowledged the need 
for additional resources to safely guard the Nation's Federal prison 
inmate and detention populations. While detention falls under 
``discretionary'' resources, you recognized that there is nothing 
discretionary in a judicial order to detain an individual before trial. 
Over the past year we have worked to carefully assess agency spending 
and, where necessary, make improvements to reduce costs.
    The USMS has also benefited from this subcommittee's decision to 
restore resources to the Agency's Salaries and Expenses appropriation. 
As a result, we were able to re-ignite our hiring process starting in 
fiscal year 2014 and will add nearly 200 new Deputies by the end of 
fiscal year 2015. This will allow us to keep pace with retirements and 
attrition. Lifting the hiring freeze has also enabled us to hire 
additional business professionals, including much needed administrative 
officers, financial analysts, and contract specialists.
    The USMS remains committed to its many diverse mission areas, 
including work with Federal, State, and local law enforcement partners 
to reduce violent crime in our neighborhoods. This includes arresting 
gang members and sexual predators who perpetrate some of the most 
egregious crimes against society. Thank you for acknowledging our work 
alongside our Department of Justice (DOJ) colleagues at the Federal 
Bureau of Investigation; Drug Enforcement Administration; Bureau of 
Alcohol, Tobacco, Firearms and Explosives; Bureau of Prisons; and U.S. 
Attorneys' Offices.
    I can assure you that as a DOJ component, the USMS takes its 
fiduciary responsibilities very seriously. We have worked diligently 
with DOJ and the Office of Management and Budget (OMB) to present a 
reasonable budget that is mindful of the country's financial situation. 
We also work proactively and creatively to address shortfalls using 
existing resources. For example, with the subcommittee's support, we 
reprogrammed $52 million from the Detention account over the last two 
fiscal years to avoid furloughing employees in several DOJ components, 
including the USMS. Aside from a small carryover balance equivalent to 
one week's worth of prisoner housing, the USMS has worked to ensure 
that Detention resources were made available to the administration and 
Congress for other purposes.
    It is my ongoing focus and priority to take transformational steps 
that are making the USMS a data-driven Agency that uses data to drive 
strategic and tactical business decisions. Ultimately, this is helping 
us present a performance-based budget to showcase how we are managing 
the resources appropriated by this subcommittee.
                   fiscal year 2016 program increases
    The fiscal year 2016 budget request provides the necessary 
resources to maintain and enhance core USMS functions. The USMS 
safeguards the Federal judicial process by: protecting Federal judges, 
prosecutors, and court personnel; providing physical security in 
courthouses; protecting witnesses; transporting and producing prisoners 
for trial; executing court orders and arrest warrants; apprehending 
fugitives; and managing and disposing seized property. The fiscal year 
2016 request supports these missions by maintaining funding for core 
activities, as well as increasing funding to enforce the Adam Walsh 
Child Protection and Safety Act, establish annual Law Enforcement 
Safety Training, and renovate courthouses to remediate security 
deficiencies.
         adam walsh child protection and safety act enforcement
    The USMS requests $4.7 million for non-personnel costs associated 
with training, operations, and licensing fees to enhance the Agency's 
current level of sex offender enforcement. The National Center for 
Missing and Exploited Children estimates that there are approximately 
769,000 sex offenders living in the United States. Approximately 
100,000 of those offenders are non-compliant with their requirement to 
register. In fiscal year 2014, the USMS arrested 4,470 failure-to-
register/noncompliant sex offender fugitives.
    One case in particular highlights the depravity associated with 
this type of criminal element. In September 2013, the USMS arrested 
Clyde Hall, Jr., a career sex offender who was on the USMS' list of 
``15 Most Wanted'' fugitives. Wanted for violating conditions of 
release and failure to register as a sex offender, Mr. Hall had been on 
the run since March 2012 and was the first person added to the USMS 
``15 Most Wanted'' list for violating the Adam Walsh Child Protection 
and Safety Act. He had a violent and abusive criminal history dating 
back to 1985, with prior convictions for assault and multiple sex 
offenses. He admitted to sexually abusing two 10-year-old girls and 
raping two adult women. Mr. Hall was also diagnosed as a sociopathic 
career sex offender, prompting the State of New York to label him a 
Tier III sex offender--New York's most dangerous sex offender 
classification. By coordinating investigative efforts through the USMS 
Sex Offender Investigations Branch and the National Sex Offender 
Targeting Center, the USMS apprehended Mr. Hall on the street in 
Portland, Maine without incident. His arrest is a prime example of USMS 
efforts to ensure the safety of innocent children, and law-abiding 
citizens.
                    law enforcement safety training
    Officer safety training is one of the highest priorities for the 
USMS and every effort is made to ensure that personnel are adequately 
trained and equipped. In fiscal year 2014, Deputy Marshals, working 
alongside Federal, State, and local partners apprehended or cleared 
warrants on more than 105,000 Federal and State fugitives. Deputy 
Marshals risk their lives every day investigating and apprehending the 
most violent fugitives in the Nation and around the world. Accordingly, 
we are requesting $1.5 million for Law Enforcement Safety Training.
    Following the deaths of two Deputy Marshals and seven task force 
officers in fiscal year 2011, the USMS established the Law Enforcement 
Safety Training program to specifically address high-risk fugitive 
apprehension. The Agency developed an intensive and comprehensive 
curriculum in advanced tactics, operational planning, communications, 
and trauma medicine. To date, the USMS has trained over 1,000 Deputy 
Marshals across the country under this program.
    While we have trained many, we need to train all. We are seeking to 
hold a minimum of 12 regional courses a year, which would allow us to 
train all 4,500 Deputy Marshals on staff. I cannot tell you how many 
times Deputy Marshals have expressed their gratitude for the high 
quality training that has been provided.
    It is important to continue the momentum and provide safety 
training to all Deputy Marshals. One case highlights the dangers faced 
by law enforcement every day and reminds us that we must consistently 
train our personnel to increase our tactical advantage. On September 
12, 2014, a sniper opened fire at a Pennsylvania State Police barracks, 
murdering Trooper Bryon Dickson II and critically injuring Trooper Alex 
Douglass. The ensuing police manhunt for the suspect, Eric Frein, 
included 400 Federal, State, and local law enforcement officers from 
Pennsylvania, New York, and New Jersey. This case had the potential for 
extreme violence given that Frein was an accomplished survivalist, 
outdoorsman, and marksman. Forty-eight days later, on October 30, 2014, 
the USMS captured Mr. Frein in an open field without incident.
                            gang enforcement
    This subcommittee has recognized the urgent need to contain the 
proliferation of gangs. Criminal gang activity has a severe impact 
across law enforcement because of its rising prevalence and high level 
of violence. Gangs are no longer isolated to motorcycle groups and 
violent urban street gangs. They now exist across the country in urban, 
suburban, and rural communities, with nearly one million members who 
are criminally active in the United States.
    As the leader in apprehending the worst of the worst criminals, the 
USMS arrests approximately 300 fugitives per day. Between August 2010 
and September 2014, the USMS conducted Operation Triple Beam, a 
nationwide gang enforcement initiative in 22 cities, which resulted in 
more than 4,200 arrests, the seizure of more than $3 million in 
narcotics, $1 million in U.S. currency, and over 900 illegal firearms.
    Another example of USMS' efforts to combat gangs occurred last 
October 2014, when the USMS Gulf Coast Regional Fugitive Task Force 
arrested Christopher Green, a violent Crips street gang member in 
Greenville, Mississippi. He had outstanding violent felony arrest 
warrants for homicides in both the Greenville Police Department and the 
Las Vegas Metro Police Department. Although Green was a member of the 
Crips street gang in Pomona, California, he traveled around the country 
as their hit man. Cultivating critical information from confidential 
sources and using surveillance techniques, Deputy Marshals executed the 
arrest warrants and captured Green outside his residence without 
incident. The USMS will continue to vigorously pursue and arrest all 
violent felony fugitives, including gang members who threaten our 
communities.
                         courthouse renovation
    The fiscal year 2016 budget requests an increase of $5.2 million 
for a total of $15 million to renovate courthouses and court facilities 
with the most severe security deficiencies. The USMS occupies space in 
over 400 courthouse facilities. This space includes vehicle sally 
ports, cellblocks, prisoner interview rooms, secure corridors, prisoner 
elevators, and holding cells adjacent to the courtrooms. Construction 
projects are prioritized to address immediate life and safety issues 
first. The USMS supports the requested funding level and appreciates 
the incremental approach to this funding need.
                               detention
    The fiscal year 2016 budget requests a total of $1.5 billion to 
support the Federal Prisoner Detention (FPD) Program. This request 
includes base restoration of $1.1 billion. As part of the fiscal year 
2015 appropriated budget, FPD's base was reduced by $1.1 billion and 
the same amount was reprogrammed from the Asset Forfeiture Fund. 
Additionally, as part of the fiscal year 2016 request, $69.5 million of 
the carryover projected to be earned during fiscal year 2015 is 
targeted for rescission.
    The requested funding will support an average daily detention 
population (ADP) of 56,823 given a projected average per diem rate of 
$80.60. The projected population reflects an 8 percent decrease from 
the peak average annual detention population of 61,721 attained during 
fiscal year 2011. The reduction in the number of prisoners received by 
the USMS during fiscal year 2014 was unprecedented after an increase 
the previous 20 years. The decrease in the ADP is attributable to 
several factors, including systemic efficiencies that have reduced the 
amount of time prisoners are housed by the USMS. Reductions in 
detention time are the result of continued fast-tracking of 
prosecutions--primarily for immigration offenses along the southwest 
border--and expedited transfers of sentenced prisoners to the Bureau of 
Prisons.
    At this time, the USMS expects that the number of prisoners 
received into our custody will increase in fiscal year 2015 and fiscal 
year 2016 resulting in a modest increase in the ADP. The USMS will 
continue to keep the subcommittee apprised of any changes.
                          adjustments to base
    The base adjustments reflect an increase for pay and benefits, the 
relocation of USMS Headquarters, operations and maintenance for legacy 
radio equipment, and Department of State charges for overseas staff. I 
would like to thank the Senate Committee on Environment and Public 
Works for its support in allowing us to move to a new Headquarters 
facility just two blocks from our current location. The move will 
reduce USMS' footprint by 41,000 square feet, or 10 percent, and save 
$9 million in rent annually for a total of $145 million in savings over 
the 15-year lease.
                               conclusion
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee, on behalf of the men and women of the United States 
Marshals Service, thank you for your ongoing support of the Agency's 
programs. I am committed to ensuring that we are efficient stewards of 
the resources you have entrusted to us. I look forward to working with 
you to ensure we meet critical safety and security needs protecting the 
judicial family and process, securing Federal courthouses, protecting 
witnesses, transporting and producing prisoners, executing court 
orders, apprehending fugitives, and managing seized property.

    Senator Shelby. Ms. Leonhart.

                    DRUG ENFORCEMENT ADMINISTRATION

STATEMENT OF HON. MICHELE M. LEONHART, ADMINISTRATOR
    Ms. Leonhart. Good morning, Chairman Shelby, Ranking Member 
Mikulski, and members of the subcommittee.
    I want to start by thanking Ranking Member Mikulski for her 
many years of leadership and dedicated service to our country. 
You have been a trailblazer for women in the Senate, and I am 
especially thankful for your support of the DEA museum 
traveling exhibit that went to the Maryland Science Center in 
Baltimore last year.
    Over 350,000 people visited the exhibit during the 7-month 
run, and they learned not just about law enforcement but also 
the science behind drugs, addiction, and recovery.
    DEA is in mourning this morning after hearing the news of 
Deputy Josie Wells, and we offer all our assistance to Director 
Hylton.
    The support of this subcommittee has led to the arrest of 
many violent drug traffickers. This is exemplified by the 
recent arrests of Servando Gomez-Martinez, also known as ``La 
Tuta,'' and Omar Trevino Morales. These arrests are another win 
for Mexico in the fight against brutal criminal cartels like 
the Knights Templar and Los Zetas, and these arrests, along 
with last year's capture of Joaquin ``El Chapo'' Guzman, signal 
major steps forward in our shared fight against drug 
trafficking and violence.
    Since the Department of Justice began coordinated efforts 
targeting the most wanted drug traffickers, known as 
Consolidated Priority Organization Targets (CPOTs), back in 
2003, there have been 183 identified around the world. 
Cumulatively, over three-quarters have been indicted in the 
United States, over half have been arrested here or abroad, and 
one-third have been extradited to the United States to face 
justice.
    In fiscal year 2014 alone, we saw several successes against 
CPOTs, including seven who were extradited to the United 
States, one surrendered to the United States authorities, and 
six more who were arrested and are in custody outside of the 
United States.
    Historically, the image of organized crime in the United 
States was of hierarchal organizations, exerting influence over 
criminal activities at the local levels with cells of loosely 
affiliated groups. That still remains true today. However, 
these organizations now have direct connections to Mexican drug 
trafficking organizations to distribute heroin, 
methamphetamine, cocaine, marijuana, and other drugs throughout 
the country.
    This is the new face of organized crime. The violence 
perpetrated by these groups harms communities across the United 
States. And DEA is uniquely positioned to target and dismantle 
the local distribution cells and the international drug 
trafficking organizations with whom they conspire.
    Of notable concern is the alarming level of heroin use and 
abuse in this country and increases in heroin-related deaths. 
After years of declining use, the availability and abuse of 
heroin is now increasing, especially among younger Americans. 
This is due in part to the increased production of heroin in 
Mexico, even as Colombian production has declined.
    In 2013, 8,257 people died of a heroin overdose, nearly 
tripling since 2010.
    A contributing factor to increasing demand for heroin is 
prescription opioid abuse. Prescription drug abuse is a 
nationwide epidemic. Overall, 43,982 people have died of a drug 
overdose in the United States since 2003, more than half of 
which involved prescription drugs.
    These deaths represent not just a statistic, but they are 
our family members, our friends, our neighbors, and our 
colleagues.
    If we look at the operational successes we are having 
today, coupled with the decline in overall drug use, there is 
reason for optimism. Since its high point in 1979, the overall 
rate of illicit drug use in America has dropped by over 30 
percent.
    By taking harmful drugs off the street, dismantling major 
drug organizations, and seizing their profits, we are making 
our Nation a safer place to live and to do business, and the 
support of this subcommittee is critical to our success.
    So I look forward to working with you, and will be happy to 
answer any of your questions. Thank you.
    [The statement follows:]
             Prepared Statement of Hon. Michele M. Leonhart
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee:

    Good morning, and thank you for inviting me to testify on behalf of 
the Drug Enforcement Administration (DEA) regarding the President's 
fiscal year 2016 budget request. DEA is an organization of more than 
9,000 employees dedicated to the vital mission of disrupting and 
dismantling those drug trafficking organizations posing the greatest 
threat to the United States. I would like to express our collective 
appreciation for the support that this subcommittee has shown to us 
over the years. Furthermore, I welcome the opportunity to continue our 
partnership and to share with you DEA's recent accomplishments and our 
future plans to help secure our Nation and protect our citizens.
    DEA is the Federal law enforcement leader in combating complex and 
sophisticated drug trafficking and transnational criminal organizations 
worldwide. As an example, DEA investigations conducted in partnership 
with Federal, State, local, and international counterparts have 
contributed to the arrest of major international criminals. The recent 
arrests of Servando Gomez-Martinez, a.k.a. ``La Tuta'' and Omar Trevino 
Morales are another win for Mexico in the fight against brutal criminal 
cartels. The arrests strike at the heart of the leadership structure of 
the Knights Templar and the Zetas and serve as yet another warning that 
no criminal is immune from arrest and prosecution. Their capture, along 
with last year's capture of Joaquin ``El Chapo'' Guzman Loera, the 
leader of the violent Sinaloa Cartel, signal major steps forward in our 
shared fight against drug trafficking and violence.
    Whether countering the threat posed by drug cartels in Mexico; drug 
financiers and facilitators in Europe; transshipment and distribution 
coordinators based in west Africa; insurgency groups operating in 
southwest Asia; or domestic distribution cells operating in cities 
across the United States; DEA works to build relationships with our law 
enforcement partners to develop strategies, analyze intelligence, and 
execute successful counternarcotics programs to bring violators to 
justice and protect the American people.
    We also appreciate Congress' efforts to protect the public from the 
dangers of designer synthetic drugs. These drugs are one of the most 
rapidly evolving challenges we face. In response to this growing 
threat, DEA has coordinated a series of law enforcement actions 
designed to disrupt the international production and domestic 
distribution of synthetic designer drugs. This past May, the second 
phase of Project Synergy, which involved more than 45 DEA offices, 
resulted in the serving of nearly 200 search warrants, arrest of more 
than 150 individuals, and seizure of hundreds of thousands of 
individually packaged, ready-to-sell synthetic drugs by Federal, State, 
and local law enforcement authorities, as well as hundreds of kilograms 
of raw synthetic products to make thousands more, along with more than 
$20 million in cash and assets. In addition to targeting retailers, 
wholesalers, and manufacturers, many of these investigations continued 
to uncover the massive flow of drug-related proceeds to countries in 
the Middle East, including Yemen, Jordan, Syria, Lebanon, and others.
    DEA targets the world's biggest, most powerful and ``Most Wanted'' 
drug traffickers, designated as Consolidated Priority Organization 
Targets (CPOTs), as well as other Priority Target Organizations (PTOs). 
These designations are given to drug trafficking organizations with an 
identified hierarchy engaged in the highest levels of drug trafficking 
and drug money laundering with significant international, national, 
regional, or local impact. There have been 183 CPOTs identified since 
the Department of Justice started tracking them in fiscal year 2003. 
Cumulatively, 140 (77 percent) have been indicted in the United States, 
107 (58 percent) have been arrested here and abroad, and 61 (33 
percent) have been extradited to the United States to face justice. 
fiscal year 2014 saw several successes against CPOTs--including seven 
who were extradited to the United States; one who surrendered to United 
States authorities; and six more who were arrested and are in custody 
outside of the United States.
    The most significant drug trafficking organizations today are the 
dangerous and highly sophisticated Mexican Transnational Criminal 
Organizations (TCOs) that perpetrate violence along the Southwest 
Border. Mexican TCOs continue to be the principal suppliers of heroin, 
methamphetamine, cocaine, and marijuana to the United States. 
Domestically, distribution cells have become an increasing threat to 
the safety and security of our communities by forging alliances with 
Mexican TCOs.
    Historically, the image of organized crime in the United States has 
been hierarchical organizations exerting influence over criminal 
activities at the local level with gangs of loosely affiliated groups 
exerting influence over criminal activities in neighborhoods, cities, 
or States. This remains true today; however, many of these 
organizations now have direct connections to Mexican TCOs to distribute 
heroin and other drugs throughout the country. In particular, the 
majority of the methamphetamine in the United States is produced in 
Mexico and much of it is distributed as a result of these affiliations. 
It is a symbiotic criminal relationship--the Mexican TCOs have the 
transportation infrastructure in place to deliver the drugs to domestic 
distribution cells which have established and tested distribution 
networks. This is the new face of organized crime.
    The threat of these organizations is magnified by the high level of 
violence associated with their attempts to control and expand drug 
distribution operations. They often engage in armed home invasions of 
rival drug storage locations to steal drugs or money with innocent and 
hardworking citizens caught in the crossfire. The crime and violence 
perpetrated by these groups harm communities across the United States. 
DEA is uniquely positioned to target and dismantle the local 
distribution cells and the international drug trafficking organizations 
with whom they conspire.
    In addition, the distribution cells and the Mexican and South 
American traffickers who supply them are the main sources of heroin in 
the United States today. Heroin use in this country has reached 
alarming levels and many localities are reporting increases in heroin 
related deaths. A contributing factor to increasing demand for heroin 
is prescription opioid abuse. Prescription drug abuse is the Nation's 
fastest-growing drug problem. Recently, the Centers for Disease Control 
and Prevention reported that 43,982 people died of a drug overdose in 
the United States in 2013, the most recent year for which information 
is available. Nearly 52 percent of those drug overdose deaths (22,767) 
involved prescription drugs. Of those deaths, 71 percent (16,235) 
involved an opioid analgesic, also known as prescription painkillers. 
The report also reflected significant increases in heroin related 
deaths--8,257 people died of a heroin overdose in 2013, nearly tripling 
since 2010. These deaths represent not just a statistic, but our family 
members, friends, neighbors, and colleagues.
    The annual economic cost of nonmedical use of prescription opioids 
in the United States was estimated at more than $55 billion in 2007. 
The number of drug overdose deaths, particularly from controlled 
prescription drugs, has grown significantly in the past decade and in 
2012 surpassed motor vehicle crashes as the leading cause of injury 
death in the United States. The Drug Enforcement Administration remains 
committed to preventing, detecting, and deterring the diversion of 
pharmaceutical controlled substances that supply drug addiction and 
abuse.
    DEA's Diversion Control Program is using all criminal and 
regulatory tools possible to identify, target, disrupt, and dismantle 
individuals and organizations responsible for the illicit manufacture 
and distribution of pharmaceutical controlled substances in violation 
of the CSA. The deployment of Tactical Diversion Squads (TDS) is DEA's 
primary method of criminal law enforcement in the Diversion Control 
Program. The recent expansion of the TDS program has resulted in 66 
operational TDSs throughout the United States, covering 41 States, 
Puerto Rico, and the District of Columbia. These TDSs incorporate the 
enforcement, investigative, and regulatory skill sets of DEA Special 
Agents, Diversion Investigators, other Federal law enforcement, and 
State and local Task Force Officers. The expansion of the TDS groups 
has enabled the Diversion Groups to concentrate on the regulatory 
aspects of the Diversion Control Program.
                    fiscal year 2016 budget request
    The fiscal year 2016 President's Budget request will provide DEA 
with the resources needed to build upon our successes and to continue 
to address these emerging threats. The budget requests $2.092 billion 
for the DEA's Salaries and Expenses Account, an increase of 2.9 percent 
over fiscal year 2015. In fiscal year 2016, DEA expects to face an 
estimated $49.8 million in increased costs to maintain current 
operations. In addition, the budget requests $371.5 million for the 
Diversion Control Fee Account (DCFA), which is necessary to cover the 
cost of operating DEA's Diversion Control Program. The amount requested 
represents a $31.7 million increase over DEA's fiscal year 2015 funded 
operations, primarily due to the restoration of fiscal year 2015 
sequestration in fiscal year 2016. These resources will allow DEA to 
continue targeting significant drug trafficking organizations, 
consistent with the Department of Justice's Smart on Crime Initiative.
    In addition, DEA is requesting enhancements in the areas of 
International Drug Enforcement Priorities ($12.0M); De-confliction and 
Information Sharing ($7.4M); and National Security ($4.5M). The 
requested enhancements provide DEA with the tools necessary to lead and 
assist our Federal, State, local and international partners in 
targeting the most significant drug trafficking organizations.
    Let me summarize the DEA efforts that will be supported with this 
enhanced funding.
                     international drug enforcement
    Transnational Criminal Organizations are a growing threat to U.S. 
national security. Their operations fuel corruption, destabilize 
governments, and undermine the rule of law, and are overwhelmingly 
funded by profits from drug trafficking. Over the last 40 years, DEA 
has developed effective programs for combating these organizations and 
has seen significant results.
    While we continue to target Mexican and South American TCOs in the 
traditional drug trafficking corridors, we are increasingly seeing them 
expand their footprint in Africa, which affects the U.S. both directly 
and indirectly. Africa is a key storage and transshipment location for 
South American cocaine destined for distribution in Europe and 
elsewhere. These organizations are partnering with local criminal 
groups for logistical support and using drug-related profits to further 
their illegal activities in the U.S., Africa and Europe. DEA's 
experience shows that in order to address the threat posed to the U.S. 
by these TCOs, long-term success will depend upon the successful 
implementation and continued development of programs that bolster the 
law enforcement capacities and capabilities of our host nation 
counterparts worldwide. The fiscal year 2016 President's budget 
supports two of these critical international programs: Sensitive 
Investigative Units and Bilateral Investigations Units.
Sensitive Investigative Units
    Funds requested for International Drug Enforcement Priorities will 
be used to support and expand a key element of DEA's international 
efforts: the Sensitive Investigative Unit (SIU) program. DEA's SIU 
program helps build effective and vetted host nation units capable of 
conducting complex investigations targeting major drug trafficking 
organizations. DEA currently mentors and supports 13 SIUs, which are 
staffed by over 800 foreign counterparts. The success of this program 
has unquestionably enhanced DEA's ability to fight drug trafficking on 
a global scale. To maintain this operational momentum, $8.1 million is 
needed to sustain and further develop the capacity and capabilities of 
existing SIUs. This funding will support training, vetting, program 
coordination, judicial wire intercept systems and other IT-related 
requirements.
Bilateral Investigations Units
    Bilateral Investigations Units (BIUs) are one of DEA's most 
important tools for targeting, disrupting, and dismantling significant 
TCOs. The BIUs use extraterritorial authorities to infiltrate, indict, 
arrest, and convict previously ``untouchable'' TCO leaders involved in 
drug trafficking. The fiscal year 2016 President's budget proposes 
enhancing the operational funding for BIUs by $3.9 million and 
expanding their capabilities by establishing a BIU Financial 
Investigative Team (FIT). The BIU-FIT will focus on the investigating 
the financial aspects of these organizations. The proposed increase 
will allow DEA to continue to build on the success we have had in 
targeting, disrupting, and dismantling TCOs as well as denying TCOs 
revenue from illicit drug proceeds before they can be used to fund 
other criminal activities.
                 de-confliction and information sharing
De-Confliction Systems
    The President's fiscal year 2016 budget requests $1.5 million which 
will allow DEA to better leverage our expertise in de-confliction and 
information sharing to promote increased cooperation between our 
Federal, State, and local law enforcement partners. Enhancements will 
allow DEA to increase its capability to coordinate many of the 
Department's violent crime and international organized crime 
investigations. These systems are such an integral component of the 
Department of Justice's (DOJ) de-confliction efforts that in May 2014, 
the Deputy Attorney General specifically directed all DOJ law 
enforcement components to use DEA's systems to de-conflict ongoing 
investigations.
El Paso Intelligence Center
    The El Paso Intelligence Center (EPIC) offers tactical, 
operational, and strategic intelligence support to Federal, State, 
local, tribal, and international law enforcement agencies and provides 
de-confliction services, leveraging databases from both internal and 
external stakeholders. EPIC has relationships with law enforcement 
agencies in all 50 States and partner organizations in the 
international law enforcement community. Included in the President's 
budget request is an additional $5.9 million to increase the 
capabilities of EPIC's information systems, including funds to upgrade 
the existing IT system to a more robust system portal; enhance 
analytical capabilities; and support updates to vital technology 
equipment and compliance with security requirements.
                           national security
    DEA ensures that national security information obtained during the 
execution of our worldwide drug law enforcement mission is 
expeditiously shared with both the national security and intelligence 
communities. DEA's Office of National Security Intelligence (ONSI) 
shares more than 5,000 reports a year that contain information on 
topics of national security interest. The fiscal year 2016 President's 
budget requests funding to support the Defensive Counterintelligence 
Program (DCI-P), which serves as a central coordination point for all 
DEA DCI-P matters, including personnel reliability; physical security; 
safeguarding of both intelligence and law enforcement sensitive sources 
and methods; and general security and counterintelligence threat 
awareness and threat detection. In addition, the fiscal year 2016 
President's budget requests resources for additional reports writers, 
ensuring that DEA will continue to meet its statutory responsibility to 
share national security-related information, and for other national 
security activities.
                               conclusion
    DEA's enforcement efforts have contributed significantly to the 
overall strategy to reduce the availability of drugs in the United 
States. According to an analysis by the Substance Abuse and Mental 
Health Services Administration, illicit drug use rates are lower by 
approximately one-third compared to 30 years ago. Since 2006, we have 
seen important decreases in the number of past month users, aged 12 and 
older of cocaine (from 1.0 percent to 0.6 percent, or roughly a million 
fewer persons). Statistics like these demonstrate that through a 
balanced drug control strategy, one that includes strong enforcement, 
education, prevention, and treatment components, we can make 
significant progress in protecting our Nation from drug abuse and its 
consequences.
    DEA's unique, single mission focus gives us the ability to focus 
resources on disrupting and dismantling the world's ``Most Wanted'' 
drug traffickers that have the most significant impact on the U.S. drug 
market. With your support and the backing of the American people we 
will continue our efforts to address these challenges. I would be 
pleased to answer any questions you may have.

    Senator Shelby. Mr. Jones.

          BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES

STATEMENT OF HON. B. TODD JONES, DIRECTOR
    Mr. Jones. Good morning, Chairman Shelby, Ranking Member 
Mikulski, and members of the subcommittee.
    Thank you for the opportunity to appear before you today 
with my colleagues. This is a great team that I am privileged 
to work with within the Department of Justice. And I think, 
together, we are moving forward to enhance public safety around 
the country on behalf of the citizens that we serve.
    I am also pleased to be here to discuss the President's 
fiscal year 2016 budget request for ATF.
    ATF's principal mission is to protect our communities from 
violent criminals who illegally possess and use firearms, use 
explosives for illicit purposes, and engage in deadly acts of 
arson. We accomplish our mission through partnerships and 
through the enforcement of the criminal law and regulations of 
the firearms and explosives industry.
    This makes us somewhat unique among U.S. law enforcement, 
and we have a long history of maintaining working 
relationships, not only with our Federal partners, but with our 
State and local partners. And we put a premium on those 
partnerships.
    The public safety agencies, the industry groups, and the 
community organizations that we work with are vital to us being 
able to accomplish our mission. When serious violent crime 
happens at communities across the country, ATF is there working 
side by side with our partners.
    In the past 3 years alone, ATF has been at the frontline 
against crime, helping our partners investigate the Boston 
Marathon bombing, the horrific mass shootings in Aurora, 
Colorado, and Newtown, Connecticut, and the Washington Navy 
Yard, as well as assisting in thousands of other investigations 
that have simply not made the national news.
    ATF's work with its partners is producing tangible results 
in communities across the country. But our discussion today, I 
hope, leads to some help for you all in sustaining the results 
that we have accomplished in various places around the country.
    For example, we recently completed an enhanced enforcement 
operation and initiative in New Haven and Bridgeport, 
Connecticut, and in Chicago, Illinois. And in both 
circumstances, we have made an impact working with our State 
and local colleagues on diminishing and lowering violent crime 
in those communities.
    We accomplished this not only through manpower and strong 
partnerships, but by also leveraging our technology resources, 
such as NIBIN, the National Integrated Ballistics Information 
Network. This technology compares high-resolution images of 
cartridge cases, and the Senator alluded to it earlier, 
recovered from multiple crime scenes, and compares and 
contrasts in our follow-the-gun strategy to identify the worst 
of the worst offenders in communities.
    This technology has been integrated with eTrace, and we 
are, in certain communities around the country, test-driving 
crime gun intelligence centers. That is showing very promising 
results.
    ATF's contributions to public safety extend beyond these 
operational successes, though. As Director Comey mentioned, 
TEDAC is in Huntsville. We also have our National Center for 
Explosives Training and Research there, established through the 
support of the chairman and members of this subcommittee, and 
it's performing important work.
    By the end of fiscal year 2016, the National Center For 
Explosives Training And Research (NCETR) will significantly 
increase its staffing by 30 percent and work on increasing fire 
and arson investigations, in addition to explosives research.
    Because we have gotten healthier as an organization over 
the last several years, we will offer several courses that 
haven't been offered, because training is usually the first 
thing to go when you have tough budget times, unfortunately.
    In addition, we will be bringing our U.S. Bomb Data Center 
from ATF here in Washington, DC, and putting it in the NCETR 
facility in an effort to make sure that we are not only fully 
integrating our capacity, but collaborating at the highest 
possible levels with the FBI's Terrorist Explosive Device 
Analytical Center that is down there in NCETR.
    Another important ATF asset, our Fire Research Lab in 
Ammendale, Maryland, is currently involved in the research of 
several high-profile fire incidents. I want to thank this 
subcommittee for the support that our lab has. Surprisingly to 
me, I have learned that across the country our arson research 
capacity is something that is a great treasure to Federal law 
enforcement. We have worked on several significant arson 
investigations with State and local law enforcement trying to 
figure out what happened.
    We are performing tests recently on the West Texas 
fertilizer plant that killed 15 first responders and injured 
160. We are currently looking at the horrific fire that 
happened several months ago in Annapolis that killed a 
grandmother, a grandfather, and their grandchildren, trying to 
determine some of the issues with Christmas trees.
    This kind of research is taken care of very quietly, but 
will be very helpful to public safety across-the-board.
    To support this important work, and I look forward to 
discussing it further, ATF's 2016 budget request totals $1.26 
billion, including 5,100 permanent positions, nearly half of 
which are special agents.
    This request includes a $52 million increase in base 
resources that really is focused, as Director Comey mentioned, 
on our human capital. ATF has a very experienced special agent 
workforce. Within the next 3 years, we will have nearly 35 
percent of that workforce be either mandatory or eligible for 
retirement. We need to do all we can over the next several 
years, including in this budget cycle, to refresh and get new 
agents out there before the senior agents leave.
    I look forward to answering your questions.
    And I do want to maybe set the table here as a preemptive. 
The chairman mentioned in our regulatory effort, a proposal 
that we requested comments on for the last 30 days. That 
comment period will close.
    It involved an exemption for a particular type of 5.56 
round. We have nearly 90,000 comments. We will assess those 
comments. Working with you, and with others, we will see how we 
can really address what was at the genesis of that posting, 
which was an effort to address nearly 30 exemption requests and 
finding a framework for dealing with that.
    With that said, I see the time is over, and I will be happy 
to answer any questions that you have.
    [The statement follows:]
                Prepared Statement of Hon. B. Todd Jones
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee, thank you for the opportunity to appear before you today. 
I am pleased to be here to discuss the President's fiscal year 2016 
budget request for the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF).
    ATF's principal mission is to protect our communities from serious 
and violent criminals who illegally possess and use firearms, use 
explosives for criminal purposes, and engage in deadly acts of arson. 
We accomplish our mission through both the enforcement of criminal law 
and the regulation of the firearms and explosives industries. ATF has a 
long history of delivering our expertise and capabilities to our 
Federal, State, and local partners. We provide critical resources and 
support to them in the fight against violent crime. We highly value our 
partnerships and strong working relationships with law enforcement, 
public safety agencies, industry groups, and community organizations. 
When violent crime strikes our Nation, ATF is there working side-by-
side with our partners, supporting them with our specialized skills, 
tools, and experience. In the past 3 years alone, ATF has been at the 
frontline fighting against crime and helping our partners investigate 
tragedies such as: the Boston Marathon Bombing; the horrific mass 
shootings in Aurora, Colorado; Newtown, Connecticut; and the Washington 
Navy Yard, as well as assisting in thousands of other less publicized 
investigations.
    Across the country, ATF and our partners pursue the most violent 
criminals, particularly those who engage in organized gang violence or 
illegally supply those gangs with firearms. Recently, ATF completed 
enhanced enforcement initiatives in New Haven/Bridgeport, Connecticut 
and Chicago, Illinois. In total, 350 defendants were accepted for 
prosecution and ATF seized or purchased more than 350 crime guns during 
these operations. In Chicago alone, the approximately 200 charged 
defendants had almost 3,000 prior felony arrests. We accomplished this 
with additional ATF manpower, our partners, and technology such as 
ATF's National Integrated Ballistic Information Network (NIBIN), which 
compares high resolution images of cartridge cases recovered from 
multiple crime scenes to link firearms to multiple shootings. I'm proud 
of what we are able to achieve for the citizens of those communities.
    For ATF to more effectively combat violent crime and better serve 
our partners and our communities, we developed ``Frontline'', a 
business model that prioritizes our resources to those areas and 
programs that will have the greatest impact on fighting violent crime, 
whether that is firearms trafficking, gang, arson/explosive or tobacco 
investigations. We accomplish this, in part, by assessing each ATF 
field division for efficiency and effectiveness and making any 
necessary changes to improve mission performance.
    We partner more closely and effectively than ever with State and 
local law enforcement in fighting violent crime. In many instances 
local law enforcement has experienced significant budget cuts, and the 
violent crime enforcement expertise and training we provide is often 
reported as a key component of their success. In fact, during the last 
year we trained thousands of local law enforcement across ATF's 
jurisdiction of firearms, explosives and arson. Some specific courses 
included Advanced Firearms Trafficking Techniques, Advanced Explosives 
Disposal Techniques, Basic Fire Origin and Cause Determination, 
Accelerant Detection Canine Course, Arson for Prosecutors, and two 
NIBIN-related courses. Programs such as eTrace (a paperless firearms 
trace request submission system and interactive trace analysis module 
that facilitates firearms tracing) and NIBIN provide tools extensively 
used by State and local law enforcement to combat violent firearm 
crimes. Using these programs, ATF traced more than 364,000 crime guns 
last year.
    ATF's Fire Research Lab in Ammendale, Maryland is in the midst of 
several significant research projects on high profile arson/explosive 
incidents with our State and local partners. In February 2015, lab 
personnel performed testing related to the April 17, 2013, explosion 
and fire at the West, Texas, fertilizer plant that killed 15 and 
injured 160. ATF is working with the Texas State Fire Marshal's Office 
to study various hypotheses in an effort to determine the origin and 
cause of the fire and explosion. Further, based on ATF's expertise in 
arson/explosive incidents, ATF supported the investigation of the fire 
that claimed six lives 2 months ago in Annapolis, Maryland. 
Investigators concluded an electrical failure ignited the skirt of the 
family's Christmas tree. We will perform tests in early April to better 
understand the fire dynamics related to Christmas tree fires. This 
information can then be released to our State and local fire 
investigator partners to help them prevent any further loss of life and 
property through similar occurrences.
    ATF's National Center for Explosives Training and Research (NCETR), 
in Huntsville, Alabama--established through the support of the Chairman 
and members of this subcommittee--is also performing important research 
and development to fulfill our explosives enforcement and training 
missions. This year, NCETR will increase their staffing by more than 20 
percent. This will allow ATF to immediately increase fire and arson 
investigation training. We will offer several training classes to 
State, local and Federal investigators and prosecutors that have not 
been offered in a number of years. NCETR is redeveloping these classes 
and once complete we will enroll students in this state-of-the-art 
training.
    Additionally, the NCETR Explosives Research and Development 
Division will hire engineers and support positions to provide much 
needed research and development capabilities for ATF and our partners, 
such as the National Ground Intelligence Center and the National 
Counter Terrorism Center. Lastly, ATF is relocating the U.S. Bomb Data 
Center (USBDC) from ATF Headquarters to the NCETR facility. These 
expansions in ATF's capacity at NCTER will enhance and complement our 
collaboration with our partners at the FBI, which also maintains a 
facility near NCETR. We are gratified by the opportunity to 
reinvigorate our explosives and arson investigation training in 
coordination with our research and development mission at NCETR. We are 
equally gratified by the opportunity to expand collaboration with the 
FBI's Terrorist Explosive Device Analytical Center (TEDAC) on counter 
terrorism matters, advisories, bulletins, and reports about testing and 
research. Enhancing our ability to develop and report best practices to 
the explosives and arson investigation communities are great steps 
forward for NCETR.
                    fiscal year 2016 budget request
    ATF's fiscal year 2016 budget request totals $1.26 billion in 
direct budget authority, including 5,111 permanent positions, nearly 
half of which are ATF Special Agents. This request includes a $52 
million increase for base resources required to support ATF's workforce 
and infrastructure at a critical juncture--between now and fiscal year 
2019 nearly 1,000 of our current 2,500 ATF Special Agents will become 
eligible for retirement. That represents more than one-third of our 
special agents. ATF is taking significant steps in hiring to address 
this attrition bubble, but we require the continued funding level 
support requested in this budget to maintain this effort.
    In addition, ATF's fiscal year 2016 budget includes one program 
enhancement--$8.1 million to continue increasing capacity and reducing 
backlogs at ATF's Martinsburg, West Virginia, facility. This increase 
will allow ATF to add 10 Legal Instrument Examiners as well as 
additional contract support to continue to reduce the backlog in 
processing National Firearms Act (NFA) registrations. The additional 
funding will also improve ATF's firearms tracing operations, a unique 
and vital violent crime fighting asset that is heavily relied upon by 
our State, local and Federal law enforcement partners.
    In this era of tighter budgets, ATF is doing more than ever to 
ensure that taxpayer resources are directed to areas that generate the 
greatest public safety value and return on investment. We do this by 
prioritizing our resources, partnering with our Federal, State and 
local colleagues, and using existing technologies in new and innovative 
ways to fight violent crime.
    Let me give you some additional examples of how ATF has become more 
strategic:
  --The deployment of the Mobile Bomb/Arson Tracking System (BATS) will 
        enable over 10,000 Federal, State and local law enforcement and 
        public safety interagency users to report arson and explosives 
        incidents from the scene of the incident, reducing the average 
        reporting time from 35 days to one day.
  --The National Firearms Act Branch performed many innovative staffing 
        enhancements, including the cross training of existing 
        personnel, with the net effect of a 58 percent reduction in the 
        Branch backlog.
  --The National Tracing Center saved $50-$70 million on the digital 
        conversion of microfilm and microfiche.
  --NIBIN will downsize its server population resulting in cost 
        reductions, improved performance capabilities, and improved 
        efficiencies in communication lines.
  --ATF performed an agency-wide technology refresh, replacing all 
        personal computers and updating operating systems.
  --ATF will reallocate any realized savings to enforcement and 
        industry support operations. If you or your staff would like 
        details on these cost savings that I have highlighted, we will 
        be glad to brief you on them in more detail.
    Mr. Chairman and members of the subcommittee, I want to conclude by 
saying that ATF is proud of its contributions at the frontline fighting 
against violent crime. We are recognized by Federal, State, and local 
law enforcement agencies across the country for our expertise and take 
great pride in our successes that reduce gun violence and remove 
violent offenders from the streets. I am humbled by the exceptional 
work done every day by ATF Special Agents, Investigators, and 
professional support staff combating violent crime. Even in times of 
adversity--which can come often when you are in our line of work--I am 
proud to tell you that the dedicated men and women of ATF have 
continued, day in and day out, working tirelessly to enhance the safety 
of all Americans. They and their families have my deepest gratitude for 
the sacrifices this often difficult work requires and I am honored to 
be here today to represent ATF.

    Senator Shelby. Thank you very much.
    I will direct my first question to you, Mr. Jones.
    On February 13, the ATF released a proposed framework that 
would have eliminated the M855 ``green tip'' ammunition from 
the sporting purposes exemption. This week, ATF abandoned this 
proposal.
    A lot of us are troubled at the ATF's process and intent 
regarding this proposed ban. I have heard from numerous 
constituents who use this ammunition for shooting sports and 
hunting, and they are strongly opposed to the ban, as you know.
    Additionally, it is concerning to a lot of us that the new 
Federal Firearms Regulation Reference Guide published in 
January inexplicably removed M855 ammunition from the exemption 
list for sporting purposes.
    Why did the ATF propose this M855 ban when such ammunition 
has been allowed under the sporting purposes exemption for 
many, many years?

           THE EXEMPT FRAMEWORK FOR ARMOR PIERCING AMMUNITION

    Mr. Jones. Senator, thank you for the question. I think 
it's important for everyone to understand again that the 
genesis of us putting that framework proposal up for public 
comment was our good faith effort to try and construct a 
framework to deal with nearly 30 exemptions that we have had in 
the queue for many, many years at ATF.
    We do have a responsibility to regulate. We can't stick our 
head in the sand with respect to additional exemption requests.
    The M855 exemption has been in place for nearly 30 years. 
It was a classification that ATF made on that particular round.
    I want to make sure everybody understands that this was 
not, contrary to some in the blogosphere, an effort to 
completely ban that certain type of cartridge. It is this one 
particular ``green tip'' that is, in essence, military surplus 
that, under the Law Enforcement Officers Protection Act 
(LEOPA), does qualify as armor-piercing, but has had an 
exemption for 30 years and been in the market and used for 
sporting purposes for the last 30 years.
    Our request for input on a framework was our effort to try 
and get a transparent process where we could act on the nearly 
30 other exemptions that were there, and not look at the 
exemption that was out there on M855.
    I think the reality of this is, we need to deal with the 
pending exemptions. There aren't going to be any new exemptions 
granted until we work our way out through this. The exemption 
for M855 has been there for 30 years and will remain.
    Senator Shelby. And you abandoned it this week, did you 
not?
    Mr. Jones. We are going to take the input in. We are not 
going to move forward without analyzing the nearly 90,000 
comments from all spectrums, with a sense of figuring out how 
we do this rationally, in a common-sense way that, first and 
foremost, for us, protects our law enforcement officers in 
compliance with LEOPA.

              TERRORIST EXPLOSIVE DEVICE ANALYTICAL CENTER

    Senator Shelby. I will direct this question to the FBI 
Director. You talked about earlier the Terrorist Explosive 
Device Analytical Center we call TEDAC, and so forth, and how 
important it is.
    What is TEDAC's operational and construction status at this 
point? And when will the facility be fully operational? Do you 
know?
    Mr. Comey. I think we are on track, Senator, to open 
sometime late this spring or in summer. I went down there to 
check on its progress, because I am keenly interested in it. 
The building is up. It looks good to me, but there are other 
things that still have to be done for it to be ready.
    We had some delays because our contractor has struggled 
with some of the unique technical requirements we need to deal 
with explosives in that building. But my understanding is we 
are on track for a no later than summer opening.
    Senator Shelby. How is the ATF working cooperatively with 
you, with the FBI, on this? Have they put their good officers 
forward to work with you and cooperate with the FBI, regarding 
TEDAC?
    Mr. Comey. Yes, as they always do. As Director Jones said, 
one of the hallmarks of ATF is they are a great partner in a 
whole host of ways, and they are with TEDAC.

          NATIONAL CENTER FOR EXPLOSIVES TRAINING AND RESEARCH

    Senator Shelby. Director Jones, you referenced NCETR a few 
minutes ago. Where are we exactly on that, as far as staffing 
the program? We call it the National Center for Explosives 
Training and Research. You mentioned this earlier in your 
testimony.
    Mr. Jones. I have had an opportunity on a number of the 
occasions to go to NCETR. It is a wonderful facility for our 
organization, and it's a wonderful asset.
    I think when TEDAC is up and running, and with what we have 
already done at NCETR, and what we plan to do at NCETR, we will 
expand beyond the explosive training and research, focusing 
primarily on homemade IEDs and some of the research there, is 
expand into the fire and arson realm. We have a great lab in 
Ammendale, but we are doing some work down at NCETR and that 
necessitates us moving additional personnel there.
    I think the main thing is that we are finally going to move 
the U.S. Bomb Data Center personnel from Washington down there 
to NCETR, as originally envisioned, and that is going to happen 
this year.
    Senator Shelby. One last question to the FBI director, how 
is the FBI responding to the Army's separation from the 
Hazardous Devices School? They had sent word, as I understand 
it, where they have had a partnership there, and the Army has 
indicated they no longer will provide personnel to the school. 
But I think that is an important operation there.
    Mr. Comey. I agree completely, Mr. Chairman.
    We are working with them to see if there are folks who they 
are no longer going to have there as part of their complement 
that can come work for us, so we don't lose the expertise. Our 
overall commitment is not to lose any capability there.
    In fact, as you know, with the support of this 
subcommittee, we are expanding that training facility, because 
there is such a hunger for advanced bomb tech training.
    Senator Shelby. Thank you.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman, thank you, and I also want 
to compliment you on the fact that we are going to continue the 
tradition of the subcommittee of a classified hearing after 
this, because so much of what we want to do about 
counterterrorism and organized crime are questions better said 
in that. Thank you very much for being able to provide us with 
that opportunity.
    I have, essentially, two questions.

                                 HEROIN

    One, though, I want to raise is about heroin. And I have a 
significant issue in Maryland, and it has been raised by our 
local DEA people, as well as Governor Hogan. And we have heard 
a place like Vermont has declared it the ``state of the State'' 
issue.
    In fiscal year 2015, this subcommittee requested that the 
Department of Justice (DOJ) convene a task force to come up 
with a comprehensive Federal solution of law enforcement health 
care treatment and prevention, not only law enforcement.
    Director Comey, you told me that it had been handed to the 
DEA. Is that right?
    So could you tell me what DEA is doing? And are you the 
task force that I asked for, because we have gotten very little 
feedback about it?
    Ms. Leonhart. Sure, I would be glad to address that.
    The task force you called for was not tasked to DEA, but I 
do know that the department has been looking at it and actually 
has convened some meetings that we have attended to put 
together----
    Senator Mikulski. Is there a Department of Justice task 
force, and I will ask the Attorney General, that you know of 
that has the task force that we asked for?
    Ms. Leonhart. I know that they have had meetings with 
people outside the department and within the department, and 
have gathered----
    Senator Mikulski. Okay, so they didn't do it. And we will 
come back to that.
    Could you tell us, though, what you are doing, Ms. 
Leonhart?
    Ms. Leonhart. Sure. Maryland is a perfect example, when we 
are talking about what it's going to take for our country to 
actually stem the flow of the rising heroin problem.
    As you know, in Maryland, heroin deaths nearly doubled. 
And, in fact, when you look at all overdose deaths in Maryland 
last year, the majority of them were actually heroin overdoses.
    Over the past year, we put together a local task force. We 
have one in Baltimore. We have a similar task force arrangement 
here locally that we are working with our partners.
    But in Baltimore, we became very concerned about why this 
rise in heroin overdoses. We understand why there is more 
heroin coming into our country, and that is because more and 
more of it is coming--it's almost all Western hemisphere, but 
more and more of it is coming from Mexico and is being 
controlled by the same Mexican organizations and trafficking 
groups that we see all across the country who have brought 
cocaine, meth, marijuana to our communities.
    So we started looking at it, and we started to be 
concerned----
    Senator Mikulski. Remember, I have 5 minutes, so could we 
get----
    Ms. Leonhart. Sure. We started to be concerned because 
there was an epidemic of fentanyl-laced heroin that caused 
overdoses, especially in Chicago and Detroit a few years back. 
So we started working with the medical examiner offices, 
coroners, working with county police departments. And we are 
looking at those deaths, and we are finding that a number of 
them are actually fentanyl-laced heroin overdoses.
    So we have efforts going enforcement-wise, public service 
announcements, warning local law enforcement----
    Senator Mikulski. How many of these task forces do you 
have, along with this great work you are doing in the Baltimore 
community?
    [The information follows:]
                               background
    Heroin abuse and availability are increasing, particularly in the 
Eastern United States. As reported in the National Survey on Drug Use 
and Health (NSDUH), between 2008 and 2012, there was a 37 percent 
increase in new heroin users. This demand is driven in part by 
controlled prescription drug (CPD) abusers switching to heroin as it is 
more available and less expensive. As a result, many cities and 
counties across the United States, particularly in the Northeast and 
Midwest, are reporting increased heroin overdose deaths. In addition, a 
rapidly growing amount of heroin is being smuggled into the United 
States on a daily basis.
                            dea task forces
    DEA leads 192 task forces, which are made up of multiple Federal, 
State, and local law enforcement agencies within a specific region. 
They facilitate investigations by enhancing interagency coordination 
and intelligence sharing, leveraging Federal resources, and combining 
DEA expertise with local officers' investigative talents and knowledge 
of their respective jurisdictions. Their mission is to identify, 
disrupt, and dismantle the most serious domestic and international drug 
trafficking and money laundering organizations responsible for the 
Nation's drug supply. Most drug trafficking organizations are multi-
drug in nature; therefore, in general, DEA task forces do not target 
specific drugs.
    The Northeast United States, particularly New England, continues to 
see a steady increase in heroin and opioid abuse and associated 
overdoses. In April 2015, the Department of Justice's Organized Crime 
Drug Enforcement Task Forces (OCDETF) allocated additional funding to 
be used to address the surge of heroin overdoses in the New England 
Region. The funding will be provided to the DEA-led Boston OCDETF 
Strike Force as part of Operation HEAT (Heroin Enforcement Action 
Team). The task force will focus on heroin investigations and respond 
to overdoses in eastern Massachusetts, gathering pertinent information 
to develop a clearer understanding of major heroin traffickers in the 
region. The DEA-led OCDETF Fusion Center will play a key role in 
Operation HEAT by conducting target profiles on intelligence developed 
by investigators. In addition, DEA's Special Operations Division 
GangTECC will support Operation HEAT by providing case coordination, 
telecommunication exploitation, and funding for the interception of 
communication devices.
                       task force success stories
    Maryland.--In February 2014, the Baltimore District Office (BDO) 
created a Task Force to deal with the significant increase in the 
fentanyl-laced heroin overdoses occurring in Maryland. Recently, the 
Chief Medical Examiner and the Maryland Department of Health and Mental 
Hygiene reported 141 fentanyl-related intoxication deaths within the 
State between January and September 2014. For the preceding 7 years, 
the State averaged just 22 fentanyl-related intoxication deaths in the 
same 9-month period. Further, the BDO recently instituted Operation 
Trojan Horse--an operational collaboration between DEA, the High 
Intensity Drug Trafficking Areas (HIDTA) program, and various Maryland 
State and local law enforcement partners, including seven of the most 
afflicted areas of the State. The Task Force is designed to work as a 
data collection clearinghouse that will solicit, process, and analyze 
information from all fatal and non-fatal overdoses occurring in the 
State of Maryland. The data will be shared with HIDTA and the 
respective State and local law enforcement agencies to ensure proper 
deconfliction, coordination, and cooperation.
    Additionally, the BDO will engage with all participants to bolster 
the development of educational and drug awareness programs, viable 
tactics, and all applicable enforcement avenues to mitigate the further 
spread of heroin/fentanyl and other abused opiates.
    Pennsylvania.--In August 2013, the DEA Philadelphia Division 
Intelligence Program was an integral part of the establishment of a 
Pennsylvania statewide Overdose Rapid Response Task Force, in 
conjunction with the Pennsylvania Office of Drug & Alcohol Program, the 
Pennsylvania State Police, the Philadelphia/Camden HIDTA, and the 
Pennsylvania Office of the Attorney General. This information sharing 
task force continues to function as a clearinghouse for drug overdose 
data collection and information sharing with law enforcement, public 
health, treatment, and policymakers throughout Pennsylvania.
    The Philadelphia Division has prioritized heroin investigations 
leading to bulk heroin seizures in Pennsylvania with an estimated value 
of $6.2 million in 2014. Priority Target investigations conducted 
within and outside the Philadelphia Division have resulted in these 
seizures of Mexican drug trafficking organization (DTO)-sourced white 
heroin.
    Florida.--Since July 2013, the West Palm Beach District Office 
(WPBDO) Task Force and the Delray Beach Police Department have 
conducted an investigation into a heroin DTO operated by Gary Moore. 
During the onset of the investigation, 5 heroin/fentanyl mixture 
overdose deaths were reported out of 24 total heroin overdoses in the 
area. Eight of these overdoses have been traced to the Moore DTO. Over 
the last year and a half, DEA and law enforcement partners infiltrated 
the Moore DTO using judicially authorized Federal Title III Intercepts. 
On January 14, 2015, the WPBDO Task Force executed 7 search warrants 
and 17 Federal arrest warrants, resulting in the seizure of 
approximately 3 kilograms of heroin, 7 vehicles, 5 firearms, 
approximately $40,000, and the arrest of 17 members of the Moore DTO.
                     interagency heroin task force
    Additionally, the administration's interagency Heroin Task Force 
held its first meeting in April 2015. This task force is co-chaired by 
U.S. Attorney for the Western District of Pennsylvania David Hickton 
and Office of National Drug Control Policy Deputy Director for State, 
Local and Tribal Affairs Mary Lou Leary, and includes Federal agency 
experts from law enforcement, medicine, public health, and education. 
The task force will take an evidence-based approach to reducing the 
public safety and public health consequences caused by heroin and 
prescription opioids.
                                summary
    Heroin is a growing problem in the United States and is being 
driven by many factors, including an increase in the misuse and abuse 
of prescription psychotherapeutic drugs, increases in heroin purity and 
availability, the decreasing street cost of heroin, expanded Mexican 
DTOs' involvement in the distribution of heroin, and the lack of public 
awareness of the risks of heroin use. In response, DEA has increased 
enforcement and prevention efforts and expanded its coordination with 
government and private sector partners. DEA is well underway in its 
efforts to fully understand the threat and ultimately reduce the abuse 
and availability of heroin and opioids in illicit drug markets in the 
United States.

    Ms. Leonhart. Well, I know the Washington High Intensity 
Drug Trafficking Areas (HIDTA) program is working----
    Senator Mikulski. No, no, no. I am asking DEA, the 
Baltimore efforts, I compliment you on. Okay?
    I am frustrated that DOJ did not do the comprehensive 
thing. Law enforcement is a tool. We have to look at 
prevention, enforcement and interdiction, and then recovery, 
okay?
    Ms. Leonhart. Yes.
    Senator Mikulski. So that is not going on.
    You are doing a great effort. Do you have seven of these? 
Do you have 17 of these efforts? How many do you have?
    Ms. Leonhart. We have the main effort in Baltimore, but we 
also have a couple of different task forces operating and 
coordinating together here in Washington, DC, and then we have 
communities throughout the country where we have replicated 
what Baltimore did.
    The results of what we have done, when we have been able to 
get health folks together, law enforcement----
    Senator Mikulski. Okay.
    I am going to ask you. What are you doing on drugs, 
Director Comey.
    Mr. Comey. In every field office, we are engaged in 
focusing on the complex trafficking organizations, almost all 
the time in partnership with DEA. Our contribution to the 
heroin epidemic has been to work with DEA to try and disrupt 
the traffickers who are bringing it in.
    Now we have not touched the other pieces you talked about.
    Senator Mikulski. And does the Marshals Service have a 
role?
    Ms. Hylton. Our role is primarily dedicated to the regional 
task forces and district task forces on the apprehension of the 
fugitives involved. And so we work collectively with our 
colleagues here, and the States and locals, in apprehending 
drug fugitives.
    Senator Mikulski. Mr. Jones.
    Mr. Jones. Our role really is to look for the worst of 
worst, those that are employing firearms to commit violent 
crime that protect either their organization, or their 
business. The guns are always the driver for us, but that 
obviously leads us to some collaboration with DEA and FBI, and 
State and locals across-the-board.
    Senator Mikulski. Well, my time is up, but I think it says 
we really need a different kind of coordination here.
    First, I want to compliment everybody on what they are 
doing. So it's not a criticism of you.
    And the fact also, working with the State and local 
governments, we had the methodology of task forces, but there 
needs to be, I think, a more organized effort.
    If we have a second round, I will follow up with other 
questions. I appreciate what you are doing. I gained a great 
deal of insight here. Thank you.
    Senator Shelby. Senator Lankford.
    Senator Lankford. Thank you.
    I would like to follow up on what Senator Mikulski was just 
talking about, because that is my same line of questions, as 
well.
    Does it exist currently that this subcommittee can have a 
clear layout of the lanes of responsibility for dealing with 
drug issues? Because in two areas that I can see clearly, 
dealing with gangs and dealing with drugs, which obviously 
there is a tremendous amount of overlap, all four of you have 
lanes of responsibility in those areas.
    Does it exist that there is a clear layout of who has what 
lane?
    Ms. Leonhart. I believe that there are very clear lines. 
For instance, ATF and FBI have their violent crime task forces, 
and our role at DEA is really to identify those trafficking 
organizations, especially Mexican cartels and major Mexican 
organizations that are supplying the gangs, and that is what is 
fueling violence on our streets.
    So we work together in a collaborative way, all knowing 
what our lanes are. And I have been very proud to say, in the 
12 years that I have been in Washington, we have not once run 
into a problem that I had to go to the FBI Director and say we 
were overlapping here. I have not had to go to the director of 
the ATF. We work very well together, and we all know what our 
lanes are.
    Senator Lankford. So with that, I would like to have that 
document just to be able to see, so we get some clarity of who 
has what lane, if that is in there, if that is a task force or 
whatever that may be. I would like to have that so that we can 
get that clear differentiation.
    [The information follows:]
          bureau of alcohol, tobacco, firearms and explosives
    The primary law enforcement mission of the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF) is to combat violent crimes 
related to firearms, explosives and arson. These types of violent crime 
investigations, especially those involving firearms, are frequently 
intertwined with drug trafficking, particularly drug dealing by gangs 
and other criminal organizations. Absent a nexus to firearms, 
explosives or arson, however, ATF does not independently investigate 
drug trafficking. ATF's Frontline business model mandates that criminal 
investigations should be strategically focused on the most violent 
crimes and criminals, and specifies that drug trafficking alone is an 
insufficient basis to conduct an ATF investigation. ATF instead focuses 
its resources on individuals and organizations agents who engage in 
armed drug trafficking and engage in violent offenses as a tool of the 
trade. ATF's core statutory jurisdiction is well suited to addressing 
these armed traffickers, particularly title 18 section 924(c) of the 
Gun Control Act, which prohibits the use of firearms and explosives in 
furtherance of drug trafficking crimes.
    The Frontline business model also mandates that ATF coordinate its 
investigations with Federal, State and local law enforcement partners, 
and that mandate is particularly applicable when drug trafficking is 
involved in an investigation. ATF recognizes that the Drug Enforcement 
Administration (DEA) has primary jurisdiction and responsibility for 
enforcement of Federal drug laws, and closely coordinates 
investigations of drug trafficking organizations with DEA, on all 
levels, national, regional and by field division. On a national, 
strategic level, ATF also closely coordinates the investigation of drug 
traffickers and organizations through the Department of Justice's 
Organized Crime Drug Enforcement Task Forces (OCDETF) Program. The 
OCDETF Program, which includes, among other participants, the Drug 
Enforcement Administration, Federal Bureau of Investigation, Bureau of 
Alcohol, Tobacco, Firearms and Explosives, United States Marshals 
Service, Department of Homeland Security and Internal Revenue Service, 
is the Federal Government's primary vehicle for coordinating Federal, 
State and local resources to efficiently combat drug trafficking 
crimes. On both the national and the field division level, ATF also 
works closely with the High Intensity Drug Trafficking Areas (HIDTA) 
Program. Regional HIDTAs provide both resource coordination and 
essential deconfliction services for drug trafficking and related 
violent crime investigations. Finally, ATF works closely with U.S. 
Attorneys and local prosecutors through existing coordinating councils 
to ensure clear lanes of action and responsibility for local drug 
investigations. Moreover, where such coordinating bodies do not already 
exist, ATF's Frontline business model requires ATF Special Agents in 
Charge to work with the U.S. Attorney and other partners to form 
Violent Crime Reduction Partnerships (VCRP), to coordinate all efforts 
to combat violent crime, including drug trafficking.
                    drug enforcement administration
    The Drug Enforcement Administration's (DEA) mission is to enforce 
the controlled substances laws and regulations of the United States and 
bring to the criminal and civil justice system of the United States, or 
any other competent jurisdiction, those organizations and principal 
members of organizations involved in the growing, manufacture, or 
distribution of controlled substances appearing in or destined for 
illicit traffic in the United States; and to recommend and support non-
enforcement programs aimed at reducing the availability of illicit 
controlled substances on the domestic and international markets.
    DEA continues to prioritize its resources to disrupt and dismantle 
the ``most wanted'' drug trafficking and money laundering organizations 
primarily responsible for the Nation's illicit drug supply. This 
includes the Consolidated Organizational Priority Targets (CPTOs) 
identified by the Department of Justice (DOJ), plus other Priority 
Target Organizations (PTOs) identified by DEA. DEA also places a high 
priority on its efforts to prevent drug proceeds from ending up in the 
hands of terrorist organizations.
    To effectively accomplish its drug law enforcement mission, DEA 
works cooperatively with various law enforcement agencies worldwide. 
DEA participates in and contributes to the investigative efforts of 
Federal, State, and local law enforcement through direct partnerships, 
including task forces and information sharing initiatives. These 
collaborative efforts improve the effective coordination of 
investigative activity and deconfliction across agencies. DEA also 
supplies intelligence and information that supports the disruption or 
dismantlement of drug trafficking organizations and leads to numerous 
drug seizures and arrests worldwide. DEA participates in a number of 
Federal interagency efforts, including the Federal Bureau of 
Investigation's Safe Streets and Safe Trails Task Forces, ATF's Violent 
Crime Impact Teams and Project Safe Neighborhoods, the DOJ's Weed and 
Seed Program, and Attorney General's Anti-Gang Coordination Committee. 
The sharing of DEA intelligence and resources has led to many 
successful operations and highly effective drug law enforcement.
    Because of the international nature of drug trafficking, experience 
has shown that strong partnerships with foreign counterparts are vital 
in the drug law enforcement arena. Furthermore, DEA is not authorized 
to operate unilaterally overseas, so cooperation with the U.S. State 
Department, as well as foreign law enforcement agencies is essential to 
the DEA mission. To build and nurture these relationships, DEA has 86 
offices in 67 foreign countries and more than 700 onboard employees 
stationed overseas. DEA's cooperative partnerships with foreign nations 
help them to develop more self-sufficient, effective drug law 
enforcement programs. As part of this effort, DEA conducts training for 
host country police agencies at the DEA training facilities in 
Quantico, Virginia and on-site in the host countries. DEA also works 
with host nation counterparts to stand up and train vetted units of 
foreign law enforcement officers with whom DEA works and shares 
information. In addition, the United States has extradition 
relationships with many nations and DEA makes use of these arrangements 
whenever possible. The agency's worldwide partnerships have led to 
multiple arrests and extraditions of the highest-level drug traffickers 
and money launderers, narcoterrorists, and international arms dealers.
    In addition to Federal and international partnerships, DEA also 
recognizes the need for continued coordination of drug enforcement 
efforts with State and local counterparts across the country. DEA has 
221 domestic offices organized in 21 divisions throughout the United 
States and works closely with State and local partners. Cooperation 
provides advantages to all participating agencies and provides a 
Federal presence in sparsely populated areas where DEA would not 
otherwise be represented. Through the end of the fourth quarter fiscal 
year 2014, DEA led 192 State and local task forces. Moreover, these 
task forces consisted of an on-board strength of 2,235 DEA Special 
Agents and 2,668 State and local task force officers, all of whom are 
deputized with title 21 authority and dedicated full-time to 
investigate major DTOs and address trafficking problems in their local 
communities. Through the end of fiscal year 2014, DEA has trained 
39,932 State and local law enforcement officers. In fiscal year 2013, 
DEA trained 41,004 State and local officers (totals include Clandestine 
Laboratory Certification Training). The number of State and local 
officers trained fluctuates from year-to-year due to the number of 
training sessions conducted in the field. DEA-led task forces act as 
force multipliers by drawing on the expertise of State and local law 
enforcement.
    DEA also provides direct assistance to other law enforcement 
agencies through its State and local law enforcement clandestine 
laboratory training program. At the clandestine lab training facility, 
DEA trains Federal, State, local and foreign law enforcement officials 
on the latest techniques in clandestine laboratory detection, 
enforcement, and safety. In fiscal year 2014, the Clandestine 
Laboratory Training Unit conducted training for a total of 1,484 State 
and local law enforcement officers. This includes State and local 
Clandestine Laboratory Certification Training, Site Safety Training, 
Tactical Training, as well as training conducted for the National Guard 
and the Federal Bureau of Investigation's (FBI) National Improvised 
Explosive Familiarization Training.
                    federal bureau of investigation
    The Federal Bureau of Investigation's (FBI) role in dealing with 
the drug issue revolves around its investigative strategy to target 
criminal organizations rather than specific underlying offenses. 
Transnational Criminal Organizations (TCOs) conduct various criminal 
activities such as drug trafficking, human trafficking, violent crime 
(to include gangs), money laundering, and public corruption. In order 
to meet this threat, the FBI investigates TCOs holistically by 
gathering intelligence on the criminal activities, structure, and 
hierarchy of the organization, and subsequently using a cross-
programmatic investigation to target the TCO.
    The FBI participates in various HIDTAs and OCDETF Strike Forces to 
accomplish this mission. Additionally, the FBI has Hybrid Task Forces 
(HTFs) which are designed to utilize the force multiplier of Federal, 
local and State Task Force Officers (TFOs) in an effort to target TCOs 
cross-programmatically.
                     united states marshals service
    The United States Marshals Service (USMS) is the Federal 
Government's primary agency for conducting fugitive investigations. 
While the USMS is responsible for investigating and apprehending 
individuals wanted for escaping from Federal prison, and for Federal 
parole and probation violations, it has a long and distinguished 
history of providing assistance and expertise to other Federal, State, 
and local law enforcement agencies in support of fugitive 
investigations. In 1988, the USMS signed a Memorandum of Understanding 
(MOU) with the Drug Enforcement Administration (DEA) delegating 
apprehension authority to the USMS if DEA does not apprehend the 
fugitive within 7 days of issuing an arrest warrant. Drug-related 
offenses represent the highest percentages of USMS fugitive arrests. 
From fiscal year 2012-2014, 30 percent of the fugitives arrested were 
for drug warrants.
    The Marshals Service uses its district and regional fugitive task 
force network to combine the efforts of Federal, State and local law 
enforcement agencies to locate and arrest the most dangerous fugitives. 
These task forces are designed and managed to ensure the highest levels 
of cooperation, coordination, and deconfliction among participating 
agencies to organize investigations and protect officer safety not only 
in high density regions and core cities but also in surrounding cities 
and small rural areas that face difficulties dealing with violent 
offenders' criminal activity.
    In addition to the network of USMS-led fugitive task forces and its 
targeted initiatives, the USMS has partnered with the Organized Crime 
Drug Enforcement Task Forces (OCDETF) for over 30 years. Since the 
inception of OCDETF, the USMS has played an integral part in the war on 
drugs and has been able to dramatically reduce the number of 
outstanding OCDETF fugitives.
    It is important to note that the USMS fugitive task forces locate 
and apprehend Federal, State, and local fugitives both within and 
outside the United States. Since 2003, the USMS has worked with other 
U.S. Government agencies in its three foreign field offices (Mexico, 
Dominican Republic, and Jamaica) and Colombia to apprehend high-profile 
fugitives. Targeted fugitives range from major Transnational Criminal 
Organizations (TCO) to Consolidated Priority Organization Target (CPOT) 
cartel leaders, murderers, kidnappers, sex offenders and violent 
criminals.
    In addition to high-profile fugitive investigations, the USMS 
counter-narcotics efforts are worked, coordinated, exploited and 
deconflicted with the DEA's Special Operations Division inter-agency 
efforts, foreign field offices and appropriate leads in conjunction 
with the intelligence community. Though the USMS only has permanent 
presence in three countries, the USMS has an extensive network of 
foreign police contacts developed through outreach efforts and 
international fugitive training programs. Designated by the Department 
of Justice, the USMS is the Federal Government's primary agency for 
apprehending fugitives and has statutory responsibility for all 
international extraditions. The USMS routinely coordinates and conducts 
more than 400 extraditions annually with 40 percent of the 
international removals relating to narcotics.

    Senator Lankford. But part of the issue for us, as well, as 
we deal with the budget issues, we appreciate very much what 
you do and the folks that are on the street and individuals 
that literally lay down their life for our country and do that 
every day, and their family members deal with the grief, and 
our Nation grieves.
    We want to have the maximum number of people that are 
actually engaged on the street, both protecting each other and 
protecting our Nation, as possible, and the least amount in 
administrative work. So where there are areas of overlap, and 
one entity is really near-related to another entity, we would 
rather have one entity have more folks on the street and have 
half the administrative costs, as much as possible.
    So that would help us to be able to get that perspective.
    Another one is, I know there is a lot of focus right now on 
international terrorism, rightfully so by the way. But we can't 
lose the focus on drug and gang violence that is happening in 
the United States, because we lose more folks to drug and gang 
violence every week in the United States than we do 
international terrorism.
    Now, we can't put one priority over another one. We just 
can't lose that priority. And I would continue to reinforce 
that again with the funds and with the focus that we have. That 
is a continued major emphasis that we have to keep up that 
obviously DEA is trying to lead the way on so much, but all 
four of your entities are very, very involved in that as well.
    Let me do a specific question to Mr. Jones here, as well. 
The Attorney General Eric Holder and I had a conversation 
several years ago, coming out of the backside of ``Fast and 
Furious.'' It was a conversation about some of the procedures 
and process in trying to align the FBI processes for how to do 
undercover operations and the permissions and the access points 
going all the way to DC with ATF, because there are two 
different sets of processes.
    That was about 3 years ago that we had that conversation 
that was ongoing.

           ATF INTEGRATION OF DEPARTMENT OF JUSTICE POLICIES

    Do you know where that is, in status right now, in trying 
to align ATF processes with more of an FBI-like process for 
investigations?
    Mr. Jones. Senator, thank you for the question, and I think 
we are in a very better place than we were 3 years ago. I had 
three priorities when I came onboard.
    One was to get the organization healthy, and that is not 
just in resources. It is the infamous morale question.
    Number two was to fully integrate ATF into the Department 
of Justice policies. Coming from a U.S. attorney background, 
having served on the Attorney General's Advisory Committee 
(AGAC), being intimately familiar with Undercover Review 
Committee, Confidential Informant (CI) Committee, all of the 
processes that are there at the Department of Justice, we are 
on target with integrating and making sure that we are in sync 
with all of the DOJ law enforcement components on how we do 
some of those fundamentals, in terms of processes for higher or 
high-risk law enforcement operations.
    Now, the challenge for all of us, and the thing that gets 
attention oftentimes, is when the policy is not put into 
practice completely and uniformly across the country. That is 
sometimes a challenge, because putting it into practice 
involves your people and communication and training.
    Senator Lankford. But where do you think that is, in 
implementation of the policy, though, first?
    Mr. Jones. For us?
    Senator Lankford. Yes.
    Mr. Jones. For ATF?
    Senator Lankford. Yes.
    Mr. Jones. We are in sync with DOJ policy across-the-board, 
and we will continue to refine all of our orders and policies 
and practices on paper and in practice.

                     PRISONER DETENTION POPULATION

    Senator Lankford. Okay, thank you. One final question as 
well. There is a decrease in budget on the prisoner detention 
budget line item on that, and the reason that was done was a 
decline in population, which, by the way, is often good news on 
that. But can you tell me the reason that you see there is a 
decline in Federal prisoner population?
    Ms. Hylton. You are accurate, Senator. The major 
contributor is the decline in the population. It is also a lot 
of efficiency and time in detention that has been reduced in 
business practices. So those two combined.
    Senator Lankford. For any certain population that there is 
a decline in length of detention?
    Ms. Hylton. The decline in population--it will stay strong 
in immigration. It stays at a steady pace. There is a slight 
decline in drugs and a slight decline in supervised release, 
but those fluctuate primarily because of the length of time it 
takes to prosecute the cases. So it's time in detention that 
really impacts the dollar at times.
    Immigration has a faster processing of those cases compared 
to drugs. So it's really detention time that reduces it.
    Senator Lankford. Okay, thank you.
    I yield back.
    Ms. Hylton. Thank you.
    Senator Shelby. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Director Comey, I want to thank you for the work your 
people do in counterterrorism. I was there when Bob Mueller 
announced the development of an intelligence branch in the FBI. 
At that time, I had some concerns about it.
    I have watched its evolution, and I just want to say that 
whether it was Najibullah Zazi, which is well-known, or plots 
that are not well-known, the FBI has been able to disrupt plots 
in the United States. I think that is a very important and 
significant thing. And I want very much to thank you for it.
    I want to ask you, yes or no. One of my disappointments was 
to learn that the 6-year report of the Senate Intelligence 
Committee on the detention and interrogation program sat in a 
locker and no one looked at it. Let me tell you why I am 
disappointed.
    The report, the 6,000 pages and the 38,000 footnotes, which 
has been compiled, contains numerous examples of a learning 
experience of cases, of interrogation, of where the Department 
could learn perhaps some new things from past mistakes. The 
fact that it hasn't been opened, at least that is what has been 
reported to me, is really a great disservice. It is classified. 
It is meant for the appropriate department. You are, certainly, 
one of them.
    I would like to ask if you'll open that report and 
designate certain people to read it, and maybe even have a 
discussion how things might be improved by suggestions in the 
report.
    Mr. Comey. I will do that, Senator. As you know, I have 
read the executive summary. You asked me to do it during my 
confirmation hearing. I kept that promise and read it.
    There are a small number of people at the FBI who have 
read, as I understand it, the entire thing. But what we have 
not done, and I think it's a very good question, is have we 
thought about whether there are lessons learned for us, because 
it's a tendency for me to think we don't engage in 
interrogation like that, so what is there to learn?
    I don't think I have thought about----
    Senator Feinstein. Well, you did. And Bob Mueller pulled 
your people out, which is a great tribute to him.
    Mr. Comey. So the answer is yes, I will think about it 
better and I will figure out where we are in terms of looking 
at the entire thing. I don't know enough about where the 
document sits at this point in time, and you mentioned a lock 
box. I don't know that well enough to comment on it at this 
point.

                           HUMAN TRAFFICKING

    Senator Feinstein. Thank you very much.
    Let me talk to you about another problem. Human trafficking 
is now the second largest criminal enterprise in the world. It 
is behind only the drug trade. In this country too, children 
12, 13, and 14 are being trafficked. They are being transported 
across State lines to cities all over the United States.
    In some areas like Los Angeles, even street gangs are 
running these trafficking rings. So traffickers, now to 
distance themselves, have come upon a method of using the 
Internet. There are some 20 Internet sites where a purveyor, a 
trafficker, for as little as a dollar can buy an ad. So the 
Internet effectively becomes complicit.
    Now these are children. These are underage girls, sometimes 
underage boys. They are held against their will.
    I have become very concerned about this and will be doing 
more on it. But my question to you is, what can the FBI do to 
really make this a major priority and crack down on it? It is 
international, but it's also big-time national.
    Mr. Comey. Well, I think your characterization of it is 
correct, Senator. It is a huge feature of our work in all of 
our field offices. We work in 70-some task forces to try and 
address it. We work internationally in our 64 legal attache 
offices (legats) to try and address it. So it's a big feature 
in our life.
    We are trying to make sure we send a message that there are 
huge costs to doing this in the United States. We are focused 
on the individuals. You allude to the challenge with Internet 
sites; that is a challenge for us. Obviously, we have a 
wonderful country with a First Amendment that protects people's 
ability to create sites.
    We are trying to focus on the individuals who may be 
operating a site for purposes of trafficking and lock them up 
for a long period of time, and we are doing that all over the 
country.
    Senator Feinstein. Have you had any success?
    Mr. Comey. Oh, yes. We sure have.
    Senator Feinstein. Could we learn more about that?
    Mr. Comey. Sure.
    Senator Feinstein. Okay. Not now, but I would appreciate 
sitting down with you.

                           BACKGROUND CHECKS

    According to the Government Accountability Office, the 
famous GAO, for the last 10 years, February 2004 to December 
2014, there were 2,233 cases in which a known or suspected 
terrorist, individuals who were on the Federal terrorist watch 
list at the time, attempted to buy a firearm or obtain an 
explosives permit.
    In 91 percent of the cases--this is not me, this is the 
GAO--2,043 separate occasions, those known or suspected 
terrorists were successful in passing a background check. What 
can be done about this?
    Mr. Comey. Well, Senator, what we do now is, if someone on 
the watch list purchases or attempts to purchase a firearm, an 
immediate alert is sent to the agents who are the source of the 
suspicion about that individual, so they can incorporate that 
information into their investigation.
    It is a little bit challenging for us because ``known or 
suspected'' means it hasn't been adjudicated in every case that 
somebody is a terrorist. It is somebody we're investigating. So 
we don't want to, obviously, blow our investigation.
    Senator Feinstein. Well, let me say this, in 2007, the Bush 
administration's Justice Department drafted legislation to 
close what is a gap and prevent a known or suspected terrorist 
from buying a gun or explosive in this country.
    In 2009, Attorney General Holder expressed the Obama 
administration's support for the legislation. And I introduced 
similar legislation in the Senate last year.
    The question comes for the law enforcement element of the 
administration to really come forward and be supportive of 
this, because the National Rifle Association even opposes this. 
Now, this is terrorists.
    You know, we can have people come into this country meaning 
to do us harm, and they can go in and buy a weapon to carry it 
out. That is simply unacceptable.
    So I want to bring it to your attention. We have to come 
together and prevent this from happening.
    Your biggest concern is the lone wolf. The lone wolf can 
come in unarmed. He can buy the explosives. He can buy the gun. 
This must be stopped.
    Mr. Comey. Thank you, Senator.
    Senator Feinstein. No comment?
    Mr. Comey. I don't know where the administration is on the 
legislation, so I have nothing intelligent to say about that. I 
am focused on the operational piece of it, to make sure that we 
are alerted. I will have to find out where the administration 
stands on the legislation.
    Senator Feinstein. If you will, and I would also like to 
know where you stand.
    Mr. Comey. Oh, I am the FBI, I don't----
    Senator Feinstein. You don't stand?
    Mr. Comey. I don't stand. I am too tall to stand.
    Senator Feinstein. Thank you.
    Mr. Comey. Thank you.
    Senator Feinstein. Thank you, Mr. Chairman.
    Senator Shelby. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. And thank you all 
for being here. We appreciate all that you represent.
    Director Jones, first of all, I would like for you to be 
sure and send our condolences to Special Agent William 
Sheldon's wife and two young children. I understand that he has 
lost a battle with cancer, and we, certainly, are thinking of 
him.
    And Director Hylton, we want, also, to express our 
condolences to Josie Wells, who was killed in the line of duty 
on March 10th, again, to family and friends, and the U.S. 
Marshals Service.
    I think these things illustrate what you all are about, and 
we really do appreciate you.
    I really want to follow up on what Senator Mikulski was 
talking about, and Senator Lankford in a different way, and the 
tools that we have out there to try and fight the drug 
epidemic, and along with that, the violent crime that comes 
with that.

                       VIOLENCE REDUCTION NETWORK

    Director Jones, as a response to violent crime in Little 
Rock and West Memphis, Arkansas, I understand that both are 
potentially candidates to be named a Violence Reduction 
Network. Can you talk a little bit about that initiative, and 
how that is helpful?
    Mr. Jones. Thank you, Senator, for the question. The VRN, 
the Violence Reduction Network, is an initiative that ``the old 
becomes new,'' and it really is a collaborative effort with not 
only Federal law enforcement across-the-board, but also with 
State and locals, to address violent crime at a multitude of 
levels and make it sustainable.
    I know that Little Rock, in particular, has been discussed 
as a VRN potential site. It also is a site where we have done 
some work through our New Orleans field division to try and 
address the unacceptable levels, at times, of violent crime.
    But, the VRN really has a lot of potential. It is in its 
genesis. There are 10 cities now. There has been a conference 
here. We brought all the stakeholders, D.A.s, U.S. Attorneys, 
State and local police departments, and all of the Federal 
agencies represented here, to discuss, in a very focused way, 
the nature of the violent crime problem, the perpetrators of 
the violence in those communities, and sustainable strategies 
to lower it, eradicate it, and sustain it.

                 HIGH INTENSITY DRUG TRAFFICKING AREAS

    Senator Boozman. Very good.
    And related, Ms. Leonhart, High Intensity Drug Trafficking 
Areas (HIDTA), can you talk a little bit about that and how 
that fits in?
    Ms. Leonhart. Sure. The HIDTA program is run by the Office 
of National Drug Control Policy (ONDCP), not DEA. But all of 
the agencies at the table----
    Senator Mikulski. Tell Senator Boozman what those initials 
stand for. Not that he doesn't know, but we get lost in 
initials that you know every day.
    Senator Boozman. You are exactly right.
    Senator Mikulski. And they sound like cans of alphabet soup 
to us, or Scrabble games.
    Ms. Leonhart. Sure. It is the High Intensity Drug 
Trafficking Area program, and it is run by the Office of 
National Drug Control Policy (ONDCP). There are numerous 
HIDTAs. They are big task forces, with different initiatives 
that bring State, local, and Federal together.
    In these HIDTA task forces we are able to concentrate on, 
kind of in a regional concept, the threats, both drug and other 
violent-type crime, that are wreaking havoc on those 
communities.
    Senator Boozman. So, I guess my question is, is there a way 
to, and we could go down the line, we have all of these 
programs going on. Is there a way to integrate the programs, so 
that when you are doing your thing, Director Jones, and you are 
doing your thing, Ms. Leonhart, and Director Hylton, FBI, do we 
integrate those things when we go into a community?
    Ms. Leonhart. Absolutely. The beauty of, say, a HIDTA task 
force is that some of the groups are run by the FBI, 
concentrating on the violent gangs that the FBI brings 
expertise to the table on. Others are fugitive-related and run 
by the Marshals Service to make sure that we are going after 
the most significant, and most wanted violators in the area. 
Then the ones that are concentrating on firearms are often run 
by the ATF.
    They are integrated and, actually, all the different 
initiatives and task forces complement each other, and that is 
why our four departments, and our State and local partners can 
almost seamlessly work between these task forces to go after 
the threat.
    Senator Boozman. Thank you.
    Ms. Hylton, very quickly, because I am out of time, if we 
do make it such that we reduce the Federal prison population, 
how is that going to affect you guys?
    Ms. Hylton. Well, I think there are always criminals ready 
to come into the system, unfortunately, on our streets. So as 
the prison population decreases, our detention population is 
all contingent on what is arrested and brought in.
    As all of us fight for gangs and drugs to be reduced, I see 
that population as continuing to come into detention, as we all 
aggressively address those issues that Congress has explained.
    So I think we will still see them incoming. You will see 
the population go down in prisons, but you will see it come 
back up in detention. Thank you.
    Senator Boozman. Thank you, Mr. Chairman.
    Again, thank you all for being here, very much.
    Senator Shelby. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    I wanted to follow up on some of the early questions 
regarding the work that ATF is doing, following on the Law 
Enforcement Officers Protection Act.
    This was, just for the subcommittee's recollection, a piece 
of legislation that was passed in 1986 by a 400-21 margin in 
the House of Representatives, passed by unanimous consent in 
the United States Senate. President Reagan said, upon signing 
it, that there are ``certain forms of ammunition that have no 
legitimate sporting, recreational or self-defense use and, 
thus, should be prohibited.''
    It has always been tricky work to try to stay true to the 
act's intention of stopping criminals from killing law 
enforcement officers with specifically dangerous types of 
weapons, while also preserving the right of sportsmen and 
hunters to enjoy their pastime.
    But I just want to first thank the ATF, you mentioned in 
your prepared testimony, for the amazing work that they did in 
and around the Sandy Hook shooting, but also just to relay a 
story.
    I was in that firehouse mere hours after the shooting took 
place, and I had a law enforcement officer who was standing 
next to me remark that, in a way, he was glad that Adam Lanza 
took his own life, because he feared for the life and the 
safety of his officers should a shootout have occurred, given 
the ammunition, given the power of the weapons that were found 
on Mr. Lanza's possession. That speaks to why we passed this 
act in the first place.
    So I wanted to just ask a follow-up question as to why we 
were considering this particular type of ammunition in the 
first place. It is my understanding that what has happened here 
over time, when we talk about these ``green tips,'' is that 
they were initially exempt, in part because they were only used 
in rifles. But they now are able to be used in handguns.
    And we look at handguns in a different way, given that they 
are much more likely to be used in an assault on an officer, 
and, in fact, the underlying legislation specifically 
references handguns as something that ATF should be looking at.
    So I just think it would be helpful for us to understand 
why you got to the point of proposing that we take a new look 
at a type of ammunition that had been exempted, as you said, 
for a period of time.
    It is used in a different way today. That is the reason for 
the relook, correct?

  COMMENT PERIOD ON THE EXEMPT FRAMEWORK FOR ARMOR PIERCING AMMUNITION

    Mr. Jones. Senator, I think it's important to remember that 
this 30-day period for public comment on a framework involves 
additional exemptions. The classification for that particular 
round, which is military surplus, which is 5.56 mm, 62-grain, 
steel core, following into the parameters of LEOPA as armor-
piercing, was given. And it's had an exemption for 30 years. It 
has been on the market for that long. It has been available to 
folks for 30 years or more.
    I think the challenge for us, separate and apart from how 
do we grant exemptions going forward, and given recent 
experience, it's probably not going to happen any time soon, is 
the evolution of firearms technology and some of the platforms, 
assault-rifle-based platforms, that have evolved over those 30 
years, and the capabilities of those, and concealability of 
those. And, in fact, some of them that would qualify as pistol 
platforms create some challenges for us.
    Now, I do believe that this is going to take work across-
the-board, that this is not going to be something that ATF 
alone is going to do through a regulatory process. LEOPA is 
absolutely critical to officers' safety. I think everybody has 
concerns, if you are paying attention to some of the challenges 
there, the handgun phenomena, the crime gun phenomena, and the 
pistol phenomena.
    But as we see more and more of the firearms that could be 
classified as pistols being able to use not just this M855 
round, but any 5.56 mm round, it's a challenge for officer 
safety, and for public safety.
    Bottom line, you all have an opportunity maybe to have a 
discussion that we would gladly help you with on LEOPA, because 
it was passed in 1986 and a lot has happened in the last 30 
years.
    Senator Murphy. I appreciate it. My time has expired. I 
appreciate the answer to the question.
    I'd just point out the genesis of the law to just remind 
folks, this was bipartisan at the outset. And as we perfect it, 
and, as you mentioned, this rule contemplates exempting far 
more types of ammunition than it involves prohibiting, that we 
should remember the bipartisan spirit in which we began this 
effort. Hopefully, we can regain that.
    Thank you very much, Mr. Chairman.
    Senator Shelby. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Senator Mikulski. Senator, could you withhold while I just 
say one word to Senator Boozman?
    Senator Capito. Sure.
    Senator Mikulski. This goes to heroin. I didn't know when 
you were leaving.
    I think there is a real bipartisan interest on this 
subcommittee around this issue. DOJ is supposed to give me--not 
me, excuse me, that was the old days--give the subcommittee--a 
report, an interim report, because we asked for a task force.
    When we get that, we will have a staff briefing so we can 
all be up-to-date and really have a concerted effort in it. I 
just wanted to say that.
    Senator Shelby. Senator Capito.
    Senator Capito. Thank you. Thank you, Mr. Chairman.
    I want to thank the witnesses. I apologize for missing your 
testimony. I was chairing my own subcommittee, and I wanted to 
make sure I got here.
    But I also want to thank you for your service to our 
country. I appreciate it very much.

                 CRIMINAL JUSTICE INFORMATION SERVICES

    Director Comey, we are extremely proud of the work being 
done by the Criminal Justice Information Services at the FBI 
facility in Clarksburg. Over the years, biometrics has been 
exceedingly useful to the FBI and its partners in the law 
enforcement and intelligence communities, not only to 
authenticate an individual's identity to confirm that you are 
who you say you are, but more importantly, to figure out who 
someone is by either a fingerprint left on a murder weapon or a 
bomb, for example, typically by scanning a database of records 
for a match.
    The FBI Criminal Justice Information Services Division 
(CJIS) division has been a leader in biometrics and 
information-sharing for decades, and since the 1990s, the FBI 
has been saving the American taxpayers hundreds of millions of 
dollars by defraying the cost of running, automating, and 
modernizing its fingerprint repository, formally known as 
IAFIS.
    But this budget seems to jeopardize those efforts. It 
includes an offset of $120 million for this important function.
    Director Comey, can you tell this subcommittee what the 
impact would be and how this reduction could affect the FBI's 
ability to invest in the latest biometric technology, including 
facial recognition, iris scans, and DNA, just to name a few?
    Mr. Comey. Thank you, Senator. During my opening statement, 
I was bragging a little bit about my CJIS folks, because they 
are a hidden gem in the FBI. I believe they are the frame upon 
which hangs all of law enforcement.
    The information we share, the identities we share, the DNA, 
all of it goes through that great facility there. And I am very 
excited we are going to open, very shortly, a biometrics 
facility with DOD that is going to make this country even 
safer.
    I told them when I visited them, I said people don't know 
how cool you are here in West Virginia, and that is part of a 
testament to the quality of your work. You do it so well that 
everybody takes it for granted.
    So I'm very excited about CJIS. They know how much I love 
and admire their work.
    The answer is, I don't think that it will have an impact. 
There is an offset in the budget that is about additional 
moneys in the CJIS account that came from fee-for-service. The 
statute, as I understand it, restricts my use of that fund in 
certain ways.
    I am looking for ways in which to use it consistent with 
the law. But my understanding is this $125 million, the loss of 
that will not affect next-generation identification, the DNA 
database, any of the great work we are doing out there. It is 
simply some extra dough that came in over time from fees being 
paid, that we can use to invest in additional information 
systems. But even if we are not able to, it's not going to 
affect the rest of the work.
    Senator Capito. Well, that is good, because I think the 
modernization is something that is ongoing, changing forever. 
And we are extremely pleased to have the CJIS folks and the FBI 
in Clarksburg.
    It has been a wonderful addition to our community, and we 
know how great it is out there, too, so I appreciate that.
    I would like to ask Director Jones a question, because you 
also have a facility in West Virginia.

               ATF'S MARTINSBURG, WEST VIRGINIA FACILITY

    Mr. Jones. A wonderful facility.
    Senator Capito. Yes. And there is an aspect of the budget, 
which I am pleased about and would like to ask you, regarding 
the investment of a proposed ATF tracing facility in 
Martinsburg. I think this would be an amplification of what was 
already existing there, but you are requesting an $8.1 million 
increase for the facility for a mixture of personnel and 
equipment software upgrades.
    Can you discuss the work that is being done at the tracing 
center there, and why this increase would be justified?
    Mr. Jones. Well, like Director Comey, I love our facility 
in West Virginia because it does such critical work to what we 
do. We have our National Firearms Act (NFA) branch there that 
processes the ever-increasing number of requests for NFA 
licenses. That has primarily been driven by silencers. We got 
almost a quarter of a million requests last year.
    So that $8.1 million would do two things. One, it will 
allow us to add, permanently, 10 more legal instrument 
examiners that are crucial to processing the NFA, and we are 
making progress on cutting down the time. And it will give us 
money for contractors, because about half of our workforce in 
Martinsburg is contractors that not only do NFA licensing, they 
also do our crime gun-tracing.
    And we have a Violent Crime Analysis branch, and our 
Firearms Technology branch is out there.
    So that is kind of the heart of our gun work at ATF. It is 
out there in that Martinsburg facility.
    Senator Capito. Okay, good. That is good news. I, 
certainly, would be supportive of that.
    Well, I think I am out of time, but if I could make a quick 
comment, because I missed the discussion on heroin, and the 
ranking member mentioned that.
    I am assuming that is in reflection of the rise of heroin, 
the rise in heroin overdoses, younger people being affected by 
this. Even in a small State like West Virginia, this is having 
some devastating effects. And I, certainly, would love to be a 
part of some preventive measures, either at the supply or 
demand side, to try to stop what we see happening and 
destroying lives all across this country.
    So I want to be supportive of those efforts. Thank you.
    Senator Shelby. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you very much for your service and for being here 
this morning.

                                 HEROIN

    I guess I want to start with Administrator Leonhart, 
because I want to follow up on Senator Capito's comments, 
Senator Mikulski's comments, so many of the other comments that 
we have heard about the heroin epidemic around this country.
    We are seeing it in New Hampshire and northern New England. 
In New Hampshire in the last 10 years, we have seen people 
admitted to State treatment programs increase 90 percent for 
heroin use, 500 percent prescription drug use. So it truly is 
an epidemic.
    One police chief described it to me this way, he said, when 
we have someone shooting up at 2 o'clock in the afternoon in 
the parking lot of Target in Bedford, which is a very upscale 
community, we know we have a problem.
    So we have a problem. What I am interested in is not which 
lanes people are in. I am interested in what coordination is 
going on between agencies.
    Specifically, I have done a series of roundtables, meeting 
with law enforcement, treatment officials, and the medical 
community in New Hampshire, because one of the things that we 
have heard there is that the heroin abuse is the result of 
prescription drug abuse, and that one place where there is a 
breakdown in how we address this issue has to do with 
prescribing, and the medical community needs to be very 
involved in that discussion.
    As far as I can tell at the national level, we are not 
doing as much as we should be doing. So can I ask you, or 
anyone on the panel, I suppose--Director Comey, you might have 
some thoughts about this.
    But what are you doing to coordinate the efforts that your 
agency is engaging in? And how are you getting out information 
about those activities to local communities, the availability 
of grant moneys, what resources are available in local 
communities?

                        PRESCRIPTION DRUG ABUSE

    Ms. Leonhart. I will start with that.
    Yes, the Northeast especially, with the exploding 
prescription drug problem, what follows is the heroin problem. 
So what we have done and have done very well with our State and 
local partners in the Northeast is we have tactical diversion 
squads of diversion investigators, DEA agents, intel analysts, 
and State and local officers. They become the teams that are 
responsible for not only the prescription drug problem but also 
the rise in heroin abuse in those communities.
    Senator Shaheen. And excuse me for interrupting, but are 
you working with the medical community, and with some of our 
medical colleges around the whole prescribing challenge? One of 
the issues is that doctors are not really given a lot of 
guidance on how to prescribe because it is a variable issue, 
depending on the disease, on the individual.
    Ms. Leonhart. That is correct. It is the one drug problem 
that isn't just about law enforcement.
    So there are a number of efforts. We have been at the table 
with medical professionals. We have gone out. We have had 
seminars. We have worked with our U.S. attorneys to bring the 
medical community, the law enforcement community, treatment and 
prevention people together. A number of those efforts have 
actually occurred in the Northeast.
    But overprescribing is one of the major problems. In our 
work with the Department of Health and Human Services (HHS), 
the lane for the doctor's education falls with them. However, 
we have all partnered together and have offered training and we 
have actually gone out to schools.
    Senator Shaheen. So how is that reflected in your budget? 
As you look at where your priorities are for addressing this 
issue, how would you rate the enforcement side versus the 
prevention and the outreach efforts that you are doing?
    Ms. Leonhart. Thank you, Senator, for bringing that up, 
because there is a piece of our budget that this subcommittee 
could be very helpful with, and that is our DCFA part of the 
budget that handles diversion control.
    With that budget, it will allow us to continue to do 
outreach. Part of that outreach is working with the medical 
associations and getting the word out. We put a number of 
things on our Web site. We give them training manuals, a number 
of things.
    The budget for 2016, if we were to get that money, it will 
allow us to continue that outreach, as well as bring 50 
additional diversion investigators and 50 additional special 
agents into the program.
    Enforcement is just one piece. We feel that the public 
outreach is very important. And with our 66 diversion squads 
around the country, it allows them additional resources to be 
able to go out and reach the medical community, and is one of 
our priorities.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman, and Ranking 
Member Mikulski.
    And thank you to our panel of witnesses for your service 
and commitment of the men and women you lead.
    I want to follow right on this line of questioning with 
Administrator Leonhart.

                        VETERANS ADMINISTRATION

    Reports indicate that the DEA is investigating drug 
diversion from a Veterans Affairs medical facility in Tomah, 
Wisconsin. This facility is also the subject of a broader 
Veterans Administration (VA) investigation into opioid and 
benzodiazepine prescribing practices and management issues at 
the medical facility.
    Of course, the VA is itself a Federal agency, and the 
possibility that illicit drug use and sale may be fueled in 
part by the Federal Government is just extremely troubling.
    I look forward to discussing your investigation into the 
Tomah facility during the closed session. But I have two 
related questions for this session.
    Has the DEA identified VA medical facilities as a potential 
source of illicit opioid drug distribution?
    Ms. Leonhart. In this setting, I am not going to be able to 
talk specifically about Tomah. But I will say, in general, that 
we are concerned with any medical facility that is contributing 
to diversion and contributing to prescription drug abuse.
    We have the authorities. We have regulatory authorities and 
administrative authorities that we have used, and we will use, 
whether it is a VA facility or not.
    So we share your concerns, especially when this is 
regarding our treatment for our veterans.

                               DRUG ABUSE

    Senator Baldwin. You noted in your testimony that 
prescription drug abuse, and particularly prescription of 
opioids, has become a national crisis. The Centers for Disease 
Control and Prevention (CDC) has reported that more than 16,000 
people died using prescription opioids. That is about 37 
percent of all drug overdose deaths in the United States during 
the calendar year 2013.
    Experts see a direct connection between this and the 
increase in heroin use and overdose deaths. We have heard some 
of my colleagues cite local numbers and tragedies in this 
regard. In Wisconsin, in Milwaukee County alone, we saw a 72 
percent increase in heroin-related deaths from 2013 to 2014, 
just 1 year.
    So I know you have been asked this in many different ways, 
but what is your overall strategy or overarching strategy that 
we need to know about for cracking down on prescription drug 
diversion and heroin abuse? And does your budget request 
include sufficient funding to meaningfully reduce drug 
diversion and heroin abuse?
    Ms. Leonhart. Thank you, Senator. Yes, if you support the 
budget request, it will allow us to continue at the DEA to 
prioritize heroin and prescription drug abuse.
    We can't separate the two. You are absolutely correct that 
the prescription drug abuse has led to a heroin epidemic.
    The funds that we are asking for in the 2016 budget allow 
us to do a number of things. One is continue expansion of our 
tactical diversion squads. Those are the squads that are going 
to be able to go into communities, not just our big cities, but 
we have actually started to move these out into smaller cities, 
and pockets of the country that have had severe prescription 
drug problems.
    We are working those problems, and we are also able to, 
both on our diversion side and our enforcement side, work on 
those organizations that are taking advantage of the addiction 
in these areas, moving drugs into those communities, and 
working with our State and local partners, our other Federal 
partners, and where to take off those distribution 
organizations.
    At the same time with our diversion control personnel, we 
are using every tool we have in the toolbox, including 
regulatory authority, and administrative authority. We have 
pumped up the regulatory side to make sure that they are out 
doing cyclical investigations. We are focusing on the entire 
string, so from the manufacturers to the distributors, 
pharmacies, doctors, you name it.
    A piece we are also concentrating on is educating the 
public. There are certain tools that doctors should be using, 
pharmacists. It's important for them, the Prescription Drug 
Monitoring Programs (PDMPs). We now have 49 States that have 
either passed laws for PDMPs or have them in use. We understand 
Missouri, the last State, has just passed or there is a bill 
being looked at.
    Using every tool to include disposal and getting the drugs 
out of the medicine cabinet, has been very important in this 
fight. So it's not just enforcement. It's not just the 
outreach. It's hitting at each and every level to be able to 
take care of the prescription drug problem. We have seen over 
the last year to year and a half, it began to level off. But 
that heroin problem continues to rise.
    Then our international folks play a huge role here, because 
the majority of heroin that is hitting your streets is coming 
from Mexico and is being trafficked by those same organizations 
that are bringing coke, meth, marijuana, you name it, to your 
communities.
    These are the same organizations. They are polydrug 
organizations. And we have partnered with our counterparts in 
Mexico, who now, over the last year, have really taken a look 
at the heroin problem. They see the role that they play, and we 
have actually done some very good work together with them to 
focus on the problem.
    Senator Shelby. Thank you.
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    I'd just like to follow on some of the questions you have 
been fielding, Administrator, and say how grateful I am for 
your focus.
    Highly potent, inexpensive, widely available heroin is now 
killing many people in my hometown of Wilmington, Delaware, and 
across my State. We have 15 deaths per month from overdoses. It 
is touching all backgrounds, all income levels, all 
communities.
    We are eager to work in partnership with you and all of 
Federal law enforcement in finding more effective models for 
diversion, for treatment, for interdiction, and for the 
prosecution of the related crimes. It is something that is a 
significant challenge for our community, as it is from 
Baltimore to Miami to Wisconsin, all over our country. We 
really are seeing a significant shift from the prescription 
drug epidemic into heroin.

                       VIOLENCE REDUCTION NETWORK

    Let me turn, if I might, to a program that has been 
mentioned before by Senator Boozman, the Violence Reduction 
Network. The five cities that are participating in the first 
round are Oakland, Chicago, Detroit, Camden, and Wilmington, 
Delaware.
    I am grateful for the opportunity to talk with you about 
it, the Office of National Drug Control Policy, which is under 
the Financial Services Subcommittee and their HIDTA program is 
also newly engaged in the work Wilmington, Delaware.
    Despite our very small size, relative to Detroit or 
Chicago, Wilmington has one of the highest rates of violent 
crime and murder in the last few years. And a newly energized 
and engaged mayor, police chief, State-wide elected officials, 
and community leaders are tackling this challenge effectively.
    But I would love to hear from each of you, and I will 
invite you to start, Director Jones, if you might, what you are 
hearing about progress in Wilmington, what you think are the 
resource challenges that might remain, and if you have any 
input for me on what is going to be critical to turning the 
corner.
    The reports I am hearing so far about the Federal role is 
very positive, and so my simple input is to say thank you for 
the resources being delivered, the advice, the mentorship, and 
the guidance to my hometown. But if there are other things that 
I need to hear or things we can do to strengthen this network, 
I would really appreciate hearing it.
    Director.
    Mr. Jones. Well, one of the exciting things about the VRN, 
the Violence Reduction Network, is it will give us an 
opportunity to enhance the collaborative effort. I think in 
Wilmington, Delaware, and I have been up there, I have met with 
our resident agent. We are having some enhancements in terms of 
permanent personnel, which is a big part of our request in this 
budget, to get us healthy in terms of our special agent cadre.
    We are starting to see results when we have groups like the 
one in Wilmington that have been working for a long time in 
single digits, and we enhance it with task force officers, who 
in the past were barely holding it together, and we actually 
get new ATF agents up there.
    Our focus in Wilmington is really twofold. One is 
partnering with the police department to make sure that when 
there are shooting incidents, that we are on them very fast and 
following leads to identify the trigger-pullers.
    The other aspect where we have had some success, not only 
in Wilmington, but up and down the Eastern seaboard, are with 
the traffickers and the Iron Pipeline up I-95, where there are 
guns that are available in some, quote, unquote, ``source 
States'' that travel up--and Wilmington is along the pipeline--
to do what we can to disrupt the firearm trafficking networks.
    We have had some success recently in Wilmington with people 
who are essentially unlicensed dealers, for lack of a better 
term. So that effort, focusing on crime guns, draining the 
crime gun pool, helping the local police department identify 
trigger-pullers through leveraging technology like NIBIN, and 
training folks so it's sustainable, really is the short-term 
focus of our efforts.
    Senator Coons. Thank you, better ballistics training, use 
of gun stats, better use of data analysis, regional 
partnerships, I hear that all of those have been making a 
difference, and I am grateful for your personal engagement.
    I have relatively little time left, if any of the three of 
you would like to contribute to it, I would really appreciate 
it.
    Mr. Comey. Senators, I hope you know, in our Wilmington 
office, we have a 22-member Violent Gang Safe Streets Task 
Force that is part of the Violence Reduction Network effort.
    As Director Jones said, we are trying to focus on the 
trigger-pullers who are part of these neighborhood-based gangs, 
might not be big, fancy national gangs, but thugs who are a set 
or crew in a particular neighborhood. We are trying to be 
strategic, work with the intelligence that the locals are 
generating, focus on those, and rip them out of the community, 
with the hope that the good people will fill in the space and 
make that community safer.
    So I have 22 folks focused on it. It is too early for me to 
be able to tell you what success we have had, but it's 
something we will watch closely.
    Senator Coons. And the CDC has recently completed a fairly 
thorough review of the dataset from a public health 
perspective, as well as from a criminal justice perspective, of 
who is the universe of folks who are actually committing the 
violent crimes, where are they coming from, what is their 
background, what interactions do they have with education, with 
health care, and with law enforcement.
    It has been fascinating dataset that the Governor and his 
cabinet and I sat down and went through the other day.
    Do I have time Mr. Chairman, if the director wants to offer 
one more answer?
    Director.
    Ms. Hylton. Thank you very much. I would like to, as it 
relates to the VRN, the Violence Reduction Network, we have an 
operation ongoing now that is borne out of that effort.
    We are particularly focused on the larger cities or tri-
city areas, and we are operating out of Camden, Philadelphia, 
and Wilmington, trying to assist you with that.
    I am pleased to report, after 1 week of this operation, we 
have over 684 violent criminals arrested, particularly, 89 of 
them are gang members, 134 of them are sex offenders. There has 
been 48 of them that are related to homicides.
    So we work with the States and locals to bring those 
warrants in, and then, of course, we are able to share fugitive 
information across other investigative agencies.
    So I think the earlier questions of how we interface with 
each other, that is the work that we push out back and forth to 
each other.
    Twenty-seven firearms were seized, 1.86 kilograms of 
narcotics were seized, and over $47,000 currency. That is all a 
part of dismantling some of these organized criminals, 
opportunists, that are seeking to push drugs out.
    So I think that collective work is really starting to prove 
beneficial in the violent reduction across the cities.
    We are focused, as Director Comey says, all of us, on 
attacking the corridors that run. So it's not only just the 
major cities. Camden can put out 400 officers, but at the end 
of the day, all it does is push it out to Wilmington.
    The Marshals Service is particularly focused on those 
smaller law enforcement agencies to get in there and bolster 
them on removing the fugitives, at least, so they can put their 
efforts greater into the investigation piece to dismantle.
    Thank you.
    Senator Coons. Well, we are grateful for your partnership 
and support.
    Senator Shelby. Thank you, Senator Coons.
    I have a couple of questions that I want to submit for the 
record. One deals with Adam Walsh Act funding and the other is 
the DEA international drug enforcement priorities. I would 
submit them for the record, and ask you to hopefully get them 
back to us within 30 days.
    Senator Shelby. Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    I know we are now moved to the classified hearing. I, too, 
have questions for the record.
    I just want to say again to the men and women who work at 
these wonderful agencies, we want to thank them not only for 
the service they do, but we want to thank them that there are 
people in the United States of America who want to do this 
work, who really want to do this work. And we owe them a debt 
of gratitude, and, therefore, my comments about lifting 
domestic budget caps was not political grandstanding, that if 
we are going to lift the caps in defense to defend America, 
there is a lot of defense right here in our country for our 
communities.
    The second thing is, the issues of the Appropriations 
Committee, related to hiring and then sustaining the people we 
hire.
    And my point last point is technology. I am really proud of 
the labs and other technology uses we make in our agencies. I 
think really about 9/11, in that the Maryland State troopers 
stopped one of the terrorists. But at that time, the databases 
were so skimpy, you knew more about a deadbeat dad than 
somebody who was planning this horrific attack on the United 
States. That has changed.
    And when we looked at the sniper, the Beltway snipers, when 
this whole community came to a standstill, when somebody who 
worked at the FBI in the supportive service was killed coming 
of Home Depot, this community, I mean we are all victims of 
crime. This whole area stopped.
    We didn't know, was this terrorism? We didn't know if these 
were multiple killers. But thanks to this lab, and the way we 
could work with the FBI, we were able to have local law 
enforcement in charge, and we were able to catch the people of 
these terrible acts.
    So what you do, and I could through each and every one, is 
just amazing. We really need to support you, and I look forward 
to doing it.
    Senator Shelby. Senator Shaheen, you have another question?
    Senator Shaheen. Actually, I have a comment that I would 
like to make to follow up on something that Administrator 
Leonhart said, because I was just in a hearing in the Armed 
Services Committee with the general who is the head of Southern 
Command.
    One of the things she was talking about was the their work 
to interdict drugs coming into Central America and Mexico, and 
the impact that additional sequestration cuts are going to have 
on their ability to continue with that interdiction and support 
those countries in Central America that are trying to, and 
Mexico, that are trying to address this effort.
    I just think it's important for us to recognize that that 
is going to have a huge impact on the efforts, if those cuts go 
forward, the impact on the national security side, because of 
the drugs coming in. But that will then have an impact on the 
work that you are trying to do, that all of you are trying to 
do, if we can't address and roll back those cuts from 
sequestration.
    So I thought it was important, Mr. Chairman, to point out 
that this has huge domestic potential impact.
    Thank you.
    Senator Shelby. Thank you.
    I thank the witnesses, but we will now temporarily recess 
and reconvene in closed session, as soon as we can get back 
over to the Capitol.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. James B. Comey
                    FEDERAL BUREAU OF INVESTIGATION
           Questions Submitted by Senator Barbara A. Mikulski
               stopping human trafficking and pedophiles
    Question. What is the FBI doing to stop human and sex trafficking 
in the United States? What additional resources are needed by the FBI 
to put traffickers out of business?
    Answer. The FBI takes a victim-centered approach in conducting its 
human trafficking investigations. All efforts are taken to ensure 
victims are identified and provided necessary services. Through 
approximately 70 FBI-led Child Exploitation Task Forces (CETF), the FBI 
collaborates with nearly 400 State, local, and Federal law enforcement 
partners to identify and prosecute those individuals, enterprises, and 
businesses that exploit children, including those who facilitate the 
domestic sex trafficking of children. As of April 2015, the joint 
efforts of these groups have resulted in approximately 4,550 child 
recoveries and the conviction in State and Federal courts of nearly 
2,000 child sex traffickers.
    The FBI also takes part in over 120 Human Trafficking Task Forces 
and Working Groups to rescue adult victims of trafficking in persons. 
In these task forces and working groups, the FBI partners with other 
Federal, tribal, State and local law enforcement agencies, and their 
respective victim services components. These efforts often require 
working with various non-governmental organizations to ensure the 
rescued individuals are provided with whatever is necessary to restore 
their human dignity, irrespective of their willingness to cooperate in 
prosecution efforts.
    Recognizing the complexity of many human trafficking 
investigations, the FBI--in coordination with its Federal, tribal, 
State and local partners--routinely uses myriad investigative 
techniques to dismantle human trafficking organizations. Intelligence 
collection is a large aspect of human trafficking investigations. 
Intelligence Analysts assess human trafficking data enabling analysis 
of current and past trafficking data.
    Question. What assistance does the FBI provide to the victims of 
sex trafficking after an event like Operation Cross Country? What is 
being done to ensure these women and children are treated like victims, 
not criminals, by law enforcement?
    Answer. In Federal cases where a victim has been identified, crisis 
support is provided and medical treatment is offered. Once a victim is 
recovered, an FBI Victim Specialist (VS) is introduced and provides 
food, hygiene items, and clothing for the victim, in an effort to 
preserve the victim's dignity and offer comfort during interactions 
with law enforcement.
    FBI Victim Specialists (VS) possess specialized knowledge and 
skills on helping both adults and minors victims of sex trafficking. 
From providing on-scene crisis intervention to assisting families or 
guardians in considering specialized treatment options, a VS assesses 
the needs of the individual and works with local, State and Federal 
agencies to provide resources and opportunities to the victim. For 
example, if a minor is placed in residential treatment, the VS stays in 
contact with providers and guardians to keep communication open with 
the victim and to work within the team to coordinate any future 
investigative needs that does not jeopardize the victim's mental 
health. The VS also works with the U.S. Attorney's Office to facilitate 
support throughout the court process.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                       combating terrorist groups
    Question. What is the FBI doing to ensure we have Arabic speaking 
FBI staff located at high-threat locations, like Chicago?
    Lead-in information from original document.--
          Recently, social media accounts claiming to be associated 
        with the terror group ISIS posted threats against targeted 
        locations in Chicago, including the Old Republic Building at 
        307 N. Michigan Avenue.

    Answer. The FBI's Foreign Language Program works closely with the 
FBI's operational divisions to prioritize workload across divisions and 
intelligence domains as a reflection of those priorities. With a 
centralized management structure and a decentralized Arabic linguist 
workforce, the FBI directs Arabic language processing efforts across 
the Nation, focusing on operations in priority order as identified by 
the FBI's operational divisions, irrespective of geography. In 
addition, the FBI works to identify Field Offices, including Chicago, 
where there is an ongoing requirement for special agents with Arabic 
language skills. The FBI considers these unique language needs as a 
factor when assigning special agents to these offices. As a matter of 
policy, all counterterrorism materials must be reviewed regardless of 
tier, and the highest priority materials must be reviewed within 
specified timeframes, depending on the availability of linguists 
proficient in the languages required.
    Question. Is the FBI working to recruit additional Arabic speakers?
    Lead-in information from original document.--
          Recently, social media accounts claiming to be associated 
        with the terror group ISIS posted threats against targeted 
        locations in Chicago, including the Old Republic Building at 
        307 N. Michigan Avenue.

    Answer. In an effort to address the Arabic language needs of the 
FBI, the Bureau's Foreign Language Program pursues a number of 
initiatives to recruit from ethnic Arabic and heritage speaker 
communities. The FBI continues to provide training for special agents 
in Arabic and has recently renewed an incentive program for foreign 
language use to develop in-house capacity.
    The FBI has been and continues to be successful in hiring new 
linguists in most languages, including Arabic. The FBI devised and 
implemented a workforce planning model with recruitment efforts 
targeted toward languages where there is a shortfall, particularly in 
those languages and dialects needed for higher priority investigations. 
The FBI also harnesses the flexibility of a mixed labor force of 
linguists consisting of full-time Government employees and contract 
linguists. Challenges to hiring Arabic linguists with specialized 
dialects or skills include competition between multiple Government 
agencies and private companies for the limited pool of such qualified 
linguist applicants.
    Question. How is the FBI currently monitoring social media to 
ensure high-profile target cities like Chicago are safe?
    Lead-in information from original document.--
          Recently, social media accounts claiming to be associated 
        with the terror group ISIS posted threats against targeted 
        locations in Chicago, including the Old Republic Building at 
        307 N. Michigan Avenue.

    Answer. The FBI uses many avenues to ensure the safety of 
communities nationwide; however, the FBI is bound by guidelines issued 
by the Attorney General that establish a consistent policy on when an 
investigation may be initiated. Through these guidelines, the FBI 
obtains authorization to collect information. The facts are analyzed 
and then used to prevent criminal or terrorist activity and, whenever 
possible, to aid in the arrest and prosecution of persons or groups who 
have violated the law.
                national gang intelligence center (ngic)
    Question. When will the NGIC produce another reliable assessment 
with data on gangs of national significance?
    Lead-in information from original document.--
          The National Gang Intelligence Center (NGIC) has received 
        bipartisan and bicameral Congressional support despite being 
        recommended for closure in the President's budget. The NGIC is 
        not only a tool for law enforcement, but also the Gang Threat 
        Assessments the NGIC produces help Congress identify threats 
        and build coalitions around fighting gangs of national 
        significance. The NGIC has not released an assessment since 
        2013, and has not released reliable gang member location data 
        since 2010.

    Answer. The NGIC produces the National Gang Report bi-annually. The 
most recent National Gang Report was published in 2013. The NGIC is now 
conducting analysis on survey data and other sources to produce the 
2015 National Gang Report. The anticipated release date is Fall/Winter 
2015.
    Question. Going forward, how will the FBI utilize the NGIC in its 
overall strategy to fight gangs of national significance?
    Lead-in information from original document.--
          The National Gang Intelligence Center (NGIC) has received 
        bipartisan and bicameral congressional support despite being 
        recommended for closure in the President's budget. The NGIC is 
        not only a tool for law enforcement, but also the Gang Threat 
        Assessments the NGIC produces help Congress identify threats 
        and build coalitions around fighting gangs of national 
        significance. The NGIC has not released an assessment since 
        2013, and has not released reliable gang member location data 
        since 2010.

    Answer. The FBI utilizes the NGIC as an integrated intelligence 
resource for identifying the growth, migration and criminal networks of 
gangs that pose a significant threat to communities throughout the 
United States. The NGIC supports participating agencies' gang 
investigations by providing remote and on-site analytical support to 
drive investigations. The FBI also utilizes the NGIC to conduct gang-
related training to Field Office personnel and local law enforcement.
    NGIC is a multi-agency gang ``fusion center'' and assists local, 
State and Federal agencies in coordinating and analyzing gang 
intelligence and serves as a focal point in obtaining gang-related 
intelligence information. NGIC plays a critical role in supporting the 
164 Safe Streets Violent Gang Task Forces across the country. NGIC 
analysts assist in providing both strategic and tactical intelligence 
products on gang activity throughout the Nation. NGIC plays a critical 
coordination role in obtaining and disseminating Bureau of Prison and 
Correctional Intelligence through its Correctional Intelligence Task 
Force.
                         online sex trafficking
    Question. During what span of years and how many times has the FBI 
raided and closed sex trafficking Web sites?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. The FBI continuously assesses various online platforms/Web 
sites for their involvement with child sex trafficking and works with 
Federal prosecutors to bring cases against those who violate relevant 
Federal statutes. In 2014, the FBI seized myredbook.com and 
sfredbook.com. The seizure of these sites was the culmination of 
several years of investigative work and complex legal analysis. Eric 
Omuro, the owner of the sites pleaded guilty to using a facility of 
interstate commerce with the intent to facilitate prostitution. On May 
21, 2015, Omuro was sentenced to 13 months in prison. As part of his 
plea agreement, Omuro agreed to forfeit more than $1.28 million in cash 
and property as well as the sfRedBook.com and myRedBook.com domain 
names. According to an affidavit submitted in connection with the 
sentencing hearing, the FBI identified more than 50 juveniles who were 
also advertised on myRedBook for the purpose of prostitution. 
Furthermore, despite being contacted by NCMEC in 2010, myRedBook never 
registered to participate in the center's CyberTipline, which receives 
leads and tips regarding suspected crimes of sexual exploitation 
committed against children, and never communicated with NCMEC.
    Question. How does the FBI use Backpage.com as a tool to 
investigate sex trafficking?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. The FBI reviews open source data for information that might 
be of evidentiary value to existing cases and/or justify the initiation 
of new cases.
    Question. Has the FBI subpoenaed Backpage.com regarding sex 
trafficking?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. Yes. In investigations relating to Federal child sexual 
exploitation offenses, the FBI has the authority to issue and serve 
administrative subpoenas to seek information specified in 18 U.S.C. 
Section 2703(c)(2); that is: the name; address; local and long distance 
telephone connection records, or records of session times and 
durations; length of service (including start date) and types of 
service utilized; telephone or instrument number or other subscriber 
number or identity, including any temporarily assigned network address; 
and means and source of payment for such service (including any credit 
card or bank account number), of a subscriber to or customer of such 
service. The FBI has used this valuable investigative tool to obtain 
such information from Backpage.
    Question. Please describe the FBI's assessment of Backpage's level 
of cooperation that Backpage provides to the FBI.
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. Backpage.com has been served with legal process in various 
investigations of individuals involved with ads on that Web site, and 
they have responded to these legal orders.
    Question. How many FBI agents has the FBI assigned to combat sex 
trafficking?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. In fiscal year 2015, the FBI has approximately 90 agents 
dedicated to the investigation of human trafficking offenses, including 
approximately 10 agents dedicated to investigating child sex tourism 
offenses.
    Question. In the FBI's analysis, is the FBI better able to combat 
sex trafficking with Backpage operating in its current form or with the 
FBI raising and closing Backpage?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. The question assumes that there is currently sufficient 
evidence of criminal conduct to support a search and seizure of 
Backpage. The FBI cannot comment on this assumption. In general, the 
FBI does not confirm or deny the existence of any pending investigation 
nor does it comment on hypotheticals.
    Question. Over the last 3 years, how many sex trafficking victims 
has the FBI been involved with rescuing per year?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. Due to the nature of adult sex trafficking cases, the fine 
line which can often be blurred between trafficking and prostitution 
for the worker, and the difficulty in bringing these cases to 
prosecution, generating an accurate number of adult victims rescued 
during any given year would not be representative of the FBI's work to 
combat this threat. However, between fiscal year 2012 and fiscal year 
2014 the FBI has opened over 1,000 human trafficking cases, in which 
approximately 70 percent of these opened cases have a sex trafficking 
nexus (250 cases in 2012, 248 cases in 2013, 308 cases in 2014 and 239 
in 2015 as of August 13, 2015). Additionally, from fiscal year 2012 
through fiscal year 2014, the FBI averaged more than 750 child rescues 
per year (approximately 600 in fiscal year 2012, approximately 850 in 
fiscal year 2013, and approximately 900 in fiscal year 2014).
    Question. What are the top five Federal districts with the greatest 
number of sex trafficking investigations?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. Human trafficking efforts are encompassed in several 
different units at the FBI. The Civil Rights Unit is responsible for 
human and sex trafficking of adults, whereas the Innocence Lost 
National Initiative (within the Violent Crimes Against Children 
program) is responsible for trafficking of minors. The FBI tracks case 
statistics based on FBI Field Office jurisdictions, rather than Federal 
districts, and therefore cannot provide the top five Federal districts. 
However, in total, from fiscal year 2004 through fiscal year 2014, the 
FBI initiated more than 1,600 investigations and more than 650 
individuals were convicted of human trafficking violations.
    Question. In the Northern District of Illinois during 2009-2014, 
the FBI has conducted how many sex trafficking investigations?
    Lead-in information from original document.--
          During June 2014, in the Northern District of California the 
        FBI raided and closed the sex trafficking Web site, 
        MyRedBook.com (MyRedBook), and arrested its operators, Eric 
        ``Red'' Omuro and Annemarie Lanoce. During November-December 
        2014, Omuro pleaded guilty to using the MyRedBook Web site with 
        the intent to facilitate prostitution and Lanoce pleaded to 
        assisting Omuro with the operation of the MyRedBook.com Web 
        site. Continuing to combat sex trafficking and other Web sites 
        used for sex trafficking, similar to MyRedBook.com, must be a 
        top priority.

    Answer. The FBI does not track cases by judicial district. However, 
between fiscal year 2009 and fiscal year 2014 the FBI Chicago field 
division has conducted 199 sex trafficking investigations. This 
encompasses both child and adult victims.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
                           isis cyber hacking
    Question. How is the FBI handling our Nation's cyber security 
breaches, especially the cyber hacking led by ISIS?
    Answer. Based on the results of the FBI's investigations and 
collaboration with our U.S. Government and international partners, the 
FBI assesses, as of April 2015, the Islamic State of Iraq and the 
Levant (ISIL) has a low capability to conduct offensive cyber 
operations with the potential to affect U.S. networks and damage 
critical U.S. infrastructure. An ``Islamic State Hacking Division'' 
claimed to have hacked ``U.S. military databases'' and released the 
names and addresses of 100 U.S. military members on various social 
media and file sharing sites on 20 March 2015. However, actual 
compromise of U.S. networks has not been confirmed; the material 
appears to have originated from open sources.
    Over the past 6 months, the FBI has observed an increase in pro-
ISIL extremist hackers carrying out nuisance attacks against vulnerable 
public websites and social media accounts, disrupting those sites for 
short periods of time and/or using the access to those accounts to post 
pro-ISIL imagery and propaganda. These hackers, while espousing views 
in support of ISIL, are not believed to have connections with, or 
receive any direction from, ISIL leadership.
                     fbi whistleblowers gao report
    Question. According to GAO, compared with other Federal agencies, 
FBI whistleblowers have less protection against retaliation by 
management, the GAO and current procedures could discourage 
whistleblowing.'' Is the FBI moving forward and reforming this policy?
    Answer. The FBI has two policies related to whistleblower 
protections. Among other things, our policy entitled ``FBI 
Whistleblower Policy'' (policy directive 0272D) identifies the types of 
protected disclosures (reports of mismanagement, gross waste of funds, 
abuse of authority, substantial and specific danger to public health or 
safety, and violation of any law, rule, or regulation), the authorities 
to whom protected disclosures are made, and the responsibility of FBI 
managers to ensure that whistleblowers are not subject to reprisal.
    A more recent policy provides additional protections. The purpose 
of the 2014 policy entitled ``Non-Retaliation for Reporting Compliance 
Risks'' (policy directive 0727D) ``is to provide an effective process 
for all Federal Bureau of Investigation (FBI) personnel to express 
concerns or report potential violations regarding the FBI's legal and 
regulatory compliance, without retaliation, and to encourage the 
reporting of any such concerns.'' This policy emphasizes that ``[t]he 
FBI is committed to creating and sustaining a culture of compliance 
that promotes open communication, including open and candid discussion 
of concerns about compliance with applicable laws, regulations, and 
Department of Justice (DOJ) and FBI policies'' (Section 8.1.1) and 
makes clear that ``FBI personnel are strictly prohibited from 
retaliating against anyone for reporting a compliance concern'' 
(Section 8.1.2). Protected compliance concerns may be reported to: the 
FBI Office of Integrity and Compliance (OIC), the OIC Helpline (which 
accepts anonymous calls), division compliance officers, the Division 
Compliance Council, or any supervisor in the reporting employee's chain 
of command. This policy explicitly provides that it ``does not add to, 
or subtract from, the whistleblower protections provided to FBI 
personnel under 5 U.S.C. Sec. 2303, the DOJ regulations set forth in 28 
CFR Part 27, Intelligence Community Directive (ICD) 120, or Policy 
Directive (PD) 0272D, FBI Whistleblower Policy.'' (Section 8.5.1.)
    The FBI believes that whistleblowers play an important role in 
discovering and preventing waste, fraud, and abuse in the Government. 
The FBI is working with the Department to improve the process for 
adjudicating claims of retaliation. These changes will ensure that the 
Department has a fair and efficient process for adjudicating these 
claims, and include expanding the list of persons to whom a protected 
disclosure may be made.
                     human trafficking legislation
    Question. As you may know, the Senate is currently considering 
human trafficking legislation. I don't think many people realize the 
scope of this issue in our own country. Can you discuss FBI initiatives 
to combat human trafficking? What can Congress do to help?
    Answer. In 2003, the FBI, in conjunction with the Department of 
Justice Child Exploitation and Obscenity Section and the National 
Center for Missing and Exploited Children (NCMEC), launched the 
Innocence Lost National Initiative (ILNI). Through approximately 70 
FBI-led Child Exploitation Task Forces (CETF), the FBI collaborates 
with nearly 400 local, State, and Federal law enforcement partners to 
identify and prosecute those individuals, enterprises, and businesses 
that exploit children, including those who facilitate the domestic sex 
trafficking of children. As of April 2015, the joint efforts of these 
groups have resulted in approximately 4,550 child recoveries and the 
conviction in State and Federal courts of nearly 2,000 child sex 
traffickers. In support of the ILNI, the FBI is currently engaged in a 
significant project to improve its technical capabilities in 
identifying online indicators of child sex trafficking. This tool will 
more effectively compare open source data with existing law enforcement 
and non-governmental organizations (NGO) databases.
    The FBI participates in over 120 Human Trafficking Task Forces and 
Working Groups to address sex and labor trafficking of adults in the 
United States and abroad, where appropriate, such as a link to 
victimization of individuals in the United States. These task forces 
and working groups partner with Federal, tribal, State and local law 
enforcement entities, as well as NGOs to assist investigations, 
prosecutions and with providing victim services. Each FBI Field Office 
has personnel assigned to investigate human trafficking cases. 
Additionally, Field Office and headquarters personnel regularly conduct 
training on human trafficking awareness and investigation. Audiences of 
such training include Federal, tribal, State and local law enforcement 
officers, government personnel, NGOs, victim service providers, 
community leaders, immigration aid workers, medical personnel, 
hospitality industry workers, faith-based organizations and students at 
the high school and collegiate level.
    The FBI is currently engaged in numerous national initiatives 
designed to address sex trafficking in the U.S. associated with massage 
parlors, and trafficking from abroad, particularly via Transnational 
Organized Crime organizations. Additionally, in partnership with the 
Departments of State and Homeland Security, the FBI is part of an 
initiative to train personnel in various embassies and diplomatic posts 
around the world in an effort to address potential human trafficking 
before potential victims travel to the U.S. This initiative will also 
enhance cooperation between U.S. law enforcement personnel abroad and 
their host-nation law enforcement and NGO partners.
    The FBI will continue to update Congress on the status of ongoing 
programs and looks forward to working together to address Human 
Trafficking issues.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                      fbi surveillance technology
    Question. Under the FBI's current policies relating to the use of 
cell-site simulators, how many times has the FBI employed such a device 
without prior court approval, and what were the reasons for doing so? 
What is the policy regarding retention of data?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. On September 3, 2015, the Department of Justice announced a 
new policy for its use of cell-site simulators that will enhance 
transparency and accountability, improve training and supervision, 
establish a higher and more consistent legal standard and increase 
privacy protections in relation to law enforcement's use of this 
critical technology.
    The policy, which applies Department-wide, will provide Department 
components with standard guidance for the use of cell-site simulators 
in the Department's domestic criminal investigations and will establish 
new management controls for the use of the technology. Cell-site 
simulator technology has been instrumental in aiding law enforcement in 
a broad array of investigations, including kidnappings, fugitive 
investigations and complicated narcotics cases. This new policy ensures 
the Department's protocols for this technology are consistent, well-
managed and respectful of individuals' privacy and civil liberties.
    To enhance privacy protections, the new policy establishes a set of 
required practices with respect to the treatment of information 
collected through the use of cell-site simulators. This includes data 
handling requirements and an agency-level implementation of an auditing 
program to ensure that data is deleted consistent with this policy. For 
example, when the equipment is used to locate a known cellular device, 
all data must be deleted as soon as that device is located, and no less 
than once daily. Additionally, the policy makes clear that cell-site 
simulators may not be used to collect the contents of any communication 
in the course of criminal investigations. This means data contained on 
the phone itself, such as emails, texts, contact lists and images, may 
not be collected using this technology.
    While the Department has, in the past, obtained appropriate legal 
authorizations to use cell-site simulators, law enforcement agents must 
now obtain a search warrant supported by probable cause before using a 
cell-site simulator. There are limited exceptions in the policy for 
exigent circumstances or exceptional circumstances where the law does 
not require a search warrant and circumstances make obtaining a search 
warrant impracticable. Department components will be required to track 
and report the number of times the technology is deployed under these 
exceptions. To ensure that the use of the technology is well managed 
and consistent across the Department, the policy requires appropriate 
supervision and approval.
    Question. Since 2001, how many cell-site simulators has the FBI 
purchased or obtained from another Government agency? What has been the 
cost, per year, for the acquisition, maintenance and deployment of the 
FBI's cell-site simulators?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. On September 3, 2015, the Department of Justice announced a 
new policy for its use of cell-site simulators that will enhance 
transparency and accountability, improve training and supervision, 
establish a higher and more consistent legal standard and increase 
privacy protections in relation to law enforcement's use of this 
critical technology.
    The policy, which applies Department-wide, will provide Department 
components with standard guidance for the use of cell-site simulators 
in the Department's domestic criminal investigations and will establish 
new management controls for the use of the technology. Cell-site 
simulator technology has been instrumental in aiding law enforcement in 
a broad array of investigations, including kidnappings, fugitive 
investigations and complicated narcotics cases. This new policy ensures 
the Department's protocols for this technology are consistent, well-
managed and respectful of individuals' privacy and civil liberties.
    To enhance privacy protections, the new policy establishes a set of 
required practices with respect to the treatment of information 
collected through the use of cell-site simulators. This includes data 
handling requirements and an agency-level implementation of an auditing 
program to ensure that data is deleted consistent with this policy. For 
example, when the equipment is used to locate a known cellular device, 
all data must be deleted as soon as that device is located, and no less 
than once daily. Additionally, the policy makes clear that cell-site 
simulators may not be used to collect the contents of any communication 
in the course of criminal investigations. This means data contained on 
the phone itself, such as emails, texts, contact lists and images, may 
not be collected using this technology.
    While the Department has, in the past, obtained appropriate legal 
authorizations to use cell-site simulators, law enforcement agents must 
now obtain a search warrant supported by probable cause before using a 
cell-site simulator. There are limited exceptions in the policy for 
exigent circumstances or exceptional circumstances where the law does 
not require a search warrant and circumstances make obtaining a search 
warrant impracticable. Department components will be required to track 
and report the number of times the technology is deployed under these 
exceptions. To ensure that the use of the technology is well managed 
and consistent across the Department, the policy requires appropriate 
supervision and approval.
    Question. Does the FBI maintain its own license plate reader 
database? If so, how long has the database been operational and what 
are the policies and procedures in place that govern the collection and 
use of the data? How many cameras are in the network? What other law 
enforcement agencies, if any, have access to this database?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The FBI uses its license plate readers (LPR) as an 
investigative technique. FBI LPR systems may only be deployed in 
support of predicated investigations, and there must be a reasonable 
belief that LPR will aid that investigation. Deployment must be 
approved by the investigating Field Office's Chief Division Counsel and 
a Supervisory Special Agent.
    By default, records are retained for 90 days. Records deemed as 
pertinent to the investigation may be retained for up to 25 years, or 
as needed by the investigation. All other records are permanently 
discarded after the 90 day retention period has expired.
    Currently, the FBI has approximately 140 LPR cameras throughout the 
U.S. which are deployed as required to support specific investigations. 
No external agency currently has access to the FBI's LPR database.
                       privacy impact assessment
    Question. Has the FBI conducted a PIA of its domestic drone use?
    Lead-in information from original document.--
          Under the E-Government Act of 2002 and Justice Department 
        guidelines, the FBI is required to conduct and release a 
        Privacy Impact Assessment (PIA) prior to deploying new 
        technologies that collect, maintain, or disseminate personal 
        information. While an interim DOJ OIG report in 2013 indicated 
        that the FBI has been deploying drones to support its mission 
        since 2006, the FBI has either not developed, or failed to 
        release a PIA. By comparison, the Department of Homeland 
        Security has publicly released two PIA's of its drone 
        operations.

    Answer. No, the FBI continues to work with the DOJ Office of 
Privacy and Civil Liberties to evaluate the privacy implications of its 
investigative techniques to determine when or if a PIA is required.
    Question. If so, please provide copies of all PIA's and if not, 
please explain why a PIA has not been conducted.
    Lead-in information from original document.--
          Under the E-Government Act of 2002 and Justice Department 
        guidelines, the FBI is required to conduct and release a 
        Privacy Impact Assessment (PIA) prior to deploying new 
        technologies that collect, maintain, or disseminate personal 
        information. While an interim DOJ OIG report in 2013 indicated 
        that the FBI has been deploying drones to support its mission 
        since 2006, the FBI has either not developed, or failed to 
        release a PIA. By comparison, the Department of Homeland 
        Security has publicly released two PIA's of its drone 
        operations.

    Answer. The FBI is fully committed to transparency while protecting 
information whose release could compromise law enforcement efforts or 
national security, as indicated in President Obama's Memorandum. 
Currently, UAS are used in a way such that they provide the same 
information that was available through the use of manned aircraft. Were 
this to change, a legal review would be conducted first, in order to 
ensure compliance with relevant statutes, regulations, the President's 
memorandum, and FBI policies. The FBI continues to work with the DOJ 
UAS working group, which includes the DOJ Office of Privacy and Civil 
Liberties, to identify UAS issues and develop all appropriate 
guidelines. A PIA exists for the Sentinel system, which is the only 
system which retains UAS information, as does a System of Records 
Notice (SORN) for the Central Records System. Both of these are 
publicly available and speak to the FBI's treatment and storage of its 
investigative records. The FBI continually evaluates the privacy 
implications of its investigative techniques.
    Question. Will you commit to making any past and all future PIA's 
publicly available?
    Lead-in information from original document.--
          Under the E-Government Act of 2002 and Justice Department 
        guidelines, the FBI is required to conduct and release a 
        Privacy Impact Assessment (PIA) prior to deploying new 
        technologies that collect, maintain, or disseminate personal 
        information. While an interim DOJ OIG report in 2013 indicated 
        that the FBI has been deploying drones to support its mission 
        since 2006, the FBI has either not developed, or failed to 
        release a PIA. By comparison, the Department of Homeland 
        Security has publicly released two PIA's of its drone 
        operations.

    Answer. The FBI is committed to making PIAs available as required 
by law. Any PIAs released by the FBI will be available on both the 
FBI's and DOJ's public Web site.
          senate judiciary questions for the record from 2014
    Question. Please provide answers to those questions as soon as 
possible.
    Lead-in information from original document.--
          On May 21, 2014, you appeared before the Senate Judiciary 
        Committee to testify for the first time as Director of the FBI. 
        I submitted several questions for the record, stemming from 
        testimony by former Director Mueller on the FBI's use of 
        drones, inquiring about measures the FBI was taking to protect 
        Americans' privacy rights. To date, I have yet to receive a 
        response to those questions.

    Answer. The FBI's responses to the May 21, 2014 Questions for the 
Record were provided to the Senate Judiciary Committee by DOJ on July 
2, 2015.
                memorandum on unmanned aircraft systems
    Question. As the FBI works to implement these measures, please 
provide clarification on the Bureau's interpretation of this 
memorandum.
    Lead-in information from original document.--
          On February 15, 2015, President Obama signed a Memorandum on 
        Unmanned Aircraft Systems, establishing principles to oversee 
        the Government's use of domestic drones. The guidelines include 
        important transparency measures and rules to ensure that 
        privacy protections keep pace with new technologies. However, 
        the transparency provision contains an exception for law 
        enforcement and the privacy protections section fails to define 
        what constitutes new drone technology.

    Answer. The FBI is fully committed to transparency while protecting 
information whose release could compromise law enforcement efforts or 
national security, as indicated in President Obama's Memorandum and the 
Department of Justice's Policy Guidance. Currently, UAS are used in a 
way such that they provide the same information that was available 
through the use of manned aircraft. Were this to change, a legal review 
would be conducted first, in order to ensure compliance with relevant 
statutes, regulations, the President's memorandum, and FBI policies.
    As with any investigative technique, the use of UAS must balance 
the intrusiveness of the technique against investigative needs. 
Additionally, the use of UAS must be approved by an Assistant Special 
Agent in Charge or someone with equivalent (or greater) seniority, and 
the FBI's Senior Component Official for Privacy must conduct an annual 
review of the FBI's use of UAS.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
            president's task force on 21st century policing
    Question. Please describe how the FBI will incorporate the 
recommendations of the President's Task Force on 21st Century Policing 
into its existing training programs for State and local law 
enforcements, in particular those recommendations related to improving 
community relations, developing appropriate use of force standards, 
encouraging the adoption of ``least harm'' preferences and the use of 
less than lethal technology, and addressing racial and other profiling 
and bias in policing.
    Lead-in information from original document.--
          The interim report of the President's Task Force on 21st 
        Century Policing provides numerous recommendations to Federal 
        law enforcement and other agencies, including the FBI, to help 
        change law enforcement culture, increase community 
        collaboration and engagement, develop new technology, support 
        training, and promote officer safety and wellness. As trusted 
        partners to State and local law enforcement, FBI and the 
        Justice Department have a unique opportunity to leverage their 
        expertise and resources to help drive change in law enforcement 
        at all levels and throughout country.

    Answer. The FBI will continue to work with DOJ and the 
administration to implement the recommendations of the President's Task 
Force on 21st Century Policing report. The FBI will focus on 
partnership engagement and the reports key topics: building law 
enforcement trust and legitimacy, potential policy changes, technology 
and social media enhancements, community policing and crime reduction 
practices, training and educational opportunities, and officer wellness 
and safety. To date the FBI National Academy Advisory Board has met on 
multiple occasions to discuss the final report as well as how the 
National Academy Training program can incorporate recommendations into 
its curriculum. The FBI continues to coordinate efforts with the 
International Association of Chiefs of Police (IACP), the National 
Sheriffs' Association, and other law enforcement associations to build 
additional support for increased participation among local, State, and 
tribal partners. Also, the FBI understands the importance of uniformed 
crime reporting and will continue to work to increase implementation of 
the National Incident-Based Reporting System (NIBRS). Overall the FBI 
will continue to engage its partners in the law enforcement community 
on these issues and will continue to strive to lead by example.
    Question. Please describe how the FBI and the Department of Justice 
will continue to engage members of law enforcement, community leaders 
and others in implementing the recommendations of the President's Task 
Force and identifying additional areas for potential improvements in 
police practices.
    Lead-in information from original document.--
          The interim report of the President's Task Force on 21st 
        Century Policing provides numerous recommendations to Federal 
        law enforcement and other agencies, including the FBI, to help 
        change law enforcement culture, increase community 
        collaboration and engagement, develop new technology, support 
        training, and promote officer safety and wellness. As trusted 
        partners to State and local law enforcement, FBI and the 
        Justice Department have a unique opportunity to leverage their 
        expertise and resources to help drive change in law enforcement 
        at all levels and throughout country.

    Answer. The FBI will continue to work with DOJ and the 
administration to implement the recommendations of the President's Task 
Force on 21st Century Policing report. The FBI will focus on 
partnership engagement and the reports key topics: building law 
enforcement trust and legitimacy, potential policy changes, technology 
and social media enhancements, community policing and crime reduction 
practices, training and educational opportunities, and officer wellness 
and safety. To date the FBI National Academy Advisory Board has met on 
multiple occasions to discuss the final report as well as how the 
National Academy Training program can incorporate some of the 
recommendations into its curriculum. The FBI continues to coordinate 
efforts with the International Association of Chiefs of Police (IACP), 
the National Sheriffs' Association, and other law enforcement 
associations to build additional support for increased participation 
among local, State, and tribal partners. Also, the FBI understands the 
importance of uniformed crime reporting and will continue to work to 
increase implementation of the National Incident-Based Reporting System 
(NIBRS). Overall the FBI will continue to engage its partners in the 
law enforcement community on these issues and will continue to strive 
to lead by example.
    Question. Please describe how the FBI or other Department of 
Justice components will use current grant programs to incentivize the 
adoption of the Task Force's recommendations by State and local law 
enforcement agency grantees, and what additional funding, either for 
existing grants or new programs, would support the implementation of 
the recommendations.
    Lead-in information from original document.--
          The interim report of the President's Task Force on 21st 
        Century Policing provides numerous recommendations to Federal 
        law enforcement and other agencies, including the FBI, to help 
        change law enforcement culture, increase community 
        collaboration and engagement, develop new technology, support 
        training, and promote officer safety and wellness. As trusted 
        partners to State and local law enforcement, FBI and the 
        Justice Department have a unique opportunity to leverage their 
        expertise and resources to help drive change in law enforcement 
        at all levels and throughout country.

    Answer. The FBI will continue to work with DOJ and the 
administration to implement the recommendations of the President's Task 
Force on 21st Century Policing report. The FBI will focus on 
partnership engagement and the reports key topics: building law 
enforcement trust and legitimacy, potential policy changes, technology 
and social media enhancements, community policing and crime reduction 
practices, training and educational opportunities, and officer wellness 
and safety. To date the FBI National Academy Advisory Board has met on 
multiple occasions to discuss the final report as well as how the 
National Academy Training program can incorporate some of the 
recommendations into its curriculum. The FBI continues to coordinate 
efforts with the International Association of Chiefs of Police (IACP), 
the National Sheriffs' Association, and other law enforcement 
associations to build additional support for increased participation 
among local, State, and tribal partners. Also, the FBI understands the 
importance of uniformed crime reporting and will continue to work to 
increase implementation of the National Incident-Based Reporting System 
(NIBRS). The FBI is working with DOJ on a funding strategy for States 
to implement NIBRS. Overall the FBI will continue to engage its 
partners in the law enforcement community on these issues and will 
continue to strive to lead by example.
                                 ______
                                 
              Questions Submitted to Hon. Stacia A. Hylton
                     UNITED STATES MARSHALS SERVICE
            Questions Submitted by Senator Richard C. Shelby
                         adam walsh act funding
    Question. How successful has the Marshals Service been in recent 
years in apprehending fugitive sex offenders?
    Lead-in information from original document.--
          The Adam Walsh Child Protection and Safety Act tasks the 
        Marshals Service with apprehending fugitive sex offenders--
        convicted criminals who have committed heinous acts and are 
        required to maintain updated registration records about 
        themselves. The 2016 budget requests $61 million for the 
        Marshals Service Sex Offender investigators, which includes 
        additional funds for training, operations, software licensing, 
        and computer database fees to help agents do their jobs more 
        effectively.

    Answer. In fiscal year 2014, USMS arrested 11,206 fugitive sex 
offenders, which resulted in the clearance of 13,345 warrants. As of 
the second quarter of fiscal year 2015, USMS has arrested 3,836 
fugitive sex offenders and cleared 5,448 outstanding warrants.
    In addition, the USMS Sex Offender Investigations Branch has 
obtained 4,130 warrants for Federal prosecution of AWA-related 
offenses, and has cleared 3,362 (81 percent) of those warrants by USMS 
arrest since fiscal year 2006.
    Question. How would this increased funding in 2016 help to catch 
more fugitive sex offenders?
    Lead-in information from original document.--
          The Adam Walsh Child Protection and Safety Act tasks the 
        Marshals Service with apprehending fugitive sex offenders--
        convicted criminals who have committed heinous acts and are 
        required to maintain updated registration records about 
        themselves. The 2016 budget requests $61 million for the 
        Marshals Service Sex Offender investigators, which includes 
        additional funds for training, operations, software licensing, 
        and computer database fees to help agents do their jobs more 
        effectively.

    Answer. The program increase of $4.7 million for fiscal year 2016 
will provide:
  --Operational support for costs associated with investigative 
        coordination among the USMS and participating State and local 
        law enforcement agencies.
  --Funding for basic and advanced sex offender investigative 
        coordinators training and other courses necessary to provide 
        continuing education to the USMS Sex Offender Investigators.
  --Funding for technology development required by investigators to 
        fulfill the AWA mission.
    The additional funding would help increase fugitive sex offender 
arrests and result in more Federal cases presented to the U.S. 
Attorneys' Offices for prosecution of 18 U.S.C. Sec. 2250. As part of 
the USMS AWA mission, the USMS works with its State, local, tribal, and 
territorial counterparts to carry out operations to identify non-
compliant sex offenders.
    In addition, increased funding would allow the USMS to expand its 
outreach to more tribal territories and further assist them in 
strengthening their compliance efforts on tribal lands.
    Without this increase, static operational funds will limit 
increased collaboration with partners and restrict travel for 
interviews and evidence, which may impact successful prosecutions.
    Question. How does the Marshals Service staff coordinate with State 
and local law enforcement agencies to achieve better results in the 
apprehension of these fugitives?
    Lead-in information from original document.--
          The Adam Walsh Child Protection and Safety Act tasks the 
        Marshals Service with apprehending fugitive sex offenders--
        convicted criminals who have committed heinous acts and are 
        required to maintain updated registration records about 
        themselves. The 2016 budget requests $61 million for the 
        Marshals Service Sex Offender investigators, which includes 
        additional funds for training, operations, software licensing, 
        and computer database fees to help agents do their jobs more 
        effectively.
    Answer. The AWA mandates that the USMS assist State, local, tribal, 
and territorial agencies in locating and apprehending sex offenders who 
violate their sex offender registration requirements. To accomplish 
this mission, the USMS has more than 100 deputies who are assigned to 
investigate non-compliant sex offenders on a full-time basis. These 
deputies are in regular contact with their State, local, tribal, and 
territorial counterparts who administer their respective sex offender 
registries.
    In fiscal year 2015, the USMS, in a coordinated effort with its 
National Sex Offender Targeting Center (NSOTC), will be conducting two 
separate three-day training sessions devoted solely to State and local 
sex offender investigators. This training will help familiarize 
personnel with the USMS AWA mission and encourage them to utilize the 
resources of the USMS in their sex offender compliance mission. 
Additionally, the USMS and NSOTC plan to coordinate at least two 
separate tribal working groups, which will bring together USMS, State, 
local, and tribal officials to discuss differences in sex offender 
compliance efforts and ways to better coordinate them. The NSOTC is 
also working with the Department of Defense (DOD), to share its 
institutional knowledge to properly implement the Sex Offender 
Registration and Notification Act (SORNA). The NSOTC has initially 
selected seven major installations to facilitate the transition and 
implementation of the SORNA. To date, the USMS has helped conduct two 
military outreach sessions at Ft. Hood, Texas, and Joint Base McChord, 
Washington.
    In fiscal year 2014, the USMS assisted in 355 compliance and 
enforcement operations, including 26 operations on tribal lands. To 
date, in fiscal year 2015, the USMS has assisted in 155 compliance and 
enforcement operations, including five on tribal lands. Since the 
inception of the AWA in 2006, the USMS has assisted with the execution 
of 1,775 compliance and enforcement operations resulting in compliance 
checks of more than 253,000 sex offenders. These operations are 
conducted not only to locate and apprehend non-compliant sex offenders, 
but are also designed to assist the State, local, and tribal agencies 
maintain a more accurate and current sex offender registry. To 
accomplish this, the USMS has partnered with more than 31,000 law 
enforcement officers from over 8,100 State, local, tribal, and 
territorial agencies.
                                 ______
                                 
           Question Submitted by Senator Barbara A. Mikulski
               stopping human trafficking and pedophiles
    Question. How many Deputy U.S. Marshals are currently dedicated to 
full-time Adam Walsh Act enforcement? What additional resources or 
authorities are needed to track and arrest the over 100,000 non-
compliant sex offenders in the United States?
    Answer. In fiscal year 2015, the USMS has 150 fully dedicated 
personnel working on Adam Walsh Act enforcement activities, including 
132 Deputy U.S. Marshals covering each judicial district in the United 
States. The support staff involved in everyday operations of the AWA 
mission is equally as vital. Analysts and administrative employees 
assist those investigators in the field and provide critical support in 
order to achieve this enforcement mission. The USMS believes that the 
current staffing level provides adequate coverage to go after the 
``worst of the worst'' offenders. Subsequent budget requests will re-
examine staffing levels based on workload, change in business 
practices, recent statutes and mandates, and audit findings, to ensure 
that resources are necessary to track and arrest an estimated 100,000 
non-compliant sex offenders of the approximately 819,218 sex offenders 
living in the United States.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                           counter gang units
    Question. How are the Marshals prepared and planning to continue 
this program and what resources are required to maintain these units 
dedicated to gang enforcement?
    Lead-in information from original document.--
          I commend the Marshals Service for having a Counter Gang Unit 
        up and running in the Great Lakes Regional Task Force that 
        serves Chicago. In fiscal year 2015, Congress appropriated $7.5 
        million to the Marshals Service to form Counter Gang Units in 
        each of the seven regional task forces to combat gangs; 
        however, your fiscal year 2016 budget request does not 
        specifically set aside funds for counter gang units.

    Answer. The USMS has taken proactive measures to continue running 
its Gang Enforcement Program. These measures have been built upon the 
initial $7.5 million from USMS base resources in fiscal year 2014. In 
the 2015 Senate Appropriations Committee Report (H.R. 113-181), the 
subcommittee directed that with the amount provided in the budget 
request, the USMS shall dedicate no less than $5 million to operate 
anti-gang investigative units within the RFTFs, including supporting 
the supervisory, operational, equipment, and training needs of these 
units, in order to target gangs of national significance.
    Currently, each of the seven USMS Counter Gang Units (CGUs) is 
operating on a daily basis to identify, target, disrupt or dismantle 
violent street gangs. The CGUs were established within the existing 
infrastructure of each of the USMS Regional Fugitive Task Forces 
(RFTFs). These highly unique and specialized units operate efficiently 
and effectively with long standing partnerships with Federal, State, 
and local law enforcement agencies. Expenses, such as overtime, vehicle 
and equipment purchases, and training, incurred by the USMS's State and 
local partners are primarily funded by the Asset Forfeiture Program's 
Joint Law Enforcement Operations (JLEO).
    Question. Can you elaborate upon the successes of your counter gang 
program over the last fiscal year?
    Lead-in information from original document.--
          I commend the Marshals Service for having a Counter Gang Unit 
        up and running in the Great Lakes Regional Task Force that 
        serves Chicago. In fiscal year 2015, Congress appropriated $7.5 
        million to the Marshals Service to form Counter Gang Units in 
        each of the seven regional task forces to combat gangs; 
        however, your fiscal year 2016 budget request does not 
        specifically set aside funds for counter gang units.

    Answer. Since establishing the seven CGUs in fiscal year 2014, 
these units have been responsible for the arrest of more than 1,500 
gang members, as well as the seizure of more than $830,000 in U. S. 
currency, 16 kilograms of illegal narcotics, and more than 170 illegal 
firearms. Additionally, the Technical Operations Group (TOG) assigned 
to the CGUs has been responsible for more than 400 additional arrests 
of violent offenders.
    The success of the CGUs is built on the ability to target the most 
violent and dangerous offenders and by continuing to disrupt and 
dismantle the prevalent gangs that are causing the conflicts within 
local communities. By going after and weeding out the most pernicious 
gang members, the USMS and its law enforcement partners are able to 
make a positive difference in the affected communities. The CGUs, 
combined with resources from a variety of law enforcement agencies, 
operate as a cohesive powerhouse of intellect, knowledge, and 
investigative expertise.
    Question. Going forward how can this subcommittee further assist 
the Marshals Service in the apprehension of not just gang members, but 
human traffickers, cyber criminals, and other fugitives?
    Lead-in information from original document.--
          I commend the Marshals Service for having a Counter Gang Unit 
        up and running in the Great Lakes Regional Task Force that 
        serves Chicago. In fiscal year 2015, Congress appropriated $7.5 
        million to the Marshals Service to form Counter Gang Units in 
        each of the seven regional task forces to combat gangs; 
        however, your fiscal year 2016 budget request does not 
        specifically set aside funds for counter gang units.

    Answer. The USMS appreciates the subcommittee's continued support 
to its enforcement missions. The USMS will continue its Counter Gang 
Unit operations within the Regional Fugitive Task Forces in fiscal year 
2016. The subcommittee can further assist the Marshals Service 
apprehend human traffickers, cyber criminals, and other fugitives by 
supporting the President's budget request.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
 assets forfeiture fund vs federal prisoner detention funds to sustain 
                                 costs
    Question. Will the U.S. Marshals be able to sustain their costs by 
continuing to use the Asset Forfeiture Funds as opposed to the Federal 
Prisoner Detention (FPD) funds?
    Answer. In fiscal year 2014, the Assets Forfeiture Fund received a 
one-time deposit of $1.2 billion related to a civil forfeiture action 
against Toyota Motor Corporation, resulting in excess unobligated 
balances in the account. In fiscal year 2015, those excess balances 
will be depleted because they are being used for Federal Prisoner 
Detention related expenses, pursuant to The Consolidated and Further 
Continuing Appropriations Act, 2015. The Assets Forfeiture Program does 
not currently project any excess unobligated balances in fiscal year 
2016. Although excess forfeiture funds are not available in fiscal year 
2016, the USMS would be able to sustain its projected detention costs 
for fiscal year 2016 if the USMS is provided FPD funding at the 
President's Budget level of $1.4 billion.
             u.s. marshals service special operations group
    Question. Can you discuss your Special Operations Group and their 
support to domestic and international missions?
    Answer. The U.S. Marshals Service Special Operations Group (SOG) is 
a flexible, modernized unit with a diverse skill set that conducts 
specialty operations in any environment both within and outside the 
United States. The SOG comprises competitively selected Deputy U.S. 
Marshals that receive specialized training used to enhance the tactical 
capabilities of the Marshals Service both domestically and 
internationally. The SOG is often requested by other law enforcement 
agencies and the Marshals Service to bring its distinctive skills to 
support special missions. Modern law enforcement must have the 
capability to defend against dangerous criminals that often have 
considerable weaponry, tactical advantage and intent to use these 
weapons against law enforcement and the public. The SOG has the 
capacity to strengthen and reinforce standard law enforcement against 
these dangerous criminals. The SOG is different from a standard Special 
Weapons and Tactics (SWAT) unit. A SWAT unit operates in a singular 
environment with a limited scope of authority in support of local law 
enforcement whereas the SOG is a national support unit capable of 
responding anywhere in the United States and abroad in support of 
enforcement operations as well as humanitarian relief and national 
crises.
Notable Domestic Operations:
  --Capture of Eric Frein.--The SOG personnel were involved in the 
        manhunt and capture of Eric Frein in Pennsylvania. Frein is 
        accused of assassinating Pennsylvania State Trooper Jamie 
        Dickson and wounding another Trooper before his capture.
  --Ferguson, Missouri.--The SOG deployed to support Ferguson, MO 
        during the civil unrest. The mission was to protect the Federal 
        courthouse and DOJ attorneys who met with Ferguson city 
        officials and the Michael Brown family when the verdict was 
        delivered.
  --Boston Marathon Bomber.--The SOG has sole responsibility for the 
        transport and custody of Dzhokhar Tsarnaev. SOG is currently 
        providing a quick reaction force and overall security to the 
        ongoing trial in the Federal District of Massachusetts.
  --Libyan Terrorist Abu Khatallah.--The SOG is providing security and 
        trial transportation for this high risk prisoner who is accused 
        of murdering U.S. Ambassador Christopher Stevens and three 
        American security officers in Benghazi, Libya in 2012.
  --Gang Enforcement.--Conducted multiple rotations to assist in the 
        national gang enforcement operation known as VR-7 (violence 
        reduction--7 cities) at multiple locations throughout the 
        United States.
  --Heroin.--In the Federal District of Arizona, the SOG members 
        executed search and arrest warrants against high value Mexican 
        Cartel members involved in smuggling weapons, cocaine, heroin, 
        and methamphetamines.
Notable International Operations:
  --Iraq.--From 2003 to 2009, the SOG was responsible for establishing 
        judicial security throughout Iraq. During this timeframe, this 
        unit coordinated all security for the prosecution of Saddam 
        Hussein. The SOG deputies protected international attorneys, 
        Iraqi trial judges, and U.S. Department of Justice personnel 
        assigned to assist in the trial.
  --Afghanistan.--From 2007 until 2014, the SOG was tasked with 
        creating and sustaining the judicial security unit of the 
        Afghan National Police. This unit started with 6 officers and 
        by the end of SOG's withdrawal from Afghanistan in 2014, the 
        unit was fully staffed with 1,063 fully equipped personnel 
        trained in current methods and procedures for judicial 
        security.
  --The SOG was called on to provide additional protection for the U.S. 
        Drug Czar during his trips to Afghanistan.
  --The SOG supported the Office of National Drug Control Policy 
        (ONDCP) with tactical personnel while the Director of ONDCP 
        traveled to the opium poppy fields in the Helmand Province.
  --Kenya.--The SOG conducted a high risk extradition from Nairobi, 
        Kenya to the United States which required a level of 
        sophisticated medical knowledge that is a part of the unit's 
        training.
  --Mexico.--The SOG assisted USMS Investigative Operations Division, 
        International Investigations Branch with the Merida Training 
        program in Mexico. This unit provided instruction to the 
        Mexican Federal Police Advanced Special Response Teams (SRT). 
        Classes included driving, dignitary protection, tactical 
        shooting, building entry and tactical trauma medicine.
  --Colombia.--In fiscal year 2014, the SOG began its assistance to the 
        USMS Training Division with Operation Plan Colombia. The SOG 
        provided instructors and subject matter experts to assist with 
        the dignitary and witness protection training.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                      usms surveillance technology
    Question. Under the USMS's current policies relating to the use of 
cell-site simulators, how many times has the USMS employed such a 
device without prior court approval, and what were the reasons for 
doing so? What is the policy regarding retention of data?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The Department is committed to using all law enforcement 
resources in a manner that is consistent with the requirements and 
protections of the Constitution and other legal authorities, and with 
appropriate respect for privacy and civil liberties. We are likewise 
committed to ensuring that the Department's practices are lawful and 
respect the important privacy interests of the American people.
    The Department's law enforcement components have provided multiple 
briefings to Congressional Oversight Committee staff. These briefings 
were held to provide the requested information about certain sensitive 
law enforcement tools and techniques while avoiding making public the 
use of any specific, sensitive equipment and techniques that may be 
deployed in furtherance of law enforcement missions. To do so would 
allow kidnappers, fugitives, drug smugglers, and certain suspects to 
determine our capabilities and limitations in this area. Although we 
cannot discuss here the specific equipment and techniques that we may 
use, we can assure you that to the extent the Department's law 
enforcement components deploy certain technologies in investigations, 
we are committed to using them consistent with the Constitution and 
Federal law. Finally, the Department is in the process of examining its 
policies to ensure that they reflect our continuing commitment to 
conducting its vital missions while according appropriate respect for 
privacy and civil liberties.
    Question. Since 2001, how many cell-site simulators has the USMS 
purchased or obtained from another Government agency? What has been the 
cost, per year, for the acquisition, maintenance and deployment of the 
USMS's cell-site simulators?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The Department is committed to using all law enforcement 
resources in a manner that is consistent with the requirements and 
protections of the Constitution and other legal authorities, and with 
appropriate respect for privacy and civil liberties. We are likewise 
committed to ensuring that the Department's practices are lawful and 
respect the important privacy interests of the American people.
    The Department's law enforcement components have provided multiple 
briefings to Congressional Oversight Committee staff. These briefings 
were held to provide the requested information about certain sensitive 
law enforcement tools and techniques while avoiding making public the 
use of any specific, sensitive equipment and techniques that may be 
deployed in furtherance of law enforcement missions. To do so would 
allow kidnappers, fugitives, drug smugglers, and certain suspects to 
determine our capabilities and limitations in this area. Although we 
cannot discuss here the specific equipment and techniques that we may 
use, we can assure you that to the extent the Department's law 
enforcement components deploy certain technologies in investigations, 
we are committed to using them consistent with the Constitution and 
Federal law. Finally, the Department is in the process of examining its 
policies to ensure that they reflect our continuing commitment to 
conducting its vital missions while according appropriate respect for 
privacy and civil liberties.
    Question. Does the USMS maintain its own license plate reader 
database? If so, how long has the database been operational and what 
are the policies and procedures in place that govern the collection and 
use of the data? How many cameras are in the network? What other law 
enforcement agencies, if any, have access to this database?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The USMS deploys the License Plate Reader (LPR) system in 
support of its fugitive and Adam Walsh Act investigations. The LPR 
assists in locating vehicle tags associated with fugitives or in 
locating sex offenders who are in violation of the registry status in 
order to affect an arrest. This system is only operational on one 
computer in one vehicle that is operationally used in West Virginia by 
the USMS.
    The LPR, when operating, enables the uploading of photographic 
image of the license plate. This data is stored on a laptop hard drive 
and is not accessible on the laptop after 30 days from the date the tag 
is identified. The license plate photograph is uploaded through a 
secure server to a database managed by the West Virginia State Police 
(WVSP) which may be queried by specifically authorized law enforcement 
personnel.
    LPR data query in the WVSP system is available to law enforcement 
agencies for criminal investigation purposes only. Member agency users 
in the WVSP LPR system also have access to query LPR data in accordance 
with WVSP policy governing the statewide LPR system. The USMS is 
dedicated to ensuring the data is managed in such a way as to meet 
public safety needs while protecting individuals' privacy interests.
                                 ______
                                 
            Questions Submitted to Hon. Michele M. Leonhart
                    DRUG ENFORCEMENT ADMINISTRATION
            Questions Submitted by Senator Richard C. Shelby
               international drug enforcement priorities
    Question. How would this new capacity target the financial 
infrastructure of drug trafficking organizations abroad?
    Lead-in information from original document.--
          The Drug Enforcement Administration has agents in 86 
        countries with resident offices located in 67 countries. DEA's 
        2016 budget includes a $12 million increase to enhance 
        financial investigations within the Special Operations Division 
        and the Sensitive Investigative Units.

    Answer. DEA's Bilateral Investigations Unit (BIU) is organized into 
four Regional Groups and a Financial Investigative Team to focus on the 
financial aspects of the BIU investigations. The BIUs use investigative 
tools and techniques to disrupt key financial command and control 
nodes. These tools include reverse money laundering operations; 
Attorney General Exempted Operations (AGEOs); undercover shelf 
accounts; moving and monitoring Trafficker Directed Funds; and asset 
identification/seizure. The BIU is staffed and supported by existing 
SOD personnel and resources. These extra-territorial enforcement groups 
play a vital role to investigate, indict, capture, and convict the most 
significant foreign-based narco-terrorists, drug traffickers, 
terrorists and transnational criminals that threaten U.S. National 
Security interests and impact the world's drug supply.
    The BIU's four Regional Groups are organized geographically as 
follows: OSNA (Africa); OSNB (Asia); OSNC (Latin America/Central 
America/Caribbean); OSNE (Europe). Each Group is comprised of senior 
Special Agents and Analysts who deploy to foreign locations and conduct 
highly sensitive proactive criminal investigations. These DEA BIU 
Groups have produced impressive case results, including the arrests of 
arms trafficker Viktor Bout and arms trafficker and terrorist Monzer Al 
Kassar.
    Attacking the financial infrastructure of these criminals and their 
organizations is key to enhancing the BIUs' effectiveness. While the 
BIUs' efforts to enlist various financial investigative techniques as a 
means to disrupt key financial command and control nodes have been 
successful, these efforts have been ad hoc. To increase the BIU's 
effectiveness, DEA is seeking to establish a Financial Investigative 
Team (OSNF) comprised of 5 Special Agents, 2 Intelligence Analysts, 1 
Program Analyst, and administrative support personnel, to complement 
the investigations of the BIU Regional Groups. The Financial 
Investigative Team investigations would be proactive and would enhance 
current investigations of BIU Regional Groups. The intent is that the 
Special Agents in the new Financial Investigative Team will support the 
financial angle of the investigations conducted by the Regional Groups 
with financial expertise. The Team will focus primarily on the 
financial networks of investigative targets of a particular regional 
Regional Group.
    Question. How would additional funding for Sensitive Investigative 
Units be used to build upon the current framework of almost 900 
participating local law enforcement officers in 13 countries?
    Lead-in information from original document.--
          The Drug Enforcement Administration has agents in 86 
        countries with resident offices located in 67 countries. DEA's 
        2016 budget includes a $12 million increase to enhance 
        financial investigations within the Special Operations Division 
        and the Sensitive Investigative Units.

    Answer. The Sensitive Investigative Unit (SIU) Program is a 
comprehensive international drug enforcement initiative involving 13 
countries and over 40 SIU enforcement groups staffed by over 900 host 
nation local law enforcement officers. SIU participants are able to 
remain in the program for up to 5 years.
    Since the program's inception in four countries in 1996, the SIU 
has had the same baseline budget of approximately $20 million per year. 
DEA's program has become the model for other U.S. law enforcement 
agencies and ally countries (U.K., France, Germany) operating overseas 
and has led to expansion into additional countries.
    Additional funding will be used to maintain the current framework 
and capabilities of the 13 Sensitive Investigative Units (SIUs) and 
participating local law enforcement officers. Specifically, this 
funding will support the following SIU requirements:
  --Recurring maintenance costs: projected inflationary increases will 
        impact rental payments, building maintenance requirements, and 
        furniture purchases for SIU facilities and safe houses. These 
        facilities are critical for ongoing operations in SIU overseas 
        locations. Additional funding will cover these escalating 
        overhead costs and provide the necessary operational resources 
        for local law enforcement officers assigned to all 13 SIUs.
  --Training: SIU Basic and Advanced training courses are required for 
        all SIU local law enforcement officers. Currently, the average 
        wait time for an SIU Basic Training course is 18-24 months. 
        Additional funding would alleviate a significant backlog of SIU 
        members waiting to complete the required operational and 
        technical training, which would result in the wait time being 
        reduced to approximately 12 months.
  --Vetting and program reviews: all SIU members are required to 
        undergo periodic re-vetting; therefore, additional resources 
        will allow for polygraph testing of these members every 2 
        years. Additional funding will also support cyclical program 
        reviews necessary to evaluate and monitor SIU facilities, 
        financial management processes, personnel records, physical 
        security, vetting processes, and other administrative 
        procedures.
  --Foreign judicial wire intercept maintenance/upgrades: the SIU 
        Program utilizes foreign judicial wire intercept systems to 
        investigate high-level international criminal and drug 
        trafficking organizations. Additional funding would support 
        essential hardware refreshes for the judicial wire intercept 
        systems located in Colombia, Paraguay, the Dominican Republic, 
        and Panama. Additional funding will also support the 
        enhancement of the judicial wire intercept system in Honduras 
        and the establishment of a new system in Nigeria.
  --SIU Net database upgrade: SIU Net is an automated database/
        repository used to collect SIU member biographical information, 
        training requirements, significant investigative 
        accomplishments, equipment, and vetting results (polygraph, 
        drug testing, and human rights checks). Additional funding 
        would be used for upgrading the inventory tracking element of 
        the SIU database.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
  dea organized crime gang unit within the special operations division
    Question. How does the DEA ensure that resources are directed at 
this unit?
    Lead-in information from original document.--
          I appreciate the DEA's mission to enforce our Nation's drug 
        laws and fighting gangs of national significance who deal in 
        illegal narcotics is key to that mission. It is my 
        understanding that the Organized Crime: Gangs section within 
        the Special Operations Division (SOD) is the only unit within 
        SOD to concentrate on domestic enforcement.

    Answer. SOD as a whole supports domestic field enforcement by 
providing vital information for investigative and enforcement 
activities directed against major national and transnational 
trafficking organizations, not just its gang section. SOD's mission is 
to establish seamless law enforcement strategies and operations aimed 
at dismantling national and international trafficking organizations by 
attacking their command and control communications. SOD is able to 
facilitate coordination and communication among DEA divisions and 
participating agencies with overlapping investigations and ensure 
tactical and strategic intelligence is shared between DEA and SOD's 
participating agencies.
    Prior to the merger with SOD in fiscal year 2010, the National Gang 
Targeting, Enforcement, & Coordination Center (GangTECC) had no 
dedicated operating budget with which to provide any type of support to 
investigations. Since coming under the operational direction of SOD, 
GangTECC has been able to provide increased support to these violent 
urban organized crime investigations based on SOD's overall funding for 
operations.
    Prior to the merger, GangTECC supported only 100 cases in the three 
preceding fiscal years combined. Since then, under the operational 
direction of SOD, it has successfully coordinated several high impact 
gang operations. In fiscal year 2011, GangTECC supported 102 cases that 
resulted in 853 gang arrests. Furthermore, in fiscal year 2012, with a 
broad objective to increase gang arrests by 2 percent over the fiscal 
year 2011 baseline, GangTECC supported 154 cases that accounted for 891 
gang arrests, which represented a 4.4 percent increase in arrests. In 
fiscal year 2013 with the objective increased to 5 percent, GangTECC 
supported 187 gang-related investigations that have resulted in 937 
arrests; respectively 121 and 105 percent increases over fiscal year 
2012 actuals. In fiscal year 2014, GangTECC supported 207 gang-related 
cases that have yielded 803 arrests.
    GangTECC/Operational Section: Gangs (OSG) is working closely with 
the field offices, including State and local law enforcement, in order 
to identify the complete structure of gang networks. The goal of this 
strategy is to be able to fully identify the complete picture of the 
organization and their affiliates--cartel leadership, plaza bosses, the 
U.S. gatekeeper or ``chokepoint'' through which the cartels funnel the 
drugs to the the street-level urban crime distribution networks which 
directly impact local neighborhoods. Specifically, SOD/OSG is focusing 
its efforts on the most violent of these urban organized crime networks 
for maximum local impact to the communities; however, as these 
investigations are multi-pronged and span multiple jurisdictions and 
countries, OSG conducts these investigations in coordination with 
multiple sections at SOD and all the domestic field divisions, as well 
as several foreign offices.
                       controlled substances act
    Question. Why has the DEA and the Department of Justice not 
complied with provisions in the Controlled Substances Act, 
specifically, ``The recommendations of the Secretary to the Attorney 
General shall be binding on the Attorney General as to such scientific 
and medical matters, and if the Secretary recommends that a drug or 
other substance not be controlled, the Attorney General shall not 
control the drug or other substance'' (21 U.S.C.A. ss 811 (West))?
    Lead-in information from original document.--
          In January 2011, the Food and Drug Administration (FDA) 
        approved and recommended for decontrol, the imaging agent 
        DaTscan to be used in the medical community to differentiate 
        between essential tremor and Parkinson's disease. DaTscan 
        inherited its Schedule II controlled status because it contains 
        trace amounts of lofupane, a cocaine derivative. The DEA has 
        refused to decontrol DaTscan despite the FDA's recommendation.

    Answer. In November, 2010, the Department of Health and Human 
Services (HHS) sent to DEA a scheduling recommendation accompanied by a 
scientific and medical evaluation. HHS recommended that Food and Drug 
Administration-approved products containing [\123\I]ioflupane 
(currently, only DaTscan) be removed from schedule II of the Controlled 
Substances Act (CSA). The facts in support of the HHS recommendation 
and evaluation required DEA and HHS to collaborate before DEA could 
move forward with the recommendation. In the interim, DEA published an 
interim final rule to provide an exemption from registration to persons 
administering the drug product DaTscan if they are authorized under 
U.S. Nuclear Regulatory Commission or Agreement State medical use 
licenses or permits. 79 FR 70085. This rule was intended to alleviate 
the regulatory burdens on those administering the drug product DaTscan, 
which means that patients have a greater chance of receiving important 
diagnostic testing.
    After consultations with the HHS regarding its recommendation and 
evaluation, DEA published on June 3, 2015, a notice of proposed 
rulemaking in the Federal Register, which proposes to remove 
[\123\I]ioflupane from schedule II of the CSA. The public comment 
period for this notice ended on July 6, 2015. In keeping with our 
commitment to making diagnostic agents available to as many patients as 
possible, DEA will diligently work towards responding to the comments 
received in response to the notice and in finalizing the scheduling 
action.
                   controlled substances act--datscan
    Question. When does the DEA expect to comply with the law and 
decontrol DaTscan?
    Lead-in information from original document.--
          In January 2011, the Food and Drug Administration (FDA) 
        approved and recommended for decontrol, the imaging agent 
        DaTscan to be used in the medical community to differentiate 
        between essential tremor and Parkinson's disease. DaTscan 
        inherited its Schedule II controlled status because it contains 
        trace amounts of lofupane, a cocaine derivative. The DEA has 
        refused to decontrol DaTscan despite the FDA's recommendation.

    Answer. In November, 2010, the Department of Health and Human 
Services (HHS) sent to DEA a scheduling recommendation accompanied by a 
scientific and medical evaluation. HHS recommended that Food and Drug 
Administration-approved products containing [\123\I]ioflupane 
(currently, only DaTscan) be removed from schedule II of the Controlled 
Substances Act (CSA). The facts in support of the HHS recommendation 
and evaluation required DEA and HHS to collaborate before DEA could 
move forward with the recommendation. In the interim, DEA published an 
interim final rule to provide an exemption from registration to persons 
administering the drug product DaTscan if they are authorized under 
U.S. Nuclear Regulatory Commission or Agreement State medical use 
licenses or permits. 79 FR 70085. This rule was intended to alleviate 
the regulatory burdens on those administering the drug product DaTscan, 
which means that patients have a greater chance of receiving important 
diagnostic testing.
    After consultations with the HHS regarding its recommendation and 
evaluation, DEA published on June 3, 2015, a notice of proposed 
rulemaking in the Federal Register, which proposes to remove 
[\123\I]ioflupane from schedule II of the CSA. The public comment 
period for this notice ended on July 6, 2015. In keeping with our 
commitment to making diagnostic agents available to as many patients as 
possible, DEA will diligently work towards responding to the comments 
received in response to the notice and in finalizing the scheduling 
action.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
                 prescription and synthetic drug abuse
    Question. How is DEA combatting the prescription drug epidemic as 
well as the domestic distribution of synthetic designer drugs? What 
trends do you see rising on this front and how are you preparing to 
deal with them?
    Answer. According to the 2014 National Drug Threat Assessment 
(NDTA), the threat from prescription drug abuse is persistent, and 
deaths involving prescription drug abuse outnumber those involving 
heroin and cocaine combined. The economic cost of nonmedical use of 
prescription opioids alone in the United States totals more than $53 
billion annually. Trafficking organizations, street gangs, and other 
criminal groups, seeing the enormous profit potential, have become 
increasingly involved in transporting and distributing prescription 
drugs. The number of drug overdose deaths, particularly from 
prescription drugs, has grown exponentially in the past decade and has 
surpassed motor vehicle crashes as the leading cause of injury death in 
the United States. Rogue pain management clinics (commonly referred to 
as pill mills) also contribute to the extensive availability of illicit 
pharmaceuticals in the United States. To combat pill mills and stem the 
flow of illicit substances, many States are establishing new pill mill 
legislation.
    The Office of National Drug Control Policy's (ONDCP) Prescription 
Drug Abuse Prevention Plan expands upon the current administration's 
National Drug Control Strategy and includes action in four major areas 
to reduce prescription drug abuse: education, monitoring, proper 
medication disposal, and enforcement. DEA plays an important role in 
all four of these areas.
Education
    The Department of Justice (DOJ) focuses on education as a crucial 
first step in preventing prescription drug abuse. Through its Demand 
Reduction Program, DEA delivers educational content via its Web sites 
www.GetSmartAboutDrugs.com and www.JustThinkTwice.com. These Web sites 
serve as resources to parents, caregivers, educators, professionals, 
and teens. DEA also focuses on reducing the demand for illicit drugs, 
including the abuse of prescription drugs, through its Red Ribbon Week 
programming, partnerships with other Federal, State, local and non-
profit organizations, and numerous publications made available to the 
general public.
    DEA also provides education and guidance to industry professionals 
such as pharmacists, distributors, and manufacturers by delivering 
information to registrants, professional associations, and industry 
organizations on current diversion and abuse trends of pharmaceutical 
drugs and listed chemicals. DEA also provides information and guidance 
concerning new and existing programs, policies, legislation, and 
regulations. DEA's Diversion Control Program establishes and maintains 
liaison and working relationships with other Federal agencies, State 
and local governments, regulated industries, industry organizations, 
professionals, professional associations, and regulatory boards that 
interface with DEA regarding diversion matters. In fiscal year 2014, 
DEA conducted more than 75 public education and outreach events 
regarding prescription drug abuse. Because of the importance of these 
activities in addressing prescription drug abuse, DOJ has included an 
Education and Outreach component to DEA's performance measures.
    The following reflect the kinds of outreach initiatives undertaken 
by DEA's Diversion Control Program:
    DEA, along with State regulatory and law enforcement officials, and 
in conjunction with the National Association of Boards of Pharmacy, 
hosts Pharmacy Diversion Awareness Conferences (PDACs) throughout the 
country. Each PDAC is held on Saturday or Sunday for the convenience of 
the pharmacy community. The conferences are developed and designed to 
address the growing problem of diversion of pharmaceutical controlled 
substances at the retail level. Topics addressed include pharmacy 
robberies and thefts, forged prescriptions, doctor shoppers, and 
illegitimate prescriptions from rogue practitioners, with the objective 
of educating pharmacists, pharmacy technicians, and pharmacy loss 
prevention personnel on methods to prevent and respond to potential 
diversion activity.
    During fiscal year 2013, DEA hosted 18 PDACs in eight States. 
Further, DEA hosted 16 PDACs in eight States during fiscal year 2014. 
Since DEA began hosting PDACs in 2011, more than 7,648 pharmacy 
professionals have attended these educational conferences. At this 
time, there are 16 proposed PDACs in eight States for fiscal year 2015.
    The Manufacturers/Importers/Exporters Conference held on June 18-
19, 2013, provided a forum to present Federal laws and regulations that 
affect the pharmaceutical and chemical manufacturing, importing, and 
exporting industry and to discuss practices to prevent and detect 
diversion. In addition, topics such as quotas, year-end reporting, 
Automation of Reports and Consolidated Orders System (ARCOS) reporting, 
import/export permits and import/export declarations were discussed. 
Approximately 370 people attended, representing more than 200 
registrants. There is a Manufacturers/Importers/Exporters Conference 
tentatively scheduled for September 2015.
    DEA has also held two Distributor Conferences, most recently on 
April 15-16, 2015, and previously on October 22, 2013. These 
conferences provided an overview of Federal laws and regulations that 
affect pharmaceutical and chemical distributors, such as recordkeeping, 
ARCOS, and suspicious order monitoring.
    The National Conference on Pharmaceutical and Chemical Diversion, 
held September 30 through October 1, 2014, facilitated the exchange of 
information between DEA and their State and local counterparts who 
focus on combating the diversion of pharmaceutical controlled 
substances and regulated chemicals. Over 70 people attended, including 
individuals from State and local agencies who are responsible for 
regulatory drug or chemical control as well as operational personnel 
whose investigations target the diversion of licitly manufactured 
controlled substances and regulated chemicals.
    To better assist DEA registrants with their understanding of the 
Controlled Substances Act (CSA) and implementing regulations, manuals 
are drafted and made available to the public. The manuals are not 
considered legal documents. Readers are instructed to refer to the most 
current copy of the CSA, the Narcotic Addict Treatment Act of 1974, the 
Drug Addiction Treatment Act of 2000, the Code of Federal Regulations 
(C.F.R.), and Federal Register Notices to obtain complete and accurate 
information. The Chemical Handler's Manual, Pharmacist's Manual, and 
Practitioner's Manual are available via DEA's Web site.
Monitoring
    One of the best ways to combat the rising tide of prescription drug 
abuse is through the implementation and use of Prescription Drug 
Monitoring Programs (PDMPs). PDMPs are typically State-run electronic 
database systems used by practitioners, pharmacists, medical and 
pharmacy boards, and law enforcement. These programs are established 
through State legislation and are tailored to the specific needs of a 
particular State. PDMPs help prevent and detect the diversion and abuse 
of pharmaceutical controlled substances, particularly at the retail 
level where no other automated information collection system exists. 
However, in many States with operational PDMPs, participation by 
prescribers and dispensers is voluntary, with utilization rates well 
below 50 percent.\1\ The Brandeis University Center of Excellence 
developed a PDMP Management Tool, which recommends calculating the 
number of in-State prescribers with PDMP accounts as a percentage of 
the number of in-State prescribers who issued controlled substance 
prescriptions during the prior year. Based on this calculation, for 
example, in Florida just 18 percent of the in-State prescribers who 
issued more than one controlled substance prescription have registered 
to use the database (11,408 in-State prescribers signed up for PDMP 
accounts, out of the 62,238 in-State prescribers who issued controlled 
substance prescriptions during the prior year).
---------------------------------------------------------------------------
    \1\ The Brandeis University PDMP Center of Excellence, retrieved 
12/18/14 http://www.pdmpexcellence.org/content/mandating-medical-
provider-participation-pdmps.
---------------------------------------------------------------------------
    While PDMPs are valuable tools for prescribers, pharmacists, and 
law enforcement agencies to identify, detect, and prevent prescription 
drug abuse and diversion, PDMPs do have some limits in their use for 
detecting diversion at the retail level. For example, the use of PDMPs 
is limited across State lines because interconnectivity remains a 
challenge; at the same time, as many drug traffickers and other drug 
seekers willingly travel hundreds of miles to gain easy access to 
unscrupulous prescribers and dispensers.
Proper Medication Disposal
    Prior to the passage of the Secure and Responsible Drug Disposal 
Act of 2010, enacted in October 2010 (Public Law 111-273) (Disposal 
Act), the CSA provided no legal means for ultimate users to transfer 
possession of controlled substance medications to other individuals for 
disposal. The Disposal Act amends the CSA to authorize ultimate users 
and Long Term Care Facilities (LTCFs) to deliver controlled substances 
to another authorized person for the purpose of disposal in accordance 
with regulations promulgated by DEA.
    On September 9, 2014, DEA published in the Federal Register the 
final rule on the Disposal of Controlled Substances. The final rule 
became effective on October 9, 2014, and it implements the Disposal Act 
by establishing requirements that allow authorized registrants to 
develop secure, ongoing, and responsible methods for ultimate users and 
LTCFs to dispose of pharmaceutical controlled substances. The final 
rule expands the options available to collect controlled substances 
from ultimate users for the purpose of disposal, including (1) take-
back events; (2) mail-back programs; and (3) collection receptacle 
locations. These regulations contain specific provisions that:
    Recognize the continuing authority of law enforcement agencies to 
voluntarily conduct take-back events, administer mail-back programs, 
and maintain collection receptacles; Allow authorized manufacturers, 
distributors, reverse distributors, narcotic treatment programs, 
hospitals/clinics with an on-site pharmacy, and retail pharmacies to 
voluntarily administer mail-back programs and maintain collection 
receptacles; and Allow authorized retail pharmacies and hospitals/
clinics with an on-site pharmacy to voluntarily maintain collection 
receptacles at LTCFs.
    In addition, DEA conducted nine Prescription Drug Take-Back Days 
from September 2010 to September 2014. Each take-back day provided the 
public with thousands of sites nationwide to turn in their unwanted or 
expired prescription drugs safely and securely. On September 26, 2014, 
the most recent National Prescription Drug Take-Back Day, 617,150 
pounds (309 tons) of prescription medications were collected from 
members of the public. As a result of all nine National Prescription 
Drug Take-Back Days, DEA, in conjunction with its State, local, and 
tribal law enforcement partners, removed a total of just under 4.9 
million pounds (2,411 tons) of medications from circulation. Although 
law enforcement continues to have discretion with respect to take-back 
events, DEA intends to conduct another nationwide take-back event 
during September 2015 to provide additional options for the safe and 
responsible disposal of unused medications. The new final rule on the 
Disposal of Controlled Substances provides the public with expanded 
options to safely and responsibly dispose of their unused and unwanted, 
lawfully-possessed pharmaceutical controlled substances through 
collection receptacles and mail-back packages. This rule allows for 
ongoing medication disposal, thereby ridding the home of unused or 
unwanted drugs that pose a poisoning hazard or can be diverted.
Enforcement
    DEA's Diversion Control Program is using all criminal and 
regulatory tools possible to identify, target, disrupt, and dismantle 
individuals and organizations responsible for the illicit manufacture 
and distribution of pharmaceutical controlled substances in violation 
of the CSA. The deployment of Tactical Diversion Squads (TDS) is DEA's 
primary method of criminal law enforcement in the Diversion Control 
Program. The recent expansion of the TDS program has resulted in 66 
operational TDSs throughout the United States, covering 41 States, 
Puerto Rico and the District of Columbia. These TDSs incorporate the 
enforcement, investigative, and regulatory skill sets of DEA Special 
Agents, Diversion Investigators, other Federal law enforcement, and 
State and local Task Force Officers. In fiscal years 2013 and 2014, the 
TDS Groups collectively seized $60.7 million and $51.4 million in 
assets, respectively.
    The expansion of the TDSs has enabled the Diversion Groups to 
concentrate on the regulatory aspects of the Diversion Control Program. 
DEA has increased the frequency of compliance inspections of specific 
registrant categories such as manufacturers, distributors, importers, 
exporters, narcotic treatment programs, DATA-waived practitioners, 
researchers, and chemical handlers. In fiscal year 2014, DEA entered 
into several civil settlement agreements with registrants totaling over 
$13.5 million. The various regulatory investigations involved 
distributors, pharmacies, and practitioners who were found to be in 
violation of the CSA and its implementing regulations.
Synthetic Drugs
    DEA continues to issue permanent and temporary scheduling orders to 
place emerging synthetic drugs that pose a threat under Schedule I 
control. DEA has also dedicated significant resources to support 
prosecution at the Federal level for the manufacturing and trafficking 
of synthetic drugs and controlled substance analogs, by providing 
scientific and legal support to U.S. Attorneys throughout the United 
States.
    The two most common categories of these synthetic drugs are 
synthetic cannabinoids and synthetic cathinones.
    Synthetic cannabinoids (sometimes sold under brand names such as K2 
or Spice) continue to be drugs of considerable concern. These 
depressant/hallucinogenic drugs are primarily sourced from China. 
Synthetic cannabinoid substances are typically packaged in the U.S., 
and marketed over the Internet, or supplied to retail distributors 
before being sold to the public at retail stores (e.g., ``head shops,'' 
convenience stores, gas stations, and liquor stores). Laws governing 
the legality of the substances vary widely between States and the 
chemical components are frequently altered, making it difficult for DEA 
to schedule the substances.
    Synthetic cathinone substances fall under the phenethylamine class 
of stimulant/hallucinogenic drugs, and are marketed as ``bath salts'' 
or ``glass cleaner,'' among other street names. These substances are 
often labeled ``not intended for human consumption'' as a false means 
to defend against the Government's utilization of the Federal 
Controlled Substance Analogue Enforcement Act.
    The DEA Office of Diversion Control continuously evaluates non-
controlled synthetic designer drugs for scheduling. Since 2009, more 
than 300 new synthetic compounds from 8 classes of drugs have been 
encountered in the United States.
    Internationally, DEA engages the countries where synthetic designer 
drugs are being produced at a bilateral level through DEA's Country 
Attaches. The DEA is also an active and leading participant in the 
United Nations' Office on Drugs and Crime, International Narcotics 
Control Board (INCB). The INCB recently created the Project 
International Operations on New Psychoactive Substances (NPS) Task 
Force which targets New Psychoactive Substances. At the first 
operational meeting, members from 16 different countries participated, 
including China, which provided over 2,000 investigative leads to the 
participants of this meeting as well as 40 other countries where 
synthetic designer drugs were sent.
    DEA is actively engaged through the Department of State in the 
annual meeting at the United Nations' Commission on Narcotic Drugs. At 
the 2014 meeting, the U.S. Government sponsored a resolution titled 
``Enhancing international cooperation in the identification and 
reporting of new psychoactive substances and incidents involving such 
substances.'' This resolution will assist U.N. member states to address 
the issue of synthetic designer drugs.
                               meth labs
    Question. I understand that meth labs play a significant role in 
crime in Arkansas and there has been a substantial increase in the 
number of them in the United States. What are the trends you are seeing 
in domestic meth lab cases and how is that affecting your budget 
requirements?
    Answer. Overall, most of the methamphetamine available in the 
United States is clandestinely produced in Mexico and smuggled across 
the Southwest Border, where methamphetamine seizures continue to 
increase. The Combat Methamphetamine Epidemic Act succeeded in reducing 
``super labs'' (those that produced 10 pounds or more). Currently, most 
methamphetamine labs found in the U.S. are small ``one pot'' labs that 
produce less than 2 ounces. However, it has been difficult to easily 
identify and stop those individuals who purchase the legal limit of 
pseudoephedrine combination products and sell it to domestic 
clandestine ``one pot'' meth manufacturers, a practice known as 
``smurfing.''
    Arkansas has passed laws, the most recent in 2012, controlling the 
sales of ephedrine and pseudoephedrine within the State. In order to 
purchase these precursors in the State, an Arkansas license or Military 
identification is required. This requirement is expected to ensure that 
border State ``smurfers'' and methamphetamine manufacturers will be 
unable to travel to Arkansas to purchase precursors. Additionally, it 
eliminates some problems from the use of false identification for 
pseudoephedrine purchases. This law also requires pharmacists to 
exercise professional judgment in dispensing pseudoephedrine and 
establishes a searchable database of purchase records.
    Another trend involves Mexico-based methamphetamine trafficking 
organizations smuggling liquid methamphetamine into the United States. 
The term ``liquid methamphetamine'' refers to finished methamphetamine 
that has been dissolved in a liquid solvent or methamphetamine-in-
suspension. The smuggling methods include concealing the solution in 
vehicle batteries, gasoline tanks, windshield wiper reservoirs, liquor 
bottles, laundry and antifreeze containers, and flavored water bottles. 
Once inside the U.S., the liquid is transferred to ``processing 
personnel'' who initiate the recrystallization process by mixing it 
with a solvent such as acetone and exposing the liquid methamphetamine 
to air for a prescribed period of time. Approximately four pounds of 
crystalized methamphetamine can be obtained from one gallon of liquid 
methamphetamine. The laboratories are often located in single-family 
residences and used solely for the recovery process. Due to the 
flammability of the fumes emitted by the solvent, the recovery 
personnel cover outlets and light switches with tape to avoid sparks 
that could ignite the fumes and cause an explosion. The conversion 
process can take approximately 2 days for completion. These conversion 
labs are more difficult to identify than typical methamphetamine labs 
because the same characteristic odors are not emitted. Conversion labs 
use acetone, a common solvent easily available for purchase at most 
home improvement stores.
    The annual operating cost for meth lab cleanup has been reduced by 
51 percent since fiscal year 2010 due to the fact that 18 States have 
begun using the Authorized Central Storage Container (ACSC) program. 
Through the ACSC program, State and local authorities remove the 
hazardous waste from the clan lab sites and transport it to an ACSC 
location. The waste is then safely stored in the containers until it 
can be removed by an authorized DEA vendor for ultimate destruction. In 
fiscal year 2014, DEA reduced the annualized cost of the nationwide 
hazardous waste cleanup program by $2.0 million through continued 
expansion of the Container Program.
       asset forfeiture fund funding to dea and state and locals
    Question. How important is the Asset Forfeiture Fund to DEA as well 
as to State and local law enforcement?
    Answer. The Assets Forfeiture Fund (AFF) is a vital resource to 
DEA, both as a law enforcement tool and a funding resource. As a law 
enforcement tool, the AFF enhances public safety and allows DEA and our 
State and local counterparts to disrupt and dismantle criminal 
enterprises by removing the proceeds of crime. Without the removal of 
these assets, criminal enterprises would continue to grow and flourish, 
even if the perpetrators are convicted and imprisoned.
    From a resource perspective, the AFF provides DEA with funding 
authority to maintain its Asset Forfeiture Program, and to enhance 
DEA's most vital investigative competencies. DEA's wire intercept 
(Title III) and State and Local Task Force (S&L TF) Overtime programs 
are examples that are largely or wholly funded by the AFF. Any 
reductions to the DEA AFF budget will diminish funding for mission 
critical programs and operations and will reduce DEA's ability to 
weaken criminal organizations.
    Drug trafficking organizations skillfully use advanced 
communications technology to plan, coordinate, and execute criminal 
activities. Wire intercepts have proven to be one of law enforcement's 
best tools to disrupt and dismantle criminal entities and pursue the 
forfeiture of assets. Wire intercepts are also a valuable tool in 
criminal and civil court proceedings. Wire intercepts often provide the 
quality of evidence that is necessary for presentation in court 
proceedings. Further, once a defendant learns that DEA used wire 
intercepts in an investigation, the defendant usually agrees to a plea 
deal. The financial operations of a criminal organization are 
increasingly used in affidavits as part of the probable cause for 
initiating a wire intercept. As a result, the wire intercept plays an 
integral role in the process of targeting the financial infrastructure 
of sophisticated, highly organized drug trafficking groups.
    The State and Local Task Force Overtime program is also vital to 
DEA's overall law enforcement efforts and is paid for by the AFF. S&L 
Task Force Officers (TFOs) constitute approximately 30 percent of the 
DEA workforce and are essential to the mission of the agency. DEA task 
forces were responsible for 21 percent of all DEA cases in fiscal year 
2014, 33 percent of all arrests, and 21 percent of all disruptions and 
dismantlements. At times, these cases provide leads to many of our 
biggest national and international Priority Target Organization (PTO) 
and Consolidated Priority Organization Targets (CPOT) linked 
investigations, many of which focus on crippling the Mexican drug 
cartels. Additionally, these cases can develop into major Southwest 
Border and the Organized Crime Drug Enforcement Task Forces (OCDETF) 
cases that are the Department's highest priorities. Further, losing the 
contribution of these TFOs would equate to an estimated $162.5 million 
less in revenue denied and $102.5 million less in contributions to the 
AFF.
    DEA's El Paso Intelligence Center (EPIC) Financial Intelligence 
Group includes a Bulk Currency Team that supports active investigations 
to locate assets (bulk drug currency, other illicit currency, vehicles, 
real property, etc.) owned or controlled by traffickers and other 
criminal elements for possible seizure and forfeiture. Without the 
support and funding of the AFF, EPIC would need to reduce support for 
these investigations, many of which involve State and local law 
enforcement working with DEA.
    Without the AFF, DEA would need to significantly reduce its support 
of programs such as Title III and State and Local Overtime. These 
programs directly impact DEA's ability to disrupt and dismantle major 
drug trafficking supply organizations and their networks. The AFF also 
allows DEA to strengthen partnerships with DEA's domestic law 
enforcement counterparts to maximize the impact of its operations.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                      dea surveillance technology
    Question. Under the DEA's current policies relating to the use of 
cell-site simulators, how many times has the DEA employed such a device 
without prior court approval, and what were the reasons for doing so? 
What is the policy regarding retention of data?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The Department is committed to using all law enforcement 
resources in a manner that is consistent with the requirements and 
protections of the Constitution and other legal authorities, and with 
appropriate respect for privacy and civil liberties. We are likewise 
committed to ensuring that the Department's practices are lawful and 
respect the important privacy interests of the American people.
    The Department's law enforcement components have provided multiple 
briefings to Congressional Oversight Committee staff, and would be 
willing to provide additional briefings as requested. The briefings 
from earlier were held to provide the requested information about 
certain sensitive law enforcement tools and techniques while avoiding 
making public the use of any specific, sensitive equipment and 
techniques that may be deployed in furtherance of law enforcement 
missions. Doing so could expose our capabilities and limitations in 
this area to criminal targets. Although we cannot discuss here the 
specific equipment and techniques that we may use, we can assure you 
that to the extent the Department's law enforcement components deploy 
certain technologies in investigations, we are committed to using them 
consistent the Constitution and with Federal law. Finally, the 
Department is in the process of examining its policies to ensure that 
they reflect our continuing commitment to conducting its vital missions 
while according appropriate respect for privacy and civil liberties.
    Question. Since 2001, how many cell-site simulators has the DEA 
purchased or obtained from another government agency? What has been the 
cost, per year, for the acquisition, maintenance and deployment of the 
DEA's cell-site simulators?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The Department is committed to using all law enforcement 
resources in a manner that is consistent with the requirements and 
protections of the Constitution and other legal authorities, and with 
appropriate respect for privacy and civil liberties. We are likewise 
committed to ensuring that the Department's practices are lawful and 
respect the important privacy interests of the American people.
    The Department's law enforcement components have provided multiple 
briefings to Congressional Oversight Committee staff, and would be 
willing to provide additional briefings as requested. The briefings 
from earlier were held to provide the requested information about 
certain sensitive law enforcement tools and techniques while avoiding 
making public the use of any specific, sensitive equipment and 
techniques that may be deployed in furtherance of law enforcement 
missions. Doing so could expose our capabilities and limitations in 
this area to criminal targets. Although we cannot discuss here the 
specific equipment and techniques that we may use, we can assure you 
that to the extent the Department's law enforcement components deploy 
certain technologies in investigations, we are committed to using them 
consistent the Constitution and with Federal law. Finally, the 
Department is in the process of examining its policies to ensure that 
they reflect our continuing commitment to conducting its vital missions 
while according appropriate respect for privacy and civil liberties.
    Question. Does the DEA maintain its own license plate reader 
database? If so, how long has the database been operational and what 
are the policies and procedures in place that govern the collection and 
use of the data? How many cameras are in the network? What other law 
enforcement agencies, if any, have access to this database?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. DEA's National License Plate Reader Program (NLPRP) is a 
law enforcement system designed to enhance the ability of law 
enforcement agencies to interdict drug traffickers, money launderers, 
and other criminal activities in high drug and money trafficking 
corridors and on other public roadways throughout the United States. 
The NLPRP was first deployed by DEA in 2008 as an additional tool to 
help counter drug and money laundering threats prevalent on the 
Southwest border. It is designed to support the investigation and 
prosecution of drug trafficking organizations who covertly transport 
controlled substances and cash over land routes. NLPRP information can 
only be accessed in conjunction with authorized law enforcement 
investigative activity. LPRs have been used to successfully capture 
fugitives, seize proceeds of crime, and intercept and seize large 
shipments of illegal narcotics such as marijuana and cocaine.
    As discussed in a February 13, 2015, briefing with Senate Judiciary 
Committee staff, the information collected with a LPR is limited to 
photographic imagery obtained in a non-invasive, public manner along 
public roadways. The images capture only information that individuals 
present to the public. It is important to note that the system does not 
track people, personally identifiable information, or vehicles. The 
NLPRP is designed to contain transactional data only, which consists of 
the license plate number, State, location, date, time, and direction of 
travel. The information collected is intentionally stored in a manner 
to prevent it from being used for data mining or pattern analysis. The 
data remains available in the system for 90 days, after which time it 
is automatically purged from the system.
    As noted above, NLPRP information can only be accessed in 
conjunction with an authorized law enforcement investigative activity. 
Requests to access NLPRP collected information can only be made by 
vetted Federal, State, or local law enforcement personnel. Vetted 
personnel require supervisory approval prior to being given access to 
the system, and those making an inquiry must provide a law enforcement 
nexus to support their inquiry.
    Approved law enforcement personnel with access to the NLPRP also 
have the ability to put a tactical alert on a license plate related to 
a vehicle suspected to be involved with criminal activity. Tactical 
alerts permit users to enter a license plate and receive notification 
within 30 seconds of that plate recording a transaction on LPRs within 
the system. This near real-time capability provides an opportunity for 
a tactical law enforcement response to specific investigative or 
operational situations. The alert notification also promotes data 
sharing within the law enforcement community and serves as a de-
confliction tool. As with other NLPRP queries, a law enforcement nexus 
must be provided prior to the tactical alert being placed on a license 
plate. Over the last year, approximately 5,400 tactical alerts have 
been placed in the NLPRP.
    As discussed with your staff, the NLPRP has a variety of technical 
security measures in place such as firewalls, trusted network 
architecture, Security Technical Implementation Guidelines, and 
safeguards against cyber-attacks. Furthermore, the NLPRP has a variety 
of procedural and policy measures in place for users, including: 
account inactivity expiration at 90 days; failed access attempt count 
lockout; legal policy acceptance; required use of case numbers and/or 
reason for query; user activity logging and auditing; and controlled 
access offered only to vetted law enforcement. Finally, the NLPRP's 
design provides data protection measures to minimize the risk that any 
abuse or misuse of the system takes place, to include no support for 
searches other than on specific law enforcement targets, no support for 
data mining or pattern matching, and mandatory information collection 
such as reasons for queries and/or case numbers.
                                 ______
                                 
               Questions Submitted to Hon. B. Todd Jones
          BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES
            Questions Submitted by Senator Richard C. Shelby
   fertilizer distribution facility fire and explosion investigation
    Question. As we approach the 2-year anniversary of this tragic 
event, please estimate when the investigation will be complete and when 
findings and recommendations may be released.
    Lead-in information from original document.--
          ATF testified about the on-going investigation into the fire 
        and explosion that occurred at a fertilizer distribution 
        facility in West, Texas, on April 17, 2013.

    Answer. The investigation of the West, Texas fertilizer facility 
fire and explosion remains ongoing. ATF is working closely with the 
Texas State Fire Marshal, the agency with primary jurisdiction over the 
incident, to identify the cause and origin of the fire and explosion, 
and to make overall findings and recommendations. ATF's role includes 
providing technical analysis and expertise through the ATF Fire 
Research Laboratory (FRL) in Ammendale, Maryland, and jointly reviewing 
documentary evidence with the Fire Marshal's office in Texas. ATF, the 
Texas State Fire Marshal and other participants are working diligently 
to complete the investigation as soon as practicable. Due, however, to 
the complexity of the required technical analysis and the volume of 
records under review, it is highly unlikely that final findings and 
recommendations will be completed before the end of fiscal year 2015.
    Question. If ATF does not anticipate completing the investigation 
and releasing the findings this fiscal year, please provide the reasons 
for the delay.
    Lead-in information from original document.--
          ATF testified about the on-going investigation into the fire 
        and explosion that occurred at a fertilizer distribution 
        facility in West, Texas, on April 17, 2013.

    Answer. As noted, the complexities of the investigation are the 
primary variable impacting the timeline for its completion. In light of 
the massive devastation of the facility that resulted from the 
explosion, recreation of scene characteristics for testing has been 
time consuming. At the end of February, ATF completed large-scale tests 
that involved recreating the walls and ceilings in a possible area of 
origin for the fire. These large-scale tests enhanced the understanding 
of expert analysts regarding the potential for flame spread from this 
area to other areas in the building. The flame spread and heat release 
rates measured from these tests are being used as input for computer 
models that predict the spread of smoke and heat from the fires into 
the rest of the structure. Testing is also being conducted to measure 
the flammability properties of the materials in the fires. These 
materials tests are used as input to the computer models. The testing 
and modeling that has been completed to date has provided the 
information necessary to conduct a final phase of testing aimed at 
identification of the causation of the original fire. This final phase 
of testing will involve computer modeling and multiple experiments in a 
full scale re-creation of the seed room (the area of origin). 
Construction for these full scale tests started at the end of February. 
Our final analysis will combine the results of the fire tests with 
computer modeling to develop a comprehensive understanding of the fire 
event. The results of this testing and modeling will be crucial to 
obtaining accurate and complete findings and recommendations. ATF 
anticipates completing this final phase of testing by August 2015. Once 
the final testing takes place, the data will be analyzed over the next 
several months. With respect to investigation other than the testing 
and analysis at the FRL, ATF and the Texas State Fire Marshal are 
currently reviewing thousands of pages of documents that have become 
available as the result of ongoing civil court cases related to the 
fire. These documents include reports generated by private sector fire 
science experts and depositions of West Fertilizer employees and other 
witnesses, the information gleaned from these documents may also 
provide information essential to reaching complete and thorough final 
findings and recommendations.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
           national integrated ballistic information network
    Question. How does ATF plan to disrupt violent crime using NIBIN 
into areas of the country that have minimal resources but high levels 
of gang members and gun crime?
    Lead-in information from original document.--
          This subcommittee has highlighted and prioritized the 
        expansion and use of the National Integrated Ballistics 
        Information Network (NIBIN) in order to enhance the ATF's 
        ability to collect, report, and share ballistics intelligence 
        with Federal, State, and local law enforcement partners to 
        disrupt violent criminal activity. Last year, I toured the 
        impressive Crime Gun Center in Chicago that utilizes NIBIN 
        technology.

    Answer. As part of its implementation of regionalized Crime Gun 
Intelligence Centers (CGIC), ATF has integrated NIBIN into a 
comprehensive strategy to combat violent crime. CGICs synthesize all 
available intelligence related to crime guns in the serviced area 
(e.g., NIBIN, crime gun trace data, suspect information, cooperating 
source information, and acoustic location data), thus allowing ATF and 
its partners to target deployment of resources in the community where 
they are most needed and effective in combatting firearm violence.
    In instances where access to NIBIN is not readily available in 
individual communities, ATF provides access to NIBIN through its three 
ATF laboratories. Mechanisms to provide regional NIBIN access include 
providing funding or other resources for transportation of evidence to 
the laboratory for entry and analysis. These efforts are aimed at 
providing broad, cost-effective access to communities currently without 
NIBIN equipment while ATF pursues options for funding direct access for 
additional communities.
    Question. Can the ATF highlight the success of NIBIN in getting 
shooters out of our neighborhoods?
    Lead-in information from original document.--
          This subcommittee has highlighted and prioritized the 
        expansion and use of the National Integrated Ballistics 
        Information Network (NIBIN) in order to enhance the ATF's 
        ability to collect, report, and share ballistics intelligence 
        with Federal, State, and local law enforcement partners to 
        disrupt violent criminal activity. Last year, I toured the 
        impressive Crime Gun Center in Chicago that utilizes NIBIN 
        technology.

    Answer. Many cases highlight how NIBIN has been utilized to 
identify shooters who terrorize communities. In Denver, Colorado, for 
example, shell casings matched through NIBIN have helped lead to at 
least 35 arrests in more than 50 shootings in the last 2 years. Federal 
firearms offenses have been filed against 13 of these individuals, and 
five others have had their parole revoked.
    One of the Denver investigations demonstrates how NIBIN assists law 
enforcement in linking and solving seemingly unrelated shootings. In 
that case, police were investigating three separate shootings. The 
first shooting occurred when a woman encountered a burglar attempting 
to break into her home and threatened to call police. The perpetrator 
then fired a shot through the woman's dining room window. A short time 
later, during another home invasion, a perpetrator fired another shot 
while breaking into the home. Officers collected the spent shell 
casings from both scenes and entered them in NIBIN. Two days later, 
during the investigation of a street fight in which several shots were 
fired in the altercation, investigating officers recovered six expended 
shell casings. The NIBIN analysis of the shell casings recovered in all 
three of the shootings revealed that the same gun had been used in each 
crime. This information allowed investigators to identify and arrest a 
suspect who is now pending trial.
    A second recent example involved the shooting investigation of two 
Police Officers in Ferguson, Missouri. NIBIN played a crucial role in 
the investigation by linking the firearm used in the shooting with the 
suspect. This individual has now been charged with the attempted murder 
of two police officers. These examples illustrate the value of NIBIN in 
identifying, apprehending and prosecuting criminals involved in 
firearms violence in communities across our Nation.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
                       violence reduction network
    Question. As a response to the violent crime in Little Rock and 
West Memphis, Arkansas, and I understand that both are potentially to 
be named a VRN (Violence Reduction Network) site. Would you support 
that initiative? Would there be enough agents in Arkansas to support 
this initiative and maintain the daily operational mission?
    Answer. The Department of Justice's Office of Justice Programs, 
Bureau of Justice Assistance (BJA) makes final determinations as to 
sites included in the Violence Reduction Network (VRN). The new sites 
will be announced on September 29, 2015 at the VRN Summit in Detroit, 
Michigan. ATF closely coordinates with BJA and other VRN partners in 
evaluation of potential sites, which includes an assessment of 
available resources from participating agencies. ATF believes the VRN 
is a valuable asset to combat and reduce violent crime and is 
supportive of expanding VRN sites. With respect to the potential 
expansion of the VRN to Little Rock and West Memphis, ATF defers to 
BJA's overall assessment. ATF notes that expansion of VRN locations 
does not necessarily entail redeployment of agent resources, as the VRN 
focuses on identifying creative solutions that support local law 
enforcement efforts to reduce violent crime without straining existing 
Federal capacity. That said, ATF agent resources within the Little Rock 
Field Office that also supports the West Memphis area are currently 
operating at full capacity.
           national integrated ballistic information network
    Question. What are the benefits of NIBIN (National Integrated 
Ballistic Information Network)? Is NIBIN effective in Arkansas and how? 
Is NIBIN owned by ATF and where do you see the future of this 
technology going?
    Answer. What are the benefits of NIBIN?--NIBIN is a system of 
computer hardware and software coupled with a database which is 
employed to acquire, transmit, store, compare, and retrieve digitized 
images of firearms evidence (shell casings and projectiles). It is the 
only interstate, automated ballistic imaging network in the United 
States, and is available through more than 150 sites around the country 
to most major population centers. ATF's NIBIN program integrates the 
technological capabilities of the system with other investigative tools 
to expand its use beyond forensic comparison and matching. NIBIN is a 
key component of ATF's Crime Gun Intelligence Centers, which integrate 
NIBIN, crime gun tracing and other investigative tools to identify, 
target, and prosecute shooters and their sources of crime guns. NIBIN 
allows participating partners to conduct local, regional and national 
searches of recovered firearms evidence to quickly establish links 
between violent crimes --including links that would have never been 
identified without this technology.
    A NIBIN hit report provides law enforcement with immediate tactical 
leads and longer term strategic intelligence to assess gun crime 
patterns. Tactical leads include matching ``hits'' to link separate 
incidents to the same crime gun, often allowing investigators to 
quickly identify suspects and undertake immediate enforcement action--
preventing additional firearm violence by ``trigger-pullers.''
    Longer term strategic analysis of NIBIN data allows an 
understanding of patterns underlying firearm violence such as gun 
sharing within and among criminal groups and sources of illegally 
trafficked firearms.
    Is NIBIN effective in Arkansas and how?--In 2013, ATF provided a 
number of resources (both in personnel and training) to the Arkansas 
State Crime Lab and Little Rock Police Department. ATF's objective was 
to ensure that both the crime lab and police department could fully 
take advantage of NIBIN and Firearms trace data to better serve the 
citizens of Arkansas.
    Specifically, ATF sent
  --One specialist from the Atlanta Laboratory Center to train the 
        Little Rock P.D. as well as several other local police 
        departments and Arkansas Crime Lab personnel on the new ATF-
        funded, state-of-the-art Brasstrax unit.
  --One specialist to perform the evidence entries at the Little Rock 
        Police Department in order to alleviate a massive backlog of 
        evidence.
  --Several Special Agents to conduct test firing of crime guns at the 
        Little Rock P.D. evidence vault.
  --Several special agents from the Firearms Trafficking Branch to 
        Little Rock P.D. to facilitate comprehensive crime gun tracing 
        of all firearms recovered by the Little Rock P.D.
    Is NIBIN owned by ATF and where do you see the future of this 
technology going?--ATF is the sole owner of the NIBIN digital image 
database.
    ATF is continuously seeking new and innovative ways to both capture 
crime gun intelligence and better analyze this data to the benefit of 
law enforcement--including a means for portable acquisitions via 
smaller and lighter Brasstrax hardware, and an algorithm that further 
narrows down the correlation times on crime gun comparison.
                        atf fire investigations
    Question. I understand ATF worked the tragic Annapolis fire scene 
earlier this year. Can you discuss ATF's role in fire investigations, 
and how can our local fire investigators in Arkansas utilize your 
expertise?
    Answer. ATF Certified Fire Investigators (CFI) are highly trained 
special agents who provide technical support, analysis, and assistance 
to ATF and its State and local partners in fire origin and cause 
determination, forensic fire scene reconstruction, and arson 
investigation. CFI's complete a 2-year training program that includes 
fire origin and cause determination, fire dynamics, fire modeling, 
building construction, electricity and fire causation, health and 
safety, scene reconstruction and evidence collection. The program 
relies on rigorous training, education, and experience to qualify 
agents to testify as expert witnesses in the field of fire origin and 
cause. ATF CFI's are the only Federal law enforcement officers within 
the Department of Justice who are qualified to render opinion testimony 
as to fire origin and cause.
    CFIs investigate fires with a Federal nexus, and as seen in 
Annapolis, Maryland, assist State and local partners in the 
investigation of large scale incidents. ATF routinely deploys CFIs and 
veteran special agents, certified explosives specialists, forensic 
mapping specialists, accelerant and explosives detection canine teams, 
explosives enforcement officers, fire protection engineers, electrical 
engineers, and forensic chemists to assist state and local departments 
with large scale fire scenes that exceed the scope of what the local 
authorities can manage with their available resources.
    Through its CFI program, ATF has a long-standing, very close 
working relationship with fire departments across Arkansas. ATF 
currently has one special agent/CFI stationed in Little Rock. This CFI 
is fully engaged with numerous fire departments and law enforcement 
agencies across the State. In addition, ATF is in the process of 
providing the Arkansas State Police with an ATF-trained Accelerant 
Detection K-9 team to support the State's fire investigative resources. 
ATF also routinely deploys, as needed, CFIs from contiguous States into 
Arkansas to support investigations and provide training.
    ATF has deployed additional resources into Arkansas to support 
large scale incidents and fires on numerous occasions over the past 
several years. Notable investigations include:
  --2013.--During a rash of incendiary fires, ATF formed an Arson Task 
        Force with Little Rock Fire Investigators to investigate a 
        serial arsonist. The suspect was arrested by ATF and plead 
        guilty to violations of Title 18, U.S.C. 844, and received a 10 
        year Federal sentence.
  --2013.--ATF's National Response Team (NRT) assisted in the 
        investigation of the First Baptist Church in Highland Park. The 
        fire was ruled undetermined.
  --2010.--An ATF CFI assisted the Bella Vista Fire Department in the 
        investigation of a fire that claimed the lives of all five 
        members of a family. The cause of the fire was determined to be 
        accidental.
  --2008.--An ATF CFI assisted the Bentonville Fire Department in the 
        investigation of a fire that claimed the lives of five children 
        ranging in age from 5-13 years old. The fire was ruled 
        undetermined.
               local participation in the etrace program
    Question. How do you promote local participation in the eTrace 
program?
    Answer. ATF's primary method of promoting the use of eTrace occurs 
on a local level in each ATF Field Division, particularly during the 
course of joint investigations ATF understands that the best way to 
educate law enforcement agencies about the benefits of eTrace and 
firearms tracing is to have those agencies see successful results from 
use of the system in their own investigations. Promoting universal 
tracing through eTrace is also a cornerstone of ATF's Frontline 
business model. Use of eTrace is an essential component of the enhanced 
enforcement operations (also known as ``surges'') that ATF conducts 
annually under Frontline. As part of each enhanced enforcement 
operation, ATF ensures that participating local law enforcement 
agencies have entered an eTrace system Memorandum of Understanding 
(MOU), and have been adequately trained in the use of eTrace. 
Additionally, the National Tracing Center (NTC) dispatches a team to 
each enhanced operation site to conduct refresher training and to 
assist law enforcement agencies in the entry of any backlog of untraced 
recovered crime guns into the eTrace system; entry of all recovered 
crime guns provides ATF and local partners with a baseline to help 
define the local crime gun problem, including the identification of 
illegal sources of firearms and the identity of illegal traffickers.
    ATF also promotes eTrace through technological enhancements to the 
system, For example, in fiscal year 2014, ATF added a collective data 
sharing capability to the eTrace system; this improvement allows 
agencies within the same State to share trace data. Throughout fiscal 
year 2014, ATF deployed NTC personnel to conduct briefings and training 
about this new eTrace capability. The enhanced capability yielded 
immediate benefits; in fiscal year 2014 the NTC received the highest 
number of trace requests ever, 364,441, an increase of more than 22,000 
requests from fiscal year 2013.
          federal firearms licensees (ffl) inspection protocol
    Question. There is this implied philosophy among ATF Investigators 
where they have this ``gotcha'' attitude toward FFL inspections. Is 
this agency protocol?
    Answer. ATF investigators, managers and executives strive to 
promote compliance rather than adverse findings during inspections, and 
often work with industry members when possible to encourage dialogue 
and seek reasonable remedies where appropriate. ATF industry operations 
investigators (IOIs) conduct inspections of FFLs to ensure compliance 
with the law and regulations and to educate licensees on the specific 
requirements of those laws and regulations. If violations are 
discovered during the course of an FFL inspection, the tools that ATF 
has available to guide the FFL into correction of such violations and 
to ensure future compliance include issuing a report of violations, 
sending a warning letter, and holding a warning conference with the 
industry member. Despite these actions, on rare occasions ATF 
encounters a licensee who fails to comply with the laws and regulations 
and demonstrates a lack of commitment to improving his or her business 
practices. In such cases where willfulness is demonstrated, ATF's 
obligation to protect public safety may require revocation of the FFL.
    IOIs are trained to provide fair and consistent treatment to 
industry members. Performance ratings, awards, or other incentives are 
not based on numbers of violations cited or inspections recommended for 
administrative action. In fiscal year 2014, ATF conducted 10,429 
firearms compliance inspections. Of these inspections:
  --48 percent resulted in no violations cited.
  --Less than 1 percent were revoked.
  --Less than 1 percent surrendered their license in lieu of 
        revocation.
  --13 percent were issued a Report of Violations.
  --13 percent received a warning letter.
  --6 percent resulted in a warning conference.
  --19 percent were found to be out-of-business, etc.
                           atf modernization
    Question. What does your modernization philosophy entail? What 
techniques or technology are you exploring?
    Answer. What does your modernization philosophy entail?--ATF's 
modernization philosophy entails implementing a Business Process 
Management System (BPMS), which involves replacing ATF's aging case 
management system and streamlining other information systems. BPMS 
technology will better support ATF's mission by implementing paperless 
workflows, increasing accountability, and providing more timely and 
complete performance feedback to ATF Leadership, thus allowing ATF to 
better to gauge the results of its regulatory and criminal enforcement 
efforts.
    What techniques or technology are you exploring?--ATF is exploring 
a variety of BPMS tools, which are commercial-off-the-shelf (COTS) 
software products. BMPS tools will provide ATF with the ability to more 
quickly adapt to new laws, regulations, and DOJ/ATF policies, while 
creating efficiencies in workflow, mission objectives and performance 
accountability.
       martinsburg facility and the national firearms act backlog
    Question. I see that you are requesting $8 million to expand the 
Martinsburg Facility. How will this be utilized and will it reduce the 
National Firearms Act backlog?
    Answer. $8.1 M will expand capacity for the Martinsburg Facility 
through investment in the following additional resources:
  --The hiring of an additional ten (10) Legal Instrument Examiners 
        (FTEs). These examiners will support the analysis and 
        processing of applications for registration of weapons as 
        required by the National Firearms Act (NFA).--Total investment: 
        $635,000.
  --NFA Processing support (FTE overtime and an additional 20-30 
        contract research assistants).--Total investment: $2.5 million.
  --Equipment, IT Support and contract staff.--Total investment: $5 
        million.
  --Specific includes:
    --$2.0 million.--Digital Imaging scanner, software and hardware 
            (primarily storage) to improve ATFs capacity to digitally 
            image and store Out-of-Business Records (OBR). This 
            includes conversion and storage of electronic OBR in 
            accordance with policy and law.
    --$750,000.--eTrace. Ongoing maintenance and development 
            enhancements to sustain and improve the systems 
            performance.
    --$2.25 million.--Current Imaging software (Captiva) upgrades for 
            two high speed scanners. ATF receives an average of 1.2 
            million OBR per month. ATF currently uses two high speed 
            scanners to digitally image those records. The Captiva 
            upgrades will replace out of date software used by the 
            scanners that has not been supported for over 6 years.
    In fiscal year 2014 the National Firearms Act Branch (NFA) received 
over 221,000 new applications, reaching a peak of 81,000 pending 
applications in February 2014. In addition, the NFA processed about 
236,000 applications in total utilizing current staffing and 
significant overtime. In fiscal year 2015, it is anticipated that NFA 
will receive over 276,000 new applications, and that existing staffing 
and similar overtime allocations will permit the processing of 
approximately 292,000 applications. In fiscal year 2016, it is 
estimated that the NFA Branch will receive approximately 346,000 
applications. Therefore, additional staffing is needed to ensure that 
ATF does not further delay processing times. The ten positions 
requested in the fiscal year 2016 budget, comprised of eight Legal 
Instrument Examiners, one supervisory Legal Instrument Examiner, and 
one Assistant Branch Chief, will enable ATF to establish a fourth 
examiner processing section within the NFA. The additional Legal 
Instrument Examiners are projected to be able to process an estimated 
96,000 applications in a 1 year period, following the initial 9-12 
month training period. ATF estimates that the current 6 month time 
period for processing Tax Paid Applications (ATF Forms 1 and 4) can be 
reduced to 90 days after new personnel are fully actualized.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                      atf surveillance technology
    Question. Under the BATFE's current policies relating to the use of 
cell-site simulators, how many times has the BATFE employed such a 
device without prior court approval, and what were the reasons for 
doing so? What is the policy regarding retention of data?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The Department is committed to using all law enforcement 
resources in a manner that is consistent with the requirements and 
protections of the Constitution and other legal authorities, and with 
appropriate respect for privacy and civil liberties. We are likewise 
committed to ensuring that the Department's practices are lawful and 
respect the important privacy interests of the American people.
    The Department's law enforcement components have provided multiple 
briefings to Congressional Oversight Committee staff. These briefings 
were held to provide the requested information about certain sensitive 
law enforcement tools and techniques while avoiding making public the 
use of any specific, sensitive equipment and techniques that may be 
deployed in furtherance of law enforcement missions. To do so would 
allow kidnappers, fugitives, drug smugglers, and certain suspects to 
determine our capabilities and limitations in this area. Although we 
cannot discuss here the specific equipment and techniques that we may 
use, we can assure you that to the extent the Department's law 
enforcement components deploy certain technologies in investigations, 
we are committed to using them consistent with the Constitution and 
Federal law. Finally, the Department is in the process of examining its 
policies to ensure that they reflect our continuing commitment to 
conducting its vital missions while according appropriate respect for 
privacy and civil liberties.
    Question. Since 2001, how many cell-site simulators has the BATFE 
purchased or obtained from another government agency? What has been the 
cost, per year, for the acquisition, maintenance and deployment of the 
BATFE's cell-site simulators?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. The Department is committed to using all law enforcement 
resources in a manner that is consistent with the requirements and 
protections of the Constitution and other legal authorities, and with 
appropriate respect for privacy and civil liberties. We are likewise 
committed to ensuring that the Department's practices are lawful and 
respect the important privacy interests of the American people.
    The Department's law enforcement components have provided multiple 
briefings to Congressional Oversight Committee staff. These briefings 
were held to provide the requested information about certain sensitive 
law enforcement tools and techniques while avoiding making public the 
use of any specific, sensitive equipment and techniques that may be 
deployed in furtherance of law enforcement missions. To do so would 
allow kidnappers, fugitives, drug smugglers, and certain suspects to 
determine our capabilities and limitations in this area. Although we 
cannot discuss here the specific equipment and techniques that we may 
use, we can assure you that to the extent the Department's law 
enforcement components deploy certain technologies in investigations, 
we are committed to using them consistent with the Constitution and 
Federal law. Finally, the Department is in the process of examining its 
policies to ensure that they reflect our continuing commitment to 
conducting its vital missions while according appropriate respect for 
privacy and civil liberties.
    Question. Does the BATFE maintain its own license plate reader 
database? If so, how long has the database been operational and what 
are the policies and procedures in place that govern the collection and 
use of the data? How many cameras are in the network? What other law 
enforcement agencies, if any, have access to this database?
    Lead-in information from original document.--
          Recent media reports have raised questions about Federal law 
        enforcement's use of sophisticated surveillance technology, 
        like cell-site simulators and license plate reading cameras, to 
        track suspects historically and in real-time. Although I 
        appreciate the potential value of this technology to law 
        enforcement, I am concerned about the potential impact on the 
        privacy rights of innocent Americans.

    Answer. Although ATF has equipment capable of capturing license 
plate images, ATF does not have any database that contains license 
plate reader (LPR) data. In addition, ATF does not forward license 
plate images obtained with this equipment to any other government 
databases. ATF's equipment consists of the following:
  --Approximately 30 hi-definition LPR systems. These systems capture 
        LPR images but do not transmit any data.
  --6 older LPR systems. These were initially purchased to support 
        church fire investigations. These systems capture LPR images 
        but do not transmit any data.
                               atf drones
    Question. Since that report, has the ATF employed drones in support 
of its mission?
    Lead-in information from original document.--
          In 2013, the Department of Justice Office of the Inspector 
        General released an interim report on DOJ's use of domestic 
        drones. The report noted that although the FBI was the only DOJ 
        component to have operated drones at the time, ATF reported 
        that it planned to deploy drones in future operations.

    Answer. Yes. ATF's National Response Team (NRT) purchased five 
small, commercially available Unmanned Aircraft Systems (UAS) to help 
document fire and explosion crime scenes (not for conducting law 
enforcement surveillance). The NRT used one of these units to conduct 
one brief UAS flight in July 2014 to document the aftermath of a 
Louisiana apartment fire that resulted in the deaths of three 
residents. ATF has temporarily grounded these UAS platforms pending 
further ATF policy guidance on deployment requirements. The Department 
of Justice has recently issued policy guidance for the use of UASs. ATF 
is in the process of incorporating this DOJ guidance into its policy on 
the use of its' UAS. In addition to the single use of the NRT UAS, ATF 
has received UAS support from the U.S. Customs and Border Protection 
(CBP) on four occasions for purposes of conducting surveillance and 
planning search warrants.
    Question. If not, please provide an update on ATF's plans on using 
drones in the future and if so, please provide a fulsome description of 
the instances in which ATF has deployed drones and what measures are 
being taken to ensure that Americans' privacy rights are being 
protected.
    Lead-in information from original document.--
          In 2013, the Department of Justice Office of the Inspector 
        General released an interim report on DOJ's use of domestic 
        drones. The report noted that although the FBI was the only DOJ 
        component to have operated drones at the time, ATF reported 
        that it planned to deploy drones in future operations.

    Answer. ATF has no immediate plans to purchase UAS systems. ATF has 
received the Presidential Memorandum: Promoting Economic 
Competitiveness and Innovation While Safeguarding Privacy, Civil 
Rights, and Civil Liberties in the Domestic Use of Unmanned Aircraft 
Systems, dated February 15, 2015 (Presidential Memorandum). ATF 
continues to work with the Department's Office of Privacy and Civil 
Liberties, through the DOJ UAS working group, to ensure appropriate use 
of UAS. Future ATF Directives on the use or deployment of UAS in 
support of ATF missions will be in compliance with the Presidential 
Memorandum and all DOJ guidelines, including the recently released DOJ 
policy. Additionally, to track any potential, future use of UAS's and 
in compliance with this policy, the ATF case management system has been 
updated with mandatory entry fields to capture deployment, 
authorization, and operating agencies.
                                 ______
                                 
Questions Submitted to the Department of Justice--Joint Law Enforcement 
                              Task Forces
           Questions Submitted by Senator Barbara A. Mikulski
                     federal task force operations
    Question. How does the Department of Justice ensure that the 
thousands of State and local officers on your task forces have received 
proper training in areas like use of force or avoiding racial bias?
    Answer. On December 8, 2014, DOJ issued new guidance for Federal 
Law Enforcement Agencies Regarding the Use of Race, Ethnicity, Gender, 
National Origin, Religion, Sexual Orientation or Gender Identity. It 
builds upon and expands the framework of the 2003 Guidance, and it 
reaffirms the Federal Government's deep commitment to ensuring that its 
law enforcement agencies conduct their activities in an unbiased 
manner. The guidance applies to Federal, State, and local law 
enforcement officers in all enforcement areas. It further defines the 
circumstances in which Federal law enforcement officers may take into 
account a person's race and ethnicity, including gender, national 
origin, religion, sexual orientation, or gender identity. The guidance 
promotes training and accountability to ensure that its contents are 
understood and implemented appropriately.
    In addition, steps taken to provide proper training by each law 
enforcement component are detailed below:
FBI:
    Pursuant to executed Memoranda of Understanding, within the Safe 
Streets Program (Violent Crime, Violent Gang and Safe Trails Task 
Forces) and the Joint Terrorism Task Force (JTTF), each task force 
participant is subject to their respective agency's policy on use of 
force. Each Task Force Officer (TFO) must maintain his or her own 
firearm and non-lethal weapon qualification standards in order to 
continue to serve on the task force. TFOs are further instructed on 
Federal policies and guidelines associated with prohibitions on racial 
profiling and attend mandatory FBI training events. Additionally, the 
FBI Field Offices host quarterly deadly force policy training sessions 
for agents.
    Under the FBI's Less Lethal Devices Policy (0517PG), dated November 
2012, a TFO may also carry a less lethal device issued by his or her 
home agency only if that agency has provided the FBI with written 
confirmation that:
  --The agency will ensure that while the individual is participating 
        in FBI-led task force operations, the TFO will not carry lethal 
        devices and will carry only less lethal devices that have been 
        issued to the individual and that the individual has been 
        trained in accordance with the agency's policies and 
        procedures.
  --The agency's policies and procedures for less lethal devices are 
        consistent with the DOJ policy statement on the use these 
        devices.
  --FBI Supervisory Special Agents (SSA) also have the discretion to 
        prohibit TFOs from carrying particular less lethal devices on 
        any FBI-led operation if they believe that the use of such a 
        device may pose hazards or risks to the operation's 
        participants due to environmental, tactical, or other relevant 
        factors.
    In 2013, FBI hosted a mandatory training for all JTTF personnel 
(FBI and TFOs) on the DOJ Less-Than-Lethal Devices Policy.
ATF:
    ATF highly values its TFOs and strives to provide them with the 
training necessary to maximize officer and public safety:
  --TFO Orientation: ATF provides orientation training for new TFOs in 
        their assigned field division. An ATF supervisor covers 22 ATF 
        policies and provides a reference guide to these policies. 
        These policies specifically include ATF's Use of Force policy, 
        ATF Order 3020.2A. The TFO and supervisor complete an 
        Orientation Checklist, including a written certification by the 
        TFO that it discussed these policies with ATF.
  --New Employee Training: ATF provides training on policies and 
        procedures, applicable Federal laws, criminal procedure, and 
        investigative techniques. One block of this training ATF and 
        DOJ Use of Force policies. Another block includes a review of 
        Federal case law regarding race and ethnicity in criminal 
        enforcement operations.
  --Firearms Training: ATF requires each TFO to complete a quarterly 
        firearms training and tactical operations training, both of 
        which include specific review and discussion of ATF's Use of 
        Force policy.
  --Operational Plans and Briefs: TFOs participating in ATF enforcement 
        operations are also required to review operational plans and/or 
        attend pre-operational briefs, both of which include a review 
        of Use of Force policies.
    Finally, pursuant to the December 2014 DOJ guidance, ATF developed 
a mandatory training module for all agents and TFOs, and began training 
in May 2015. ATF will periodically update the training and regularly 
present it to agents and TFOs nationwide.
DEA:
    DEA does not tolerate racial profiling or the use of excessive 
force, nor does it target individuals or groups based on race, 
ethnicity, gender, national origin, religion, cultural differences, 
linguistic capability, sexual orientation, or gender identity. As a 
part of its policy and practice, DEA safeguards against racial 
profiling by ensuring thorough training and oversight, and when 
appropriate effective discipline.
    Prior to assigning a State or local officer to a task force, State 
and local law departments (Chief of Police, Internal Affairs, Personnel 
Office, and immediate supervisor), the Division Special Agent in Charge 
(SAC), and DEA Headquarters (HQ) must approve the assignment. DEA may 
reject any nominee based on the officer's training, attitude, past 
performance, or other factors bearing on suitability. Officers should 
have at least 2 years of police experience.
    Traditionally, DEA field offices conduct the TFO Certification 
Training program on an ``as-needed'' basis within the offices' 
geographic jurisdiction. The Divisional Training Coordinators (DTC) are 
responsible for providing and coordinating training to newly selected 
Task Force members. Each new TFO receives 39 hours in official training 
and each division can offer additional training to their staff 
pertinent to their mission.
    When DEA deputizes State and local law enforcement officer as a 
TFO, he or she is granted certain Federal law enforcement powers and 
becomes subject to the same Federal laws and standards addressing 
employee suitability as a normal DEA Special Agent. DEA requires all 
deputized TFOs to follow all DEA policies and procedures, which are 
explained during the official training.
USMS:
    USMS requires State and local officers on fugitive task forces to 
meet certain criteria to join the task force. The requirements include 
basic law enforcement training and use of force policy training. 
Additionally, within the Memorandum of Understanding process for an 
agency to place an officer on a USMS task force, the sponsoring agency 
must provide USMS with a copy of its use of force policy to ensure that 
it does not conflict with DOJ use of force policy. The officer must 
also acknowledge understanding of the Department's use of force policy 
during the Special Deputation process.
    Question. Do police departments have to submit any kind of training 
certification to the FBI, DEA, ATF or Marshals Service before their 
officers can join Federal task forces?
    Answer.--
FBI:
    FBI Task Force Officers assigned to the Safe Streets Initiative 
obtain Title 18 deputization through the USMS. TFOs must qualify with a 
firearm before being deputized. In addition to Title 18 deputization, 
all violent gang and Safe Trails TFOs obtain Title 21 deputization. All 
TFOs, including Safe streets and JTTF, are vetted with their respective 
agencies to ensure compliance with their internal policies and to 
ensure there are no outstanding or excessive internal affair matters. 
TFO must have Top Secret security clearance and all TFOs must maintain 
their firearm and non-lethal weapon qualifications.
ATF:
    TFOs must complete basic law enforcement training and firearm 
qualifications. Officers, whose service lapsed for at least 5 years, 
are required to take a refresher law enforcement training course. These 
certifications are required to deputize all ATF TFOs. The specific 
training certification questions on this form are:
  --Question #15: ``I have successfully completed the following basic 
        law enforcement training program or military equivalent.'' This 
        question requires that applicants list the academy they 
        attended, course name, location and completion date.
  --Question #16 (if necessary): ``I had a 5-year break in law 
        enforcement and have completed a law enforcement refresher 
        course within a year of signing this application.'' This 
        question also requires that the applicant list the agency that 
        has provided refresher training, course name, location, and 
        completion date.
  --Question #19: ``I have qualified with my primary authorized 
        firearm.'' This question requires the applicant to describe the 
        firearm and qualification date.
DEA:
    DEA does not require proof of certification for new TFO's. Instead, 
DEA requests that the parent agency provide a Letter of Good Standing 
from an official at the rank of Lieutenant or above. The letter 
certifies TFO compliance with DEA's drug use policy and that he or she 
has no pending internal affairs investigations. DEA also conducts 
criminal history checks using Narcotics and Dangerous Drug Information 
System (NADDIS), National Law Enforcement Telecommunications System 
(NLETS), and National Crime Information Center (NCIC).
    DEA TFOs can only remain as a full time TFO for four consecutive 
years; however, at the SAC's discretion, he/she can extend the 
agreement for another 4 years. This is done by request from the SAC via 
a DEA memorandum along with a current background check using NADDIS, 
NLETS and NCIC. If a TFO returns to his parent agency prior to the 4 
years for whatever reason, he or she will be cancelled as a full-time 
TFO via a SAC's memorandum to DEA HQ. In addition, if a TFO changes 
agencies while currently assigned to a DEA Task Force, the division 
will be required to submit a new package, i.e. SAC's memo, Letter of 
Good Standing from the new agency or department, current background 
checks, and a Task Force Agreement between DEA and the new agency or 
department.
USMS:
    USMS does not require that State and local officers submit training 
certifications to the USMS; however, officers must receive Special 
Deputization from the USMS prior to joining a task force. There are 
several requirements detailed in the USMS policy for a State or local 
officer to receive Special Deputation from the USMS. These requirements 
include that the candidate meet the following requirements:
  --Be a full time, sworn law enforcement officer and complete a basic 
        law enforcement training course.
  --Have at least 1 year of law enforcement experience with arrest 
        authority (USMS Enforcement Standard Operating Procedures 
        suggest a minimum of 5 years of experience).
  --Qualify on their parent agency or USMS course of fire.
  --Certify that they have reviewed and agreed to comply with the use 
        of force policy of their employing agency or the Department of 
        Justice.
    The senior management official with the agency sponsoring the 
prospective TFO must complete and submit the USMS paperwork requesting 
acceptance to the task force and Special Deputation for the officer. In 
that paperwork, the official also certifies that the officer meets all 
of the training and experience requirements and that the officer is not 
under any type of investigation for misconduct.
    Question. What types of training do your agents and deputy marshals 
receive before hitting the streets? What kinds of procedures do you 
have in place to ensure misconduct does not happen?
    Answer.--
FBI:
    The FBI's New Agent Training Program (NATP) provides 20 weeks of 
training for New Agent Trainees (NAT). Misconduct is not tolerated at 
the FBI Academy and is addressed by monitoring and measuring trainees 
against suitability standards: conscientiousness, cooperativeness, 
emotional maturity, initiative, integrity, and judgment. A NAT can be 
dismissed if they do not meet one or more of the suitability standards. 
When NATs enter training, they read and sign the rules, regulations, 
and requirements at the FBI Academy for New Agent Trainees, which 
outlines these standards and requirements for graduation. FBI prepares 
documentation when NATs violate standards; thereafter, the trainee is 
noticed, and the documentation is forwarded to executive management to 
conduct a New Agent Review Board (NARB) to determine an appropriate 
action: remediation or dismissal. NATs remain in a probationary status 
during the first 18 months of their FBI employment, during which they 
are subject to dismissal for suitability standards. This process is 
designed to employ only those who are most suitable for a law 
enforcement career with the FBI.
    FBI NATs receive over 80 hours of legal training to ensure that 
their actions do not infringe upon the rights of individuals, 
particularly the first and fourth amendments to the Constitution. They 
are trained to protect an individual's civil liberties in accordance 
with the Attorney General Guidelines (AGG), the Domestic Investigations 
and Operations Guide (DIOG), and the Privacy Act. They are trained to 
understand the fourth amendment requirement of ``reasonableness'' as it 
relates to a search. They learn about the FBI's history related to some 
specific investigations that infringed upon constitutionally protected 
rights, and they are trained to balance the need for effective law 
enforcement and intelligence gathering against the rights secured by 
the First Amendment. NATs are trained to use the ``least intrusive'' 
investigative techniques with corresponding approval documentation 
appropriate to an investigation. They also receive 8 hours of training 
in the proper level of force to use in accordance with FBI's Deadly 
Force Policy.
    Diversity, ethics, and leadership training are also emphasized in 
the NATP. NATs are trained in Decision Making, Core Values, and 
Leadership while focusing on a Civil Rights Case Study. Trainees 
explore key concepts bearing upon the development of personal and 
professional judgment, ethical decisionmaking, and leadership in the 
context of the Civil Rights Movement, the example of Dr. Martin Luther 
King Jr., and the complex nature of the FBI's response to the non-
violent political action of the era. Trips to the Martin Luther King 
memorial and the Holocaust Museum emphasize the practical application 
of ethical and moral conduct, in particular, character and courage.
    NATs receive rigorous training in physical fitness, tactics, 
firearms proficiency, and defensive tactics to ensure that they can 
properly handle encounters with the public. They receive 25 hours of 
training, for example, in how to perform compliant handcuffing and 
search techniques. They receive 16 hours of training in how to perform 
the necessary defensive tactics, skills, and techniques to resolve a 
confrontation (e.g., proper restraint techniques). With over 180 hours 
of practical application exercises, oftentimes interacting with role-
players depicting realistic situations they might encounter, graduates 
of the NATP are well equipped to interact with the public in a safe and 
lawful manner.
    Additionally, a review of the FBI's `deadly force' policy is a 
required part of the operational briefing before any FBI search or 
arrest is executed.
ATF:
    All newly-hired ATF Special Agents must complete a rigorous 6-month 
curriculum and a formal on-the-job training program. ATF conducts basic 
training at the ATF National Academy at Federal Law Enforcement 
Training Center (FLETC) in Glynco, Georgia. It consists of the FLETC 
Criminal Investigator Training Program followed by the ATF-specific 
Special Agent Basic Training program. Agents receive training in the 
full spectrum of the ATF mission, including firearms, explosives, 
arson, and alcohol/tobacco diversion. In addition, ATF trains on 
investigative procedures, legal requirements, operational processes, 
tactics, and investigative systems.
    The curriculum also includes modules related to conduct and 
accountability. The topics cover Ethics, Standards of Performance and 
Code of Conduct, and Integrity. The training addresses the use of 
alcohol, off-duty conduct, use of controlled substances, and 
notoriously disgraceful conduct.
DEA:
    DEA requires that all Basic Agent Trainees (BATs) successfully 
complete a 950 hour in-residence program. DEA provides additional 
training at the new agent's assignment using the 800-hour Field 
Training Assessment program (FTA). The BAT program includes instruction 
in the following topics: Standards of Conduct, Ethics, and Legal topics 
pertinent to a DEA Agent. Additionally, each BAT receives instruction 
in the functions and purpose of the Office of Professional Review and 
Office of the Inspector General.
USMS:
    Before candidates become Deputy United States Marshals (DUSM) and 
conduct fugitive investigations, they must complete basic training at 
FLETC in Brunswick, Georgia. Basic training for the USMS consists of 
the following:
  --FLETC's Criminal Investigator Training Program, a 12-week basic law 
        enforcement criminal investigation course.
  --The Basic DUSM Training Program, a 4-week course focusing on USMS-
        specific duties, such as fugitive investigations and officer 
        safety.
  --Deputies are also qualified and certified on the use of pistols, 
        shotguns, rifles, and less-lethal devices during basic 
        training.
    Once basic training has been successfully completed, deputies 
report to their assigned districts and undertake the duties and 
responsibilities of a DUSM, which includes conducting fugitive 
investigations.
    The USMS also requires advanced continuing education and training. 
The DUSMs are required to attend the Advanced Deputy U.S. Marshal 
(ADUSM) Training Program within 7 years of completing the basic 
training and again within 7 years of completing the first ADUSM course. 
The ADUSM training is used as a refresher course to reinforce what the 
deputy has learned in basic training, as well as a venue to teach 
advanced skills and train deputies in new policies and procedures.
    The USMS has made a concentrated effort to send as many operational 
personnel as possible to High Risk Fugitive Apprehension training. This 
course provides advanced standardized, tactical-based training, with 
the goal of enhancing arrest procedures and mitigating risk.
    Regarding misconduct, the integrity of the USMS is dependent upon 
the conduct of its individual employees. Each day the employees of the 
USMS demonstrate the highest standards of integrity, character, public 
trust, and professional responsibility. The USMS seeks to maintain 
these standards and improve all aspects of professional responsibility 
among its employees.
    The USMS policy contains a Code of Professional Responsibility, 
which sets forth 38 standards to govern employees' on and off duty 
conduct. The USMS employees are required to read the Code of 
Professional Responsibility each year and acknowledge their 
understanding all 38 standards. The USMS also uses in-service and 
online training to keep employees up-to-date on expected operating 
procedures and responsibilities. Finally, the USMS makes available all 
policies and standard operating procedures to all employees to clearly 
convey expectations regarding conduct and behavior. Within the USMS, 
policies define the discipline management procedures and penalties for 
employee misconduct.

                          SUBCOMMITTEE RECESS

    The subcommittee is in recess.
    [Whereupon, at 11:45 a.m., Thursday, March 12, the 
subcommittee was recessed, to reconvene in closed session.]








  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2016

                              ----------                              


                        THURSDAY, APRIL 16, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:38 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Cochran, Capito, and Mikulski.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. CHARLES F. BOLDEN, JR., ADMINISTRATOR

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The meeting will come to order. We have 
just had a Senate vote. I believe we will be joined by Senator 
Mikulski and some others in a few minutes. General, your time 
is valuable, and I thought I would get started.
    Again, welcome to the subcommittee. This subcommittee has 
been very supportive, General Bolden, of NASA and its work to 
maintain a healthy funding level for NASA while preserving a 
balanced and I believe a productive space program.
    NASA's work is exciting, as you well know, inspiring, and 
educational. From the photos of galaxies captured by the Hubble 
Space Telescope to the future of humans traveling to Mars, NASA 
has captured the imagination of school children and citizens 
across the globe, and inspired generations of scientists and 
engineers.
    This country has limited resources, however, which requires 
us to prioritize our spending. NASA spending is not an 
exception. The NASA budget proposes a total funding level of 
$18.5 billion, an increase of $519 million above the 2015 
level. Such a significant increase should represent balanced 
funding for NASA's priorities. Perhaps not enough.
    Instead, there is a sizeable growth in programs like 
Commercial Crew and Space Technology, while other programs, 
such as science missions and Exploration Systems Development 
have significant reductions. The cuts to Exploration are 
especially concerning to the subcommittee. The successful test 
of the Orion capsule last December showcased NASA's innovative 
plans for the future.
    This budget could have been an opportunity, I believe, for 
NASA to boldly support human exploration after years of budget 
requests, in which I believe it was short changed.
    Instead, NASA's budget cuts funding to Orion and the Space 
Launch System, or SLS, limit our reach in human exploration. A 
20 percent cut to SLS during its critical phase of development 
risks important investments that have been made in communities 
across the country. It also risks the success of the program.
    The budget makes it impossible, a lot of people believe, 
for NASA to make efficient and cost effective decisions for the 
long-term development of a launch system that is being built to 
achieve the Nation's human exploration goals.
    While NASA is good at creating charts and talking about 
moving human exploration beyond our current capabilities, NASA 
has yet again failed to propose a budget that can accomplish 
what the agency claims is one of its top priorities.
    General Bolden, a lot of us are troubled by the overall 
priorities included in this budget, requiring key development 
programs to operate with insufficient funding is irresponsible. 
While the proposed funding level of $18.5 billion is a good 
start, there is much work to do and it must be done to develop 
a balanced budget that achieves NASA's core missions and its 
future goals.
    I look forward to working with you to address some of these 
concerns. At this point, I want to recognize Senator Mikulski, 
the vice chair of the full committee.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman. 
Administrator Bolden, we welcome you. I apologize for being 
late. We actually had a tremendous victory in the Senate, the 
Elementary and Secondary Education Act passed 21-0 out of the 
committee. We were kind of doing a victory lap.
    Today, I know we are here to examine the NASA budget 
request of $18.5 billion. It is $0.5 billion more than what was 
enacted in fiscal year 2015.
    As I look at this budget request, I have very deep 
concerns. I am concerned that we could be having a threat to 
the balanced space program that we have all worked together on 
an bipartisan basis on and said yes to human space flight. We 
need a reliable transportation system both for our astronauts 
to go where they have not had a chance to go before and can do 
important servicing missions.
    I am concerned, of course, about what is about to happen to 
the Goddard Space Flight Center, which I do not think gets a 
fair shake in this particular appropriations. The Goddard 
request for science missions is $3.0 billion, it is $324 
million below fiscal year 2015.
    The Goddard is currently operating 35 on orbit missions. It 
also is absolutely key to the Hubble Space Telescope and the 
James Webb Telescope and others. I want to know why Goddard was 
cut $300 million.
    Of course, we are deeply concerned about other efforts, one 
of which is the whole issue of satellite servicing. Satellite 
servicing is absolutely important to our national interest. It 
was cut by $65 million. It was $130 million in fiscal year 
2015.
    The whole idea of satellite servicing as we know, is that 
our country and our private sector have satellites. We do not 
want them to just die in space and be space junk. They can be 
re-serviced. There is technology and workforce at Goddard that 
knows how to do it. Somehow or another, we do not seem to want 
to invest in it or if we do, we short change it.
    Of course, there is the Wallops Flight Facility. We put 
money into the Federal budget in terms of fixing Wallops after 
the terrible storm. We know there was $20 million, Mr. 
Chairman, you worked with us on, and I know in a recent 
conversation with Senators Warner and Kaine, they do not feel 
that Wallops is on track, and if they do not feel Wallops is on 
track, neither do I.
    I have some questions about all this. I really need to hear 
these answers, because I feel, do we have a balanced space 
program or not.
    Mr. Chairman, I know we want to move on. I am through with 
my remarks.
    Senator Shelby. Thank you. Senator Cochran, do you want to 
be recognized?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, just to join you and Senator 
Mikulski in welcoming our witness. We appreciate very much your 
assistance in helping us identify the priorities of NASA and 
related activities. We are pleased about the development of the 
Space Launch System.
    As you know, the Stennis Space Center located in my State 
is very important, not just for the work that it does in the 
scientific area, in research, but also rocket testing and the 
infrastructure at Stennis is a very important asset for the 
entire system and our Nation's goals in space.
    Thank you, Mr. Chairman.
    Senator Shelby. Thank you. General Bolden, again, welcome 
to the subcommittee. Your full statement will be made part of 
the record, as you know. Proceed.

            SUMMARY STATEMENT OF HON. CHARLES F. BOLDEN, JR.

    Mr. Bolden. Thank you very much, Mr. Chairman. At the 
outset, Chairman Shelby, with your permission, I would like 
your indulgence to say a few words of thanks for Ranking Member 
Mikulski.
    Senator Mikulski, it is safe to say that all of us at NASA 
and across the space community were saddened at your recent 
announcement that this will be your last Congress. You have 
been a champion for America's space program.
    This week and next week, we celebrate the 25th anniversary 
of the Hubble's mission, and there is no question that we would 
not have reached this milestone were it not for your unwavering 
support.
    Of course, there is still 2 years of work ahead of us in 
the Congress, and we look forward to continuing to work with 
you, Chairman Shelby, and the other members of this 
subcommittee.
    Mr. Chairman and members of the subcommittee, 5 years ago 
yesterday, President Obama came to the Kennedy Space Center and 
laid out what I believe is a bold transformative agenda for 
NASA. He challenges us to embark on a journey to Mars.
    He spoke of extending the life of the International Space 
Station (ISS), and increasing earth based observation. He 
called for investments in new advanced technologies that will 
not only take Americans farther into space than ever before, 
but also will provide spin off benefits and create high paying 
jobs here at home.
    Five years later, we have made landmark progress toward 
those goals. SpaceX's successful launch this week is a shining 
example.
    The budget you consider today furthers the goals that we 
share of extending our reach into space while strengthening 
American leadership here at home. It is an $18.5 billion 
investment that represents a leap into a future of greater 
discovery, job creation, and economic growth, as well as a 
healthier planet.
    Thanks to the hard work of our NASA team and partners all 
across America, we have made a lot of progress on our journey 
to Mars. In fact, we have now progressed farther on this path 
to sending humans to Mars than at any point in the history of 
NASA, and this budget will keep us marching forward.
    The support of this subcommittee and the Congress are 
essential to this journey. The International Space Station is 
the critical first step in this work. It is our springboard to 
the rest of the solar system, and we are committed to extending 
space station operations to at least 2024.
    Thanks to the grit, determination, and American ingenuity, 
we have returned ISS cargo resupply missions to the United 
States, insourcing these jobs and creating a new private market 
in low-Earth orbit.
    Under a plan outlined by the administration earlier in its 
term, we have also awarded two American companies, SpaceX and 
Boeing, fixed price contracts to safely and cost effectively 
transport our astronauts to the space station from U.S. soil.
    This will end our sole reliance on Russia. It is critical 
that we receive the funding requested in the 2016 budget so 
that we can meet our 2017 target date and stop writing checks 
to the Russian Space Agency.
    Our newest, most powerful rocket ever developed, the Space 
Launch System or SLS, has moved from formulation to 
development, something no other exploration class vehicle has 
achieved since the agency built the Space Shuttle.
    The Orion spacecraft performed flawlessly on its first trip 
to space this past December. The SLS and Exploration Ground 
Systems are on track for launch capability readiness by 
November of 2018, and the teams are hard at work on completing 
technical and design reviews for Orion.
    Our budget also funds a robust science program with dozens 
of operating missions, studying our solar system and the 
universe. New Horizons is preparing for its arrival at Pluto in 
July, and Dawn has entered into orbit around the dwarf planet 
Ceres.
    Before we send humans to Mars, robots are paving the way. 
We are at work on a Mars rover for 2020, and have begun 
planning a mission to explore Jupiter's fascinating moon, 
Europa.
    NASA is a leader in earth science and our constantly 
expanding view of our planet from space is helping us better 
understand and prepare for these changes. NASA has 21 research 
missions studying earth, and in the last year alone, we 
launched an unprecedented five more.
    We also are at work on humanity's first voyage to our home 
star, a mission that will repeatedly pass through the Sun's 
outer atmosphere. NASA's Hubble, Chandra, and Kepler Space 
Telescopes explore the universe beyond our solar system. 
Hubble's successor, the James Webb Space Telescope, is taking 
shape right now out in Maryland, and a new mission is in 
development to extend Kepler's pioneering work in finding 
planets.
    Technology drives science, exploration, and our journey to 
Mars. With the President's request, NASA will continue to 
maintain a steady pipeline of technology, to ensure that we 
continue to lead the world in space exploration and scientific 
discovery.
    NASA is also with you when you fly, and we are committed to 
transforming aviation by dramatically reducing its 
environmental impact, maintaining safety in more crowded skies, 
and paving the way toward revolutionary aircraft shapes and 
propulsion systems.
    Mr. Chairman, America's space program is not just alive, it 
is thriving. The strong support we receive from this 
subcommittee is making that happen. I particularly appreciate 
the generous fiscal year 2015 appropriations that you 
generated.
    The President said at the Kennedy Space Center, and I quote 
``For pennies on the dollar, the space program has improved our 
lives, advanced our society, strengthened our economy, and 
inspired generations of Americans.''
    NASA looks forward to working with the Congress to continue 
making this vision a reality.
    I would now be pleased to respond to your questions.
    [The statement and the President's budget request summary 
follow:]
           Prepared Statement of Hon. Charles F. Bolden, Jr.
    Mr. Chairman and members of the subcommittee, I am pleased to have 
this opportunity to discuss NASA's fiscal year 2016 budget request. The 
President is proposing a fiscal year 2016 budget of $18.5 billion for 
NASA, building on the significant investments the administration has 
made in America's space program over the past 6 years, enabled through 
the strong and consistent support by this subcommittee and the 
Congress. This request will allow NASA to continue to lead the world in 
space through a balanced program of exploration, science, technology, 
and aeronautics research. NASA is an outstanding investment for our 
Nation not only because we uncover new knowledge, but because we raise 
the bar of human achievement, inspiring the next generation of 
scientists, engineers and astronauts.
    The fiscal year 2016 request includes $4,505.9 million for 
Exploration with $2,862.9 million for Exploration Systems Development, 
$1,243.8 million for Commercial Space Flight, and $399.2 million for 
Exploration Research and Development. This funding, with critical 
investment from each of NASA's mission directorates, supports NASA's 
plans to, as the President said in his State of the Union speech, 
continue our journey to Mars and push ``out into the solar system not 
just to visit, but to stay[.]'' NASA has made tremendous progress on 
this journey, and we will continue to progress, with building momentum, 
through the years to come.
    As part of our strategic, stepping stone approach to deep-space 
explorations, NASA is facilitating the development of a U.S. commercial 
crew transportation capability with the goal of launching NASA 
astronauts from American soil in the next couple of years. This 
initiative to facilitate the success of U.S. industry to provide crew 
transportation to low Earth orbit will end our sole reliance on Russia 
and ensure that we have safe, reliable and cost-effective access to the 
ISS and low-Earth orbit. The Commercial Products Contracts allowed 
potential providers to better understand and align with NASA human 
spaceflight requirements and gave NASA early insight into vehicle 
designs and approaches. NASA has now entered the development and 
certification phase with the award of two FAR-based, fixed-price 
Commercial Crew Transportation Capability (CCtCap) contracts to 
American companies to transport our Astronauts to and from the ISS. 
SpaceX and Boeing have laid out milestones with the goal of certified 
commercial crew capability in 2017. The contractors are committed and 
at work. Our approach has emphasized competition and redundancy to 
ensure that NASA's human safety and certification requirements are met, 
we achieve the best value for the American taxpayer, and we end our 
sole reliance on Russia for transportation services. Now, we need the 
funding necessary to execute this plan to completion. With continued 
support from the Congress, crews will again launch to the ISS from 
American soil by the end of 2017.
    Technology drives science, exploration and economic opportunity. 
NASA will continue to maintain a steady pipeline of technology to 
ensure that we continue to lead the world in space capabilities. NASA's 
fiscal year 2016 request includes $724.8 million for Space Technology, 
to conduct rapid development and infusion of transformative space 
technologies that enable NASA's missions and advance our country's 
dynamic aerospace industry. Over the next 2 years, NASA will execute 
several in-space demonstrations including: a deep space atomic clock 
for advanced navigation, green propellant, and four small spacecraft 
demonstrating pioneering new technologies. This summer, NASA plans to 
again test our Low Density Supersonic Decelerator off the coast of 
Hawaii to continue proving in flight the new technologies critical for 
landing larger payloads on the surface of the Red Planet. Informed by 
the results of fiscal year 2014 testing of solar array and thruster 
designs, NASA continues development of a high-powered solar electric 
propulsion capability to enable future exploration missions and meet 
needs of U.S. aerospace industry. This capability will be demonstrated 
on the Asteroid Redirect Mission. We will continue to progress toward a 
2019 demonstration of space-to-ground laser communications, a 
capability that both American industry and NASA mission teams are eager 
to explore and harness. But the most exciting piece of our technology 
investments is the broad portfolio of research grants and other early 
stage investments, where the new technologies that will change the way 
we operate in space have a chance to move from ideas to components, to 
demonstrations of new systems and capabilities. These early stage 
investments are building stronger links between NASA and academia, and 
providing unique opportunities for the NASA workforce to innovate.
    In December, NASA completed the first orbital test flight of the 
Orion crew vehicle, including a successful high speed reentry through 
the atmosphere. The Exploration Flight Test 1 (EFT-1) mission of Orion 
was nearly flawless. For the first time in a generation, a deep-space 
U.S. exploration vehicle has splashed down in the Pacific, and what we 
are learning from this test gives us increasing confidence in the 
systems we are designing.
    Just as we have recently tested Orion by sending it on a shorter 
version of its future missions, we are continuously testing and 
experimenting on the International Space Station (ISS) in preparation 
for long-term missions in deep space. The administration has committed 
to extending operation of the International Space Station to at least 
2024. The fiscal year 2016 request includes $4,003.7 million for Space 
Operations, including $3,105.6 million for ISS. Two commercial 
providers are now under contract to supply cargo to this critical 
asset, making the extension possible and giving us increasing 
confidence in our long-term strategy. On March 27, astronaut Scott 
Kelly began a 1 year mission aboard the ISS to learn more about how to 
live and work in space for the long term. We will compare his vital 
signs to those of his twin brother, Mark, here on Earth in a first-ever 
experiment using identical twins to learn more about the effects of 
living in space. This is just one example of the vital knowledge and 
technology that our outpost in space will provide over the coming 
decade. The Space Station is the cornerstone of our exploration 
strategy, a nearby outpost in space where humanity is taking its early 
steps on its journey into the solar system.
    For the next step on the journey, NASA is developing the required 
deep-space exploration infrastructure while we plan for the earliest 
missions. NASA has established Agency Baseline Commitments for the 
Space Launch System (SLS) and Exploration Ground Systems (EGS), each of 
which supports a launch capability readiness date for Exploration 
Mission 1 (EM-1) of November 2018. EM-1 is the first mission for SLS 
and Orion. NASA remains on schedule for this EM-1 launch readiness date 
for SLS and EGS. Baseline cost and schedule for Orion are now being 
developed. NASA's budget request provides the funding needed to keep 
SLS, Orion, and EGS on track. NASA will determine the integrated launch 
date for the EM-1 mission after all critical design reviews are 
complete, later this year. SLS and Orion are critical to human 
spaceflight beyond low-Earth orbit as part of an evolvable, 
sustainable, and affordable exploration program.
    The journey to Mars runs through cis-lunar space. NASA's initial 
deep-space mission, EM-1, will launch to a ``Distant Retrograde Orbit'' 
around the Moon. NASA will use this region of space to test and 
demonstrate flight and mission operations and staging of human-rated 
vehicles farther from Earth than ever before. Crewed Orion missions 
launched on the SLS in the 2020s will establish our capability to 
operate safely and productively in deep space. In this `proving ground' 
of cis-lunar space, we will prepare for future deep space missions that 
will lead us to Mars. In late 2020, NASA plans to launch an advanced 
solar electric propulsion (SEP) based robotic spacecraft to approach an 
asteroid and remove a multi-ton boulder. After removing the boulder, 
the SEP spacecraft will redirect the asteroid in a demonstration of 
slow push deflection, a technique relevant to potential future 
planetary defense missions, and take the asteroid boulder to a stable 
Distant Retrograde Orbit around the moon. In 2025, launched by SLS, 
Orion will carry a two person crew on a 24-25 day mission to rendezvous 
and dock with the robotic SEP spacecraft in cis-lunar space. NASA will 
maneuver the integrated Orion and robotic vehicle stack in lunar orbit 
for about 5 days. The crew can then conduct Extra Vehicular Activities 
(EVA) to examine the asteroid boulder and collect samples before 
returning to Earth. NASA's plan leverages development efforts from 
existing programs across NASA mission directorates, and provides a 
critical opportunity to exercise our emerging deep space exploration 
capabilities.
    As NASA strives to achieve the goal of sending humans to Mars, it 
is important to remember we are already there. For 40 years, 
increasingly advanced robotic explorers have studied the Red Planet. 
This has dramatically increased our scientific knowledge and helped 
pave the way for astronauts to travel there. Our latest Mars 
spacecraft, MAVEN (Mars Atmosphere and Volatile EvolutioN), arrived 
last September to study the upper atmosphere and joined a fleet of 
orbiters and rovers on the surface. Next year, we will send the InSight 
(Interior Exploration using Seismic Investigations, Geodesy and Heat 
Transport) lander to study the planet's deep interior. In 2020, a new 
rover, building on the incredible success of Curiosity, will help us 
prepare for the arrival of humans at Mars. The Mars 2020 rover will 
address the highest priority Mars science objectives recommended by the 
Planetary Decadal Survey and will carry exploration technology 
investigations focused on capabilities such as in-situ resource 
utilization that will help in our planning for future human missions.
    Mars is a key destination, but only one point on humanity's journey 
of discovery. Ours is a journey of understanding reaching through our 
Earth system, across our solar system, and beyond, deep into the 
universe. The fiscal year 2016 budget request includes $5,288.6 million 
for Science to continue that mission, with $1,947.3 million for Earth 
Science, $1,361.2 million for Planetary Science, $709.1 million for 
Astrophysics, $620.0 million for the James Webb Space Telescope, and 
$651.0 million for Heliophysics.
    NASA's Planetary Science program continues to expand our knowledge 
of the solar system, with spacecraft in place from the innermost planet 
to the very edge of our Sun's influence. After 9 years and 3 billion 
miles of travel, the New Horizons spacecraft awakened and began to 
prepare for its arrival in the Pluto system in July. Right now, Dawn 
has entered into orbit around the dwarf planet Ceres. Juno is speeding 
toward Jupiter where it will not only send back unprecedented data from 
a first ever polar orbit of our giant neighbor, but will also 
demonstrate how solar power can work at great distances from the Sun. 
With the fiscal year 2016 request, NASA will continue development of a 
robotic asteroid rendezvous and sample return mission, dubbed OSIRIS-
REx, planned for launch in 2016. OSIRIS-REx will approach the near-
Earth Asteroid Bennu, map the asteroid, and collect a sample for return 
to Earth in 2023. Looking further to the future, NASA is planning a 
mission to explore Jupiter's fascinating moon Europa, selecting 
instruments this spring and moving toward the next phase of our work.
    The most important planet we study is the one on which we live--
Earth. Today, 21 NASA-developed research missions orbit Earth and 
provide a quantitative understanding of our complex planet, its origins 
and its future. In the last year, we have launched an unprecedented 
five Earth science missions, starting with the Global Precipitation 
Measurement Core Observatory (GPM) that already has observed Hurricane 
Arthur's brush of the East Coast last July. The Soil Moisture Active 
Passive (SMAP) mission, launched in January, will give us for the first 
time ever, a picture of soil moisture on a global scale, allowing 
scientists to monitor droughts and predict flooding caused by severe 
rainfall or snowmelt. New research missions in formulation include 
PACE, the Pre-Aerosol, Clouds and ocean Ecosystem continuity mission, 
that observes ocean color, aerosols, and clouds; NISAR, the NASA-ISRO 
Synthetic Aperture Radar mission, being developed in partnership with 
the Indian Space Research Organization to measure complex processes 
such as ecosystem disturbances and ice-sheet collapse; and CLARREO, the 
Climate Absolute Radiance and Refractivity Observatory Pathfinder that 
will begin pre-formulation this fiscal year.
    The Landsat series of satellites is a cornerstone of our Earth 
observing capability. The world relies on Landsat data to detect and 
measure land cover/land use change, the health of ecosystems, and water 
availability. The President's fiscal year 2016 request recognizes 
Landsat's critical importance and sets out a multi-decadal plan for an 
Earth-observing architecture that ensures data continuity and 
reliability. The Sustainable Land Imaging program partnership with the 
Department of the Interior's U.S. Geological Survey will include flight 
of a thermal-infrared free flyer and an upgraded Landsat-9 mission, 
while infusing new technological developments for future missions and 
ensuring consistency with the existing 42-year Landsat data record.
    Twenty-five years ago this April NASA deployed the Hubble Space 
Telescope. Hubble is still doing amazing science, and the last textbook 
that will have to be revised because of its discoveries has not yet 
been written. In just slightly over 3 years, NASA plans to launch the 
James Webb Space Telescope (JWST), Hubble's successor, and continue to 
reveal the unknown with the largest observatory ever put into space. 
This amazing telescope is taking shape right now in suburban Maryland, 
where this year the mirrors will be installed on the telescope 
backplane. The ``heart'' of the telescope that holds its instruments 
successfully completed a nearly 4-month test in a cryogenic thermal 
vacuum chamber. NASA's Astrophysics program operating missions include 
the Hubble, Chandra, Spitzer, and Kepler telescopes, the Stratospheric 
Observatory for Infrared Astronomy (SOFIA) airborne observatory, and 
other missions that together comprise an unrivaled resource for the 
study of our universe. With the fiscal year 2016 request, NASA will 
continue development of the Transiting Exoplanet Survey Satellite 
(TESS). TESS will extend the pioneering work of the Kepler Space 
Telescope, which showed us that virtually every star in the sky has a 
planetary system. TESS launches in 2018 and will discover rocky 
exoplanets orbiting the nearest and brightest stars in the sky in time 
for Webb to conduct follow-up observations. NASA will also continue 
pre-formulation of the Wide-Field Infrared Survey Telescope (WFIRST), 
the top priority for large-scale missions of the most recent National 
Academy of Science Decadal Survey in Astronomy and Astrophysics.
    Just as the most important planet that we study is the Earth, the 
most important star that we study is our own. NASA's Heliophysics 
Program is monitoring the Sun, near-Earth space, and the space 
environment throughout our solar system, with 29 spacecraft making up 
18 missions. These missions work toward one goal: to better understand 
the Sun and its interactions with the Earth and solar system, including 
space weather. The fiscal year 2016 request supports development of 
NASA's Solar Probe Plus (SPP) mission, planned for launch in 2018. SPP 
will be humanity's first voyage to our home star and will repeatedly 
pass through the Sun's hot outer atmosphere. NASA will also begin 
science operations of the Magnetospheric Multiscale (MMS) mission to 
investigate how magnetic fields around Earth connect and disconnect, 
explosively releasing tremendous amounts of energy in a process called 
magnetic reconnection.
    NASA's Aeronautics research is making air travel cleaner, safer, 
and more efficient. Every U.S. aircraft and U.S. air traffic control 
tower has NASA-developed-technology on board. NASA's fiscal year 2016 
budget request includes $571.4 million for Aeronautics to fulfill the 
Agency's strategic research agenda, addressing the most critical 
challenges facing the aviation sector. NASA is improving safety and 
reducing development costs of new aviation technologies, developing 
integrated air traffic management tools to expand airspace capacity 
with more fuel-efficient flight planning and diminish delays, and 
researching next generation aircraft configurations, efficient engines, 
and low carbon propulsion systems such as hybrid electric technology 
systems. NASA is enabling the future of unmanned and autonomous flight 
by providing technical data and analysis to directly inform FAA 
rulemaking related to Unmanned Aircraft Systems (UAS), funding 
technology development to address emerging needs for UAS integration, 
and initiating fundamental research in autonomous systems for aviation. 
Also in fiscal year 2016, NASA is initiating a series of flight 
demonstrations focused on environmental performance, and expanding our 
portfolio of rapid-turnover feasibility demonstrations to infuse new 
ideas into our research program. NASA's aeronautics research continues 
to play a vital leadership role to air travel and commerce by enabling 
game-changing technologies and innovation that allow the U.S. aviation 
industry to continue to grow and maintain its global leadership role. 
NASA is truly with you when you fly.
    NASA's spacecraft are voyaging beyond the solar system, we are 
developing a mission to pass right through the Sun's atmosphere, and 
our spacecraft are exploring the planets in between. The venerable 
Hubble Space Telescope is looking back into deep time, Kepler is 
demonstrating the prevalence of planets around other stars, and the 
James Webb Space Telescope is on the way. An early version of Orion 
splashed down in the Pacific, Astronaut Mark Kelly is preparing for a 1 
year mission in space, and the Space Launch System is on track for a 
November 2018 launch capability. NASA is embracing its mission as never 
before. NASA looks forward to working with the subcommittee and the 
Congress to make this vision a reality.
    Mr. Chairman, I would be pleased to respond to your questions and 
those of other members of the subcommittee.
                                 ______
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
              
               
              
                    SPACE LAUNCH SYSTEM TEST LAUNCH

    Senator Shelby. Thank you, General Bolden. The Government 
Accountability Office (GAO) found that NASA's cost estimates 
for the SLS and Orion projects do not extend beyond the first 
flight for the combined system, and the 2016 budget before us 
bears this out.
    GAO states that NASA's budget estimates do not include 
production costs for the second test flight scheduled for 2021, 
the development costs for upper stage development for SLS, or 
production operations and sustainment costs for Orion beyond 
the first test flight. GAO further states that NASA has 
continued to request funding that does not meet requirements.
    In the case of SLS, I cannot agree more with GAO's 
assessment of NASA's inadequate funding proposal. My question, 
General, is this: considering NASA will have to conduct 
multiple test flights for SLS, which require additional 
development and production, why does the 2016 budget only 
account for the first test launch of SLS?
    Mr. Bolden. Mr. Chairman, the 2016 request supports what we 
project in the budget horizon as required over the next 5 years 
to get us to a sustained program, of deep space exploration 
using SLS and Orion.
    You mentioned or I think you mentioned charts and graphs, 
and we are not about charts and graphs. We are talking about 
hardware. The barrel for the engine section of SLS was welded 
together at Michoud Assembly Facility, and other hydrogen and 
oxygen tanks are being done. We launched Orion in December. We 
hot fire tested the RS-25 engines down in Mississippi at 
Stennis, as Senator Cochran has said. We fired the next 
milestone test on the five segment solid rocket booster.
    I would say our budget as we have run it out has us on the 
path that we think is necessary to get humans back to deep 
space and then onto Mars.

                           UPPER STAGE ENGINE

    Senator Shelby. In the detailed portion of the 2016 budget 
for SLS, NASA only proposes development funds, as I understand 
it, through 2018 for an upper stage engine with no funding 
beyond that date. There is a known need to develop a human-
rated upper stage engine for the second test flight. The upper 
stage, it is my understanding, is on the critical path to the 
second test flight of SLS in 2021, yet it is my understanding 
there is no mention beyond preliminary planning for an upper 
stage required for a mission that is expected to launch say 6 
years hence.
    The question is this: why are no funds identified for the 
anticipated development for an upper stage when that 
development must be worked on in earnest during 2016?
    Mr. Bolden. Mr. Chairman, in prioritizing the work that we 
need to do over this next budget horizon, we recognize that an 
exploration upper stage is something that will be necessary.
    You are absolutely correct in that if we had unlimited 
funds, we would begin development of the exploration upper 
stage today. We are given a budget that is no longer flat, I 
will say, people used to say flat was the new ``up,'' but the 
new up is starting to look like you are going to let us work 
inflation in, so it is no longer flat. I think the budget that 
we submitted presents a balanced portfolio of missions for the 
agency that show us on a time line to get to Mars in the 2030s.

                    NASA'S RELATIONSHIP WITH RUSSIA

    Senator Shelby. I am on my last area that I will get into 
momentarily, the International Space Station. When we discussed 
the budget here last year, I asked about our relationship with 
the Russians in regard to the space station and what would 
happen if they were to end the partnership.
    At that time, you said, and I quote ``Should we or the 
Russians choose to pull out, the International Space Station as 
we know it no longer exists.'' Those were your words, General.
    The Russians have indicated that their intent is to 
separate their portion of the station in 2024. We know that is 
down the road. That essentially gives the facility an 
expiration date.
    My question is this: has Russia formally notified you that 
this is their intent, to separate their portion of the space 
station in 2024?
    Mr. Bolden. Quite the contrary, Mr. Chairman. In my 
meetings with my counterpart, Mr. Komarov, in Baikonur on the 
periphery of Scott Kelly's launch about 3 weeks ago, he made 
what I would not call a startling announcement, but he made a 
very encouraging announcement that contrary to what we heard, 
the rhetoric from the Russians, that they were committed to the 
International Space Station through 2024, and they did not 
intend to pull pieces off and start their own space station.
    Senator Shelby. Did he indicate that would be a hard 
commitment or a soft one?
    Mr. Bolden. Mr. Chairman, it is no harder a commitment than 
ours. I think if everyone will remember, when the President 
allowed me to propose that we go to 2024, we said at least 
2024.
    The only hard date we know about the space station today is 
2028 because that is as far as the engineering analyses of all 
the partners say that 2028 is about as long as we can keep the 
space station flying, but we do not want to keep the current 
space station flying forever.
    We want to get NASA and other agencies out of low-Earth 
orbit and onto exploration. The vision that we see----
    Senator Shelby. The space station was never constructed to 
be there in perpetuity, was it?
    Mr. Bolden. Mr. Chairman, that is absolutely correct. We 
have never built anything intended to be there in perpetuity. I 
am smiling at Senator Mikulski. We did not build the Hubble 
Space Telescope to be there as long as it has been, but thanks 
to her shepherding the program. we are getting ready to 
celebrate 25 incredible years.

                   JAMES WEBB SPACE TELESCOPE (JWST)

    Senator Shelby. We are also moving to another stage, past 
the Hubble, because of what we found in the use of having the 
Hubble.
    Mr. Bolden. Again, I think you are helping me to emphasize 
the critical importance of your ranking member.
    Senator Shelby. She did a great job.
    Mr. Bolden. She chewed me out and I appreciated it when I 
became the NASA Administrator. It was not really chewing me 
out.
    Senator Shelby. Appreciated years later.
    Mr. Bolden. She told me she wanted me to straighten out the 
James Webb Space Telescope, and we relooked at the program. I 
came in, and I went to the President. I came to Senator 
Mikulski and said we are not going to make it, and we need to 
redo this program, and we are now on schedule on cost to launch 
the James Webb Space Telescope in 2018, and that is primarily 
because of the work and the encouragement of Senator Mikulski.

                         INTERNATIONAL PARTNERS

    Senator Shelby. Thank you. What is the level of commitment 
from some of our other international partners to operate the 
space station beyond 2020?
    Mr. Bolden. Now that we have the Russians on record saying 
they are with us through at least 2024, other partners are 
beginning to feel better. That is what they were waiting for, 
to see the two primary partners get on board with each other. I 
expect that over the coming year or two, just as it was to get 
everybody to go to 2020, I think in the next couple of years, 
you will see that all the partners will agree that 2024 is the 
horizon for the International Space Station now.
    Senator Shelby. Is it even possible to operate as you know 
it the space station without the Russian segments should we 
choose to operate the station on our own?
    Mr. Bolden. Yes, sir.
    Senator Shelby. Okay. Senator Mikulski.

                   GODDARD SPACE FLIGHT CENTER BUDGET

    Senator Mikulski. Thank you, Mr. Chairman. Administrator 
Bolden, first of all, thank you for your kind words about me 
and what I have done and the Hubble Telescope.
    I think also it is a tribute to really bipartisanship, and 
I know really very early in my Senate career, I became the 
chairman of the Subcommittee on VA/HUD, of which NASA was part 
of. My colleague at the time and vice chairman was Senator Jake 
Garn. I cannot say enough about the appreciation I had for 
Senators Garn and John Glenn. Bill Nelson was not here. It 
showed how the astronaut senators and I with Goddard Space 
Flight Center really worked on the whole idea of a balanced 
space program.
    What we did initially to fix Hubble was because we worked 
on a bipartisan basis, and the efforts of Senator Garn and with 
Senator Garn, we had the credibility, although I had the gavel, 
they had the credibility, and then NASA had the know-how.
    That is really kind of the spirit of the way it is, and I 
wanted to just acknowledge the role that others have played. We 
have kept that going with Senator Shelby.
    Now, as we also look, and you commented on the New 
Horizons, yes, the press is reporting as is JPL, that we are 
really now pretty close to that Pluto thing, and by all 
accounts and reports, technological reports, we are absolutely 
on target for its arrival at Pluto on target.
    I want to be sure that our best days are not behind us, and 
we are committed to a balanced space program. The human space 
flight, a reliable transportation system for our astronauts to 
go where they have not, and also to do the kind of servicing 
that will be necessary, along with space science.
    Of course, you know I am going to ask you about Goddard. 
When I saw the President's budget, in which Goddard was funded 
at $324 million below fiscal year 2015, when they have 32 on 
orbit missions, when they make sure that Hubble is targeted and 
maximizing its use in its current age and stage, and then 
managing the satellite construction for two of the major 
National Oceanic and Atmospheric Administration (NOAA) 
projects, along with the James Webb, they have a full plate, 
and yet you cut them $300 million.
    Can you tell me, number one, why, and what are the 
consequences of that? I am very apprehensive that they are 
doing all this great work and they have been cut roughly 10 
percent.
    Mr. Bolden. Senator, our projection for this year, for this 
fiscal year, at the end of the year, because we do not 
formalize some projects until we are well into the fiscal year, 
but as a result of that, our estimate is that the Goddard Space 
Flight Center will end up with about $2.6 billion, their 
portion of the NASA budget.
    The projection for fiscal year 2016 is given the work they 
are about to do, that they are embarking on, an example would 
be if you told me today in this hearing to go ahead and 
authorize the beginning on the tiers for continuous land 
imaging, Goddard would start tomorrow morning. That is not in 
their portfolio right now.
    We anticipate that Goddard will again in fiscal year 2016, 
when all is said and done, end up managing $2.6 billion of 
projects. It is actually a preliminary look at what we have 
based on the programs we have directed----
    Senator Mikulski. Are you saying you are going to give them 
more work during the year and then as the year goes on, you are 
giving them more money?
    Mr. Bolden. They get more work as the year goes by. 
Subsequently, they get more money. They get responsibility for 
more money.
    Senator Mikulski. In other words, if they get more 
responsibility, does the resource follow the responsibility?
    Mr. Bolden. Yes, ma'am; it does. Yes, ma'am. I was going to 
get cute, but I will not.
    Senator Mikulski. No, do not.
    Mr. Bolden. I am not.
    Senator Mikulski. In terms of time, we have a lot of ground 
to cover, but space to cover.
    Mr. Bolden. Yes, ma'am.

                          SATELLITE SERVICING

    Senator Mikulski. Which then takes us to an area called 
``satellite servicing.'' To my colleagues who are also 
interested in national security, I know we are worried about 
our satellites, number one, not for the purposes of this 
hearing, it would be inappropriate, but we worry about the 
Chinese and what they are doing in terms of any satellite 
technology, so that is one dimension not for this hearing, and 
of course, across committees.
    Also, we have satellites that our Government has, 
particularly science satellites, and our private and even non-
profit sector have. Goddard has been developing a technology 
and workforce to satellite servicing, so they do not end up 
space junk. That was funded at $130 million in fiscal year 
2015, and they have been cut by 50 percent to $65 million.
    Could you tell me the rationale for that, or do you not 
want to do satellite servicing?
    Mr. Bolden. Senator, we sincerely--I think we are all on 
the same sheet of music. No one is more dedicated, for example, 
to SLS and exploration than I. I share your enthusiasm there.
    I share the enthusiasm for making sure that this Nation is 
second to none when it comes to being able to maintain and 
secure our satellites. With that in mind, I would request that 
you allow me to come and have a conversation with you, and I 
can bring staff members or some of your staff, so we can talk 
about satellite servicing and the challenges that we face 
there.
    It is my belief that with industry, companies like 
MacDonald, Dettwiler and Associates Ltd. (MDA), like Alliant 
Techsystems Inc. (ATK), who already have hardware in hand that 
does some of the functions we know we are going to need, and 
working with the Defense Advanced Research Projects Agency 
(DARPA) collaboratively----
    Senator Mikulski. You come and talk to me.
    Mr. Bolden. Yes, ma'am. I would really appreciate that. To 
be quite honest, I want to be in sync with the subcommittee, 
and I will admit, I am the one person in this room who is 
probably not in sync with you all, because for 4 years I have 
pleaded with people to tell me who the customer is going to be, 
and the potential customers keep telling me they would much 
rather have me be their customer.
    I want to make sure that we are not at odds with American 
industry. I need to talk to you, if that would be good. I think 
we can get in sync.
    Senator Mikulski. My time is up. I have another question 
about Wallops. I say to my chairman of this subcommittee and 
the chairman of the full committee, satellites are on my mind, 
and they are really a big budget, not only in the NASA 
committee.
    Whether it is NOAA or the Department of Defense (DOD), I am 
worried that we do not know how to build them and maintain them 
and service them. We often run into satellite boondoggles.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. That is one thing. The second thing is 
then when they are up there, what do we do with them when they 
are no longer functional and can they be rescued. And third, 
the national security protection of key satellites from those 
nation states or others that would have a predatory intent.
    I have satellites on my mind. I would like it in the 
budget.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. Mr. Chairman, I have used up a lot of 
time.
    Senator Shelby. It is okay. Senator Cochran.

                       SPACE EXPLORATION PROGRAM

    Senator Cochran. Mr. Chairman, thank you. Welcome again to 
our hearing. We appreciate the cooperation that we have 
received over time in helping to share our views with the 
Administration officials who have come before our subcommittee 
requesting funding for the programs and activities. It is a 
pleasure to work with you on all these challenges.
    As NASA continues to work on development of the space 
launch system, are you satisfied that the Administration and 
the Congress are constructively working together to help reach 
our goals of our space exploration program?
    Mr. Bolden. Senator Cochran, because I am a part of the 
Administration, I will say I am not satisfied that I have 
sufficiently worked with this subcommittee, and I pledge I will 
do better.
    It is like I mentioned to Senator Mikulski, I have pledged 
that I will be here much more than I have been, communicating 
with members of the subcommittee. I am pleading for the Senate 
to confirm Dr. Dava Newman as my deputy because I need the 
help. I think that will free me up to be able to spend more 
time with members of the subcommittee.
    As I said in my opening statement, together, the 
Administration and this Congress have done an incredible job 
over the last 5 years. I want the members of the subcommittee 
to take credit for what you have done, to be quite honest. It 
is like trying to get the Administration to take credit. It 
seems like we are in the middle, and we are really happy about 
what has been done. We are not fooling ourselves that we have 
done everything. We think we are the best in the world at what 
we do, but that is not good enough.
    I know that is a jumbled answer to your question, but I do 
not want you to think I am satisfied. I am not. I will do 
better.

                     ENGINE TESTING INFRASTRUCTURE

    Senator Cochran. Specifically--thank you for that. The 
budget request provides information for us that is very 
helpful. We want to be sure we are doing the right thing, too. 
I want to know what your reaction is to whether we are 
providing adequate resources for the engine testing 
infrastructure to support the development of the Space Launch 
System, that would be a credit to our country.
    Mr. Bolden. Senator, this subcommittee and the Congress 
have provided everything that we have asked for. I do not have 
any complaints about that. I would point out when you talked 
specifically about Stennis, the fact that we have had testing 
done by SpaceX, Aerojet Rocketdyne, DOD is now talking to us 
about doing testing at Stennis, Blue Origin is now doing 
testing at Stennis.
    That in itself says we are being successful at capitalizing 
on the ability of American industry to augment what NASA does, 
so that we can utilize the funds that this subcommittee gives 
us to get on with the business of going into deep space.
    Getting to Mars is our main objective right now. In order 
to do that, we need other things. We need the International 
Space Station to be viable and sustainable. We are comfortable 
we are okay there. We keep taking little bits of money away 
from the station to do other things in space operations that 
make me nervous sometimes.
    We have to have the money we requested for commercial crew 
because that will finish off NASA getting out of low-Earth 
orbit access, and we will have successfully turned that over to 
American industry, and that puts us one step farther to being 
Earth independent. Not there, but one step farther.
    We then need to move out into what we call the ``proving 
ground,'' going back to space, to orbit around the Moon for 
about a 10-year period of time to develop the technologies that 
we need to move onto Mars.
    We have a lot of work to do, but this subcommittee, I 
cannot complain. I thank you for the funding you have given us.
    Senator Cochran. We appreciate that. We want to continue to 
do what is necessary to ensure a robust engine testing 
infrastructure as Stennis, and if we think they have earned the 
right to continue to contribute up to date military 
intelligence capabilities that would be a credit to our 
country, and we are looking to develop and test even new rocket 
engines in the future.
    What is your reaction to that? Is there a future?
    Mr. Bolden. Senator Mikulski said she wanted to make sure 
that our best days were not behind us. Our best days are in 
front of us, I can promise you that. I am not smiling and 
sounding optimistic because I am trying to look good or 
something. I am excited about the future.
    When I travel around to college campuses or high schools 
around the country or around the world, young people are really 
excited about what we are doing. They see this is their future. 
It is not ours. We are passing through. There is no doubt in my 
mind, Senator, all of you, that our best days are ahead of us.
    Senator Cochran. It looks like we have a new city there, 
Stennis.
    Mr. Bolden. It is the Federal city.
    Senator Cochran. As well as the testing facility.
    Mr. Bolden. Yes, sir.
    Senator Cochran. We appreciate the fact that it has grown 
to become a Federal city due to the multiple Federal tenants 
that are there and seemed to be happy with what is going on, 
access to people, a beautiful view along the Mississippi Gulf 
Coast to boot.
    Mr. Bolden. Yes, sir.
    Senator Cochran. Thank you very much.
    Mr. Bolden. Yes, sir.
    Senator Shelby. Senator Capito.

        INDEPENDENT VERIFICATION AND VALIDATION (IV&V) FACILITY

    Senator Capito. Thank you, Mr. Chairman. Thank you to the 
Administrator. General Bolden, we are really proud of the work 
that NASA does in West Virginia with the IV&V Program in 
Fairmont. The employees there are making a great contribution 
to our State, and I think to your agency, and to our country. 
It seems to me the service they provide is critical to complete 
your agency's objectives, both for the manned and unmanned 
missions. Can you share some thoughts about IV&V and what you 
think the future is for that part of NASA?
    Mr. Bolden. The facility in West Virginia, but IV&V in 
general, in the broadest sense, because a lot of its work is 
not just done there, but done other places around the country. 
The work that is done for NASA is incredible. Again, the 
measure of your success or the measure of respect people show 
for you is to have outside organizations come to you and ask 
for assistance. We finished off the work we were doing for 
Homeland Security, for folks in New York City, so there have 
been other outside organizations that have asked for help that 
IV&V has been able to provide for them. They provide a very 
necessary capability to this agency.
    Senator Capito. Thank you. They also in their program, as 
you probably know, are inspiring students and educators in West 
Virginia, have over 100 educator workshops that they 
participated in, and have had a good impact.
    One of the areas that I am interested in and because I am 
the co-chair of the recently formed Diversifying Technology 
Caucus, you know, we all have a caucus in a different name, I 
am a science major myself, and there is a great concern, and I 
share this concern, and you spoke about young people, a lot of 
the STEM education is not as diversified, both by females and 
minorities, what does NASA look like? You have a lot of science 
majors over there. I know you do not have this at the tip of 
your fingers. I am just curious.
    Mr. Bolden. Unfortunately, I have it at the tip of my 
finger because I am not happy.
    Senator Capito. Okay; good.
    Mr. Bolden. We at NASA feel we should be the model for 
every other agency in the Federal Government, and as I said 
before, we have been the best place to work in Government for 
the past 3 years based on the Employee Viewpoint Survey, but we 
are worried. I am worried about the inability to maintain, to 
retain women and minorities in senior levels of leadership in 
the STEM fields.
    The Deputy Associate Administrator, my chief scientist, 
Center Director Ellen Ochoa, Astronaut Cady Coleman, I have 
people all over trying to figure out what we are not doing 
right. We are probably better than most other Federal agencies, 
but that is not satisfactory.
    Senator Capito. If you have the figures, since you 
mentioned it----
    Mr. Bolden. Let me get it to you, so I do not guess.
    [The information follows:]

               Diversity of NASA Scientists and Engineers

                            As of April 2015

Explanation of terms and acronyms:

AAPI = Asian American and Pacific Islander. The percentage of Native 
Hawaiian and Other Pacific Islanders in the science and engineering 
civilian labor force is so small that meaningful comparisons with 
NASA's workforce could not be made if they were reported in a separate 
category (i.e., everything rounds to zero); they are therefore combined 
with Asian Americans for the purpose of comparing NASA with the RCLF.

AIAN = American Indian/Alaska Native

AST = Aerospace Technologist. AST is a special designation approved by 
OPM for the types of scientists and engineers hired by NASA. It is 
NASA's main mission critical occupational category.

RCLF = Relevant Civilian Labor Force (the portion of the 2010 civilian 
labor force that most closely matches the science and engineering 
workforces at NASA. There is one RCLF calculated for NASA Engineers and 
one calculated for Physical Scientists because the demographic 
diversity for these occupational categories is quite different. The 
RCLF is the benchmark used to compare NASA's diversity with that of the 
available technical labor pool. Note: for senior level positions, a 
different benchmark is used, namely the total NASA AST workforce. The 
logic is that, for example, if 8 percent of NASA's AST workforce is 
African American, then approximately 8 percent of NASA's senior AST 
positions should be African Americans. This is an internal benchmark, 
as opposed to the RCLF, which is an external benchmark.

RNO = Race/National Origin

SES = Senior Executive Service

SL = Senior Level

ST = Senior Technologist


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                        DIVERSIFYING TECHNOLOGY

    Mr. Bolden. I can tell you the mix of women in the STEM 
field marries what it is in society, and that is why I say that 
is unacceptable.
    Senator Capito. It is unacceptable.
    Mr. Bolden. We have 51 percent women in the population and 
we are in the low teens of percentage of women in STEM. That 
does not say 51 percent of the STEM workforce ought to be 
women, but it ought to be better than 13 or whatever it is.
    Senator Capito. I would suggest, and I think the IV&V 
Program has done this by doing educator outreach--for some 
reason, it is probably the same thing Senator Mikulski and I 
have, we get the question all the time, why are there not more 
women in the Senate, why are there not more women in public 
service.
    It is one of these things that the numbers have to feed on 
one another and one another, and it is a slow progress. I think 
by starting early, K through elementary, K through three, you 
really do have to start there, because when you see what is 
coming at our young people in terms of how they can get a lot 
of knowledge from their phones and everything else, their minds 
are forming, I think, earlier on what direction they want to 
go.
    I would love to partner with NASA in this endeavor on 
diversifying technology. I think it is a natural spot. Since we 
have a good presence in Fairmont, that might be a good jumping 
off place for some kind of pilot programs to be able to inspire 
our young women and more minorities to join this exciting field 
that can be very, very lucrative at the same time and very 
stable.
    Mr. Bolden. Yes, ma'am.
    Senator Capito. I thank you for your service. Thank you.
    Senator Shelby. Senator Mikulski.

                       JAMES WEBB SPACE TELESCOPE

    Senator Mikulski. Mr. Chairman, just one question and one 
comment. The James Webb Space Telescope, you are exactly right, 
Administrator, that we were deeply troubled about the Webb, 
that there were cost overruns, could we meet both the 
technological targets as well as the fiscal targets.
    Could you tell the subcommittee the status of the James 
Webb and have you also addressed the GAO questions about 
schedule reserves and the cryocooler to make sure it--as you 
know, there is the GAO report, some press reports, and flashing 
yellow lights.
    Could you tell us are you on target, and have you addressed 
these concerns raised by these outside oversights?
    Mr. Bolden. Senator, I would venture to say we are on 
target, and we are on target for one primary reason, and that 
is after I promised you, the responsibility for the James Webb 
Space Telescope came into the Office of the Administrator. 
First, we had Chris Scolese as the Associate Administrator, and 
now Robert Lightfoot, and in their respective roles, they were 
representing me in James Webb almost every day.
    Chris Scolese is now at the Goddard Space Flight Center 
that has primary responsibility for it. Chris is in it every 
single day. I now have a monthly tag up with Wes Bush, the CEO 
of Northrop Grumman, because we both agree on the critical 
importance of the James Webb Space Telescope, not just to this 
Nation but to the world, but also it is critical for both him 
and me to demonstrate we know what the heck we are doing.
    If we cannot deliver it on time and on budget or under 
budget, then it says there is something wrong. We are concerned 
about the technological challenge of the cryocooler, but we 
think that is getting back on track.
    We still have about a 10 month cushion in the schedule, but 
I caution people----
    Senator Mikulski. What does a cryocooler do?
    Mr. Bolden. It is actually what enables the telescope to go 
down to almost absolute zero. It takes it to really cold. It is 
going to operate a million miles away from Earth, and it is an 
infrared imaging telescope. The reason why it is so phenomenal 
and that it is going to dwarf the capability of Hubble is 
because although it only operates in the infrared range, 
keeping it as cold as we do, it is going to be able to look 
into the atmosphere of distant planets around the billions of 
distant stars, some that are not even in our own Galaxy. That 
is what is going to make it really, really good.
    It would still be phenomenal without it, but that is not 
what we----
    Senator Mikulski. Presuming this actually happens, do you 
believe the completion and successful launch and operation of 
the James Webb will secure America's preeminence in astronomy 
for the next 30 or 40 years?
    Mr. Bolden. Senator, there is no question. Now that we are 
on the Hubble anniversary, I tell people about our crew before 
we launched on the deploy mission, we knew, we absolutely knew 
that Hubble was going to do something great. We had no clue. If 
anybody had asked us if it was going to have taken its place in 
the pantheon of great scientific instruments, we did not know 
that. We are very confident that James Webb will further 
revolutionize the fields of planetary science, astrophysics. We 
will know more about this universe as a result of James Webb 
after 2018 than anybody ever imagined.
    Senator Mikulski. I am glad I went into orbit.
    Mr. Bolden. You and me both.
    Senator Mikulski. Thank you very much.
    Senator Shelby. Thank you, Senator Mikulski. I think 
Senator Mikulski knew it. She knew what the potential was or 
she would not have pushed so long and so hard and successfully, 
and we should all be grateful. She must be akin to her cousin, 
Copernicus, in looking ahead in some way.

               COMMERCIAL CREW MILESTONE SCHEDULE DELAYS

    General, I have a couple more questions. NASA entered into, 
in my understanding, two milestone based contracts worth up to 
$6.8 billion in September of this last year to finish the 
development and testing of crewed vehicles.
    Aside from five milestones that NASA required, the 
contractors were able to add milestones and time lines of their 
own, with payment only given when a milestone is achieved. NASA 
has already publicly stated that a significant number of the 
milestones are being altered. In other words, they have not met 
them, some with delays of 6 months or more.
    A lot of us are concerned by the potentially large number 
of changes and delays so soon in the program. My question is 
this: the subcommittee has seen the first quarter report on the 
Commercial Crew Program. Who asked for the changes to the 
milestones, and how will altering the milestone schedules delay 
the expected date for taking our astronauts to the space 
station?
    Mr. Bolden. Mr. Chairman, I will get you specific answers 
for the record.
    [The information follows:]

           Commercial Crew Program Milestone Schedule Delays

    As reported to the Committee, both Commercial Crew Transportation 
Capability (CCtCap) companies updated their schedules to reflect 
additional design maturation and to allow sufficient time to complete 
system development and certification. NASA anticipated a number of 
these types of changes during this timeframe because the original 
contract milestones were established when the companies submitted their 
CCtCap proposals, over a year ago. Such changes are not indicative of 
poor company performance, but are viewed by NASA to be the normal 
evolution of refining subcontract schedules and finalizing development 
plans after contract award. Accordingly, the companies requested the 
milestone date changes, and NASA has reviewed and approved them. We 
will continue to work with the companies to adhere to the new overall 
schedule. We will identify any possible changes quickly making minor 
milestones adjustments only as required. This will protect overall 
schedule while maintaining a safe configuration for our crews.
    As reported in the first Quarterly Report, the Certification Review 
milestone date (i.e., the expected date for NASA certification of the 
companies systems to transport NASA personnel to the ISS) for Boeing 
was changed from August 2017 to October 2017; the SpaceX Certification 
Review milestone date was changed from April 2017 to October 2017. The 
Commercial Crew Program is a large, complex development effort whereby 
the partners are expected to conform to a set of requirements in a 
fixed price contract.

    Mr. Bolden. I will tell you how it works. Frequently, we 
ask for the slip in the milestone because we do not have the 
money to pay it. That is why it is critically important. We now 
have two contracts, so we are contractually obligated to Boeing 
and SpaceX to pay them up to $6.8 billion. We have guaranteed 
them two missions each minimum, and up to six.
    Senator Shelby. You want to meet those obligations.
    Mr. Bolden. I want to meet those obligations, and the only 
way for me to meet them----
    Senator Shelby. Will they meet their obligations?
    Mr. Bolden. They will meet their obligations. Mr. Chairman, 
I do not have any doubt. I have the utmost confidence in both 
Boeing and SpaceX that they will meet their obligations if we 
meet ours to pay the bill.
    Our obligation is to provide oversight and insight, and 
make sure that we know what they have to do to provide us a 
safe vehicle. I have to have the money to pay them.
    Senator Shelby. Will you get this information for the 
subcommittee to evaluate?
    Mr. Bolden. I will.

                       RUSSIAN SEAT SOLICITATION

    Senator Shelby. My last question has to do with the Russian 
seat solicitation. The Commercial Crew Program is intending to 
replace our reliance on the Russians for transport to and from 
the space station as early as 2017.
    NASA has put a solicitation out, is my understanding, to 
purchase six more seats on Russian vehicles at a time when 
seats on the commercial crew vehicles should be available. I 
said ``should.''
    Mr. Bolden. Yes, sir.
    Senator Shelby. It appears NASA is already purchasing its 
own insurance policy in case the crew providers are not ready. 
I do not know that. The current cost of a seat from the 
Russians, I understand, is about $76 million, and it will 
likely be even more for those additional seats.
    The question I have for you, General, and for the record, 
too, what has NASA seen so far in the continued development of 
our own crewed vehicles to justify paying Russia hundreds of 
millions of dollars for seats that should already be covered by 
the U.S. providers if the U.S. companies meet their milestones?
    I do not know the situation. Could you explain?
    Mr. Bolden. Yes. The primary we have seen is the lack of 
commitment on the part of the Congress to fund the program at 
the amount requested by the President, and the President's 
request was to meet the contractual price that we negotiated 
with Boeing and SpaceX. That is not an estimate.
    Senator Shelby. The bottom line is you need more money; is 
that right?
    Mr. Bolden. We always need what we ask for in the budget. I 
would be more than happy to take more. We really need $1.2 
billion in 2016 because this is a critical time for us to make 
the 2017 launch date. We need $1.2 billion so they can complete 
the milestones that we have both agreed to.
    Senator Shelby. If they can complete them, we would not 
need to spend that money with Russia; right?
    Mr. Bolden. When we have an American capability, then we do 
not spend any more money with the Russians. We do not pay them 
for seats any more. We definitely will not pay them for seats 
any more once we have an American capability.

      COMMERCIAL CREW TRANSPORTATION CAPABILITY (CCTCAP) CONTRACTS

    Senator Shelby. Let me share this with you. It is my 
understanding that in the Commercial Crew Program, NASA 
initially decided to spread, General, the limited funding 
resources across five companies. It took NASA 5 years and $1.9 
billion to finally pick two companies.
    Mr. Bolden. Yes, sir.
    Senator Shelby. That will share $6.8 billion to develop a 
commercial crew capability. However, NASA continues to blame 
Congress for lack of resources, when it was NASA that chose to 
spend nearly $2 billion on a competition.
    While I agree as we all do that competition is important, 
prudent decisions in constrained fiscal environments such as 
this, are very important.
    My question here is this: in your view, has the decision to 
fund multiple companies during the initial competition delayed 
the delivery of a viable commercial crew capability? You spent 
a good deal of money doing that.
    Mr. Bolden. Senator, it is my belief that spending that 
money did not delay it at all. In fact, it gave us assurance 
that the two systems that we finally selected would in fact be 
the absolute best. We are still investing money in some of the 
companies that were in competition initially because they are 
still getting milestone payments under the original Space Act 
Agreements that we had, because they are bringing us benefits 
that we do not have to develop ourselves or the two contractors 
do not.
    If you look at Blue Origin, for example, as a result of the 
work that they have been doing with engines, we may have a new 
launch system by an American company with American engines. 
That remains to be seen.
    Some of the development that they did in the area of 
engines was as a result of collaborating with NASA, some of the 
test of components, as Senator Cochran mentioned, was done at 
Stennis. They do not test the full engine but they are where 
they are today, perhaps 2 years away from being able to develop 
a heavy lift engine of American origin, and that is because of 
the work that we supplemented.
    Senator Shelby. We appreciate that. We will continue to 
look at that. It is incumbent upon this subcommittee, as 
Senator Mikulski has said many times, that we are accountable 
to the American people and to our colleagues, and you are 
accountable to us. We are going to have to ask the right and 
tough questions.
    Mr. Bolden. Yes, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Thank you very much, General. This will 
conclude our hearing. We may have some follow-up questions for 
the record.
    Mr. Bolden. Yes, sir. Mr. Chairman, I will get you the 
information.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
           Questions Submitted to Hon. Charles F. Bolden, Jr.
          Questions Submitted by Senator Christopher A. Coons
                         spaceport launch pad 0
    Question. What is the status of funding to complete repairs to 
launch Pad 0-A (Spaceport) in order to return to flight the Antares 
Rocket from the Wallops Flight Facility?
    Answer. NASA is strongly committed to maintaining a small/medium 
class launch vehicle capability at the NASA Wallops Flight Facility 
(WFF) in support of cargo resupply for the International Space Station 
(ISS), and is pleased at the progress of repair activities at pad 0A. 
NASA intends to ensure the needs of the ISS are met through the 
Commercial Resupply Services (CRS) contract between NASA and Orbital 
Sciences Corporation (now Orbital ATK). In fiscal year 2015, consistent 
with NASA's communications with the House and Senate Committees on 
Appropriations, NASA has provided a total of $5.0 million for 
commercial launch site services at WFF. Orbital ATK has made clear they 
intend to recover the capability to launch resupply missions again from 
Wallops, and has allocated funding in this regard. The Mid-Atlantic 
Regional Spaceport (MARS) has allocated funding from their annual 
maintenance budget for site cleanup and environmental remediation 
activities, site and engineering damage assessments, disassembly of 
damaged pad infrastructure, and repair of pad systems. NASA is 
continuing to work with all the parties--MARS, Orbital ATK, and the 
Commonwealth of Virginia--to ensure a small/medium class launch 
capability is restored to Wallops under the terms of the existing 
contracts and agreements. In sum, MARS continues to make good progress 
towards Pad 0A repair and return to service. All required demolition 
work has been completed, and all concrete structures have been repaired 
or replaced. In addition, all damaged fueling and pressure system 
piping have been identified, and fabrication and installation of new 
items is proceeding well. MARS, Orbital ATK, and NASA WFF are currently 
(end of July) in the replacement, cleaning and testing stage of the pad 
recovery. Environment monitoring is continuing to ensure there is no 
lasting impact to the launch pad area. Funding allocated to date 
supports the schedule for Pad 0A turnover to Orbital-ATK as planned.
                      national space access needs
    Question. What is NASA's plan to upgrade the range capabilities at 
Wallops Flight Facility, NASA's only launch range and one of the few 
active commercial spaceports to meet emerging national space access 
needs?
    Answer. NASA missions use a number of launch sites, including the 
Agency's facilities at Kennedy Space Center in Florida and Wallops 
Flight Facility in Virginia.
  --The Wallops Range Control Center expansion and upgrades are 
        continuing, and the remote range support systems in Bermuda are 
        being upgraded and hardened. Bermuda support is required for 
        Orbital-ATK Antares Commercial Resupply Services (CRS) 
        launches. The work being done in Bermuda includes:
    --Instrumentation formerly in mobile command and telemetry trailers 
            will be housed in a concrete building originally built by 
            NASA;
    --Radomes will be installed to protect sensitive antennas, 
            previously subject to extreme corrosion; and
    --Upgrades and hardening will significantly reduce annual funding 
            requirements for personnel and maintenance associated with 
            Bermuda activities.

                          SUBCOMMITTEE RECESS

    Senator Shelby. Thank you very much. The subcommittee is 
adjourned.
    [Whereupon, at 3:30 p.m., Thursday, April 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]



  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2016

                              ----------                              


                         THURSDAY, MAY 7, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:32 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (Chairman) 
presiding.
    Present: Senators Shelby, Alexander, Murkowski, Collins, 
Kirk, Boozman, Capito, Mikulski, Leahy, Feinstein, Coons, 
Baldwin, and Murphy.

                         DEPARTMENT OF JUSTICE

                     Office of the Attorney General

STATEMENT OF HON. LORETTA E. LYNCH, ATTORNEY GENERAL

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The subcommittee will come to order. 
Welcome to today's Commerce, Justice, and Science Subcommittee 
hearing examining the Department of Justice's fiscal year 2016 
budget request.
    First, let me welcome Attorney General Loretta Lynch to her 
first hearing before this subcommittee as she assumes the 
important responsibility of serving as our Nation's chief law 
enforcement officer. Welcome. As you begin your term as 
Attorney General, I believe that it is critical for you to 
return the Office of Attorney General to its constitutional 
purpose, which is to enforce the laws of the land, not the 
decrees and whims of the President.
    The President has a White House counsel and plenty of 
attorneys arguing for his points of view on immigration, 
privacy, environmental regulations and more. The Attorney 
General, I believe, is the servant of the laws and citizens of 
the United States, not the President. I want to encourage you, 
Madam Attorney General, to consider this perspective carefully 
as you begin your service in a job that is critical to our 
democracy and to the rule of law.
    I am deeply troubled by your support of the President's 
unilateral Executive actions, which provide amnesty to millions 
of illegal immigrants. Fortunately, the sweeping policy change 
undertaken without input from Congress has been stayed by the 
courts while a detailed review is conducted through the lens of 
the law and the Constitution. I hope that while this litigation 
is pending, progress will be made on key responsibilities that 
are within the Department's jurisdiction, such as the Executive 
Office for Immigration Review. The President's 2016 budget 
seeks a funding level of $482 million for this office, which is 
$135 million above the current 2015 funding level. That is a 
big increase.
    Significant improvements and reforms I believe are needed 
in our immigration court system in order to address the 
approximately 440,000 pending cases, some of which involve 
unaccompanied children. This backlog equates to a waiting 
period of several years before a case is heard. I believe, and 
I would hope you would agree, that this is unacceptable. While 
the needs are great for immigration courts, I have serious 
reservations about such a large funding increase when 
inefficiencies in management concerns have yet to be addressed 
within this office.
    In your new role as the Attorney General of the United 
States, I am interested in hearing your suggestions and 
recommendations for prioritizing spending for the Department's 
most important and pressing missions involving national 
security, law enforcement, and criminal justice. The 
President's 2016 budget request for the Department of Justice 
totals $29 billion, which is $2 billion above the 2015 enacted 
level. And while funding for the Department of Justice is one 
of the Federal Government's highest priorities, we simply 
cannot afford such an increase in spending while operating 
under our current budget constraints, which puts a lid on all 
of us. I am concerned that even in the midst of the current 
fiscal climate, the President has proposed new grant programs 
and initiatives that would further stretch the Department's 
spending.
    When it comes to law enforcement, your arrival at the 
Department at a critical time of needed leadership is welcomed. 
Since our hearing early this spring with the Department's law 
enforcement chiefs, we have seen the departures of the Bureau 
of Alcohol, Tobacco, Firearms and Explosives (ATF) Director and 
the Drug Enforcement Administration (DEA) Administrator. I hope 
that you will pay particular attention, Madam Attorney General, 
to these law enforcement agencies to ensure that they 
faithfully execute their duties during this time of change.
    As an example, the Bureau of Alcohol, Tobacco, Firearms, 
and Explosives has a rule pending that would impose burdensome 
and, most people believe, unnecessary regulations regarding 
firearms that are lost or stolen in transit. However, the ATF's 
own statistics indicate that this number is insignificant and 
should not be a cause for concern. It certainly does not 
warrant, I believe, such encumbering regulations.
    Oversight and accountability remain a top priority for this 
subcommittee. I have consistently expressed my displeasure to 
your predecessor regarding the Department's resistance to 
cooperating with the Department of Justice's Inspector General. 
I continue to hear from the Inspector General that this 
office--his office is having difficulties in obtaining the 
documents needed to do their job. I urge you to work with the 
Inspector General to make sure that he and his staff can 
successfully complete their reviews and audits of the 
Department of Justice.
    I have outlined that the Department faces many challenges 
that will require fiscal support. The path for making 
meaningful progress runs through this subcommittee. I know 
that. As you begin your tenure, Madam Attorney General, I want 
to express the subcommittee's hope that we will have a 
productive and constructive working relationship. Thank you, 
Madam.
    Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you, Mr. Chairman, and I want to 
welcome the Attorney General. We are so glad that you were 
finally, finally, finally confirmed, and we could get beyond 
the petty politics that were the obstruction to that 
confirmation.
    Before I go into my statement, though, I want to remind the 
subcommittee that yesterday was Senator Shelby's birthday, so 
could we join in a round of applause and wish him good health 
and blessings?
    Senator Shelby. Thank you.
    Senator Mikulski. Let us hope that is not the high point of 
the hearing.
    Madam Attorney General, you have had an eventful first 2 
weeks in office. I know this is your very first congressional 
hearing since you have been confirmed, and we are looking 
forward to your testimony in terms of the Justice Department's 
needs for its 2016 budget. We are eager to hear from you about 
the many ongoing efforts at the many Justice Department 
agencies.
    We want to, first of all, thank you, Madam Attorney 
General, for your work in coming to Baltimore and you were keen 
to coming into Baltimore. It was tremendously helpful to the 
mayor, to our police department, and, most of all, to the 
citizens to have the presence of the Justice Department. I 
personally want to thank you on behalf of the entire Maryland 
delegation for the professionalism of your team and, of course, 
yourself. I want to particularly acknowledge the Deputy 
Attorney General, Ms. Gupta, Mr. Ron Davis, the Director of the 
COPS Program, Mr. Grande Lum and your outstanding community 
relations team that came in and provided very crucial technical 
assistance during troubling times.
    We were in Baltimore on Tuesday together as you listened to 
faith-based community leaders. You met with local officials, 
and even reached out to the Freddie Gray family. I will not be 
asking you any questions about the Freddie Gray investigation 
because we know it is an ongoing investigation.
    You have gotten a request from the mayor about asking the 
Department of Justice to open a pattern and practice 
investigation into our police department. Later on this 
afternoon you will be getting a letter from the Maryland 
delegation supporting that request. That will go forward.
    But I want to say this. In many cities throughout the 
country, and including my own town of Baltimore, and in 
communities primarily that have significant populations of 
color, there has been now a tattered, worn, and even broken 
trust between the community and the police department. We have 
got to restore that trust. We need the police department. We 
want to express our condolences to the people in the police 
department of Queens about the death of Officer Brian Moore, 
who was gunned down so brutally. But we also do need criminal 
justice reform, and we need it with an urgency of now.
    I intend to ask questions about what you need in the way of 
resources to do the job that needs to be done, and also what 
reforms that are needed that are specific and are targeted. We 
are also joined today by an outstanding appropriator, but also 
the chair of the--I mean, the ranking member--of the 
authorizing committee on the Judiciary Committee, who has a 
long history in this. We are here to show that the American 
people have a Government on their side and to have a 
constitutional focus to what we do.
    We have put money in the Federal checkbook--$2.3 billion--
for grant programs, targeted resources for police, local 
government, and communities. They range from more cops on the 
beat, to dealing with the rape kit backlog, to child abuse. 
Mayors have told us they need help getting more cops on the 
beat. We had $180 million in doing that. We also wanted to help 
them be able to have the equipment that they needed, and there 
is $376 million in grant programs.
    Now we have to look at what does that mean. Some are crying 
out for body cameras. Is this just yet one more gimmick, or is 
it a crucial tool? Communities and non-profits want to help our 
young people, and this is why we will look for your thoughts 
either today or in the ongoing discussion on our juvenile 
justice programs, prevention, of intervention, who are helping 
with everything from delinquency prevention to the ongoing 
mentoring that we need.
    As you know, many of our civil rights groups and community 
leaders have called out for criminal justice reform. We are 
looking forward to your advice to that, and we know that the 
Judiciary Committee will also be doing it. But I am going to 
have questions related to money and also training, that in 
other words, if you get the money, should you get training. I 
look forward to asking questions on whether if you get COPS 
money, Byrne grant money, and others, should there be required 
training on how to deal with racial and ethnic bias? What about 
the use of force? Should there be national standards that every 
department meets? What about body cameras? There are privacy 
concerns, there are storage concerns, many concerns. What 
should we do about it?
    And last but not at all least, I do hope again for both 
this conversation and ongoing the examination of the so-called 
broken window policy. When the broken window policy was 
initiated by or talked about by an imminent sociologist, John 
Q. Wilson. I supported that policy, and I supported it as 
somebody who started her career as a social worker, that if you 
fix the broken window, that if you intervene with youth when 
they were doing minor offenses, we could intervene in a way 
that prevented them from growing up doing major offenses.
    But while we were looking at the so-called minor criminals, 
we were going to fix the broken windows. We were going to deal 
with vacant houses. We were going to deal with the truancy 
problem. We were going to do this. But now what seems to happen 
is the policy has deteriorated to where we have stopped fixing 
the broken window and we have escalated the frisking. No more 
fixing, but lots of frisking, and that is what our folks feel. 
Last year, 120,000 police stops occurred in Baltimore. We are a 
population of 610,000. That is a lot. I do not know what the 
appropriateness of that is, but I think we need to look at it.
    So today I sit here as the ranking member of the 
subcommittee that will fund your Department, and I assume my 
national responsibility. But I am also here for the 85,000 
kids, all of whom that day of the disturbance went home 
peacefully. What can we do to help them? The 610,000 law 
abiding people in Baltimore who obeyed the law and helped to do 
that. So we look forward to working with you on what are the 
tools to restore confidence between our police and our 
community, but also put our arms around our young people and 
see what we can do to help them. And maybe when we fix a broken 
window, we have to fix the broken political process, and we 
have to get the job done.
    Thank you, and I look forward to your testimony.
    Senator Shelby. Madam Attorney General, welcome to the 
subcommittee. Your written testimony will be made part of the 
record in its entirety. You proceed as you wish.

               SUMMARY STATEMENT OF HON. LORETTA E. LYNCH

    Attorney General Lynch. Thank you, sir. Thank you, Mr. 
Chairman, and remind me to come around on your birthday another 
time. It is quite a celebration.
    Well, good morning, Chairman Shelby, Vice Chairman 
Mikulski, and the other distinguished members of the 
subcommittee. It is indeed an honor to appear in front of you 
for the first time as the Attorney General. I look forward to 
working collaboratively with all of you today and in the days 
ahead as we seek to protect and to serve the American people 
together.
    But I want to take a moment to extend a special thank you 
to Senator Mikulski for your leadership in the United States 
Senate over the last three decades, for your support of the 
Department of Justice and its employees, and for the 
extraordinary example of public service you have provided to 
all Americans, and especially to women. And I am honored to 
have the opportunity to work with you during your final 2 years 
in office.
    Senators, as we approach National Police Week, which begins 
next week, it is fitting that we take a moment to consider the 
contributions and the needs of law enforcement----
    Senator Shelby. Madam Attorney General, would you mind 
pulling your mic just a little closer?
    Attorney General Lynch. Thank you, sir. Actually, sir, it 
seems to be fixed. Thank you, Mr. Chairman.
    Senators, as I noted, National Police Week will begin next 
week, and at this particular time in history it is important 
that we take a moment to consider the contributions and the 
needs of our law enforcement officers across the country. Law 
enforcement is a difficult profession, but a noble one. And 
over the course of my career as a Federal prosecutor and as 
U.S. attorney for the Eastern District of New York, I have been 
privileged to work closely with truly outstanding public safety 
officials, and I have seen up close the dangers that they face 
every day.
    As mentioned by Senator Mikulski, earlier this week Officer 
Brian Moore, a 25-year-old New York City police officer, died 
after being shot while trying to question a man in Queens. And 
just 2 days ago, Sergeant Greg Moore of Coeur d'Alene, Idaho 
was tragically gunned down, also while interacting with a 
suspicious individual. The tragic loss of these brave 
individuals serves as a devastating reminder that our Nation's 
public safety officials put their lives on the line every day 
to protect people they have often never met. Their exemplary 
work is the foundation of the trust that must exist between law 
enforcement officers and the communities that we all serve. And 
that is why when there are allegations of wrongdoing made 
against individual officers and police departments, the 
Department of Justice has a responsibility to examine the 
evidence and, if necessary, to help them implement change.
    While I was in Baltimore on Tuesday, I met with the mayor, 
law enforcement officials, and community, faith, and youth 
leaders. I spoke with an officer who was injured amidst the 
violence, and I heard a number of ideas regarding ways in which 
the Justice Department can continue assisting Baltimore as they 
work to recover from recent unrest. Although the city has made 
significant strides in their collaborative reform efforts with 
the Community-Oriented Policing Services Office, I have not 
ruled out the possibility that more may need to be done. And I 
assure you, Senators, that I am listening to all voices.
    We are currently in the process of considering the request 
from city officials and community and police leaders for an 
investigation into whether the Baltimore City Police Department 
engaged in a pattern or practice of civil rights violations. 
And I intend to have a decision in the coming days.
    Now, the situation in Baltimore involves a core 
responsibility of the Department of Justice, not only to combat 
illegal conduct when it occurs, but to help prevent the 
circumstances that give rise to it in the first place. Going 
forward, your support of the Department and of our funding in 
the fiscal year 2016 President's budget will enable us to build 
on our successes and make further progress in the mission with 
which we are entrusted.
    I am pleased to say that this budget request is in line 
with my highest priorities as Attorney General: safeguarding 
our national security, defending the most vulnerable among us, 
and strengthening relationships of trust and collaboration 
between law enforcement officers and the communities that we 
service. Now, of course, our most important objective must 
continue to be protecting the American people from terrorism 
and other threats to our national security.
    As you know, under my predecessor, Attorney General Eric 
Holder, the Department of Justice engaged in essential efforts 
to counter violent extremism and domestic radicalization, to 
strengthen counterterrorism measures, to promote information 
sharing and collaboration with the intelligence community, and 
to provide training and technical assistance to our foreign 
partners. We must advance this progress on all fronts. We must 
prepare to meet new and emerging threats and vigorously defend 
American citizens at home and abroad.
    The President's budget will strengthen our national 
security efforts by investing a total of $4.6 billion in the 
Department's cutting edge counterterrorism and national 
security programs. This total includes $775 million, an 
increase of $27 million, for addressing cyber crimes and 
enhancing the security of information networks. In an age in 
which criminals have the ability to threaten our national 
security and our economic wellbeing from far beyond our 
borders, it is critical that we expand our focus and strengthen 
our defenses to protect all Americans from exploitation and 
abuse.
    I firmly believe that cybersecurity must be among the top 
priorities for the Department of Justice. This important 
funding will allow us to build on the outstanding work of the 
Department in identifying new threats, thwarting attempted 
intrusions, and bringing the perpetrators of wrongdoing, 
wherever they may hide, to justice.
    As the Department works to safeguard American security, we 
are equally committed to upholding American values, including 
the protection of our most vulnerable populations. The fiscal 
year 2016 budget would provide $103 million in new civil rights 
investments to address hate crimes, sexual violence, and human 
trafficking, an area that warrants our renewed focus and 
redoubled effort. It would allocate $124 million to improve the 
efficiency of our immigration court system by supporting 
additional immigration judge teams and Board of Immigration 
Appeals attorneys, by expanding the successful Legal 
Orientation Program, and by allowing for additional legal 
representation for unaccompanied children.
    And it would deliver $247 million in program increases for 
the Smart on Crime Initiative, which was designed to address 
America's overreliance on incarceration while reducing 
recidivism, and deploying law enforcement resources more 
effectively. By all available evidence, this program has been a 
major success as well as an area of bipartisan cooperation and 
agreement. The requested funds in this year's budget will allow 
us to extend this critical work and to amplify our shared 
commitment to a fair, efficient, and effective criminal justice 
system.
    The Department has made it clear, and I firmly support, 
that this innovative approach does not in any way lessen our 
resolve to combat violent crime, drug trafficking, and other 
violations of Federal law. We remain determined to vigorously 
investigate and prosecute criminal activity. The President's 
budget supports our goals in that regard by appropriating an 
additional $43 million for us to investigate and hold 
accountable those who break Federal laws and harm innocent 
citizens, from illegal firearms and drug traffickers, to 
perpetrators of healthcare scams and financial fraud.
    In all our efforts, we intend to work closely not only with 
this distinguished body, but also with our law enforcement 
partners on the front lines across the country. And that is why 
the President's budget allocates an additional $154 million to 
support our State, local, and tribal partners in their own 
efforts to counter violent extremism, to hire and retain 
officers, to serve the victims of crime, to research best 
practices, improve indigent defense, and expand reentry 
programs. This appropriation includes nearly $95.5 million for 
the Community-Oriented Policing Services Hiring Program, $35 
million for tribal law enforcement, and $20 million for the 
Collaborative Reform Initiative, a recently developed program 
that facilitates collaborations between the COPS Office and law 
enforcement agencies seeking assistance on a wide variety of 
criminal justice issues, from use of force practices and the 
deployment of crisis intervention teams, to building trust with 
the members of their communities.
    As we have seen even in recent days, programs that 
establish trust and improve collaboration are essential to 
carrying out our law enforcement duties effectively and to the 
overall safety of the American people. In the days ahead, I 
hope and I fully intend to bolster our efforts in that area. I 
am eager to work with this subcommittee and with Congress to 
build on the many achievements of the Department of Justice and 
to secure the timely passage of the President's budget, which 
provides $28.7 billion in discretionary resources for the 
Department, including $26.3 billion for vital Federal programs 
and $2.4 billion for State, local, and tribal assistance 
programs.
    As a former United States attorney who saw firsthand, who 
lived through the unsustainability of sequester, I can tell you 
that this level of support is necessary to ensure that we can 
continue to protect the American people and effectively serve 
the priorities of the United States of America.
    Mr. Chairman, ranking member of the subcommittee, I thank 
you once again for the opportunity to meet with you here today 
and to discuss the work of the Department, and I am happy to 
answer questions that you may have. Thank you for your time.
    [The statement follows:]
              Prepared Statement of Hon. Loretta E. Lynch
    Good morning, Chairman Shelby, Vice Chairwoman Mikulski, and other 
distinguished members of the subcommittee. It is an honor for me to 
appear before you today for the first time as Attorney General of the 
United States. I want to thank you for the trust you have placed in me 
through your confirmation of my nomination. Throughout my tenure as 
Attorney General, I will strive to uphold that trust to protect and 
defend our Constitution, to safeguard our people, and to stand as the 
leader and public servant that they deserve. I look forward to working 
with this subcommittee, the United States Senate, and the entire United 
States Congress to protect and serve the American people. Vice 
Chairwoman Mikulski, I am particularly honored to work with you in your 
last 2 years as a Senator. I would like to thank you personally for 
your leadership, example, and support to the Department of Justice and 
the Nation.
    In my new role as Attorney General, I am here to highlight the 
President's fiscal year 2016 budget request for the U.S. Department of 
Justice (the Department or DOJ). While this budget pre-dates my arrival 
as Attorney General, I am pleased to say that it is in line with my 
highest priorities for the agency: the safety of our citizens and our 
national security; protection of the most vulnerable among us; and 
strengthened relationships between America's brave law enforcement 
officers and the communities they are entrusted to serve.
    Continuing our focus on the Smart on Crime initiative is critical 
to achieving these priorities because, while the aggressive enforcement 
of Federal criminal statutes remains necessary, we cannot prosecute and 
incarcerate our way to a safer Nation. We must reduce our prison 
populations by better preventing and deterring crime, improving 
charging and sentencing, and enhancing rehabilitation and reentry 
programs that reduce recidivism. We must also invest in improving 
relationships between communities and the criminal justice system in 
order to restore faith in our systems.
    As we convene this morning, I know we're all still mindful of the 
situation in Baltimore. I assure you that in the days ahead, the 
Justice Department will continue to work to ensure justice, restore 
calm, and resolve unrest.
    This budget will further these important goals and allow the 
dedicated employees of the Department to continue the great work they 
do every day to reduce crime, reform our criminal justice system, and 
ensure our safety and security.
    Thankfully, as a result of bipartisan efforts, DOJ has been able to 
implement a process to backfill critical vacant positions resulting 
from the Department-wide hiring freeze between 2011 and 2014. DOJ 
brought on approximately 2,500 staff in fiscal year 2014 and we hope to 
bring on 1,500 more in fiscal year 2015. The fiscal year 2016 budget 
provides funding to both sustain these employees and provide for an 
additional 1,600 positions.
    The fiscal year 2016 budget requests $28.7 billion in discretionary 
resources for the Department, including $26.3 billion for Federal 
programs and $2.4 billion for State, local, and tribal assistance 
programs. This represents a 4.8 percent increase over the comparable 
fiscal year 2015 enacted funding level. The key funding priorities 
include:
  --Defending U.S. citizens from national security threats.--The budget 
        invests an additional $107 million to develop the Department's 
        capacity in critical national security areas including: 
        countering violent extremism and domestic radicalization to 
        violence; counterterrorism; cybersecurity; information sharing 
        and collaboration with the Intelligence Community; and training 
        and technical assistance for our foreign partners.
  --Upholding civil and constitutional rights.--The budget includes 
        $103 million in new investments to better address human 
        trafficking, hate crimes, and sexual violence in our primary 
        and secondary schools as well as higher education. The 
        additional funds would expand civil and criminal enforcement 
        efforts to ensure the rights of our Nation's most vulnerable 
        populations.
  --Investing in improvements to our criminal justice system.--The 
        budget invests $247 million in the Smart on Crime initiative to 
        better deter crime and protect the public. The initiative 
        focuses resources on the most important law enforcement 
        priorities, reduces disparate impacts of the criminal justice 
        system on vulnerable communities, and considers alternatives to 
        incarceration for low-level, non-violent offenses in order to 
        reduce taxpayer expense and prevent recidivism.
  --Maintaining safe and secure Federal prisons.--In addition to $146 
        million for the Bureau of Prison (BOP) included in the Smart on 
        Crime initiative above, the budget invests an additional $71 
        million to increase staffing at high security prisons to 
        improve officer and inmate safety; increase medical beds for 
        severely ill inmates; and undertake essential rehabilitation, 
        modernization, and renovation of aging BOP facilities.
  --Improving the efficiency of the immigration court system.--The 
        budget invests $126 million to support additional Immigration 
        Judge Teams and Board of Immigration Appeals attorneys, to 
        expand the successful Legal Orientation Program, to allow for 
        greater representation of unaccompanied children, to modernize 
        information and data sharing systems to improve the efficiency 
        of processing case materials, and to keep pace with workload 
        demands associated with civil cases.
  --Improving responses to violent crime, illicit drugs, and healthcare 
        fraud.--Simply maintaining existing capacity is not sufficient. 
        The budget requests $43 million in additional investments to 
        investigate and punish those who break Federal laws and harm 
        innocent citizens. This includes preventing the illegal use and 
        trafficking of firearms, addressing the increase in heroin and 
        other emerging drug trends, thwarting international drug 
        trafficking organizations, addressing international piracy of 
        intellectual property, and combating healthcare fraud and 
        wildlife trafficking.
  --Enhancing State, local, and tribal law enforcement programs.--The 
        budget requests $154 million in net discretionary program 
        increases to support the ability of our State, local, and 
        tribal partners to counter violent extremism, hire officers, 
        better serve victims of crimes, conduct research to build 
        evidence on best practices, improve indigent defense, and 
        expand re-entry programs.
  --Addressing gaps in critical Department infrastructure.--The budget 
        invests $27 million in the renovation and repair of prisoner 
        holding spaces in Federal courthouses, Department-wide 
        information technology improvements, and oversight of 
        Department policies and procedures.
   protecting the american people from terrorism and other national 
                            security threats
    Defending U.S. citizens from both internal and external threats 
remains the Department's highest priority. The Department made 
significant achievements in this area in fiscal year 2014. The 
Department's counterterrorism investigations disrupted 214 terrorist 
threats and the FBI investigated approximately 14,000 national security 
cases. The FBI, DEA, ATF, Department of Homeland Security, U.S. Secret 
Service, and the U.S. Postal Inspection Service successfully 
coordinated on many efforts, including the arrest of multiple vendors 
involved in online forums, such as Silk Road 2.0, which were 
trafficking counterfeit currency, narcotics, firearms, explosives, and 
illicit documents.
    The fiscal year 2016 budget will enable the Department to continue 
meeting the challenging and ever-changing threats to our national 
security by providing a total of $4.6 billion in resources, including 
$107 million in program increases for four critical national security 
issues: (1) countering violent extremism and domestic radicalization to 
violence; (2) cybersecurity; (3) information sharing and collaboration 
with the Intelligence Community; and (4) training and technical 
assistance for our foreign partners.
    To counter violent extremism and domestic radicalization to 
violence, the fiscal year 2016 request provides $15 million to allow 
the Department to foster community-led efforts through funding from the 
Office of Justice Programs (OJP) and the Community Oriented Policing 
Services (COPS) to State, local, and tribal law enforcement agencies 
and community organizations nationwide. At the National Security 
Division (NSD), $1 million in additional resources would support its 
investigative and prosecutorial efforts focused on homegrown violent 
extremists intent on attacking the United States.
    The fiscal year 2016 budget request also includes $775 million in 
total for cyber-related activities that address cybercrimes and defend 
the security of critical information networks. This request includes 
increases of $27 million for key program enhancements to the FBI, NSD, 
U.S. Attorneys, and the Criminal Division. The FBI will continue 
improving its cyber collection and analysis, while extending its 
centralized cyber capabilities to the field through its Next Generation 
Cyber initiative. NSD will bring on additional attorneys to help with 
prevention, detection, investigation and prosecution, and vulnerability 
management, as well as policy development and program oversight related 
to cyber threats to national security. To prosecute increased 
cybercrimes across the country, the U.S. Attorneys require additional 
attorneys that specialize in cybercrimes, as well as increased training 
on digital evidence. Enhancements to the Criminal Division would 
increase the Division's capacity in six key areas: training for 
attorneys on cybercrime and digital evidence; enhancing digital 
forensic capacity; providing technical and legal expertise; improving 
information sharing efforts with the private sector; building and 
strengthening relationships with foreign law enforcement partners, and 
developing cyber policy. Finally, in order to protect the Department 
from increased cyber threats and intrusions, the fiscal year 2016 
budget invests in additional cybersecurity tools and IT infrastructure 
maintenance and improvements.
    Information sharing and collaboration with the Intelligence 
Community is critical for the success of the Department's efforts to 
ensure our national security. A program increase of $3.2 million for 
NSD will enhance its court-authorized intelligence collection efforts 
and increase its oversight of information used during national security 
investigations and prosecutions. Increases for the FBI and DEA will 
allow both agencies to improve their information technology systems.
    Because crime increasingly transcends national borders, the United 
States must improve its coordination with foreign partners. The Mutual 
Legal Assistance Treaty (MLAT) is the mechanism that enables the 
provision of evidence and extradition of persons across borders. 
Improvements are still needed to reduce the backlog in MLAT requests 
from our foreign partners and improve MLAT response time. As of January 
2015, the Office of International Affairs (OIA) in the Criminal 
Division had a backlog of over 11,500 pending cases. The Department is 
working to fully replace its existing, antiquated IT system with an 
anticipated completion date of mid-2016. The Department has also begun 
to gather better data from its existing case management tool, such as 
timelines for the processing of requests, which will generate useful 
metrics to evaluate the execution of MLAT requests. OIA has made 
significant progress in filling attorney vacancies that accumulated 
during the Department's hiring freeze. However, without the $32 million 
investment for personnel and technological resources requested in the 
fiscal year 2016 budget, OIA will not be able to accomplish its plans 
for centralization or process improvement.
    Finally, the fiscal year 2016 budget also invests additional 
resources for the International Criminal Investigative Training 
Assistance Program (ICITAP) and the Office of Overseas Prosecutorial 
Development Assistance and Training (OPDAT). Both agencies further U.S. 
national security interests by helping stop terrorism and crime before 
it can reach our shores. ICITAP and OPDAT costs have been generally 
funded by the State Department, however, as the issues to be addressed 
grow, so has the need for steady base resources within the Department's 
budget.
                        protecting civil rights
    The Department must protect not only American citizens but also 
American values. Accomplishing the Department's mission to uphold the 
civil and constitutional rights of all Americans, particularly the most 
vulnerable, requires resources to investigate, litigate, and conduct 
outreach and technical assistance. As such, the Department is 
requesting program increases totaling $103 million across several 
components. For the Civil Rights Division (CRT), the fiscal year 2016 
request includes total enhancements of $16 million to expand efforts 
associated with human trafficking, voting rights, and enforcement of 
Title IX and other laws that address discrimination against students on 
the basis of sex. The request for CRT also includes additional 
resources to protect servicemembers and individuals in institutions, 
and to expand efforts to ensure that all communities have effective and 
democratically accountable policing. An enhancement of $7 million would 
allow for new Assistant U.S. Attorneys to focus exclusively on civil 
rights law enforcement and work in tandem with CRT on the more 
complicated and time consuming cases, such as sex and labor trafficking 
cases.
    The Community Relations Service (CRS) has been engaged in forging 
constructive partnerships to prevent and relieve tensions between law 
enforcement and communities around the country, including Ferguson, New 
York City, and most recently Baltimore. The fiscal year 2016 request 
includes an increase in funding for CRS to help prevent hate crimes and 
engage local communities and law enforcement departments in dispute 
resolution activities. Funding will also support the goals of the 
President's My Brother's Keeper Initiative, which seeks to address 
persistent opportunity gaps faced by boys and young men of color to 
ensure that all young people in this country can reach their full 
potential. The Department requests $78 million in grant program 
increases to: improve the public's access to counsel and legal 
assistance in State, local, and tribal courts and juvenile justice 
systems; implement the recommendations of the White House Task Force to 
Protect Students from Sexual Assault; and assist law enforcement 
agencies on criminal justice issues, including use of force practices 
and the deployment of crisis intervention teams.
                       becoming smarter on crime
    In early 2013, the Justice Department launched a comprehensive 
review of the criminal justice system in order to identify reforms that 
would ensure Federal laws are enforced fairly and, in an era of reduced 
budgets, efficiently. As part of this review, the Department studied 
all phases of the criminal justice system, including charging, 
sentencing, incarceration, and reentry, to identify the practices that 
are successful at deterring crime and protecting the public. The Smart 
on Crime initiative was created to focus Federal resources and place 
the harshest sentences on the most violent offenders rather than 
prioritizing the sheer number of prosecutions. Considering alternatives 
to incarceration for low-level, non-violent offenses strengthens our 
justice system and places a lower financial burden on the budget so 
that funds can be spent on essential public safety priorities. The 
Smart on Crime initiative will also help contain incarceration costs 
over the long term by facilitating inmates' successful transition back 
into society.
    Of the $247 million requested in program increases for the Smart on 
Crime initiative in fiscal year 2016, $146 million is dedicated to re-
entry and recidivism reducing programs at the Bureau of Prisons (BOP). 
More specifically, the funding would expand sex offender management 
programs, mental health staff, cognitive behavioral treatment, 
vocational programs, as well as medically assisted treatment programs 
for individuals in the justice system dependent on opioids. The request 
also includes funding for a new, broader reentry program that reaches 
out to offenders' children and families to strengthen familial bonds, 
which are critical for helping inmates transitioning back home. At U.S. 
Attorneys' Offices, $25 million would support dedicated prevention and 
reentry coordinators in all 94 districts. OJP will add new resources to 
its Residential Substance Abuse Treatment program and Second Chance Act 
Program so that State, local, and tribal governments can address the 
critical needs of the sub-population of offenders who most need the 
services and drive most jurisdictions' recidivism rates. Enhancements 
to OJP's Smart Policing and Smart Prosecution programs encourage the 
development of data-driven strategies by local law enforcement and 
prosecutors to address specific crime problems more effectively and 
economically in their jurisdictions.
      maintaining safe and secure prison and detention facilities
    To increase safety for officers and inmates, the fiscal year 2016 
budget requests $71 million in program enhancements. For BOP's 17 high 
security institutions, $32 million would ensure that there are two 
correctional officers on duty in each housing unit at all times. The 
Department is requesting $5 million to convert Federal Correctional 
Institution Fort Worth to a Medical Referral Center that will house and 
treat severely ill inmates currently housed in community hospitals. 
Finally, the request increases funding for BOP to undertake essential 
rehabilitation, modernization, and renovation of BOP institutions, one 
third of which are 50 years old or older. This maintenance and repair 
will preserve our capital investments and ensure sufficient security 
within these aging institutions.
                       enforcing immigration laws
    The Department plays an integral role in the immigration system by 
ensuring the fair, expeditious, and uniform application of the Nation's 
immigration laws. The Department's Executive Office for Immigration 
Review (EOIR) oversees the immigration court and Board of Immigrant 
Appeals. In recent years, EOIR has sought to keep pace with the rising 
number of immigration cases, in order to maintain the efficiency and 
effectiveness of its immigration enforcement, adjudication, and 
detention programs.
    To process the increasing workload and improve the efficiency of 
the immigration court system, the Department requests an increase of 
$124 million to support an additional 55 Immigration Judge (IJ) Teams 
and 28 Board of Immigration Appeals attorneys and provide for other 
improvements to the immigration system. This enhancement will help IJ 
Teams and attorneys adjudicate rising immigration caseloads resulting 
from the increase in Southwest Border crossings. Also included in this 
program increase is $50 million to expand legal representation for 
unaccompanied children and $10 million to improve efficiencies in 
immigration court proceedings by expanding the Legal Orientation 
Program.
    The Department's Civil Division, Office of Immigration Litigation 
(OIL), also plays a crucial role in upholding the immigration 
enforcement actions of DHS and EOIR. OIL defends the Government in 
district court cases and challenges to removal orders filed in circuit 
courts. The Department requests an increase of $1 million to address 
the growth in class-action immigration cases.
 improving responses to violent crime, illicit drugs, and health care 
                                 fraud
    The Department's mission and responsibility is to investigate and 
punish those who break Federal laws and harm innocent citizens. 
Continued investments are needed to strengthen the Department's ability 
to uphold those commitments and obligations. Simply maintaining 
existing law enforcement capacity is not sufficient. For fiscal year 
2016, the Department requests $43 million in additional investments to 
address violent crime, illicit drugs, and healthcare fraud.
    Investments to combat violent crime include resources for the 
United States Marshals Service (USMS) to investigate violations of the 
Adam Walsh Act and assists State, local, tribal, and territorial 
jurisdictions in locating and apprehending an estimated 100,000 non-
compliant sex offenders. Funding is also requested to expand officer 
safety training for USMS operational officers and task force officers.
    The budget supports a strong response to the increase in heroin 
abuse and other emerging drug trends. This includes additional 
resources for DEA's information sharing efforts to thwart international 
drug trafficking organizations as they seek to exploit financial 
markets, intellectual property, the energy sector, as well as other 
legitimate sectors and markets. The request also includes resources to 
pay for State and local clandestine laboratory cleanup program.
    For the Department's litigating divisions, the budget requests 
additional resources to enforce laws that address international piracy 
of intellectual property), healthcare and financial fraud, as well as 
fraud against the military. Each year, industry loses hundreds of 
billions of dollars due to counterfeiting and global trade of 
illegitimate goods. In recent years, the Criminal Division has returned 
billions of dollars to the Federal Government from its efforts to 
combat fraud. The Civil Division not only recovers billions of dollars 
for taxpayers; it also saves billions by defending the U.S. against 
lawsuits. In fiscal year 2014 alone, the Civil Division defended 
against suits in which approximately $100 billion was at issue. To 
continue successfully safeguarding taxpayer dollars and protecting the 
healthy, safety and economic security of the American people, the Civil 
Division needs additional staff to handle the increasing number of 
cases they receive. Finally, $2 million would support the multi-
national efforts of the Environment and Natural Resources Division to 
combat wildlife trafficking and related transnational organized crime 
activities.
   investing in state, local and tribal assistance programs that work
    Crime and the ability to respond effectively to it continue to be 
major challenges for many communities across the country. The fiscal 
year 2016 budget maintains the Department's commitments to State, 
local, and tribal partners without reducing the Department's Federal 
operational role. The fiscal year 2016 discretionary a request for 
State, local, and tribal law enforcement assistance is $2.4 billion 
with a net discretionary increase of $154 million. This includes a 
program increase of $15 million to implement the administration's 
Countering Violent Extremism Initiative that will address domestic 
terror incidents and the emergence of groups attempting to recruit 
Americans to take part in ongoing conflicts in foreign countries. The 
budget also targets $97 million for the President's new Community 
Policing Initiative to build and sustain trust between law enforcement 
and the people they serve. Both the COPS and OJP budgets include 
enhancements to support these two initiatives.
    The fiscal year 2016 request for OJP supports a net increase of $30 
million in grant funding for indigent defense, Second Chance Prisoner 
Reentry, Justice Reinvestment, and juvenile justice programs. The 
budget includes the mandatory grants of $1 billion for the Crime 
Victims Fund and $100 million for the Public Safety Officer's Death 
Benefits.
    The fiscal year 2016 request for COPS provides an increase of $95.5 
million, including $69.5 million for the COPS Hiring Program, with $5 
million targeted towards improving diversity in law enforcement, and 
$35 million for Tribal Law Enforcement. The request includes $20 
million as a separate line-item for the Collaborative Reform Initiative 
which enables the COPS Office to partner with law enforcement agencies 
that may need assistance on a wide variety of criminal justice issues 
that range from use-of-force practices and the deployment of crisis 
intervention teams, to building trust with the communities served. 
Again, it is efforts like these that may help to prevent situations 
like those in Ferguson and Baltimore.
    The fiscal year 2016 request for the Office on Violence Against 
Women (OVW) includes a total of $50 million in enhancements. Protecting 
students from sexual assault is a top priority for this administration, 
and the budget reflects this by including a $14 million increase to the 
Campus Violence Program to better meet the need on college campuses. 
Other increases include $5 million for a new Tribal Jurisdiction 
program, $21 million for a new program to improve law enforcement and 
prosecutorial response to sexual assault, and $10 million for 
enhancements to the Legal Assistance to Victims Program.
         addressing gaps in critical department infrastructure
    In order to maintain an effective and efficient organization, the 
Department must invest in its physical and non-physical infrastructure. 
The infrastructure resources requested for fiscal year 2016 are focused 
in three categories: information technology (IT) improvements; facility 
construction and maintenance; and oversight functions.
    The resources requested for facility construction and maintenance 
total $5 million to renovate and repair USMS prisoner holding cells in 
Federal courthouses. This funding will significantly reduce the repair 
backlog so the USMS can better provide for the safety and security of 
judges, court personnel, and others in Federal court facilities.
    For IT improvements, $15 million is requested for the Department to 
continue its data center consolidation efforts, provide the public 
greater access to the Department's data, and increase automated 
litigation services. With every passing year, a healthy IT 
infrastructure becomes more critical to ensuring that DOJ operations 
remain effective. Consolidation of data centers is one of the ways the 
Department is saving and avoiding costs while increasing data security.
    Finally, $10 million is requested to enhance oversight functions 
such as increased funding for contract oversight by the Inspector 
General and increased staff for Department leadership to strengthen 
policy analysis and compliance efforts.
                               conclusion
    Chairman Shelby, Vice Chairwoman Mikulski, and members of the 
subcommittee, it is my pleasure to highlight recent DOJ successes as 
well as the resources identified for fiscal year 2016 to maintain and 
build upon such successes. The Department clearly understands the need 
for fiscal restraint and has achieved as many cost savings as possible 
without jeopardizing its mission. The increases requested in the 
President's budget are those necessary to address the most pressing 
criminal justice needs of our country. As my father always reminded me, 
we all gain the most when we act in service to others. It will be my 
honor to work together with each of you in service to the American 
people and in the spirit of mutual respect and Constitutional balance. 
I would be happy to answer any questions you may have.

                              IMMIGRATION

    Senator Shelby. Thank you, Madam Attorney General. In 
November of 2014, the President expanded immigration amnesty 
through Executive order in furtherance of his 2012 Executive 
order to people over the age of 30 and to new arrivals. It also 
allows about 4 million additional illegal immigrants, who have 
been in the country for 5 years and who are parents of U.S. 
citizens and legal residents, to apply every 3 years for 
deportation deferrals. In January this year, you testified 
during your confirmation hearing that you believe that the 
President's Executive actions are legal and constitutional, 
even though the President stated on record many times that he 
did not believe he had the constitutional power to grant 
amnesty without authority from the Congress.
    Why do you believe that the President's Executive actions 
granting amnesty to millions of illegal immigrants are legal 
and constitutional?
    Attorney General Lynch. Mr. Chairman, you certainly are 
focused on one of the most challenging issues facing our 
country today, how to deal with the immigration issue. As I 
indicated during my January testimony, as a career prosecutor 
and former U.S. attorney, I particularly focused on the 
prioritization of the removal of the most dangerous illegal 
immigrants from our country. With respect to that issue, I 
found that to be an imminently reasonable exercise of 
administrative and prosecutorial discretion.
    With respect to the actions involving the issuance of 
deferrals to new members who would apply for that, I believe 
that matter is a subject that is under consideration by the 
courts. As you have noted, those actions have been enjoined. As 
I stated during those proceedings, I am committed to abiding by 
the injunction and certainly working with the Department of 
Homeland Security to ensure that the injunction is supported 
while it is pending.
    Senator Shelby. As you assume, and you have, the position 
of Attorney General, how will you, Madam Attorney General, 
enforce current immigration laws given your belief that the 
recent Executive actions trump existing laws? In other words, 
do all the Executive actions and presumptions there trump the 
laws of Congress? How do you rationalize that?
    Attorney General Lynch. Senator, I believe that our 
existing laws are a vital resource in dealing with the problem 
of both illegal immigration and as well as criminal activity 
that results from illegal immigration. In particular, the 
Department's own Executive Office of Immigration Review (EOIR) 
is charged with adjudicating various types of immigration 
violations. As you have noted, EOIR has suffered from a backlog 
of cases and inefficiencies that have delayed actions separate 
and apart from the President's new policies that has delayed 
actions for far too long. Within the new budget request, the 
Department would seek to hire additional immigration judges, 55 
in total, to reduce this backlog.
    But also, Senator, recognizing that we simply cannot wait 
for additional money, we are taking steps already to try and 
make the Executive Office of Immigration Review more efficient. 
Previous to my testimony, the judges have already worked to 
triage, so to speak, the types of cases that need to be 
adjudicated quickly. Judges have been reassigned and redeployed 
to handle the backlog of cases because we recognize that that 
is unsustainable. Separate and apart, of course, from the 
Executive Office of Immigration Review, as I am sure the 
subcommittee is aware, approximately 30 percent of Federal 
criminal cases that are brought by our U.S. attorneys across 
the country relate to immigration offenses.
    So, Senator, separate and apart from the legal result or 
the court result of the November policies, the Department of 
Justice is moving forward both to prosecute criminal activity 
resulting from illegal immigration and to support the work of 
its Executive Office of Immigration Review, which we believe is 
vital.

                            FINANCIAL FRAUD

    Senator Shelby. I want to shift into another area of 
financial fraud. In one of your previous jobs, you were 
directly involved in several high profile financial fraud 
settlements during your tenure as the U.S. attorney for the 
Eastern District of New York. However, it is my understanding 
that not one of those settlements also involved a criminal 
prosecution. Why did you and the Department--I know you were 
not the Attorney General then; you were the U.S. attorney--not 
pursue criminal charges, and how could you enter into billion 
settlements sometimes with firms guilty of fraud, and yet never 
see fit to prosecute not one person for mortgage or financial 
fraud? And will that change now since you are the Attorney 
General? In other words, are people buying justice by 
settlement?
    Attorney General Lynch. Senator, with respect to the work 
with which I was proud to conduct as U.S. attorney regarding 
the Residential Mortgage-Backed Securities Initiative, my 
office was involved in two of the major settlements of that as 
well as other outstanding U.S. attorney's offices across the 
country. Throughout those investigations, the message from the 
leadership at the time, from all the U.S. attorneys working on 
that, and from myself to my team, the direction was that no 
entity is above the law, no individual is above the law, no one 
is too big or too powerful to jail or to fail.
    But what the Department of Justice does in every case, 
Senator, is follow the evidence. We ascertain the best way of 
achieving legal compliance when there have been violations and 
providing redress to victims. We look carefully in every case, 
not just the residential mortgage-backed securities (RMBS) 
cases, but every case involving a financial institution where 
American citizens have lost hard-earned money to determine the 
best way to bring those wrongdoers to justice. And where the 
evidence leads us to find that we can prove beyond a reasonable 
doubt that there has been a criminal violation, we go in that 
direction.
    And I would point you to the number of criminal fraud 
prosecutions brought by my office on behalf of the victims of 
Ponzi schemes, mortgage fraud schemes, and real estate schemes 
over the years involving hard-working Americans who were 
defrauded of their life savings. Where we find evidence that 
points toward civil liability, we pursue that. But I can assure 
you, Senator, that both in my prior position and going forward, 
I take very seriously the obligation to protect the American 
citizens from fraud of all types, and it is one of my highest 
priorities as Attorney General.
    Senator Shelby. But the standard threshold for a civil case 
is not as high as a criminal case, and neither should it be. Is 
that correct?
    Attorney General Lynch. That is correct. There is a 
different burden of proof on the Government, and where we have 
evidence that meets the criminal burden of proof, we do 
proceed. And there are several people who are sitting in 
Federal prison contemplating the results of their actions now 
who can provide proof of that.
    Senator Shelby. Okay. Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman. Madam Attorney 
General, there are many programs you have functioning at the 
local level, certainly in Baltimore. We have a top notch U.S. 
attorney's office, an outstanding Baltimore FBI field office, 
joint task forces working with local government going against 
everything--dealing with everything from human trafficking--
such a violent, despicable thing--to Medicare fraud, which we 
know, for example, in Florida, is already to $3 billion 
defrauding our Government of money that should be in the trust 
fund helping sick people. So we thank you for what you are 
doing.

                             GRANT PROGRAMS

    The issue, though, is also focusing on criminal justice 
reform because of our grant program, particularly in COPS, 
Byrne, others, that go directly to local law enforcement. Do 
you think that there should be mandatory training in the areas 
of ethnic and racial bias as well as also on the use of force, 
and that there should be a national standard? In other words, 
in order to get the money, you have to take the training so 
that behavior will not tatter or wear out or even break the 
trust that the community must feel.
    Attorney General Lynch. Senator, I think as we administer 
our grant programs to our local law enforcement partners, all 
of those issues are on the table and are under consideration. 
Currently, I will say that our view is that the grant program 
is a very important tool in bringing offices into compliance 
with not only Federal standards, but also community standards. 
So we would not use that as a barrier to the grant program, but 
rather as an incentive to work with us and gain training on use 
of force policies.
    We have grants that are specifically targeted towards that. 
Through the COPS Office, whether there is a collaborative 
reform effort or not, we provide specific training on best 
practices involving use of force. Not only do we provide the 
training, we also attempt to link local law enforcement with 
other local law enforcement offices that themselves have either 
received training for the COPS----
    Senator Mikulski. But, Madam Attorney General, I mean, we 
will get lost in collaborative reform and all this, and I do 
not mean lost. First of all, we do know that Baltimore City 
through its both mayor, and police commissioner, and the 
concurrence of other elected officials have initiated a 
collaborative reform effort in Baltimore. That is a voluntary 
effort where police departments reach out to you, meaning the 
Attorney General, and his or her offices to evaluate the 
Department on how to better improve police community relations. 
That is under way, but that is voluntary.
    Attorney General Lynch. Yes.
    Senator Mikulski. That is voluntary. Then, of course, there 
is the pattern and practice investigation. We know we have 
asked for that. You will make your determination later on 
whether you will initiate it.
    But what about where they have not asked for collaborative 
reform, but they have asked for money? There is a lot of let us 
gets the money, you know, and we supported more cops on the 
beat. We supported the Byrne grants so that our law enforcement 
would have the tools that they needed, whether it is other 
technology or whatever. But, again, they took the money, but we 
see that there are other issues that community-based leaders, 
faith and grassroots and others, are saying the relationship is 
worn. And my question is if you get the money, should there be 
training, whether it is latent bias, deliberate bias, and also 
the use of force?
    Attorney General Lynch. Yes, Senator, and I certainly 
agree----
    Senator Mikulski. So do you think that apart from whether 
they have a collaborative reform effort underway or not?
    Attorney General Lynch. Yes, Senator. Separate and apart 
from whether there is a collaborative reform effort, in a pure 
grant situation we do seek to provide training. My only point 
was, and I actually do not want to disagree with you on that 
because it is such an important point. My only point was we do 
not use that as a barrier to obtaining the grant, but rather as 
an incentive to work with us and obtain training from a variety 
of different sources. Some of that training will come as a 
result of the grants. Some of the training comes as a result of 
us connecting police departments with others.
    Senator Mikulski. I understand that, but the community 
feels they get a lot of money from the Feds, and we do not have 
the necessary things. So I would like to have ongoing 
conversation with you about it.
    Attorney General Lynch. Yes, and those issues are under 
consideration because, as you indicate, they are very, very 
important and essential to the----
    Senator Mikulski. What other tools do you feel that you 
have on criminal justice reform to help restore this trust that 
exists that we need to restore on our communities?
    Attorney General Lynch. Well, Senator, we have touched a 
little bit on the collaborative reform process, but, again, as 
we have seen, without community trust in that, it may not be as 
effective as we would wish. Certainly we then have other tools 
to consider.
    Within our programs we do provide training on use of force. 
We do provide training on building community trust. We also, as 
you mentioned earlier in your statement, through our Community 
Relations Service worked directly with the community to attempt 
to empower them to engage with their local leaders, with the 
police department, and to hold them accountable as well, 
because we do think that community accountability is an 
important part of that relationship.
    Senator Mikulski. Well, we have more to ask. If there is a 
second round, I want to focus then on juvenile justice.
    Attorney General Lynch. Yes.
    Senator Mikulski. Thank you very much.
    Senator Shelby. Senator Kirk.
    Senator Kirk. Madam Attorney General, I want to raise 
questions about Racketeer Influenced and Corrupt Organizations 
(RICO) prosecutions. I understand that countrywide we have 
about 1,517 under the RICO statutes. Assuming that Illinois is 
about 5 percent of the United States, that would mean we would 
have had over 60 RICO prosecutions in our area. Right now it is 
about zero. I want to encourage you very strongly to work with 
Zach Fardon, our U.S. attorney there, to make sure that the 
RICO prosecutions that we have underway, that we can prosecute 
gangs of national significance that then Chairwoman Mikulski 
backed me on to take on the issue of crime gangs, which are 
taking over some of our cities. I think RICO is the particular 
statute that we should go with.
    Attorney General Lynch. Senator, I could not agree with you 
more on the efficacy of the RICO statute in targeting----
    Senator Kirk. Let me just follow up on one other thing.
    Attorney General Lynch. Certainly.

                             GANG VIOLENCE

    Senator Kirk. This subcommittee has added $18,500,000 to 
the U.S. Marshals to combat these gangs. My understanding is 
the new task force of Chicago has arrested about 344 people in 
relation to this effort. Is that your understanding?
    Attorney General Lynch. Sir, I do not have that exact 
number. I would have to get back to you, but I know that it is 
very active in the Chicago area.
    [The information follows:]

    As of July, there have been 695 arrests made in Chicago in relation 
to this effort.

    Senator Kirk. Thank you.
    Attorney General Lynch. Senator, just to follow up on your 
previous point, I could not agree with you more on the efficacy 
of the RICO statute as a tool to target violent crime, 
particularly gang violence. The importance of taking out the 
leadership of a gang, both from a law enforcement perspective 
and from a community perspective, cannot be overstated. I thank 
you for the discussions that you and I had during my courtesy 
visits with you, and, in fact, I have had discussions with the 
U.S. attorney in Chicago as well as with the head of our 
Criminal Division here in Washington about finding ways to 
bolster those efforts, and both have assured me that they are 
also committed to using this important tool.
    Senator Kirk. I want to make sure we get the word down to 
Leslie Caldwell and Doug Crow and make sure they follow up.
    Attorney General Lynch. Yes, sir. I have spoken with them, 
and they are committed to this as well.
    Senator Kirk. Thank you.
    Attorney General Lynch. Thank you, sir.
    Senator Kirk. Thank you, Mr. Chairman.
    Senator Shelby. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. Madam Attorney 
General, it is nice to see you again.
    Attorney General Lynch. Thank you, sir.
    Senator Leahy. Thank you for being here. And I agree with 
what Senator Mikulski said about your presence in Baltimore, 
and that sort of thing is not only important for the community, 
which you would understand far better than I, but it is 
important to the country. And I understand that as you did in 
your hearing before the Judiciary Committee, you were asked a 
number of questions on immigration, and questions on something 
that since I have been here every President has done, Executive 
actions on immigration. I think probably the most extensive 
were by President Reagan. But I would also point out if--an 
Executive action is usually done, it is when Congress does not 
act.
    Now, we spent hundreds of hours putting together an 
immigration bill in the U.S. Senate. It passed a couple of 
years ago. Two-thirds of senators voted for it, Republicans and 
Democrats alike. Huge bipartisan effort. Even though by all 
analyses the immigration bill would have passed the House of 
Representatives, the Republican leadership in the House refused 
to take it up.
    So I have a little trouble hearing criticisms of the 
President finally acting when the Congress would not. If the 
Congress does not like what the President has done on 
immigration, pass an immigration bill. We did it in the Senate. 
Again, Republicans and Democrats came together. However, the 
Republican leadership refused to bring it up in the House. Had 
they, we would not even be having this question. So I would 
just say that if we do not like it, then the Congress must pass 
a bill.
    I also think we ought to reform our Federal sentencing 
laws. The Bureau of Prisons is consuming nearly a third of the 
Department's budget, and we talked about what we should be 
doing on law enforcement and other priorities. A third of your 
budget is going into the Bureau of Prisons. Excessive mandatory 
minimum sentences are wasting money that could be spent 
otherwise.
    One of the proposals under consideration by the Senate 
Judiciary Committee, the Modern Sentencing Act, would reduce 
mandatory minimums for non-violent drug offenses. In your law 
career as a Federal prosecutor, you prosecuted many drug cases. 
I prosecuted many drug cases. Do you think we can reduce those 
mandatory minimums, and still keep our communities--excuse me--
and still keep our communities safe?

                           SENTENCING REFORM

    Attorney General Lynch. Senator, I think we absolutely can 
have sentencing reform that enables us to reduce the mandatory 
minimums and keeps our communities safe. It is important to 
note that the recent efforts at sentencing reform that seek to 
reduce mandatory minimums do not eliminate them. They still 
recognize the need to provide serious punishment for the most 
serious offenders. In fact, what we have seen with the Smart on 
Crime initiative is that while overall drug cases may have gone 
down, the longer sentences have actually gone up. We are now 
focusing on those larger offenders, the large-scale traffickers 
who are flooding our communities with poison as opposed to the 
lower level offenders, who did need to be punished, but at a 
different scale. So I think sentencing reform is an excellent 
way to make sure that these efforts continue.
    Senator Leahy. I think also we sometimes think we can do a 
one-size-fits-all. California did that with three strikes you 
are out, and it darn near bankrupted the State. I worry about 
what is happening when we are taking money from law enforcement 
to lock up people. Some people should be in prison. I am all 
for that. Others we are wasting time and money, and that money 
could be used in other areas of the criminal justice system.

                                 HEROIN

    I am also worried about the increase in heroin use and 
overdose. It has become a health crisis. Even in my home State 
of Vermont we have not been spared. Between 2000 and 2012, 
treatment for opioid addiction in Vermont rose by more than 770 
percent. Just last week, the Vermont State Police issued a 
warning about the dangers of heroin laced with the drug 
fentanyl, after it was linked to a number of multiple overdose 
deaths in our State.
    Interdiction alone is never going to solve the issues, but 
the law enforcement agencies, particularly in small and rural 
States or small rural areas, which every State has, need some 
help. I pushed last year to create a new grant program to 
support an anti-heroin task force. I understand the grant 
program is getting under way. Last year, the Justice Department 
was instructed to create a multi-agency task force to address 
the rising number of heroin uses. Can you tell me how that is 
going and what you might be able to do to help with----
    Attorney General Lynch. Yes, Senator.
    Senator Leahy [continuing]. This public health crisis?
    Attorney General Lynch. Yes, Senator. It certainly is the 
intersection of law enforcement and a public health issue. Our 
budget does request additional funds to deal with this uptick 
in heroin abuse and other emerging drug areas.
    As you noted, there is a Senate-mandated heroin task force. 
They held their first meeting just last week. The Deputy 
Attorney General is actively involved in that, and it deals not 
only with law enforcement, but the public health issues of 
that. It is also led and supplemented by several of our U.S. 
attorneys who over the past several years have themselves 
worked with public health officials and local communities to 
deal with this as a public health crisis. So we are bringing 
all voices to the table in an attempt to get the policies that 
have been effective at a local level promulgated nationwide and 
make them available to other communities as well.
    As I mentioned, the President's budget does call for 
increases that would support our law enforcement efforts in 
heroin as well as opioid addiction in general because, of 
course, we still have the prescription drug crisis that is tied 
to this as well.
    Senator Leahy. Thank you. Thank you, Mr. Chairman and 
Senator Mikulski.
    Senator Shelby. Thank you. Senator Collins.

                            FISA SECTION 215

    Senator Collins. Thank you, Mr. Chairman. Attorney General 
Lynch, just this morning the 2nd Circuit Court of Appeals held 
that Section 215 of the Foreign Intelligence Surveillance Act 
does not authorize Government to engage in the bulk collection 
of phone numbers under the metadata program. One of the 
President's independent review groups which looked at this law, 
Mike Morrell, the former deputy director of the CIA, as well as 
the former director of the FBI, Robert Mueller, have said that 
had this program been in place prior to the terrorist attacks 
on our country on 9/11/01, it likely would have prevented those 
attacks. So we have a very serious question here of balancing 
security with privacy rights and the clarity of the law, which 
is set to expire. That provision expires June 1.
    Since January of last year, this section of the Foreign 
Intelligence Surveillance Act (FISA) has been conducted 
pursuant to new procedures that were instituted by the 
President. Now, the AG provides a semi-annual report on privacy 
violations associated with the law. The new procedure provides 
that except in emergencies, the FISA Court is now required to 
approve ahead of time any queries of phone records database 
because of the changes made by the President.
    Two questions. One, are you aware of any significant 
privacy violations that have occurred since the President 
instituted these reforms? And second, has the Justice 
Department made a decision yet on appealing this decision by 
the 2nd Circuit? I realize it just came down.
    Attorney General Lynch. Yes. Thank you, Senator. Section 
215 has been a vital tool in our national security arsenal, but 
the Department has, as you note, been operating under the new 
directives by the President with a view towards modifying the 
program to keep its efficacy, but preserve privacy interests. I 
am not aware at this time of any violations that have come to 
light. I will certainly seek a briefing on that, and should I 
learn of any, I will advise the subcommittee of that if my 
knowledge changes on that. But as of now, I have not been 
informed of any violations under the new policy.
    With respect to the decision from the 2nd Circuit, my home 
circuit actually, we are reviewing that decision this morning. 
But given the time issues involving the expiration of it, we 
are and have been working with this body and others to look for 
ways to reauthorize Section 215 in a way that does preserve its 
efficacy and protect privacy.

                              ELDER FRAUD

    Senator Collins. Thank you. I want to turn to an issue that 
you and I discussed when we met at my office, and that is the 
tremendous increase in the number of scams that are targeting 
our Nation's seniors. They range from the Jamaican lottery 
scam, the grandparents scam, and most recently the IRS imposter 
scam. What we have learned is that these scammers typically 
operate offshore, and they rely upon advanced communication and 
payment technologies. And the losses suffered by individual 
victims are devastating and they aggregate in the billions, yet 
the Federal Government has been extraordinarily lax in its 
approach to actually going after these criminals. And only the 
Federal Government can realistically tackle the international 
crime networks behind many of these scams.
    I also want to bring to your attention that under your 
predecessor, and I want to make it very clear it was before 
your time, that the Department refused to send to the 
subcommittee a witness to testify on the Department's efforts. 
That was appalling to both the ranking member, Senator Claire 
McCaskill, and to me. What can the Department do to be more 
aggressive in prosecuting these scams which aggregate in the 
billions of dollars, and will you pledge that from now on the 
Department will cooperate with our investigations?
    Attorney General Lynch. Well, Senator, with respect to the 
very, very important role that this subcommittee plays in 
gathering information about the Department's priorities, I will 
always strive to cooperate and provide either a witness or 
information, whatever is best, for the subcommittee to receive 
so that we can help you learn not only about our priorities and 
issues, but also to do the important work of this subcommittee. 
I am not aware of the circumstances that were around that 
previous request, but certainly I will always commit to 
providing this subcommittee with the assistance that it needs 
either before the subcommittee or at the staff level.
    With respect to the very important matter that you raise--
many of them are overseas based fraud schemes. The other 
troubling factor to me is that many of them target our elderly 
population, and that is a particularly vulnerable population to 
telemarketing schemes be they based locally or be they based 
overseas. So that is very troubling to me, and the protection 
of our vulnerable population is one of our priorities.
    I am not aware right now of the cases that we may have in 
our pipeline. I certainly will ask for a review of this 
important issue. Our budget does, of course, ask for funding to 
continue the fight against fraud, and I know that all of the 
agencies that are involved in this, you mentioned, for example, 
the IRS scam calls, are very concerned about that.
    As someone who actually received one of those calls myself, 
I can tell you that if one is not aware of the fraudulent 
nature of them, they can be very disturbing. And it is easy to 
see how our seniors in particular, but other people, can get 
pulled into that.
    Senator Collins. Thank you.
    Senator Shelby. Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman and Vice 
Chairwoman Mikulski, for holding this hearing, and welcome, 
Madam Attorney General. It is so great to see you again this 
time in your now official capacity leading the Department of 
Justice.

                            VA INVESTIGATION

    I was pleased to hear a few minutes ago your giving voice 
to the seriousness with which you take issues of over 
prescription, addiction, and abuse, and diversion of opioid 
drugs. And I want to call your attention to a situation in my 
State of Wisconsin at the Tomah VA medical facility where there 
are a number of investigations ongoing, all relating to these 
very pressing issues.
    I called on your predecessor, Attorney General Holder, to 
investigate potential criminal activity at this facility. My 
request and communication to your predecessor was based on 
multiple sources, including published investigative journalism 
reports, numerous whistleblowers and citizens who have 
contacted my office conveying information that in my mind 
raises serious questions about potential criminal activity. 
Currently the VA is conducting an investigation as is the VA 
Inspector General, and the DEA is engaged in an investigation 
of allegations of drug diversions at the facility.
    But I remain convinced that there are additional elements 
that warrant further criminal investigation. And my letter to 
your predecessor outlined some of those, including an alarming 
number of 9-1-1 calls made from the facility over the past 
several years--over 2,000--reports of 24 unexplained deaths, 
allegations of illegal access to confidential patient 
information and law enforcement records, et cetera.
    Now, I understand you cannot get into any details of 
ongoing criminal investigations, so as a consequence I would 
simply ask if you will evaluate these allegations and 
coordinate with the existing three Federal investigations to 
determine if there are additional criminal investigations that 
are warranted and appropriate in this particular case?
    Attorney General Lynch. Well, Senator, I thank you for 
raising this important issue because I think that the safety 
and security of those who use our Veterans Administration's 
hospitals is foremost a priority, not just for my tenure as 
Attorney General, but for our country. As someone whose family 
has used those hospitals, I am well aware of how vital a 
resource they are to the families and to those who are ill. And 
certainly, I am aware of the situation. I have not yet had a 
briefing on the matter, but I will commit to you that I will 
request a briefing on this matter and make sure that all 
efforts to coordinate are being undertaken.
    Senator Baldwin. I thank you for that. And one additional 
matter, again, given the urgency with which we respond to the 
opioid abuse problems that we have throughout our Nation, I 
want to make you aware of some impediments in the DEA 
investigation into drug diversion at the Tomah VA. The DEA and 
the VA have differing interpretations of the scope of a VA 
specific patient privacy law, which may be limiting the ability 
of VA personnel to fully participate in interviews if they are 
told that they cannot reveal particular information about 
patients. It certainly would be an incredible obstacle to a 
thorough investigation if not fully resolved.
    And so, if you have previously been briefed, I would ask 
you what is the status of the Department's effort to resolve 
the confusion? If you need authorization language from the 
Congress to resolve this issue, I would appreciate it if you 
would provide that to me and my staff.
    Attorney General Lynch. Thank you, Senator. As I indicated, 
I have not yet been briefed on this matter, although I am aware 
of the DEA's investigation into the situation, and of course 
fully support it. And we will also look into whether or not 
there are impediments to DEA being able to view this as a 
criminal matter.
    Senator Baldwin. Thank you.
    Attorney General Lynch. Thank you.
    Senator Shelby. Senator Alexander.
    Senator Alexander. Madam Attorney General, welcome. I was 
in New York City for my law school reunion at New York 
University (NYU) this past weekend, and many of my classmates 
knew you and were very complimentary of you.
    Attorney General Lynch. Thank you, sir.
    Senator Alexander. I want to begin by thanking you and the 
Department for something. It is my understanding that sometime 
today the Drug Enforcement Administration will approve the 
State of Tennessee's application to import certified industrial 
hemp seeds for research purposes. That may seem like a small 
matter, but it was important to our State agricultural 
department, and there was a practical issue. The seeds had to 
be planted in May, so I thank you for moving that along.

               PRESCRIPTION DRUG WHOLESALER REQUIREMENTS

    Second, on the Drug Enforcement Administration, I would 
like to call something to your attention that has been called 
to my attention. I do not have a solution for it, but I think 
it deserves really the attention of the Attorney General and 
the management, and it has to do with prescription drug abuse 
and the relationship between the Drug Enforcement 
Administration and the wholesalers or pharmacies who distribute 
controlled substances.
    Now, here is what seems to be the problem. DEA requires 
wholesalers to track and report on ``suspicious orders.'' These 
would be orders from local drug stores I guess. And it 
restricts how those orders can be filled if they are flagged as 
suspicious. Well, there is no guidance or clarity about what is 
a ``suspicious order,'' and as we both know in the law, 
whenever the law gets too vague, sometimes there are risks and 
problems associated with that.
    One risk, of course, if a wholesaler refuses to send a 
controlled substance to a drug store, then someone with a 
broken arm goes to the drug store, and that person is out of 
luck. The other risk is that there develops an adversarial 
relationship between the Drug Enforcement Administration and 
the wholesalers over this issue.
    So my request is simply this. Would you please take a look 
at the words ``suspicious orders'' and the relationship between 
the DEA and wholesalers and pharmacies, and see if there needs 
to be additional guidance so that we do not have an adversarial 
relationship between people who really should be in a 
partnership to make sure controlled substances are not sent to 
the wrong people at the corner drugstore?
    Attorney General Lynch. Certainly, Senator, I can commit to 
that. I also echo your concern that in a desire to protect 
people, we may be, in fact, inhibiting the ability of people 
who have legitimate needs for pain medications to obtain them, 
which is not our intention. And it certainly is something that 
I will undertake to review.

                           METH LAB CLEAN UP

    Senator Alexander. Thank you very much. And my final 
question also is just to put a spotlight on something. Our 
State, Tennessee, is third in the Nation in meth lab seizures. 
It is a big problem, especially in rural areas and because the 
demand for enforcement exceeds the funding. Our State developed 
what they call a central storage container program. They found 
a way to clean up meth labs for $500 per lab instead of $2,500 
per lab. Now, that is progress if you can do something for 20 
percent of what you used to do it for.
    So we were pleased to see the budget of $4 million more for 
the meth lab cleanup program this year, but disappointed that 
the Department decided not to include funding for the 
competitive grant program for State anti-meth task forces. 
Given that the meth epidemic is one of the most urgent drug 
problems that we face, especially in rural areas, what was the 
thinking, especially as it affects rural communities with less 
resources, in not expanding or continuing the competitive grant 
program for States?
    Attorney General Lynch. Thank you, Senator. My 
understanding of that competitive program, the COPS Anti-
Methamphetamine Program, is that the funding that exists is 2-
year funding, and so there was not a need to request funding 
for this year because the program as enacted last year would 
cover this fiscal year. It is, believe me, not a desire to end 
or in any way diminish the program.
    And it is also my understanding that the solicitation for 
this fiscal year will be released very soon, later this month 
in May. So I regret the appearance that the Department may have 
pulled back or withdrawn from that, but it is my understanding 
that because we have 2-year funding for that, that we will then 
have to come back in the next fiscal year to request additional 
funding.
    Senator Alexander. Well, that would be very encouraging. 
Thank you for that explanation. Thank you, Mr. Chairman.
    Senator Shelby. Senator Murphy.

                              FCI DANBURY

    Senator Murphy. Thank you very much, Mr. Chairman. Welcome, 
Attorney General Lynch. Congratulations on your confirmation. I 
had a few broader questions to ask, but I wanted to begin with 
a rather specific one to the Northeast region and to 
Connecticut. We have historically had a women's correctional 
facility in Danbury, Connecticut, and in July of 2013, the 
Federal Bureau of Prisons announced it was going to close that 
facility, which would essentially be the only--was the only 
facility for women in the Northeast. We had a number of really 
positive discussions with the Department of Justice and with 
the Bureau of Prisons, and they reversed that decision, 
understanding that it would be incredibly detrimental to women 
who are incarcerated in the Northeast if they had to be 
transported hundreds, if not thousands, of miles to other 
facilities.
    The solution was to build a new facility, a low security 
facility for women in Danbury. And the initial schedule was for 
that facility to be completed by this month actually. And in 
the interim, all these women are being spread amongst jails in 
the Northeast, jails that really are not equipped to be able to 
handle the things that these women need, especially drug 
counseling in the long run.
    So I just wanted to ask you if you had an update on 
progress of the construction of that facility and whether we 
can expect that construction will be completed as soon as 
practicably possible so that we can transition these women who 
are now in places like Brooklyn and Philadelphia back to a more 
long-term suitable facility.
    Attorney General Lynch. Certainly, Senator, and I share 
your concern over that important issue. When I began my career 
as a young assistant U.S. attorney (AUSA) in the early 1990s, 
Federal Correctional Institution (FCI) Danbury was not yet a 
total women's facility, and most women who were prosecuted in 
the Federal system ultimately ended up being housed in West 
Virginia. And the facility actually was fine, but for women 
from the Northeast it presented a significant negative impact 
on their ability to stay connected with their families. It 
harmed their relationships with their children. Those 
collateral consequences are the types of things that we seek to 
avoid. And so, having FCI Danbury in the Northeast has 
certainly been a positive law enforcement step for all of who 
work in that area.
    My understanding is that the environmental impact studies 
were completed quite recently, and that there are additional 
matters. In fact, I believe that there are pricing materials 
being resolved this month, and I am told by my team that 
construction should begin this summer. I do not have an 
anticipated completion date for you, and I regret to say that I 
am hesitant to offer one having seen several government 
construction projects in my day. But I am told that 
construction should begin this summer on the new facility, and 
I share your concern and view that it is an important law 
enforcement resource for the Northeast.
    Senator Murphy. Thank you for your personal attention to 
this. I look forward to talking with you about it as we move 
towards the construction schedule. Again, this is really a 
development of a really positive series of conversations. Not 
easy to reverse course on something like this, and I really 
thank the Bureau of Prisons for considering the impact of 
shuttling women prisoners to the far reaches of the Northeast.

                    NATIONAL BACKGROUND CHECK SYSTEM

    Just one other query. I represent Newtown, Connecticut, 
Sandy Hook. It is a community that is still grieving dealing 
with the ripples of trauma that still exist there. I understand 
the realities of this place that we are not likely to get a 
bill expanding background checks, though 90 percent of 
Americans support the notion that everyone should have to prove 
they are not a criminal before they buy a gun. But as Senator 
Shelby noted in his opening comments, the ATF position is open, 
a very important position, for the enforcement of existing 
laws.
    And the existing national background check system can be 
made much better to make sure that all of the data is being 
uploaded into it, making sure that that information is 
distributed. A hundred thousand individuals every year are 
prohibited from buying guns because of the background check 
system. It works.
    And so, I just I would ask for your commitment to work with 
us to make sure that the ATF has the resources that they need 
in order to carry out existing laws, and your commitment, as 
your predecessor did, to work with us on making sure that our 
national background check system has the resources it needs to 
continue to do the good work that it has for decades.
    Attorney General Lynch. Certainly, Senator. I am committed 
to that important goal of supporting and strengthening the ATF, 
as well as making sure that their processes and the existing 
systems are as efficient as possible because that is how we 
protect our citizens.
    Senator Murphy. Great. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Shelby. Thank you. Senator Murkowski.

                         TRIBAL LAW ENFORCEMENT

    Senator Murkowski. Thank you, Mr. Chairman. Madam Attorney 
General, welcome and thank you. I want to point out the aspects 
of your budget that focus on tribal law enforcement. This is an 
issue, of course, that is very important in my State. We had an 
opportunity to discuss it in your pre-confirmation meeting that 
we had, and I know that you have recently had a conversation 
with Julie Kitka, who is the president of the Alaska Federation 
of Natives.
    The public safety challenges that face Alaska Native 
villages run the gamut, everything from the absence of full-
time law enforcement officers in some villages, inadequate 
resources devoted towards community-based prevention, and 
restorative justice efforts. We have a tribal court system that 
is struggling because it is just really in an embryonic stage. 
We have human trafficking of our native women. The heroin 
issues that you have heard discussed here today are not just 
limited to the cities. They are out in our villages.
    I know that you have got a lot on your plate. It is clear 
from the discussions here this morning. But I would like your 
commitment that you will work with me, you will work with the 
Alaska Federation of Natives (AFN) to really be involved to a 
personal extent and degree with some of these challenges that 
we are facing as they relate to rural justice in our native 
areas--in our rural areas. I have been asked by AFN, and I am 
actually going to be speaking to their board by video or by 
teleconference this afternoon, for an opportunity to sit with 
you and some of the native leadership to discuss some of these 
issues that are just so very troubling to us right now.
    So I would like your commitment that we can have that 
meeting and perhaps very quickly your observations based on 
your conversations with not only me, but Ms. Kitka, about some 
of the substantive issues that we have with rural justice in 
Alaska.
    Attorney General Lynch. Senator, I would look forward to 
such a meeting, and I would welcome it.
    Senator Murkowski. Thank you.
    Attorney General Lynch. I think that the commitment that 
the Department of Justice and our Nation have made to Indian 
Country over the last several years has shown great promise, 
but it is one that must be sustained, maintained, and improved 
upon. We have several requests in the budget that go directly 
to the issues of tribal justice, the Office of Violence Against 
Women, for example.
    And because it such an important issue to me, I am just 
going to outline them briefly because we are asking for an 
increase of $100 million, but part of that money would go for 
tribal grant set asides. Twenty million would go for the Crime 
Victims Fund Tribal Assistance Program. Five million would go 
for the Office of Violence Against Women Domestic Violence 
Jurisdiction Program.
    As I know you are well aware, we recently had great success 
in enabling tribal courts to deal with offenders who commit 
violence against women and children on native lands when the 
offenders are non-Natives. That had been a bar for some time. 
It has been tremendously helpful to have given that 
jurisdiction to the tribal courts.
    We also are asking for money to address environmental 
problems in Indian Country as well as to maintain current 
positions. I firmly believe that this commitment must be not 
only maintained, but expanded upon else we really do risk 
sliding backwards, Senator, with all the issues faced by tribal 
lands, particularly, as you and I discussed with Alaska, having 
such a large land mass and dealing with the law enforcement 
challenges there. We have to set in place systems that will 
work, but that will also be maintained.

                                 HEROIN

    Senator Murkowski. Well, I agree with you. We have got a 
lot of work to do, and I look forward to those conversations 
with you and your team. On the heroin issue, you have heard it 
repeated several times here today, but I will reiterate that in 
our very remote rural areas, areas that are islands, areas that 
are not accessible by road, we are seeing the impact of heroin, 
whether it is in Dillingham, whether it is in Kodiak. And 
actually we have got meth issues in the community of Kodiak, 
and law enforcement is focusing on that, so they are not able 
to focus on some of the smaller villages that are out there.
    So you mentioned the heroin task force that is in place. I 
would ask that you not forget the smaller communities where we 
see--we see an addiction and a devastation truly just taking 
our communities, just wiping them out. And it is a frightening 
thought that the resources may be there and available for the 
cities, but that our smaller communities where losing a few 
young people can be so significant to just health, morale, and 
safety. So I would ask that you work with us on that.
    And, Mr. Chairman, I do have other questions that I would 
like submitted for the record, most specifically with the 
codification of the Brady obligation in statute. We have talked 
about that, but I would like further follow up on that.
    Thank you, Mr. Chairman.
    Attorney General Lynch. Thank you, Senator.
    Senator Shelby. Senator Coons.
    Senator Coons. Thank you Chairman Shelby, and thank you, 
Attorney General Lynch, for your service and for your testimony 
before us today. I want to congratulate you as you being your 
important service in the interest of our Nation.
    Last year, Congress demonstrated its commitment to the 
Victims of Child Abuse Act by unanimously reauthorizing the 
programs in both chambers. Children's advocacy centers funded 
under this law conduct forensic interviews in a way that is 
both effective in serving law enforcement needs and respectful 
of the delicate needs of child victims of abuse.

                      CHILDREN'S ADVOCACY CENTERS

    I was frankly very disappointed to see the President's 
fiscal year 2016 budget request once again only asked for half 
of the amount needed to fund these crucial programs. We are 
talking a modest amount, $11 million out of the $20 million 
authorization. What has your experience been with children's 
advocacy centers in your law enforcement role, and do you 
expect to be an advocate for them within the Department in 2016 
and beyond?
    Attorney General Lynch. Well, Senator, my experience has 
been based primarily with my experience as a U.S. attorney in 
the Eastern District of New York, and we have found children's 
advocacy centers to be extremely powerful partners. And for us 
it has been in dealing with children who may be related to the 
victims of human trafficking. That has been a huge problem that 
we have seen in the New York area. And so, I know that there 
are other issues that are in other parts of the country, and I 
look forward to learning more about those. It is definitely a 
program that I feel is extremely important.
    The overall budget includes our request for Juvenile 
Justice Programs, and it is our hope that the panoply of 
programs that we offer will, in fact, help provide a valuable 
safety net for those children in need.
    Senator Coons. Thank you. I look forward to working with 
you on these valuable programs that I think are under 
resourced, but there are many challenges in our budget 
environment.

                       VIOLENCE REDUCTION NETWORK

    Let me next reference the Violence Reduction Network, which 
is an effective program for cities like my hometown of 
Wilmington to address violent crime and connect local law 
enforcement with cutting-edge law enforcement resources, mostly 
Federal resources. I want to thank the very hard-working team 
in the Office of Justice Programs (OJP's) Bureau of Justice 
Assistance and the Wilmington team that is led by John Skinner.
    I hope you commit to ensuring the Violence Reduction 
Network (VRN) Program is maintained and supported with 
necessary resources so that it can continue to serve as a 
valuable connection between the Department of Justice (DOJ) and 
a number of communities that have seen dramatic increases in 
violent crime. Is that something you are inclined to support?
    Attorney General Lynch. Senator, I support it 
wholeheartedly. Certainly Wilmington has been one of the 
flagship cities in this, not a distinction that you sought, but 
one which came upon you, I understand. But Wilmington has been 
an excellent model frankly for the level of cooperation between 
the Wilmington Police Department and the FBI, and the State and 
local and other Federal law enforcement agencies as well.
    My understanding is we actually have identified five 
additional cities for the next fiscal year to be involved in 
this program. Again, not a distinction that they would seek, 
but one which we think is an area in which we think we can 
provide assistance. Beyond just the VRN, of course, we do have 
other resources for violent crime for our cities that may not 
have such extreme, and we are fully committed to those programs 
as well.
    Senator Coons. Thank you. I look forward to continuing to 
work on Federal, State, and local law enforcement partnerships 
that can reduce violent crime.

                    COLLABORATIVE REFORM INITIATIVE

    Let us turn to the Collaborative Reform Initiative. As we 
all know, we have strained relationships between law 
enforcement and communities in cities across the Nation, most 
recently and tragically Baltimore, but this has occurred in 
many other places. I am particularly interested in the 
Collaborative Reform Initiative efforts that are underway in 
Baltimore, and would be interested in hearing more about what 
is on the table for the project, and how it is going to be 
sustained, and whether recent events in Baltimore have affected 
the CRI timeline.
    Attorney General Lynch. Well, with respect to the situation 
in Baltimore, the Collaborative Reform Initiative was begun 
last fall actually at the request of the Baltimore Police 
Department. And our COPS Office went into Baltimore and has 
been very, very active in working with both the police and the 
community to work on ways to improve the Baltimore Police 
Department. As we have discussed in this chamber earlier today 
and throughout my most recent visit to Baltimore, recent events 
have certainly made us cognizant of concerns that both city, 
the police, and the community have about the efficacy of a 
collaborative reform process. And we are listening to all those 
voices, and we are certainly considering the best as we move 
forward to help the Baltimore Police Department.
    It is important to note, I think, that collaborative reform 
has been a very successful tool throughout the country. We not 
only provide technical assistance and training to police 
departments around the country, but we connect them with other 
police departments who have themselves either been through the 
process or who themselves have very positive law enforcement 
practices. So we try and make it a peer-to-peer relationship in 
terms of work and training as well. It is a tool, very, very 
important tool. And as you will note, our budget does request 
an increase of about $20 million to support these important 
reforms.
    Senator Coons. Thank you, Madam Attorney General. I will 
submit a question for the record about forensic hair analysis. 
I was very concerned to see reports that FBI forensic experts 
may have overstated the strength of evidence, and I look 
forward to hearing what DOJ will be doing to provide meaningful 
relief to those convicted on the strength of misstated or 
inaccurate testimony.
    Attorney General Lynch. Thank you, sir. That is, in fact, 
an ongoing process, and we are very committed to working on 
that issue.
    Senator Coons. Thank you. Thank you, Mr. Chairman.
    Senator Shelby. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. I apologize for 
running back and forth to you and our Attorney General.
    There are two things that are really important to Arkansas, 
the sense of combatting violent crime and the other things that 
we are dealing with, but also reauthorizing the child nutrition 
programs. And so, we have a subcommittee going on in that 
regard, too, which both of those things go together, you know. 
If you have hungry kids, then, again, it all--it all flows 
together.
    In the Smart Crime Initiative, I know that you have talked 
a lot about that and how important it is, and that in your 
request you state the initiative will spend $247 million to 
focus resources on reducing disparate impacts of the criminal 
justice system on vulnerable communities. Certainly that is 
important to Arkansas. But my understanding that I am hearing 
from attorneys general throughout the country that the reality 
is that there seems to be a directive coming down that 
terrorism and cybercrime, it is kind of the number one--
terrorism and cybercrime are the number one things that they 
are to devote their resources to. Can you talk a little bit 
about that? I know that is so important, and yet, you know, we 
have so many communities now that are experiencing violent 
crime and that it is increasing.
    Attorney General Lynch. Senator, thank you for the 
opportunity to address that issue. Obviously national security 
and cybercrime are important areas, as I have noted. They 
represent not only ongoing threats to public safety and to 
American citizens, but new and emerging threats. And so, our 
budget does ask for funding for that.

                             VIOLENT CRIME

    With respect to violent crime, however, I will reiterate 
the Department's commitment and my own commitment to that issue 
has not wavered. One of the things I think that is very 
important as a former U.S. attorney myself has been to 
recognize that every prosecutor knows best the crime problems 
of their area. What we try and do in the Department as I look 
at policies and interact with not just people here in 
Washington, but also in the field, is to make sure that we 
maintain the flexibility that allows U.S. attorneys working in 
conjunction with their State and local counterparts to identify 
the crime problems in their area and focus their resources on 
them. For example, my former office, the Eastern District of 
New York, has both a strong national security practice and a 
large violent crime program. Every office is not going to be 
similarly situated, so it is my goal to give my prosecutors the 
flexibility that they need to deploy their resources to best 
address the crime problems at hand.
    With respect to violent crime, the Department's anti-
violent strategies for several years have been focused on three 
main issues. Law enforcement, effective, vigorous, strong, is 
the core of that and the first part of that. But we are also 
attempting to look at prevention as well as reentry programs, 
and it has been very gratifying to see members of this body 
also address those issues at the statutory level as well.
    As you mentioned, with respect to the food services 
program, not a DOJ program, but one that certainly impacts the 
crime rate of an area because it impacts the poverty rate of an 
area, and the health of the children, and the opportunities 
that they have, so it is interdisciplinary. It is holistic, and 
I can assure you that there is not an over emphasis on one type 
of priority over others. If a U.S. attorney feels that the 
largest problem in their area is one of violent crime, we have 
a number of ways in which we deal with that. We will 
concentrate resources for them. We will provide assistance from 
other offices and main Justice for them. I myself have in the 
past detailed attorneys from my office to others to help out on 
cases, capital cases and the like. And so, you will find a 
very, very strong commitment to violent crime prevention and 
enforcement within the Department.

                                 HEROIN

    Senator Boozman. Thank you. Another huge issue going on 
throughout the country, not only in Arkansas, is opiates and 
heroin, and there are reports of doubling, tripling, things in 
that nature. Can you talk a little bit about addressing that 
problem? And then the other thing that I think is so important 
are the drug courts, and I think, for the first time, you have 
actually something in your budget for that.
    Attorney General Lynch. Yes.
    Senator Boozman. Are you an advocate or lukewarm or 
whatever? I really feel like that is--if there is a solution, 
that that is one of the key components to it.
    Attorney General Lynch. One of the key components certainly 
in the reduction of over incarceration as well as crime 
prevention have been drug courts. At the Federal level, not 
only are we focused on drug courts, we are focused on expanding 
our network of veterans drug courts because what we have seen 
also is that our veterans are returning with a number of 
problems for which the criminal justice system may not be the 
best method to treat them, for lack of a better phrase. And so, 
we are trying to expand opportunities to provide treatment as 
well as crime prevention for our veterans, as well as other 
low-level drug offenders.
    They have been tremendously successful. My former district, 
the Eastern District of New York, has a very strong pre-trial 
diversion program as well as a pre-trial opportunity program. 
We try and pair those with reentry programs also, so I think 
that that is a very, very important tool.
    I would add, however, that it really has been the States 
who have been showing us by example how effective drug courts 
can be in reducing crime, reducing recidivism. And the real 
goal is to make productive members of society out of those 
individuals whom we otherwise might have incarcerated for way 
too long.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Shelby. Thank you. Senator Mikulski.

                           PRISON POPULATION

    Senator Mikulski. Mr. Chairman, I know the House is late. I 
just have a few comments for ongoing efforts. First of all, I 
want to associate myself with the remarks of Senator Leahy, the 
gentleman from Vermont, about the need for reviewing sentencing 
reform. But the prison population, you know, your 
appropriations request for prisons is $7 billion. It is a 
significant amount of money because it constitutes almost one-
third of your appropriations.
    I would hope because there is bipartisan effort in this 
area in terms of looking at what we need to do to safely reduce 
the prison population. We have an excellent facility in 
Maryland in Cumberland, but our concerns would be the public--
safety for the public. Second and parallel, safety for the 
correction officers because you have got significant challenges 
in the prisons with overcrowding, and I worry about their 
safety.
    And then third, what are the issues where prisoners who are 
either really old or really sick? In other words, how can we 
begin to do an evaluation of who is in prison and should they 
be in prison? And, Madam Attorney General, I would hope as you 
begin your term here that you look also at those of a 
significant age or significantly ill where they would pose no 
threat to the general public. So let us have an ongoing 
conversation about it, and we look forward to your 
recommendations.

                                 HEROIN

    Heroin. It has come up just about from all of us, both side 
of the aisle. My Governor, a Republican Governor, a 90 percent 
congressional--Democratic congressional delegation. We are Team 
Maryland and wanting to deal with this, so we ask that your 
task force, which I initiated when I was chair with the support 
of Senator Shelby, is that it not only be internal to the 
Justice Department, but it be across the board involving the 
Department of Education, the Department of Human Services, the 
Department of Homeland Security. Is that the nature of the task 
force, or is it internal to the Justice Department?
    Attorney General Lynch. Senator, the task force had its 
first meeting last week, and I have not been fully briefed on 
that, but I will confirm the level of participation to you. 
Even if it is, however, focused on the Department of Justice, 
that does not preclude us from, as you noted, reaching across 
the street to those agencies and pulling them into the debate.
    Senator Mikulski. We think this is a big issue. It is a big 
issue in our State. The third point that I want to make is 
juvenile justice. There are several grant programs here in the 
area of juvenile justice. I would hope in the days ahead we 
could work with your Department on what you feel would have, as 
we work with our mayor and our community-based groups, what 
would be the effective juvenile justice programs that we could 
either bring additional resources in or appeal for or apply for 
these grants.
    I know speaking for the delegation and speaking for the 
leadership of our city, not only government, but our private 
sector as well as our community-based, faith-based leaders, we 
see this as a situation in which there could be an opportunity 
to really do something very significant in terms of our young 
people so that for those that are on track, we help them stay 
there. For those who need to get back on track, help them get 
there. And for those who really constitute significant risk to 
our community, we also do the right intervention. So we look 
forward to ongoing conversation. You are always welcome back in 
our hometown, but we also appreciate the availability, and the 
accessibility, and the professionalism of your staff.
    Attorney General Lynch. Thank you, ma'am.
    Senator Shelby. Thank you. Senator Collins.

                              DRUG COURTS

    Senator Collins. Thank you very much, Mr. Chairman. I want 
to associate myself with the remarks of the Senator from 
Arkansas about the value of drug courts and the special 
veterans courts. I have seen firsthand in Maine the difference 
that these courts can make in helping people straighten out 
their lives, avoid imprisonment, and really change the 
direction of their lives. I know that does not happen in every 
case, but I have got to believe that these are cost effective.
    And that is why I am disappointed that the administration's 
budget cuts $5 million from the drug courts program compared to 
last year when it was funded at about $41 million, and also 
cuts a million dollars from the veteran treatment courts. I 
hope our subcommittee will take a look at that, but I wonder if 
the Department has done any sort of cost benefit analysis 
because this is a case where I think we are being penny wise 
and pound foolish.
    Attorney General Lynch. Ma'am, I am not aware of any cost 
benefit analysis to that, but I will see. I will ask if that 
was done, and so I do not know the basis for that particular 
allocation of funding there, but I certainly share your 
commitment to the efficacy of drug courts and the veterans 
treatment courts. And like you, I have seen them literally 
change lives.
    Senator Collins. Well, I have seen it firsthand because I 
actually several years ago hired someone who had gone through 
the drug court program successfully. I will admit that I was 
somewhat apprehensive, but she turned out to be a wonderful 
employee, and I wanted to give her a chance. And but for drug 
court, her life would have gone in a very different direction.
    I have also spoken at a graduation ceremony for a drug 
court in Portland, and it was really inspiring to see largely 
younger people being reunited with their significant others or 
spouses and children, and know that they really were committed 
to turning their lives around. I have also heard of the cases 
that were not successful, but that is the beauty of the drug 
court. And I just think this is something that deserves our 
support.
    Attorney General Lynch. I agree. Thank you, ma'am.

                  REGIONAL INFORMATION SHARING SYSTEM

    Senator Collins. Let me just end with one other very 
successful program in my State that also unfortunately is cut 
quite severely in the administration's budget. And I realize 
you have not been on the job very long and were not involved in 
formulating this budget, so I am not certain whether you are 
familiar with this program. But it is called the Regional 
Information Sharing System (RISS). And I hear repeatedly from 
police officers, detectives, sheriffs, law enforcement at all 
levels in Maine, State, local, county, about how essential the 
RISS Program is in their efforts to fight violent crime, drug 
activity, human trafficking, and a host of other criminal 
enterprises.
    I want to give you a specific example. A detective in 
Franklin County, a rural part of our State, told me recently 
about a fascinating case involving counterfeit silver dollars 
from China. He used the RISS databases to discover that the 
suspect was committing this crime throughout the State of 
Maine. He was also able to determine whether the same crime was 
occurring in other States. What was at first just a one 
incident case became a statewide investigation with the help of 
the RISS network and tools, which are especially vital in a 
rural State like Maine.
    And that is why I am disappointed that the President's 
budget has slashed funding for this program. It is such an 
important tool for rural law enforcement to use. So I hope 
looking forward that you will take a look at programs that 
encourage that kind of collaboration at all levels of 
government, and allow a local sheriff who has arrested someone, 
to find out that this person has been committing crimes not 
only throughout his or her State, but in other States as well, 
and thus build a stronger case.
    Attorney General Lynch. Yes, ma'am. I share your view that 
that system is particularly efficacious. My understanding of 
that is that the request in the budget this year mirrors the 
request last year, which was increased by $5 million, so that 
it was not viewed as cutting that program, but maintaining it 
because we do feel it is so important.
    Senator Collins. Well, it is my understanding that we 
plussed up the program in the Appropriations Committee because 
it was so successful, has bipartisan support, but then the 
administration in its budget request went back to the previous 
level. I may be mistaken about that, and I would certainly 
welcome any additional information.
    Attorney General Lynch. We will provide you additional 
information on that issue.
    [The information follows:]

    The fiscal year 2016 President's budget request includes $25 
million for the Regional Information Sharing System (RISS), which 
matches the fiscal year 2015 request.

    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Senator Shelby. Thank you, Senator Collins. Attorney 
General Lynch, thank you for appearing here today and being 
patient with all of us and our questions. We look forward to 
working with you to make sure that the Justice Department is 
properly funded.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions here this afternoon, 
Senators may submit additional questions for the subcommittee's 
official hearing record. And we request that the Department of 
Justice's responses to those questions come back within 30 
days, Madam Attorney General.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Loretta E. Lynch
           Questions Submitted by Senator Barbara A. Mikulski
               stopping human trafficking and pedophiles
    Question. What efforts is the Justice Department taking to stop 
human and sex trafficking in the U.S.? What additional resources are 
needed by Justice agencies to put traffickers out of business?
    Answer. The Department aggressively prosecutes human trafficking 
cases. The Department has worked with its community and law enforcement 
partners to increase reporting and identification and to provide 
services to stabilize and support victims, in order to both facilitate 
victims' recovery and prosecute the offenders. Some cases are 
prosecuted federally while others are referred to State or local 
authorities for prosecution. In others, the case might result in the 
defendant being convicted of a criminal offense other than trafficking. 
The Department also collaborates closely with our interagency partners 
on innovative anti-trafficking initiatives, including the Anti-
Trafficking Coordination Team (ACTeam) Initiative and the U.S.-Mexico 
Bilateral Human Trafficking Enforcement Initiative. In addition, the 
FBI leads or participates in 51 Human Trafficking Task Forces and 65 
Human Trafficking Working Groups across the country.
    The Department also continues to respond to dynamic threats 
involving the commercial sexual exploitation of children, such as gang-
related child sex trafficking and the use of Web sites to facilitate 
prostitution. The FBI's Violent Crimes Against Children Section (VCACS) 
leads 71 Child Exploitation Task Forces across the country and partners 
with 400 local, State, and Federal agencies in targeting those who 
victimize children through commercial sex trafficking. The Department, 
through the FBI, Civil Rights Division, Criminal Division, Office of 
Justice Programs, and other components, has also provided training on 
all forms of human trafficking to investigators, prosecutors, judges, 
Federal employees, non-government organizations, and others throughout 
the United States and in dozens of countries abroad.
    In sum, the Department's trafficking programs continue to grow in 
scope, complexity, and impact. The $2.8 million enhancement in the 
fiscal year 2016 budget request for the Civil Rights Division would 
allow the Department to further build on this momentum.
    Question. What kind of connections are agencies like the FBI seeing 
with gangs and human trafficking and sex trafficking?
    Answer. Gang involvement in human trafficking and commercial sex 
operations is another area in which the FBI can work to disrupt and 
dismantle criminal organizations that use the exploitation of adults 
and juveniles for profit. Historically, gangs had limited involvement 
in human trafficking, but that level of involvement has increased due 
to the potential for profit from these crimes and the perception of a 
lower risk of detection and punishment.
    The FBI works with other Federal, State, local, and tribal law 
enforcement agencies and victim-based advocacy groups to target human 
trafficking activity, including gangs that perpetrate the activity, and 
to rescue the victims of these crimes. The National Gang Intelligence 
Center and multiple law enforcement agency reports indicate that some 
gangs derive their income through human trafficking of adults and 
juveniles. Some gangs recruit, as well as exploit, affiliated female 
gang members for sex trafficking. Prostitution and human trafficking 
provide a significant source of income for a growing number of gangs. 
Street gangs and Outlaw Motorcycle Gangs have expanded their criminal 
scope into commercial sex. Gangs involved in prostitution and human 
trafficking employ control techniques, including: the use of drugs, 
violence, sexual assault, rape, branding or tattooing, and manipulation 
of victims to commit other crimes in furtherance of the gang. Similar 
to traditional pimp-and-prostitute relationships, gang members provide 
security, transport victims to dates, and schedule appointments.
                           combatting heroin
    Question. In the fiscal year 2015 omnibus, we requested that the 
Department of Justice convene a task force to come up with a 
comprehensive Federal solution covering law enforcement, healthcare and 
treatment, and prevention efforts. I was disappointed to hear that the 
task force had not even convened at our law enforcement hearing in 
March. What can you tell us about the status of the task force? Who is 
participating?
    Answer. DOJ continues to increase support for drug abuse education, 
prevention, and treatment through partnerships with doctors, educators, 
community leaders, and police officials. As directed by Congress, the 
Department has joined with the Office of National Drug Control Policy 
to convene an interagency Heroin Task Force to confront this challenge. 
This Task Force is co-chaired by the U.S. Attorney for the Western 
District of Pennsylvania and the Office of National Drug Control Policy 
Deputy Director for State, Local and Tribal Affairs. The Department, 
Drug Enforcement Administration (DEA), and more than 28 Federal 
agencies and their components are actively participating on the Task 
Force. As noted in more detail below, other participants include 
medical community, enforcement, public health, and education experts. 
The Task Force is taking an evidence-based approach to reducing the 
public health and safety consequences caused by heroin and prescription 
opioids. We expect the Task Force to submit its comprehensive Strategic 
Plan to the President and Congress by the end of 2015.
    The Task Force has convened three times as of July 28, 2015. Deputy 
Attorney General Sally Yates and the Director of the Office of National 
Drug Control Policy (ONDCP), Michael Botticelli, opened the first 
meeting. DEA Administrator Chuck Rosenberg and Centers for Disease 
Control and Prevention Director Thomas Frieden opened the second 
meeting. Four committees have been established to develop solutions to 
the heroin crisis. The committees include Prevention and Education, Law 
Enforcement, Treatment and Recovery, and Coordinated Community 
Response. The committees have met on multiple occasions to receive 
evidence, evaluate the problem, and begin developing recommendations.
    Participating agencies include: the Bureau of Justice Assistance, 
Bureau of Justice Statistics, Centers for Disease Control and 
Prevention, Substance Abuse Mental Health Services Administration, 
Centers for Medicare and Medicaid Services, Criminal Division, 
Community Oriented Policing Services, Drug Enforcement Administration, 
Department of Homeland Security, Department of Energy, Federal Bureau 
of Investigation, Food and Drug Administration, Federal Bureau of 
Prisons, Health Resources and Services Administration, Office of HIV/
AIDS and Infectious Disease, Homeland Security Investigations, Justice 
Management Division, National Institute of Justice, National Institute 
of Drug Abuse, National Security Council, Office of the Deputy Attorney 
General, Office of National AIDS Policy, Office of National Drug 
Control Policy, Office of Urban Affairs, Justice and Opportunity, 
Organized Crime Drug Enforcement Task Force, Public Housing Support 
Services, and the United States Attorney's Office.
    Question. Will the subcommittee receive a complete and 
comprehensive final report by December 2015?
    Answer. The Task Force expects to complete and submit its full 
report to the subcommittee by the end of 2015.
    Question. This subcommittee added funding of $7 million in the COPS 
Office for State and local enforcement combatting heroin in communities 
across the United States. Why was this program eliminated in the 
Justice Department's fiscal year 2016 budget request?
    Answer. The Department of Justice and the administration have other 
resources available through the Drug Enforcement Administration and 
Office of National Drug Control Policy and, based on other budgetary 
needs, did not request funding for the heroin program in fiscal year 
2016. Additionally, the fiscal year 2015 funding provided will support 
the task forces for 2 years.
                              body cameras
    Question. Fiscal year 2016 budget request includes $30 million for 
body cameras. The fiscal year 2015 budget had $20 million for body 
cameras as a Byrne-JAG program. How many cameras are expected to be 
purchased with each of these of amounts?
    Answer. The Bureau of Justice Assistance plans to deploy over 
11,000 cameras in fiscal year 2015 and over 15,000 cameras in fiscal 
year 2016. This funding also creates a national service provider to 
offer training and technical support to all agencies, thereby ensuring 
federally and non-federally funded programs have the greatest chance at 
success.
    Question. What is the Department's cost estimate to put a body 
camera on every police officer? What costs come with data storage?
    Answer. The Bureau of Justice Assistance has worked to create a 
per-camera, 2-year program cost of approximately $3,000. This funding 
metric is used in the Body-Worn Camera Pilot Implementation Program 
where the award maximum is $1,500 per camera to be deployed and is to 
be matched with State and local funds. A 100-camera program maximum 
award is $150,000 for a total 2-year program cost of $300,000.
    Storage costs vary based on tangential considerations such as in-
house versus cloud, security requirements, bandwidth needs, retention 
guidelines, scalability and redundancy. Current market trends for 
hosted solutions range from $20 to $100 per month, per camera. Similar 
scalable cost could be associated to in-house managed storage solutions 
though the quality of tangential considerations will also vary.
    Ongoing annual costs, primarily storage, are estimated at $150 
million per year, an estimate that could be reduced with rapid 
development of storage technologies and economies of scale.
    The Bureau of Justice Statistics estimates that there are 477,000 
sworn officers in America and that 65 percent of officers (310,000) 
perform a patrol function. This can vary between police agencies and 
sheriff's offices where the role of corrections is more prevalent. 
Given these considerations, if every patrol officer needed to be issued 
a new body camera, OJP estimates the total Federal cost to be $465 
million, to be matched by State and local jurisdictions for a total 2 
year program cost of $930 million. This is inclusive of policy 
development, training, implementation and estimated storage costs. 
Ongoing annual costs (year 3 and out) are estimated at $150 million per 
year, an estimate that could be reduced with rapid development of 
storage technologies and economies of scale.
    Question. What are the privacy implications of body cameras? What 
is the Justice Department doing to study and publish best practices on 
body camera usage?
    Answer. The Bureau of Justice Assistance (BJA) fiscal year 2015 
body-worn camera solicitation requires agencies to perform an extensive 
review of all identified aspects of the body-worn camera program, 
including privacy considerations. BJA is also funding a national 
training and technical assistance provider to support all law 
enforcement agencies in policy development and implementation. This 
national provider will work with Department components to further 
develop policy, best practices, and research.
    BJA has also developed the Web-based National Body-Worn Camera 
Toolkit, which represents a broad collection of the topics pertinent to 
developing and implementing body-worn camera programs, including 
privacy issues. As a clearinghouse of reference material, policies, 
lessons learned and other resources, this website received over 30,000 
visits in its first month alone. Examples of the resources that are 
already available through the toolkit are the Office of Community 
Oriented Policing Services 2014 Implementation Guide, the National 
Institute of Justice (NIJ)-funded Primer on Body-Worn Cameras for Law 
Enforcement and the Office of Justice Programs Diagnostic Center review 
of research on body-worn cameras. The Toolkit site also offers 
multimedia testimony from active practitioners to provide valuable 
insights into the efforts required to establish successful body-worn 
camera programs.
    NIJ is providing funding for two research projects currently being 
conducted to examine the impact of body-worn cameras on policing.
  --Researchers in the Las Vegas Metropolitan Police Department are 
        currently examining the use of body-worn cameras by 
        approximately 400 police officers in Las Vegas, Nevada. Outcome 
        measures will include officer compliance with department 
        policies, changes in police-citizen behaviors, and decisions by 
        officers to use force in police-citizen encounters.
  --Researchers are also evaluating body-worn cameras in the Los 
        Angeles Police Department to examine their impact on privacy 
        issues, police legitimacy and changes in police services, and 
        reductions in crime.
    In fiscal year 2015, BJA transferred $1 million to BJS so it could 
begin collecting data and generating statistics on this issue for a two 
part multi-year project. Of those funds, $500,000 was used to fund a 
2015 survey. The first body-worn camera survey will be conducted this 
summer and fall (2015), in which BJS will survey local law enforcement 
agencies about their use of body worn cameras. The survey will address 
the following topics:
  --When an agency obtained body-worn cameras;
  --An estimate of the number of body-worn cameras in use;
  --The level of deployment of body-worn cameras;
  --Reasons for acquiring body-worn cameras (for those agencies that 
        have them);
  --Reasons for not acquiring them (for those agencies that did not 
        acquire them);
  --Collaboration with other entities in relation to body-worn cameras; 
        and
  --Formal body-worn cameras policies related to:
    --General operations (when to turn them on/off, recording 
            effectively, informing citizens);
    --Transfer, storage, disposal of body-worn cameras video;
    --Frequency of upload and off-loading video;
    --Responding to external requests for video footage;
    --Retention and disposal of body-worn cameras video; and
    --Restrictions on internal/external access to body-worn cameras 
            video.
    BJS expects to have results from this survey by the end of 2015/
early 2016.
    The remaining $500,000 will support a second survey to be conducted 
in 2017. By repeating the survey 2 years later, BJS will be able to 
assess change in use and policies.
    Body-worn cameras are intended to produce benefits to law 
enforcement and the residents of the places they serve. Among the 
potential benefits to law enforcement are improvements in evidence that 
can be used to clear crimes and the lessening of conflict that could 
result in officer or citizen injury or death. To study whether there is 
a relationship between the adoption of body-worn cameras and clearance 
rates or assaults (on officers or by officers), BJS will link its Law 
Enforcement, Management & Administrative Statistics data with the FBI's 
Uniform Crime Reports data on clearances by arrests, and the FBI's Law 
Enforcement Officers Killed or Assaulted and data from its body-worn 
cameras surveys to study the relationship between body-worn cameras and 
these outcomes. As additional data on body-worn cameras become 
available in future years, BJS would replicate this analysis with new 
data.
                          crime data reporting
    Question. How many States report National Incident-Based Reporting 
System (NIBRS) data to the FBI?
    Answer. The FBI has certified 33 State Uniform Crime Reporting 
(UCR) Programs as NIBRS-certified. These 33 States are divided into two 
groups:
  --In the first group of 16 States, labeled ``complete reporting 
        States,'' all the State's law enforcement agencies that have an 
        associated population report NIBRS data to the State's NIBRS-
        certified UCR program. Actual reporting rates by these agencies 
        vary over time.
  --In the second group of 17 States, the State UCR program is 
        certified to report data to NIBRS, but not all of the State's 
        local law enforcement agencies submit incident-based data.
    The remaining 17 States and the District of Columbia do not have a 
NIBRS-certified component to their State-level UCR program. Fifteen of 
the 17 States report only to the FBI's Summary Reporting System (SRS), 
and two of the 17 have no State-level UCR program at all (Indiana and 
Mississippi). https://www.fbi.gov/about-us/cjis/ucr/nibrs/2013/
resources/nibrs-participation-by-state.
    While currently more than 6,500 local law enforcement agencies 
participate in NIBRS, these agencies cover about 31 percent of the 
resident population in the United States.
    Question. What is the average annual IT operation and maintenance 
cost for States to submit Uniform Crime Report (UCR) data to the FBI? 
What is the estimated cost for a State to also submit NIBRS data to the 
FBI?
    Answer. BJS is not aware of any estimates for the costs for States 
to submit UCR data. The costs vary by State based on their collection 
and reporting levels as well as their population size. Each State also 
pays for the costs in different ways.
    While there are costs to the States, the majority of the costs 
associated with collecting, coding, analyzing, and submitting NIBRS 
data to UCR State programs fall to the local law enforcement agencies 
that collect and submit their crime data to the State.
    It is not necessary for each State to submit NIBRS data in order 
for BJS to generate nationally representative incident-based data. BJS 
and the FBI created the NCS-X program to recruit the scientifically 
determined sample of 400 additional law enforcement agencies into NIBRS 
which, combined with the currently participating NIBRS agencies' data, 
will produce nationally representative crime estimates. Currently more 
than 6,500 law enforcement agencies submit NIBRS data to the FBI, which 
is approximately 40 percent of the Nation's law enforcement agencies. 
When completed, nationally representative NIBRS data will increase our 
Nation's ability to monitor, respond to, and prevent crime by allowing 
NIBRS to produce timely, detailed, and accurate national measures of 
crime incidents.
    The costs for the States are small by comparison to the costs to 
the local law enforcement agencies. Below is a chart outlining the 
total estimated costs of $112 million for the NCS-X program:

----------------------------------------------------------------------------------------------------------------
            Project Component                      Total Cost                     Deliverable/Outcome
----------------------------------------------------------------------------------------------------------------
State UCR Program Support...............  $11.4 million..............  Establishing new NIBRS-certified
                                                                        reporting components in 17 States;
                                                                        expanding capacity for receiving and
                                                                        processing NIBRS data in 16 States.
                                                                        Costs for States may range from less
                                                                        than $100,000 to over $1 million
                                                                        depending on their needs.
Training support for local agencies.....  $11.0 million..............  Funding to support agency-specific
                                                                        training on data entry, coding, and
                                                                        quality assurance--cost per agency often
                                                                        dependent on volume of incidents
                                                                        handled, type of RMS data structure,
                                                                        point of entry for data, and agency-
                                                                        specific review processes.
Training on NIBRS.......................  $4.0 million...............  Funding to support the development of
                                                                        NIBRS training, for use by both local
                                                                        agencies and State UCR programs--this
                                                                        training would build on training already
                                                                        conducted by the FBI CJIS UCR staff, and
                                                                        would include a Web-based component.
Support to the 400 local law enforcement  $85.6 million..............  Conversion of the sample of 400 agencies
 agencies in the NCS-X sample.                                          to NIBRS reporting; generation of
                                                                        nationally representative estimates of
                                                                        crime based on the attributes of the
                                                                        offenses It is possible that some funds
                                                                        may be allocated for crime analysis
                                                                        training needs as well as for Web tool
                                                                        updates (e.g. with socio-economic data,
                                                                        NIBRS, and other data). Costs for law
                                                                        enforcement may also range from less
                                                                        than $100,000 to over $1 million
                                                                        depending on their needs.
----------------------------------------------------------------------------------------------------------------

    These costs were estimated based on information gathered from State 
UCR programs, from the 400 sampled agencies via a survey about 
reporting capacity conducted in 2014, and feedback from service 
providers who implement and support record management systems for local 
law enforcement agencies and State UCR programs.
    The amount of hardware or software needed to support a local agency 
in reporting incident-based data in the NIBRS format varies by agency 
and across States, depending on the incident-based data structure 
required by the State (if any), the volume of incidents handled by the 
local agency, the type of record management systems and other databases 
used by the agency, the point of entry for the data, and other agency-
specific factors.
    Question. What is the Justice Department doing to get more State 
and local law enforcement to report on data like officer related 
shootings?
    Answer. The Department of Justice's only current source of such 
data is the FBI's Supplementary Homicide Report (SHR), which:
  --captures only voluntary reports by law enforcement of the deaths 
        they deem to be ``justifiable homicides.''
  --does not capture arrest-related deaths attributed to suicide, 
        intoxication, accidents, or natural causes, or homicides that 
        were not deemed ``justifiable.''
  --does not capture additional details about the incident, such as 
        actions taken by both the decedent and law enforcement during 
        the event that caused the death.
  --reports data only annually with a 2-year lag.
  --is prone to significant error because many agencies do not 
        volunteer to participate.
    The FBI Uniform Crime Reporting (UCR) Program recently received 
approval from the Criminal Justice Information Services (CJIS) Advisory 
Policy Board (APB) to expand their current voluntary data collection to 
include fatal and nonfatal officer-involved shootings. The current 
collection of justifiable force by law enforcement is limited to 
homicide, so this would represent an opportunity to provide a more 
complete picture for the Nation. At present, the UCR Program is working 
with representatives from the law enforcement community--including 
major organizations such as the International Chiefs of Police, 
National Sheriffs' Association, Major City Chiefs Association, Major 
County Sheriffs' Association, and the Police Executive Research Forum--
to refine the definition and content of this collection.
    The work with law enforcement representatives continues to focus on 
opportunities to improve the amount of information available for 
officer-involved shootings, as well as increase participation in the 
existing data collection of justifiable homicide. This information is 
vital to both law enforcement in order to inform policies and training 
on use of force, and to the communities that they serve in order to 
increase transparency and demonstrate the principle of procedural 
justice.
    BJS is undertaking methodological research to improve the 
collection of data under its Arrest Related Deaths (ARD) Program, 
through which it aims to capture data on all deaths in the process of 
arrest and respond to the Deaths in Custody Reporting Act (Public Law 
113-242) request for such data.
    BJS collected data on deaths in the process of arrest under its ARD 
program beginning in 2003 but temporarily suspended data collection in 
2014 because BJS did not have the necessary resources to ensure the 
accuracy and reliability of the data.\1\ At that time, BJS evaluated 
the extent to which ARD and the FBI's Supplementary Homicide Report 
obtained data on all justifiable homicides and homicides by law 
enforcement officers. In March 2015, BJS reported that both the ARD and 
the FBI's Supplementary Homicide Report were undercounting arrest-
related deaths by half of the expected number. The BJS reports can be 
found at: http://www.bjs.gov/content/pub/pdf/ardpatr.pdf and http://
www.bjs.gov/content/pub/pdf/ardpdqp.pdf.
---------------------------------------------------------------------------
    \1\ BJS was using approximately $250,000 per year to operate the 
program during that time.
---------------------------------------------------------------------------
    BJS has been testing new methodologies to improve the collection of 
ARD data and will have results by early 2016. The methodologies involve 
a combination of ``open source'' (such as Web searches, news accounts, 
etc.) for cases of deaths to be investigated further and direct survey 
of law enforcement agencies, medical examiners offices, and other 
State-level offices that investigate officer related shootings, to 
obtain data to confirm the facts surrounding a death. The methodology 
also provides a basis for auditing the completeness of the records 
submitted to BJS by law enforcement. BJS has started collecting data, 
will evaluate the quality (coverage and accuracy) of the data it 
collects, and use the results of this methodological research to 
implement improvements to its ARD Program.
    These new methodologies will be used to implement an ongoing, 
continuous data collection that identifies and validates eligible cases 
of arrest-related deaths and minimizes the number of such deaths that 
are not reported to the program.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
                        guantanamo bay detainees
    Question. If Gitmo were closed, what is the administration's plan 
for dealing with detainees who fit in this category?
    Lead-in information from original document.--
          The administration has said that there are 37 detainees held 
        at Guantanamo Bay who are in preventive detention because they 
        are too dangerous to release, but who will not be tried in a 
        military tribunal or an Article III court. The President's plan 
        to close Guantanamo Bay is unlikely to succeed without a plan 
        to deal with these detainees.

    Answer. The closing of the Guantanamo Bay detention facility 
remains a top administration priority and a national security 
imperative. The facility's continued operation undermines our standing 
in the world, damages our relationship with key allies and partners, 
and emboldens violent extremists while at the same time draining 
hundreds of millions of dollars each year that could be better spent on 
other national security priorities. Accordingly, the administration is 
currently finalizing a draft plan to close the Guantanamo Bay facility, 
which will include addressing detainees who remain too dangerous to 
transfer or release but who will not be tried. Those detainees will 
remain eligible for review by the Periodic Review Board, which brings 
together representatives from the Department of Defense, Department of 
Homeland Security, Department of Justice, Department of State, Office 
of the Joint Chiefs of Staff, and Office of the Director of National 
Intelligence to examine whether, given current intelligence and other 
information, continued detention remains necessary to protect against a 
continuing significant threat to the security of the United States.
                     transfer of foreign detainees
    Question. If the administration's plan is to transfer foreign 
detainees in preventive detention to the United States, does the 
administration believe it has sufficient legal authority to 
indefinitely detain foreign nationals in the United States under the 
law of war without jeopardizing the lawfulness of their detention?
    Answer. Current statutory bars exist on the expenditure of funds 
for purposes of detaining Guantanamo detainees in the United States. In 
Hamdi v. Rumsfeld, however, the Supreme Court held that the 
Authorization for the Use of Military Force of 2001 authorizes the 
indefinite detention of enemy combatants in the United States, while 
active hostilities under the AUMF continue. As periodically reported to 
Congress consistently with the War Powers Resolution, the United States 
is engaged in active hostilities under the AUMF in various countries.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                         cell phones in prison
    Question. In 2013, 2,916 contraband cell phones were recovered in 
Bureau of Prisons facilities, including 1,083 recoveries from secured 
facilities. What is the Department of Justice's (DOJ) strategy to 
achieve a total communications blackout in Federal prisons to stop 
incarcerated gang members from communicating with outside criminal 
organizations? What resources are necessary to achieve such a blackout, 
and what legal hurdles, if any, should Congress consider in addressing 
this issue?
    Answer. The financial resources necessary for DOJ to achieve such a 
total communications blackout are significant. As of May 2015, BOP 
conducted a cost estimate for implementing a cellphone detection 
solution at a ``representative BOP facility.'' While no two sites are 
exactly the same, there are three general location classifications for 
testing: an institution in a rural location, an institution in a light 
urban area, and finally, an institution in a metropolitan location. 
Each context has its own unique set of challenges and concerns. By 
grouping sites in this manner, and using Managed Access Systems (MAS) 
as the technology solution, BOP can provide a gross estimate of the 
required pre-deployment efforts to modify the facility infrastructure, 
deploy system electronics, and sustain the capability with a focus on 
efficacy, affordability, and maintainability. The current estimated 
cost to implement a viable cell phone detection technology in these 
three contexts ranges from $795,000 for a rural site to $3,080,000 for 
a metropolitan site.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Rural Sites Surveys and Deployments.....  $795,000-$1,795,000/Site
Light Urban Sites Surveys and             $1,050,000-$2,050,000/Site
 Deployments.
Metropolitan Sites Surveys and            $2,080,000-$3,080,000/Site
 Deployments.
------------------------------------------------------------------------

    The BOP emphasizes that any MAS solution should augment existing 
sound correctional procedures and physical security technologies 
already in operational daily use. There are 121 individual correctional 
institutions in the Bureau of Prisons; a rough order of magnitude 
estimate to deploy an enterprise-wide communications cellular device 
blackout using a managed access solution would be at least $118 million 
to $239 million or potentially more. It is important to note that it is 
premature to provide a definitive estimate for the required funding 
because an RFQ has not been completed and the technology continues to 
evolve and improve.
    The legal hurdles Congress should consider in addressing this issue 
would be ensuring that legislative barriers to the implementation of 
such technology do not exist. (For example, laws relating to cellphone 
monitoring and interception should exclude prison environments.)
                new technology to disrupt gang networks
    Question. Computer programs like Palantir have been successful in 
mapping terrorist networks in Afghanistan and human trafficking rings 
in the United States. How do you plan to direct the Department to 
incorporate new technology into its investigations to map, track and 
disrupt criminal gang networks in the United States?
    Answer. The Department of Justice utilizes a wide array of 
technologies and techniques to disrupt criminal and gang networks 
across the Nation, some of which cannot be disclosed in an open 
setting. One technology that the FBI's Criminal Investigative 
Division's Violent Crime and Gang Section (VCGS) and the Criminal 
Intelligence Section (CIS) actively utilize are geospatial platforms to 
map and plot the density of gang members, their affiliations and track 
violent crime statistics.
    Geospatial maps are further utilized to assist in interpreting 
cellular data and geospatially plotting the movements of perpetrators 
and victims of crime. New technologies are also being explored to 
assist our task forces in exploiting all avenues of criminal behavior, 
including social media, which is utilized by gangs for recruitment and 
communication purposes.
    Specific advances in technology have been made to enhance 
surveillance activities by rapidly acquiring GPS and pertinent 
telephonic information, pen register data, and directly feeding this 
data to operational field surveillance agents to track and disrupt gang 
activity. The FBI will continue to explore all avenues, including the 
acquisition of new technologies, to assist efforts to combat the gang 
threat.
                            combatting gangs
    Question. Numerous neighborhoods in Chicago, including the Kenwood 
and Pullman areas, have been economically stifled by the presence of 
gangs like the Gangster Disciples. How will you lead the DOJ effort to 
remove gangs of national significance from these communities?
    Answer. The Department is committed to rooting out criminal 
organizations, including gangs like the Gangster Disciples, from 
communities that have suffered at their hands, whether through 
violence, intimidation, addiction, or economic depression. United 
States Attorneys' Offices around the country work with the Criminal 
Division's Organized Crime & Gang Section (OCGS) prosecutors who bring 
specialized knowledge about both the targeted criminal enterprises and 
a toolbox of laws, tactics, and strategies to dismantle the most 
nefarious gangs in the United States. These prosecutors have brought 
sweeping RICO indictments and successful prosecutions against gangs 
across the country, including MS-13, Latin Kings, Imperial Gangsters, 
Aryan Brotherhood and others.
    The U.S. Attorney's Office (USAO) for the Northern District of 
Illinois is similarly experienced and committed to using all available 
tools and strategies to eradicate gang violence. The USAO recently 
created a Violent Crimes section, comprised of prosecutors dedicated to 
the sole mission of combatting violent crime in the District. The USAO 
is working closely with State and local prosecutors and law enforcement 
agencies, including the Cook County State's Attorney and Chicago Police 
Department, to ensure a coordinated approach to target gang violence, 
including through its Organized Crime and Drug Enforcement Task Force 
strike force. Recently, the USAO charged the patriarch of a Gangster 
Disciples faction and 34 other defendants who allegedly sold heroin and 
crack cocaine on Chicago's west side. The USAO has also brought a 
racketeering conspiracy prosecution that alleges murders, attempted 
murders, solicitation to commit murder, robberies and the operation of 
a drug trafficking organization against nine members of the Hobos 
Street Gang, a tight-knit, violent crew who banded together from 
factions of the Gangster Disciples and Black Disciples street gangs. 
Moreover, the USAO has obtained strong sentences against high ranking 
gang leaders in Chicago including: in April 2015, against a high-
ranking Black Disciples leader sentenced to 15 years in prison; in 
September 2014, against a high-ranking Traveling Vice Lords leader 
sentenced to 35 years in prison; and in 2012, against the highest-
ranking leader nationwide of the Latin Kings sentenced to 60 years in 
prison, the statutory maximum, after being convicted at trial under 
RICO and other charges. The Department will continue its efforts to 
stem violence in Chicago and elsewhere through such vigorous 
prosecutions using all the tools at our disposal.
    The Violence Reduction Network (VRN) has been working with the City 
of Chicago extensively since the VRN was launched in September 2014 by 
former Attorney General Eric Holder. The VRN is a partnership across 
the Department of Justice that seeks to leverage programmatic and 
Federal law enforcement training and technical assistance resources to 
support cities with sustained high rates of violence.
    Although the City of Chicago has not requested assistance with gang 
intervention or prevention, we are available to assist. The VRN can 
support advanced gang training for the Chicago Police Department. We 
can work with the Federal Bureau of Investigation (FBI) National Gang 
Intelligence Center (NGIC) to provide gang training on investigative 
and prosecution strategies to include creation of a regional gang 
threat assessment that would describe the gangs that are active in 
Chicago, their behaviors, size, organization structure, etc. FBI is a 
critical partner in VRN efforts to enhance public safety in our sites.
                  monitoring social media for threats
    Question. Recently, social media accounts claiming to be associated 
with the terror group ISIS posted threats against targeted locations in 
Chicago, including the Old Republic Building on North Michigan Avenue. 
Will you direct the Federal Bureau of Investigation to hire more 
Arabic-speaking investigators to effectively monitor social media for 
threats against U.S. cities?
    Answer. In an effort to address the Arabic language needs of the 
FBI, the Bureau's Foreign Language Program pursues a number of 
initiatives to recruit from ethnic Arabic and heritage speaker 
communities. The FBI continues to provide training for special agents 
in Arabic, and has recently renewed an incentive program for foreign 
language use to develop in-house capacity.
    Additional information is classified. The Department will work with 
the subcommittee to ensure that a response is provided in an 
appropriate manner.
               shutting down human trafficking web sites
    Question. Online classified Web sites like backpage.com continue to 
facilitate prostitution and human trafficking. How will the Department 
of Justice shut down these Web sites and prosecute individuals that 
aide and abet sex traffickers?
    Answer. The Department shares Congress' grave concerns about the 
role of Web sites in the commercial sexual exploitation of minors. The 
Department has vigorously pursued sex traffickers, including those who 
use the Internet to illegally exploit minors, and thoroughly 
investigates Web sites that may be aiding and abetting child sex 
trafficking.
    As a general matter, any prosecution of an online classified Web 
site operator specifically for advertising child sex trafficking would 
require the Government to prove beyond a reasonable doubt that the Web 
site operators actually knew that a particular advertisement that they 
accepted offered sex with a child. Sufficient evidence of a crime 
against children is not indicated, however, where an advertisement on 
its face is for a legal service offered by someone who appears to be an 
adult.
    Where evidence of criminality exists, the Department will 
aggressively investigate and prosecute using all appropriate statutes. 
The recent prosecution of the owner and operator of myRedBook.com and 
sfRedBook.com exemplifies the Department's determination in this 
regard. In June 2014, the FBI seized the Web sites. Eric Omuro, the 
owner of the sites, and one of his employees were arrested. Both 
pleaded guilty to using a facility of interstate commerce with the 
intent to facilitate prostitution. On May 21, 2015, Omuro was sentenced 
to 13 months in prison. As part of his plea agreement, Omuro agreed to 
forfeit more than $1.28 million in cash and property as well as the 
sfRedBook.com and myRedBook.com domain names.
    While the myRedbook.com Web site purported to provide legal 
services such as ``Escort, Massage, and Strip Club Reviews,'' the 
evidence showed that it was used to host advertisements for 
prostitutes, complete with explicit photos, menus of sexual services, 
hourly and nightly rates, and customer reviews of sex workers' 
services. Evidence demonstrated that the Web site defined acronyms for 
sex acts in graphic detail in a ``Terms and Acronyms'' section and 
provided a section to review and rate prostitution services, offering 
special access to the reviews for a fee. If a customer purchased a 
membership with myRedbook, they received benefits such as early and 
enhanced access to sex worker reviews, enhanced sex worker review 
search options, and access to additional VIP forums, among other 
things. According to an affidavit submitted in connection with the 
sentencing hearing, the FBI identified more than 50 juveniles who were 
also advertised on myRedBook for the purpose of prostitution. 
Furthermore, despite being contacted by the National Center for Missing 
and Exploited Children (NCMEC) in 2010, myRedBook never registered to 
participate in the center's CyberTipline, which receives leads and tips 
regarding suspected crimes of sexual exploitation committed against 
children, and never communicated with NCMEC.
    The prosecution of the operators of myRedbook.com and the 
shuttering of the Web site demonstrate that the Department will pursue 
viable prosecutions using existing legal tools, when the elements of 
the statutes have been met and can be proven in court beyond a 
reasonable doubt.
        using innovative technology to combat human trafficking
    Question. How is the DOJ incorporating the use of new innovative 
technologies in its strategy to combat human trafficking? How will the 
Department partner with local law enforcement to deploy these types of 
technologies and ensure their use?
    Lead-in information from original document.--
          It is critical that local law enforcement agencies be 
        equipped with the latest innovative technologies to combat 
        trafficking and rescue victims. The Web-based software called 
        Memex, which was developed by the Defense Advanced Research 
        Projects Agency (DARPA) and recently used in New York City, is 
        one such example.

    Answer. Through the Bureau of Justice Assistance (BJA)-funded Human 
Trafficking Advanced Investigators training, human trafficking 
investigators are exposed to a variety of technological tools and 
resources that can be used in their efforts to combat human 
trafficking. Human Trafficking Law Enforcement Task Force grantees are 
permitted to purchase investigative tools and technology with grant 
funds and use grant funds to attend trainings on the use of such 
investigative tools. BJA will ensure that the new Human Trafficking Law 
Enforcement Training and Technical Assistance provider (being funded 
with fiscal year 2015 funds) promotes the use of Web-based software for 
human trafficking investigative purposes in the technical assistance 
provided to task forces.
    The Office of Juvenile Justice and Delinquency Prevention (OJJDP) 
funds the Internet Crimes Against Children (ICAC) Task Force Program. 
The 61 ICAC task forces focus on all forms of technology-facilitated 
crimes against children, including child sex trafficking. Through its 
regularly scheduled meetings with the ICAC task forces (generally three 
times a year), OJJDP demonstrates promising investigative tools that 
each task force can deploy within their own jurisdictions. For example, 
last fall OJJDP brought in Emily Kennedy (Carnegie Mellon University) 
to provide a demonstration on her tool ``Traffic Jam'' (funded in part 
by DARPA) which mines the deep Web and helps law enforcement identify 
offenders and rescue victims. OJJDP will continue to ensure that its 
ICAC task forces are exposed to promising tools and resources that can 
assist them in their efforts to protect children from online 
exploitation.
    The FBI leads 71 Child Exploitation Task Forces and is associated 
with over 100 human trafficking task forces and working groups. These 
task forces and working groups, and vetted technologies, are available 
to address various forms of human trafficking. In an effort to support 
law enforcement entities throughout the country, the FBI is currently 
engaged in a process to enhance the Innocence Lost Database (ILD) to 
automate the analysis of various governmental, non-governmental, and 
open source data sets in an effort to identify enterprises responsible 
for the commercial sex trafficking of children. Additionally, the ILD 
project will incorporate biometric capabilities to more efficiently and 
effectively identify and recover child victims. In regards to the Memex 
Project, DARPA has sponsored this initiative in an effort to develop 
capabilities which identify online indicators of human trafficking. 
Understanding that technical needs vary from agency to agency, DARPA 
has designed the Memex Project so that agencies can utilize the 
independent technical solutions developed by the Memex Project team. 
The FBI collaborates with the Memex Project team to share best 
practices associated with this sophisticated technical development.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
                             citizen safety
    Question. Please explain how you plan to provide our citizens with 
adequate security when the Department is seemingly focused on 
implementing our President's unconstitutional immigration directive?
    Lead-in information from original document.--
          Your prepared remarks state that your top two priorities are 
        ``the safety of our citizens and our national security.'' In 
        looking at the overall budget request, it's obvious that the 
        Department's priority is immigration, with a 40 percent 
        increase from fiscal year 2015. In comparison, your lowest 
        request for fiscal year 2016, is a 1 percent increase for law 
        enforcement components such as investigating violent crime, 
        trafficking of firearms, international drug trafficking 
        organizations, piracy of intellectual property, and healthcare 
        fraud.

    Answer. While the fiscal year 2016 president's budget does include 
a 38.8 percent increase for the Executive Office for Immigration Review 
(EOIR), this is predominantly to address the current caseload pending 
before the immigration courts, which ended fiscal year 2015 with just 
over 456,500 pending cases. These requested additional resources for 
EOIR are not tied to the President's immigration executive action from 
November 2014. The additional funding requested for EOIR in fiscal year 
2016 is critical to moving the current caseload through the immigration 
courts in a timely and efficient manner.
    Furthermore, the Department's 2016 request for immigration-related 
activities is 8.6 percent below the fiscal year 2015 enacted level due 
to significant decreases to the Bureau of Prisons and the Office of 
Justice Programs. The President's 2016 budget proposes only slight to 
moderate increases for immigration activities for Civil Division, 
Criminal Division, U.S. Marshals Service and Federal Prisoner 
Detention, and no increase for the U.S. Attorneys for immigration 
activities.
    The Department of Justice's fiscal year 2016 budget request does 
continue to prioritize resources for national security and cyber 
security, with increases of $106.8 million to develop the Department's 
capacity in a number of critical areas including: countering violent 
extremism and domestic radicalization; counterterrorism; cybersecurity, 
both domestic and abroad; information sharing and collaboration with 
the Intelligence Community; and training and technical assistance for 
our foreign partners. In addition, enhancements of $23 million will 
support the Drug Enforcement Administration's efforts to combat illicit 
drugs like heroin and other emerging drug trends. Additional violent 
crime initiatives that tackle gang violence, crimes against children, 
and promote gun safety also see increases over fiscal year 2015 enacted 
levels.
                    violence reduction network sites
    Question. Is this a program you plan to continue to offer and 
support? If so, what will you do within the U.S. Attorney's Office to 
compliment the work of the local and Federal agencies there?
    Lead-in information from original document.--
          As a response to the violent crime in Little Rock and West 
        Memphis, Arkansas, I understand that both are being considered 
        as VRN (Violence Reduction Network) sites, however, I do not 
        see any funding going to the VRN program.

    Answer. Launched in 2014, the Violence Reduction Network (VRN) 
Initiative synthesizes existing resources from across Department of 
Justice (DOJ) law enforcement agencies (Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF); Drug Enforcement Administration (DEA); 
Federal Bureau of Investigation (FBI); United States Marshals Service 
(USMS)); and grant program offices (Office of Justice Programs (OJP), 
Office of Community Oriented Policing Services (COPS), and Office on 
Violence Against Women (OVW)), with subject-matter expertise from the 
criminal justice, local government, advocacy, and academic communities; 
lessons learned from evidence-based violence reduction initiatives; and 
key data from organizations representing other disciplines, increasing 
the capacity of local communities to implement data-driven solutions to 
increase public safety. In addition, the United States Attorneys' 
Offices are critical partners in the VRN.
    The organization and structure of the VRN sites are designed to 
convene Federal, State, and local law enforcement and key stakeholders 
in the selected sites around the issue of violence reduction and 
includes the following:
  --United States Attorneys' Offices and local law enforcement 
        leadership serve as the local points of contact and coordinate 
        activities and services for the VRN sites.
  --A Strategic Site Liaison (SSL) works with each site to coordinate 
        project services and support enhancement of the site's violence 
        reduction efforts (paid with OJP's training and technical 
        assistance funds).
  --A DOJ Program Office Champion from OJP, COPS, or OVW serves as the 
        point of contact for the site to effectively navigate access to 
        DOJ programmatic resources.
  --A DOJ Law Enforcement Champion from ATF, DEA, FBI, or USMS serves 
        as the point of contact for the site to effectively navigate 
        access to DOJ law enforcement resources.
  --A VRN Analyst, provided by BJA's training and technical assistance 
        (TTA) provider, supports the site's violence reduction efforts 
        (paid with OJP's training and technical assistance funds).
  --DOJ law enforcement agencies (ATF, DEA, FBI, USMS) support local 
        violence reduction efforts through their field offices.
    Camden, New Jersey, Chicago, Illinois, Detroit, Michigan, Oakland/
Richmond, California, and Wilmington, Delaware were the first cities 
selected to participate in the VRN. In fiscal year 2015, five 
additional cities were selected to join the VRN, including Little Rock 
and West Memphis. OJP is working closely with the U.S. Attorneys to 
discuss the VRN and how it can leverage Federal resources to support 
Little Rock and West Memphis's efforts to address violent crime.
    Although the VRN does not provide direct funding to participating 
sites, the resources and expertise dedicated to selected communities 
through this partnership opportunity are substantial. Within the past 6 
months, and with the 10 current VRN sites, VRN has successfully 
delivered on (or is currently coordinating) over 118 resource and 
training and technical assistance requests; reaching 722 individuals 
representing over 5,585 training hours.
    The VRN complements DOJ's Smart on Crime Initiative. The VRN 
leverages lessons learned and the vast array of existing resources 
across DOJ law enforcement and grant-making agencies to deliver 
strategic, intensive, training and technical assistance in an ``all-
hands'' approach to reduce violence in select cities. Sites identified 
as candidates for the VRN are cities that have experienced precipitous 
increases in violent crime and have violent crime rates that exceed the 
national average. They also represent jurisdictions in different 
geographic regions with distinctive characteristics, such as multiple 
Federal initiatives or a unique law enforcement structure. DOJ makes a 
2-year commitment to cities selected to join the VRN.
    Over the next 2 years, the goal of VRN is to deliver the following 
to the VRN sites:
  --Resources, training, and technical assistance targeted to the 
        sites' most urgent needs.
  --A comprehensive and collective understanding of drivers of violent 
        crime within a jurisdiction.
  --An in-depth review of technical, legal, and policy-based obstacles 
        to improve information sharing.
  --Performance metrics and a sustainability plan to measure success 
        and ensure continued progress through improved operational 
        strategies, training, and policy enhancement.
  --A committed focus at the Federal, State, and local levels on the 
        identification of violent offenders and an all-hands approach 
        towards holding them accountable through evidence-based 
        practices and constitutionally based policing.
  --A national community of practice around violence reduction.
  --A training and technical assistance delivery model for violence 
        reduction to cities across the Nation.
                             drug addiction
    Question. What are your enforcement and treatment strategies, such 
as drug diversion programs, for the growing epidemic of heroin abuse, 
and do you plan to accomplish these through the 1 percent funding 
increase you have requested?
    Lead-in information from original document.--
          Not only in Arkansas, but throughout the Nation, we are 
        seeing a very dangerous addiction become a growing epidemic. 
        This country is now dealing with individuals, from all walks of 
        life and economic groups, who are turning to heroin and other 
        opiates to feed their addiction that was often initiated from 
        an addiction to prescription medicine. Many statistics I have 
        seen discuss the doubling or tripling of heroin users over the 
        past couple years.

    Answer. We share the Committee's concerns about the serious threat 
to our communities posed by prescription drug abuse, addiction, and 
diversion. The fiscal year 2016 President's budget includes over $8.2 
billion for the Department's drug enforcement, prosecution, diversion 
and treatment efforts, a 5 percent increase over the fiscal year 2015 
enacted level. The budget supports a strong response to the uptick in 
heroin abuse and other emerging drug trends, including additional 
resources for the Drug Enforcement Administration's (DEA) deconfliction 
and information sharing to attack the full range of drug trafficking 
threats. The Department's request also provides increases to thwart 
international drug trafficking organizations, and supports drug abuse 
education, prevention, and treatment.
    The rise of heroin use and abuse of prescription opioids in the 
United States are some of the biggest challenges to public health and 
safety that we are currently facing. With DEA as the lead, and 
implemented in part through/in conjunction with the Organized Crime 
Drug Enforcement Task Forces (OCDETF) National Heroin Initiative, DOJ 
is working to dismantle the heroin supply chain and prevent the 
diversion of controlled substances. The uptick in heroin use and 
overdose coincides with the rise of prescription drug abuse.
    Law enforcement plays a significant role in combatting the Nation's 
heroin problem. Heroin availability in the United States has steadily 
increased over the last few years as Mexican Drug Trafficking 
Organizations (DTO) have increased their production and trafficking of 
heroin to the United States. The Southwest Border (SWB) remains a 
particular concern as it is the most trafficked region in the United 
States. Based on the 2014 National Drug Threat Assessment, seizures at 
the SWB are up 160 percent from 2009 to 2013. DEA estimates that South 
America and Mexico accounted for approximately 96 percent of the heroin 
in the United States in 2012. DEA also estimates that Mexico's share 
has been steadily increasing from under 5 percent in 2003 to about 45 
percent in 2012.
    DEA has opened more than 7,300 Domestic and Foreign investigations 
related to heroin since 2009. The number of heroin cases opened in 
fiscal year 2014 accounted for over 13 percent of all cases over that 
same timeframe. Heroin cases have increased 141 percent from fiscal 
year 2007 to fiscal year 2014, and 30 percent from fiscal year 2013 to 
fiscal year 2014. Heroin arrests accounted for more than 16 percent of 
all DEA arrests in fiscal year 2014, ranking third behind cocaine and 
methamphetamine. Heroin arrests have increased 96 percent from fiscal 
year 2007, and increased 15 percent from fiscal year 2013 to fiscal 
year 2014. fiscal year 2014 was the first year heroin arrests surpassed 
marijuana arrests.
    OCDETF data, which includes many DEA investigations but also 
investigations led by other Federal law enforcement agencies such as 
ATF and FBI, also shows an increasing trend of investigations involving 
heroin, which has recently been on the rise quarterly, and a similar 
trend in indictments with heroin charges annually. OCDETF 
investigations involving heroin increased by approximately 20 percent 
from the fourth quarter of fiscal year 2013 to the third quarter of 
fiscal year 2015, rising from 1,211 to 1,440. At the end of fiscal year 
2010, 10 percent of OCDETF indictments contained heroin charges, as 
compared with 15 percent at the end of fiscal year 2015. Currently, 
16--or 40 percent--of the Consolidated Priority Organization Targets, 
the highest level targets in interagency drug enforcement, are involved 
in heroin trafficking. To combat this serious nationwide threat, OCDETF 
has adjusted its resources to target these investigations in an attempt 
to reduce the supply.
    In addition to supporting the large volume of traditional OCDETF 
cases focusing on disrupting and dismantling high-level criminal 
networks responsible for distribution of heroin in the United States, 
in fiscal year 2015 OCDETF developed a new national initiative designed 
to combat the rise in heroin overdoses and deaths in a new way. The 
OCDETF National Heroin Initiative has two major components: (1) 
national coordination of, and information sharing in, heroin 
investigations and prosecutions; and (2) a funding mechanism to support 
local and regional ``outside-the-box'' initiatives designed to fill in 
existing gaps in the development of significant heroin cases.
    OCDETF is uniquely situated through its coalition of U.S. 
Attorneys, Federal agencies, and State and local task force partners to 
actively engage in the fight against the heroin and opioid epidemics 
through promoting the goals of collaboration, communication, and 
interdependent, real-time reporting of cooperation and progress in its 
ranks. Toward that end, OCDETF worked with the United States Attorney 
community to designate and fund a full-time Assistant United States 
Attorney with current expertise in heroin investigations and 
prosecutions to act as OCDETF's National Heroin Coordinator, detailed 
to the OCDETF Executive Office since May 17, 2015. Since the 
appointment of the National Heroin Coordinator, nationwide coordination 
efforts include:
  --Sixteen strategic initiatives have been approved for districts and 
        regions under acute attack from the heroin and opioid 
        epidemics, including Baltimore, Boston, Cleveland, St. Louis, 
        Northern Illinois, Pennsylvania, Virginia, and West Virginia. 
        The OCDETF National Heroin Coordinator works with the funded 
        districts and regions to ensure real-time information sharing, 
        efficient and effective use of resources, and collaboration 
        amongst nontraditional partners, such as State medical 
        examiners, coroners and State health departments.
  --Each of the 93 U.S. Attorneys and the regional offices of OCDETF's 
        Federal components have designated points of contact for all 
        heroin and opioid issues.
  --OCDETF's National Heroin Coordinator has met with top officials in 
        the Office of National Drug Control Policy, Office of National 
        Intelligence/Information Sharing Environments, Executive Staff 
        of the DEA, the DEA Research Laboratory, and the OCDETF Fusion 
        Center to discuss potential joint efforts against the heroin 
        and opioid threats to the Nation.
  --Collaboration is ongoing with Federal Bureau of Investigation 
        regarding emerging heroin threats.
  --The OCDETF Heroin Coordinator has attended or will attend Heroin/
        Opioid Summits in Missouri, Minnesota, Wisconsin, and other 
        States as invited, as well as impacted areas where best 
        practices are being employed in the heroin fight, such as 
        Minneapolis and Boston, so those practices can be memorialized 
        and disseminated for use by law enforcement and prosecutors in 
        the fight against heroin and opioid use and abuse.
  --The Coordinator has engaged in extensive briefings with the leaders 
        of New Jersey's cutting edge Drug Monitoring Initiative (DMI) 
        to explore replication of the DMI program in a national level.
  --OCDETF will host a national conference in November of 2015 for all 
        U.S. Attorney and Federal agency heroin/opioid points of 
        contact. The conference, entitled ``No Boundaries--United in 
        the Fight'' will bring stakeholders together for education, 
        sharing of successes and challenges, and exploration of 
        enhanced, proactive best practices in the fight against the 
        heroin and opioid epidemics. Additionally, OCDETF and DEA are 
        working closely to support similar efforts going forward.
    As a direct result, local and regional efforts are enhanced by the 
influx of new ideas and approaches to the common challenges.
    To enhance the work already being performed in the field and by the 
OCDETF National Heroin Coordinator, OCDETF has also dedicated a limited 
amount of operational funds to support the OCDETF National Heroin 
Initiative. This funding does not replace or supplement OCDETF's 
existing base funding that already supports OCDETF-level multi-agency, 
multi-jurisdictional cases targeting prescription drug abuse or heroin. 
Rather, OCDETF's National Heroin Initiative provides small amounts of 
operational ``seed money'' to help law enforcement agencies and 
prosecutors work collaboratively to fill existing gaps in intelligence, 
enforcement activities, and prosecutions that currently hinder the 
development of single-instance heroin overdose investigations into 
multi-agency, multi-jurisdictional cases against the criminal 
organizations with the most impact on our communities. This funding is 
intended to assist the agencies and prosecution offices with 
extraordinary expenses that cannot otherwise be funded within currently 
available resources.
    Internationally, DEA's Sensitive Investigative Unit (SIU) program 
partners with host nations to combat illegal drug trafficking at the 
source. SIUs comprise groups of host nation investigators that are 
polygraphed, trained, equipped, and guided by DEA. DEA manages 13 SIUs 
including programs in Mexico and Colombia, countries with strong links 
to the U.S. heroin trade.
    DEA's Diversion Control Program (DCP) prevents, detects, and 
investigates the diversion of pharmaceutical controlled substances and 
listed chemicals from legitimate channels using criminal, civil, and 
regulatory tools to identify, target, disrupt, and dismantle 
individuals and organizations responsible for the diversion and illegal 
distribution of pharmaceutical controlled substances. The DEA believes 
the increased heroin use is driven by many factors, including an 
increase in the misuse and abuse of prescription psychotherapeutic 
drugs, specifically opioids. Part of the DCP's mission is to identify 
and minimize the diversion of pharmaceutical controlled substance, such 
as opioids, and Tactical Diversion Squads (TDSs) are one method DEA 
employs to combat this. DEA's TDSs incorporate the enforcement, 
investigative, and regulatory skills sets of DEA Special Agents, 
Diversion Investigators, other Federal law enforcement, and State and 
local Task Force Officers. As such, the TDSs are DEA's primary method 
of criminal law enforcement in the DCP. The expansion to 66 operational 
TDS's in the U.S. has enabled DEA's Diversion Groups to concentrate on 
the regulatory aspects of the Diversion Control Program. Further, in 
order to target the most likely offenders of diversion, the DCP has 
increased the frequency of scheduled investigations registrants in 
selected business activities.
    The Harold Rogers Prescription Drug Monitoring Programs (PDMP) 
monitor prescription drug sales and also play an important role in 
identifying doctor shopping and diversion, particularly at the retail 
level where no other automated information collection system exists. 
How PDMPs are organized and operated varies among States. Each State 
determines which agency houses the PDMP; which controlled substances 
must be reported; which types of dispensers are required to submit data 
(e.g., pharmacies); how often data are collected; who may access 
information in the PDMP database (e.g., prescribers, dispensers, or law 
enforcement); the circumstances under which the information may (or 
must) be accessed; and what enforcement mechanisms are in place for 
noncompliance.
    DOJ supports more than 2,900 specialty courts that connect over 
142,000 people convicted of drug-related offenses with the services 
they need to avoid future drug use and rejoin their communities. These 
courts include adult drug courts, veterans' treatment courts, DWI 
courts and others. DOJ provides financial support, training, and 
technical assistance to many of these courts annually. DOJ is also 
urging first responders to carry naloxone, a drug which restores 
breathing during a heroin or opioid overdose. The Department has 
created an online tool kit to assist these efforts.
    DOJ continues to increase support for drug abuse education, 
prevention, and treatment through partnerships with doctors, educators, 
community leaders, and police officials. As directed by Congress, the 
Department has joined with the Office of National Drug Control Policy 
to convene an interagency Heroin Task Force to confront this challenge. 
This Task Force is co-chaired by the U.S. Attorney for the Western 
District of Pennsylvania and the Office of National Drug Control Policy 
Deputy Director for State, Local and Tribal Affairs. The Department, 
DEA, and more than 28 Federal agencies and their components are 
actively participating on the Task Force. Other participants include 
medical community, enforcement, public health, and education experts. 
The Task Force is taking an evidence-based approach to reducing the 
public health and safety consequences caused by heroin and prescription 
opioids. We expect the Task Force to submit its comprehensive Strategic 
Plan to the President and Congress by the end of 2015.
    The fiscal year 2016 President's budget would allow DEA to maintain 
and enhance valuable drug enforcement tools. The request includes 
funding to expand DEA's case management and deconfliction systems and 
enhance the IT infrastructure at the El Paso Intelligence Center 
(EPIC). EPIC's primary mission is to support the law enforcement 
community through improved information sharing. EPIC funding will 
provide Federal, State, local, tribal, and international law 
enforcement agencies with faster responses and improved access to 
investigative tools. At the request of State and local partners, DEA 
has instituted a Community of Interest site on the EPIC Web portal 
specifically for the exchange of information related to heroin. The 
fiscal year 2016 President's budget supports the creation of a new 
financial investigation unit as part of DEA's Bilateral Investigation 
Units at the Special Operations Division to enhance DEA's efforts in 
targeting the financial networks of foreign-based drug traffickers. In 
addition, the fiscal year 2016 President's budget requests funding to 
sustain and further develop the capacity and capabilities of existing 
SIUs. This funding will support training, vetting, program 
coordination, judicial wire intercept systems and other IT-related 
requirements. The fiscal year 2016 budget also includes increases for 
grants to help State and local governments develop residential 
substance abuse treatment programs and maintain community-based 
aftercare services for offenders.
                             cyber security
    Question. How does the department plan to utilize the requested 
$106.8 million increase to handle our Nation's cyber security breaches, 
especially the cyber hacking led by ISIS?
    Answer. The response to this question entails classified 
information. The Department will work with the subcommittee to answer 
this question in an appropriate manner.
                         assets forfeiture fund
    Question. Can you please explain whether you believe the Civil 
Asset Forfeiture program needs to be reformed, and if so, how? Can you 
also put Civil Asset Forfeiture into perspective for me, by telling me 
how many seizures are legitimate and how many are not? How many 
individuals have made claims for their property in comparison to how 
many have not, and would that help to indicate how many people are 
actual ``victims'' of this program?
    Lead-in information from original document.--
          I would like to talk about Civil Asset Forfeiture for a 
        minute. I hear that civil asset forfeiture is a slush fund for 
        law enforcement and that innocent individuals are being robbed 
        of their property and money. I also hear that the funds augment 
        law enforcement agencies discretionary budgets to further 
        target criminal activity. I would like to see some hard figures 
        on this issue so we may better determine how to move forward.

    Answer. Asset forfeiture is a critical legal tool that serves a 
number of compelling law enforcement purposes. The Department is 
committed to ensuring that asset forfeiture laws are used appropriately 
and effectively to deprive criminals of the proceeds of their crimes, 
break the financial backbone of organized crime syndicates and drug 
cartels, and to recover stolen property that may be used to compensate 
victims and deter crime.
    Civil forfeiture is often the only mechanism by which the 
Government can take criminally tainted assets out of circulation 
because criminals often go to great lengths to insulate themselves from 
the proceeds and instrumentalities of their criminal acts--including by 
giving those assets for safekeeping to individuals who knowingly accept 
and retain the criminally tainted property, even though they did not 
engage in the criminal activity themselves. Civil asset forfeiture is 
the only avenue to recover proceeds of crime if the criminal is dead, a 
fugitive, or where stolen artifacts are recovered but no defendant can 
be identified.
    Not only does asset forfeiture deprive criminals of their illicit 
proceeds, it also enables the Government to compensate victims of 
crime. In fact, since 2000, the Department has returned over $4 billion 
in assets to the victims of crime through asset forfeiture, of which 
$1.87 billion was recovered civilly. In addition, the Department 
expects to distribute approximately $4 billion in civilly forfeited 
assets associated with the Madoff fraud scheme. At that point, victim 
compensation from forfeited funds will far exceed the nearly $5.4 
billion of forfeited funds that have been reinvested in law enforcement 
to fight crime as part of the Equitable Sharing program.
    Federal law authorizes the Department to share federally forfeited 
property with participating State and local law enforcement agencies 
through a program known as Equitable Sharing. The Equitable Sharing 
Program was created by Congress, in part to strengthen law enforcement 
by fostering cooperation among Federal, State and local law enforcement 
agencies. Once a forfeiture is successfully completed, the Federal 
Government disposes of the assets and then pays expenses and provides 
for any applicable victim compensation in a case. Only after these 
expenses and victim payments are deducted, if there are any remaining 
proceeds, are funds available for equitable sharing with State and 
local law enforcement agencies that participated in the underlying law 
enforcement action that led to the seizure or forfeiture of the asset. 
The Department has many procedures in place and a host of prohibitions 
on how equitable sharing funds may be used to ensure that they 
supplement but do not supplant the funds allocated to law enforcement 
agencies by State and local governments.
    That said, the Department takes seriously the concerns raised about 
civil asset forfeiture and has responded with significant, carefully-
considered reforms including the prohibition on adoptions (which occur 
when a State or local law enforcement agency seizes property pursuant 
to State law and requests that a Federal agency take the seized asset 
and forfeit it under Federal law) and restrictions on the seizure of 
structured funds. We are continuing a comprehensive review of the 
entire asset forfeiture program in order to improve and strengthen it, 
while preserving the rule of law and the rights of property owners.
    Question. Can you also put Civil Asset Forfeiture into perspective 
for me, by telling me how many seizures are legitimate and how many are 
not?
    Answer. Assets can only be seized by the Government either pursuant 
to the seizure warrant issued by a judge, or pursuant to an exception 
to the warrant requirement. In either instance, however, the law 
requires that there be probable cause linking the asset directly to 
criminal activity. The probable cause requirement is a core tenet of 
our legal system and is the very same standard of proof required to 
place an individual under arrest. The forfeiture process does not allow 
for the seizure of property in the absence of probable cause.
    Question. How many individuals have made claims for their property 
in comparison to how many have not, and would that help to indicate how 
many people are actual ``victims'' of this program? I would like to see 
some hard figures on this issue so we may better determine how to move 
forward.
    Answer. Civil asset forfeiture is used to recover the ill-gotten 
proceeds of crime and, in many instances, returning the forfeited funds 
to victims of crime who have suffered financial losses at the hands of 
criminals. In the forfeiture process, it is essential that we protect 
the due process rights of innocent individuals. Recognizing this, 
Congress put safeguards in place to protect innocent property owners 
when it passed the Civil Asset Forfeiture Reform Act (CAFRA). These 
protections are essential to preserve the integrity of the Asset 
Forfeiture Program and to ensure that individual due process rights are 
preserved and protected. Even where the Government has borne its burden 
of proving that property is linked directly to crime, CAFRA allows a 
property owner to defeat a forfeiture if they can show they are an 
innocent owner. In such cases, the Government must return the seized 
assets to the innocent owner, who may also be entitled to attorney's 
fees.
    In the past decade, 1,952 claims have been filed in connection with 
48,927 (approximately four percent) assets seized for administrative or 
civil forfeiture. Of those 1,952 claims, 878 of those assets 
(approximately 45 percent) have been returned either to the owner or 
another claimant with a property interest in the asset, such as a 
lienholder.
                             ammunition ban
    Question. As the new Attorney General, will you revive this 
ammunition ban, or attempt to implement any other ammunition ban?
    Lead-in information from original document.--
          On February 13, 2015, the ATF released a framework on how 
        they proposed to apply the ``Sporting purposes'' test to exempt 
        ammunition that they state, qualifies as armor piercing. 
        Although through this proposed framework, ATF would have 
        reversed an exemption that was granted 29 years ago for target 
        shooting ammunition that is popular for use in modern sporting 
        rifles. After public outrage and multiple letters from 
        Congress, ATF withdrew the framework.

    Answer. Congress enacted the prohibition on armor piercing 
ammunition in the Law Enforcement Officer's Protection Act of 1986 
(LEOPA). LEOPA provides that all ammunition containing certain 
specified metals that may be fired from a handgun is defined to be 
``armor piercing'' and prohibits the manufacture and sale of all such 
ammunition. The statute further provides, however, that the Attorney 
General may exempt particular rounds of ammunition that otherwise meet 
the statutory definition of ``armor piercing'' upon a determination 
that the round at issue is ``primarily intended for sporting 
purposes.'' The authority to make exemption determinations has been 
delegated to ATF.
    ATF drafted the proposed framework in response to a large influx of 
new ``sporting purpose'' exemption requests and was designed to provide 
industry and the public with clear, objective guidance on the criteria 
ATF would apply to those requests. In crafting the criteria for the 
proposed framework, ATF's foremost obligation was to ensure that those 
criteria were consistent with the primary objective of LEOPA--the 
protection of law enforcement from the threat posed by ammunition used 
in handguns.
    In light of the significant number of comments received, ATF has 
decided to cease with finalizing the proposed framework. ATF is 
currently reviewing the comments to inform future steps, if any, and 
additional process--including public notice and comment--will be 
afforded prior to any further action. At this time, ATF has no plans to 
further consider reversing the standing exemption for 5.56 x 45mm 
rounds of ammunition in M855 and SS1109 cartridges. The process of 
reviewing and considering the large number of comments received will 
take time, and I look forward to working with Congress and all 
interested parties should any further action be proposed.
                       immigration court program
    Question. Your budget request includes a 40 percent increase for 
improvements to the immigration court system. Could you explain the 
justification for such a significant increase? Also, could you please 
share how many immigrant applications are in the current backlog and 
which cases would be prioritized for adjudication if this amount were 
authorized?
    Answer. The Executive Office for Immigration Review's (EOIR) fiscal 
year 2016 budget request is a 38.8 percent increase over fiscal year 
2015 enacted levels and includes $124.3 million in program increases. 
These program increases include additional funds for the following: 
additional immigration judge teams; immigration court support; legal 
representation for unaccompanied children; expansion of the legal 
orientation program; and information technology modernization. These 
program enhancements will provide EOIR funding to increase staffing to 
more rapidly address the large volume of pending cases and will 
increase the efficiency of the courts through increased representation 
and updated electronic and communication efforts. Specific information 
about each of EOIR's requested program increases follows.
  --Immigration Judge Teams/Immigration Court Support.--The fiscal year 
        2016 budget request includes $60 million to add 55 Immigration 
        Judge Teams, and $1.3 million to add 15 attorneys to support 
        the agency's mission by supporting the immigration judge corps 
        and providing legal assistance with immigration matters before 
        the courts. These two program increases are necessary to 
        provide sufficient resources to adjudicate the cases before the 
        immigration courts. Cases received at EOIR are inextricably 
        tied to Department of Homeland Security (DHS) enforcement 
        efforts. As DHS places more individuals into proceedings before 
        EOIR, the number of adjudicators must increase in order to 
        address new cases as well as the pending caseload. These 
        increased funds will provide EOIR the resources to hire 
        additional immigration judges and provide those immigration 
        judges with the necessary staff support and work space to 
        adjudicate cases.
  --Legal Representation for Unaccompanied Children.--The fiscal year 
        2016 budget request includes $50 million in 2-year funding for 
        the legal representation of unaccompanied children. When 
        unaccompanied children have legal representation from the 
        beginning of their immigration court proceedings, we expect 
        that immigration courts will be able to reduce the number of 
        continuances granted for the purpose of obtaining counsel, 
        preparing any applications for relief, and gathering evidence. 
        In addition, counsel can facilitate court proceedings, 
        resulting in faster hearings and earlier identification of 
        relevant legal issues. All of these factors will assist in 
        reducing EOIR's case backlog while providing efficient 
        adjudicatory proceedings.
  --Legal Orientation Program (LOP).--The fiscal year 2016 budget 
        request includes $10 million for the expansion of the LOP. This 
        requested increase will expand the successful LOP and continue 
        to improve efficiencies in immigration court proceedings for 
        detained aliens by increasing their awareness of their rights 
        and the overall immigration proceeding process. Independent 
        research and evaluation reports have shown that LOP 
        participants complete their immigration court cases in 
        detention an average of 12 days faster than detainees who do 
        not participate in an LOP. The requested additional funding 
        will respond to elevated demand at existing DHS sites and 
        enable LOP to add additional sites.
  --Information Technology Modernization.--The fiscal year 2016 budget 
        request includes $3 million for information technology 
        modernization to provide an update to EOIR's electronic 
        systems, improving the efficiency of processing case materials 
        and other data communication efforts. This program increase 
        will go towards the planning and development of updates to 
        improve EOIR's electronic systems. The improvement of EOIR's 
        court and case management systems will enhance EOIR's ability 
        to meet core mission functions by increasing efficiencies and 
        allowing more staff time to focus on EOIR's adjudications and 
        other responsibilities. An update of EOIR's electronic systems 
        will also allow for better communications with DHS law 
        enforcement entities currently using EOIR case information.
    Regarding the pending caseload, as of September 30, 2015, EOIR had 
456,500 proceedings pending before the immigration courts. Per the June 
2014 Presidential directive to process priority cases as fairly and as 
quickly as possible, EOIR realigned its adjudicative priorities, and 
refocused EOIR's immigration court resources. In July 2014, EOIR added 
new priorities to its pre-existing priority for detained cases. EOIR's 
priority cases now include those individuals whom DHS has identified as 
recent border crossers who are unaccompanied children, adults with 
children in detention, adults with children released through 
Alternatives to Detention (ATD), and other individuals in detention.
                       legal orientation program
    Question. Is the department intending to use the LOP authorized 
funds to provide work authorization to those afforded deferred action 
by the President's executive order?
    Lead-in information from original document.--
          I understand the Legal Orientation Program operates utilizing 
        nonprofit legal service agencies to provide information to 
        immigrant detainees to assist in their removal process. Please 
        describe how this program has been successful and explain why 
        you are requesting an additional $116 million to support this 
        program.

    Answer. The fiscal year 2016 budget request includes an additional 
$10 million, not $116 million, to expand the successful Legal 
Orientation Program (LOP). EOIR has carried out the LOP since 2003 and, 
by fiscal year 2014, the LOP was able to serve roughly one-third of all 
detained aliens in immigration court proceedings. Through the LOP, 
representatives from nonprofit organizations provide comprehensive 
explanations about immigration court procedures along with other basic 
legal information to large groups of detained individuals.
    This requested increase of $10 million will expand the LOP and 
continue to improve efficiencies in immigration court proceedings for 
detained aliens by increasing their awareness of their rights and the 
overall immigration proceeding process. Research and evaluation reports 
show that LOP participants complete their immigration court cases on 
average 12 days faster and spend on average 6 fewer days in ICE 
detention than detainees who do not participate in an LOP. The LOP is 
currently in 30 locations, 28 of which are ICE detention facilities.
    LOP funds have not and will not be used to provide work 
authorization to those afforded deferred action by the President's 
executive order. The LOP does not provide legal representation, and the 
DOJ has no intention of changing this policy in the future. The LOP 
assists individuals representing themselves pro se by helping them 
understand the various legal options available to them and, where 
available, referring individuals to pro bono counsel, not funded under 
the LOP. The LOP provides information on legal options that may be 
available to detainees, it does not provide any direct assistance in 
carrying out those options. Thus, while an LOP provider may explain 
what deferred action is, and may explain what is required to gain work 
authorization, the individual would need to seek those actions on their 
own or through the use of counsel that is separate and distinct from 
the LOP contract.
                  convicted felons possessing firearms
    Question. Is that the case? Who sets the thresholds? Can you tell 
me what the threshold is for a convicted felon in possession of a 
firearm in Arkansas?
    Lead-in information from original document.--
          In my research, I have learned that prosecuting convicted 
        felons in possession of a firearm is a major factor in 
        combatting violent crime, by taking these armed criminals off 
        the street, often before they commit more acts of violent 
        crime. I also understand that the U.S. Attorney's Office across 
        the country has established certain thresholds that have to be 
        met prior to accepting these cases.

    Answer. All United States Attorneys' Offices (USAOs), including 
those for the Eastern and Western Districts of Arkansas, carefully 
review the acceptance of potential firearms cases in light of the 
guidelines set forth in the Principles of Federal Prosecution. These 
principles require USAOs to consider whether a substantial Federal 
interest would be served by prosecution and whether a potential 
defendant is subject to effective prosecution in another jurisdiction. 
The USAOs evaluate the facts and circumstances on a case by case basis. 
In Arkansas, neither United States Attorney's Office has a threshold 
for acceptance of felon in possession cases. All felons found in 
possession of firearms are potentially subject to Federal prosecution. 
Practically speaking, this usually involves a discussion among Federal, 
State, and local prosecutors and law enforcement about the most 
appropriate venue for prosecution.
    When considering these principles, USAOs assess, among other 
things, Federal law enforcement priorities; the nature and seriousness 
of the offense; the potential defendant's culpability; the strength of 
the evidence that would be admissible in court; a potential defendant's 
criminal history; the probable sentence or other consequences if the 
person is convicted federally as opposed to locally; the strength of 
the other jurisdiction's interest in prosecution; the other 
jurisdiction's ability and willingness to prosecute effectively; and 
the effectiveness of potential non-criminal sanctions.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                             border tunnels
    Question. What changes would you recommend that Congress make in 
order to strengthen this legislation and more effectively address this 
issue?
    Lead-in information from original document.--
          Since 2001, U.S. Customs and Border Protection has discovered 
        at least 170 tunnels along the Southwest Border originating in 
        Mexico and ending on the U.S. side of the Border, predominantly 
        in California and Arizona. In the last 2 months, U.S. Customs 
        and Border Protection discovered three tunnels leading from 
        Mexico to Calexio and San Diego. I authored two bills that were 
        signed into law in 2006 and 2012 to provide law enforcement and 
        prosecutors with additional tools to investigate illegal tunnel 
        activity and prosecute those responsible, including landowners 
        who allow others to construct illegal tunnels on their land. 
        However, it is my understanding that U.S. Attorneys are not 
        bringing charges against individuals under the tunnel statute 
        because they are having difficulty proving that the property 
        owner knew about the tunnel. In fact, since 2011, the San Diego 
        Tunnel Task Force has only successfully arrested and indicted 
        two individuals using this legislation.

    Answer. We appreciate your efforts to help combat crimes committed 
through the use of border tunnels. We have many available statutory 
tools depending upon the nature of crime related to a border tunnel. 
Often, the Controlled Substances Act is the best mechanism as it 
provides stiff penalties for drug crimes, which can include the use of 
border tunnels. In addition, some defendants have prior drug 
trafficking convictions and/or are career offenders, making their 
sentence exposure more significant when they are charged with crimes 
other than 18 U.S.C. Sec. 555. To the extent the Department identifies 
additional statutory tools needed to address border tunnels, we would 
welcome the opportunity to work with you and your staff.
    Question. How can we better ensure that property owners or renters 
on the U.S. side of the border who allow others to construct illegal 
tunnels on their property are brought to justice?
    Lead-in information from original document.--
          Since 2001, U.S. Customs and Border Protection has discovered 
        at least 170 tunnels along the Southwest Border originating in 
        Mexico and ending on the U.S. side of the Border, predominantly 
        in California and Arizona. In the last 2 months, U.S. Customs 
        and Border Protection discovered three tunnels leading from 
        Mexico to Calexio and San Diego. I authored two bills that were 
        signed into law in 2006 and 2012 to provide law enforcement and 
        prosecutors with additional tools to investigate illegal tunnel 
        activity and prosecute those responsible, including landowners 
        who allow others to construct illegal tunnels on their land. 
        However, it is my understanding that U.S. Attorneys are not 
        bringing charges against individuals under the tunnel statute 
        because they are having difficulty proving that the property 
        owner knew about the tunnel. In fact, since 2011, the San Diego 
        Tunnel Task Force has only successfully arrested and indicted 
        two individuals using this legislation.

    Answer. If we have evidence that property owners or renters on the 
U.S. side of the border ``knowingly'' or ``recklessly'' allow others to 
construct illegal tunnels on their property, then we can charge them 
under section (b) of 18 U.S.C. Sec. 555. However, absent some 
corroboration from a cooperator, an admission by the defendant, or 
actually finding the owner or renter at the tunnel, prosecutors often 
face evidentiary issues in criminal cases against the landowners or 
renters.
    There are no civil penalties for land owners who ``negligently'' or 
``acting in reckless disregard'' allow the rental of their commercial 
warehouses or family residences to be used for construction of tunnels. 
Many commercial warehouses in San Diego and Imperial County have 
absentee owners who use local management companies to rent their 
warehouses. Establishing civil penalties within this statute would 
place the landowners on notice and liable--in a civil setting--to make 
sure that they are renting to legitimate companies and individuals.
                           community policing
    Question. With the funding you have requested, how do you intend to 
encourage local law enforcement to engage in community policing and to 
model best practices for these communities?
    Lead-in information from original document.--
          Over the past several months, we have seen protests over the 
        deaths of unarmed men, many of them African-American. Some of 
        these protests have turned violent. It is apparent that, in 
        some communities, relationships between community members and 
        law enforcement are not strong enough, leading to suspicion and 
        mistrust by both police and residents.When protests do occur, 
        we often see a line of heavily armed officers on one side, and 
        protesters on the other. I believe that the Department of 
        Justice must use its bully pulpit and the Federal grant funding 
        it provides to local jurisdictions to reinvigorate community 
        policing nationwide.

    Answer. The Department leverages multiple programs and approaches 
to strengthen community policing and the vital trust among law 
enforcement officers and the communities they serve. When these bonds 
are strong, our crime prevention efforts are more successful; incidents 
are more likely to be reported and addressed; and police are more 
likely to have the support they need to do their jobs safely and 
effectively. The fiscal year 2016 budget includes funding to initiate 
initiatives specifically cited in the President's 21st Century Policing 
Report, like data collection and statistical analysis of crime 
incidents, and training and technical assistance for law enforcement 
and public defenders. In addition, resources are provided for the 
administration's Community Policing Initiative for programs aimed at 
promoting restorative and procedural justice, reducing implicit bias, 
and supporting racial reconciliation and outreach efforts.
Office of Community Oriented Policing Services (COPS)
    The mission of the COPS Office has always been to advance public 
safety through community policing. With the funding appropriated to the 
COPS Office in fiscal year 2015, the COPS Office funded several field-
initiated projects based on key topics and recommendations outlined in 
the final report of the President's Task Force on 21st Century 
Policing, which will continue throughout fiscal year 2016.
    The Task Force on 21st Century Policing was created to strengthen 
community policing and trust among law enforcement officers and the 
communities they serve--especially in light of recent events around the 
country that have underscored the need for and importance of lasting 
collaborative relationships between local police and the public. It was 
established by the President on December 18, 2014 and included law 
enforcement representatives, community leaders, young adults and 
notable scholars--who examined, among other issues, how to strengthen 
public trust and foster strong relationships between local law 
enforcement and the communities that they protect, while also promoting 
effective crime reduction.
    Through the President's Task Force on 21st Century Policing Field-
Initiated Projects, the COPS Office invited applicants to offer 
innovative ideas to advance a set of the recommendations of their 
choosing. Projects include demonstration sites, promising practices 
assessments, guidebook development, and training and technical 
assistance.
    Through the COPS MicroGrant Initiative for Law Enforcement, the 
COPS Office funded nine law enforcement agencies to develop 
demonstration sites or pilot projects that may focus on implementing 
specific recommendations in the report (e.g., enhancing partnership 
development, improving problem-solving activities, or supporting 
organizational changes).
    The COPS Office will support convenings on topics that advance the 
implementation of the Task Force's recommendations through its 
Community Policing Emerging Issues Forums. Each convening will result 
in a publication that provides background information on best practices 
and the state of knowledge on that topic, as well as considerations, 
recommendations, and guidance to the field as we build consensus for a 
path forward.
    The COPS Collaborative Reform Initiative for Technical Assistance 
(CRI-TA) is designed to improve trust between law enforcement agencies 
and the communities they serve by providing a means for organizational 
transformation through an analysis of policies, practices, training, 
tactics and accountability methods around specific issues, all of which 
are strongly linked to the foundational pillars of and recommendations 
within the Task Force Report. CRI-TA will be expanded to require 
procedural justice and implicit bias training for all selected sites 
and, in fiscal year 2015, an additional five sites were selected to 
participate in the Collaborative Reform process based on selection 
criteria consistent with the principles within the Task Force report. 
The experiences that those agencies go through in transforming their 
policies, procedures, training, accountability mechanisms and community 
trust building will serve as a model for the rest of the profession, 
and will be disseminated through a series of reports that will offer a 
roadmap for change for agencies interested in replicating those 
organizational change efforts.
    The COPS Hiring Program (CHP) provides funding for the hiring and 
rehiring of entry-level policing capacity and crime prevention efforts. 
In fiscal year 2015, the COPS Office gave additional consideration to 
applicant agencies that selected the category of ``Building Trust,'' 
and those agencies were encouraged to refer to the Task Force report 
for suggested actions to incorporate into their proposed community 
policing strategies. In fiscal year 2015, 83 agencies that selected 
``Trust Problems'' received funding for 365 officers. CHP is the COPS 
Office's largest grant program, and provides funding directly to State, 
local and tribal law enforcement agencies to hire and rehire career law 
enforcement officers in an effort to increase their community policing 
capacity and crime prevention efforts.
    With support from the COPS Office, law enforcement focused 
organizations will develop national-level, industry-wide projects for 
several of the pillars outlined in the Task Force report. Supported 
activities will include the creation of positive and meaningful 
engagement opportunities between law enforcement and youth, 
identification of best practices for engaging the community in the 
mutual responsibility of public safety, exploration of the 
circumstances and causality behind documented line-of-duty injuries, 
and promotion of officer safety and wellbeing.
Office of Justice Programs (OJP)
    Community Policing--Smart Policing Initiative.--Community 
engagement is a central principle of the Smart Policing Initiative 
(SPI), administered by the Office of Justice Program's Bureau of 
Justice Assistance (BJA). SPI supports law enforcement agencies and 
represents a strategic approach that brings more science into police 
operations by leveraging innovative applications of analysis, 
technology, evidence-based, data-driven practices, and improving 
performance and effectiveness while containing costs--an important 
element in today's fiscal environment. BJA currently has several 
projects underway that are testing innovative approaches to building 
such partnerships and trust between police and the communities they 
serve.
    Community Policing--Project Safe Neighborhoods.--Most of the 
Project Safe Neighborhoods (PSN) strategies submitted contain some form 
of community policing as part of their overall gun and gang violence 
reduction efforts. PSN is designed to create safer neighborhoods 
through a sustained reduction in crime associated with gang and gun 
violence. The program's effectiveness is based on the cooperation of 
local, State, and Federal agencies engaged in a unified approach led by 
the U.S. Attorney (USA) in each district. The USA is responsible for 
establishing a collaborative PSN task force of Federal, State, and 
local law enforcement and other community members to implement gang and 
gun crime enforcement, intervention, and prevention initiatives within 
the district. Through the PSN task force, the USA will implement the 
five design features of PSN--partnerships, strategic planning, 
training, outreach, and accountability--to address specific gun crime 
and gang violence, in the most violent neighborhoods. These five 
elements are essential for PSN to be successful.
    One of the strengths of PSN is the flexibility that allows PSN task 
forces to adapt the key components of PSN to the local context. The 
difference in levels and the nature of gun crime across the 50 States 
and across the Nation's cities are enormous and require local 
adaptation. The most common strategies employed by PSN task forces were 
increased Federal prosecution; joint Federal-local prosecution case 
screening; directed police patrol; community policing; chronic violent 
offender programs; street level firearms enforcement teams; offender 
notification meetings; re-entry programs; and firearms supply side 
interventions.
    Byrne Criminal Justice Innovation Program.--The Byrne Criminal 
Justice Innovation Program (BCJI) is designed to help local and tribal 
communities develop place-based, community-oriented strategies with 
coordinated Federal support to change neighborhoods of distress into 
neighborhoods of opportunity. This has consistently been done by sites 
focusing on public safety as their primary issue, and using innovative 
criminal justice strategies to address the varying public safety needs 
of each community. Because BCJI requires cross sector partnerships and 
is based on the fundamentals of collaboration within a community, 
community policing is not only encouraged but also built into the 
concept and execution of this program. The best way to articulate this 
is through a few examples of sites to date that have been implementing 
community policing strategies that have had a direct impact on the 
relationship between law enforcement and the communities they serve.
  --Alameda County, California (Fiscal Year 2014 Planning & 
        Implementation).--The Sheriff's Office in Alameda County excels 
        at community-oriented strategies to foster trust in law 
        enforcement and crime prevention. Deputies use theater and 
        other non-traditional approaches to engage residents in 
        discussion about sensitive police-community issues, while the 
        Deputy Sheriff's Activities League (DSAL) provides 
        opportunities for thousands of kids and their families to build 
        community and get to know law enforcement officers in non-
        threatening settings. More than 1,300 kids and 100 parent 
        volunteers currently participate in the DSAL's Youth Soccer 
        program, for example.
  --Providence, Rhode Island (Fiscal Year 2013 Planning & 
        Implementation).--Even as it weathers a significant reduction 
        in force due to budget constraints, the Providence Police 
        Department remains committed to community policing, and has 
        invested heavily in building partnerships with local community 
        development and service organizations which participate in 
        BCJI. In Providence, the community organized the Annual 
        Olneyville Shines Clean-up Day in May 2015, which brought out 
        120 volunteers including officers. The community also organizes 
        the Olneyville Fall Festival and, for the first time last year, 
        National Night Out, which might become an August tradition.
    --The collective efforts have spawned a robust Crime Watch group 
            led by residents in the BCJI target area, and a variety of 
            annual events that bring officers and residents together. 
            Chief Clements also invites community partners to 
            participate in Compstat and command staff meetings to 
            maintain transparency and foster cross-sector problem-
            solving.
  --Milwaukee, Wisconsin (Fiscal Year 2012 Planning & 
        Implementation).--The Milwaukee BCJI effort benefits from 
        explicit programming to foster community-police dialogue and 
        problem-solving, such as the ``STOP'' (Students Talking It Over 
        with Police) curriculum, which brings police officers together 
        with juveniles in high crime neighborhoods in structured 
        dialogue that yields greater mutual understanding, builds 
        relationships, and seeks to prevent conflict between youth and 
        police on the streets. This program earned the top honor at the 
        International Association of Chiefs of Police conference in 
        fall of 2014.
    All the BCJI sites are able to engage one another in peer-to-peer 
dialogue, which helps to develop their practices and strategies, and 
enables them to learn from one another in a meaningful way. Each site 
has developed community policing efforts in a different way, with some 
innovative approaches to building the relationships between law 
enforcement and the community. These practices and efforts are shared 
through our technical assistance provider's Web site and can be used as 
models for non-BCJI sites throughout the country.
    Procedural Justice--Building Community Trust Program.--The 
Procedural Justice--Building Community Trust Program focuses on 
enhancing procedural justice, reducing bias, and supporting racial 
reconciliation in the criminal and juvenile justice systems and 
furthers the Department's mission to ensure public safety and the fair 
and impartial administration of justice for all Americans. This 
program, which will be administered by the Office of Juvenile Justice 
and Delinquency Prevention, will provide grants and technical 
assistance to State, local, and tribal courts and juvenile and criminal 
justice agencies to support innovative efforts to improve perceptions 
of fairness in the juvenile and criminal justice systems and build 
community trust in these institutions.
Civil Rights Division
    The Civil Rights Division will continue to investigate and, when 
necessary, prosecute law enforcement officers who engage in excessive 
force or intentionally violate individual's rights. The Division's 
civil enforcement work is designed to address systemic problems in 
police departments by securing agreements with law enforcement agencies 
that provide for meaningful reform, including community policing 
requirements. As part of the investigative process, the Division 
engages with and solicits feedback from the community and works 
cooperatively with COPS and OJP in facilitating relationship-building 
between the community and law enforcement. The Division is continually 
examining its enforcement work to ensure that it is encouraging 
departments to use the best practices, such as proper use of body-worn 
cameras and data collection and reporting. To protect individual rights 
and ensure communities' trust in law enforcement, the Division will 
continue to commit substantial resources to these important cases.
Community Relations Service
    Police-community relations surrounding excessive use of force, and 
the possibility of racial violence, particularly in minority 
communities, consumes more than half of the Community Relations 
Services' work. To meet the demand for tailored services regarding the 
policing of minority communities, CRS requested 10 positions and $1.2 
million for three program increases in the fiscal year 2016 President's 
budget. The request funds local capacity building to reduce tensions 
through online resources, allowing CRS to direct its limited resources 
towards the most vulnerable, highest priority populations ($240,000 for 
the CRS Training Academy request); provides conciliation services in 
support of the President's My Brother's Keeper Initiative and the 
proposal for the National Initiative for Building Community Trust and 
Justice ($775,000 and 10 positions as part of the Collaborative 
Community Strengthening Initiative); and funds in-depth consultation 
and guidance to local law enforcement agencies who are party to 
potentially violent, public safety degrading conflicts with minority 
communities ($200,000 for the Law Enforcement Organizational Change 
Initiative).
                       lost and stolen guns rider
    Question. Do you share my view that ATF should no longer be 
prohibited from requiring gun dealers to conduct regular inventories of 
their firearms?
    Lead-in information from original document.--
          On May 2, 2015, a New York Police Department officer, Brian 
        Moore, was shot and killed by an assailant who used a gun 
        stolen 4 years ago from a pawnshop in Georgia. That pawnshop 
        had guns stolen on at least one other occasion, according to 
        press reports. The tragic shooting of Officer Moore highlights 
        a serious problem in our laws. Since 2004, a policy ``rider'' 
        included annually in appropriations bills has prohibited ATF 
        from requiring that gun dealers conduct an inventory analysis 
        to determine if any guns are lost, stolen, or missing. As a 
        result of this prohibition, guns can be stolen from stores or 
        given to criminals by unscrupulous dealers without ATF's 
        knowledge.

    Answer. Some Federal Firearms Licensees (FFLs) do not conduct 
annual inventory inspections and record reconciliation and, as such, 
are often unable to account for some of the firearms that, according to 
their records, are in their custody. Missing firearms for which no 
record of disposition exists is the most often cited violation during 
the FFL inspection process. ATF encourages FFLs to conduct annual 
inventories of their firearms, but cannot require them to do so, and 
cannot explore possible rulemaking relevant to inventories to enhance 
timely reporting of lost/stolen firearms. If Congress removed the 
appropriations restriction, and ATF intended to propose a regulation on 
this issue, it would do so through the Administrative Procedures Act 
(APA), which would include opportunity for public comment. ATF believes 
that public discourse on this issue, through the APA process, is a 
worthwhile exercise and could help it develop a regulation that would 
minimize the burden on industry while maximizing its ability to 
investigate firearms trafficking and streamline the inspection process.
                     daniel chong detention by dea
    Question. The DEA's administrator, Michele Leonhart, is stepping 
down, effective May 15th. As DEA transitions to new leadership, how 
will you ensure that the agency does not let an incident like this one 
happen ever again?
    Lead-in information from original document.--
          College student Daniel Chong was held in a detention cell at 
        the DEA's San Diego office without food or water for 5 days 
        with his hands handcuffed behind his back. He nearly died. When 
        he was found, he was suffering from dehydration and kidney 
        failure.

    Answer. What happened to Daniel Chong is unacceptable. Following 
the incident, DEA leadership took immediate steps to implement 
protocols and procedures regarding the monitoring of holding cells and 
detainees. Furthermore, DEA instituted the recommendations made by the 
Office of the Inspector General (OIG) in its investigation report 
before the OIG report was even finalized. DEA took action within 60 
days of the incident to ensure that nothing like this ever happens 
again.
    Additionally, as a result of the OIG review, the head of the 
Department of Justice's (DOJ) Office of Professional Responsibility is 
examining DEA's processes and procedures for investigating allegations 
of misconduct as well as its processes for determining and 
administering disciplinary action when appropriate. Following 
completion of this review, DOJ will work with DEA to enhance its 
policies and procedures to ensure that all allegations are thoroughly 
investigated and that any substantial findings of misconduct are 
properly addressed.
    Question. Will you ensure that DEA responds to congressional 
inquiries, particularly following such tragedies, in a timely manner?
    Lead-in information from original document.--
          Last summer, I sent Administrator Leonhart two letters, 
        expressing my outrage at Mr. Chong's treatment and requesting 
        answers as to how DEA intended to remedy what an Inspector 
        General's report called ``systemic deficiencies'' that led to 
        Mr. Chong's detention. I have not received any response to my 
        two letters.

    Answer. It is important that the Department respond to 
congressional inquiries in a timely manner. I understand that DEA 
responded to your letters on June 9, 2015.
    Question. Are you confident that DEA has sufficient funding to 
remedy the deficiencies identified by the Inspector General?
    Lead-in information from original document.--
          Last summer, I sent Administrator Leonhart two letters, 
        expressing my outrage at Mr. Chong's treatment and requesting 
        answers as to how DEA intended to remedy what an Inspector 
        General's report called ``systemic deficiencies'' that led to 
        Mr. Chong's detention. I have not received any response to my 
        two letters.

    Answer. Yes. As previously stated, all of the OIG recommendations 
were in place before the OIG finalized its report. DEA took action 
within 60 days of the incident to ensure that nothing like this ever 
happens again. DEA responded to your letters on June 9, 2015.
                  restitution for trafficking victims
    Question. What training do prosecutors receive on mandatory 
criminal restitution for trafficking victims?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ``It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. Securing restitution for victims is an essential part of 
the Department's victim-centered approach to trafficking investigations 
and prosecutions. The Department provides in-person training and 
written guidance for United States Attorneys' Offices throughout the 
country on seeking restitution for victims of trafficking. Restitution 
is a component of almost all Project Safe Childhood trainings at the 
National Advocacy Center, and restitution training is presented at 
national conferences such as the Internet Crimes Against Children Task 
Force national training for law enforcement and prosecutors. In 2014, 
for the first time, the Human Trafficking Prosecution course for 
Federal prosecutors at the National Advocacy Center included a 
specialized, stand-alone segment on restitution.
    The Department has also already issued guidance to the field 
regarding the new restitution provisions in the Justice for Victims of 
Trafficking Act, and the Department is currently planning additional 
trainings for prosecutors on the new enforcement and restitution 
provisions in the law. The Department's human trafficking prosecutors 
are also increasingly collaborating with their counterparts in the 
Asset Forfeiture and Money Laundering Section to more effectively 
anticipate and address complex issues arising in restitution and 
forfeiture proceedings.
    Question. Are prosecutors instructed that they must seek 
restitution?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ``It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. Prosecutors are instructed to seek restitution in every 
case where there is an identifiable victim that suffered a compensable 
loss, as defined by applicable statutes, as a result of the offense of 
conviction and where there is available, admissible evidence to support 
such a request. Securing restitution for victims is an essential part 
of the Department's victim-centered approach to trafficking 
investigations and prosecutions.
    As indicated in the April 20, 2015 letter from Assistant Attorney 
General Peter J. Kadzik, there are a number of factors which may impact 
whether restitution may be ordered. For instance, if victims indicate 
that they do not wish to obtain restitution from defendants or 
participate in sentencing or restitution proceedings, the Department 
respects their decisions. Further, the Department can only proceed 
where there is sufficient evidence to support a loss calculation for 
restitution purposes, including evidence establishing actual losses as 
statutorily defined. If necessary evidence is unavailable, there may be 
no factual basis to support a restitution order.
    Question. Has the U.S. Attorneys' Manual been updated to include 
instructions for seeking restitution under 18 U.S.C. ss 1593?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ''It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. The United States Attorneys' Manual (USAM) directs U.S. 
Attorneys to seek restitution where appropriate. For example, section 
9-16.320 discusses restitution--particularly mandatory restitution--in 
the context of plea agreements. Section 9-75.500 of the USAM and 
section 1977 of the Criminal Resource Manual discuss mandatory 
restitution in the context of sexual exploitation offenses, directing 
Assistant U.S. Attorneys (AUSAs) that issuance of a restitution order 
is mandatory. Section 9-27 of the USAM contains the Principles of 
Federal Prosecution, and directs AUSAs to consider whether restitution 
has been paid when considering the serious nature of the offense. The 
USAM does not, and cannot, specifically address restitution for each 
individual statute in which restitution can be obtained. Nevertheless, 
the Executive Office for U.S. Attorneys is in the process of drafting 
guidance addressing Sec. 1593's mandatory restitution provision.
    Question. If a victim wishes to obtain restitution from a 
defendant, what specific problems does the Department face in proving 
the victim's amount of losses?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ``It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. In addition to ``the full amount of the victim's losses,'' 
the Trafficking Victims Protection Act (TVPA) restitution provisions 
require the court to order the greater of the wages under the Fair 
Labor Standards Act or the value of the victim's services to the 
trafficker. This requires proof of prevailing wages and hours worked, 
or alternatively of proceeds generated by a victim for the trafficker's 
benefit. Other restitution provisions allow recompense for out-of-
pocket expenses, such as healthcare costs, if there is adequate 
documentation. In many instances, there are few if any written records, 
and victims' recollections can be imprecise due to isolation, trauma 
responses, the long duration of the offense, and other factors. In 
addition, a victim may not have been employed (or his or her employment 
may not have been affected by the offense conduct), and the victim may 
not have been able to receive medical, therapeutic or rehabilitative 
services (or may not provide any records reflecting any such services). 
Other difficulties include victim unavailability and losses 
attributable to prior trauma.
    Question. How do Federal prosecutors have difficulty finding 
``evidence establishing the amount of losses incurred or projected to 
be incurred'' by trafficking victims?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ``It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. Victims may not remain involved post-trial, and may become 
unavailable, which may adversely affect the Government's ability to 
estimate the victim's actual losses with reasonable certainty, and may 
adversely affect a judge's consideration of a restitution request that 
is made. In addition, while restitution is sometimes sought for medical 
or psychiatric care, defense counsel and courts may question whether 
the loss can be proven to be causally related to the offense, as 
opposed to prior or subsequent traumas that are common in the lives of 
many trafficking victims.
    Under the TVPA, a victim of labor or sex trafficking is entitled 
to, among recompense for other losses, ``the greater of the gross 
income or value to the defendant of the victim's services or labor or 
the value of the victim's labor as guaranteed under the minimum wage 
and overtime guarantees of the Fair Labor Standards Act.'' However, 
where the underlying nature of the work is illegal, such as 
prostitution, victims are unable to benefit from a prevailing wage 
standard. To remedy this issue, the Department has argued that victims 
should be compensated based on a theory of unjust enrichment, granting 
an award in the amount that the defendant(s) profited from exploiting 
the victim, whether for labor or for illegal commercial sex acts. Under 
this method, the Department has argued that a victim is entitled to 
recover the ill-gotten gains the trafficker derived, but not all courts 
have accepted this legal theory.
    Question. Would the Department recommend any legislative changes to 
Section 1593 to improve its usefulness for trafficking victims?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ``It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. The Department is examining this section to see what 
legislative changes may help improve 18 U.S.C. Sec. 1593's efficacy in 
helping trafficking victims.
    Question. What steps is the Department taking to ensure that, when 
restitution is ordered, any assets the defendant forfeited may be used 
to pay restitution?
    Lead-in information from original document.--
          In a letter dated April 20, 2015, Assistant Attorney General 
        Peter Kadzik responded to a letter Senator Portman and I had 
        written to then-Attorney General Eric Holder, urging him to 
        seek restitution for all victims of human trafficking. The 
        Trafficking Victims Protection Act of 2000 (codified at 18 
        U.S.C. ss 1593) provides that the Federal courts ``shall order 
        restitution for any offense'' committed under Federal laws that 
        prohibit human trafficking. That law requires the court to 
        order the greater of the calculation of wages owed under the 
        Fair Labor Standards Act or the value of the victim's services 
        to the trafficker. As discussed in the letter Senator Portman 
        and I sent to Attorney General Holder, a recent report by The 
        Human Trafficking Pro Bono Legal Center found that Federal 
        prosecutors did not request restitution in 37 percent of 
        qualifying human trafficking cases that were brought between 
        2009 and 2012, despite the requirement in Federal law that 
        restitution is mandatory in these cases. Mr. Kadzik stated 
        that, in some instances, there may be ``insufficient evidence'' 
        to support a claim for restitution, noting that restitution 
        requires ``proof that specific harms were caused as a result of 
        an offense'' and ``evidence establishing the amount of losses 
        incurred or projected to be incurred. ``It is clear that many 
        trafficking victims are essentially sold and exploited for 
        profit, and many have significant healthcare needs resulting 
        from their trafficking. One paper produced by the U.S. 
        Department of Health and Human Services stated that a ``number 
        of studies have identified the serious and often complex mental 
        health needs of victims of human trafficking.'' As an example, 
        in one Federal case in which restitution was ordered (United 
        States v. Shelby, Memorandum Opinion, 09-213 (D. D.C. June 13, 
        2011)), the Guardian Ad Litem appointed to represent the four 
        minor victims in that case concluded that each victim suffered 
        from Post-Traumatic Stress Disorder specifically relating to 
        the victim's experience with the defendant. The statute 
        provides for how losses should be calculated. In addition, to 
        address physical and mental healthcare needs, victims incur 
        costs, either now or in the future, and traffickers must pay 
        for those costs.

    Answer. Returning assets to victims of crime is a priority in the 
Department of Justice's Asset Forfeiture Program. The Department has 
returned more than $4 billion in civilly and criminally forfeited funds 
to crime victims since 2002, with $723 million paid to over 150,000 
victims in the last 3 years alone. The Department's human trafficking 
prosecutors are also increasingly collaborating with their counterparts 
in the Asset Forfeiture and Money Laundering Section to more 
effectively anticipate and address complex issues arising in 
restitution and forfeiture proceedings. The Department also looks 
forward to employing the new tools provided in the Justice for Victims 
of Trafficking Act to ensure that forfeited assets of traffickers are/
will be used for restitution.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
                             fbi testimony
    Question. What is the DOJ doing to complete its analysis of cases 
in which the FBI provided hair analysis testimony, including in those 
cases where local jurisdictions have not been working cooperatively?
    Answer. In 2012, the FBI initiated a comprehensive review of 
microscopic hair comparison analysis or testimony provided in more than 
20,000 cases prior to December 31, 1999, when mitochondrial DNA testing 
became routine at the FBI Lab. The FBI has completed the review of 98 
percent of these cases. The review determines whether the FBI 
Laboratory analysis revealed a positive association between hair 
evidence and a known sample. To accomplish this process, which includes 
identifying cases, locating transcripts, and reviewing and evaluating 
transcripts and reports, the FBI has used the services of 5 FBI 
employees full-time, more than 18 FBI employees part-time, and 3 
contractors full-time. The Department has been working in cooperation 
with the Innocence Project (IP) and National Association of Criminal 
Defense Lawyers (NACDL) in this review.
    The FBI reached out nationwide to U.S. Attorneys' Offices, State 
and local District Attorney Offices and last known defense counsel to 
obtain transcripts of FBI Hair Examiner trial testimony. The IP and 
NACDL have also reached out to their contacts to obtain transcripts, 
which they will provide DOJ and FBI. The FBI anticipates completing its 
review of all received case transcripts by the end of 2015.
    The FBI, IP, and NACDL are developing additional measures to secure 
transcripts from jurisdictions that have not been responsive to the 
requests including enlisting the assistance of the State and local 
prosecutor associations or contracting for the preparation of 
transcripts of previously un-transcribed testimony.
                     inaccurate forensic testimony
    Question. What is the DOJ doing to provide meaningful relief to 
those convicted on the strength of misstated and inaccurate forensic 
testimony?
    Answer. DOJ reviews requests for relief on a case-by-case basis 
based on an individual review of all case information. In the event 
that the prosecuting office determines that further testing is 
appropriate or necessary, or the court orders such testing, the FBI is 
available to provide mitochondrial DNA testing of the relevant hair 
evidence or short tandem repeat (STR) testing of related biological 
evidence if the testing of hair evidence is no longer possible, if (1) 
the evidence to be tested is in the Government's possession or control, 
and (2) the chain of custody for the evidence can be established. In 
the cases with a positive association, the FBI determines whether the 
hair examiner involved exceeded the scope of science when the evidence 
was introduced at trial or to support a plea. In all convictions where 
a positive FBI hair analysis was used, DOJ will notify the appropriate 
prosecutor, the defendant, his/her attorney when possible, the 
Innocence Project (IP), and the National Association of Criminal 
Defense Lawyers (NACDL)--whether or not there was a prior error. For 
example, the FBI reached out nationwide to U.S. Attorneys' Offices, 
State and local District Attorney Offices and last known defense 
counsel to obtain transcripts of FBI Hair Examiner trial testimony. The 
IP and NACDL have also reached out to their contacts to obtain 
transcripts, which they will provide to DOJ and FBI. The FBI 
anticipates completing its review of all received case transcripts by 
the end of 2015.

                         CONCLUSION OF HEARINGS

    Senator Shelby. Now, the subcommittee stands in recess 
subject to the call of the chair. The subcommittee is 
adjourned.
    Attorney General Lynch. Thank you, Mr. Chairman.
    [Whereupon, at 12:12 p.m., Thursday, May 7, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2016

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's Note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
          Prepared Statement of the American Geophysical Union
    The American Geophysical Union (AGU), a non-profit, non-partisan 
scientific society, appreciates the opportunity to submit testimony 
regarding the fiscal year 2016 budget request for the National 
Aeronautics and Space Administration (NASA), the National Oceanic and 
Atmospheric Administration (NOAA), and the National Science Foundation 
(NSF). The AGU, on behalf of its over 60,000 Earth and space scientist 
members, respectfully requests that the 114th Congress appropriate:
  --$18.91 billion overall for NASA, $5.51 billion for the Science 
        Mission Directorate;
  --$5.98 billion overall for NOAA; and
  --$7.72 billion overall for NSF.
              national aeronautics & space administration
    AGU requests that Congress appropriate $18.91 billion for NASA in 
fiscal year 2016. Additionally, AGU requests that Congress appropriate 
$5.51 billion for NASA's Science Mission Directorate. These increases 
represent a 5 percent increase over the fiscal year 2015 appropriated 
levels.
    Despite increases in appropriation, NASA's budget has fallen in 
real dollars by 10.5 percent since fiscal year 1995. Unless this 
pattern is reversed, NASA will cede its leadership in the Earth and 
space science missions and exploration that the U.S. has historically 
pioneered. A request of 5 percent allows NASA to grow above the rate of 
inflation.
    Within NASA's Science Mission Directorate, AGU requests that 
Congress set appropriations for the Earth, Planetary, and Heliophysics 
Divisions that are equitable and in harmony with their respective 
Decadal studies produced by the National Research Council.
Earth Science and Planetary Science Divisions
    Missions within NASA's Earth Science Division aid in flood 
prediction, earthquake response, and severe storm tracking. Greater 
knowledge and prediction skills are urgent when we consider the effort, 
time and costs of protecting infrastructure along coasts, rebuilding 
fish populations in our seas, developing new water resources for 
manufacturing and agriculture, and restoring communities in the wake of 
hazards. These observations, and many others like them, are integral 
and require the vantage point of outer space.
    NASA's Planetary Science Division advances our understanding of the 
solar system and inspires future generations of scientists. However, 
with no outer planet missions currently in early-stage development and 
barring any major funding increase, the U.S. will soon relinquish its 
presence beyond Mars.
    Both areas of science, Earth and planetary, are complementary. The 
study of the Earth system--Earth's interacting physical, chemical, and 
biological processes--informs our understanding of other worlds in the 
solar system, and our exploration of these bodies advance our knowledge 
of Earth's evolution.
Heliophysics Science Division
    Studying the sun and its interactions with Earth is crucial to 
increasing our knowledge of the dynamic solar processes that impact all 
life on our planet. This includes advance detection and warning of 
space weather events, such as solar storms, that have the potential to 
cause serious damage to our satellites, energy grid infrastructure, and 
the electronics we depend everyday. The request would ensure continued 
growth in NASA's work researching these and other interactions between 
the Sun and the Earth.
             national oceanic & atmospheric administration
    AGU requests that Congress appropriate $5.98 billion for NOAA in 
fiscal year 2016. This would be a 9.8 percent increase over the fiscal 
year 2015 appropriated level for NOAA.
    In our 21st century economy, it is vital that NOAA provide the data 
and insights on our environment that keep Americans safe and 
prosperous. NOAA's atmospheric and oceanic programs combine cutting-
edge research and world-class operational facilities to ensure that the 
U.S. is a resilient, weather-ready, and sustainable nation. Many 
sectors of our economy rely on the Agency's satellite programs to 
provide high quality, uninterrupted data for weather forecasts and on 
its oceanic program for insights on our environment and the 
sustainability of our coastal economies.
                      national science foundation
    AGU requests that Congress appropriate $7.72 billion for NSF in 
fiscal year 2016. This would be a 5.2 percent increase over the fiscal 
year 2015 appropriated level for NSF.
    The Foundation is critical to America's ability to compete globally 
in technological and scientific innovation. Faced with ever-increasing 
international competition, maintaining U.S. scientific leadership 
requires continued robust investments in basic research and STEM 
education. NSF is the only Federal agency that supports research and 
education across all fields of science, engineering, and mathematics 
and at all educational levels. Research and education programs 
supported by NSF help increase and develop the knowledge base needed 
for pushing the frontiers of science, mathematics, and engineering 
disciplines, contribute to the development of the future science and 
technology workforce, underpin new fields of inquiry, and promote 
interdisciplinary research and education. All of these facilitate 
technological innovation.
    Even under tight budget constraints, it is important for NSF to 
have steady budget levels that demonstrate real growth. Under constant 
2014 dollars, NSF has lost 5.8 percent of its budget from fiscal year 
2010 to fiscal year 2014. This stagnant pace of funding is creating an 
innovation deficit in the U.S.--a widening gap between the actual level 
of Federal Government funding for research and higher education and 
what the investment needs to be if the U.S. is to remain the world's 
innovation leader.
Geosciences Directorate
    The Geoscience Directorate awards research in the Earth, 
atmospheric, ocean, and polar sciences. Much of the geosciences 
research budget leads to a better understanding of critical national 
needs, such as water and mineral resources, energy resources, 
environmental issues, climate change, and mitigation of natural 
hazards. AGU asks the subcommittee to strongly support these programs.
    GEO supports infrastructure, operation, and maintenance costs for 
cutting edge facilities that are essential for fundamental and applied 
research. Geoscience-based research tools and academic expertise helped 
to track and contain the BP Deepwater Horizon oil spill, saving 
billions of dollars for Gulf industries and untold costs to the 
environment. Among the major infrastructure that NSF supports, the U.S. 
Arctic and Antarctic Facilities and Logistics, Academic Research Fleet, 
EarthScope Operations, Incorporated Research Institutions for 
Seismology (IRIS), the Ocean Drilling Program, the Ocean Observatories 
Initiative, and the National Center for Atmospheric Research are all 
key to our Nation's innovation and economic well-being. AGU strongly 
supports robust and steady funding for this infrastructure as well as 
operation and maintenance of these major facilities.
Earth Science Education
    The geosciences workforce is aging and being quickly depleted. 
Congress can grow this workforce, stimulate economic growth in the 
energy, natural resources and environmental sectors, and improve 
natural resource literacy by supporting the full integration of Earth 
science information into mainstream science education at the K-12 and 
higher education levels. AGU strongly supports the new NSF INCLUDES 
program (Inclusion Across the Nation of Communities of Learners that 
have been Underrepresented for Diversity in Engineering and Science), 
the Integrated NSF Support Promoting Interdisciplinary Research and 
Education program (INSPIRE), the Graduate Research Fellowships (GRF), 
and the Research Experiences for Undergraduates (REU), and the Faculty 
Early Career Development Program (CAREER). These programs are effective 
in building a science and engineering workforce for the 21st century 
that supports academia, industry, national defense, and Federal and 
local governments.
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute
    Thank you for this opportunity to provide the American Geosciences 
Institute's perspective on fiscal year 2016 appropriations for 
geoscience programs within the subcommittee's jurisdiction.
    The American Geosciences Institute (AGI) supports critical Earth 
Science research conducted by the National Science Foundation (NSF), 
the National Oceanic and Atmospheric Administration (NOAA), the 
National Institute of Standards and Technology (NIST), and the National 
Aeronautics and Space Administration (NASA). Cutting-edge research on 
the Earth, energy, and the environment has fueled economic growth, 
mitigated losses, and improved our quality of life. Our Nation needs 
skilled and innovative geoscientists to help explore, assess, and 
develop Earth's resources in a strategic, sustainable, and 
environmentally sound manner and to help understand, evaluate, and 
reduce our risks to hazards. AGI recognizes our Nation's financial 
challenges and also the necessity for steady growth and investment in 
science and technology for the future.
    AGI respectfully requests $1.372 billion for the Geoscience 
Directorate at NSF and $1.947 billion for NASA Earth Science programs. 
AGI supports the President's request for $5.982 billion for NOAA and 
$1.12 billion for NIST.
    AGI is a nonprofit federation of about 50 geoscientific and 
professional societies representing more than 250,000 geologists, 
geophysicists, and other Earth scientists. Founded in 1948, AGI 
provides information services to geoscientists, serves as a voice for 
shared interests in our profession, plays a major role in strengthening 
geoscience education, and strives to increase public awareness of the 
vital role the geosciences play in society's use of resources, 
resilience to hazards, and the health of the environment.
                      national science foundation
    AGI supports the President's request for $7.724 billion for NSF.--
These important investments in the future of our Nation are the seed 
capital necessary to support the progress of science and engineering 
which underpins modern society and produces revolutionary--and some as 
yet unforeseen--breakthroughs. Basic research such as this provides 
knowledge that is used to improve people's quality of life, creates a 
dynamic and innovative economy, and strengthens the security of the 
country.
    NSF not only provides core funding and essential infrastructure for 
basic research, but also supports the education and training of the 
next generation of the workforce. AGI believes that investment in NSF 
programs, where research is funded based on competitive, scientific 
merit and peer review, will pay important dividends in maintaining U.S. 
dominance in science and technology long into the future.
    NSF Geosciences Directorate.--AGI is disappointed that the 
President's request for a 4.7 percent increase for the Geoscience 
Directorate (GEO) falls short of his NSF-wide request for a 5.2 percent 
increase, especially when GEO funding had already been cut in fiscal 
year 2015. AGI respectfully asks the subcommittee to provide the 
Geosciences Directorate with $1,372 million for fiscal year 2016 to 
keep the Directorate on par with the proposed NSF-wide increase of 5.2 
percent.
    The Geosciences Directorate (GEO) is the principal source of 
Federal support for academic Earth scientists and their students who 
seek to understand the Earth and the processes that sustain and 
transform life on this planet. The Geosciences Directorate provides 
about 61 percent of Federal funding for basic geoscience research at 
academic institutions. According to NSF data, the Directorate 
distributes about 1,600 new awards annually and expects about 15,900 
people to participate in GEO activities in fiscal year 2016, while also 
supporting indispensible research infrastructure and instruments.
    The GEO Directorate plays a significant role in NSF's cross-
foundational initiatives, such as the Innovations at the Nexus of Food, 
Energy, and Water Systems (INFEWS) and Prediction of and Resilience 
against Extreme Events (PREEVENTS) activities. These exciting projects 
integrate information from a range of disciplines to address pressing, 
socially-relevant issues. The geosciences play a large role in INFEWS, 
providing raw data and information on fossil, nuclear, and renewable 
energies; the quantity, quality, and distribution of water supplies; 
and the characteristics, health, and stability of soils and the 
critical zone where Earth, biological, and human systems intersect. 
Additionally, geohazards such as earthquakes and landslides are a 
significant component of PREEVENTS. This NSF-wide initiative has the 
potential to improve predictability and risk assessments associated 
with geohazards, which help build resilience to natural and manmade 
disasters. These investments in pre-disaster research and mitigation 
will provide an excellent return on investment, both in monetary and 
social terms. AGI supports funding of $14.78 million for INFEWS and 
$23.50 million for PREEVENTS in the Geoscience Directorate and 
particularly stress the importance of the Earth Science Division to 
this work.
    NSF's Division of Polar Programs (PLR) funds basic research in the 
Arctic and Antarctic and manages all U.S. activities in Antarctica as a 
single, integrated program. The polar regions are the focus of intense 
scientific and political interest as new navigation routes are opening 
access to resources and presenting security challenges. NSF-funded 
research and infrastructure are helping the United States understand 
environmental conditions in extreme environments, develop polar 
technology, and construct data-driven strategic and security policies. 
AGI suggests a minimum of $450 million for the Division of Polar 
Programs.
    NSF funds facilities that enable researchers to access locations, 
data, and technologies that serve the overall research community. AGI 
strongly supports robust and steady funding for infrastructure and the 
operation and maintenance of major facilities, including the Academic 
Research Fleet, Geodetic and Seismological Facilities for the 
Advancement of Geosciences and EarthScope (GAGE and SAGE), Ocean 
Drilling Activities, the Ocean Observatories Initiative, and the 
National Center for Atmospheric Research (NCAR).
    Directorate for Education and Human Resources.--Support for 
geoscience education within NSF not only helps us meet the demand for a 
competitive, skilled workforce, but also supports an informed citizenry 
prepared to make well-informed decisions about the management of our 
planet and its resources. Outreach and education are important at all 
levels from K-12 through graduate and should include formal and 
informal outlets to facilitate lifelong learning. AGI strongly supports 
funding for geoscience education at all levels and particularly 
supports programs to diversify the geoscience student population and 
workforce. The INCLUDES (Inclusion across the Nation of Communities of 
Learners that have been Underrepresented for Diversity in Engineering 
and Science) initiative should focus funds and attention on this 
important workforce issue. AGI urges Congress to fund programs in NSF's 
Directorate for Education and Human Resources, including NSF 
Scholarships in STEM, Graduate Research Fellowships, Climate Change 
Education, Research Experiences for Undergraduates, and Advancing 
Informal STEM Education.
            national oceanic and atmospheric administration
    Geoscientists rely on NOAA for much of the data and long-term 
monitoring that enable research and rapid response for events such as 
hurricanes, drought, marine oil spills, and a range of coastal 
phenomena. The National Weather Service (NWS), Oceanic and Atmospheric 
Research (OAS), National Ocean Service (NOS), and the National 
Environment Satellite, Data and Information Service (NESDIS) programs 
provide the data necessary for understanding and mitigating these 
events, as well as sustaining our natural resources. AGI supports the 
President's request for $5.982 billion for NOAA and hopes that the 
subcommittee will continue to support these crucial initiatives.
             national institute of standards and technology
    Earth scientists and geotechnical engineers versed in the 
geosciences conduct basic research at NIST that is used by the public 
and private sectors to build resilient communities and stimulate 
economic growth. The research conducted and the information gained is 
essential for understanding natural hazards, identifying the 
infrastructure needed to build strong communities, and stimulating 
economic growth. AGI strongly supports the President's request for 
$1.12 billion for NIST.
    NIST is the lead agency for the National Earthquake Hazard 
Reduction Program (NEHRP), an interagency program responsible for the 
efficient coordination of research and resources to understand and 
mitigate earthquakes, but has received only a small portion of 
authorized and essential funding in the past. AGI supports the 
reauthorization and funding of the National Earthquake Hazards 
Reduction Program (NEHRP) in this Congress.
             national aeronautics and space administration
    NASA's current fleet of Earth-observing satellites provides the 
data necessary to understand our dynamic planet. These satellites such 
as the Advanced Earth Observing Satellite and the Landsat series 
provide information critical to research and life-sustaining functions 
like weather forecasting, emergency service response and planning, and 
tracking ash plumes or oil spills that disrupt the economy and the 
environment. Geoscientists use Landsat data to monitor, predict, and 
help land managers to address drought, wildfires, changes in 
vegetation, and other changes to the Earth's surface. We strongly 
support the President's request for $1.947 billion for NASA Earth 
Science and the NASA/USGS Sustainability Land Imaging Architecture 
Study Team, which is examining options for continuing Landsat-
compatible observations into the future.
    Thank you for the opportunity to present this testimony to the 
subcommittee.
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
         Universities' Board on Oceans, Atmosphere, and Climate
    On behalf of the Association of Public and Land-grant Universities' 
(APLU) Board on Oceans, Atmosphere, and Climate (BOAC), we thank you 
for the opportunity to provide recommendations for the proposed fiscal 
year 2016 budgets for the National Oceanic and Atmospheric 
Administration (NOAA), the National Aeronautic and Space Administration 
(NASA) and the National Science Foundation (NSF). BOAC represents 
hundreds of scientists and administrators at APLU's 238 member 
universities and systems. We support a budget of $80 million for NOAA's 
National Sea Grant College Program, $5.49 billion for NASA's Science 
Directorate and $7.7 billion for NSF. We also support a full 
restoration of all of NOAA, NASA, and NSF's STEM Programs.
    According to the National Climatic Data Center (NCDC), between 1980 
and 2013, there were 178 weather/climate disasters that each exceeded 
$1 billion in damages. Combined, they exceed $1 trillion in losses. The 
Federal Government spent nearly $140 billion on disasters in 2012 
alone. Further, the U.S. economy often takes a hit from disasters as 
well. The drought of 2012 likely cost the U.S. economy over $30 
billion. Additionally, the role of the Federal Government in covering 
many of these losses has grown tremendously over the last few decades. 
Erwann Michel-Kerwann, chairman of the OECD's Board on Financial 
Management of Catastrophes, noted that in 1989, Federal relief covered 
only 23 percent of total damage whereas Federal relief covered 69 
percent of Hurricane Ike in 2008 and 75 percent of Hurricane Sandy in 
2012.
    To decrease future Federal expenditures and to make the Nation more 
prepared for natural disasters, Federal agencies are working with 
communities across the Nation to enhance their resilience. Community 
resilience is a measure of the ability of a community to prepare for, 
respond to, and fully bounce back from a variety of crises. Through 
research, Federal science agencies can play a valuable role in helping 
communities strengthen their resilience.
            national oceanic and atmospheric administration
    Within the administration's fiscal year 2016 budget proposal, there 
is a proposal to increase the Regional Coastal Resilience Grants 
program by $45 million to ``(1) increase the resilience of coastal 
communities and ecosystems by assisting with planning for and 
addressing extreme weather events, coastal inundation, climate hazards, 
changing ocean conditions, and competing uses; and (2) to support 
regional approaches that leverage existing resources and efforts and 
promote collaboration across jurisdictions and sectors.'' This proposal 
nearly mirrors the National Sea Grant College Program's goals to (1) 
develop vibrant and resilient coastal economies; (2) aid communities in 
using comprehensive planning to make informed strategic decisions; (3) 
improve coastal water resources to sustain human health and ecosystem 
services; and (4) to help resilient coastal communities adapt to the 
impacts of hazards and coastal changes.
    Thus, while we applaud and support the administration's attention 
to coastal resilience, we suggest that the National Oceanic and 
Atmospheric Administration (NOAA) capitalize on the capacity that 
exists in the Sea Grant Program to add value to this initiative. Sea 
Grant would strengthen the research and education component of this 
resiliency effort. Furthermore, as required by law, each dollar Sea 
Grant receives in Federal funding must be matched at the State level. 
Finally, Sea Grant is local; it provides NOAA with boots on the ground 
throughout the country's coastal areas. Sea Grant personnel hear 
directly from community members about their needs and work directly 
with communities to provide technical assistance. We provide below two 
examples of the type of work Sea Grant has done related to community 
resiliency.
    Sea Grant has a proven track record with regard to coastal 
community resilience work. For example, the Mississippi-Alabama Sea 
Grant Consortium developed the Coastal Community Resilience Index 
(CCRI), a community self-assessment tool, in response to community 
requests for baseline data they could use to assess how they are 
progressing toward their goals to become more resilient. Using this 
tool, communities can identify vulnerabilities and prepare for future 
natural disasters. So far, 47 communities across the Gulf of Mexico, 
working along with 74 facilitators, have utilized the tool to determine 
their base resilience. A small grants program then provides individual 
communities financial resources needed to address action items 
identified by the CCRI.
    Sea Grant Programs also target the individual homeowners in coastal 
communities. For instance, the University of Hawai'i Sea Grant produced 
a community specific Homeowner's Handbook to Prepare for Natural 
Hazards. Using non-technical language, the book offers homeowners step-
by-step instructions for hazard preparation along with education on the 
hazard risk in their area. This book has proven so popular it has gone 
through 8 print runs and has now been adapted to Alabama, Delaware, 
Florida, Louisiana, Massachusetts, Mississippi, and Texas.
    Based on the examples given, we encourage the subcommittee to fund 
Sea Grant at $80 million, allowing the Program to then be heavily 
utilized in NOAA's resiliency efforts.
    Underlying all of the programs above are the skilled scientists, 
educators, and community engagement specialists in academia, non-
profits, industry and State, local, and Federal Government that 
actually perform the work. The continuity and durability of that 
workforce relies on strong educational programs that recruit, mentor, 
and develop the necessary human capacity. The administration's budget 
calls for the elimination of several important STEM programs at NOAA 
that contribute to the development of a workforce with the skills and 
expertise needed in our 21st century economy.
    NOAA's Fisheries Sea Grant Fellowship encourages students to pursue 
careers in population and ecosystem dynamics or marine resource 
economics, areas vital to NOAA's management of the Nation's fisheries. 
The NOAA Teach at Sea Program permits K-12 teachers the opportunity to 
experience hands-on, real world research on NOAA's fisheries, 
oceanographic, or hydrographic survey cruises. This allows those 
teachers to enrich their curricula and enhance their approaches to 
teaching science. Finally, it is not enough in today's complex world to 
know only the technical aspects of one's science discipline, but also 
to hone professional skills needed to become tomorrow's leaders. The 
John A. Knauss Marine Policy Fellowship provides exactly that type of 
training.
    BOAC strongly encourages the subcommittee to restore funding for 
all the NOAA STEM programs.
                      national science foundation
    BOAC supports the administration's request of $7.7 billion for the 
National Science Foundation (NSF). NSF provides 61 percent of 
geoscience basic research funding, including support for critical 
infrastructure such as the National Center for Atmospheric Research--
Wyoming Supercomputing Center, the Academic Research Fleet, and the 
Ocean Observatories. Additionally, NSF is the home of traditionally 
strong STEM education programs.
    BOAC supports the budget request for NSF's geosciences directorate. 
NSF's investments in the geosciences address important national 
challenges, spur new economic sectors, and lead to the development and 
implementation of advanced technologies that save lives, protect 
property, and support our economy. BOAC also supports the NSF's 
creation of the focused research effort called Prevention of and 
Resilience against Extreme Events (PREEVENTS), the purpose of which is 
to enhance national resilience to natural hazards. Like the Hazards 
SEES (Science, Engineering, and Education for Sustainability) before 
it, PREEVENTS will improve quantitative models and qualitative research 
that should aid societal preparedness and resilience. In particular, 
PREEVENTS will promote disciplinary and multidisciplinary projects for 
significant near- or medium-term advances.
    BOAC is also pleased to see NSF expand research into Innovations at 
the Nexus of Food, Energy, and Water Systems (INFEWS). In its ``Science 
Education and Outreach Roadmap for Natural Resources,'' APLU's BOAC and 
its Board on Natural Resources identified six major grand challenges 
facing the Nation's natural resources, three of which are agriculture, 
energy, and water. There are many examples of where these three come 
into play with one another. The drought in California affects not only 
California's enormous agricultural system but also the State's 
production of hydroelectricity. Many of the Nation's important 
waterways face problems with eutrophication from nutrient runoff from 
intensive agricultural production.
             national aeronautics and space administration
    Like NOAA & NSF, the National Aeronautics and Space Administration 
(NASA) is critical to community resilience, both for developing an 
understanding of the earth and how it functions as well as collection 
of the data scientists use to help aid decision-makers.
    In 2007, the National Academies issued the report, ``Earth and 
Science Applications from Space: National Imperatives for the Next 
Decade and Beyond.'' The report found that between 2000 and 2009 
funding for Earth Sciences (ES) had fallen substantially. Past 
investments in NASA's science mission have funded university research 
that has resulted in the development of new instruments and 
technologies and in valuable advances in weather forecasting, climate 
projections and understanding of Earth ecosystems.
    NASA is instrumental in deploying satellites used by NOAA. 
Furthermore, without the tools developed at NASA, oceanic, atmospheric, 
hydrologic and Earth-system scientists and the Nation would have only a 
fragmentary picture of the interconnected functioning of the planet's 
oceans, atmosphere and land. NASA plays a role in technology transfer 
from NOAA by testing new sensors. NASA is currently developing a sensor 
that will for the first time give scientists and resource planners a 
global picture of the world's terrestrial water supplies. Currently 
many lakes and rivers are not monitored and there is no centralized 
location for water resource information. The NASA data archive is an 
irreplaceable collection of environmental information that researchers 
depend upon. NASA also flies the WB-57 high altitude research aircraft, 
which performs valuable atmospheric research missions including remote 
sensing for coastal resiliency and the study of hurricane formation and 
intensity change. Furthermore, through its support for young scientists 
and graduate students, the NASA science mission supports innovation in 
the education and future workforce pipeline.
    Finally, we support funding NASA to develop and implement a 
scatterometer mission with fast community access to those data, 
capability to distinguish between wind and rain and a higher orbit for 
coverage of Alaskan waters. The scatterometer has been a critical 
component of hurricane prediction.
    BOAC thanks you for the opportunity to provide our views to the 
subcommittee. We look forward to working with you through the fiscal 
year 2016 appropriations process.
             about aplu and the board on natural resources
    APLU's membership consists of 238 State universities, land-grant 
universities, State-university systems and related organizations. APLU 
institutions enroll more than 4.8 million undergraduate students and 
1.3 million graduate students, award 1.2 million degrees, and conduct 
$41 billion annually in university-based research annually. The Board's 
mission is to provide Federal relations for issues involving 
university-based programs in marine, atmospheric, and climatological 
sciences. BOAC representatives are chosen by their president's office 
to serve. They include some of the Nation's leading research and 
educational expertise in atmospheric, marine, and climate disciplines.
                                 ______
                                 
  Prepared Statement of the Association of Science-Technology Centers
                              introduction
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee, thank you for the opportunity to submit written testimony 
for the record. My name is Anthony (Bud) Rock, and I serve as the 
President and Chief Executive Officer of the Association of Science-
Technology Centers (ASTC). My testimony today addresses the importance 
of science, technology, engineering, and mathematics (STEM) education, 
and will focus specifically on the fiscal year 2016 budgets for four 
specific programs at three Federal agencies over which your 
subcommittee has jurisdiction, including: (1) the Competitive Program 
for Science Museums, Planetariums, and NASA Visitor Centers Plus Other 
Opportunities (CP4SMP+) at the National Aeronautics and Space 
Administration (NASA),which would not be funded under the President's 
fiscal year 2016 request; the Bay-Watershed Education and Training (B-
WET) Regional Programs and Competitive Education Grants (CEG)/
Environmental Literacy Grants (ELG) programs at the National Oceanic 
and Atmospheric Administration (NOAA), which would not be funded under 
the President's fiscal year 2016 request; and the Advancing Informal 
STEM Learning (AISL) program at the National Science Foundation (NSF), 
which would receive $60 million under the President's fiscal year 2016 
request.
                              our request
    On behalf of ASTC and the nearly 400 science centers and museums we 
represent here in the United States, I urge the subcommittee to 
continue its strong support for critical STEM education programs within 
NASA, NOAA, and NSF as the Commerce, Justice, Science, and Related 
Agencies appropriations bill for fiscal year 2016 moves forward. 
Specifically, I urge you to:
  --Provide $10 million for the Competitive Program for Science 
        Museums, Planetariums, and NASA Visitor Centers Plus Other 
        Opportunities at the National Aeronautics and Space 
        Administration.
  --Provide $12 million for the Bay-Watershed Education and Training 
        Regional Programs and $8 million for the Competitive Education 
        Grants/Environmental Literacy Grants programs at the National 
        Oceanic and Atmospheric Administration.
  --Provide $60 million for the Advancing Informal STEM Learning 
        program at the National Science Foundation.
  --Continue to thoroughly examine any proposals that would seek to 
        consolidate and/or reorganize Federal STEM education programs 
        in an effort to ensure that stakeholder input has been sought 
        and that proven, successful programs are maintained.
    Before providing more detail about ASTC and the science center and 
museum field, I want to first offer a brief snapshot of these Federal 
programs and why they are so vital to communities across the country.
             national aeronautics and space administration
    NASA's Competitive Program for Science Museums, Planetariums, and 
NASA Visitor Centers Plus Other Opportunities provides support for 
education or research engagement projects, exhibits, and/or 
partnerships with K-12 schools to support inquiry- or experiential-
based activities led by informal education institutions--like science 
centers and museums--that feature NASA missions, science, engineering, 
explorations, or technologies.
    With fiscal year 2014 funding, NASA awarded funding to 12 projects, 
including three NASA Visitor Centers. Three Maryland-based 
institutions--the Maryland Science Center, the Prince George's County 
Public Schools' Howard B. Owens Science Center, and the Goddard Space 
Flight Center--collaborated on a proposal and are receiving support to 
make educators, students, families, and the public more aware and 
better informed of NASA heliophysics science and NASA missions studying 
the Sun. Program participants will come to a better understanding of 
the Sun, space weather, and the Sun's far-reaching influence on our 
planet and the rest of the solar system.
    Though Congress--and this subcommittee--have been very supportive 
of this program since its inception in fiscal year 2008, the agency has 
not indicated if any fiscal year 2015 funds will be available for new 
grants. Furthermore, the President did not include funding for the 
program in his fiscal year 2016 budget request. I encourage the 
subcommittee to continue its strong support for the CP4SMP+ by 
providing $10 million for fiscal year 2016.
            national oceanic and atmospheric administration
    NOAA's Bay-Watershed Education and Training Regional Programs are 
environmental education offerings that promote locally relevant, 
experiential learning in the K-12 environment. The program, which 
currently serves seven areas of the country (California, the Chesapeake 
Bay, the Great Lakes, the Gulf of Mexico, Hawai'i, New England, and the 
Pacific Northwest), promotes environmental literacy in society by 
supporting individuals to understand, protect, and restore watersheds 
and related ecosystems. With fiscal year 2015 funding for 86 new and 
continuing awards, B-WET grants will reach an estimated 69,000 students 
and 2,600 teachers.
    NOAA's Competitive Education Grants/Environmental Literacy Grants 
program, which the agency touts as ``the longest-standing and most 
comprehensive national grants program focused on environmental 
literacy,'' helps improve and increase the understanding and use of 
earth systems science while advancing STEM education. Since its 
beginnings in 2005, NOAA has made 111 awards to over 150 institutions 
across the country--all of which help advance its mission. The agency 
estimates that each year, an average of 60 million people visit an 
institution--like a science center or museum--that has a NOAA-funded 
exhibit or program.
    Despite this measurable impact, the President's fiscal year 2016 
budget request once again proposes the termination of both the B-WET 
and the CEG/ELG programs, which received $7.2 million and $4 million, 
respectively, for fiscal year 2015. For fiscal year 2016, I urge the 
subcommittee to remain supportive of the programs by providing $12 
million in funding for B-WET and $8 million in funding for CEG/ELG.
                      national science foundation
    Fiscal year 2016 funding for the Advancing Informal STEM Learning 
program, offered by the Directorate for Education and Human Resources 
and the Division of Research on Learning in Formal and Informal 
Settings, will provide resources to support design, adaptation, 
implementation, and research on innovative modes of learning in the 
informal environment, with important emphases on citizen science, 
making, and cyberlearning. Just last year, new awards were made to the 
University of Alaska-Fairbanks (in partnership with the Oregon Museum 
of Science and Industry), the University of Maryland Center for 
Environmental Sciences, the University of Wisconsin-Madison, and the 
University of New Hampshire, to name just a few.
    The President's fiscal year 2016 budget request includes $60 
million--$5 million more than the fiscal year 2015 appropriated level--
for AISL. I encourage the subcommittee to support the President's 
request.
            stem education consolidation and reorganization
    With regard to the Federal STEM education consolidation plan first 
released by the administration for fiscal year 2014 and amended in each 
of the last two budget requests, I recognize the importance of creating 
efficiencies within the Federal Government whenever possible. 
Nevertheless, I continue to have serious concerns about a proposal that 
would eliminate effective programs that support informal STEM learning. 
Integral Federal investments, including the aforementioned NASA and 
NOAA offerings, are once again slated for elimination in fiscal year 
2016. I sincerely appreciate the subcommittee's thoughtful 
consideration of the harmful effect of the proposed terminations, and 
ask you to remain steadfast in your support of these programs.
                     about astc and science centers
    The Association of Science-Technology Centers is a global 
organization providing collective voice, professional support, and 
programming opportunities for science centers, museums, and related 
institutions, whose innovative approaches to science learning inspire 
people of all ages about the wonders and the meaning of science in 
their lives. Science centers are sites for informal learning, and are 
places to discover, explore, and test ideas about science, technology, 
engineering, mathematics, health, and the environment. They feature 
interactive exhibits, hands-on science experiences for children, 
professional development opportunities for teachers, and educational 
programs for adults. In science centers, visitors become adventurous 
explorers who together discover answers to the myriad questions of how 
the world works--and why. As members of this subcommittee know, it is 
imperative that we spark an interest in STEM fields at an early age--a 
key role for community-based science centers and museums, who often 
undertake this effort with the aforementioned modest--but important--
support from NASA, NOAA, and NSF, in addition to other Federal 
agencies.
    ASTC works with science centers and museums to address critical 
societal issues, locally and globally, where understanding of and 
engagement with science are essential. As liaisons between the science 
community and the public, science centers are ideally positioned to 
heighten awareness of critical issues like agriculture, energy, the 
environment, infectious diseases, and space; increase understanding 
of--and exposure to--important and exciting new technologies; and 
promote meaningful exchange and debate between scientists and local 
communities.
    ASTC now counts 636 members, including 489 operating or developing 
science centers and museums in 45 countries. Collectively, our 
institutions garner 95 million visits worldwide each year. Here in the 
United States alone, our guests--and your constituents--pass through 
science center doors more than 73 million times to participate in 
intriguing educational science activities and explorations of 
scientific phenomena.
    Science centers come in all shapes and sizes, from larger 
institutions in big metropolitan areas to smaller centers in somewhat 
less populated ones. ASTC represents institutions as diverse as the 
Adventure Science Center in Nashville; the Anchorage Museum at Rasmuson 
Center; the Connecticut Science Center; the Echo Lake Aquarium and 
Science Center in Burlington, Vermont; the Maine Discovery Museum in 
Bangor; the McWane Science Center in Birmingham; the Museum of 
Discovery in Little Rock; and the Providence Children's Museum.
    Our centers reach a wide audience, a significant portion of which 
are school groups. Here in the United States, 94 percent of our members 
offer school field trips, and we estimate that more than 13 million 
children attend science centers and museums as part of those groups 
each year. Field trips, however, are truly just the beginning of what 
science centers and museums contribute to our country's educational 
infrastructure, as: 92 percent offer classes and demonstrations; 90 
percent offer school outreach programs; 76 percent offer workshops or 
institutes for teachers; 74 percent offer programs for home-schoolers; 
67 percent offer programs that target adult audiences; 65 percent offer 
curriculum materials; 50 percent offer after-school programs; 34 
percent offer youth employment programs; and 22 percent offer citizen 
science projects.
                               conclusion
    With this in mind, and while I am fully aware of the significant 
budget challenges that face this subcommittee, Congress, and the 
Nation, I hope you will continue to recognize the important educational 
offerings science centers and museums make available to students, 
families, and teachers, along with the essential Federal support they 
receive from NASA, NOAA, and NSF.
    Again, I respectfully request and urge you to:
  --Provide $10 million for the Competitive Program for Science 
        Museums, Planetariums, and NASA Visitor Centers Plus Other 
        Opportunities at the National Aeronautics and Space 
        Administration.
  --Provide $12 million for the Bay-Watershed Education and Training 
        Regional Programs and $8 million for the Competitive Education 
        Grants/Environmental Literacy Grants program at the National 
        Oceanic and Atmospheric Administration.
  --Provide $60 million for the Advancing Informal STEM Learning 
        program at the National Science Foundation.
  --Continue to closely examine any proposals that would seek to 
        consolidate and/or reorganize Federal STEM education programs 
        in an effort to ensure that stakeholder input has been sought 
        and that proven, successful programs are maintained.
    Thank you once again for your strong support for America's science 
centers and museums--and for the opportunity to present these views. My 
staff and I would be happy to respond to any questions or provide 
additional information as needed by the subcommittee.
                                 ______
                                 
      Prepared Statement of the Association of Zoos and Aquariums
            national oceanic and atmospheric administration
    Thank you Chairman Shelby and Ranking Member Mikulski for allowing 
me to submit testimony on behalf of the Nation's 214 AZA-accredited 
zoos and aquariums. Specifically, I want to express my support for the 
inclusion of $4 million for the John H. Prescott Marine Mammal Rescue 
Assistance Grant Program, $8,000,000 for the National Oceanic and 
Atmospheric Administration (NOAA) Environmental Literacy Grants Program 
(including $2,500,000 for the NOAA Ocean Education Grants Program), and 
$12,000,000 for the Bay, Watershed, Education and Training Program in 
the fiscal year 2016 Commerce, Justice, Science, and Related Agencies 
appropriations bill. Additionally, I urge you to reject any proposal 
that eliminate valuable ocean education programs as part of a plan to 
restructure Federal Science, Technology, Engineering, and Math (STEM) 
programs.
    Founded in 1924, the Association of Zoos and Aquariums (AZA) is a 
nonprofit 501c(3) organization dedicated to the advancement of zoos and 
aquariums in the areas of conservation, education, science, and 
recreation. AZA-accredited zoos and aquariums annually see more than 
180 million visitors, collectively generate more than $17 billion in 
annual economic activity, and support more than 165,000 jobs across the 
country. Over the last 5 years, AZA-accredited institutions supported 
more than 4,000 field conservation and research projects with 
$160,000,000 annually in more than 100 countries. In the last 10 years, 
accredited zoos and aquariums formally trained more than 400,000 
teachers, supporting science curricula with effective teaching 
materials and hands-on opportunities. School field trips annually 
connect more than 12,000,000 students with the natural world.
    During the past 20 years AZA-accredited zoos and aquariums have 
rescued and rehabilitated more than 1,800 marine animals including 
stranded dolphins, whales, sea lions, seals, sea otters, sea turtles, 
and manatees. More than 1,750 (97 percent) of these animals have been 
successfully released back into their natural habitat. While the 
Nations' accredited zoos and aquariums support wildlife rehabilitation 
through their ongoing animal rescue programs, these institutions are 
sometimes involved in addressing natural and manmade disasters such as 
the 2010 Deepwater Horizon Gulf oil spill. For example, following the 
oil spill, accredited zoos and aquariums around the country offered 
assistance by pledging the services of 200 animal care professionals 
and donating supplies, vehicles, and other resources to assist in the 
wildlife rescue efforts.
    The John H. Prescott Marine Mammal Rescue Assistance Grant Program 
provides grants or cooperative agreements to eligible stranding network 
participants for the recovery and treatment (i.e., rehabilitation) of 
stranded marine mammals; data collection from living or dead stranded 
marine mammals; and, facility upgrades, operation costs, and staffing 
needs directly related to the recovery and treatment of stranded marine 
mammals and collection of data from living or dead stranded marine 
mammals. Eligible applicants are currently active, authorized 
participants, including AZA-accredited zoos and aquariums, or 
researchers in the National Marine Mammal Stranding Network.
    Without the Prescott grant program, NOAA would have to rely on 
private organizations as it coordinates the response to marine mammals 
in distress; determines disease, injury and potential cause(s) of 
death; and supports emergency response for marine mammals during oil 
spills, outbreaks of diseases, and unusual mortality events. Network 
partners may not have the funds or the ability to respond to some 
stranding events, leaving animals at risk for prolonged exposure and 
likely death. Without funding for this program the critical ability to 
monitor marine mammal health trends, collect scientific data, and 
perform analysis would also be diminished. Information about the causes 
of marine mammal strandings is useful to the public because marine 
mammals can serve as an indicator of ocean health, giving insight into 
larger environmental issues that also have implications for human 
health and welfare.
    At the same time that AZA-accredited zoos and aquariums are working 
with Federal partners to conserve ocean wildlife, they also are 
providing essential learning opportunities, particularly about science, 
for schoolchildren in formal and informal settings. Increasing access 
to formal and informal science education opportunities has never been 
more important. Studies have shown that American schoolchildren are 
lagging behind their international peers in certain subjects including 
science and math.
    The NOAA Ocean Education Grants Program and Bay, Watershed, 
Education and Training Program bring students closer to science by 
providing them with the opportunity to learn firsthand about our 
world's marine resources. Through these grant programs, aquariums work 
closely with Federal, State, and local partners on projects with long-
lasting benefits not only for the students but their communities as 
well. For example, previous projects funded by NOAA Ocean Education 
Grants at AZA aquariums have focused on establishing a regional network 
of summer camp programs grounded in ocean science, enhancing teen 
conservation leadership programs, and conserving and managing coastal 
and marine resources to meet our Nation's economic, social and 
environmental needs. As schools face increased budgetary pressures, 
these types of education programs at aquariums will become even more 
important in ensuring that American schoolchildren receive the 
necessary foundation in science education that they will need to be 
competitive in the 21st century global economy.
    AZA-accredited zoos and aquariums are essential partners at the 
Federal, State, and local levels to improve education for 
schoolchildren and ensure that current and future generations will be 
good stewards of the world's oceans. Therefore, I urge you to include 
$4 million for the John H. Prescott Marine Mammal Rescue Assistance 
Grant Program, $8,000,000 for the NOAA Environmental Literacy Grants 
Program (including $2,500,000 for the NOAA Ocean Education Grants 
Program), and $12,000,000 for the Bay, Watershed, Education and 
Training Program in the fiscal year 2016 Commerce, Justice, Science, 
and Related Agencies appropriations bill.
    Thank you.
                                 ______
                                 
       Prepared Statement of the Consortium for Ocean Leadership
    On behalf of the Consortium for Ocean Leadership, I appreciate the 
opportunity to discuss the fiscal year 2016 Federal science budget for 
the National Science Foundation (NSF), the National Oceanic and 
Atmospheric Administration (NOAA) and the National Aeronautics and 
Space Administration (NASA). Ocean Leadership represents 89 of the 
Nation's leading oceanographic research and education institutions with 
the mission to shape the future of ocean sciences. We respectfully 
request the subcommittee provide no less than $7.72 billion for the 
NSF; $1.95 billion for Earth Sciences at NASA; and $6 billion for NOAA. 
These funds will help maintain U.S. global leadership in ocean science 
and technology, which is critical to American agriculture, energy 
development, a changing Arctic, ocean exploration and a healthy U.S. 
scientific workforce.
          ocean forecasts are critical to american agriculture
    The ocean drives global water and weather systems through the 
absorption, retention and transportation of vast amounts of the Earth's 
heat, water and carbon dioxide. Thanks to the longstanding bipartisan 
support of this subcommittee, our Nation has been well positioned to 
lead the world in innovation while also effectively and efficiently 
incorporating environmental data into marketplace. For example, the 
support of this committee enabled NOAA to better service the buoys 
comprising the TAO Array (Tropical Atmosphere Ocean project in the 
equatorial Pacific), which had degraded significantly and is critical 
for seasonal weather predictions.
    One of the most important influences on weather variation is 
derived from El Nino Southern Oscillation, or ENSO, which is a coupled 
atmosphere-ocean oscillation that impacts atmosphere and ocean 
circulation patterns across the equatorial Pacific. A rise in sea 
surface temperatures in the eastern tropical Pacific and an eastward 
shift in the convection in the western Pacific typically characterizes 
an El Nino event, which causes major seasonal temperature and 
precipitation changes around the world, including changes in rainfall 
over much of America's most productive croplands. Consequently, 
commodity strategists incorporate predictions of El Nino events into 
commodity prices months and in some cases up to a year in advance. Last 
year, experts predicted that there would up to an 80 percent chance of 
an El Nino occurring, which led to increased prices for commodities 
such as coffee and cocoa. Yet, while sea surface waters rose in the 
equatorial Pacific, the trade winds never materialized and El Nino 
didn't arrive as predicted. Consequently, the drought-stricken west 
didn't experience the higher rainfalls expected during El Nino events. 
Such information is vital not only for the agriculture industry but 
also the insurance industry, the energy sector, and national security 
as civil unrest can occur overseas when crops fail, fresh water is in 
short supply, or floods displace populations.
    ENSO isn't the only ocean-atmosphere factor in predicting weather. 
There are other natural variations, including the North Atlantic/Arctic 
Oscillation, which is related to the Polar Vortex and mainly influences 
the temperature and precipitation in the eastern half of the United 
States. The Pacific Decadal Oscillation interacts with ENSO to 
influence weather in the western United States. However, today's 
predictive models have not matured enough to forecast these 
oscillations nearly as well as we have been predicting ENSO. With the 
unrealized El Nino prediction of 2014, clearly we still have a ways to 
go in improving models on seasonal timescales, which is essential for 
agriculture and energy preparation as well as preparing for drought and 
flooding. While the TAO array has been very helpful for ENSO 
predictions, so much of the global ocean is not yet measured, 
especially the surface meteorology and air-sea fluxes. Satellite 
observations are essential as they give us a global view and are 
advancing with new salinity sensors and improved altimetry. Yet, we are 
faced with potential data gaps in our polar orbiting satellites that 
provide critical data for weather forecasts. To truly become a weather 
ready nation, we need sustained ocean observations, both from space as 
well as in situ, particularly at depth.
    marine robotics and ocean vehicles essential to u.s. technology 
                               leadership
    Investment in basic technology research for the geosciences has 
spurred the growth of marine robotics, which like the transition from 
sail to steam power, is ushering in a new chapter in ocean observation 
and monitoring. Autonomous underwater robotic systems open the door for 
routine and persistent access to the deep ocean, allowing the expansion 
of commercial activities that include offshore oil and gas exploration, 
undersea mining, aquaculture, and installation of marine wind and wave 
energy facilities and submarine communication cables. Thus far marine 
robotic systems have been tied to ships, but newer systems are able to 
operate independently, providing broader and more long-term access for 
baseline environmental assessments and observing and for equipment 
monitoring and maintenance, reducing shipping and permitting costs and 
greatly improving hazards response management. At one time, U.S. 
oceanographic institutions were among the few organizations in the 
world that could build and operate deep ROVs. Now these vehicles are 
used by the entire oceanographic community for a variety of uses 
including offshore energy production. Hydroid Inc., Teledyne Webb 
Research, and Bluefin Robotics are three highly successful job-creating 
companies that spun off from academic research laboratories (Woods Hole 
Oceanographic Institution and MIT). Together, these three companies 
dominate worldwide production of autonomous underwater vehicles, with 
deployed systems projected to grow by 42 percent over the next 4 years 
(Douglas-Westwood study).
    Researchers at Oregon State University are outfitting undersea 
gliders with acoustic sensors to identify biological ``hot spots'' in 
the coastal ocean. These new smart gliders will be able to identify 
different kinds of marine animals using their unique acoustical 
signatures, which will ultimately benefit the fishing industry and 
resource managers. The geosciences directorate at NSF needs to be a 
priority if it is going to continue to support the basic research 
required to develop the next generation vehicles and sensors in what is 
becoming a globally competitive marketplace.
             maintaining u.s. global posture in the arctic
    The United States is an Arctic nation, where significant economic, 
social and national security interests intersect. The Arctic harbors 
tremendous natural resources, thriving and productive ecosystems, and 
is increasingly becoming an international focus for expanded navigation 
and commerce. Yet, in many places, the seafloor is virtually uncharted 
and the water column is essentially unknown. We are already observing a 
rise in commercial activity in the Arctic in terms of shipping, fishing 
and oil and gas exploration, which could eventually lead to boundary 
disputes among nations or accidents that require search and rescue or 
oil spill response. Put simply, the United States is not yet prepared 
to respond to an accident or serious incident in the Arctic. And it's 
not just the cargo ships that are traversing the Arctic, as there are 
also marine species that are making their way between the Pacific and 
Atlantic for the first time in millennia, which may have negative 
ecological implications as invasive species. Because of its high 
latitude, effects of a rapidly changing climate are amplified. Climate 
projections for the Arctic region depend on knowing the state and 
circulation of the Arctic Ocean, yet ocean-ice interactions are poorly 
understood. Furthermore, the Arctic basin is insufficiently mapped and 
instrumented for real-time observations, and there is a need for 
improved integration of observations into models to produce reliable 
projections.
    As ice cover decreases in this part of the world, ocean warming 
will accelerate because ice reflects 90 percent of solar radiation and 
the oceans absorb 90 percent. The result will be an increase in sea 
level, release of methane gasses that could further contribute to 
climate change, and an increase in extreme weather events in lower 
latitudes. But with great change comes great opportunity. As the United 
States assumes chairmanship of the Arctic Council, our Nation stands at 
a pivotal moment with the opportunity to proactively manage, protect 
and use this unique ecosystem proactively. Consequently, Ocean 
Leadership recently convened a forum to discuss the state of current 
knowledge, and how we can achieve the capacity to more accurately 
predict these changes. It is critical for operators in the Arctic and 
for U.S. diplomatic leadership that our science agencies, including 
NSF, NOAA and NASA, have the resources to develop and deploy the 
technologies we need to observe, monitor and understand this pivotal 
region.
              ocean exploration is america's next frontier
    The ocean is the predominant physical feature on our planet, 
covering 71 percent of the Earth's surface, containing 97 percent of 
the planet's water and 99 percent of the Earth's habitat. Despite the 
fact that most life on Earth lives in the ocean, 95 percent of the 
ocean remains unexplored. The estimated 91 percent of the sea-life that 
remains undiscovered may prove vital to human health and well-being 
through the development of pharmaceuticals and medicinals. For 
instance, biologist Stanley Watson from Woods Hole Oceanographic 
Institution conducted fundamental research on bacteria's role in the 
marine food web in the 1970's. This work resulted in a patent for the 
detection of bacteria in seawater, using an extract from the blood of 
horseshoe crabs, which spun off into a company that was the first 
licensed by the FDA to detect the presence of different kinds of human 
disease causing bacteria. Today, more than a half a million crabs are 
captured each year to ``donate'' about 30 percent of their blood 
(valued at $60,000 per gallon) for a global industry valued at $50 
million a year that ensures the sterility of vaccines, IV fluids, 
surgical instruments, artificial implants, and countless other drugs 
and medical devices. It is important for NOAA to have a robust ocean 
exploration endeavor and for NSF and NASA to continue funding basic 
research in this area that may form the building block for the next 
generation of cures for human ailments.
             educating the next generation of geoscientists
    The geosciences support from NSF, in addition to the STEM education 
programs at the mission agencies, is essential for training the next 
generation of geoscientists. The Workforce Research team at the 
American Geosciences Institute calculated that there will be a shortage 
of 135,000 geoscientists in the U.S. workforce over the next decade. We 
can ill afford to have a shortage of these workers that are vital for 
the energy and weather forecasting industries as well as natural 
resource managers, land use planners and first responders. Diversity 
continues to be a challenge for the scientific community as we need to 
develop a workforce whose composition better resembles the broader 
population. We greatly appreciate the support this subcommittee has 
given to STEM education programs at NSF, NOAA and NASA, and encourage 
this support to extend into the geoscience directorate at NSF, which 
aids the development of thousands of early career geoscientists.
    As you draft your spending bill, I hope that you will note that the 
bulk of the intellectual capacity regarding the ocean environment 
resides within the academic research community. Peer-reviewed 
extramural research is the most efficient and effective vehicle for 
providing our policy makers and our commercial partners with the 
expertise, information and data necessary to address the emerging 
challenges facing our Nation. We also hope that you will continue to 
permit science priorities and decisions to be made by the scientific 
community, which has enabled America's innovation economy to thrive for 
decades. Given the austere fiscal environment, we are prepared to work 
with the Foundation to help ensure that there is robust core research 
at a time when new facilities are coming online.
    In summary, the funding we have recommended is essential for 
American agriculture and energy security, U.S. technology leadership, 
our global posture in the Arctic, ocean observing and exploration, and 
the next generation of American scientific talent.
    Mr. Chairman and members of the subcommittee, I greatly appreciate 
the opportunity to share our recommendations, and I encourage you to 
continue your long-standing bipartisan support for science funding in 
the fiscal year 2016 budget and into the future.
    Below is a list of the institutions that are represented by the 
Consortium for Ocean Leadership.

      Alabama

Dauphin Island Sea Lab

      Alaska

University of Alaska Fairbanks
Alaska Ocean Observing System
North Pacific Research Board

      California

Bodega Marine Lab
Monterey Bay Aquarium Research Institute
Moss Landing Marine Laboratory
Naval Postgraduate School
Stanford University
University of California, Santa Barbara
University of California, Santa Cruz
University of California, San Diego (Scripps)
University of Southern California
Aquarium of the Pacific
Hubbs-SeaWorld Research Institute
Romberg Tiburon Center for Environmental Studies
Esri
L-3 MariPro, Inc.
Liquid Robotics, Inc.
Teledyne RD Instruments

      Colorado

Cooperative Institute for Research in Environmental Sciences (CIRES)

      Connecticut

University of Connecticut

      Delaware

University of Delaware
Mid-Atlantic Regional Association Coastal Ocean Observing System 
(MARACOOS)

      Florida

Florida State University
Harbor Branch Oceanographic Institute at FAU
Mote Marine Laboratory
University of Florida
University of Miami
University of South Florida
Earth2Ocean, Inc.
Florida Institute of Oceanography
Nova Southeastern University

      Georgia

Skidaway Institute of Oceanography of the University of Georgia
Savannah State University

      Hawaii

University of Hawaii

      Illinois

John G. Shedd Aquarium

      Louisiana

Louisiana Universities Marine Consortium (LUMCON)
Louisiana State University

      Maine

Bigelow Laboratory for Ocean Sciences
University of Maine
The IOOS Association (formerly NFRA)

      Maryland

University of Maryland Center for Environmental Science
Johns Hopkins University
Marine Technology Society
National Aquarium

      Massachusetts

Massachusetts Institute of Technology
University of Massachusetts
Woods Hole Oceanographic Institution

      Michigan

University of Michigan

      Mississippi

University of Mississippi
University of Southern Mississippi

      Nebraska

University of Nebraska, Lincoln

      New Hampshire

University of New Hampshire

      New Jersey

Rutgers University

      New York

Columbia University (LDEO)
Stony Brook University

      North Carolina

Duke University Marine Laboratory
University of North Carolina, Chapel Hill
University of North Carolina, Wilmington
East Carolina University
North Carolina State University

      Oregon

Oregon State University

      Pennsylvania

Pennsylvania State University

      Rhode Island

University of Rhode Island

      South Carolina

Belle W. Baruch Institute for Marine and Coastal Sciences
South Carolina Sea Grant Consortium

      Texas

Harte Research Institute
Texas A&M University
University of Texas, Austin
Fugro
Sonardyne, Inc.

      Virginia

College of William and Mary (VIMS)
Old Dominion University
CNA
Institute for Global Environmental Strategies (IGES)
U.S. Arctic Research Commission
CARIS, USA
SAIC

      Washington

University of Washington
Sea-Bird Scientific

      Washington, DC

National Ocean Industries Association (NOIA)
Southeastern Universities Research Association (SURA)

      Wisconsin

University of Wisconsin-Milwaukee, School of Freshwater Sciences

      Australia

Institute for Marine and Antarctic Studies (IMAS) at the University of 
Tasmania

      Bermuda

Bermuda Institute of Ocean Sciences (BIOS)

      Canada

Dalhousie University
University of Victoria
                      
                                 ______
                                 
          Prepared Statement of the Fish Locally Collaborative
            national oceanic and atmospheric administration
                   national marine fisheries service
    Members and supporters of the Fish Locally Collaborative appreciate 
the opportunity to submit comments on the proposed fiscal year 2016 
budget for the National Marine Fisheries Service. The Fish Locally 
Collaborative (FLC) is a network of fishing communities, including 
fishers, processors, marketers, families, scientists, and seafood 
consumers, with over 400 individuals representing 60 organizations and 
networks, and over 400,000 fishing families spanning the globe. The FLC 
does not speak as a unified voice on all matters, but rather seeks to 
collaborate, research, and learn from each other in developing new 
solutions and policy directives in sustainable fisheries.
                      flc values and perspectives
    The FLC is committed to restoration of marine ecosystems, fishing 
communities, and a fair seafood value chain. The network values a 
genuine democratic and bottom-up approach to fisheries management, 
which is needed to achieve healthier ecosystems and ensure a diverse 
fleet that maximizes value to fishing communities, local economies, and 
the food system. Success will be achieved when appropriate management 
tools are made available, fishermen's local knowledge is accounted for 
in the decision-making process, and the scale of fishing matches the 
scales of the ecosystems.
    The fishing industry includes ports, fleets, processors, fish 
workers, and people who eat seafood. Our Nation benefits from strong 
coastal communities (both rural and urban) and measuring a fisherman's 
impact needs to include the triple bottom line with an increased focus 
on community (social) values and benefits. Large-scale corporate 
interest and control over access to fisheries hurts marine ecosystems, 
hurts local economies, hurts the seafood value chain, and divides 
fishing communities.
    The Magnuson Stevens Fisheries Conservation and Management Act 
establishes goals and describes national benefits in terms of fish 
stocks, habitat protection, port economies, and seafood, but current 
management has focused primarily on fishing and its impact on habitat, 
to the relative exclusion of community benefits and healthy seafood.
    While cutbacks in allowable catch driven by 10-year rebuilding 
plans have received the greatest attention as the cause of economic 
distress in the fishing fleets and ports, the current management system 
has exacerbated these difficulties greatly, particularly for community-
based and family-owned boat fishermen, through such mechanisms as: 
stock assessments unable to deliver reliable predictions and management 
alternatives; failure to assess non-fishing impacts, such as climate 
change, pollution, and ecosystem dynamics; collapsing prices due to 
cheap foreign imports, high-volume extractive fisheries, and weak 
domestic markets for local seafood; inflexibility in shifting effort of 
the fleet to other species; regulations that fail to protect the 
discrete, local fish populations that are so important to community-
based and family-owned boats; pressure from real estate development in 
working waterfronts; and high fuel and other costs of fishing.
                            work of the flc
    FLC members are active in researching and creating new models and 
practices to address a range of needs and opportunities, including: 
protection of fleet diversity, multi-species harvesting and community-
based management approaches; local food system development, such as 
expanding markets for hospitals, schools, colleges; creating the 
Community Supported Fishery (CSF) model and replicating it widely; 
working waterfront protection; value-added product development and 
waste recovery; ocean planning and decisionmaking. We also reach out to 
and are informed by experts and practitioners in the farming sector and 
other related fields of institutional, market, financial, and 
technology innovation and reform.
         comments on the proposed fiscal year 2016 nmfs budget
    It is from this foundation of values, perspectives, and capacity 
that FLC members and supporters offer specific comments on the proposed 
fiscal year 2016 NMFS budget.
I. Habitat and Ecosystem-Based Management
    A. The FLC offers support for the proposed $5.0 million increase in 
funding for Ecosystem-based Solutions for Fisheries Management, in 
particular the language in the Blue Book suggesting that ``this 
integrated, cross-disciplinary, and cross-line office scientific 
initiative will promote understanding of the importance of inshore and 
offshore habitat to the productivity and recovery of fisheries and 
protected species.''
    The FLC supports this initiative because it can begin to address 
non-fishing impacts more adequately, in particular the relationship of 
healthy ocean habitat to healthy fish stocks. Current fisheries 
management is obligated to manage healthy fish stocks and yet they are 
not required to address non-fishing impacts such as climate change, 
pollution, deforestation, mining, and oil and gas exploration, which 
all have enormous effects on fish population. The narrow approach and 
micro-focus on controlling fishing pressure in order to maintain 
healthier fish populations places a disproportionate level of blame and 
responsibility on fishing businesses and deflects responsibility from 
large-scale polluters, in particular.

    B. The FLC opposes $5.7 million in increased funding for 
Consultation and Essential Fish Habitat Implementation Capacity, that 
is intended ``to reduce delays and streamline permitting and review 
timeframes''. FLC members are well aware that proposals are fast-
emerging for sand mining, oil and gas drilling, offshore aquaculture, 
and other extractive industries, all of which would threaten to damage 
fish stocks, marine mammals, habitat, and ocean health more generally. 
Ocean planning efforts have only just begun in the regions, and it is 
already clear that the research and knowledge base for properly 
assessing permit applications is not available. ``Zoning'' and 
privatized, long-term leasing of the ocean are also not yet justified 
as consistent with adaptive, ecosystem-based management principles that 
NOAA itself espouses.
    The ocean is a dynamic and integrated ecosystem, just beginning to 
experience the impacts of climate change and acidification. The 
precautionary principle--that when there is scientific uncertainty, a 
heavy burden of proof rests on the industry--should be the guiding 
framework at this time. Consultation on permitting should be delayed 
until a significantly stronger framework for adaptive, ecosystem and 
community-based management is developed that protects and enhances the 
public trust in the ocean is developed. We therefore recommend that 
permitting activities be undertaken cautiously until additional studies 
are completed and more stringent standards, including for habitat 
protection, are formulated.

    C. NMFS has also requested $2.0 million in additional funds to 
support Domestic Seafood Production and Jobs through Aquaculture. FLC 
members generally support expanded shellfish aquaculture, in particular 
oyster reef restoration that provides multiple benefits in restoring 
ocean health and providing jobs and food, but would oppose an 
accelerated permitting of offshore finfish aquaculture, with its 
history of pollution and relatively unsafe product. FLC members oppose 
long-term leases that would be tantamount to privatization of the 
ocean. Any funding made available to the Agency should be directed to 
further research and pilot projects, including for the potential for 
polytrophic, multi-species and clean initiatives that both supply 
healthy seafood and restore habitat.
II. Catch Share Programs and Community Resilience
    The NMFS budget proposal includes a $2.2 million increase in 
funding for the National Catch Share Program, with a justification that 
``the implementation of catch share programs can yield efficiencies 
that lower fisheries management costs and increase the profitability of 
fisheries over time.'' The NOAA budget also includes funding for a $50 
million Regional Coastal Resilience grants program, to develop 
community, ecosystem, and economic resilience.
    FLC members and supporters strenuously object to these goals for 
Catch Share management, in particular profit maximization, and 
respectfully suggest that they are in direct conflict and contradiction 
with NOAA's overarching mission to support and develop community 
resilience.
    On-the-ground experience and recent academic literature both 
demonstrate that Catch Share programs are consolidating fisheries 
access into fewer and larger-scale businesses to the exclusion of 
owner-operator, younger generation, and independent fishermen and to 
the detriment of crew. This consolidation creates a disproportionate 
loss of fisheries access to rural communities, loss of capacity and 
infrastructure in fishing ports, negative ecological impacts, and loss 
of food access.
    We therefore suggest that funding under the Catch Share program be 
utilized, in partnership with fishing communities and stakeholders, to 
research the full suite of economic, environmental and social costs 
imposed on communities and consumers of seafood by the single-minded 
focus on profit maximization and to explore and develop mechanisms for 
modifying or ending Catch Shares where they have not worked as 
predicted, and to develop criteria and standards for ``Fishing 
Community'' and ``Regional Fishery Associations'', fishing community 
sustainability plans, and fleet diversity protections.
III. Collaborative Research
    For 2 years, the Senate Appropriations Report has encouraged NMFS 
to ``expand the Agency's activities in chartering commercial fishing 
vessels to serve as research and fishery survey vessels.'' While NMFS 
and NOAA leadership have indicated their support for collaborative 
research, little has been done to expand partnerships to date.
    It has come to our attention that there are several impediments to 
collaborative research that the subcommittee could address. NOAA has 
directed in recent years that all collaborative research projects 
involving the fishing industry and academic institutions be managed 
through a competitive grants program and short-term awards. The FLC 
recommends, based on conversations with both current and former NMFS 
Science staff and outside researchers, that the subcommittee encourage 
the development of cooperative agreements on a multi-year basis, as 
other Federal agencies do. Only cooperative agreements will allow for a 
genuine partnership to emerge and for all parties to co-draft research 
plans that incorporate requirements and insights from all parties, 
including NMFS.
    FLC members strongly recommend that an emergency action be take to 
coordinate a fisheries dependent and independent data collection effort 
as input to more reliable stock assessments, in cases, such as cod in 
the Northwest Atlantic, where data is sparse and current management 
cutbacks on allowable quota are causing severe economic and social 
distress in the fishing industry and port communities.
IV. Saltonstall-Kennedy Funding
    FLC members support continued increases in funding for the 
Saltonstall-Kennedy grants program for research and development in 
harvesting, processing, and marketing. In particular, we encourage 
projects to develop a strong local seafood system, community-based and 
multi-species fisheries management innovations that diversify catch and 
develop markets for under-utilized species, value-added and waste 
recovery product development, shellfish and polytrophic aquaculture 
pilot projects, boat designs that increase fuel-efficiency and promote 
safety and use of sustainable technology, and programs to increase 
access of independent-operator and young entrants.
    These comments were based on two prior policy-related letters 
signed by numerous Fish Locally Collaborative members and supporters 
throughout the country. The first was a letter on Magnuson-Stevens 
reauthorization submitted to Congressmen John Tierney and Peter DeFazio 
on August 13, 2014; the second a public comment letter submitted to the 
Greater Atlantic Regional Fisheries Office re the GARFO Draft Strategic 
Plan.

    Links to these letters and signatories can be found at:

    Congressmen Tierney and DeFazio:
        https://drive.google.com/file/d/0BwT-fcX3Ff5VTVVlTDBQYW1ZWE0/
        view?usp=sharing.

    GARFO letter:
        https://drive.google.com/file/d/0BwT-fcX3Ff5VYjBnN2laUXd5ZTA/
        view?usp=sharing.

    Signatories include fishermen, academics, seafood business owners, 
seafood consumers, and advocates from both East and West Coast States 
and organizational supporters include the American Sustainable Business 
Council, Slow Food USA, Health Care Without Harm, and others.

    [This statement was submitted by Valerie I. Nelson, Ph.D., Policy 
Transformation Working Group Organizer-FLC.]
                                 ______
                                 
      Prepared Statement of the Joint Ocean Commission Initiative
    Chairman Shelby, Ranking Member Mikulski, and other distinguished 
Members of the Subcommittee on Commerce, Justice, Science, and Related 
Agencies, we thank you for the opportunity to submit written testimony 
regarding the fiscal year 2016 Commerce, Justice, Science, and Related 
Agencies appropriations bill. The Joint Ocean Commission Initiative is 
a collaborative, bipartisan effort to catalyze meaningful ocean policy 
reform and action at the national, regional, and State levels. 
Established in 2005, the Joint Initiative promotes, maintains, and 
updates the important work of the U.S. Commission on Ocean Policy and 
the Pew Oceans Commission. Our 2013 report, Charting the Course: 
Securing the Future of America's Oceans, contains recommendations to 
improve the management of our ocean resources that are echoed here.
    The Joint Initiative is highly appreciative of the progress your 
subcommittee has made in providing incremental but substantive 
additional resources to critical ocean and coastal accounts. We are 
acutely aware of the challenges you face addressing the funding needs 
of all the programs within the jurisdiction of your subcommittee. The 
Joint Initiative believes a continued commitment to protecting base 
funding and core programs at the National Oceanic and Atmospheric 
Administration (NOAA), National Science Foundation (NSF), and National 
Aeronautics and Space Administration (NASA) that help manage, protect, 
and better understand our Nation's oceans and coasts and the Arctic is 
an investment in the future of our country that will provide 
significant economic, social, ecological, and national security 
benefits. Among the many ocean and coastal programs under your 
jurisdiction, we urge that maintaining and increasing investment in the 
following programs be prioritized in fiscal year 2016 appropriations.
                           coastal resilience
    The Joint Initiative strongly supports increasing NOAA's overall 
budget to $6 billion, and in doing so maintaining the recent trend 
toward balancing NOAA's portfolio to emphasize ocean and coastal 
priorities. For example NOAA's National Ocean Service (NOS) would be 
increased in NOAA's fiscal year 2016 budget by nearly $60 million to 
$574 million. Specifically, within NOS, we ask you to consider funding 
the Regional Coastal Resilience Grant program consistent with NOAA's 
fiscal year 2016 budget request at $50 million, a $45 million increase 
from the fiscal year 2015 proposal. An important element of this 
program is its ability to provide competitive funding to support multi-
State regional ocean partnerships that coordinate data sharing and 
decisionmaking across jurisdictions, implement innovative solutions to 
shared priorities, and effectively engage ocean and coastal 
stakeholders.
    These partnerships are increasingly critical as States and 
communities confront challenges such as ocean acidification, sea level 
rise, competing demands for ocean resources, burgeoning populations 
along our coasts, and increasing threats from extreme weather events. 
Resilient coastal communities are not only able to minimize loss and 
negative impacts to life, property, and the coastal ecosystem, they are 
also able to quickly return residents to productive activities and 
restore essential services. This is imperative to facilitating full and 
timely economic, social, and environmental recovery. Fully funding this 
program will enable NOAA and its partners to address a suite of 
challenges, including a more efficient application of limited resources 
to ensure the health of our oceans and coasts.
                          ocean acidification
    The Joint Initiative believes the inclusion of $30 million in the 
NOAA budget for the Integrated Ocean Acidification program is essential 
to help us begin to address the chemistry, variability, and impact of 
acidification on the marine environment. Ocean acidification is a 
global problem needing global solutions, and it is occurring along 
every shoreline in the United States. While shellfish and coral reefs 
receive most of the attention related to ocean acidification, 
fisheries, aquaculture, and coastal ecosystems and economies around the 
Nation will be greatly affected. Funding the Integrated Ocean 
Acidification program at NOAA at increased levels will allow us to 
measure and assess the emerging threat of ocean acidification, better 
understand the complex dynamics causing and exacerbating it, work to 
determine its impact, and develop mechanisms to address it.
                                 arctic
    The Joint Initiative recommends that Congress make a significant 
investment through the fiscal year 2016 appropriations bill toward 
implementation of the National Strategy for the Arctic Region. This 
will support the United States chairmanship of the Arctic Council over 
the next 2 years, and lay the groundwork for sound international 
management of the region while protecting a sensitive and rapidly 
changing ecosystem. Increased funding for Federal agencies operating in 
the Arctic, such as NOAA and NSF, is essential to our international 
leadership in the region and will enable cross-cutting efficiencies 
with the Coast Guard, the Navy, and the Department of the Interior.
    The Joint Initiative is convening an Arctic Ocean Leadership 
Roundtable with U.S. Arctic leaders and key stakeholders from multiple 
sectors to generate ideas for how local, State, and regional work can 
inform and influence national policy with regard to Arctic ocean and 
coastal issues. Many of the ideas generated in this forum can be 
implemented with increased investment in the Arctic. Such investment 
can also encourage better collaboration with State and local 
governments, Alaskan Native leaders, and industry to improve the 
ability of commercial entities to operate safely in the region and 
ensure effective response and recovery in the event of a natural or 
human-caused disaster. This includes improving coordination and data-
sharing on oil spill planning, preparedness, and response, vessel 
tracking, and search-and-rescue, as well as investment in new 
icebreakers, aircraft, and shore-based infrastructure. Additionally, 
funding Arctic-related programs at NOAA enables a range of important 
services essential to our understanding of the Arctic including ocean 
observation services, weather and sea ice predictions, mapping and 
charting, and sound management of marine resources.
                      sustained ocean observations
    We are strongly supportive of enhanced capabilities for NOAA's 
Office of Oceanic and Atmospheric Research (OAR), the Integrated Ocean 
Observing System, and similar programs at NSF. Specifically we ask you 
to consider funding OAR at $500 million to support the continued and 
enhanced operations of this vital program. This funding is central to 
NOAA's ability to accurately forecast weather, enable communities to 
plan for and respond to climate events such as flooding and drought, 
and protect and manage the Nation's coastal and ocean resources.
    Funding NOAA's Sustained Ocean Observations and Monitoring program 
under this account at $42 million will provide information essential 
for accurate forecasting of hurricanes, typhoons, flooding, heat waves, 
and wildfires. For example, data and analyses of ocean and atmospheric 
conditions are increasingly used for drought early warning systems, 
enhanced tsunami warning systems, and storm surge monitoring. Ocean 
observations are also imperative for calibrating and validating 
satellite observations. Maintaining baseline ocean observations in 
support of weather and regional predictions, fisheries management 
ecosystem studies, tide and current monitoring, and sea level change is 
essential. Sustained ocean observations will help maintain the 
continuity of long-term data sets that are essential for ensuring that 
communities are able to respond and adapt to a rapidly changing world, 
both today and into the future.
                         sustainable fisheries
    In 2006 Congress made the bold decision to end overfishing once and 
for all by amending the Magnuson Stevens Fisheries Conservation and 
Management Act to require annual catch limits and associated 
accountability measures to be implemented for all federally managed 
fisheries. Through the commitment and tireless efforts of our 
fishermen, fishery management councils, scientists and managers, the 
U.S. is poised to achieve this historic milestone in natural resource 
management. With the investment in stock assessments, cooperative 
research and innovation, and science-based management, the U.S. model 
of fisheries management has become an international hallmark for 
addressing the ecological and economic sustainability challenges facing 
global fisheries. The Joint Initiative supports domestic and 
international efforts to fully implement the recommendations in the 
Presidential Task Force on Combating IUU Fishing and Seafood Fraud, 
along with similar efforts for enhanced enforcement like the Trans-
Pacific Partnership. The end of chronic overfishing means healthier 
ocean ecosystems and a brighter future for fishermen and coastal 
communities. The Joint Initiative asks the subcommittee to consider 
restoring funding for NOAA's National Marine Fisheries Service (NMFS) 
at the requested level of $990 million, allowing it to continue 
movement towards sustainable management of fish stocks within the U.S. 
Exclusive Economic Zone.
                           ocean exploration
    The Joint Initiative appreciates the subcommittee's long standing 
support of ocean exploration at NOAA and requests that you provide $28 
million for the Ocean Exploration program, consistent with funding in 
fiscal year 2015, to increase the pace, scope, and efficiency of 
exploration. This would be $9 million above the NOAA budget request for 
fiscal year 2016. A bipartisan effort since inception, the Ocean 
Exploration program was strongly endorsed by Congress when created in 
2002. The program has greatly contributed to our knowledge of the 
ocean, producing Arctic surveys which enabled the U.S. to argue for an 
extension of our own Exclusive Economic Zone; baseline characterization 
of the Deepwater Horizon site in the Gulf before and after the oil 
spill; discovery of new gas hydrates stretching from Cape Cod to Cape 
Hatteras, with implications for coastal hazards and ocean 
acidification; and new fishery habitat maps off the Northeast.
                    science, research, and education
    The Joint Initiative calls attention to the need for consistent and 
dedicated funding for ocean science, research, and education. We ask 
you to increase funding for ocean science infrastructure, research, and 
grant programs at NOAA, NSF, and NASA that are working to improve our 
understanding of critical physical and biological ocean processes. 
These programs provide local, State, and national decision makers with 
the information they need to make informed decisions. The Joint 
Initiative also urges you to fund education programs at increased 
levels. Ocean education efforts are critical for cultivating current 
and future ocean stewards, especially given the growth in careers that 
require ocean-related education and knowledge.
    In particular, we encourage you to provide $7.7 billion for the 
NSF, including $1.365 billion for the Geosciences Directorate and its 
Division of Ocean Science. NSF's investment in the geosciences has 
spurred innovations, addressed important national and global 
challenges, spurred new economic sectors, and led to the development 
and implementation of advanced technologies that save lives, protect 
property, and support our economy. For example, investments supporting 
basic research in mathematics, physical sciences, computer sciences, 
and geosciences, have led to the development of sophisticated models, 
satellites, radar, and instrumentation that has greatly improved 
hurricane forecasting, now allowing for nearly a week of preparations 
by cities, businesses, institutions, and undoubtedly saving lives.
    We also urge $1.95 billion in funding for the NASA's Earth Science 
Division, up from $1.77 billion in fiscal year 2015 to support 
critically important ocean and coastal science and education. NASA 
satellites can view Earth as a planet and enable the study of it as a 
complex, dynamic system of diverse components: the oceans, atmosphere, 
continents, ice sheets, and life. Through partnerships with agencies 
that maintain forecasting and decision support systems, NASA improves 
national capabilities to predict climate, weather, and natural hazards; 
manage resources; and support the development of environmental policy.
                           concluding remarks
    The Joint Initiative greatly appreciates your commitment to 
stretching scarce resources to address the challenges of a maritime 
nation. We will continue to track progress in advancing key ocean and 
coastal programs and accounts in fiscal year 2016 and beyond. 
Recommendations from ``Charting the Course'' and other reports from the 
Joint Initiative identify specific areas of achievement and deficiency. 
Implementation of the recommendations will secure the future of our 
Nation's ocean ecosystems, and the critical resources they provide, and 
ensure that they will be abundant and able to support America's ocean, 
coastal, and Great Lakes economies and the jobs and communities on 
which our Nation depends.
    Thank you for considering our requests as the subcommittee begins 
it fiscal year 2016 appropriations process. The Joint Initiative 
appreciates your attention to this matter and stands ready to assist 
you in advancing positive and lasting changes in the way we manage our 
Nation's oceans and coasts.

       Joint Initiative Co-Chairs and Leadership Council Members

The Honorable William Ruckelshaus <rm-bond> The Honorable Norman Mineta

    Frances Beinecke <rm-bond> Don Boesch <rm-bond> Lillian Borrone 
                   <rm-bond> The Honorable Norm Dicks

  Quenton Dokken <rm-bond> Vice Admiral Paul Gaffney <rm-bond> Robert 
                   Gagosian <rm-bond> Sherri Goodman

   Scott Gudes <rm-bond> The Honorable Conrad Lautenbacher <rm-bond> 
                            Margaret Leinen

Christopher Lischewski <rm-bond> The Honorable Jane Lubchenco <rm-bond> 
                             Julie Packard

          The Honorable Leon Panetta <rm-bond> John Pappalardo

          The Honorable Pietro Parravano <rm-bond> Diane Regas

    Randy Repass <rm-bond> Andrew Rosenberg <rm-bond> The Honorable 
                         Christine Todd Whitman

                                 ______
                                 
 Prepared Statement of the National Association of Marine Laboratories
    The National Association of Marine Laboratories (NAML) is pleased 
to submit testimony to the subcommittee with a series of 
recommendations that we believe would strengthen the Nation's research 
and education enterprise. NAML is a nonprofit organization representing 
the ocean, coastal and Great Lakes interests of member laboratories 
that employ thousands of scientists, engineers and professionals 
nationwide. NAML labs conduct high quality research and education in 
the natural and social sciences and translate that science to improve 
decisionmaking on important issues facing our country. NAML's 
priorities are drawn from and strongly support two important reports 
from the National Academy of Sciences. They are: Sea Change: 2015-2025 
Decadal Survey of Ocean Sciences (DSOS); and Enhancing the Value and 
Sustainability of Field Stations and Marine Laboratories in the 21st 
Century. Specific priorities germane to NAML labs are:
  --Enhance science, education and public engagement at marine labs by 
        supporting the continued development of their unique assets and 
        qualities that allow them to prepare the next generation of 
        scientists, expand opportunities for active learning and 
        collaborative research, and explore a wide range of approaches 
        to engage the public. This includes strong sustained support 
        for competitive merit-based ocean, coastal, and Great Lakes 
        research provided by relevant Federal agencies to address the 
        research priorities identified in DSOS;
  --Promote a network for discovery and innovation via Federal and non-
        Federal support to build and maintain a modern infrastructure 
        for research, education, and networking including advanced 
        Internet connectivity and cyber infrastructure;
  --Pursue financial sustainability by developing business plans that 
        foster the unique value of marine labs, creating mechanisms to 
        establish reliable based funding, and diversifying approaches 
        to obtain supplemental support--such as a national partnership 
        program to co-locate Federal scientists and infrastructure at 
        NAML facilities; and
  --Develop metrics for demonstrating the impact of marine labs in 
        research, education, and public engagement.
the role of marine laboratories in the nation's research and education 
                               enterprise
    ``Field stations are national assets formed by the unique merger of 
natural capital, intellectual capital, social fabric, and 
infrastructure that leads to the important scientific endeavors 
required if we are to understand our rapidly changing natural world''. 
Enhancing the Value and Sustainability of Field Stations and Marine 
Laboratories in the 21st Century.
    Ocean, coastal and Great Lakes marine laboratories are vital, 
place-based ``windows on the sea.'' They connect communities with 
cutting edge science, while providing students and citizens with 
meaningful learning experiences. The members of NAML work together to 
improve the quality and relevance of ocean, coastal and Great Lakes 
research, education and outreach. NAML seeks support for the following 
activities:
  --The conduct of basic and applied research of the highest quality, 
        making use of the unique capabilities of coastal laboratories 
        in conducting education, outreach and public service;
  --Balanced support of research with infrastructure with particular 
        emphasis on cost-effective networking of capabilities;
  --Encouragement of effective management and conservation of marine 
        and coastal habitats and resources using ecosystem-based 
        management approaches that restore ecosystem health;
  --Observing systems that collect data needed to improve predictions 
        of natural and human caused disasters and support the 
        management of marine resources for the benefit of environmental 
        and human health needs; and
  --Education and training.
 oceans, coasts and great lakes are vital for economic growth and the 
                        well-being of the nation
    More than half of the United States population lives in coastal 
counties that generate 58 percent ($8.3 trillion) of the Nation's gross 
domestic product (GPD). In 2011, Americans, on average, ate 15 pounds 
of fish and shellfish per person--4.7 billion pounds all together--
making the U.S. second in the world in total seafood consumption. 
Offshore oil production in the U. S. Exclusive Economic Zone accounts 
for 24 percent of the total U.S. crude oil production. If American 
coastal watershed counties collectively comprised a single country, 
that country would have a GDP higher than that of China. The United 
States has jurisdiction over 3.4 million square miles of oceans--an 
expanse greater than the land area of all 50 States combined. This is a 
dynamic area that offers a mosaic of biologically diverse habitats that 
provide a wealth of environmental resources and economic opportunities, 
while at the same exposing human and biological communities to hazards 
such as damaging tsunamis and hurricanes, industrial accidents and 
outbreaks of water borne pathogens. The 2010 Gulf of Mexico Deepwater 
Horizon oil spill and Sandy in 2012 are vivid reminders that the depth 
of our understanding of our oceans and coastal areas, and our ability 
to protect them, is far from complete. Developing sufficient 
capabilities to sustain ocean-based economies and protect our coasts 
and coastal communities from natural and man-made hazards requires a 
sustained, balanced investment in research, infrastructure, education, 
and training.
    The Great Lakes region boasts a massive geographic footprint, and 
is a major driver of the North American economy. With economic output 
of $4.7 trillion in 2011, the region accounts for 28 percent of 
combined Canadian and U.S. economic activity. By comparison, the 
region's output ranks ahead of Germany, France, Brazil and the U.K., 
and it would rank as the fourth largest economy in the world if it were 
a country, behind only the U.S., China and Japan. The Great Lakes are 
responsible for nearly 1 million manufacturing jobs; 217,000 jobs in 
tourism and recreation; over 100,000 in shipping; over 110,000 in 
agriculture, fishing and food production and about 10,000 related to 
mining. Understanding the complexity of the Great Lakes is vital for 
the future health and well being of this region of the country.
                         investing in research
    NAML believes America is driven by innovation--advances in ideas, 
products and processes that transform existing economies, create new 
industries and jobs, and contribute to our Nation's ecological and 
economic health and security. It is essential that the Nation reaffirms 
and revitalizes the unique partnership that has existed between the 
Federal Government, the States, business and the Nation's research and 
education enterprise. Investing in the Nation's research enterprise has 
contributed significantly to our long-term prosperity and technological 
pre-eminence through research spanning a landscape of disciplines, from 
physics to geology, chemistry to biology, engineering to social 
sciences, and observing to modeling. NAML believes that research and 
education programs at the major Federal science agencies with ocean and 
coastal responsibilities should be viewed as priority investments in 
the future health and well being of the Nation. Much attention has been 
focused justifiably on the need for our Nation to continue its support 
of premier basic research programs. It is also important to maintain 
strong support for mission-oriented ocean, coastal and Great Lakes 
research that includes long term observing programs. Research programs 
that enhance agency missions and support the extramural community in 
competitive, merit-based research provide highly cost-effective returns 
on investment and distribute economic and societal benefits over a 
broad array of communities. Further, NAML believes that developing 
exchange programs between Federal agencies and marine laboratories will 
further strengthen the communication and capacity of both for the 
benefit of the ocean science and management enterprise.
    Programs that support the extramural community via competitive, 
merit-based research provide highly cost-effective returns on 
investment, leverage additional resources to meet science and 
management priorities, and distribute economic and societal benefits 
over a broad array of communities. While the National Oceanic and 
Atmospheric Administration (NOAA) has acknowledged his assertion on 
many occasions, its extramural support for its partners has continued 
to decline relative to the agency's bottom line. From background 
information developed for the NOAA Science Advisory Board's R&D 
Portfolio Review Task Force support by the Office of Oceanic and 
Atmospheric Research (OAR) for extramural R&D has declined by $60 
million since 2005--from $171.6 million to $107.1 million while the 
percentage of OAR's research activities to support extramural programs 
has dropped from just over 50 percent down to 34 percent of the total. 
In the National Ocean Service (NOS), support for extramural R&D has 
declined from a level of $21.6 million in 2005 to $13.7 million in 2011 
while intramural support has grown from a level of $53 million in 2005 
to a level of $58 million in 2011. Moreover NOAA has repeatedly 
proposed the termination of numerous extramural programs--such as the 
John H. Prescott Marine Mammal Grants program--and the consolidation of 
research programs--such as Ocean Exploration and Research--which has 
led to the dramatic reduction in extramural research and education 
support.
    Beyond cutting back on its extramural support, NOAA now seeks 
permission to ``receive and expend funds made available by, any . . . 
private organization, or individual (proposed Section 108 of the 
General Provisions in the NOAA Section of the Appendix to the Fiscal 
Year 2016 Budget, page 218).'' This would enable NOAA to compete 
against non-Federal and private entities for private sector support. 
Thus not only is NOAA cutting back its own support, it intends to 
further exacerbate the situation by competing against its partners for 
the limited available non-Federal resources needed to fill the gaps 
created by NOAA's decision to scale back its extramural support. NAML 
urges the subcommittee to restore to the maximum extent possible NOAA 
support for its extramural research, education, and other related 
programs while also limiting NOAA's ability to compete with the private 
sector for non-Federal resources needed for research, education, and 
conservation programs.
                  investing in research infrastructure
    NAML believes that a comprehensive range of ocean and coastal 
research infrastructure is essential to meet growing demands for 
scientific information and to ensure that we restore and maintain 
ecosystem health to support safe, efficient, and environmentally 
sustainable use of our ocean, coastal and Great Lakes resources. Most 
marine laboratories operate independently of one another. Greater 
networking with other marine laboratories, field stations, and other 
research centers would leverage resources to facilitate discovery and 
spark innovation. Networking would also allow institutions to share 
best practices, protocols, and platforms for data archiving and 
retrieval. Such networking has the potential to open new arenas of 
scientific inquiry, education, and outreach. It can capture social and 
intellectual capital to tackle major questions and seize opportunities 
as no single marine laboratory can, and it enhances creativity and 
innovation by attracting a wide range of scientists and promoting 
multidisciplinary collaboration. The most successful and sustainable 
networks start small and are self-defining; they encourage reciprocity 
among network members. Networking can facilitate the development and 
diffusion of knowledge and technology in a way that encourages 
innovations. It is also important to appreciate that marine 
laboratories vary in scope, size, infrastructure requirements, and 
purpose; each contributes to the global portfolio in distinct ways. 
Internet connectivity and cyberinfrastructure are two neglected and 
underdeveloped elements of infrastructure. One common element, however, 
in need of attention is Internet connectivity and cyberinfrastructure, 
which would facilitate data sharing and analysis. Installation of new 
cyberinfrastructure requires data-management and data-sharing plans and 
conformity of data with widely used metadata standards. Such 
infrastructure also requires a long-term funding commitment for repair, 
upgrades, and technical support.
 investing in science, technology, engineering and mathematics (stem) 
                               education
    NAML's education mission is two-fold. First, it is to enhance ocean 
STEM education to ensure that all citizens recognize the reciprocal 
effects of the oceans, coasts and Great Lakes on their own lives and 
the impacts citizens have on these environments. Second, it is to 
provide formal research and training opportunities at K-12, college, 
and post-graduate levels to ensure a scientifically savvy, technically 
qualified, and ethnically diverse workforce capable of solving problems 
and answering questions related to the protection, restoration and 
management of coastal and ocean ecosystems, climate variability, and 
societal needs. An informed and engaged public is essential for the 
Nation to address complex ocean- and coastal-related issues, balance 
the use and conservation of marine resources, and maximize future 
benefits from the ocean. Public understanding of human impacts on the 
marine environment should be balanced with recognition of the benefits 
to be derived from well-managed ocean resources. Ocean-related 
education is by its nature interdisciplinary, involving many of the 
natural sciences and the human connection to natural resources. It can 
increase overall science literacy and enhance the Nation's health, 
standing, safety and security. NAML laboratories seek to expand the 
engagement of individuals from groups that have been historically 
under-represented in ocean research, education and outreach. This is 
particularly important in fulfilling the goal of achieving a 
diversified STEM pipeline to meet future science and ocean workforce 
needs.
    NAML remains concerned with the administration's STEM Education 
Consolidation proposal for fiscal year 2016. A total of 20 STEM 
education programs at eight key R&D mission agencies (including the 
National Oceanic and Atmospheric Administration, National Science 
Foundation, and National Aeronautics and Space Administration) will be 
impacted by this proposal. It is important for mission agencies to help 
support the next generation of scientific and technical talent--much of 
which will be needed by these agencies in future years. We urge the 
subcommittee to reject these consolidation proposals and support the 
continuation of these programs within their current agencies.
    NAML appreciates the opportunity to present these views to the 
subcommittee as it begins work on the development of the fiscal year 
2016 appropriations bill.
    Thank you.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians (NCAI), this 
testimony addresses important programs in the Department of Justice and 
Department of Commerce. NCAI is the oldest and largest American Indian 
organization in the United States. Tribal leaders created NCAI in 1944 
as a response to termination and assimilation policies that threatened 
the existence of American Indian and Alaska Native tribes. Since then, 
NCAI has fought to preserve the treaty rights and sovereign status of 
tribal governments, while also ensuring that Native people may fully 
participate in the political system. As the most representative 
organization of American Indian and Alaska Native tribes, NCAI serves 
the broad interests of tribal governments across the Nation. As 
Congress considers the fiscal year 2015 budget and beyond, leaders of 
tribal nations call on decision-makers to ensure that the promises made 
to Indian Country are honored in the Federal budget.
                              introduction
    Annual funding decisions by Congress are an expression of our 
Nation's moral priorities. Numerous treaties, statutes, and court 
decisions have created a fundamental contract between tribal nations 
and the United States: tribes ceded millions of acres of land that made 
the United States what it is today, and in return tribes have the right 
of continued self-government and the right to exist as distinct peoples 
on their own lands. And for its part, the United States has assumed a 
trust responsibility to protect these rights and to fulfill its solemn 
commitments to Indian tribes and their members.
    Part of this trust responsibility includes basic governmental 
services in Indian Country, funding for which is appropriated in the 
discretionary portion of the Federal budget. Tribal governments exist 
to protect and preserve their unique cultures, identities, and natural 
environments for posterity. As governments, tribes must deliver a wide 
range of critical services, such as education, workforce development, 
and first-responder and public safety services, to their citizens. The 
Federal budget for tribal governmental services reflects the extent to 
which the United States honors its promises to Indian people.
                         department of commerce
    Provide $35 million for the Minority Business Development Agency 
(MBDA).--Created by Executive Order in 1971, the MBDA was established 
to support minority business development centers and received funding 
of almost $63 million to carry out this mission. Since then, MBDA's 
funding has shrunk by over 50 percent to an estimated $30.5 million for 
fiscal year 2013 and $29.3 million for fiscal year 2014. After MBDA 
revamped its cooperative assistance grants to Minority Business Centers 
(MBCs), the Native American Business Enterprise Centers (NABECs) were 
eliminated and their services were consolidated with the MBCs. About 
$13 million of MBDA's budget is disbursed to the MBCs to provide 
business consulting; advice on business financing; and some procurement 
technical assistance to minority businesses, entrepreneurs, and tribal 
enterprises.
    With the service gap created by the elimination of NABECs, the need 
for an increased level of funding for MBDA is even greater. MBDA must 
sustain and expand support for these centers, which provide important 
assistance to businesses that help them grow and develop, thereby 
creating a stronger private sector and healthier national economy. The 
MBDA also supports minority contractors' teaming efforts to pursue 
Federal contracts, directs efforts to track minority business data, 
collaborates with the Office of Native American Affairs, and is 
increasing its focus on global trade.
    Fund the Office of Native American Affairs (ONAA) at a minimum of 
$1.25 million as part of the Commerce Department Management Budget.--In 
the late 1990s, the Secretary of Commerce established ONAA within the 
Secretary's office that was codified by the enactment of the Native 
American Business Development, Trade Promotion and Tourism Act of 2000 
(Public Law 106-464) (the 2000 Act). Since then, funding for the Office 
has been partial and very limited. In order to carry out its mission, 
ONAA must receive adequate support to implement Indian policy 
initiatives and expand Native American business development initiatives 
both domestically and internationally. Funding made available through 
Commerce's Departmental Management budget would help ONAA's efforts, 
particularly given the reduced focus of MBDA on specific Native 
American business assistance.
                               conclusion
    Thank you for your consideration of this testimony. For more 
information, please contact Virginia Davis, Senior Policy Advisor, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed9b898c9b849ead838e8c84c3829f8a">[email&#160;protected]</a>, NCAI Budget and Policy Analyst, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="65040007041707250b06040c4b0a1702">[email&#160;protected]</a> or 
Brian Howard, Legislative Associate, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dab8b2b5adbba8be9ab4b9bbb3f4b5a8bdf4">[email&#160;protected]</a>
                                 ______
                                 
     Prepared Statement of the National Estuarine Research Reserve 
                              Association
    Chairman and members of the subcommittee, my name is William Reay 
and I am the Director of the Chesapeake Bay National Estuarine Research 
Reserve in Virginia, administered by the Virginia Institute of Marine 
Science, College of William and Mary. I submit this testimony in my 
capacity as President of the National Estuarine Research Reserve 
Association (NERRA). NERRA is a not-for-profit scientific and 
educational organization dedicated to the protection, understanding, 
and science-based management of our Nation's estuaries and coasts. 
NERRA appreciates the support this subcommittee has given to the 
research reserves over the years. As a result, the research reserves 
have been able to assist coastal communities and States in becoming 
more resilient to the ever increasing and complex challenges they face 
on a daily basis and into the foreseeable future.
    For fiscal year 2016, NERRA strongly recommends the following 
reserve system programs and funding levels within the National Oceanic 
and Atmospheric Administration (NOAA):

 
 
 
NERRS Operations                                       $23.9 million
NERRS Procurement, Acquisition, and Construction       $1.7 million
 (PAC)
 


    The National Estuarine Research Reserve System (NERRS) program 
bring the strength of both NOAA and partner science and stewardship to 
important coastal regions across the Nation. NERRS encompasses 28 
protected reserves located in estuaries that are home to our most 
productive habitats and populated communities--that support science-
based coastal resource management, research, and education to meet 
national priorities as mandated by Congress in the Coastal Zone 
Management Act (CZMA) of 1972. The States have been entrusted to 
operate and manage NOAA's program in 22 States and Puerto Rico, where 
over 1.3 million acres of land and water are protected in perpetuity. 
What distinguishes the research reserves is the community and State 
implementation of programs and local management of these places that 
form this Federal-State partnership program.
    The administration's fiscal year 2016 request for the NERRS is a 
total of $21.3 million. This amount will result in a reduction of 
funding to each State, and will diminish the current capabilities of 
the program's core operations. Specifically, the administration's 
request will decrease funding amounts going to each State; reduce water 
quality monitoring capabilities that coastal dependent communities, 
businesses and industries rely on; adversely impact the collection of 
data relating to hazards and sea level rise provided to decision-
makers; and, reduce the education and information exchange provided to 
communities and schools related to coastal resiliency. After reviewing 
the detailed NOAA budget request sent to the Congress, it is clear that 
States are inadequately supported to implement this national program 
and are compromised in their ability to fulfill the vision of Congress 
in its creation of the NERRS program.
    NERRA is deeply concerned with the administration's funding levels 
that we believe are inconsistent with key tenants of NOAA's own 
strategic plan--specifically, enhancing community and economic 
resiliency and strengthening science in support of coastal resource 
management. The administration's fiscal year 2016 requested funding 
level will diminish the NERRS's capacity to deliver important research, 
monitoring data, and education and training to its State, local, and 
regional partners.
    The NERRS program has grown as States identify the coastal needs 
that must be addressed, and the addition of new reserves has provided 
more science, training, and education resources that can be applied 
nationally. At issue is the cost associated with operating 28 reserves 
nationally has increased given the relatively recent addition of two 
reserves (Texas and Wisconsin) and a third (Hawaii) in fiscal year 
2016, the infrastructure it relies on has aged, and because there is a 
rapidly increasing need to help local communities address coastal 
hazards. Without funding, four critical core program areas are at risk.
  essential coastal resiliency nerrs programs impacted by inadequate 
                                funding
    1.  Reserve Operations.--First, the administration budget request 
flat-funds the program at the fiscal year 2015 level of $21.3 million. 
Flat-funding in the face of the program adding a 29th reserve in fiscal 
year 2016 will in effect result in reduced budgets for each of the 
current reserves. The addition of a new research reserve strengthens 
the national program by leveraging science, education, and partnerships 
that will benefit the Nation. Equally troubling is the absence of any 
mention of the expected expansions in NOAA's fiscal year 2016 budget 
submission. Along with the new Hawaii reserve, there is one more 
known--Connecticut--in process for future years.
    2.  Coastal intelligence--monitoring and data networks.--The second 
program area at risk is maintaining existing System-wide monitoring and 
data networks that provide immediate and long-term information to 
understand harmful algal blooms, assess water quality, identify habitat 
impacts from changing sea levels, aid in weather forecasting, and 
improve response to storm surge. Hundreds of entities use the NERRS 
water quality and weather data, including State water quality control 
programs; county health departments; shellfish growers and fishing 
industry professionals; the National Weather Service; and, insurance 
companies.
    3.  Sentinel sites provide early detection of change.--The third 
program area at risk is helping communities by providing data for early 
detection of habitat change that helps respond to coastal hazards by 
integrating monitoring, analysis and modeling to assess current habitat 
vulnerability, forecast future conditions and aid in the development of 
adaptive management strategies. Right now reserves are working to 
understand changes in tidal marshes, mangroves and sea grass beds. 
These habitats provide a wide range of highly valued ecosystem serves 
such as nursery habitat for commercial and recreational important fish, 
erosion and flood control, and water quality improvements.
    4.  Educating today's and tomorrow's decision-makers.--The forth 
program area at risk is providing relevant and timely science and 
support tools to decision-makers and to the next generation of 
scientists, resource managers, business people, and civic leaders. 
Reserves have prioritized the Teachers on the Estuary professional 
development opportunity for all 28 reserves that prepare the Next 
Generation workforce in key disciplines of science, technology, 
engineering and math (STEM education)--estimated to reach more than 
12,000 students annually through this program alone in addition to the 
83,000 reached by all education programs conducted by the reserves. 
Additionally reserves support their communities by providing technical 
training to local officials and support staff and residents about 
critical resource management issues such as impending hazards, storm 
water control, shoreline management, and habitat restoration: in 2014 
more than 12,000 decision makers participated in reserve training 
programs.
making coasts more resilient, supporting coastal economies, and having 
    direct positive impacts on communities and throughout the states
    Research reserves assist our coastal communities, commercial 
businesses and industries through enhanced coastal resiliency in a 
changing environment. As severe weather events become more common, 
Federal, State, and local officials are recognizing that estuaries have 
the capacity to provide green resilience infrastructure. Through the 
reserves, NOAA can tailor science and management practices to enable 
local planners to use estuarine habitat as a tool for resilience and 
adaptation. The increase to the NERRS operation funds by $2.6 million 
above the administration's request is essential to supporting coastal 
economies and impacting States and their communities.
  --The research reserves' operations that include existing high-
        quality jobs and student internship opportunities, as well as 
        service delivery in 28 communities will be improved through 
        modest additional appropriations by enhanced monitoring 
        technology responsive to changing environments and increased 
        educational efficiency by providing best-practices professional 
        development with decision-maker training and education programs 
        such as Teachers on the Estuary.
  --Each research reserve will leverage additional State, local, and 
        private funding to their individual States, and will provide 
        vital local trainings for decision makers, researchers, 
        students and teachers that generates a more resilient coast 
        through improved access to stakeholder driven research, 
        engaging place-based education and information needs.
  --With adequate funding, essential water quality data collected by 
        the research reserves will be made available to entities such 
        as local commercial businesses, industries and government 
        entities who rely upon it via updated monitoring equipment and 
        real-time telemetry technology.
    Investments in the NERRS are dollar-smart because funding for the 
program is matched by the States and leveraged significantly, resulting 
in an average of more than five other local and State partners 
contributing to the work at each reserve. In addition, the program 
significantly benefits from volunteers that are engaged in habitat 
restoration, citizen science and education which offset operation costs 
at reserves by donating thousands of hours. Annually, volunteers 
contribute more than 100,000 hours to the NERRS with an estimated value 
of over $2.2 million. Funding of $23.9 million for the NERRS would be a 
minimal level to provide each reserve with the necessary funding to 
insure that cuts to the States as well as to existing core programs and 
services do not occur.
nerrs procurement, acquisition, and construction and the bay-watershed 
                         education and training
    The NERRS Procurement, Acquisition, and Construction (PAC) funding 
is designated for land conservation, through acquisition of priority 
lands, and essential facilities construction and upgrades. This 
competitive funding program is matched by State funds and has resulted 
in not only the preservation of critical coastal lands as described 
above, but also in the increase of construction jobs. For example NERRS 
creates more than 60 jobs for each $1 million of Federal construction 
(PAC) money spent. In addition, NERRS leveraged investments of more 
than $115 million to purchase over 30,000 acres of coastal property 
over the last 12 years.
    Second, within the budget request for NOAA, the administration is 
again proposing the elimination of funding for the Bay-Watershed 
Education and Training (B-WET) regional programs--a reduction of $7.2 
million in funding. The rationale provided for program reductions is 
misleading in stating that NOAA education experiences will continue to 
be provided by programs including the NERRS. Where States are eligible 
for B-WET funding, reserves are able to increase their educational 
capacity by as much as 50 percent, as documented in the Chesapeake Bay 
NERR (VA) for example. The B-WET regional program funding is money that 
is spent in addition to the annual NERRS money invested in the 
education programs. The NERRS educate more than 83,000 children 
annually. NERRA strongly opposes the cut of B-WET regional programs and 
any of the other NOAA STEM educational programs.
                               conclusion
    NERRA greatly appreciates the past support the subcommittee has 
provided. This support is critical to sustain and increase the economic 
viability of coastal and estuary-based industries.
    With NERRA's fiscal year 2016 request of $23.9 million for the 
NERRS Operations and $1.7 million for NERRS PAC, the program will be 
able to maintain delivery of credible scientific research and 
translation of that research so as to contribute to the resiliency of 
the natural and built communities and that yields a high rate of return 
to the 28 reserves around the country. We urge the subcommittee to 
support this request, and to restore funding for the B-WET regional 
programs.
    Thank you for the opportunity to present these remarks. On behalf 
of NERRA, I would be happy to answer questions or provide additional 
information to the subcommittee.
                                 ______
                                 
     Prepared Statement of the National Marine Sanctuary Foundation
    The National Marine Sanctuary Foundation (NMSF) works with Congress 
and the National Oceanic and Atmospheric Administration (NOAA) to 
connect fellow citizens to the underwater places that define the 
American ocean--the National Marine Sanctuary System. We remain 
concerned that NOAA's Office of National Marine Sanctuaries (ONMS) has 
not received sufficient appropriations for several budget cycles. 
Recognizing the economic growth and job creation benefits provided by 
sanctuaries, NMSF respectfully requests the subcommittee remedy this 
situation by appropriating:
  --$55 million to the Sanctuaries and Marine Protected Areas Base, 
        within NOAA's Operations, Research, and Facilities account; and
  --$5.5 million to the National Marine Sanctuary Program--
        Construction/Acquisition Base, within NOAA's Procurement, 
        Acquisition, and Construction account.
    Joining NMSF in this request is a national network of community-
based, non-profit organizations that support sites within the sanctuary 
system. On behalf of their members, the Cordell Marine Sanctuary 
Foundation (California), Farallones Marine Sanctuary Association 
(California), Friends of Thunder Bay National Marine Sanctuary 
(Michigan), Gray's Reef National Marine Sanctuary Foundation (Georgia), 
Hawai`i National Marine Sanctuary Foundation (Hawaii), California 
Marine Sanctuary Foundation (California), and Sanctuary Friends 
Foundation of the Florida Keys (Florida) support funding the National 
Marine Sanctuary System at these levels (Appendix I).
    And with the opening of the sanctuary nomination process, 
communities nationwide are voicing their support for increased funding 
for the National Marine Sanctuary System.
    Despite a decade's worth of bipartisan support in both houses of 
Congress that sanctuaries warrant additional funds and the groundswell 
of public support, the President's fiscal year 2016 budget request 
continues a disturbing trend of underfunding the sanctuary program. 
While we recognize the challenges of providing increased funding in the 
current budget climate, we believe that it fails to address critical 
sanctuary contributions to job creation and economic growth.
  the national marine sanctuary system and noaa's office of national 
                           marine sanctuaries
    Encompassing over 170,000 square miles of marine and Great Lakes 
waters, the National Marine Sanctuary System includes 13 national 
marine sanctuaries and Papahanaumokuakea Marine National Monument. 
Sanctuaries protect vibrant ocean ecosystems, conserve essential 
habitat for endangered and commercially important marine species, and 
safeguard historical and cultural resources.
      national marine sanctuaries are unique and successful ocean 
                           conservation tools
    Generations of Americans have grown up, worked jobs, and supported 
their families on the waters of our national marine sanctuaries. Among 
all the statutes enacted by Congress to govern ocean resources, the 
National Marine Sanctuaries Act stands alone in terms of the 
comprehensiveness, community participation, transparency and balanced 
approach provided for all stakeholders. An independent legal analysis 
concluded that ``the National Marine Sanctuaries Act is the best 
existing mechanism available for preserving ocean ecosystems,'' due to 
sanctuaries' commitment to public participation, community engagement, 
and use of a place- and ecosystem-based approach.\1\
---------------------------------------------------------------------------
    \1\ Perkins Coie LLP. (2013). ``Area-Based Management of Marine 
Resources: A Comparative Analysis of the National Marine Sanctuaries 
Act and Other Federal and State Legal Authorities.'' Available: http://
www.nmsfocean.org/files/ABMReport.pdf.
---------------------------------------------------------------------------
    Unlike other ocean resource laws, the National Marine Sanctuaries 
Act protects nationally significant places and their natural, 
historical, and cultural riches. Experience shows that this approach is 
vital to maintaining the healthy seascapes that underpin our productive 
economies, supporting thousands of businesses while maintaining public 
access for recreation, science, exploration, and education.
     national marine sanctuaries are economic engines for coastal 
                              communities
    Sanctuaries foster economic growth, support jobs and businesses, 
generate billions of dollars in local revenue, preserve underwater and 
maritime treasures, and provide valuable public access for ocean 
recreation, research, exploration, and education. According to the 
National Ocean Economics Program, 70 percent of ocean and coastal 
employment in the tourism and recreation sector depend on visitor 
opportunities requiring clean beaches, clean water, and abundant fish 
and wildlife promoted by national marine sanctuaries.
    Because of strong ties to the local communities, businesses, and 
organizations, sanctuaries are able to heavily leverage private funds 
and contributions for taxpayer benefits, ensuring that the benefits of 
funding national marine sanctuaries far outweigh the Federal outlays 
that support them:
  --Over 64,000 jobs and $4.5 billion in GDP contributed annually from 
        the marine tourism and recreation sector in the two counties 
        adjacent to Florida Keys National Marine Sanctuary.\2\
---------------------------------------------------------------------------
    \2\ National Ocean Economics Program. (2011) ``Ocean Economy 
Data.'' Available: http://www.oceaneconomics.org.
---------------------------------------------------------------------------
  --Over $126 million in whale watching revenue and 600 jobs at 31 
        businesses resulting from less than $2 million invested in the 
        Stellwagen Bank National Marine Sanctuary off of 
        Massachusetts.\3\
---------------------------------------------------------------------------
    \3\ O'Connor, Simon et al (2009). Whale Watching Worldwide: tourism 
numbers, expenditures and expanding economic benefits, a special report 
from the International Fund for Animal Welfare. Prepared by Economists 
at Large. Available: http://www.ifaw.org/Publications/
Program_Publications/Whales/asset_upload_file841_55365.pdf.
---------------------------------------------------------------------------
  --2,100 jobs and a $291 million budget from marine science and 
        education at the Monterey Bay National Marine Sanctuary, more 
        than 100 times the $3 million investment by taxpayers.\4\
---------------------------------------------------------------------------
    \4\ Monterey Bay Crescent Ocean Research Consortium. (2012) ``Major 
Marine Sciences Facilities in the Monterey Bay Crescent-2012.'' 
Available: http://web.me.com/paduan/mbcorc/Membership_Info_files/
MontereyBayLabs2012-2.pdf.
---------------------------------------------------------------------------
  --Over half (58 percent) of visitors to Alpena, Michigan came to 
        visit Thunder Bay National Marine Sanctuary, which is the 
        region's most popular attraction, boasting nearly 100,000 
        visitors per year.\5\
---------------------------------------------------------------------------
    \5\ Source: Molnar, Lawrence. 2013. ``Economic Impact Analysis for 
The National Oceanic and Atmospheric Administration, Thunder Bay 
National Marine Sanctuary, Final Report.'' Ann Arbor, Michigan: 
Institute for Research on Labor, Employment, and the Economy, 
University of Michigan (July). Available: http://irlee.umich.edu/
Publications/Docs/ThunderBayNMS_
FinalReport.pdf.
---------------------------------------------------------------------------
    national marine sanctuaries start and stay in local communities
    Public participation is a hallmark of the sanctuary program. From 
the sanctuary nomination process to day-to-day management decisions, 
sanctuaries start and stay in local communities--underscoring ONMS's 
commitment to community leadership and engagement. Communities have a 
controlling influence on sanctuary priorities to ensure unique, local 
circumstances are addressed. Sanctuary rules and regulations are 
developed on a site-by-site basis, and, from the outset, sanctuaries 
are designed to accommodate multiple uses of the ocean.
    Sanctuaries are created by and for the people: citizens and 
communities around the Nation recognize the benefits of sanctuaries and 
express strong interest in establishing sanctuaries in their own 
waters.
  --Over 440 community representatives serve on Sanctuary Advisory 
        Councils with members from the fishing, tourism, and maritime 
        commerce industries; tribes, State and local government; and 
        scientists, educators, and conservationists to provide advice 
        to sanctuary superintendents on sanctuary operations.
  --Over 140,000 hours are contributed by local sanctuary volunteers 
        each year in areas of research, monitoring, enforcement, 
        education and outreach, and management advisory.
               national marine sanctuaries and education
    Through education and outreach programs, sanctuaries function as 
living classrooms that provide students with the knowledge and tools to 
act as responsible ocean stewards. Science, technology, engineering and 
mathematics (STEM) education programs are a key part of national marine 
sanctuaries mission. Eliminating important education infrastructure, 
such as NOAA Office of Education's Bay Watershed Education and Training 
(B-WET) and NOAA's Teacher at Sea program, hinders the ability to 
deliver meaningful watershed education initiatives in sanctuaries.
    We strongly encourage you to oppose any efforts to move or 
terminate the Dr. Nancy Foster Scholarship Program (NFSP). The direct 
connections between students and researchers in sanctuaries are 
critical for the effectiveness of the NFSP. While we support the 
administration's efforts to recognize efficiencies across STEM 
education initiatives, NFSP should remain administered by ONMS, as 
consistent with the National Marine Sanctuaries Act.
national marine sanctuaries' programmatic outlook under reduced fiscal 
                        year 2016 funding levels
    Funding decreases and level-funding have resulted in layoffs and 
cutbacks to mission critical sanctuary programs. A lack of funds may 
result in cuts to public access and recreation opportunities, reduced 
operations at visitor centers, cancellation of partnerships, a lack of 
contingency funding needed in case of emergencies like oil spills, and 
additional inoperable vessels. Of particular concern are proposals to 
reduce funding for necessary and ongoing renovation and construction 
projects.
    The potential impact of reducing sanctuary appropriations goes far 
beyond the individual sanctuaries themselves: limiting visitor center 
hours, eliminating research programs, and diminishing enforcement 
capacities prevents ONMS from fulfilling its statutory mandates, while 
also reducing the economic activity and job creation from which healthy 
communities benefit. Funding sanctuaries below NMSF's recommended 
levels could force the program to:
    Reduce public access and recreation opportunities for all 
Americans: Funding cuts risk the Florida Keys National Marine 
Sanctuary's 767 mooring buoys, which provide public access and 
recreational opportunities within the sanctuary while protecting coral 
reefs and shipwrecks from anchor damage.
    Cut visitor center hours: Sanctuary visitor centers act as a public 
face of NOAA to over 350,000 visitors per year, including Monterey Bay 
National Marine Sanctuary Exploration Center (California), Mokupapapa 
Discovery Center (Hawaii), Great Lakes Maritime Heritage Center 
(Michigan), and Florida Keys EcoDiscovery Center (Florida).
    Cancel education and outreach programs that leverage private funds: 
Reduced funding jeopardizes education and outreach activities on the 
water, at sanctuaries and visitor centers, and in classrooms.
  noaa needs sufficient funds to fulfill its responsibilities to the 
                            american people
    We strongly support the Friends of NOAA Coalition request to fund 
the agency at no less than $6 billion in fiscal year 2016. From weather 
forecasts to fisheries management, NOAA provides decision makers with 
critical data, products, and services that promote and enhance the 
Nation's economy, security, environment, and quality of life. 
Insufficient funding will only serve to diminish the economic activity 
and job creation that is successfully revitalizing communities across 
America.

                                              Jason Patlis,
                                                 President and CEO.

                               APPENDIX I

                                                    March 18, 2015.

 
 
 
Hon. Richard C. Shelby                      Hon. Barbara Mikulski
Chairman, Senate Appropriations             Vice Chairwoman, Senate
 Subcommittee on Commerce, Justice,          Appropriations Subcommittee
 Science, and Related Agencies               on Commerce, Justice,
SH-125 Hart Senate Office Building           Science, and Related
Washington, D.C. 20510                       Agencies
                                            SD-142 Dirksen Senate Office
                                             Building
                                            Washington, D.C. 20510
 


    Dear Chairman Shelby and Ranking Member Mikulski: As Congress 
begins negotiations on the fiscal year 2016 Commerce, Justice, Science, 
and Related Agencies appropriations bill, we respectfully request that 
you prioritize programmatic requests for:
  --Sanctuaries and Marine Protected Areas Base, within the National 
        Oceanic and Atmospheric Administration's (NOAA) Operations, 
        Research, and Facilities (ORF) account, at a level of $55 
        million; and
  --Marine Sanctuaries Construction Base, within NOAA's Procurement, 
        Acquisition, and Construction (PAC) account at a level of $5.5 
        million.
    Sanctuaries embody our Nation's commitment to conserve the best of 
our ocean, coasts, and Great Lakes. Through their comprehensive, highly 
participatory approach designed to accommodate multiple uses of our 
ocean, national marine sanctuaries foster economic growth, support jobs 
and businesses, generate billions of dollars in local revenues, 
preserve underwater and maritime treasures, and provide valuable public 
access for ocean recreation, research, exploration, and education.
    The American people have seen the benefits national marine 
sanctuaries provide for local communities and our Nation and they are 
voicing their support for sanctuaries. Communities nationwide are 
coming together to discuss how to protect the ocean, coasts, and Great 
Lakes by working with the existing sanctuaries and by nominating new 
sites through the sanctuary nomination process.
    Sanctuaries are a proven and successful conservation tool and the 
return on our investment in sanctuaries is simply too valuable to 
ignore. Because of the strong ties to the local communities, 
businesses, and organizations, sanctuaries have been able to heavily 
leverage private funds and contributions for taxpayer benefits. 
However, diminishing budgets will force ONMS to reduce economic 
opportunities, close visitor's centers, cancel collaborative 
partnerships with museums and universities, terminate education and 
research initiatives, and diminish enforcement capacities. In 
particular, the sanctuary visitor centers, facilities, and vessels 
supported by PAC funds anchor local tourism and recreation economies 
and enable ONMS to complete core research, education, and law 
enforcement missions that simply cannot be accomplished from land 
alone.
    We strongly urge you to remedy this situation by supporting an 
overall appropriation of no less than $60.5 million for sanctuaries in 
fiscal year 2016. Your support for national marine sanctuaries will 
send a powerful and necessary message about the economic growth and job 
creation benefits of healthy ocean and coastal resources, while 
simultaneously underscoring the continuing ecological and aesthetic 
value of America's underwater treasures.
    Thank you for your consideration of this request. We wish you all 
the best for the 114th Congress.

            Sincerely,

                    Jason Patlis, National Marine Sanctuary Foundation; 
                            Tom Lambert, Cordell Marine Sanctuary 
                            Foundation; Chris Kelley, Farallones Marine 
                            Sanctuary Association; Charles N. Wiesen, 
                            Friends of Thunder Bay National Marine 
                            Sanctuary; Chris Hines, Gray's Reef 
                            National Marine Sanctuary Foundation; 
                            Lynette Poncin, Hawai`i National Marine 
                            Sanctuary Foundation; Dennis J. Long, 
                            Monterey Bay and Channel Islands Sanctuary 
                            Foundation; George Neugent, Sanctuary 
                            Friends Foundation of the Florida Keys
                                 ______
                                 
     Prepared Statement of the National Weather Service Employees 
                              Organization
    The employees of the National Weather Service once again urge the 
subcommittee to reject the administration's proposals to eliminate 
funding for the Information Technology Officers (ITOs) at our Nation's 
122 Weather Forecast Offices, and to reduce funding for the development 
of the Advanced Weather Interactive Processing System, ``AWIPS 2.''
    As this subcommittee noted when rejecting an earlier proposal to 
eliminate the ITOs, the ``IT staff have proven to be valuable parts of 
the local weather forecast teams.'' Senate Report No. 112-158, at 31. 
But once again, the NOAA budget justification fails to explain how 24 
regionally based ITOs can, at a distance, handle the same workload 
performed by 122 employees who work at the site of the problem. No 
workload analysis has ever been conducted. This year's budget 
justification contains the same preposterous claim that the regional 
team approach will ``meet or exceed current service levels'' without 
any factual basis or prototyping. The proposal once again claims that 
``the current service delivery model has redundancies,'' but fails to 
identify a single one.
    The subcommittee has rejected such unsupported assurances in the 
past and has directed the agency to present any proposal to consolidate 
IT support only as part of a comprehensive plan for future NWS 
operations. In considering the fiscal year 2014 request, this 
subcommittee directed NOAA to provide a report that ``addresses 
potential consolidation of NWS IT staff in the context of an overall 
workforce staffing plan.'' Senate Report No. 113-78, at 38. In 
rejecting NOAA's request to eliminate the ITOs last year, this 
subcommittee wrote:

          This repeated request continues to ignore the subcommittee's 
        direction to provide perspective on how this proposal fits 
        within NWS's broader workforce and modernization plans. The 
        subcommittee also notes that NOAA has not provided the report 
        requested in fiscal year 2014 outlining a multi-phase plan for 
        consolidating NWS's information technology operations that 
        would streamline system configuration . . . while resulting in 
        no degradation of service.

    Senate Report No. 113-181, at 43. Astonishingly, NOAA has once 
again requested authority to eliminate the ITOs without providing the 
report or analysis that this subcommittee said was a prerequisite to 
its approval. As this year's NWS budget justification explains (at 39), 
the NWS has still not yet developed its IT consolidation plan and will 
not be ``developing a strategic staffing plan which will fully show the 
future of the NWS workforce'' until 2016. Between September 2010 and 
February 2015, the NWS reduced its non-supervisory workforce by 10 
percent, from 3877 to 3469, in an unplanned, random manner as vacancies 
arose. The subcommittee should not approve additional haphazard 
reductions in field staff.
    NWSEO has just obtained a copy of a ``Statement of Need'' authored 
by an ad hoc committee of Meteorologists-in-Charge (``MICs'') of 
numerous NWS Forecast Offices in 2013 and submitted to NWS management, 
explaining why the ITOs are essential to the operations of their 
offices and need to be retained. According the MICs, who are the senior 
supervisor at each forecast office, the ``READI Teams'' cannot 
adequately replace the ITOs:

          The READI team proposal is an admirable effort to reduce 
        agency overhead costs and looks promising on the surface, but 
        it also includes a large number of assumptions that have 
        already been proven faulty or ineffective during weather 
        situations affecting multiple sites. Having to rely on 
        emergency backup and remote support in lieu of local site 
        support is a recipe for disaster and one not worth the cost 
        savings.
                                *  *  *
          From our perspective, one cannot remove such a vital 
        individual from a unit and replace him with a remote staff 
        member (or members) tasked with serving multiple offices that 
        has no collaborative ties, relationship, or rapport with the 
        people, office or customers, and expect the kind of benefits 
        the ITO program has produced to date.
                                *  *  *
          Moving from a system of local ITO experts to a regional cadre 
        of ITO teams, no matter how skilled and prepared, will 
        undoubtedly result in slower response time and longer periods 
        of system down-time and lengthy site and system recovery.

    The MICs also noted that the ITOs are responsible for far more than 
keeping existing systems operational. ``[T]he ITO is a critical 
developer who is directly connected with the forecasters, end users, 
and core constituents. Due to this connection the position has been 
able to create successful applications with a positive and lasting 
impact on our agency.'' Below are four examples of software 
applications recently developed by ITOs that were customized to local 
weather conditions and customer needs.
    1. Last winter Diana Norgaard, the ITO at the Sterling Forecast 
Office (which services Northern Virginia, Maryland, DC and part of West 
Virginia) developed software applications that translated winter 
weather forecasts and models into graphic ``probabilistic'' forecasts 
of the chances of varying snow accumulation totals for approximately 
100 locations within the office's service area. She developed a Web 
page for display of these experimental forecast products, which can be 
found at www.weather/gov/lwx/winter. These new forecast products were 
so well received that Ms. Norgaard assisted in replicating them for the 
Philadelphia, New York and Boston Forecast Office Web sites this 
winter.
    2. After the January 2014 snowstorm that paralyzed the Atlanta 
highway network, the Georgia Department of Transportation installed 
road sensors around the metro Atlanta area and North Georgia. Steve 
Listemaa, the ITO at the Atlanta Forecast Office, worked with the 
vendor to ingest this data for display into the office's AWIPS system, 
which he then configured to produce road temperature forecasts. The 
graph below shows the observed road temperature data to the left of the 
vertical gray line, and forecast road temperature data to the right. 
The display was originally written by the ITO at the Tulsa Forecast 
Office, and Mr. Listemaa took that code and modified it for his 
office's needs.
    3. In Vermont, ice jams create a flood threat in late winter as 
river ice starts to break up; Montpelier was flooded as a result of 
such an ice jam in 1993. Chuck McGill, the ITO at the forecast office 
in Burlington, Vermont, wrote a series of software scripts that created 
a database for the office's hydrologist to use to log the locations of 
ice jams in their service area, and to quickly generate a Public 
Information Statement with this information.
    4. The NWS's Service Assessment of its response to the May 2013 
Moore, Oklahoma tornado noted that a local application developed by the 
ITO at the Norman Forecast Office was critical to FEMA's efforts:

          WFO Norman produced GIS [graphical information systems] 
        products showing a preliminary estimate of the likely tornado 
        track, which the office made available while the tornado was in 
        progress in Moore, Oklahoma. Meteorologist in Charge (MIC), 
        serving as the radar interpreter, worked with the Information 
        Technology Officer (ITO) to use a prototype local application 
        on AWIPS II, the AWIPS's next-generation software, to generate 
        the GIS files on AWIPS. The GIS files were emailed to the EMs 
        in affected regions and to the Southern Region Regional 
        Operations Center (SR ROC) and posted on social media. WFO 
        Norman used all available radar data and other information to 
        draw potential damage paths. The local application allowed the 
        meteorologists to select points, scan-by-scan, to identify 
        where a tornado was located. This process includes forecaster 
        interpretation in the analysis loop and is different and 
        separate from the rotation tracks products available from the 
        National Severe Storms Laboratory (NSSL). The Federal Emergency 
        Management Agency (FEMA) Director noted these products are 
        ``extremely valuable'' when integrated into FEMA's GIS 
        applications. These preliminary tracks allowed FEMA to identify 
        the impacted areas and determine resources that might be needed 
        for the recovery as much as 3-4 hours before resources were 
        requested . . .

          These GIS products saved FEMA 3-4 hours of response time and 
        helped FEMA staff determine the need for additional urban 
        search and rescue teams before local EMs formally requested 
        this assistance.

Service Assessment: May 2013 Oklahoma Tornadoes and Flash Flooding, pp. 
8-9 (NWS, January 2014).

    Regional IT teams cannot maintain from a distance the unique 
software applications and models previously designed by each office's 
ITOs and with which they are unfamiliar; and termination of the ITOs 
will eliminate the ability to design and build software applications 
and forecasting models customized to each office's unique climate and 
user needs.
    In its fiscal year 2016 budget justification, the NWS promises that 
it will reduce ITO staffing through attrition, but that is not possible 
if funding for the ITOs is abruptly terminated at the beginning of the 
upcoming fiscal year. The NWS incorrectly claims that many of the ITOs 
can qualify for other NWS positions, such as a meteorologist. Although 
about one-half of the ITOs were meteorologists before being selected as 
ITOs, it is unlikely that they would qualify to return to the 
meteorologist jobs series because the educational qualification 
standards for meteorologists changed in 1998. Only those current 
meteorologists who were hired before that date and who have been 
continuously employed in the meteorologist job series are grandfathered 
under the prior qualification standards. (See NOAA Human Resources 
Guidance Bulletin #FY14-004 (October 23, 2014).
    NWSEO also opposes NOAA's proposal to reduce $1.5 million in 
funding for development and implementation of the next generation of 
the Advanced Weather Interactive Processing System. As noted in the 
agency's Budget Justification, at 73, the ``NWS will be limited in 
providing future tools and capabilities which meteorologists/
hydrologists use in situational awareness for warning/forecast 
preparation'' as a result of this reduction, and ``[t]he development of 
robust, efficient service backup capabilities to support local needs as 
well as COOP activities will also be deferred.''
    The most troubling impact of this reduction will be the deferral of 
an updated AWIPS ``Weather Event Simulator'' or ``WES.'' WES is a 
training simulator that allows forecasters to replay severe weather 
events from archived data as case studies as if they were occurring in 
real-time. Funding for training at the National Weather Service has 
already fallen to just one-half of 1 percent of the agency's budget.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Thank you for the opportunity to comment on the fiscal year 2016 
appropriations for the National Oceanic and Atmospheric Administration 
(NOAA). The Nature Conservancy is a non-profit conservation 
organization working around the world to protect ecologically important 
lands and waters for both people and nature. As the Nation enters the 
fiscal year 2016 budget cycle and another year of fiscal challenges, 
The Nature Conservancy recognizes the need for fiscal restraint and 
reiterates our concern that natural resource stewardship programs 
should not bear a disproportionate share of cuts in this budget. We 
believe the budget levels The Nature Conservancy supports represent a 
prudent investment in our country's future. It is an investment that 
not only helps NOAA achieve its most critical missions by catalyzing 
local and regional action, but also reduces risk and saves money based 
on tangible economic and societal benefits that natural resources 
provide.
                   national marine fisheries service
Fisheries and Ecosystem Science Programs and Services.--The Nature 
Conservancy supports the President's request of $146.317 million.

    There is a high correlation between the good information about the 
status of a fish stock and the effectiveness of management. Systems for 
collecting fishery data tend to be paper-based, slow, expensive and 
prone to errors and gaps. On-board video monitoring has been piloted 
but has yet to be implemented in any U.S. fisheries and the 
administration's proposed $5.596 million increase for Electronic 
Monitoring and Reporting will help move these efforts beyond pilots to 
implementation through funding purchase and maintenance of hardware and 
software and processing of collected data. Priority should be given to 
those fisheries across the country that have already piloted these 
efforts. Also key is improving our understanding of the ecological and 
economic connections between fisheries and nearshore habitats. The 
administration's proposed $5 million increase for Ecosystem-based 
Solutions for Fisheries Management will improve our understanding of 
the value of ecosystem services and develop the models and tools to 
incorporate this information into habitat restoration plans and 
fisheries management actions.

Fisheries Management Programs and Services.--The Nature Conservancy 
supports the President's request of $128.367 million.

    NOAA Fisheries has made important strides in addressing these 
challenges and strengthening fisheries management; however, much more 
needs to be done. To recover fish stocks so that they provide food and 
jobs to struggling fishermen now and in the future, we need to reduce 
destructive fishing practices, restore coastal habitats that produce 
fish, and support the efforts of fishermen and fishing communities and 
do so in a collaborative way. The Conservancy supports the President's 
request of $128.367 million and highlights two important program 
increases. The proposed increase of $1.45 million within this line will 
be used to develop and implement clear procedures and guidance for the 
use of electronic monitoring. This will include review of pilot project 
information, regional implementation plans, and coordination with 
stakeholders. Catch shares give participating fishermen a stake in the 
benefits of a well-managed fishery and align the incentives for 
resource stewardship with the natural incentive for fishermen to 
increase their earnings with a sustainable business model. Transition 
to these systems is difficult and the modest $2.216 million proposed 
increase will help NOAA get the design and implementation of these new 
catch share programs right by engaging fishing communities.

Habitat Management and Restoration.--The Nature Conservancy supports 
the President's request of $57.885 million.

    Coastal wetlands and nearshore waters produce the fish and 
shellfish that feed America. The health of these places is essential to 
the economic and social well-being of those who live, work, and 
recreate in coastal communities. Additionally the restoration and 
protection of coastal resources help to provide flood control and 
prevent erosion to protect our communities from storm surges. Through 
the Community-based Restoration Program and the Habitat Blueprint 
initiative, The Nature Conservancy works closely with NOAA to restore 
the health of degraded habitats in places and ways that benefit not 
just local marine life, but communities and coastal economies as well. 
Project funds are awarded on a competitive basis and typically leverage 
the resources and capacity of multiple partners. This work enhances our 
understanding of the connections between fisheries productivity and 
habitat, measures the effectiveness of conservation and restoration 
activities, and applies those lessons to improve future efforts. The 
administration has also requested an important $3.5 million increase to 
enhance NOAA's capacity to for consultations on and implementation of 
Essential Fish Habitat. The Regional Fishery Management Councils 
address fishing impacts on these areas, and NOAA must have sufficient 
capacity to provide technical assistance to the Councils and to work 
with Federal agencies to avoid, minimize, and mitigate the impacts of 
their actions on these important fishery habitats.

Pacific Coastal Salmon Recovery Fund.--The Nature Conservancy supports 
maintaining the fiscal year 2015 level of funding of $65 million, $7 
million above the President's requested amount.

    The Pacific Coast Salmon Recovery Fund (PCSRF) is the most critical 
Federal program addressing major threats to Pacific salmon so that 
these fish can continue to sustain culture, economies, recreation, and 
ecosystem health. PCSRF funding is tailored for each State, 
competitively awarded based on merit, and has funded hundreds of 
successful, on-the-ground salmon conservation efforts. PCSRF invests in 
cooperative efforts to conserve species under NOAA's jurisdiction, and 
projects are matched at a 3:1 ratio (Federal/non-Federal). Notably, the 
PCSRF has catalyzed thousands of partnerships among Federal, State, 
local, and tribal governments, and conservation, business, and 
community organizations. The Nature Conservancy urges sustaining the 
fiscal year 2015 enacted level of $65 million.

Fisheries Data Collections, Surveys and Assessments.--The Nature 
Conservancy supports the President's request of $163.251 million.

    Limited or poor quality information on the status of fishery stocks 
undermines the effectiveness of fishery management and can erode 
political support for conservation measures. Accurate and timely stock 
assessments are essential for the sound management of fisheries and the 
sustainability of fishing resources. The $2.815 million proposed 
increase to Expand Annual Stock Assessments will help the agency 
prioritize assessments, determine what level of assessments are needed 
and, where to appropriately incorporate ecosystem linkages--such as 
climate, habitat, multispecies, socioeconomic factors.

Marine Mammals, Sea Turtles, and Other Species.--The Nature Conservancy 
supports the President's request of $145.71 million.

    Through this budget line, NOAA awards competitive grants to States 
and tribes to support conservation actions that contribute to recovery, 
or have direct conservation benefits for, listed species, recently de-
listed species, and candidate species that reside within that State. 
NOAA's proposed $17 million increase for Species Recovery Grants, 
including $3.2 million for the 20 newly-listed coral species, will 
allow the agency to expand partnerships to address the growing number 
of listed species and allow for larger, ecosystem-level scale recovery 
efforts The Nature Conservancy works with State agency partners to 
restore endangered species and monitor the results of these efforts. 
These grants are essential for having a direct benefit to ``on the 
water'' restoration efforts. Additional listed species and emerging 
challenges to recovery has increased the number and complexity of 
NOAA's consultation and permitting requirements under the Endangered 
Species Act and Marine Mammal Protection Act. The proposed $13.23 
million to Increase Consultation Capacity will aid NOAA's ability to 
complete these requirements in a timely manner.

ESA Salmon.--The Nature Conservancy supports the President's request of 
$68.501 million.

    Recovery of listed Atlantic and Pacific salmon provide distinct 
challenges. NOAA's cooperative efforts with States, tribes, and other 
partners such as The Nature Conservancy help to improve our 
understanding of and ability to protect listed salmon and the habitats 
that sustain them. The $1.301 million proposed increase to base funding 
will support the design and implementation of fish passage projects 
critical to the recovery of Atlantic salmon.
                         national ocean service
Coastal Management Grants.--The Nature Conservancy supports the 
President's request of $116.146 million.

    Our Nation's coastal areas are vital to our economy and our way of 
life. The narrow area along our coasts is home to approximately 163 
million people and coastal economies contribute over 45 percent of our 
gross domestic product. This concentration of activity exposes 
communities and businesses to risk from coastal storms, changing ocean 
and economic conditions, and user conflicts. The $45 million proposed 
increase in competitively awarded Regional Coastal Resilience Grants 
will provide the resources and tools to build coastal resilience to 
avoid costly Federal disaster assistance and sustain healthy fisheries, 
maintain robust tourism opportunities, provide for increased shipping 
demands, and other coastal industries. The Nature Conservancy has 
worked with NOAA through the Digital Coast partnership to develop 
decision support tools and techniques that help communities understand 
and reduce risk and build resilience. Sharing data across Federal, 
State, and tribal agencies, industry, and with non-governmental 
organizations has increased our collective ability to understand and 
incorporate into decisionmaking complex coastal economic, social, and 
ecological needs. Through the restoration of coastal habitats and use 
of natural infrastructure, we can improve communities' ability to 
minimize storm damage and improve fisheries productivity, water 
quality, and recreational opportunities.

Coral Reef Program.--The Nature Conservancy supports no less than the 
President's request of $26.1 million.

    The decline of coral reefs has significant social, economic, and 
ecological impacts on people and communities in the United States and 
around the world. The Conservancy works with NOAA's Coral Reef 
Conservation Program under a competitively awarded, multi-year 
cooperative agreement to address the top threats to coral reef 
ecosystems: climate change, overfishing, and land-based sources of 
pollution. Together we develop place-based strategies, measure the 
effectiveness of management efforts, and build capacity among reef 
managers globally.

Coastal Zone Management and Services.--The Nature Conservancy supports 
the President's request of $54.144 million.

    NOAA's data, research, and monitoring of coastal and marine systems 
provide data and decision-support tools that inform the safe operations 
of industry, prioritize habitats for restoration, and advance science-
based management decisions. The administration has requested a $5 
million increase for Ecosystem-based Solutions for Coastal Resilience. 
Improving our ability to incorporate natural infrastructure into 
coastal protection efforts before and after storms can help communities 
achieve multiple benefits such as improving fisheries productivity and 
coastal water quality. The proposed $4.78 million increase for Capacity 
to Respond to Extreme Events will improve modeling and observations and 
increased technical assistance to coastal communities to help reduce 
their risk to coastal storms and extreme weather, ultimately saving 
Federal disaster response and recovery expenditures. This will be 
further leverage by the proposed $2 million increase for the 
AmeriCorps' Resilience Corps Pilot Program Training and Technical 
Assistance. Decision support tools and increasing capacity within 
communities are cost-effective mechanisms to enable the implementation 
of resilience strategies.

National Estuarine Research Reserve System.--The Nature Conservancy 
supports no less than the President's request of $21.3 million.

    The National Estuarine Research Reserve System (NERRS) partners 
with States and territories to ensure long-term education, stewardship, 
and research on estuarine habitats. Atlantic, Gulf, Pacific, Caribbean 
and Great Lakes reserves advance knowledge and stewardship of estuaries 
and serve as a scientific foundation for coastal management decisions.

Sanctuaries and Marine Protected Areas.--The Nature Conservancy 
supports no less than the President's request of $48.3 million.

    National marine sanctuaries support economic growth and hundreds of 
coastal businesses in sanctuary communities, preserve vibrant 
underwater and maritime treasures for Americans to enjoy, and provide 
critical public access for ocean recreation, research, and education. 
Investment in these sites does more than simply protect discrete areas 
of the ocean; it places a down payment for the many Americans whose 
livelihoods are dependent on a healthy ocean and coasts.
    Thank you for this opportunity to share The Nature Conservancy's 
priorities. We would be pleased to provide the subcommittee with 
additional information on any of the Conservancy's activities.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Mr. Chairman and members of the subcommittee, my name is Lorraine 
Loomis and I am the Chairwoman of the Northwest Indian Fisheries 
Commission (NWIFC). The NWIFC is comprised of the 20 tribes that are 
party to the United States v. Washington \1\ (U.S. v. Washington). We 
are providing testimony for the record in support of funding for the 
National Oceanic and Atmospheric Administration (NOAA)/National Marine 
Fisheries Service (NMFS) for the fiscal year 2016 appropriations.
---------------------------------------------------------------------------
    \1\ United States v. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
          summary of fiscal year 2016 appropriations requests
  --$110.0 million for the Pacific Coastal Salmon Recovery Fund (NOAA/
        NMFS).
  --$13.8 million for the Pacific Salmon Treaty, including the 
        additional $3.0 million for the 2008 Chinook Salmon Agreement 
        (NOAA/NMFS).
  --$18.9 million for the Mitchell Act Hatchery Program (NOAA/NMFS).

    We are generally pleased with the President's fiscal year 2016 
budget request but much more needs to be done. It promotes a strong 
stewardship in sustaining our vital natural resources. The natural 
resources that we depend on are vital to our tribal communities, 
economies and jobs. The land and the many natural resources we depend 
on are a necessity for our communities to thrive.
    The western Washington treaty tribes brought to the Federal 
Government our Treaty Rights at Risk (TRAR) initiative almost 4 years 
ago. The continued loss and degradation of the salmon habitat continues 
to hamper our salmon recovery efforts, which threatens our tribal 
treaty rights. The Federal Government has the obligation and authority 
to ensure both the recovery of salmon and the protection of tribal 
treaty rights. These constitutionally protected treaties, the Federal 
trust responsibility and extensive case law, including the U.S. v. 
Washington decision, all support the role of tribes as natural resource 
managers, both on and off reservation. While our TRAR has garnered a 
lot of discussion, it has been slow to create any change in the manner 
in which Federal agencies operate. It has not been enough to change the 
trajectory of salmon recovery in our region from a negative to a 
positive direction.
    Salmon has always been the foundation of tribal cultures, 
traditions and economies in western Washington. Wild salmon and their 
habitat continue to decline despite massive reductions in harvest and a 
significant investment in salmon recovery and habitat restoration. 
However, fulfilling these Federal obligations is not an option and 
these investments must continue as we work to recover the salmon 
populations.
    In Washington State, we have developed a successful co-management 
partnership between the Federal, State and tribal governments. Tribes 
seize every opportunity to coordinate with other governments and non-
governmental entities to avoid duplication, maximize positive impacts, 
and emphasize the application of ecosystem-based management. This 
collaboration has helped us to deal with many problems, and as 
sovereign nations, we will continue to participate in resource recovery 
and habitat restoration with the State of Washington and the Federal 
Government because we understand the great value of such cooperation.
    Hatchery production also continues to be a critical component in 
fulfilling these treaty-reserved rights and play a vital role in the 
management of our fisheries. In addition to our habitat concerns, the 
hatchery systems in the State of Washington are under attack by third 
party litigation due to the lack of approved Hatchery and Genetic 
Management Plans (HGMPs) under the ESA. This was realized last fall 
with legal action that prevented the release of one million hatchery 
steelhead in western Washington. The problem will continue until the 
National Marine Fisheries Service has completed its ESA determinations. 
Resources and immediate action is needed to address the current backlog 
of HGMPs so that Indian and non-Indian fishermen and our communities 
are not further impacted by loss of their fisheries.
    To address these many concerns adequate funding is necessary for 
hatchery production and salmon habitat restoration. The programs we 
support provide the necessary salmon production and assists tribes in 
the implementation of salmon recovery plans that moves us in the 
direction of achieving the recovery goals, which is a direct request in 
our TRAR initiative. As Congress considers the fiscal year 2016 budget, 
we ask you to consider our requests that are further described below.
                       justification of requests
Provide $110.0 million for NOAA Pacific Coastal Salmon Recovery Fund
    We respectfully request $110.0 million, an increase of $52.0 
million over the President's request. The fiscal year 2015 
appropriations provided a total of $65.0 million. These funds have 
decreased from the peak of $110.0 million in fiscal year 2002. We 
continue to support the original congressional intent of these funds 
that would enable the Federal Government to fulfill its obligations to 
salmon recovery and the treaty fishing rights of the tribes.
    The PCSRF is a multi-State, multi-tribe program established by 
Congress in fiscal year 2000 with a primary goal to help recover wild 
salmon throughout the Pacific coast region. The PCSRF supports projects 
that restore, conserve and protect Pacific salmon and steelhead and 
their habitats. PCSRF is making a significant contribution to the 
recovery of wild salmon throughout the region by financially supporting 
and leveraging local and regional efforts. Salmon restoration projects 
not only benefits fish populations and their habitat but provides much 
needed jobs for the local communities.
    The tribes' overall goal in the PCSRF program is to restore wild 
salmon populations while the key objective is to protect and restore 
important habitat in Puget Sound and along the Washington coast. This 
is essential for western Washington tribes to exercise their treaty-
reserved fishing rights consistent with U.S. v. Washington and Hoh v. 
Baldrige \2\ and also promotes the recovery of ESA listed species and 
other salmon populations. The tribes have used these funds to support 
the scientific salmon recovery approach that makes this program so 
unique and important.
---------------------------------------------------------------------------
    \2\ Hoh v. Baldrige--A Federal court ruling that required fisheries 
management on a river-by-river basis.
---------------------------------------------------------------------------
    It is for these reasons that the tribes strongly support the PCSRF. 
We will continue to seek an equitable allocation to the NWIFC and 
member tribes through the NOAA Fisheries funding process. These funds 
support policy and technical capacities within tribal resources 
management to plan, implement, and monitor recovery activities. In 
addition to watershed restoration and salmon recovery work they also 
help fund fish hatchery reform efforts to allow for the exercise of 
tribal treaty fishing rights.
Provide $13.8 million for NOAA Pacific Salmon Treaty, including the 
        additional $3.0 million associated with the 2008 Chinook Salmon 
        Agreement
    We support the Pacific Salmon Commission (PSC)/U.S. Section's 
request of $13.8 million, an increase of $2.5 million over the 
President's request. The fiscal year 2015 appropriations provided a 
total of $11.3 million. We also support as part of their request $1.5 
million for the Puget Sound Critical Stock Augmentation Program and 
$1.5 million for the Coded Wire Tag (CWT) Program as required by the 
2008 PST Chinook Annex Agreement.
    The Puget Sound Critical Stock funding covers the operation and 
maintenance costs for the hatchery augmentation programs established 
for Dungeness, Stillaguamish, and Nooksack Chinook. These hatchery 
efforts were initiated in connection with the 2008 Chinook Agreement of 
the US/Canada Pacific Salmon Treaty (PST) as the conservation needs of 
these populations could not be met by harvest restriction actions 
alone. The CWT funding allows for continued maintenance and efficiency 
improvements of the coast-wide CWT program. This is essential for the 
sustainability and management of our fisheries resources. Currently 
there is not enough funding allocated to carry out the requirements of 
the PST, which causes the PSC to not be able to perform all of its 
responsibilities required in the treaty and its Chinook and coho 
annexes. As co-managers of the fishery resources in western Washington, 
tribal participation in implementing the PST is critical to achieve the 
goals of the treaty to protect, share and restore salmon resources.
    The PST was implemented in 1985 through the cooperative efforts of 
tribal, State, U.S. and Canadian Governments, and sport and commercial 
fishing interests. The PSC was created by the United States and Canada 
to implement the treaty, which was most recently updated in 2008. The 
PSC establishes fishery regimes, develops management recommendations, 
assesses each country's performance and compliance with the treaty, and 
is the forum for all entities to work towards reaching an agreement on 
mutual fisheries issues. As co-managers of the fishery resources in 
western Washington, tribal participation in implementing the PST is 
critical to achieve the goals of the treaty to protect, share and 
restore salmon resources.
    Adult salmon returning to most western Washington streams migrate 
through U.S. and Canadian waters and are harvested by fisherman from 
both countries. For years, there were no restrictions on the 
interception of returning salmon by fishermen of neighboring countries. 
The 2008 update of the treaty gave additional protection to weak runs 
of Chinook salmon returning to Puget Sound rivers. The update also 
provided compensation to Alaskan fishermen for lost fishing 
opportunities, while also funding habitat restoration in the Puget 
Sound region.
Provide $18.9 million for NOAA Mitchell Act Hatchery Program
    We respectfully request $18.9 million for the Mitchell Act Hatchery 
Program, an increase of $3.0 million over the President's request. The 
fiscal year 2015 appropriations provided a total of $18.9 million. 
Funding is provided for the operation of 17 fish hatcheries that 
release between 50 and 60 million juvenile salmon and steelhead in 
Oregon, Washington, and Idaho. This program has historically provided 
fish production for tribal treaty fisheries in the Columbia River, and 
for ocean and in-river recreational and commercial fisheries.
    It is especially important to us in that they provide significant 
fish production for harvest opportunities for tribal treaty fisheries 
along the Washington coast. Providing adequate funding to maintain the 
current production levels from the Mitchell Act hatcheries on the 
Columbia River is important as this production not only supports 
coastal salmon fisheries but dampens the impact of Canadian fisheries 
under the terms of the PST Chinook Annex on Puget Sound and coastal 
stocks.
    Overall production from these hatcheries has been reduced from more 
than 100 million to fewer than 60 million fish. This hatchery 
production is intended to mitigate for the lost production caused by 
the hydropower dam system on the Columbia River. Substantial changes 
have been made, and will continue to be required of the Mitchell Act 
Program, due to the application of the ESA throughout the Columbia 
Basin. Adequate funding will also allow these facilities to be 
retrofitted to meet current ESA standards as identified through the 
hatchery reform process.
                               conclusion
    The treaties and the treaty-reserved right to harvest are the 
supreme law of the land under the U.S. Constitution. Some of the treaty 
tribes have had to give up even their most basic ceremonial and 
subsistence fisheries, which is unacceptable. It is critically 
important for Congress and the Federal Government to do even more to 
coordinate their efforts with State and tribal governments. We need 
your continued support in upholding the treaty obligations and 
fulfilling the trust responsibility of those treaties in order for 
tribes to be successful.
    We respectfully urge you to continue to support our efforts to 
protect and restore our great natural heritage that in turn will 
provide for thriving economies. Thank you.
                                 ______
                                 
                Prepared Statement of Ocean Conservancy
    Thank you for this opportunity to provide Ocean Conservancy's 
recommendations for fiscal year 2016 funding for NOAA. Ocean 
Conservancy has worked for over 40 years to address ocean threats 
through sound, practical policies that protect our ocean and improve 
our lives. We support funding for NOAA at or above the President's 
request of $6 billion, and we support balanced investments across 
NOAA's atmospheric and oceanic missions. We recommend the following 
funding levels for specific programs.


----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year 2016
     Account, Program or Activity          Fiscal year 2015        President's budget     Fiscal year 2016 Ocean
                                               enacted                  request            Conservancy request
----------------------------------------------------------------------------------------------------------------
OPERATIONS RESEARCH AND FACILITIES
National Ocean Service:
  Navigation, Observations, and        $189.206 million.......  $195.5 million.........  $195.5 million
   Positioning.
  Coastal Science, Assessment,
   Response, and Restoration:
    Marine Debris....................             --                       --            $8 million
    Arctic Spill Preparedness........             --            $1.3 million increase..  $1.3 million increase
National Marine Fisheries Service:
  Marine Mammals, Sea Turtles, and     $115.219 million.......  $145.71 million........  $147.61 million
   Other Species.
  Fisheries and Ecosystem Science      $132.189 million.......  $146.317 million.......  $146.317 million
   Programs and Services.
    Electronic Monitoring and                     --            $5.596 million increase  $5.596 million increase
     Reporting.
    Distributed Biological Obs.                   --            $879,000 increase......  $879,000 increase
     (Arctic).
  Fisheries Data Collections, Surveys  $158.271 million.......  $163.251 million.......  $163.251 million
   and Assessments.
  Fisheries Management Programs and    $120.458 million.......  $128.367 million.......  $128.367 million
   Services.
    Management and Reg. Support for               --            $1.45 million increase.  $1.45 million increase
     Electronic Technologies.
Office of Oceanic and Atmospheric
 Research:
  Integrated Ocean Acidification.....  $8.5 million...........  $30.005 million........  $30.005 million
  Regional Climate Data and            $38 million............  $52.437 million........  $52.437 million
   Information.
    NOAA Arctic Research Program.....             --            $2.190 million increase  $2.190 million increase
Program Support:
  Marine Operations and Maintenance..  $175 million...........  $178.838 million.......  $178.838 million
----------------------------------------------------------------------------------------------------------------

                    preparing for a changing arctic
    We support the three funding increases requested by NOAA in fiscal 
year 2016 that make investments we need now to be prepared for economic 
and ecological challenges of a changing Arctic. We also support 
continued funding for oceanographic charting of Arctic waters. Ocean 
Conservancy supported NOAA's requested increases last fiscal year as 
well, but the funding was not appropriated. Considering the U.S. 
chairmanship of the Arctic Council beginning this calendar year, it is 
even more important now that these investments be made to demonstrate 
U.S. leadership in the Arctic.

  --Navigation, Observations and Position: $195.5 million

       The Coast Guard's recently announced continuation and expansion 
of its Port Access Route Study in the Chukchi Sea, Bering Strait, and 
Bering Sea points to the importance of up-to-date Arctic charts. In 
addition, NOAA's Arctic Vision and Strategy notes that confidence in 
the nautical charts of the Arctic region is ``extremely low.'' NOAA has 
made progress in recent years with new or updated charts for Kotzebue 
Harbor, Bering Strait North, and DeLong Mountain Terminal, but Arctic 
waters are vast and it will take steady and consistent effort to 
complete the work of modernizing Arctic nautical charts.

  --Arctic Spill Preparedness: $1.3 million increase

       Currently, there is no demonstrated technology, technique or 
infrastructure to respond effectively to an oil spill in icy Arctic 
waters. Funding to support improved models, increased capacity and 
coordination, and research is urgently needed. Along with a 
precautionary approach, these efforts can guide decisions about whether 
development activities should occur in the Arctic and, if so, when, 
where, and how they occur.

  --Distributed Biological Observatory (Arctic): $879,000 increase

       The Arctic marine ecosystem provides irreplaceable benefits, but 
our understanding of this ecosystem is hampered by a lack of reliable 
baseline data, critical science gaps, and limited documentation and 
application/use of traditional knowledge. Funding will provide much-
needed support for collection of baseline data and analysis of 
ecosystem functions in Arctic marine waters so we better understand 
Arctic fisheries and other valuable ecosystem services. Without this 
better understanding our ability to make informed decisions is 
compromised.

  --NOAA Arctic Research Program: $2.19 million increase

       Temperatures in the Arctic are warming at twice the rate of the 
global average and seasonal sea ice is diminishing rapidly. Funding to 
expand and improve NOAA's Arctic Observing Network is critical to track 
and understand these profound changes and provide products that inform 
industries and decision-makers and support our ability to adapt.
                       marine debris: $8 million
    Marine debris has become one of the most pervasive pollution 
problems facing the world's oceans, coasts and waterways. Research has 
demonstrated that persistent debris has serious effects on the marine 
environment, wildlife and the economy. Marine debris causes wildlife 
entanglement, ghost fishing, destruction of habitat, navigational 
hazards, vessel damage and pollutes coastal areas. There is also 
increasing concern over the threat of microplastics to the marine food 
web and potentially humans. NOAA's Marine Debris program supports 
existing monitoring and research efforts to better understand 
accumulation rates of debris and debris source and sink dynamics. The 
program catalyzes scientific research efforts to quantify the direct 
and indirect economic impacts caused by marine debris on coastal 
communities and economies that rely on them. NOAA is instrumental in 
the removal of hundreds of tons of marine debris from our coasts and 
waters every year, restoring the productivity of coastal and marine 
ecosystems. And increasingly, NOAA's program is emphasizing research on 
microplastics in the ocean and their toxicological impacts on marine 
organisms. NOAA's Marine Debris program was originally authorized at a 
level of $10 million. We support funding for this program at $8 
million.
                             marine mammals
    We do not support NOAA's proposed cut of $1.9 million dollars from 
the John H. Prescott Marine Mammal Rescue Assistance Grant Program. 
This cut would harm marine mammal stranding networks, which are the 
first responders for sick or dying marine mammals. Marine mammals face 
significant threats in the Gulf of Mexico, from oil and gas exposure 
with the Galveston Bay Spill providing the latest example, to the 
ongoing unusual mortality event (UME) occurring in the northern Gulf. 
Since February 2010, over 1300 marine mammals have died in the Northern 
Gulf of Mexico which is both three times more animals impacted and 
three times longer in duration than any other UME in the Gulf. Programs 
in Texas and Florida in particular would be harmed by this cut because 
they are not currently benefitting from BP Natural Resource Damage 
Assessment dollars that are temporarily filling funding gaps in 
northern Gulf rescue centers, but not elsewhere.
                    fisheries science and management
    We support funding for programs that implement the Magnuson-Stevens 
Fishery Conservation and Management Act. As we review the Act for 
reauthorization, it is important to note that the Act is working--NOAA 
has made great strides towards ending overfishing and continued 
investments in these programs are needed.

  --Electronic Monitoring and Reporting: $5.596 million increase in 
        Fisheries and Ecosystem Science Programs and Services; $1.45 
        million increase in Fisheries Management Programs and Services

       We support increasing funding for electronic monitoring and 
reporting requested by NOAA. This funding has been requested for 
nationwide efforts, but in the Gulf of Mexico alone, where managers 
need electronic monitoring to keep track of catch and prevent overruns 
in the red snapper fishery, there is significant need for additional 
funding. Based on the findings of the November 2014 ``Technical 
Subcommittee Report to the South Atlantic and Gulf of Mexico Fishery 
Management Councils: Recommendations for Electronic Logbook Reporting'' 
NOAA's requested increases are only a portion of what is needed to 
support effective electronic monitoring. The Gulf of Mexico region 
alone will require more than $5 million annually to support electronic 
monitoring.

  --Expand Annual Stock Assessments: $2.815 million increase in 
        Fisheries Data Collections, Surveys and Assessments

       This funding provides critically needed resources for fisheries 
managers to assess priority fish stocks, implement the requirement for 
annual catch limits (ACLs), and ensure the successful recovery of 
overfished populations. These activities give fishery managers greater 
confidence that their ACLs will avoid overfishing while providing 
optimal fishing opportunities. Because the information provided by 
stock assessments is so vital for sustainable management of U.S. 
fisheries, increased funding for stock assessments should remain among 
the highest priorities in fiscal year 2016.

  --Marine Recreational Information Program

       We also support full funding for Fisheries Data Collections, 
Surveys and Assessments because this funding supports the Marine 
Recreational Information Program. Despite their often sizeable economic 
and biological impacts, much less data are collected from recreational 
saltwater fisheries than commercial fisheries due to the sheer number 
of participants and limited sampling of anglers' catches. The low level 
of data collection and lack of timely reporting of data in these 
fisheries is a large source of uncertainty and has become a flashpoint 
for controversy in regions where catch restrictions have been adopted 
to rebuild overfished stocks, particularly in the Southeast. By all 
accounts, improved sampling and timelier reporting of catch data are 
needed for successful management of marine recreational fisheries.

  --Marine Operations and Maintenance: $178.838 million

       Marine Operations and Maintenance should be funded at or above 
the President's request level of $178.838 million. Days at sea funded 
by this line are functionally tied to fishery stock assessments, and 
the two programs must be viewed together.
                     integrated ocean acidification
    In recent years, scientists have raised the alarm about ocean 
acidification--a process whereby ocean waters' absorption of carbon 
dioxide emissions alters marine acidity. These changes can have far-
reaching consequences for marine life, including economically important 
species like shellfish. For example, the shellfish industry in the 
Pacific Northwest has been devastated in recent years as increasingly 
acidic water impacted oyster hatcheries, nearly wiping out several 
years-worth of oyster ``seed.''
    Given the magnitude of the potential impacts of ocean acidification 
we believe this area warrants the increased research investment 
proposed in the President's fiscal year 2016 request of $30.005 
million. We greatly appreciate last year's appropriation of $8.5 
million for fiscal year 2015, and believe the increase in funding is 
critical to allow NOAA to not only keep existing programs running, and 
continue assessing acidification effects on commercial and recreational 
marine species, but also improve and expand existing regional shared 
ocean acidification experimental facilities, and develop synthesis and 
visualization products responsive to stakeholder needs. By increasing 
the programmatic funding for Integrated Ocean Acidification, NOAA will 
be able to take these concrete actions to more effectively tackle the 
economic and local implications of ocean acidification and prepare for 
future strategies that will protect our Nation's key ocean and coastal 
economies.
                                 ______
                                 
Prepared Statement of the Population Association of America/Association 
                         of Population Centers
    Thank you, Chairman Shelby, Ranking Member Mikulski, and other 
distinguished members of the subcommittee, for this opportunity to 
express support for the Census Bureau, the National Science Foundation 
(NSF), and the Bureau of Economic Analysis (BEA). These agencies are 
important to the Population Association of America (PAA) and 
Association of Population Centers (APC), because they provide direct 
and indirect support to population scientists and the field of 
population, or demographic, research overall. In fiscal year 2016, we 
urge the subcommittee to adopt the following funding recommendations: 
Census Bureau, $1.5 billion, consistent with the administration's 
request; National Science Foundation (NSF), $7.7 billion, consistent 
with the administration's request; and, Bureau of Economic Analysis, 
$110 million, consistent with the administration's request.
    The PAA and APC are two affiliated organizations that together 
represent over 3,000 social and behavioral scientists and almost 40 
population research centers nationwide that conduct research on the 
implications of population change. Our members, which include 
demographers, economists, sociologists, and statisticians, conduct 
scientific research, analyze changing demographic and socio-economic 
trends, develop policy recommendations, and train undergraduate and 
graduate students. Their research expertise covers a wide range of 
issues, including adolescent health and development, aging, health 
disparities, immigration and migration, marriage and divorce, 
education, social networks, housing, retirement, and labor. Population 
scientists compete for funding from the NSF and rely on data produced 
by the Nation's statistical agencies, including the Census Bureau and 
BEA, to conduct research and research training activities.
                           the census bureau
    The Census Bureau is the premier source of data regarding U.S. 
demographic, socio-economic, and housing characteristics. While PAA/APC 
members have diverse research expertise, they share a common need for 
access to accurate, timely data about the Nation's changing socio-
economic and demographic characteristics that only the U.S. Census 
Bureau can provide through its conduct of the decennial census, 
American Community Survey (ACS), and a variety of other surveys and 
programs.
    We recognize that the fiscal year 2016 request is $413 million more 
than the agency's fiscal year 2015 funding level. However, as you know, 
the Census Bureau's budget is cyclical, and fiscal year 2016 is a 
pivotal year in the 2020 Census planning cycle. This fall, after 
completing several years of in-depth research and testing, the Census 
Bureau will announce the design framework for the 2020 Census. The 
design decision is already a year behind schedule, due to past budget 
shortfalls, and the agency must pivot immediately to the systems and 
operations development phase of the census, as it prepares to execute 
that design. In fiscal year 2016, the agency plans to:
  --conduct a Field Operations Test to evaluate new 2020 Census 
        management framework for nonresponse follow-up operations;
  --perform the 2016 Early Operations Test of new, targeted address 
        canvassing methods;
  --evaluate the use of administrative records to remove inaccurate 
        addresses and to enumerate households that do not self-respond;
  --initiate the 2020 Census Communications campaign;
  --hire hundreds of new employees to manage and implement design and 
        development activities and to conduct field tests; and
  --implement a national content test for the ACS to reduce the 
        survey's response burden, improve the usefulness of data 
        products, and streamline field operations.
    These ambitious plans, if supported, would not only enhance the 
conduct and outcome of the 2020 Census, but could also make it more 
cost effective, saving an estimated $5 billion over the lifecycle cost 
of the census. Conversely, without sufficient resources to pursue these 
innovations, the bureau is likely to rely on traditional and far more 
costly census methods-- an outcome that would jeopardize the accuracy 
of the 2020 Census and most certainly preclude the agency from abiding 
by Congress' directive to keep the cost of the next census at the 2010 
level.
    With respect to the ACS, the PAA and APC urge the subcommittee to 
oppose any attempts that may occur during consideration of the fiscal 
year 2016 Commerce, Justice, Science appropriations bill to change the 
mandatory response status of the ACS. In 2003, the Census Bureau 
conducted a test on a voluntary ACS. They found that survey costs 
increased by approximately $60 million ($90 in real dollars) and 
response rates decreased by an estimated 20 percent. Canada's recent 
experience of moving from a mandatory to voluntary long form is a 
cautionary example. The overall response rate dropped from 94 percent 
to under 69 percent, increasing costs by $22 million as Statistics 
Canada increased the sample size to make up for lower response. Despite 
these efforts, Statistics Canada could not produce reliable socio-
economic estimates for 25 percent of all ``places'' in the Nation--
mostly small communities and rural areas. Experts have described the 
data on income as not usable for business and policy purposes. The U.S. 
should heed Canada's example and maintain the integrity of the 
mandatory ACS.
                   national science foundation (nsf)
    The mission of NSF is to promote the progress of science; to 
advance the national health, prosperity, and welfare; and to secure the 
national defense. Understanding the implications of complex population 
dynamics is vital to the agency's mission. The Directorate of Social, 
Behavioral and Economic (SBE) Sciences is the primary source of support 
for the population sciences within the NSF. The Directorate funds 
critical large-scale longitudinal surveys, such as the Panel Study of 
Income Dynamics, that inform pressing policy decisions and enable 
policy makers to make effective decisions. Other projects, such as the 
Social Observatory Coordinating Network, integrate social science and 
health research, linking community and national data to improve 
population health.
    NSF is the funding source for over 20 percent of all federally 
supported basic research conducted by America's colleges and 
universities, including basic behavioral and social research. SBE funds 
more than half of the university-based social and behavioral sciences 
research in the Nation.
    PAA and APC, as members of the Coalition for National Science 
Funding, request that the subcommittee provide the NSF with the 
administration's request, $7.7 billion. This budget will enable the NSF 
SBE Directorate to continue its support of social science surveys and a 
robust portfolio of population research projects. The NSF also 
continues to focus on interdisciplinary research initiatives, 
recognizing that social and behavioral factors are intrinsic to many 
critical areas of research--for example the recent Understanding the 
Brain initiative. Funding at this level will enable NSF to maintain 
funding for the most promising grant applications that promote 
transformational and multidisciplinary research. Steady and sustainable 
real growth will enhance the Nation's capability to make new 
discoveries, leading to new innovations.
                   bureau of economic analysis (bea)
    While a relatively small agency, the BEA is enormously important to 
understanding our multi-trillion dollar economy. A diverse range of 
data users rely on BEA data: Federal, State and local government 
officials use BEA data to inform economic and fiscal policy; businesses 
use BEA data to guide investment decisions; and scientists use BEA data 
to understand and interpret trends in labor, employment, and national 
and international economies. Despite its importance, since fiscal year 
2010, the BEA budget has not kept pace with inflation. The PAA and APC 
join other national organizations to urge the subcommittee to provide 
BEA with $110 million in fiscal year 2016. This funding is necessary to 
both restore the agency's purchasing power and to launch new 
initiatives to improve energy accounting and economic statistics and to 
expand data used to inform trade negotiations and support trade 
promotion efforts.
    Thank you for considering our requests and for supporting Federal 
programs that benefit the population sciences.
                                 ______
                                 
           Prepared Statement of Restore America's Estuaries
    Restore America's Estuaries is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our Nation's 
greatest estuaries. Our mission is to restore and protect bays and 
estuaries as essential resources for our Nation. Restore America's 
Estuaries is an alliance of community-based coastal conservation 
organizations across the Nation that protect and restore coastal and 
estuarine habitat. Our member organizations include: American Littoral 
Society, Chesapeake Bay Foundation, Coalition to Restore Coastal 
Louisiana, Save the Sound--a program of the Connecticut Fund for the 
Environment, Conservation Law Foundation, Galveston Bay Foundation, 
North Carolina Coastal Federation, EarthCorps, Save The Bay--San 
Francisco, Save the Bay--Narragansett Bay, and Tampa Bay Watch. 
Collectively, we have over 250,000 members nationwide.
    As you craft your fiscal year 2016 Commerce, Justice, Science and 
Related Agencies appropriations bill, Restore America's Estuaries 
encourages you to provide the funding levels below within the 
Department of Commerce, National Oceanic and Atmospheric Administration 
(NOAA) for core programs which greatly support coastal community 
economies:

  --$47 million for Habitat Conservation and Restoration ($62.235 
        million under proposed new structure)

       (CJS: NOAA: ORF: NMFS: Habitat Conservation and Restoration)

  --$50 million for Regional Resilience Grants

       (CJS: NOAA: PAC: NOS: CELCP Acquisition)

  --$23.9 million for National Estuarine Research Reserve System

       (CJS: NOAA: ORF: NOS: Ocean and Coastal Management and Services: 
National Estuarine Research Reserve System)

  --$1.7 million for National Estuarine Research Reserve Construction

       (CJS: NOAA: PAC: NOS: NERRS Construction)

    These investments strengthen and revitalize America's communities 
by buffering against storms, supporting commercial fisheries, 
preventing erosion, protecting vital infrastructure, eliminating public 
safety hazards, and providing new recreational opportunities.
               noaa habitat conservation and restoration
    NOAA's Office of Habitat Conservation (OHC) protects, restores, and 
promotes stewardship of coastal and marine habitat to support our 
Nation's fisheries and improve the resiliency of coastal communities 
through financial support and a range of restoration expertise and 
services. Within funds provided, we ask that the subcommittee provide 
no less than $26 million for Community-based Restoration, Resiliency 
Grants, and Estuary Restoration Program.
    Funding for the Office of Habitat Conservation through the Habitat 
Conservation and Restoration PPA supports both the Community-based 
Restoration Program, Estuary Restoration Program and staff capacity to 
efficiently execute and facilitate habitat restoration nationwide. 
Activities range from planning and implementation activities for 
Natural Resource Damage Assessment (NRDA) and Restoration Trustee 
responsibilities for all active cases (e.g. Deepwater Horizon oil 
spill) to expert restoration services across NOAA programs including 
the Coastal Wetlands Planning Protection and Restoration Act (CWPPRA), 
the Great Lakes Restoration Initiative (GLRI), and the National Fish 
Habitat Action Plan and the National Fish Habitat Partnership (NFHP). 
Focusing NOAA's restoration capacity within the OHC Restoration Center 
allows NOAA to efficiently execute and facilitate habitat restoration 
nationwide.
    We urge the subcommittee to leverage the existing staff capacity 
and restoration expertise within the Restoration Center and support 
efforts to elevate NOAA's Community-based Restoration Program. This 
program supports locally driven and voluntary coastal restoration 
projects with national, regional, and local organizations through 
competitively awarded public-private partnerships. This non-regulatory 
tool is unique within NOAA because of its ability to provide seed 
funding for community-driven and innovative restoration. CBRP 
complements traditional fishery management and leverages non-Federal 
resources 3-5 times the Federal investment. Projects result in 
healthier habitats, which strengthen our commercial and recreational 
fisheries.
    Restore America's Estuaries appreciates the subcommittee's past 
support for the Community-based Restoration Program and the inclusion 
of report language directing NOAA to ensure restoration funds achieve 
multiple benefits, including but not limited to fisheries.
    The Estuary Restoration Program was transferred from the National 
Ocean Service to the National Marine Fisheries Service under the 
Habitat Conservation and Restoration PPA without additional funding in 
the fiscal year 2014 omnibus appropriations. The Estuary Restoration 
Act established a comprehensive interagency organization, the Estuary 
Habitat Restoration Council, which is comprised of five key Federal 
restoration agencies and leads a coordinated approach to enhance 
estuary habitat restoration. Under the Act, NOAA is responsible for 
maintaining the National Estuaries Restoration Inventory (NERI). Modest 
funding is necessary for maintaining/updating NERI and to ensure cross-
agency collaboration continues. Restore America's Estuaries urges your 
continued support of the Estuary Restoration Council and NOAA's Estuary 
Restoration Program.
    We strongly urge the subcommittee to provide no less than $47 
million for Habitat Conservation and Restoration, which maintains the 
fiscal year 2015 enacted level. Within funds provided, no less than $26 
million should be for the Community-based Restoration Program, 
Resiliency Grants, and Estuary Restoration Program. To adopt the 
administration's proposed changes to the Habitat Conservation and 
Restoration PPA and maintain level external restoration funding, the 
subcommittee must provide no less than $62.235 million if the proposed 
new structure is adopted. Restore America's Estuaries strongly supports 
the inclusion of the following:

        Report Language: Within funds provided, NOAA shall maximize 
        external funding for public-private partnerships. NOAA shall 
        issue a revised call for partnership proposals that prioritize 
        direct community involvement and stewardship of local projects 
        that support a range of benefits to coastal watershed 
        communities. The subcommittee encourages NOAA to prioritize 
        projects with diversity of support, but not to require the 
        support of a coastal State's governor due to the burden this 
        places on smaller organizations.

NOAA, REGIONAL COASTAL RESILIENCE GRANTS
(CJS: NOAA: ORF: NOS: Regional Coastal Resilience Grants)

    Restore America's Estuaries commends the administration's request 
for $50 million for the Regional Coastal Resilience Grant Program to 
more fully address a suite of resilience challenges facing all U.S. 
coastal regions--including community, ecosystem, and economic 
resilience--within a single, competitive grants program. Restore 
America's Estuaries encourages the subcommittee to look at the 
Community-based Restoration Program and the NOAA Restoration Center as 
models for scaling ecosystem restoration efforts that increase 
resilience. NOAA estimates 2,000 acres of habitat restored per $5 
million invested in ecosystem resilience grants.
    Previous proposals have included language suggesting that project 
sponsors secure the support of the coastal State's Governor. We 
encourage the subcommittee to reconsider the requirement of securing 
support of the State's Governor due to the difficulty and burden this 
places on smaller organizations like local nonprofits. Specifically we 
are concerned this could disadvantage some community-driven projects if 
they do not have access to the State's Governor, especially in medium 
to large States.
    Restore America's Estuaries urges Congress to fund the Regional 
Coastal Resilience Grant Program at $50 million. We urge the 
subcommittee to ensure that NOS coordinates closely with the 
Restoration Center to increase efficiency and leverage capacity to help 
meet shared goals.

NOAA, NATIONAL ESTUARINE RESEARCH RESERVE SYSTEM
(CJS: NOAA: ORF: NOS: Ocean and Coastal Management and Services: 
        National Estuarine Research Reserve System)/(CJS: NOAA: PAC: 
        NOS: NERRS Construction)

    The National Estuarine Research Reserve System (NERRS) is comprised 
of 28 protected reserves that support long-term research, education, 
training, and monitoring. Through an effective partnership between NOAA 
and coastal States, NERRS plays a critical role in sustaining resilient 
coasts and coastal communities.
    The States have been entrusted to operate and manage NOAA's program 
in 22 States and Puerto Rico, where over 1.3 million acres of land and 
water are protected in perpetuity.
    Restore America's Estuaries respectfully requests $23.9 million for 
NERRS operations in fiscal year 2016. At this funding level, the 28 
existing reserves will maintain level funding and support will be 
provided for the addition of the 29th reserve in Hawaii. The 
designation of a Hawaii NERR will fill an unrepresented bio-geographic 
region in the NERR system.
    NERRS assists our coastal communities, industries and resource 
managers to enhance coastal resiliency in a changing environment. As 
severe weather events become more common, Federal, State, and local 
officials are recognizing that estuaries have the capacity to provide 
green resilience infrastructure. Through NERRS, NOAA can tailor science 
and management practices to enable local planners to use estuarine 
habitat as a tool for resilience and adaptation.
    Through scientific research and science-based management of more 
than 1.3 million acres of protected land, NERRS provides numerous 
benefits to communities that result in improved water quality, 
increased upland flood and erosion control, and improved habitat 
quality that support local fisheries and provide storm protection to 
coastal communities.
                               conclusion
    Restore America's Estuaries greatly appreciates the support this 
subcommittee has provided in the past for these important programs. 
These programs help to accomplish on-the-ground restoration work which 
results in major benefits:
  --Jobs.--Coastal habitat restoration projects create between 17-33 
        jobs per $1 million invested. That's more than twice as many 
        jobs as the oil and gas sector and road construction industries 
        combined.
  --More fish.--Traditional fisheries management tools alone are 
        inadequate. Fish need healthy and abundant habitat for 
        sustainable commercial and recreational fisheries.
  --Resiliency.--Restoring coastal wetlands can help knock down storm 
        waves and reduce devastating storm surges before they reach the 
        people and property along the shore.
  --Leverage.--Community-based restoration projects leverage 3-5 times 
        the Federal investment through private matching funds, 
        amplifying the Federal investment and impact.
    Thank you for taking our requests into consideration as you move 
forward in the fiscal year 2016 appropriations process. We stand ready 
to work with you and your staff to ensure the health of our Nation's 
estuaries and coasts.
                                 ______
                                 
            Prepared Statement of the Sea Grant Association
    On behalf of the 33 Sea Grant programs in every coastal and Great 
Lake State, plus Puerto Rico and Guam, the Sea Grant Association (SGA) 
expresses its gratitude to the subcommittee for strong and consistent 
support it has provided year in and year out for the National Sea Grant 
College Program (Sea Grant). As the subcommittee works to develop an 
fiscal year 2016 appropriations bill the SGA urges the subcommittee to 
take full advantage of the Sea Grant program's strengths in research, 
extension, outreach, and education--particularly in the area of coastal 
community resiliency--by fully funding the program at a level of $80 
million and rejecting the administration's proposal to terminate STEM 
education in the Sea Grant program.
    Sea Grant is NOAA's Federal-State partnership program that supports 
science-based, environmentally sustainable practices to ensure our 
coastal communities remain engines of economic growth in a rapidly 
changing world. For example, over the next century, sea level rise in 
the Los Angeles region is expected to match global projections with an 
increase of 0.1-0.6 meters from 2000 to 2050. California Sea Grant 
developed and released the first study of what this will mean to one of 
America's largest cities and spurred creation of a regional planning 
process to protect the city from the consequences.
    Meanwhile Sea Grant researchers in Hawaii are providing improved 
projections of how ocean acidification is likely to impact Hawaiian 
coral reefs and examining the potential for corals to adapt or 
acclimatize to future conditions. Hawaiian coral reefs are valued at 
over $33 billion annually to the American public, and every year Hawaii 
derives an estimated $364 million directly from coral reefs in addition 
to other benefits, such as shoreline protection.
    Georgia Sea Grant is working with the Georgia Department of Natural 
Resources to develop a detailed climate adaptation plan for the barrier 
island community of Tybee Island, Georgia. The plan, based on specific 
adaptation scenarios, visualizes impacts from storm surges and coastal 
flooding. The City of Tybee Island has formally agreed to consider 
adopting the recommendations developed by this project through 
appropriate local ordinances, infrastructural improvements, and other 
municipal actions.
    Additionally, when Hurricane Sandy hit, large sections of Jersey 
City, a hospital and City Hall had to be evacuated because of flooding. 
New Jersey Sea Grant experts put satellite data and imagery to work and 
engaged with city planners to design a resiliency plan that adapts the 
area's coastlines to mitigate and prevent similar disasters in future 
storms.
    These are a just a few of the many examples of Sea Grant's work 
across the Nation to help Americans who live, work and recreate on our 
shores to be safe, prosperous and resilient in the face a multitude of 
challenges.
    For the United States to be more responsive to the economic 
development potential of its coastal resources, improve coastal 
resilience, and balance the environmental challenges its coastal 
communities face, the Sea Grant Association is requesting Federal 
funding of $80 million in fiscal year 2016 for the research, education, 
and extension activities that make up the National Sea Grant College 
Program. This recommended funding level includes $10 million for an 
enhanced Sea Grant resiliency initiative that is consistent with NOAA's 
strategic priorities. The level of funding for the Sea Grant program is 
consistent with guidance provided in a prior report from the 
Subcommittee on Appropriations regarding strengthening the program and 
with pending authorization legislation.
What is the importance of the Nation's coastal communities?
    Nearly 130 million residents or 40 percent of the population of the 
United States live in counties immediately on our coastlines. Those 
coastal counties support 51 million jobs, and over 45 percent of the 
gross domestic product ($7 trillion dollars) of our Nation. Yet these 
same counties are highly vulnerable to challenges associated with 
natural and man-made disasters, changes in the natural resource base 
and ecosystem, and economic hard times, as we recently have seen with 
the devastating impacts of Hurricane Sandy in the northeast, the 
impacts of the BP oil spill in the Gulf of Mexico, depletion of 
fisheries stocks around the Nation, and growing strain on coastal 
infrastructure from sea level change. The resilience of our coastal 
communities, their economies and quality of life of their residents 
depends on how well prepared they are for these events. This includes 
how residents are able to prepare as well as where and how critical 
infrastructure and buildings are constructed in the coastal zone. 
Resilient communities have prepared residents, businesses and 
infrastructure that reduce the impacts of a myriad of risks to their 
lives and property and allow life to return to normal much more quickly 
than in communities that are not as prepared. They also have living 
coastal resources such as mangroves, oyster reefs, healthy barrier 
dunes and salt marshes that buffer waves and protect the shoreline from 
erosion during storms. Only through knowledge, understanding and 
preparation will coastal communities be able to prepare for and respond 
to the hazards that are uniquely concentrated in these coastal 
counties.
How has the National Sea Grant College Program contributed to the 
        economic health of the Nation's coastal communities in the 
        past?
    In 2014, the Sea Grant program delivered the following benefits to 
the Nation as a result of its activities:
  --$450 million in economic development;
  --6,500 businesses created or retained;
  --17,500 jobs created or retained;
  --290,000 volunteer hours for outreach;
  --760 undergraduate students supported;
  --980 graduate students supported;
  --53,000 stakeholders modify practices based on information and 
        technical assistance provided by Sea Grant;
  --220 communities implement new sustainable practices; and
  --21,700 acres of ecosystems restored.
What will the additional $10 million Sea Grant Community Resilience 
        initiative accomplish?
    Sea Grant has developed signature programs that have helped coastal 
communities across the Nation understand their risks, and respond to 
unexpected changes that affect their livelihoods. Sea Grant has 
developed locally relevant solutions that will increase community 
resilience. In some areas of the country, Sea Grant has implemented 
community resilience programs at a regional level, such as in the Gulf 
of Mexico, the Northeast and the Great Lakes.
    In other areas, programs have been developed at the State level, 
that have great potential to be rolled out nation-wide, yet this has 
not been fully realized due to a lack of resources. With the resources 
requested Sea Grant can:
  --Invest in research and unlock data and information to better 
        understand the projected impacts of severe weather and other 
        ecosystem changes and how we can better prepare our communities 
        and infrastructure;
  --Help communities plan and prepare for the impacts of severe weather 
        and encourage locally relevant measures that reduce future 
        risks;
  --Work with communities that have experienced unexpected events that 
        have impacted their economy with programs such as job 
        retraining or helping to develop new commercial infrastructure; 
        and
  --Support science and engineering research that produces breakthrough 
        technologies that increase the resilience of infrastructure to 
        coastal hazards.
What is Sea Grant's role in STEM Education?
    Sea Grant program provides an important mechanism that delivers 
high quality, stimulating STEM education to students using the oceans 
and coasts or the Great Lakes, as the vehicle for conveying important 
scientific and natural resource concepts. The support that Sea Grant 
provides is an important catalyst and helps create important 
educational partnerships in coastal communities. STEM education is 
mandated in the legislation Congress passed when it created Sea Grant 
and that mandate has been reaffirmed through subsequent funding 
legislation.
    SGA recognizes that the Nation is facing very tight fiscal 
constraints and suggests that where we have discretion, Federal funding 
ought to go to those programs that deliver economic, environmental, and 
education benefits to our citizens. The Sea Grant education programs do 
just that in a very cost effective manner. For that reason and because 
of the importance of the National Sea Grant College Program STEM 
education, and the role that it plays in the long term health of our 
State, we urge the subcommittee to continue to strongly oppose the 
elimination of Sea Grant STEM activities in the fiscal year 2016 
Commerce, Justice and Science appropriations bill.
How does the Sea Grant program make a difference?
    Approximately 95 percent of the Federal funding provided to Sea 
Grant leaves Washington and goes to the State programs where it is used 
to conduct research, carry out extension and outreach activities, and 
deliver valuable services to the Nation. Moreover, Federal funding 
through the Sea Grant program has a significant leveraging impact with 
every two Federal dollars invested attracting at least an additional 
dollar in non-Federal resources in mandatory matching funding. The 
National Sea Grant College Program is one of the very few nationally 
competitive grant programs that can demonstrate this kind of real 
impact at the local, State, and national levels.
    Since its creation in 1966, the National Sea Grant College Program 
has been at the forefront of addressing economic opportunities and 
environmental issues facing coastal communities through its research 
and outreach efforts. Sea Grant is user-driven and university-based, 
and it is fully and actively engaged with regional, State, and local 
organizations. Sea Grant helps America use its coastal resources wisely 
in order to sustain the health and productivity of coastal communities.
    With the $80 million in Federal funding, Sea Grant will leverage an 
additional $40 million to $80 million in State and local support, 
continue to increase the economic development and resiliency of our 
coastal communities, contribute to STEM education in our communities, 
and help sustain the health and productivity of the ecosystems on which 
they depend. The Sea Grant Association is grateful to the subcommittee 
for the opportunity to provide this information.
                                 ______
                                 
   Prepared Statement of Syracuse University, Department of Chemistry
    I am writing to you to with the strongest possible support for the 
National Institute of Standards and Technology (NIST) center for 
Neutron Research (NCNR). The NCNR serves a key role in the education of 
chemistry, physics, materials science and engineering graduate students 
in a field that is crucial to materials science and engineering. This 
increasingly includes biomedical areas. There is a chronic shortage of 
expertise in the area of neutron science in the United States due to 
very long term lack of major funding dating back to at least the 
1970's. The recent successful completion of the Spallation Neutron 
Source (SNS) at Oak Ridge National Laboratory (ORNL) goes a long way to 
providing a neutron facility that restores the United States to the 
first place in facility capability , superseding the ISIS facility in 
the U.K. A visit to SNS and a tour of the facility floor would 
immediately show that it is highly populated by persons from Europe. 
Europe has long held the premier position in this field and will regain 
this again with completion of the European Spallation Source (ESS) 
which is under construction in southwestern Sweden (http://
europeanspallationsource.se/ess-and-skanska-sign-contract-first-phase-
construction).
    The NCNR has a wide variety of instrument types (http://
www.ncnr.nist.gov/instruments/) providing leadership in novel 
instrument design and a very broad range of applications. The location 
of the NCNR in a major metropolitan area with ease of access from a 
large population center makes it an obvious choice for educational 
projects. I have had personal experience with this educational aspect 
of neutron research over a 15 year period. Over this period I was 
involved in dozens of trips with students, including graduate and 
undergraduate students from Syracuse University and others involved in 
summer undergraduate research. Many of these students now work in the 
neutron field. One of the undergraduates from SUNY Oswego switched his 
major to nuclear engineering and is now employed in that field. The 
broad range of instruments at NCNR provides an educational experience 
that is unique in terms of its broadening of a student's background 
beyond the text books into many fields.
    Neutrons provide a view of materials at the atomic level that is 
not possible with electromagnetic radiation. This due to several 
factors including the ability of neutrons to penetrate optically opaque 
materials, the strong variation of neutron scattering with nuclear 
isotope (H is different from D) and the fact that neutrons with thermal 
energy, and thus by definition with energy corresponding to molecular 
excitations, have wavelengths that are comparable to molecular sizes. 
This makes neutrons broadly applicable throughout engineering, 
manufacturing and medicine as well as basic materials science. Closure 
of NCNR at NIST could very well result in European dominance of this 
field in the very near future due to lack of a trained work force and 
thus threaten our economic independence.

            Sincerely,
                                   Bruce S. Hudson,
                 Professor, Chemistry, Syracuse University.
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission
    Mr. Chairman, and honorable members of the subcommittee, I am W. 
Ron Allen, the tribal commissioner and chair for the U.S. Section of 
the Pacific Salmon Commission (PSC). I am also tribal chairman/CEO of 
the Jamestown S'Klallam Tribe located on the northern Olympic Peninsula 
of Washington State in Sequim. The U.S .Section prepares an annual 
budget for implementation of the Pacific Salmon Treaty.
    Department of Commerce funding in support of implementing the 
Pacific Salmon Treaty is part of the Salmon Management Activities 
account in the National Marine Fisheries Service (NMFS) budget. Funding 
in the Department of Commerce budget are intended for the programs to 
fulfill national commitments created by the treaty was $11,181,426 in 
the 2014 budget. The U.S. Section estimates that a budget of 
$14,100,000 for fiscal year 2016 is needed to fully implement national 
commitments created by the treaty.
    The implementation of the treaty is funded through the Departments 
of Commerce, Interior and State. The Department of Commerce principally 
funds programs conducted by the States of Washington, Oregon, Idaho and 
Alaska and the National Marine Fisheries Service. The costs of the 
programs conducted by the States to fulfill national commitments 
created by the treaty are substantially greater than the funding 
provided in the NMFS budget in past years. Consequently the States have 
supplemented the Federal treaty appropriations from other sources 
including State general funds.
    The Pacific Salmon Treaty line Item of the National Marine 
Fisheries Service budget funded at $4,683,065 for fiscal year 2014 
provides base support for the States of Alaska, Washington, Oregon, and 
Idaho and the National Marine Fisheries Service to conduct the salmon 
stock assessment and fishery management programs required to implement 
the treaty's conservation and allocation provisions for coho, sockeye, 
Chinook, chum, and pink salmon fisheries. Effective, science-based 
implementation of negotiated salmon fishing arrangements and abundance-
based management approaches for Chinook, southern coho, Northern 
Boundary and Transboundary River salmon fisheries includes efforts such 
as increased annual tagging and tag recovery operations, harvest 
monitoring, genetic stock identification and other emerging stock 
identification techniques. The U.S. Section identified a need of 
$8,864,303 for fiscal year 2016 to fully carry out these activities.
    The Chinook Salmon Agreement line item in Salmon Management 
Activities funded at $1,601,697 in fiscal year 2014 represents a 
reduction of $235,000 for previous levels. This funding supports 
research and stock assessment necessary to acquire and analyze the 
technical information needed to fully implement the abundance-based 
Chinook salmon management program provided for by the treaty. The 
States of Alaska, Washington, Oregon, and Idaho, and the 24 treaty 
tribes conduct projects selected in a rigorous competitive process.
    The International Fisheries Commissions line, under Regional 
Councils and Fisheries Commissions in the NMFS budget funded at 
$358,879 and provides the U.S. contribution to bilateral cooperative 
salmon enhancement on the transboundary river systems which rise in 
Canada and flow to the sea through Southeast Alaska. This project was 
established in 1988 to meet U.S. obligations specified in the treaty 
and had been previously funded at $400,000 annually.
    The 2008 Agreement line supports programs for coded wire tag 
improvements and Puget Sound critical chinook stocks necessary to reach 
the agreement on revised fishery provisions between the U.S. and 
Canada. The level of funding needed for 2008 Agreement programs was 
$3,000,000 and the amount appropriated for fiscal year 2014 was 
$2,828,646. The U.S. Commissioners view continued funding of these 
programs in the fiscal year 2016 Federal budget as necessary to address 
Chinook salmon conservation needs and to meet existing treaty 
commitments.
    The core treaty implementation projects included in the Pacific 
Salmon Treaty line, and the U.S. Chinook Agreement line under Salmon 
Management Activities as well as the International Fisheries Commission 
line under Regional Councils and Fisheries Commissions consist of a 
wide range of stock assessment, fishery monitoring, and technical 
support activities for all five species of Pacific salmon in the 
fisheries and rivers between Cape Suckling in Alaska to Cape Falcon in 
Oregon. The States of Alaska, Washington, Oregon, Idaho, and the 
National Marine Fisheries Service (NMFS) conduct a wide range of 
programs for salmon stock abundance assessment, escapement enumeration, 
stock distribution, and fishery catch and effort information. The 
information is used to establish fishing seasons, harvest levels, and 
accountability to the provisions of treaty fishing regimes.
    Like many other programs, funding to implement the Pacific Salmon 
Treaty decreased in recent years. Prior to that, the base annual treaty 
implementation funding remained essentially flat since the inception of 
the treaty in 1985. In order to continue to fulfill the Federal 
commitments created by the treaty, as costs and complexity increased 
over time, the States had to augment Federal funding with other Federal 
and State resources. However, alternative sources of funding have seen 
reductions or in some cases have been eliminated.
    In addition to the recent budget reductions due to sequestration, 
NOAA changed the way administrative fees applied to the funding to 
implement the Pacific Salmon Treaty. Last year NOAA decided to apply an 
administrative fee to the treaty funding, after years of not charging 
administrative fees to this account. Administrative fees are applied at 
Commerce headquarters, National Marine Fisheries headquarters and at 
the regional levels. The result is less funding available for the 
activities to implement the treaty. While the U.S. Section understands 
the need for offices in the Department of Commerce to have appropriate 
funding for administrative activities, the change in the way 
administrative fees are applied compromises the efforts to successfully 
implement the treaty.
    The provisions of five annex chapters to the treaty expire on 
December 31, 2018. These chapters contain the specifics for 
implementing the treaty for each species in each geographic area. The 
renegotiation for revised annex chapters is underway. In order to 
ensure that the renegotiations are successfully completed, the programs 
in the National Marine Fisheries Service contained within the Salmon 
Management Activities account must be adequately funded. The 
consequences of not successfully completing the renegotiations will be 
increased to the health of the fish populations and the fisheries that 
depend on them.
    This concludes the statement of the U.S. Section of the Pacific 
Salmon Commission submitted for consideration by your committee. We 
wish to thank the subcommittee for the support given us to us in the 
past. Please let us know if we can supply additional information or 
respond to any questions the subcommittee members may have.
    Thank you.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR), I am pleased to submit this testimony to the Senate 
Appropriations Subcommittee on Commerce, Justice, Science and Related 
Agencies. UCAR is a consortium of over 100 research institutions, 
including 77 doctoral degree granting universities, which manages and 
operates the National Center for Atmospheric Research (NCAR) on behalf 
of the National Science Foundation (NSF).
    I urge the subcommittee to provide the maximum amount of support 
possible for the vital research and education programs administered by 
the NSF, the National Aeronautics and Space Administration (NASA), and 
the National Oceanic and Atmospheric Administration (NOAA) in fiscal 
year 2016. These essential research agencies fund atmospheric and 
fundamental science in hundreds of universities across the country, 
benefitting from the knowledge, expertise and innovation of our 
academic institutions. UCAR is proud to collaborate with and enhance 
the capabilities of this unparalleled American resource and it is our 
honor to be able to draw attention to the excellent atmospheric 
research that is done on campuses across the United States.
    UCAR has worked tirelessly to elevate the understanding of, and 
support for, the atmospheric sciences nationwide. The atmospheric 
science departments at our 105 member institutions are drivers of 
innovation and the fundamental scientific research that has pushed our 
understanding of weather, climate, space weather, atmosphere, and their 
interplay, into exciting and groundbreaking new areas. These advances 
have improved our ability to predict and understand some of the most 
dangerous phenomena that occur on our planet every day. Protection of 
life and property are the central drivers of this scientific innovation 
and discovery. However, more broadly, these innovations play a 
significant role in protecting our national security, our homeland, our 
businesses, our infrastructure and most importantly, our families and 
communities. As demand for information, prediction, and mitigation 
increase nationally and across the globe, it is the collaborative and 
exhaustive research being conducted in our universities and research 
laboratories that will answer this call and make our families, 
communities, businesses, and infrastructure better equipped and 
prepared to meet the challenges and dangers of living inside Earth's 
dynamic atmosphere.
    The challenges we face as we attempt to better understand our 
planet could not be faced without the strong support of the U.S. 
Congress, in particular this subcommittee, and the critical research 
agencies you fund each year. The economic impact of any single 
investigator's research is often difficult to quantify, however we know 
that investments in research and development (R&D) taken as a whole 
have an extremely high rate of return on investment. Economists 
studying the link between science funding and economic growth have 
found that innovation through R&D is the primary driver of growth over 
the long run. Nobel Prize winning MIT economist Robert Solow famously 
found that over half of increases in economic productivity can be 
attributed to new innovations and technologies. Another similar study 
that attempted to quantify the impact of R&D on economic growth found 
that increases in the level of research intensity in the United States 
and four other developed countries may have accounted for close to 50 
percent of U.S. economic growth between 1950 and 1993.
    The return on investments in the atmospheric sciences exemplifies 
how Federal R&D drives economic growth. The commercial weather industry 
leverages U.S. investments in weather observation, atmospheric 
research, and computer modeling to produce tailored products for a wide 
variety of clients, including the general public. There are now more 
than 350 commercial weather companies in the United States, generating 
nearly $3 billion in annual revenues. The growth rate of this industry 
is estimated to be about 10 percent per year. The vast majority of 
these innovations and technological advances are products of our 
academic institutions. Researchers, graduate students, and 
investigators at our universities are an astounding and innovative 
resource that, in light of the linkage between innovation and our 
economy, should be seen for what they are--our most valuable national 
asset. Across the country there is groundbreaking atmospheric science 
being done that will power our economy, save lives, protect our 
citizens, and impact every single American in a profound way.
    Innovations don't occur in a vacuum and the U.S. Congress has long 
recognized and supported the symbiotic and intertwined relationship 
between the academic, public, and private sectors with respect to 
research that drives advancement. Progress made in the atmospheric 
sciences is a reflection of this beneficial relationship and our 
Federal investments. UCAR actively facilitates and initiates 
partnerships between these sectors. For example, the development of new 
weather satellite technology in the COSMIC program. COSMIC is 
collaboration between UCAR, NASA, NSF, the U.S. Air Force (USAF), and 
the Government of Taiwan. COSMIC's micro satellites harness existing 
GPS satellite assets to provide atmospheric readings at a fraction of 
the cost of the much larger weather satellite programs, while providing 
greater resolution for our weather prediction models. This data can 
mitigate any potential weather data gap and will feed the current and 
future forecast models while greatly improving our ability to predict 
severe weather and track hurricanes. The research underpinning these 
advancements was done at Utah State University.
    Multipurpose Phase Array Radar (MPAR) is the future of ground based 
aviation radar and has very promising weather radar applications. MPAR 
will advance our real-time radar imagery and forecast ability well 
beyond the current Doppler radar platforms that we rely on every day. 
MPAR is being developed and tested for this application at NOAA's 
National Weather Radar Testbed (NWRT) based at the University of 
Oklahoma. This collaborative effort also involves the Massachusetts 
Institute of Technology (MIT) Lincoln Lab, the Federal Aviation 
Administration (FAA), and NOAA. Additional collaborations between the 
Georgia Institute of Technology and FAA will help to rapidly advance 
these applications, allowing for improved sever weather forecasting, 
including advances in tornado prediction and warning systems, which 
will save lives immediately.
    Researchers at Rice University using a computer code, known as the 
Rice Convection Model, successfully simulated an important class of 
aurora called ``growth phase arcs,'' which occur when solar wind 
interacts with the Earth's magnetosphere. Understanding the dynamics of 
Sun-Earth interactions are important aspects for improving our ability 
to comprehend and predict effects of space weather on Earth. These 
aurora events have enormous potential economic and national security 
impacts as they have the potential to destroy electrical grids, 
satellites, and the complex electrical and communications systems that 
we rely on in nearly every aspect of our lives.
    It has been shown that weather variability can cost the United 
States as much as 3 percent of our annual GDP, and risks lives both in 
the United States and globally. At Texas A&M, atmospheric scientists 
are expanding our understanding of how past climate regimes influenced 
weather. This knowledge will allow decision makers and emergency 
managers to be better prepared for and therefore potentially mitigate 
some of the risk and costs of extreme events. Another atmospheric 
scientist at Texas A&M, is using computer models to study how 
hurricanes behave in different climate conditions. This work will 
improve predictions about hurricane season strength and storm numbers. 
A Texas A&M professor and his research group are also working with 
scientists at the Naval Research Lab (NRL) to improve weather 
forecasting models by developing techniques that make better use of 
atmospheric observations, ultimately improving the forecasts our 
citizens, businesses, and military personnel rely on every day.
    Researchers associated with the National Drought Mitigation Center 
(NDMC), located at the University of Nebraska, Lincoln, are leading a 
4-year NASA-funded project to develop the Quick Drought Response Index, 
or ``QuickDRI.'' QuickDRI compliments the currently operational 
``VegDRI,'' which detects drought's effects on vegetation at time 
intervals of a month or less. The two programs will be used by the 
agriculture industry and farmers as tools to detect fast-onset or 
``flash'' drought. This collaboration includes input and support from 
the University of Maryland, the U.S. Department of Agriculture, the 
U.S. Geological Survey (USGS), the High Plains Regional Climate Center 
(HPRCC), and NASA's Goddard Space Flight Center. These models will 
cover the entire mainland U.S. and be a valuable tool in future drought 
prediction and mitigation.
    The NCAR-Wyoming Supercomputing Center (NWSC) provides advanced 
computing services to scientists studying a broad range of disciplines, 
including weather, climate, oceanography, air pollution, space weather, 
computational science, energy production, and carbon sequestration. The 
supercomputer is a national resource located in Cheyenne, Wyoming. 
Using this tool, University of Wyoming (UW) researchers are working on 
a NSF funded project in collaboration with Brigham Young University, 
Utah University, and Utah State University that is producing a 
comprehensive model of the upper Colorado River Basin. This model will 
be 100 times higher resolution than is currently available and it will 
play a vital role in policy and management decisions regarding the 
basin's water--water that supports over 30 million people in North 
America.
    The NWSC is also used by UW researchers in a Department of Energy 
(DOE) funded project that is creating a computational platform to 
simulate (including effects of complex terrain) an entire windfarm 
installation of 100 turbines or more. This model will to improve wind 
farm siting decisions and wind turbine designs. With NASA support, UW 
is also developing algorithms, which incorporate geographic and weather 
profiles, to more efficiently design wind turbines and arrays. These 
technologies will maximize design efficiency and allow private power 
companies and their consumers to reap the cost savings from cheaper 
energy production.
    Scientists from Scripps Institution of Oceanography at UC San 
Diego, NOAA, DOE, NASA, the California Department of Water Resources 
and other agencies are studying the phenomena of ``atmospheric 
rivers.'' These ``rivers'' of clouds flow through the sky and can 
contain water vapor in excess of 10 times the flow of the lower 
Mississippi River. Researchers are trying to better understand the role 
atmospheric rivers play in drought ending precipitation events and how 
the composition of aerosols, which can be natural or man-made, 
influence the amount of rain and snow that these clouds release. This 
research will lead to improved forecasting that can help water managers 
in California and other drought afflicted States plan for precipitation 
events that can cause damaging floods and potentially refill 
reservoirs.
    The University of Alabama, Huntsville (UAH) and the NASA Marshall 
Space Flight Center (MSFC) have entered into a partnership to form the 
Global Hydrology and Climate Center (GHCC). The GHCC ``Lightning Team'' 
has been investigating the causes and effects of lightning as well as 
analyzing a wide variety of atmospheric measurements related to 
thunderstorms. The primary objective of this research group is to 
determine the relationship between the electrical characteristics of 
storms and precipitation, convection, and severe weather. In order to 
achieve this objective, the GHCC Lightning Team has designed, 
constructed and deployed numerous types of ground based, airborne, and 
space based sensors used to detect lightning and characterize the 
electrical behavior of thunderstorms. Understanding of the science that 
occurs in thunderstorms and lightning storms will improve our ability 
to predict, prepare for, and perhaps prevent the causes of lightning 
strikes; potentially saving lives and protecting property.
    Members of the subcommittee I offer these examples not only to 
highlight the extraordinary work done by UCAR's member institutions but 
also to illustrate the fundamental role that this subcommittee plays in 
providing the resources that enable our most valuable national asset, 
our university researchers, to answer our most pressing and important 
questions. As Edward Teller, American physicist and member of the 
Manhattan Project said, ``The science of today is the technology of 
tomorrow.'' With this in mind, I again urge you on behalf of our member 
universities, scientists, students, and all those that rely on the 
products and ideas born from the investments that this subcommittee 
makes in our scientific communities, to continue to recognize the value 
and return on investment that scientific R&D has provided, and will 
continue to provide, this great country.






       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

American:
    Geophysical Union, Prepared Statement of the.................   253
    Geosciences Institute, Prepared Statement of the.............   255
Association of:
    Public and Land-Grant Universities' Board on Oceans, 
      Atmosphere, and Climate, Prepared Statement of the.........   257
    Science-Technology Centers, Prepared Statement of the........   259
    Zoos and Aquariums, Prepared Statement of the................   262

Baldwin, Senator Tammy, U.S. Senator From Wisconsin, Questions 
  Submitted by..................................................59, 128
Bolden, Hon. Charles F., Jr., Administrator, National Aeronautics 
  and Space Administration:
    Prepared Statement of........................................   163
    Questions Submitted to.......................................   185
    Statement of.................................................   159
    Summary Statement of.........................................   161
Boozman, Senator John, U.S. Senator From Arkansas, Questions 
  Submitted by..............................45, 124, 133, 139, 148, 231

Capito, Senator Shelley Moore, U.S. Senator From West Virginia, 
  Questions Submitted by.........................................    46
Cochran, Senator Thad, U.S. Senator From Mississippi, Statement 
  of.............................................................   161
Collins, Senator Susan M., U.S. Senator From Maine, Questions 
  Submitted by..................................................42, 227
Comey, Hon. James B., Director, Federal Bureau of Investigation:
    Prepared Statement of........................................    70
    Questions Submitted to.......................................   119
    Statement of.................................................    65
    Summary Statement of.........................................    68
Consortium for Ocean Leadership, Prepared Statement of the.......   264
Coons, Senator Christopher A., U.S. Senator From Delaware, 
  Questions Submitted by.......................................185, 250

Department of Justice--Joint Law Enforcement Task Forces, 
  Questions Submitted to.........................................   153

Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by........................................54, 240
Fish Locally Collaborative, Prepared Statement of the............   268

Hylton, Hon. Stacia A., Director, United States Marshals Service:
    Prepared Statement of........................................    79
    Questions Submitted to.......................................   130
    Statement of.................................................    77

Joint:
    Law Enforcement Task Forces, Department of Justice, Questions 
      Submitted to...............................................   153
    Ocean Commission Initiative, Prepared Statement of the.......   270
Jones, Hon. B. Todd, Director, Bureau of Alcohol, Tobacco, 
  Firearms and Explosives:
    Prepared Statement of........................................    91
    Questions Submitted to.......................................   146
    Statement of.................................................    89

Kirk, Senator Mark, U.S. Senator From Illinois, Questions 
  Submitted by..................................119, 132, 137, 147, 228

Lankford, Senator James, U.S. Senator From Oklahoma, Questions 
  Submitted by...................................................    49
Leahy, Senator Patrick J., U.S. Senator From Vermont:
    Questions Submitted by...........................125, 134, 144, 151
    Senate Judiciary Questions for the Record From 2014..........   128
Leonhart, Hon. Michele M., Administrator, Drug Enforcement 
  Administration:
    Prepared Statement of........................................    84
    Questions Submitted to.......................................   136
    Statement of.................................................    83
Lynch, Hon. Loretta E., Attorney General, Department of Justice:
    Prepared Statement of........................................   194
    Questions Submitted to.......................................   221
    Statement of.................................................   187
    Summary Statement of.........................................   191

Mikulski, Senator Barbara A., U.S. Senator From Maryland:
    Questions Submitted by...........................119, 131, 153, 221
    Statements of.......................................3, 67, 160, 189
Murkowski, Senator Lisa, U.S. Senator From Alaska, Questions 
  Submitted by...................................................    35

National:
    Association of Marine Laboratories, Prepared Statement of the   273
    Congress of American Indians, Prepared Statement of the......   277
    Estuarine Research Reserve Association, Prepared Statement of 
      the........................................................   278
    Marine Sanctuary Foundation, Prepared Statement of the.......   280
    Weather Service Employees Organization, Prepared Statement of 
      the........................................................   284
Nature Conservancy, Prepared Statement of the....................   286
Northwest Indian Fisheries Commission, Prepared Statement of the.   289

Ocean Conservancy, Prepared Statement of.........................   292

Population Association of America/Association of Population 
  Centers, Prepared Statement of the.............................   294
Pritzker, Hon. Penny, Secretary, Department of Commerce:
    Prepared Statement of........................................     6
    Questions Submitted to.......................................    34
    Statement of.................................................     1
    Summary Statement of.........................................     4

Restore America's Estuaries, Prepared Statement of...............   296

Sea Grant Association, Prepared Statement of the.................   299
Senate Judiciary Questions for the Record from 2014..............   128
Shelby, Senator Richard C., U.S. Senator From Alabama:
    Opening Statements of...............................1, 65, 159, 187
    Questions Submitted by............................34, 130, 136, 146
Syracuse University, Department of Chemistry, Prepared Statement 
  of.............................................................   301

United States Section of the Pacific Salmon Commission, Prepared 
  Statement of the...............................................   302
University Corporation for Atmospheric Research, Prepared 
  Statement of the...............................................   303









                             SUBJECT INDEX

                              ----------                              

          BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES

                                                                   Page
ATF:
    Drones.......................................................   152
    Fire Investigations..........................................   149
    Integration of Department of Justice Policies................   102
    Martinsburg, West Virginia Facility..........................   111
    Modernization................................................   150
    Surveillance Technology......................................   151
Bureau of Alcohol, Tobacco, Firearms and Explosives.............99, 146
Comment Period on the Exempt Framework for Armor Piercing 
  Ammunition.....................................................   108
Drug Enforcement Administration................................100, 136
Exempt Framework for Armor Piercing Ammunition...................    93
Federal:
    Bureau of Investigation....................................101, 119
    Firearms Licensees (FFL) Inspection Protocol.................   150
    Task Force Operations........................................   153
        Steps Taken To Provide Proper Training:
            ATF..................................................   154
            DEA..................................................   154
            FBI..................................................   153
            USMS.................................................   155
        Training Certifications:
            ATF..................................................   155
            DEA..................................................   155
            FBI..................................................   155
            USMS.................................................   155
        Types of Training and Misconduct Procedures:
            ATF..................................................   157
            DEA..................................................   157
            FBI..................................................   156
            USMS.................................................   157
Fertilizer Distribution Facility Fire and Explosion Investigation   146
Fiscal Year 2016 Budget Request..................................    92
Heroin...........................................................   112
Local Participation in the eTrace Program........................   149
Martinsburg Facility and the National Firearms Act Backlog.......   151
National:
    Center for Explosives Training and Research..................    94
    Integrated Ballistic Information Network...................147, 148
The Exempt Framework for Armor Piercing Ammunition...............    93
United States Marshals Service.................................101, 130
Violence Reduction Network................................106, 115, 148
                               __________

            DEPARTMENT OF COMMERCE--OFFICE OF THE SECRETARY

Administrative Procedure Act.....................................    49
American Community Survey........................................    54
Aquaculture and Milford, Connecticut Lab.........................    23
Arctic Policy....................................................    35
ASR Analytics Report:
    Key Findings.................................................    48
    Social and Economic Impacts of $4 Billion in Recovery Act 
      Grants Awarded by NTIA.....................................    48
Broadband:
    Access.......................................................    25
    Opportunity Council..........................................    47
    Technology Opportunities Program (BTOP)..............46, 47, 48, 49
BroadbandUSA Initiative..................................46, 47, 48, 49
California Department of:
    Boating and Waterways (CDBW).................................    59
    Water Resources (CDWR).......................................    57
Cape Cod Bay Critical Habitat Area...............................    43
Census...........................................................    26
China'a Currency Manipulation and the State of Maine's Paper 
  Manufacturing Industry.........................................    43
Commerce:
    Between the United States and Cuba...........................    19
    Patent:
        Protections..............................................    62
        Reform...................................................    62
    Reorganization...............................................    63
    Trade Promotion Coordinating Committee.......................    61
Currency Undervaluation Investigation Act........................    43
Cybersecurity....................................................    34
Delta Restoration and Planning Efforts Underway..................    57
DOD-Led Manufacturing Institutes.................................    12
Electronic Monitoring............................................    39
Export:
    Assistance Program:
        Small and Medium Size Businesses.........................    24
    Control......................................................    21
    Import Bank Reauthorization Act of 2012: Every Reform 
      Completed--Section-by-Section Analysis.............49, 50, 51, 52
Fish Restoration Program (FRP)...................................56, 57
Fisheries........................................................    27
    Finance Program..............................................    40
Fishing Revisited................................................    22
Global Markets...................................................    53
Great South Channel Critical Habitat Area........................    43
Herbert C. Hoover Building Renovation............................25, 32
High-Risk Contracts..............................................    54
Hydrographic Charting & Ocean Survey Vessel......................    38
Inspector General's Offices......................................    45
    Audit Report ``The Department's Awarding and Administering of 
      Time-and-Materials Contracts Needs Improvement''...........    54
International Trade:
    Administration...............................................    53
    Enforcement Center Program...................................    17
Internet Corporation for Assigned Names and Numbers..............18, 31
Maine's Jobs in the Paper Manufacturing Industry.................    43
    China's Currency Manipulation................................    43
Manchester, Washington Lab--NOAA's Shellfish Research............    23
Manufacturing....................................................    30
Marine Mammal Deterrence Guidelines..............................    40
Milford, Connecticut Lab--NOAA's Shellfish Research..............    23
National:
    Institutes of Standards......................................    13
    Marine Fisheries Service.........................55, 56, 57, 58, 59
        Delta Restoration and Planning Efforts Underway..........    57
        Southwest Fisheries Science Center (SWFSC)...............    58
    Network for Manufacturing Innovation.........................11, 23
    Strategy for the Arctic Region...............................    36
    Telecommunications and Information Administration (NT46, 47, 48, 49
        Internet DNS Governance..................................    49
        State Broadband Initiative...............................    46
NOAA:
    Aquaculture..................................................    59
    Breach of Information Systems................................    44
    Coastal Resilience in the Great Lakes........................    60
    Efforts Regarding Salmonid Populations.......................    54
    Fleet Capitalization Plan....................................    29
    High Performance Computing...................................    60
    Management of Fishing........................................    20
    Regional Coastal Resilience Grants...........................    60
    Research Vessels.............................................    28
    Satellites...................................................    12
    Shellfish Research:
        Manchester, Washington Lab...............................    23
        Milford, Connecticut Lab.................................    23
    Steps Taken Since the Issuance of the 2009 Biological Opinion 
      to Test and/or Implement Physical and Non-Physical Barriers 
      in the Delta...............................................    58
    Steps to Improve Salmon Recovery Efforts:
        Budget...................................................    56
        Central Valley/State Water Project ESA Review and 
          Permitting.............................................    56
        Drought..................................................    55
        ESA Administration for the Broader Suite of Actions 
          Across the Entire Central Valley/San Joaquin Geography.    56
        Fisheries................................................    55
        Habitat..................................................    55
        Hatcheries...............................................    55
        Monitoring and Technical Support.........................    56
        Recovery Partner Collaboration...........................    56
        Salmon Loss in Colusa Basin..............................    55
    Vessel.......................................................    35
North Atlantic Right Whales......................................    43
Ocean Acidification..............................................    40
Penobscot River Restoration Trust................................    42
Polar Follow-on Satellite Program................................     9
Predator Fish and Predator Removal...............................    57
President's New Proposed Trade Department........................    53
Product Promotion Overseas.......................................    53
Ringed Seals.....................................................    37
Southwest Fisheries Science Center (SWFSC).......................    58
Spurring Innovation, Growth and Competitiveness..................     7
    Fueling a Data-Driven Economy................................     8
    Gathering and Acting on Environmental Intelligence...........     8
    Improving Federal Statistical Measures.......................     8
    Spurring Innovation for American Businesses..................     8
    Streamlining Operations......................................     9
    Strengthening U.S. Manufacturing.............................     7
    Supporting:
        21st Century Economic Development........................     7
        Digital Economy..........................................     8
Steller Sea Lions................................................    41
Steps to Improve the Use and Management of High-Risk Contracts...    54
Strengthening U.S. Trade and Investment..........................     6
The Census.......................................................    26
Unfair Subsidies.................................................    15
U.S. Trade Representative's Office...............................    44
Water Hyacinth Control Program (WHCP)............................    59
West Coast Port Slowdown.........................................    45
West Virginia:
    Broadband Strategic Plan (http://www.wvgs.wvnet.edu/bb/
      reports.php)...............................................    46
    Infrastructure Grant.........................................    47
World Trade Organization Trade Remedy Rules......................    44
                               __________

         DEPARTMENT OF JUSTICE--OFFICE OF THE ATTORNEY GENERAL

Addressing Gaps in Critical Department Infrastructure............   199
Ammunition Ban...................................................   237
Assets Forfeiture Fund...........................................   236
Becoming Smarter on Crime........................................   197
Body Cameras.....................................................   223
Border Tunnels...................................................   240
Cell Phone Detection Technology in Federal Prisons...............   228
    Light Urban Sites Surveys and Deployments....................   228
    Metropolitan Sites Surveys and Deployments...................   228
    Rural Sites Surveys and Deployments..........................   228
Children's Advocacy Centers......................................   214
Citizen Safety...................................................   231
Collaborative Reform Initiative..................................   215
Combatting:
    Gangs........................................................   228
    Heroin.......................................................   222
Community Policing...............................................   241
    Civil Rights Division........................................   243
    Community Relations Service..................................   244
    Office of:
        Community Oriented Policing Services.....................   241
        Justice Programs.........................................   242
            Byrne Criminal Justice Innovation Program............   243
                Alameda County, California (Fiscal Year 2014 
                  Planning & Implementation).....................   243
                Milwaukee, Wisconsin (Fiscal Year 2012 Planning & 
                  Implementation)................................   243
                Providence, Rhode Island (Fiscal Year 2013 
                  Planning & Implementation).....................   243
            Community Policing:
                Project Safe Neighborhoods.......................   242
                Smart Policing Initiative........................   242
            Procedural Justice--Building Community Trust Program.   243
Convicted Felons Possessing Firearms.............................   239
Crime Data Reporting.............................................   224
Current Estimated Costs to Implement a Viable Cell Phone 
  Detection Technology in Federal Prisons........................   228
    Light Urban Sites Surveys and Deployments....................   228
    Metropolitan Sites Surveys and Deployments...................   228
    Rural Sites Surveys and Deployments..........................   228
Cyber Security...................................................   236
Daniel Chong Detention by DEA....................................   244
Drug:
    Addiction....................................................   233
    Courts.......................................................   219
Elder Fraud......................................................   207
Enforcing Immigration Laws.......................................   198
FBI Testimony....................................................   250
FCI Danbury......................................................   211
Financial Fraud..................................................   201
FISA Section 215.................................................   206
Gang Violence....................................................   204
Grant Programs...................................................   202
Guantanamo Bay Detainees.........................................   227
Heroin...............................................206, 214, 217, 219
Immigration......................................................   199
    Court Program................................................   238
        Immigration Judge Teams/Immigration Court Support........   238
        Information Technology Modernization.....................   238
        Legal Orientation Program................................   238
        Legal Representation for Unaccompanied Children..........   238
Improving Responses to Violent Crime, Illicit Drugs, and Health 
  Care Fraud.....................................................   198
Inaccurate Forensic Testimony....................................   250
Investing in State, Local and Tribal Assistance Programs that 
  Work...........................................................   198
Legal Orientation Program........................................   239
Lost and Stolen Guns Rider.......................................   244
Maintaining Safe and Secure Prison and Detention Facilities......   197
Meth Lab Clean Up................................................   210
Monitoring Social Media for Threats..............................   229
National Background Check System.................................   212
NCS-X Program:
    Chart Outlining the Total Estimated Costs of $112 Million....   225
        State UCR Program Support................................   225
        Support to the 400 Local Law Enforcement Agencies in the 
          NCS-X Sample...........................................   226
        Training:
            NIBRS................................................   225
            Support for Local Agencies...........................   225
New Technology to Disrupt Gang Networks..........................   228
Prescription Drug Wholesaler Requirements........................   210
Prison Population................................................   218
Protecting:
    American People from Terrorism and other National Security 
      Threats....................................................   195
    Civil Rights.................................................   196
Regional Information Sharing System..............................   220
Restitution for Trafficking Victims..............................   245
Sentencing Reform................................................   205
Shutting Down Human Trafficking Web Sites........................   229
Stopping Human Trafficking and Pedophiles........................   221
Transfer of Foreign Detainees....................................   227
Tribal Law Enforcement...........................................   213
Using Innovative Technology to Combat Human Trafficking..........   230
Veterans Administration Investigation............................   208
Violence Reduction Network.....................................215, 232
Violent Crime....................................................   217
                               __________

                    DRUG ENFORCEMENT ADMINISTRATION

Asset Forfeiture Fund Funding to DEA and State and Locals........   143
Bureau of Alcohol, Tobacco, Firearms and Explosives.............99, 146
Controlled Substances Act........................................   138
    DaTscan......................................................   138
De-Confliction and Information Sharing...........................    87
    De-Confliction Systems.......................................    87
    El Paso Intelligence Center..................................    87
DEA:
    Organized Crime Gang Unit within the Special Operations 
      Division...................................................   137
    Task Forces..................................................    96
    Surveillance Technology......................................   144
Drug:
    Abuse........................................................   114
    Enforcement Administration.................................100, 136
Federal:
    Bureau of Investigation....................................101, 119
    Task Force Operations........................................   153
        Steps Taken To Provide Proper Training:
            ATF..................................................   154
            DEA..................................................   154
            FBI..................................................   153
            USMS.................................................   155
        Training Certifications:
            ATF..................................................   155
            DEA..................................................   155
            FBI..................................................   155
            USMS.................................................   155
        Types of Training and Misconduct Procedures:
            ATF..................................................   157
            DEA..................................................   157
            FBI..................................................   156
            USMS.................................................   157
Fiscal year 2016 Budget Request..................................    86
Heroin..........................................................95, 112
High Intensity Drug Trafficking Areas............................   107
Interagency Heroin Task Force....................................    97
International Drug Enforcement...................................    86
    Bilateral Investigations Units...............................    87
    Priorities...................................................   136
    Sensitive Investigative Units................................    86
Meth Labs........................................................   142
National Security................................................    87
Prescription:
    Drug Abuse...................................................   112
    And Synthetic Drug Abuse.....................................   139
        Education................................................   139
        Enforcement..............................................   141
        Monitoring...............................................   140
        Proper Medication Disposal...............................   141
        Synthetic Drugs..........................................   142
Task Force Success Stories.......................................    97
    Florida......................................................    97
    Maryland.....................................................    97
    Pennsylvania.................................................    97
United States Marshals Service.................................101, 130
Veterans Administration..........................................   113
                               __________

                    FEDERAL BUREAU OF INVESTIGATION

Background Checks................................................   105
Bureau of Alcohol, Tobacco, Firearms and Explosives..............   146
Combating Terrorist Groups.......................................   119
Criminal Justice Information Services............................   110
Drug Enforcement Administration..................................   136
Federal:
    Bureau of Investigation....................................101, 119
        Surveillance Technology..................................   125
        Whistleblowers GAO Report................................   124
    Task Force Operations........................................   153
        Steps Taken To Provide Proper Training:
            ATF..................................................   154
            DEA..................................................   154
            FBI..................................................   153
            USMS.................................................   155
        Training Certifications:
            ATF..................................................   155
            DEA..................................................   155
            FBI..................................................   155
            USMS.................................................   155
        Types of Training and Misconduct Procedures:
            ATF..................................................   157
            DEA..................................................   157
            FBI..................................................   156
            USMS.................................................   157
Fiscal Year 2016 Budget Request Overview.........................    71
Human Trafficking................................................   104
    Legislation..................................................   124
ISIS Cyber Hacking...............................................   124
Key Cross-Cutting Capabilities and Capacities....................    75
    Intelligence.................................................    75
    Operational and Information Technology.......................    75
Key Threats and Challenges.......................................    71
    Countering:
        Foreign Intelligence and Espionage.......................    72
        Terrorism................................................    71
    Crimes Against Children......................................    74
    Cyber-based Threats..........................................    73
    Gangs/Violent Crime..........................................    74
    Public Corruption............................................    73
    Transnational Organized Crime................................    74
Memorandum on Unmanned Aircraft Systems..........................   128
National:
    Center for Explosives Training and Research..................    94
    Gang Intelligence Center (NGIC)..............................   120
Online Sex Trafficking...........................................   121
President's Task Force on 21st Century Policing..................   128
Privacy Impact Assessment........................................   127
Senate Judiciary Questions for the Record from 2014..............   128
Stopping Human Trafficking and Pedophiles........................   119
Terrorist Explosive Device Analytical Center.....................    94
United States Marshals Service.................................101, 130
                               __________

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

Commercial Crew:
    Milestone Schedule Delays....................................   182
    Program Milestone Schedule Delays............................   183
    Transportation Capability (CCTCAP) Contracts.................   184
Diversifying Technology..........................................   181
Diversity of NASA Scientists and Engineers (As of April 2015)....   175
Diversity Statistics.............................................   176
    Explanation of Terms and Acronyms:
        AAPI.....................................................   175
        AIAN.....................................................   175
        AST......................................................   175
        RCLF.....................................................   175
        RNO......................................................   176
        SES......................................................   176
        SL.......................................................   176
        ST.......................................................   176
    NASA:
        AST Physical Scientists by RNO vs. the RCLF..............   178
        Engineers by:
            Gender Compared to Relevant Civilian Labor Force 
              (RCLF).............................................   176
            Race/National Origin (RNO) Compared to Relevant 
              Civilian Labor Force (RCLF)........................   176
        Fiscal Year 2015 Aerospace Technologist (AST):
            Engineers by:
                Gender vs. the RCLF..............................   179
                RNO vs. the Relevant Civilian Labor Force (RCLF).   178
            Physical Scientists by Gender vs. the RCLF...........   179
        Physical Scientists by:
            Gender Compared to Relevant Civilian Labor Force 
              (RCLF).............................................   176
            Race/National Origin Compared to Relevant Civilian 
              Labor Force (RCLF).................................   176
        Senior Aerospace Technologists (AST) Positions by:
            Gender.............................................177, 180
            Race/National Origin.................................   177
            RNO..................................................   180
Engine Testing Infrastructure....................................   173
Fiscal Year 2016 President's Budget Request Summary..............   167
    Aeronautics..................................................   167
    Construction and Environmental Compliance and Restoration....   167
        Construction of Facilities...............................   167
        Environmental Compliance and Restoration.................   167
    Education....................................................   167
    Exploration..................................................   167
        Commercial Spaceflight...................................   167
        Research and Development.................................   167
        Systems Development......................................   167
    Inspector General............................................   167
    Safety, Security, and Mission Services.......................   167
        Agency Management and Operations.........................   167
        Center Management and Operations.........................   167
    Science......................................................   167
        Astrophysics.............................................   167
        Earth Science............................................   167
        Heliophysics.............................................   167
        James Webb Space Telescope...............................   167
        Planetary Science........................................   167
    Space:
        Operations...............................................   167
            International Space Station..........................   167
            Space and Flight Support.............................   167
        Technology...............................................   167
Goddard Space Flight Center Budget...............................   170
Independent Verification and Validation (IV&V) Facility..........   174
International Partners...........................................   170
James Webb Space Telescope (JWST)..............................169, 181
NASA's Relationship With Russia..................................   169
National Space Access Needs......................................   186
President's Budget Request Summary Fiscal Year 2016..............   167
    Aeronautics..................................................   167
    Construction and Environmental Compliance and Restoration....   167
        Construction of Facilities...............................   167
        Environmental Compliance and Restoration.................   167
    Education....................................................   167
    Exploration..................................................   167
        Commercial Spaceflight...................................   167
        Research and Development.................................   167
        Systems Development......................................   167
    Inspector General............................................   167
    Safety, Security, and Mission Services.......................   167
        Agency Management and Operations.........................   167
        Center Management and Operations.........................   167
    Science......................................................   167
        Astrophysics.............................................   167
        Earth Science............................................   167
        Heliophysics.............................................   167
        James Webb Space Telescope...............................   167
        Planetary Science........................................   167
    Space:
        Operations...............................................   167
            International Space Station..........................   167
            Space and Flight Support.............................   167
        Technology...............................................   167
Russian Seat Solicitation........................................   183
Satellite Servicing..............................................   171
Space:
    Exploration Program..........................................   172
    Launch System Test Launch....................................   167
Spaceport Launch Pad 0...........................................   185
Upper Stage Engine...............................................   168
                               __________

                     UNITED STATES MARSHALS SERVICE

Adam Walsh:
    Act Funding..................................................   130
    Child Protection and Safety Act Enforcement..................    80
Adjustments to Base..............................................    81
Assets Forfeiture Fund vs Federal Prisoner Detention Funds to 
  Sustain Costs..................................................   133
Bureau of Alcohol, Tobacco, Firearms and Explosives.............99, 146
Counter Gang Units...............................................   132
Courthouse Renovation............................................    81
Detention........................................................    81
Drug Enforcement Administration................................100, 136
Federal:
    Bureau of Investigation....................................101, 119
    Task Force Operations........................................   153
        Steps Taken To Provide Proper Training:
            ATF..................................................   154
            DEA..................................................   154
            FBI..................................................   153
            USMS.................................................   155
        Training Certifications:
            ATF..................................................   155
            DEA..................................................   155
            FBI..................................................   155
            USMS.................................................   155
        Types of Training and Misconduct Procedures:
            ATF..................................................   157
            DEA..................................................   157
            FBI..................................................   156
            USMS.................................................   157
Fiscal year 2016 Program Increases...............................    80
Gang Enforcement.................................................    81
Law Enforcement Safety Training..................................    80
Prisoner Detention Population....................................   103
Stopping Human Trafficking and Pedophiles........................   131
United States Marshals Service.................................101, 130
    Special Operations Group.....................................   133
        Notable:
            Domestic Operations..................................   133
                Boston Marathon Bomber...........................   133
                Capture of Eric Frein............................   133
                Ferguson, Missouri...............................   133
                Gang Enforcement.................................   133
                Heroin...........................................   133
                Libyan Terrorist Abu Khatallah...................   133
            International Operations.............................   134
                Afghanistan......................................   134
                Colombia.........................................   134
                Iraq.............................................   134
                Kenya............................................   134
                Mexico...........................................   134
                SOG:
                    Protection for the U.S. Drug Czar............   134
                    Support of Office of National Drug Control 
                    Policy.......................................   134
    Surveillance Technology......................................   134

                                   [all]
                                   
                                   
                                   
                                   
                                   
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
